<html>
<title> - DEPARTMENT OF DEFENSE APPROPRIATIONS FOR 1998</title>
<body><pre>[House Hearing, 105 Congress]
[From the U.S. Government Publishing Office]



             DEPARTMENT OF DEFENSE APPROPRIATIONS FOR 1998

_______________________________________________________________________

                                HEARINGS

                                BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                       ONE HUNDRED FIFTH CONGRESS
                              FIRST SESSION
                                ________
                    SUBCOMMITTEE ON NATIONAL SECURITY
                   C. W. BILL YOUNG, Florida, Chairman
 JOSEPH M. McDADE, Pennsylvania      JOHN P. MURTHA, Pennsylvania
 BOB LIVINGSTON, Louisiana           NORMAN D. DICKS, Washington
 JERRY LEWIS, California             W. G. (BILL) HEFNER, North Carolina
 JOE SKEEN, New Mexico               MARTIN OLAV SABO, Minnesota
 DAVID L. HOBSON, Ohio               JULIAN C. DIXON, California
 HENRY BONILLA, Texas                PETER J. VISCLOSKY, Indiana        
 GEORGE R. NETHERCUTT, Jr., 
Washington
 ERNEST J. ISTOOK, Jr., Oklahoma
 RANDY ``DUKE'' CUNNINGHAM, 
California                          
          
 NOTE: Under Committee Rules, Mr. Livingston, as Chairman of the Full 
Committee, and Mr. Obey, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.
 Kevin M. Roper, John G. Plashal, David F. Kilian, Alicia Jones, Juliet 
  Pacquing,P Gregory J. Walters, Patricia Ryan, Doug Gregory, Paul W. 
       Juola, Tina Jonas, andP Steven D. Nixon, Staff Assistants
       Stacy A. Trimble and Jennifer Mummert, Administrative Aides
                                ________
                                 PART 3
                                                                   Page
 Personnel Quality of Life Issues.................................    1
 Medical Programs.................................................  149
 Readiness of United States Forces................................  291
                                ________

         Printed for the use of the Committee on Appropriations

                                ________
                     U.S. GOVERNMENT PRINTING OFFICE
 77-485                     WASHINGTON : 2002




                      COMMITTEE ON APPROPRIATIONS

                   BOB LIVINGSTON, Louisiana, Chairman

 JOSEPH M. McDADE, Pennsylvania      DAVID R. OBEY, Wisconsin
 C. W. BILL YOUNG, Florida           SIDNEY R. YATES, Illinois
 RALPH REGULA, Ohio                  LOUIS STOKES, Ohio
 JERRY LEWIS, California             JOHN P. MURTHA, Pennsylvania
 JOHN EDWARD PORTER, Illinois        NORMAN D. DICKS, Washington
 HAROLD ROGERS, Kentucky             MARTIN OLAV SABO, Minnesota
 JOE SKEEN, New Mexico               JULIAN C. DIXON, California
 FRANK R. WOLF, Virginia             VIC FAZIO, California
 TOM DeLAY, Texas                    W. G. (BILL) HEFNER, North Carolina
 JIM KOLBE, Arizona                  STENY H. HOYER, Maryland
 RON PACKARD, California             ALAN B. MOLLOHAN, West Virginia
 SONNY CALLAHAN, Alabama             MARCY KAPTUR, Ohio
 JAMES T. WALSH, New York            DAVID E. SKAGGS, Colorado
 CHARLES H. TAYLOR, North Carolina   NANCY PELOSI, California
 DAVID L. HOBSON, Ohio               PETER J. VISCLOSKY, Indiana
 ERNEST J. ISTOOK, Jr., Oklahoma     THOMAS M. FOGLIETTA, Pennsylvania
 HENRY BONILLA, Texas                ESTEBAN EDWARD TORRES, California
 JOE KNOLLENBERG, Michigan           NITA M. LOWEY, New York
 DAN MILLER, Florida                 JOSE E. SERRANO, New York
 JAY DICKEY, Arkansas                ROSA L. DeLAURO, Connecticut
 JACK KINGSTON, Georgia              JAMES P. MORAN, Virginia
 MIKE PARKER, Mississippi            JOHN W. OLVER, Massachusetts
 RODNEY P. FRELINGHUYSEN, New Jersey ED PASTOR, Arizona
 ROGER F. WICKER, Mississippi        CARRIE P. MEEK, Florida
 MICHAEL P. FORBES, New York         DAVID E. PRICE, North Carolina
 GEORGE R. NETHERCUTT, Jr.,          CHET EDWARDS, Texas                
Washington
 MARK W. NEUMANN, Wisconsin
 RANDY ``DUKE'' CUNNINGHAM, 
California
 TODD TIAHRT, Kansas
 ZACH WAMP, Tennessee
 TOM LATHAM, Iowa
 ANNE M. NORTHUP, Kentucky
 ROBERT B. ADERHOLT, Alabama        
          
                 James W. Dyer, Clerk and Staff Director

                                  (ii)

 
             DEPARTMENT OF DEFENSE APPROPRIATIONS FOR 1998

                                         Wednesday, March 19, 1997.

                    PERSONNEL QUALITY OF LIFE ISSUES

                               WITNESSES

JERRY T. ALLEY, JR., USA, COMMAND SERGEANT MAJOR, U.S. ARMY FORCES 
    COMMAND
JOHN HAGAN, USN, MASTER CHIEF PETTY OFFICER OF THE NAVY
LEWIS G. LEE, USMC, SERGEANT MAJOR OF THE MARINE CORPS
ERIC W. BENKEN, USAF, CHIEF MASTER SERGEANT OF THE AIR FORCE

                              Introduction

    Mr. Young. Good morning. The Committee will come to order.
    Today the Committee will conduct an open hearing with the 
senior enlisted advisors from each of the services.
    We are very pleased to welcome Command Sergeant Major Jerry 
T. Alley, Jr., of U.S. Army Forces Command; Master Chief Petty 
Officer of the Navy, John Hagan; Sergeant Major Lewis G. Lee, 
of the Marine Corps; and Chief Master Sergeant of the Air 
Force, Eric W. Benken.
    Today's witnesses represent the 1.2 million enlisted 
personnel who comprise the vast majority of our military 
forces, in fact, over 80 percent of our active duty military. 
Since 1990, the enlisted military force structure has been 
reduced by approximately 530,000 troops; and the fiscal year 
1998 budget request proposes another reduction of 11,300 
personnel.
    This is somewhat concerning to many Members of the 
Committee--the reduction in force, the added OPTEMPO, combined 
with the additional deployments. We are concerned about that 
and what it does to the quality of life, to the troops and to 
families. We are concerned about the medical care. As I think 
most of you know, this Committee has worked very hard to bring 
medical care for the members of the military up to a higher 
level than it had been.
    There are a number of issues that we would like to talk 
with you about. First, we are going to hear your statements; 
and then, if you leave anything out, we are going to come back 
with questions. We want your very honest opinions. We 
understand sometimes the chain of command might have a little 
different approach, but we want to get the true story about 
what is happening in the military and what, if anything, this 
Committee can do to improve the quality of life and to make a 
better life-style for those who serve us in the military.
    With that, I would like to welcome all of you. We will 
start with Sergeant Alley and go across the table. Each of your 
statements will be printed in the record in its entirety, and 
you feel free to summarize them anyway that you wish. After 
that, we will have some questions.
    Before we start, I would like to recognize Mr. Murtha.

                         Remarks of Mr. Murtha

    Mr. Murtha. Thank you, Mr. Chairman.
    I just hope you will talk about some of the problems you 
see out there, because this Committee probably visits the bases 
and talks to the enlisted people as much as any Committee in 
the Congress. One of the ways we get good ideas is hearing from 
you but also hearing from them.
    Health care, every time we go out someplace, we find some 
problem with health care. So I hope you will not only talk 
about what a great organization you have and what a great job 
they are doing, but also some of the problems that you see and 
what the concerns are so that, if it is in our power, we can do 
something about it.
    Mr. Young. Okay. Thank you very much.
    Sergeant Alley, we would like to recognize you at this 
point.

           Summary Statement of Command Sergeant Major Alley

    CSM Alley. Good morning, Mr. Chairman, distinguished 
members of the Committee. I am honored and privileged to appear 
before you today to discuss quality of life on behalf of 
America's Army, our enlisted soldiers, and their families.
    I have submitted a written statement and ask that it be 
placed in the record.
    First, I would like to thank the Committee for the 
additional funds provided last year for quality of life. Those 
additional funds provided about 5,300 additional billet spaces 
for the single soldier and upgraded them to an approximate 
standard--of the Department of Defense standard of 1 plus 1. 
That was about 60 barracks worldwide. These are the types of 
improvements that greatly enhance the morale of our soldiers.
    Sir, as you know, deployment of America's Army has not 
eased during the past year. We continue to have soldiers 
serving throughout the world in many capacities.
    In addition to the 100,000 soldiers that we have serving in 
overseas assignments, we have a daily average of 35,000 
soldiers deployed in over 70 countries away from their home 
base. These soldiers keep the peace in Bosnia, deter Iraqi 
aggression in southwest Asia and support local authorities at 
home following hurricanes, wildfires and floods.
    Throughout my travels, I constantly talk to soldiers who 
are deploying, getting ready to deploy, or coming back from 
deployment. These soldiers are all dedicated and committed to 
this great country of ours. They all know that there is just so 
much money that the American people can afford to spend on its 
men and women in uniform, and they do not want to become rich 
or wealthy. They would just like to be able to have an adequate 
standard of living for themselves and their families.
    The leadership of the Army is committed to providing 
adequate benefits to America's soldiers and their families. The 
leadership recognizes that the strength of the Army lies in the 
quality of its soldiers. We need to take care of our soldiers 
if we are to recruit and retain quality individuals who make up 
the best Army in the world.
    We also must realize that we have to recognize the 
soldiers' families. We enlist soldiers; we reenlist families. 
Without a doubt, the spouse of the soldier has tremendous 
influence over whether a soldier decides to stay in the Army or 
get out.
    I hope what we say today will help us improve the quality 
of life of our soldiers and their families, and I look forward 
to any questions you may have. Thank you.
    Mr. Young. Sergeant, thank you very much.
    [The statement of Command Sergeant Major Alley follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Young. Master Chief Hagan.

         Summary Statement of Master Chief Petty Officer Hagan

    MCPON Hagan. Thank you, sir.
    Mr. Chairman, distinguished members of the Committee, I, 
too, am honored and consider it a great privilege to appear 
here today. I want to report that your Navy is in great shape. 
It is mission ready and on station.
    I returned midday yesterday from a trip with the Chief 
Naval Officer, CNO to Tandem Thrust off the coast of Australia 
and scattered throughout the South Pacific, a great portion of 
our Pacific fleet.
    I want also to express today my very deep gratitude and the 
same sentiment from sailors and their families throughout the 
Navy for the gains of recent years--for the fair, ethical and 
generous way that we have executed the drawdown, for the gains 
in family housing, for the Basic Quarters, BQ 1 plus 1 standard 
that we have begun to implement, especially for single and E-6 
and E-5, Basic Allowance for Quarters, BAQ, Variable Housing 
Allowance, VHA, the resolution of that issue afloat, and for 
the resolution of some long-standing inequities in our dual-
tier pay system that have been well-received by sailors.
    I want to state and I have amplified in my statement that 
the momentum that we have going, it is very well-received, and 
we understand the zero sum nature of the budget, but it is 
important to maintain that momentum.
    I have some deep concerns about sea duty and the unique 
challenges it imposes day in and day out and the way it affects 
our retention, our recruiting; and some of those are summarized 
in the graphics that are attached to my statement.
    I cannot ever pass up an opportunity to emphasize how 
sailors live, for some Committee members may not be as familiar 
as others. I have brought some photographs of shipboard 
berthing just to illustrate the way sailors live with an 18 
square foot per Sailor.
    This room, for instance as measured by, my staff and with 
shipboard standards applied would permit us to house 66 Sailors 
in this room. We would amplify the alcove behind you, sir, by 
about twice, perhaps two-and-a-half times; and that would be 
the head for the 66 Sailors that lived in this room.
    That is necessary. It is very acceptable when deployed. It 
promotes teamwork and pride and espirit de corps. And I have no 
complaint about living that way aboard ship.
    It is essential that you understand, however, that all 
single sailors in their first term of service and, until 1 July 
of this year, E-5's in their second and subsequent terms, live 
aboard ship for their entire 3-to-5-year sea tour, forfeit by 
law access to BAQ or VHA; and all married and single Sailors 
forfeit access to Basic Allowance for Subsistence BAS for their 
entire sea tour.
    As I said, I have recruiting-retention concerns. I also 
have concerns about OPTEMPO and PERSTEMPO. Our OPTEMPO-
PERSTEMPO parameters allow a sailor to be away from home up to 
62 percent of a 3-to-5-year sea tour without violating the 
parameters.
    Again, no complaint. We are a deployed and deployable 
force, first in, last out, always on station, proud of it. It 
just needs to be a part of the equation when we prioritize 
funding.
    We, the Navy, have serious Permanment Change of Station, 
PCS, Selected Reenlistment Bonus, SRB, recruiting, advertising 
and other issues.
    My draft statement is before you. I apologize that it isn't 
smooth yet. I am working out some last minute changes because 
of travel issues and getting it fully accepted; and it will be 
ready for the record before the end of the day tomorrow, I 
expect.
    I look forward to responding to your questions.
    Mr. Young. Chief, thank you very much.
    [The statement of Master Chief Hagan follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Young. Sergeant Major Lee.

                Summary Statement of Sergeant Major Lee

    SGT MAJ Lee. Mr. Chairman, Committee members, I, too, am 
honored to appear before you today.
    Today we have 22,000 Marines forward deployed, but that is 
only typical of our Corps. I am very proud of the recent NEO we 
conducted out of Albania, the Navy-Marine Corps team. You saw 
it in action. As Master Chief Hagan said, we are extremely 
proud of the operation going on near Australia, the largest 
combined operation, amphibious-type operation since World War 
II in the Pacific region.
    I am pleased to report to you that due to the efforts and 
support of the Congress, and this Committee in particular, that 
your Marines are enjoying a quality of life today that is 
better in many ways than they have ever had before.
    For example, single Marines are living in newer, 
refurbished BAQs and getting new furniture in a timely manner. 
The married Marines are seeing new construction, replacement 
and refurbishment of family housing in many locations.
    But more important than that is, over the past couple of 
years, we have been able to make great inroads into the backlog 
of the maintenance and repairs of both our single and married 
housing.
    For our Marines and families who live on independent duty, 
we are working initiatives through the Congress to assist them 
with the medical care, quality of housing and, in general, the 
out-of-pocket expenses that are not incurred by those who live 
close to bases.
    For our Marines who spend tremendous amounts of time 
deployed or training in austere environments--your average 
first-term marine spends 60 percent of his first 4 years 
deployed or training somewhere away from the installation--they 
have today some of the best individual field equipment that can 
be purchased.
    Let me tell you something. Having been there and done it, 
we thank you so very much for that individual initial issue.
    Over the past year, we have introduced into our training 
and educational processes what we call a transformation 
cohesion and the sustainment of our Marines. While this may not 
appear on the surface to impact quality of life, I believe it 
goes right to the heart of the matter. By making Marines 
better, imbued with the values of honor, courage and 
commitment, and then enabling those Marines to sustain those 
values, we have Marines who cannot only fight, win and survive, 
but we have Marines who can take care of themselves and their 
families within the constraints of what the taxpayer, the 
Congress, DoD and the Commandant can afford or provide.
    I view that as critical, for we believe that those who can 
truly take care of themselves and their families, need less of 
the top lift support that may or may not be available, the 
readiness of our Marines remains paramount. We will, as a 
Corps, continue to insist that those we send in harm's way be 
trained, equipped and led in a manner that ensures they will 
return to their loved ones alive and well.
    Albania, the recent Non-Combatant Evacuation Operation, 
NEO, was a permissive environment. It could have just as easily 
been a non-permissive environment. We are dead serious about 
making sure that the people we commit--we don't know when we 
will commit them, but we know they will be committed, and we 
are dead serious about them being able to fight and win.
    Gentleman, I am available to answer questions.
    Mr. Young. Thank you very much.
    [The statement of Sergeant Major Lee follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Young. Chief Master Sergeant Benken.

           Summary Statement of Chief Master Sergeant Benken

    CMSAF Benken. I am very proud to be here to represent the 
thousands of men and women who serve in the United States Air 
Force today. We have found in our experience that the quality 
of life is a direct link to readiness. We can't always do 
things regarding the political situation or the contingent 
situation we have to respond to, but we have found that we can 
take care of quality of life things, and we greatly appreciate 
the support that this Committee has given and Congress has 
provided in the past.
    My only comment would be, is that we would like to sustain 
this outstanding force we have serving today. We do not want to 
slip into the hollow force syndrome we have experienced in the 
past, and we certainly do not want to revert back to a non-
volunteer force. In that regard, I think that quality of life 
is essential.
    Thank you, sir.
    Mr. Young. Sergeant, thank you very much.
    [The statement of Chief Master Sergeant Benken follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                            STATEMENT REVIEW

    Mr. Young. I wanted to just ask a couple of quick questions 
before we go to the other members.
    First, I understand, Master Chief Hagan, you suggested that 
your statement had not been completed yet, that it would be by 
the end of the day tomorrow, and you indicated that it had to 
be reviewed. I understand how your statements would be reviewed 
by your chain of command and by the services. But I got the 
feeling maybe there is another review somewhere along the line.
    I don't want to put anybody on the spot, and if you don't 
feel like responding to this question, it is okay. But do you 
have to get approval for your statements from the Office of 
Management and Budget, OMB?
    MCPON Hagan. OMB is the hang-up on my statement presently.
    In the past, I have received recommendations for edit that 
I have accepted or rejected as consistent with my charter. This 
time, I am running into a little more difficulty. I think, 
again, if I had been in town over the past 10 days--I just 
returned at 12 o'clock yesterday--we would have it resolved; 
and I would have a statement that I would be happy with.
    But, in fact, the statements are reviewed by OMB. My 
charter from my boss, from my third CNO, is to tell the truth, 
to be thoughtful; and I have zero difficulties inside the 
lifelines of the Navy. This is, quite honestly, the first 
difficulty I have had of this nature. Again, it would be 
resolved, I am quite certain, had I had a little more time.
    What I provided you was a draft and the edits that I could 
not accept. So I think I have given you the same information I 
would have had it been completed. I regret the inconvenience 
for you, sir.
    Mr. Young. That is not inconvenient for us. We don't want, 
as I said, to put anyone on the spot.
    I do have a problem with OMB. We want your honest opinions 
on the issues that face the men and women of the United States 
Armed Forces. Frankly, I personally don't want them censored by 
OMB.
    Anyway, as we get into the questions, please give us your 
honest responses. I know you will.
    Master Chief Hagan, you have been in the Navy for 32 years. 
I think I have a pretty good idea that you are not intimidated 
by anyone, no matter who they might be, including OMB. Sergeant 
Alley, 30 years in the Army----
    CSM Alley. Thirty-three, sir.
    Mr. Young [continuing]. And Sergeant Major Lee, 29. Is that 
accurate?
    SGT MAJ Lee. Almost 29, sir.
    Mr. Young. And Sergeant Benken, 27?
    CMSAF Benken. Just a baby, sir.

                         QUALITY OF LIFE ISSUES

    Mr. Young. That comes to 122 years of service sitting at 
that table. I think that is tremendous. I have to tell you that 
every member of this Committee is just tremendously proud of 
the men and women that serve in our uniform. You represent them 
here today, and you represent them ably.
    It distresses me when I hear about things like the 
conditions of some of the barracks. I visit barracks, and Mr. 
Murtha visits barracks, and we see barracks and living 
conditions that really are not anywhere near what they ought to 
be, to be honest with you.
    This Committee has been in the forefront of promoting 
additional funding for real property maintenance so we can 
repair the barracks. Our colleagues on the Military 
Construction Subcommittee are engaged in trying to create and 
build new barracks. So, together, we are trying to improve the 
housing standards.
    Also something that really distresses me--and I wanted to 
ask all of you about this. We understand from a DoD report to 
this Committee about a year and a half ago that approximately 
12,000 members of the armed services receive food stamps in 
order to exist economically. That is distressing to all of us.
    In my opinion, anyone who serves the Nation in uniform 
should not have to rely on food stamps to feed himself or his 
family.
    Tell me about your experiences and what you know about 
members of your respective services who have to use food stamps 
for survival.
    CSM Alley. Sir, approximately 12,000 people have applied. 
In saying that, I would say there are more people than that who 
are eligible, who have too much pride and respect to go down 
and ask for subsistence. Anytime we have young people with 
large families living on the pay we are giving them--basically 
they have Basic Allowance for Subsistence and their housing 
allowance--I think it is a problem.
    MCPON Hagan. I am going to give you a little different 
view, sir. This is not a new subject to me. I wrestled with it 
the first year or two of this job. I over-toured at 4\1/2\ 
years at this job.
    I would tell you respectfully I don't think food stamps are 
a valid indicator for two reasons.
    One is that the rules for being eligible for food stamps 
are a little strange. The Sailor that lives on base and 
forfeits BAQ and VHA for on-base quarters, which is always a 
superior position to be in, is more eligible for food stamps 
because of the way States quantify eligibility. If the Sailor 
lives in town, they may pay as much as 50 percent or more for 
their housing and total housing and commuting expenses on top 
of that and not be eligible because the BAQ-VHA is considered 
as part of the total income. That is one reason the food stamps 
are not a valid indicator.
    The second reason is not quite as objective as that one. 
But, subjectively, in my opinion, food stamp eligibility 
depends upon family size, which to some extent is a personal 
decision; and certainly after a certain knowledge level it is.
    I do think we have economic issues, quality of life issues 
and compensation; and I have tried to track that by commissary 
uses of food stamps.
    There is one other thing you should know. In California, 
where we have so many troops, they don't give food stamps--or 
they didn't the last time I studied this subject. They give 
cash. So we can't tell how many are redeemed in the 
commissaries there.
    I have serious concerns about the economic issues, but I 
decline to use food stamps as an indicator.
    SGT MAJ Lee. Sir, my answer will be considerably shorter 
than the Master Chief. I support him on his analysis. Sir, I 
have almost 80,000 people who are lance corporals and below at 
any given time, and they are young men and women. If they have 
families, they are probably going to qualify for food stamps.
    I don't think that we, Congress, you or anybody else can 
truly do anything about that, unless you grant substantial--and 
I mean very substantial--pay raises to the lower grade, which I 
wouldn't recommend you do.
    It is a tough situation. In many ways, it is a personal 
choice. We offer advice and counsel and support them.
    I don't like the idea of 12,000 servicemen being on food 
stamps. On the other hand, I am not so sure it is really 
indicative of the trauma that the Marines or Sailors or Airmen 
are experiencing. I don't support that or believe that.
    CMSAF Benken. I agree with my colleagues here. About 1,200 
people in the United States Air Force qualify for food stamps 
based on the number of family members and the fact that the 
spouse doesn't work or whatever. But I do not see that as a 
pervasive problem as I travel and see the troops and things 
like that.
    Mr. Young. I want to make sure I understood your statements 
about major salary increases.
    MCPON Hagan. I am not in agreement with a targeted pay 
raise. I think it is inconsistent with building a strong career 
force. As a matter of fact, I think it is destructive to a 
strong career force.
    I do believe that we in the services have to do a better 
job. One of our challenges is to make young people understand 
that the entry level of the forces is, and in my estimate ought 
to be, characterized by some degree of delayed gratification 
and sacrifice. It ought to be above a certain threshold.
    That is why, for example, the new housing allowance reform 
is important. It takes us above that threshold in a more 
genuine and consistent way.
    But when we are above that threshold, I am happy with the 
upward mobility, the potential for upward mobility and the 
quality of life that is available in the armed forces.
    So I am opposed to targeted pay raises, yes, sir.
    SGT MAJ Lee. I will reiterate the same thing, sir.
    Young men and women, we are doing everything we can to 
educate and train and make these people understand their 
environment and the Corps and its hardships in general. With 
that, it is financial.
    Now, frankly, they do get basically enough to be taken care 
of if they know, as I said before, how to take care of 
themselves. A large targeted raise, to react to something to 
the fact like we got 12,000 people on food stamps, sir, I don't 
think would be a wise thing to do. I don't see a reason for it.
    CMSAF Benken. I agree, sir. We should not react to the food 
stamp issue.
    Targeted pay raises, I remember in 1972, as an E-3, in 1971 
actually, I was making $180 a month, and Congress decided that 
was a little bit too low, so they gave us a 100 percent pay 
raise and my pay went up to $360 a month. We have targeted in 
the past--I believe in the late 1970s or early 1980s, we did 
some targeting as well.
    It is a tough issue. I think the housing part of it really 
comes into play, depending on where you live. For instance, in 
Montgomery, Alabama, where you would think it is not 
necessarily a high cost of living, we have a lot of schools 
down there and troops will move in and they will lease a house 
and pay an exorbitant price, the ones that can afford it, which 
drives up the market for the low end, too.
    So you have some people, depending on where they live in 
the United States, that have a tougher time than others.
    We need to make sure that the gap is closed so that the 19 
percent out-of-pocket expense that they have beyond the BAQ-VHA 
is narrowed.
    Mr. Young. The President's budget this year calls for a 
small pay raise, but it is not targeted; it would be across-
the-board. I assume that nobody would object to that.
    In my opinion, that is not enough, and this Committee on 
occasion has appropriated money for pay raises when the 
President did not request it, because we think that that is all 
part of showing the troops that we appreciate them and 
recognize that they have financial requirements, just like 
anyone else does.
    Thank you very much for your responses on those subjects.
    Mr. Murtha.

                          MILITARY HEALTH CARE

    Mr. Murtha. I appreciate the frankness of those responses. 
In visiting the troops out in the field, one of the things I 
found was accessibility to health care was a major concern. 
This was not only enlisted, this was officers, depending on 
where you went.
    Has this improved, not improved? What is the situation?
    CSM Alley. Sir, as you know, under the new system, we have 
the health care program broken down into twelve regions. Out of 
those twelve, only seven are active. All seven of those regions 
have a different system.
    The medical coverage itself--if you are getting it, are 
being taken care of, and are near a military installation--has 
improved. It means better access to medical facilities and 
better access to doctors.
    Mr. Murtha. So if it is in place----
    CSM Alley. If it is in place, it has improved. If you move, 
or have kids in college, you may have to use a different health 
care region. It is just one of those things. And I think it is 
like a bouncing ball, it keeps moving on us.
    Mr. Murtha. Well, I appreciate what you are saying. There 
is no Committee that has paid more attention to health care, 
and we started the demonstration in California because bases 
are closing. We have an obligation to people who retire to take 
care of them through military medicine. It may not be written, 
but we have an obligation.
    So as bases close, we had to find some alternative to that, 
and TRICARE depending on where it is, that was the way to do 
it.
    Accessibility continues to be a problem, though. I mean, 
people tell me, they call on the phone, they cannot get 
through, they have only an hour in the morning to get through.
    Portsmouth, we had a problem. We tried to fix it by putting 
extra money in right after the Gulf War. Of course, we built a 
hospital down there.
    Is accessibility still a problem? I am talking about for 
dependents, not for active duty people.
    MCPON Hagan. I would echo what the Sergeant Major said, and 
I will tell you the perception, first of all, there are 
execution difficulties. It has been executed in the northwest 
first. The lessons learned were not always taken to the next 
region, so perhaps we could have done better.
    As we get the TRICARE implemented and as people begin to 
get used to it, they understand that, first of all, it is 
better than CHAMPUS, because if it wasn't, you could stay with 
CHAMPUS. The co-pays, the lack of an annual deductible, the 
more reasonable catastrophic cap and a number of other things 
make it a real improvement.
    We deal with the perceptions that the Military Treatment 
Facility, (MTF) where dependents should all be able to go to 
the MTF where it is totally free and much more convenient, and 
you see somebody in uniform, and you know who you can complain 
to.
    I honestly believe the perceptions we are dealing with now 
are our biggest difficulty. The fact that CHAMPUS Prime, your 
prototype, was actually a little better than TRICARE means, as 
we implement TRICARE in California, there is a perception 
difficulty there.
    But overall, speaking in general terms, I am well satisfied 
with TRICARE and the potential, and I worry about our ability 
to support it financially in the out-years more than anything 
else.
    Mr. Murtha. So the accessibility is not so much of a 
problem once TRICARE is in place, but moving around the country 
is a problem. In other words, if you live in California and you 
are transferred to Camp Lejeune, it is an entirely different 
system. Or if your kids go to college someplace else, then it 
is a problem.
    MCPON Hagan. I suggest it would be a problem under all 
circumstances, even a perfect health care system. It is a 
little more of a problem because TRICARE is, again, not evenly 
implemented. Of course, I have to explain to Sailors regularly 
that the network which supports TRICARE differs in every 
community. So if the health care provider network in Memphis is 
good, TRICARE is better than it is in Nevada, where the health 
care provider network is pretty slim.

                              DENTAL CARE

    Mr. Murtha. The dental care though, maybe it is unique, but 
the whole country is covered by Blue Cross, and there are 
45,000 dentists contracted with them, as I understand it. You 
can go any place and they have dentists almost every place.
    Have you gotten into that yet? Is that available and 
working?
    MCPON Hagan. Yes, sir. The short answer is, I think it is 
available and working. And when Sailors understand the 
difference or what the limits are to dental care, I get very 
few complaints about dental.
    Mr. Murtha. Pensions, one of the complaints I got, there is 
a three-tiered pension system now. Is that a problem?
    CMSAF Benken. Before you move on, could I address the 
medical a little bit?
    We have been doing surveys on TRICARE, and we are getting 
about an 81 percent satisfaction rate when it comes to the 
access and convenience. I was just out at Fairchild Air Force 
Base in Washington, where we implemented at the start, and I 
got a lot of good reviews from it. If you go to another region, 
however--for instance down in the Texas-Oklahoma area, where it 
has been tougher, a little bumpier, although it is getting 
better----
    Mr. Murtha. It just started in Texas; is that right?
    CMSAF Benken. I am not sure when it started.
    Mr. Murtha. It seems to me it has been in a place a year or 
so.
    CMSAF Benken. It is going to be bumpy and have fits and 
starts as we proceed. It is not a small process to undertake.
    Right after the Cold War ended, we started down the TRICARE 
road, but the retirees--as you know, health care is built into 
our package, compensation package, and I know when I came in 
the service in 1970 making $3 a day as an Airman Basic, I was 
told that medical care for myself and my family members for the 
rest of my life, as well as a retirement system, would be there 
for me should I decide to make it a career. So that has been a 
big part of it.
    But it depends on where you go, the level of satisfaction.

                       MILITARY RETIREMENT SYSTEM

    Mr. Murtha. Are we getting any complaints about the three-
tiered pension system? I know several people somewhere brought 
it up. I actually wasn't even aware that it was three-tiered; I 
thought it was two tiers. Are we getting complaints about that 
now?
    SGT MAJ Lee. Absolutely.
    CSM Alley. Yes, sir.
    MCPON Hagan. Only the sailors, the members that are getting 
ready to retire on the second and third level, retirement 
benefits are less generous, are now becoming more aware of the 
differences. I am having to explain that issue more often.
    Mr. Murtha. So that is not a problem with recruiting. They 
don't look that far ahead when you recruit them; is that 
accurate? But once they get in, all at once, or as they get 
near retirement, they begin to recognize they are not getting 
near as much as somebody else that retired that was in the 
initial system.
    CSM Alley. About the 10-year mark is what we are looking at 
now. About the 10-year mark is when this came into effect, that 
a person that has 10 years in the Army today draws 10 percent 
less retirement pay upon his retirement at 20 years than a 
soldier with 12 years in. Retention for the Army at the 10-to-
12-year mark, and the sergeant-to-staff sergeant level, is 
truly affected by that.

                              ENLISTED PAY

    Mr. Murtha. One last thing. The suggestion I got was the 
difference between an E-4 and an E-5 is not enough for the 
additional responsibilities that an E-5 has. Is that accurate? 
That is not something this Committee handles, but--several 
places I went, they expected more of an increase when they went 
from E-4 to E-5.
    Is there a break point where there is not enough difference 
between the ranks, where there is a lot more responsibility and 
not enough difference in pay?
    SGT MAJ Lee. That is one of my feelings, sir. I want to 
answer that at least for the Marine Corps.
    Yes, I think there is. My problem is, I make about five 
times what a Private makes. Frankly, I think I am worth a hell 
of a lot more than five times a Private, to be honest with you. 
So, yes, I think there is a tremendous problem here.
    I think Marines, Sailors, Airmen ought to be paid at the 
level of responsibility, how long they have served, and the 
sacrifice. I am not talking about bogies by serving a long 
period of time. I am talking about the rank you earn and are 
promoted to.
    I think if you all are interested in doing something about 
that one, you have my support on that, yes, sir.
    Mr. Murtha. What we are doing is eating up the increase, 
because so many of the new people coming in have families--that 
is part of the problem--so they get housing allowances.
    At what rank do they get housing allowances now?
    CSM Alley. E-1.
    MCPON Hagan. Married at all pay grades.
    Mr. Murtha. What percentage of people are married now in 
the service?
    CSM Alley. Sixty-three percent of the Army, sir.
    MCPON Hagan. Just under that in the Navy, sir.
    SGT MAJ Lee. Fifty-eight percent of the enlisted force.
    CMSAF Benken. Sir, you can be an E-6 with, say, 17 years--I 
don't know where the break points are--you can make more than a 
Junior Master Sergeant. You can actually have someone outrank 
someone else, but because of the pay structure, you can have 
someone of a lesser grade actually making more than a person at 
the next grade.
    Mr. Murtha. Is that because of extra allowances?
    SGT MAJ Lee. It is based on longevity, sir.
    MCPON Hagan. The Quadrennial Military Review Command (QMRC) 
structured a pay scale which I very strongly supported. It came 
close to being implemented. It required a few dollars more than 
present pay scale, but it did away with pay inversion to the 
greatest extent, so that no senior person would make less than 
a junior person because of longevity.
    I thought that was a good step in the direction that the 
Sergeant Major of the Marines just supported, and a necessary 
step to build a strong career force.
    Again, I would answer your question on the pay between E-4 
and E-5 differently and say, I would like to see the career 
force pay and benefits be a significant difference so that the 
first-term Sailor looking into the career force would find it 
attractive. And I also recognize the wisest use of resources 
there.
    So I think there is a break point in support of what 
Sergeant Major Lee articulated.
    CSM Alley. Sir, for those of us who came in the Army when 
we still had a draft, the most significant pay raise in the 
Army was when a soldier went over 2 years of service. Because 
once he exceeded two years of service, he was no longer a 
draftee and he was made part of the permanent force; he was a 
career-oriented soldier.
    We need pay raises to go more towards our career-oriented 
soldier.
    SGT MAJ Lee. Forty-eight percent of the Marine Corps is 
enlisted, married, sir. I need to correct myself.
    Mr. Young. Mr. Murtha, thank you very much.
    I would like to recognize Mr. Bonilla.

                            TRICARE PROGRAM

    Mr. Bonilla. Thank you, Mr. Chairman.
    Gentlemen, first of all, regarding the question about food 
stamps that came up earlier, I just have a comment on that. 
Even before I was elected to Congress, I would hear statistics 
like that, and I would react viscerally and with outrage that 
our people serving in the armed forces would have to resort to 
signing up for food stamps. But, frankly, your testimony this 
morning has shed new light on how we should view this.
    I just wanted to tell you, you have enlightened me, and I 
appreciate that; it has been refreshing to hear a different 
perspective on that and how we should look below the surface of 
just a blanket statement that causes some of us that believe so 
strongly in supporting our armed services that we have to 
remember that serving in our armed forces is a commitment, a 
conviction, and it is truly serving your country. You reminded 
us of that this morning.
    I just want to say I appreciate that.
    One thing I would like to start out with, Chief Master 
Sergeant Benken, something Mr. Murtha started a discussion on 
this morning, is health care for military retirees.
    You mentioned that TRICARE wasn't exactly getting off to a 
start in Texas. Let me tell you, my phone rings off the wall 
some days. We have a lot of retirees in our area, primarily Air 
Force, and they also have questions about TRICARE. They are 
always frankly expressing concern over what they believe is an 
abandonment of their health care needs in the later years.
    My question is to Chief Master Sergeant Benken to start 
out: Do you think long-term--and these are good people; they 
are not complainers, they are just very upset that they don't 
feel they can get their military care in a military hospital 
like they were originally promised--that that kind of message 
out there would hurt recruitment in the future?
    CMSAF Benken. Oh, yes, sir. I think what we have and what 
we are experiencing right now is, there is a perception that 
there is an erosion of benefits. The reality is, it is not so 
much an erosion of benefits as it is an erosion of confidence 
in the military system.
    We have talked before about the retirement system. We now 
have three plans. We have the pre-1980, the 8-86 and 86 and 
beyond. Those troops now getting 10 or 11 years in the service 
are starting to realize their retirement pay is worth about 25 
percent less than those that came in prior to 1980. So that is 
part of it.
    Then they look at health care, the TRICARE. A lot of it is 
misperception. We are fighting that very, very hard and trying 
to get the health care system up and running as best we can.
    When you couple that with the retirement issue, then it 
becomes an erosion of confidence.
    Then on top of that, you will have anecdotal things or 
sometimes it is perceived, commissary benefit erosion and 
things like that. We had the High One, if you recall, the High 
One issue which was another attack on retirement, which was 
soundly defeated, fortunately. But I think eventually it could 
hurt recruitment.
    But I think in the short-term retention is going to become 
more of an issue, especially for units that have the high 
OPTEMPO. If you are constantly going temporary duty (TDY) and 
are on temporary duty more than 120 days from your family, then 
you start having to be concerned about medical care, is your 
retirement going to erode, and you start putting all that stuff 
together; we have some pretty smart people in the United States 
Air Force that will find something else to do.
    Mr. Bonilla. You say the TRICARE situation is improving in 
Texas; it got off to a rough start. Be more specific, how you 
see that going in the next couple of years. Why the rougher 
road in Texas versus, you mentioned another part of the 
country?
    CMSAF Benken. From what I have been told--and a lot of this 
is anecdotal--what I have been told is, depending on where you 
go, the providers that sign up, whether the providers are 
willing to sign up with TRICARE and things like that, the 
administration of how they are paid. Sometimes there is some 
dissatisfaction that that doesn't happen as quickly as they 
think--I think it is kind of like General Fogleman says.
    When Bill Gates first came up with the software, you know, 
you would have the first version and then move to second and 
third versions. I think that TRICARE is something that will 
just have to grow. But I have to be optimistic, I think, 
because I don't think we have too many alternatives.
    We are not going to get the 35 percent infrastructure that 
we lost when we did the drawdown. You can stand outside of one 
Texas air force base and rattle the gate all you want, and 
probably just have tumbleweeds in the hospital ward. We are not 
going to get that back. For us, I think TRICARE is the 
situation.

                             FAMILY HOUSING

    Mr. Bonilla. We have been trying to sell it well in our 
area. I think we are finally getting some attention down there. 
It has been a rough road for a lot of us who serve that area as 
well.
    Another subject, Chief Master Sergeant Benken, in your 
testimony you talk about the potential of family housing, 
privatization initiatives. Tell me a little bit more about 
that. Are you seeing partnerships with private developers? How 
do you see that going in the future?
    CMSAF Benken. We have been trying to get that on board, for 
instance, down at Lackland. We believe that privatization is a 
good leverage tool you can use against MILCON to try to buy out 
the deficit that we have with our family housing units.
    We have about 58,000 throughout the Air Force that either 
need to be completely torn down and rebuilt or renovated, 
substantial renovation. By using the privatization tool, we 
believe that we can make better use of our MILCON or enhance 
the use of our military construction MILCON that we get. So 
privatization is very important to us.
    I think it is kind of a bureaucratic process that we have 
been going through to get this on board. Like anything else, it 
is a new initiative, I believe, and something that is going to 
have some bumps and grinds to it. The first request for 
proposal RFP was let down at Lackland, I believe. It is out for 
bids or consideration with the contractors right now.

                        MARRIED SERVICE MEMBERS

    Mr. Bonilla. I would be interested in hearing more about 
that in the future. Even at Laughlin Air Force Base, it is 
being very well received out there as well. There is only so 
much you can do--at Laughlin Air Force Base, with the growth, 
with the new pilots coming in, any day anything we can do to 
get the private sector to help us would be a huge advantage in 
the future.
    I would like to move on to Sergeant Major Lee. I am hearing 
the statistics on the percentage of married personnel in this 
day and age. A few years ago, if you remember, the Commandant 
of the Marine Corps suggested that new recruits should not be 
allowed to marry. This, of course, set off a big controversy.
    I am wondering, looking at this realistically, should we 
review the pay and pay incentive structures to discourage 
recruits from starting a family early? Is this an overall 
hindrance to the effectiveness of the military in general, I 
mean, the high rate of marriage?
    SGT MAJ Lee. The Marine Corps is unique in the way it is 
structured. We have 156,000 enlisted and 110,000 serve under 
First Contract. Of that 110,000, maybe 35,000 of those are 
married. The majority of those are in the grade of Corporal-
Sergeant.
    On the other side, I have my career force, 35,000, 36,000 
strong. The majority of those are married. On the other hand, 
they can afford to be married. We recruit very few people with 
dependents, married or anything else. Our numbers we bring in 
every year are so minimal, to say, don't recruit anyone who is 
married, wouldn't have much of an impact on the Marine Corps.
    Once they are in the service, sir, we do everything we can, 
not to discourage them from being married, but to teach them 
the pros and cons of marriage and dependents. We think we are 
making inroads on that.
    Like I said, fewer and fewer of my very young ones are, in 
fact, married and have families.
    Is it a problem? Anywhere you have a dysfunctional family, 
the command and the organization, sir, have a problem. What 
causes the dysfunction? It could be any number of things. A 
good, strong family, for instance, 19, 20 years old, can live 
on what we pay them and provide for them, and they can get by. 
On the average, they can't.
    Does marrying young with dependents and children have an 
impact on enlistment? It can. It all depends on what the 
situation is and problems with the children. I don't know if I 
answered your question, sir.
    Mr. Bonilla. Gentleman, thank you very much.
    Thank you, Mr. Chairman.
    Mr. Young. Mr. Hefner.

                            QUALITY OF LIFE

    Mr. Hefner. Thank you, Mr. Chairman.
    Gentlemen, we have seen you before over at the Military 
Construction Subcommittee. The quality of life has always been 
a critical issue--when I was Chairman of MILCON, it was the 
most important thing we had the most concern for. I want to go 
back to the food stamps.
    Like Mr. Bonilla said, you know, you get people very 
indignant. Our guys are in there defending this country and 
living off food stamps. It is a very emotional thing that you 
can't explain. It is good to hear you gentlemen talk about it.
    I was just curious, if you were going to go the route of 
upping the pay to a level where these men and families would 
not have to go and count on food stamps, how would you 
determine where you would go on pay? There is no way you could 
determine that, is there?
    MCPON Hagan. I would be happy to lead off quickly by 
saying, I believe we are on the right road now with a housing 
allowance reform. It does put housing above the threshold more 
consistently, eliminates BAQ and VHA as a combined unit. It 
divorces BAQ from the annual pay raise, is more fiscally 
responsible, and ties housing allowance to the cost of housing. 
That would be a step forward.
    Preserving the commissary as a true benefit is important to 
the question you asked.
    I would ask if you have the time, sir, to review in my 
testimony where I think the real issue is similar to what the 
Sergeant Major of the Marine Corps said. To pay Sailors who 
work the hardest and sacrifice the most is my number one pay 
issue. It is internal to the DoD and internal to the Navy 
issue, but it is one that isn't free and requires your 
understanding and support.
    There are various degrees of arduousness in the career 
path. Those are not as adequately recognized in the total 
compensation.

                               RETENTION

    Mr. Hefner. Well, on retention, what is the percentage of 
the people that sign up that become career people?
    SGT MAJ Lee. I will start that off. I guess I am unique. Of 
course, I have such a large, first term force that I can only 
retain a very small percentage of my first term force.
    For instance, of the 110,000 who serve on the first term, 
no more than 18,000 of them can enter what we call the career 
force. I have far greater numbers of Marines who want to stay 
in the Marine Corps than 18,000, so I get to pick and choose 
who I retain, based on several reasons.
    So in short, sir, I don't have a retention problem. In 
fact, as I said repeatedly, I have more Marines that want to 
stay in the Marine Corps than I have actually got room for. I 
can't keep them.

                      SELECTED REENLISTMENT BONUS

    Mr. Hefner. Do you have an incentive program for 
reenlistment, for re-up, and how much?
    SGT MAJ Lee. I have certain skills that are hard to 
maintain, and for that we request every year, and we did, we 
get from you all a bonus to target certain people to stay in a 
certain field. But that is a small amount, and fortunately it 
is not a large part of our corps that we have to target that 
way. But yes, sir, I do have that.
    Mr. Young. Would the gentleman yield?
    Mr. Hefner. Sure.
    Mr. Young. You differentiate now the targeted bonuses 
rather than the targeted pay increases we had talked about 
earlier.
    SGT MAJ Lee. I think targeting Military Occupational 
Speciality, MOS, an occupational field, sir, for a proven 
performer that you need to retain is one thing. Paying every 
private, or lance corporal in the Marine Corps a substantial 
amount of money because a few of them are on food stamps, that 
is what I am against.
    MCPON Hagan. Actually, the targeted bonuses we have come to 
realize are a necessary fact of an all-volunteer force. We 
wouldn't be able to retain the nuclear, the vast electronic and 
certain other ratings in the enlisted force without the 
targeted bonuses. We have ample proof of that.
    Mr. Hefner. I keep beating a dead horse. On the food 
stamps, and I don't mean to be unkind and have you make a 
judgment, but the guys that are on food stamps, would they have 
a tendency not to be most dependable soldiers, or Marines, or 
what-have-you? Or are they just bad managers?
    CSM Alley. No, sir. They come in the Army as a private with 
the family, because they were told that you can make a better 
living in 4 or 5 years if you stay in the Army.
    Mr. Hefner. They were looking down the road, in other 
words?
    CSM Alley. Down the road you will make a better living. So 
they come in with every intention of staying. They are good 
soldiers. They just created a family at a very young age.
    Mr. Hefner. And they would have trouble--they would 
probably have trouble in the private sector or anywhere?
    CSM Alley. They had trouble in the private sector raising 
their families. That is why they came in the military, in most 
cases.
    CMSAF Benken. Yes, sir, because the threshold for 
qualifying for food stamps means that you are going to have X 
number of dependents, and I am not sure what number of 
children, it might be three or four, with a spouse who doesn't 
work, or whatever. So sure, it is going to be a little tough 
for them.
    MCPON Hagan. I think my observation is pretty limited 
because, quite honestly, I have not met many Sailors on food 
stamps, but my observation would be that you would find a full 
spectrum of quality there. I think it might be weighted a 
little more toward the less responsible, but I think you would 
find a full spectrum of quality there.
    SGT MAJ Lee. You would find people, sir, who are in a 
situation without any negatives on their own part. I mean, they 
inherited a family, you know, things like that.
    Mr. Hefner. They would have problems anywhere they were?
    SGT MAJ Lee. Yes, sir, they would have problems anywhere, 
sir.
    Mr. Hefner. One other thing. Talking about privatization, 
we met a good long while ago on this issue, and Secretary Perry 
come up with a concept of about privatization, and I think that 
it is not all that much unlike 801 housing, and I think it is a 
good concept.
    I see now where we are going to have to be very careful 
because we are going to run into some problems with--in the 
private sector with developers and what-have-you trying to work 
this thing out, because I can see now at Fort Bragg the local 
realtors and folks saying: We have got so many open units here, 
and you are awarding contracts to build new stuff and you are 
killing us. But I think it is some place to look.
    One other comment. Over the years quality of life focus has 
been distressing. When I was chairman of the MILCON, Ralph 
Regula and I had a big focus on quality of life and burden 
sharing. It just seems that for some reason, and I think it is 
taking a turn now, but for some reason quality of life wasn't a 
real priority at that particular time, because the witnesses 
would come into the hearings at MILCON and what-have-you, and 
the quality of life issues took a back seat to the weapons 
systems and all the other things, R&D and everything.
    But in my view, if you don't have decent living conditions 
and quality of life for our people, then it just doesn't make 
any sense to me for people who are going to be operating the 
most sophisticated weapons that man has ever known to be living 
in World War II barracks and walking across an unpaved parking 
lot to take a shower and standing up to their ankles in water. 
It doesn't make any sense to me.
    We worked very hard back in those years to build day-care 
centers. I was at Fort Hood once, and some of the spouses were 
trying to convert an old cafeteria into a day-care center. And 
we have done a lot, but I think that we need to put more focus 
on this. We need to have you put more priority on quality of 
life and especially housing, because we are never going to 
catch up in housing, no matter what we do.
    But I appreciate your dedication to your people, because 
you are the one that is the closest to them and you know most 
what their needs are, and we are real concerned about quality 
of life.
    I thank you, Mr. Chairman.
    Mr. Young. Mr. Cunningham.

                       REMARKS OF MR. CUNNINGHAM

    Mr. Cunningham. Thank you, Mr. Chairman.
    My command master chief ran my squadron. And when he came 
in, I had lost six of my chiefs, and my command master chief's 
name was Kit Carson. That was his real name. And I told him he 
had to get the chief's mess squared away because they realized 
it. I told him he had the same power I did. And being a command 
master chief, he kind of got squinty-eyed. But the next morning 
at 0600 he showed up in my office and said, ``Commander 
Cunningham, remember when you gave me the same power you had,'' 
and I remember thinking maybe I made a mistake. I said, ``Yes, 
Master Chief, what is it?'' He said ``Well, sir, it is 
personal.''
    I said, ``Master Chief, I told you I would support you, 
whatever it is.''
    And he said, ``Well, sir, I made an appointment at the 
barber shop for myself, and I made one for you, too.'' And the 
first thing I did is went down and got a haircut. I 
guaranteed--well, I need one now too.
    But quite often, members ask questions with a certain 
agenda. I have an agenda in asking these questions, but, trust 
me, it is very pro-military and I think it is the things that 
you want.
    You testified a minute ago that when you came into the 
service that you were told that you would have lifelong medical 
benefits if you stayed in the service and retired. I hold that 
true also. And the reason I am asking this, even some of the 
members of my own party refuse to accept these facts in their 
budget constraints.
    Secondly, we were told that in our retirement system that 
there would be a Cost of Living Allowance, COLA that would not 
gain money for us but at least maintain parity so that after 10 
years you get basically zero because of inflation.
    Is that true? Is that what you tell your troops?
    CSM Alley. Yes, sir.

                   SEXUAL HARASSMENT IN THE MILITARY

    Mr. Cunningham. That is what I have been told. Okay. I 
agree with you. I want that on the record, because I am going 
to hit them right in the face with it when my own folks say no.
    I have--another problem which occured when I had a shore-
based squadron. I had 35 female enlisted; I had 6 officers in 
it. And we had a case of sexual harassment involving a case of 
one of our females who was receiving obscene phone calls. I was 
able to work with the telephone system, find out where the 
phone calls were coming from. It turned out to be a young man 
who was also dealing drugs. But it also turned out that the 
young lady, the petty officer, had turned down this individual.
    Well, the other skipper and I brought him over in chains, 
had captain's mast right there in front of quarters for both 
squadrons to show that we didn't stand for that kind of 
activity. And we explained that, man or woman, if you are an E-
5 petty officer, male or female, and you are an E-4, you better 
act accordingly.
    I know the services have had problems and, realistically, 
when you say that you haven't--you know, you are asking these 
kids not to get married. Any of you not get married before you 
were 25 years old? Pretty close.
    I mean, it is very difficult to ask a young man or a young 
woman at that age, to forgo that kind of socializing. And I 
understand the needs, but I also understand the reality.
    I also understand it is very, very difficult to monitor and 
control. You do it through command leadership and everything 
you can, and I thought I did. But even after I left the 
squadron I found out that there was fraternization. You just 
can't keep men and women apart. I believe that--I don't care 
how hard you try, how hard the command structure is, the 
leadership and what you do, you are going to have that. And 
there are going to be problems in the service.
    Looking at the recent problems that all services are 
having, are you going to be able to get a cap on the problems 
of increasing numbers of females?
    I support females in the military, but I know that it seems 
like it is very difficult to get our arms around this thing and 
there are all these little players. And the problem that I see, 
any time you are trying to go forward in one direction if you 
have a legal thing that happens either on a base or within a 
squadron, it takes that unit totally away from the direction 
you are trying to go.
    Are we going to be able to get our arms around this 
problem?
    CSM Alley. Yes, sir, because we have to. If we have sexual 
harassment, the morale, esprit de corps, and the unit's mission 
are in danger.
    Mr. Cunningham. Yes, sir.
    CSM Alley. We have to end sexual harassment at the lowest 
level and do it immediately. The only way we can do that is 
through education. We have to let the young men and women know 
because it is not just a female issue. It is also a male issue: 
Who they can see and what they need to do. We must get control 
of this issue or the services cannot survive.
    MCPON Hagan. I would tell you that with the Navy, sir, I 
think that we are on track. I am not sure that it will ever go 
to zero. Zero incidents is our goal.
    But you mentioned two issues. I will tell you the issues 
posed for us by women in the forces that wouldn't be there if 
we were an all-male force, are fraternization and sexual 
harassment. The prevention of sexual harassment and pregnancy 
has an impact on it also and the distribution process.
    I have seen progress on all four of those, and clearly 
stated standards, quick action, the leadership challenge on top 
of other leadership challenges, the progress has been slower 
than we would like. But I am pleased.
    We also have indicators from the surveys. You can take the 
survey or leave it, but the surveys that ask whether you accept 
women, whether you believe they can carry out the duties 
involved are on the rise, and they are really pretty high.

                ATTITUDES TOWARDS WOMEN IN THE MILITARY

    I just have one in front of me. It says, ``I feel women 
have the ability to successfully carry out the duties of their 
combat roles in the Navy.'' ``Agree'' and ``strongly agree'' 
were answered by 61 percent of males and 79 percent of women. 
That is a step in the direction of doing what the sergeant 
major says. We simply have to. We don't have any choices. We 
are complying with the law.
    Is it harder? Yes, sir.
    Does it present more challenges and leave you less time for 
other things? Yes, sir.
    Are we on track in the Navy? I believe so. In some of those 
areas I think we have some bragging rights. I am very proud of 
how we are doing.
    Mr. Murtha. Master Chief, would you go over those figures? 
I lost what you were saying there, what the survey said.
    MCPON Hagan. Well, the survey is actually a series of 
questions. One says, I fully accept women in their combat roles 
in the Navy. The year of the survey is 1996. The percentage of 
agreement, strongly agree or 61 percent of men and 79 percent 
of women.
    So, again, I don't want to put too much into those figures. 
That is just an indicator. These surveys are done by our 
Military Personnel Data Review Center, or MPDRC in a scientific 
manner, and they ask questions all across the spectrum.
    Mr. Murtha. But I mean, this was taken in the fleet; is 
that where the question was taken?
    MCPON Hagan. Yes, sir, supposedly across a cross-section of 
sailors to make it demographically valid.
    I get the same response in my travels, I was just on many 
ships out of the Tandem Thrust exercise with the CNO including; 
Blue Ridge and Germantown. Are there issues that wouldn't be 
there because of the women if the women weren't there? Yes, 
sir. Challenges and problems. But it wasn't an aspect of the 
visit.
    They were at sea performing their mission. In fact, 
everything in the Germantown's well deck was lit off, and while 
we were there they, the LCACs were put to sea and the AAVs and 
they performed their mission.
    Quite honestly, women asked questions, but questions were 
gender related.
    We still have serious difficulty with young Sailors and the 
issues that Mr. Cunningham surfaced there, and we are dealing 
with them, and I am proud of the trend and how we are dealing 
with them.
    SGT MAJ Lee. Sir, to answer your question, we have a zero 
tolerance. We always have had, to be honest with you. It is 
just common decency.
    Will we ever get to a point where we don't have these types 
of problems? Absolutely not. I would be stupid to sit here and 
say that.
    Are women in the Marine Corps a multiplier? Absolutely. I 
have got some tremendous women in the Marine Corps. I have got 
about 7,500, and they are doing just about everything that 
their male counterparts do.
    One thing we have done--and I hope you all picked up on it 
again--is we are making our women and our men tougher and more 
independent and more capable of dealing with these kinds of 
things in a modern military and a future military.
    I will be honest with you. When I look at our women who go 
through this crucible and going through the training they are 
going through right now, and you want to harass one of them, 
you have got to be crazy.
    Mr. Cunningham. Like harassing Helen Bentley.
    SGT MAJ Lee. At the same time, we are telling our women 
flat out, you don't have to put up with this.
    So we in the military are attacking it from different ways, 
top down and bottom up. We are telling those who can harass, 
abuse, haze, whatever: You don't do it. If you do it, you are 
going to pay a hell of a price for it. In fact, you are going 
to terminate the service.
    We tell those who could be victims: Don't be a victim. 
Because I don't care what anybody says, the support is inside 
the military. That command and that structure will support any 
victim we have of anything, and we do support it, and we do 
take care of them once we hear about it. And for anyone who 
will allow themselves to be a victim and will not stand up for 
themselves, then obviously they shouldn't be wearing a uniform. 
We have got a problem with that.

                         VETERAN'S HEALTH CARE

    Mr. Cunningham. I tend to agree with all of you. And the 
reason I asked the question is that I know we are working on 
command and leadership, and I know we are working on education, 
but I don't think we are ever going to get to zero infractions 
either. You can't get to zero in drug reduction or anything 
else but you have to work towards that.
    Part of the problem is, I think the American public out 
there see the services as they have got this problem. The same 
problem exists in any business that you go into. But I think we 
need to sell, Mr. Chairman, our position that the services are 
working on this probably harder than private business is. And 
they should be lauded for their efforts in doing it. But yes, 
you are going to have cases that come up like this.
    If I may just ask one last question, Mr. Chairman, and it 
will be succinct. I have traveled around to a lot of our 
veterans hospitals, and part of the ongoing care that we have 
when we retire out of the veterans hospitals, we come up with a 
program called subvention to where you can actually use 
Medicare benefits at your VA hospitals. It has saved great 
amounts of money. It actually saves Medicare dollars, because 
you can do things cheaper than you can going to a private 
doctor.
    VA doesn't like it that much, but for the military 
servicemen it is going to increase the numbers of doctors at 
our VA hospitals. We are going to get more equipment for men 
and women for mammograms, for prostate cancer, those kinds of 
things, where you don't have to get letters of nonavailability 
because you will be able to serve there and everything.
    Can I just get a question for the record. You can--and in 
the essence of time, maybe you could just submit an answer on 
if you support that type of concept or not.
    CSM Alley. Yes, sir. Our retirees are probably the most hit 
by changes in medical coverage.
    Mr. Cunningham. Yes, sir.
    CSM Alley. It is difficult, especially for the aged to deal 
with that and everything else. I support anything that is going 
to help our people.
    Mr. Cunningham. Thank you.
    Thank you, Mr. Chairman.
    CMSAF Benken. Mr. Chairman?
    Mr. Young. Yes.
    CMSAF Benken. Could I address the women issue?
    Mr. Young. Yes, please do. Certainly.
    CMSAF Benken. When I came to the service back in 1970, I 
will tell you that women were confined to about six career 
fields, I believe: Administration and medical. The Air Force 
now has 99 percent of their career fields open to females, and 
the reason I want to bring this up is because I want to foot 
stomp that our training, gender training, is integrated down at 
Lackland Air Force base, and we do not want to change that. We 
want to keep our training the way it is in the United States 
Air Force, with the integration of women, the way it is. It is 
very successful.
    One-quarter of our recruits--and it has been 30 percent, 
actually this last quarter--of our recruits are females. They 
are very much integrated in the United States Air Force, and we 
would like to keep that going. On that particular subject, I 
want to foot stomp, please do not mess with our training.
    Mr. Young. Okay.
    Mr. Dicks.
    Mr. Dicks. Thank you.
    I regret very much that I was unable to be here for your 
prepared statements.

                          RECRUITING STANDARDS

    Mr. Young. Incidentally, I might mention that Mr. Dicks is 
a recent visitor to Tandem Thrust.
    The Master Chief has just come back.
    Mr. Dicks. I am glad you are back.
    Have you seen any evidence that the quality of recruits is 
declining? We know what--the Army has changed its standards at 
the margin, as I understand it, from 95 percent high school 
diploma graduates to 90 percent high school diploma graduates.
    CSM Alley. Sir, we went back to our original standards 
prior to the drawdown of 1989. If you are drawing down soldiers 
and you do not need as many of them, you can raise your 
standards up to 100 percent.
    Mr. Dicks. Right.
    CSM Alley. That is what we did.
    Mr. Dicks. Well, that is good to hear, because you might 
tell that to Reimer and Togo West, because you explain it much 
better than they did.
    Maybe I will do that. I will explain it to them.
    CSM Alley. I would appreciate that, sir.
    Mr. Dicks. You are not lowering your goals you are just 
going back to the goals that you were before the drawdown.
    CSM Alley. We are going back to our original goals sir.
    Mr. Dicks. That is a better way of saying it, I might add.
    CSM Alley. In saying that, you have to remember that our 
high school non-diploma graduates still have a GED.
    Mr. Dicks. Right. It is still a very high quality 
individual coming in?
    CSM Alley. Yes, sir. Not only that, if you are a GED 
holder, you must be in the top three test score categories. You 
cannot be a category IV in the United States Army with a GED.
    Mr. Dicks. So you have seen the top three categories. What 
are those three categories again?
    CSM Alley. Categories I-IIIA, sir.
    Mr. Dicks. Okay.
    Mr. Murtha. If the gentleman would yield?
    Mr. Dicks. Yes.
    Mr. Murtha. Let me add, I visited five bases. The 
recruiter--or the trainers say the quality is slipping. Now, 
you can stand here and tell me GED hasn't changed.
    CSM Alley. Yes.
    Mr. Murtha. I am talking about emotional problems; I am 
talking about physical conditioning; I am talking about----
    CSM Alley. Yes, sir. Excess baggage?
    Mr. Murtha. Yes, that is right.
    CSM Alley. Yes, sir, across-the-board.
    Mr. Murtha. Just so we get a clear picture.
    CSM Alley. Today's Army is not equal to the Army five years 
ago. Now, you want to talk about soldiers coming in today's 
Army? Go to a training base and listen to the language. It is 
nothing like what you are listening to on the outside. The 
higher education you have, the lower you can have to come in.
    Yes, there is a difference.
    Mr. Dicks. How many of the new recruits are minorities in 
the Army?
    CSM Alley. 36.5 percent, sir.
    Mr. Dicks. 36.5 percent. Is that about what it has been?
    CSM Alley. That is what it averages. Well, we started out 
at 14, and we went up. It is about 36.5 percent. We have about 
14 percent females, sir.
    Mr. Dicks. Okay. How about the physical condition of the 
new recruits?
    CSM Alley. Most of our recruits who come in are spending 
their time watching television. We do not have football and 
baseball players anymore. We have to start from the bottom and 
build them up.
    Mr. Dicks. So you have to get them in shape?
    CSM Alley. Yes.

                            FITNESS CENTERS

    Mr. Dicks. One of the things I was noticing in the 
statement by Mr. Benken, Chief Master Sergeant of the Air 
Force, was your strong support for fitness centers.
    CMSAF Benken. Yes, sir.
    Mr. Dicks. And that that was one of the things that the 
people who were in the Air Force ranked as one of their highest 
priorities. Is that correct?
    CMSAF Benken. Yes, sir. They are full every day, every hour 
almost.
    Mr. Dicks. Do the rest of you find that to be the case?
    SGT MAJ Lee. Oh, absolutely.
    Mr. Dicks. We had a big problem. I had a big problem. I 
tried to--I supported and we actually, with bipartisan support, 
fended off a budget attack on a fitness center at the Puget 
Sound Naval Shipyard in Bremerton, Washington, my home town. I 
actually have been to the old facility, which is terrible, 
awful. Thirties, twenties--you know, kind of aged; very little 
equipment. And I stood up to the criticism.
    I think that the services need to explain that these 
fitness centers are very essential to these people being 
successful in the military. They have got various tests. I 
think the Navy, what, does two physical fitness tests a year?
    CSM Alley. All of us do, sir.
    Mr. Dicks. The way they were characterized in the media 
was, it was kind of like a spa. I know that is not the case. 
But I just felt very strongly that we had to stay with this, 
and I noticed that you have got several in your budget that--
and saying that a lot of them are old and need to be replaced 
and that this is an important item, I would assume, in quality 
of life and in retention.
    CMSAF Benken. Absolutely.
    Mr. Cunningham. Would the gentleman yield?
    Mr. Dicks. Yes, I yield.
    Mr. Cunningham. One of the other things, Norm, we found is, 
many of these troops that live on base don't have money to go 
off base. It is either going to the club drinking beer or it is 
going to the fitness center, and it makes a big difference in 
just the quality of life and how they project their life.
    CMSAF Benken. Sir, it is not only that, you know, the 
physical aspect of it, but also the nutritional aspect of it 
and things like that. We incorporate wellness through smoking 
cessation and things like that. And the end cost to the 
Government, when it comes to medical costs and things like 
that, is amazing. It is tremendous. I don't know how you 
quantify that, but we have much healthier troops.
    But to get back to the quality for just a second, you know, 
we are a much smaller force. We cannot afford the day--you 
know, we had a social experiment back when I first came in 
called Project 100,000. We brought in a lot of troops who were 
mentally deficient and things like that, and I would tell you, 
some of them grew up to be more senior ranking than CEOs, and 
we paid the price in leadership and things like that.
    We cannot afford to slip into an era where we take on a lot 
of quality problems into the United States Air Force. Every man 
and woman serving in the armed forces today has to be counted 
on to do their job, and that is why we hit the quality of life 
so hard, that is why we hit retention so hard, is because we 
have to keep those quality people and we have to keep people 
that are motivated for reasons of patriotism, for reasons of 
service before self, and that is essential to us, and we do not 
want to slip into that quality issue that we had several years 
ago. Trust me on that.
    Mr. Dicks. I would like to hear from the rest of you on 
this.
    MCPON Hagan. I would like to respond to what Mr. Murtha 
said and following on to you. The quality definition is very 
narrow and valid for a very narrow set of purposes; it is the 
Armed Forces Qualitative Test, or AFQT and the high school 
graduate or not. I think it might include what sort of a high 
school graduate they are, but that is a very narrow definition.
    Our trainers are faced today with increasing challenges. We 
get the full spectrum of young men and women. We get young men 
and women from homes where parents provided them with a value 
system, sacrificed and put the energy into imbuing that value 
system into them, and we get men and women that have no value 
system. That is a part of a bigger, harder definition of 
quality, and it is what the sergeant major might have been 
calling excess baggage, and it is challenging us. Along with 
societal and cultural norms changing, it makes it a little more 
difficult.
    I would like to also add my comments on the fitness 
centers. We are certainly grateful that one of the great good-
news stories of the Navy is the quality of life at Bremerton 
Shipyard and home port and at Edward and Bangor.
    You should be aware, though, that there are other pressures 
on the fitness centers. Even where we have good fitness centers 
and gyms or where we have adequate fitness centers and gyms, 
the shore-based commanding officer is increasingly finding it 
difficult to keep those facilities open the number of hours I 
would like to have them open as alternatives to, as Mr. 
Cunningham said, other less healthy activities, because the 
pressures of the budget are felt down at that level intensely, 
and I think I would be deficient if I didn't mention that in 
this context.
    Mr. Dicks. That comes right out of the O&M budget; right?
    MCPON Hagan. Yes, sir.
    SGT MAJ Lee. Sir, on the recruiting issue, the quality, 
maybe I am a little bit different. I am not totally 
disappointed in today's youth. They are different. They are 
different, and they have some things that maybe some of us 
didn't have a long time ago, but I am not dissatisfied with 
what we are recruiting. I think we are recruiting as good as 
there is out there, and I think we have--institutionally, I 
think we have an obligation to the taxpayer, to the Congress, 
and the American people in general to not only say we make 
Marines but, in fact, we do make Marines. We do make Marines. 
The better we start off with, the better Marine we will make.
    Right now, sir, we are maintaining our quality at every 
category you can possibly measure, and nothing glaringly is 
sticking out.
    What the people have told us is, the young man and woman 
today want to be challenged. Well, we are challenging them. 
They want somebody they can look up to. We are trying to 
provide somebody for them to look up to. We think we are doing 
that.
    Primarily, they want to belong to something that they can 
believe in, and, again, we are an institution where, if you 
have got anything at all going for you, you can believe in it.
    So I will take odds with the fact that the person we are 
bringing in today is any better or any worse. They are 
different, but I think we can make Marines out of them, and we 
are making Marines out of them.

                          QUALITY OF EQUIPMENT

    Mr. Dicks. Let me ask you one thing. When I first joined 
this Committee 19 years ago, we had the hollow force issue, and 
there were retention problems and all kinds of different things 
that we tried to deal with to put together a package of 
benefits and do the things necessary to keep retention high.
    A lot of us are worried about the lack of modernization, 
and, maybe we are, I think, properly concerned about readiness 
and training and those things; that, maybe the next potential 
problem out there is the lack of modernization. And we are 
hearing some anecdotal evidence that some people are leaving 
some of the services because of concerns about the quality of 
the equipment.
    Is this true, or is that just a fiction?
    CSM Alley. I have never heard of anybody getting out 
because the equipment was not good enough, or was not new 
enough.
    MCPON Hagan. I echo that.
    The Navy shipbuilding plan worries me. It is far above my 
charter, and I accept the fact that the age of our fleet 
presently allows us to delay building more for awhile. I accept 
that. But I think there is no dimension to the retention and 
equipment. Right now, in fact, we have got an awfully capable 
fleet, as you saw in your visits.
    Mr. Dicks. All right.
    SGT MAJ Lee. Sir, the way we look at the Marine Corps right 
now is, there isn't anybody out there that can really beat us, 
not just the Marine but our service. We are--we have old gear, 
we have very old gear, but we have some great new gear coming, 
the V-22, the AAAV, and those kind of things are coming. We are 
not to them yet.
    What we are doing--and our people accept this and 
understand this, we believe--is we are going to invest in 
rebuilding, remanufacturing of our major end items, and that is 
going to carry us and get us ready--and we are ready, we will 
stay ready. That is going to get us to 2005, 2007, 2008, when 
this next level of technology does arrive for us to employ. I 
don't believe I have Marines getting out of the Marine Corps 
because their equipment doesn't work.
    Do I say I don't have problems with supplies in some 
places? Absolutely not. Do we need parts in some places? 
Absolutely. But again, they are almost location oriented. They 
are depending on what level. When you are ready to deploy? Are 
you going out next? Are you a year from going out? A lot of 
intangibles in there that people will hit you with when you ask 
them the question, but reasons and answers are there once you 
do the research. We are ready. We will stay ready. That is it, 
sir.
    Mr. Dicks. Well, thank you very much. We appreciate the job 
you all do.
    Mr. Young. Mr. Cunningham, you have a quick question?
    Mr. Cunningham. Let me give you something really to worry 
about. Looking at what your expectations are with the things 
going out into the future, the President's balanced budget, 98 
percent of the cuts in social spending happen the same time he 
promises to increase modernization. It just won't happen.
    Thank you, Mr. Chairman.
    Mr. Young. Each one of you have risen to the top of your 
profession in the enlisted ranks, and you have tremendous 
responsibilities, and I am sure that you could use extra hours 
every day at your assigned job. But I wonder, how often do you 
get to get out and visit troops in either basic training areas 
or advanced training areas or in exercises? How often do you 
get a chance to do that?
    CSM Alley. Sir, I travel 20 to 25 days a month. I visit 
every installation there is.
    MCPON Hagan. From Antarctica to Diego Garcia. I travel 
constantly, sir, with no restraint and with the absolute 
approval of and encouragement of my leadership.
    SGT MAJ Lee. Same thing, sir. Within the course of a year, 
I will see 80 percent of my men and women around the world.
    CMSAF Benken. 20/25 days a month around the globe.
    Mr. Young. When you make these visits, do you visit with 
the troops, the enlisted troops, basically, and do you give 
them an opportunity to gripe?
    CSM Alley. Oh, yes, sir.
    SGT MAJ Lee. Yes, sir.
    CMSAF Benken. Yes.
    MCPON Hagan. Yes.
    Mr. Young. What are the major gripes that you are hearing 
now?
    CSM Alley. Sir, the biggest thing is the uncertainty of 
where we are going. We say the drawdown is over, but yet we 
know--you pick up the newspaper--the Army is going to take a 
cut. Who? Where? What? Everything affects retention.
    If you continue to tell the soldiers that we are going to 
eliminate 10,000 people or, we are going to eliminate 20,000 
people, the first thing the soldier is going to say is: my unit 
is next; I am next; and I am getting a job now and getting out.
    That is why we are having a problem at the 10- to 12-year 
mark at the sergeant--staff sergeant level. They are cutting 
their losses, and they are going on to bigger and better 
things, or they are just getting out because they do not trust 
what we are telling them because every year we change the 
quota.
    MCPON Hagan. Sir, I do all the all-hands call, the chief's 
call, the command master chief, every level of the enlisted 
force, and then I also interface with the wardroom, although 
less often but enough to be comfortable with their concerns.
    I have included in my testimony some of the things that I 
hear because I make a commitment in front of them, when it is 
an inequity imbued in the law, such as the BAQ difference which 
I included in my testimony, a minor issue in scope but to the 
sailor who is divorced and has child support and is being 
treated unfairly, that is major. I hear about those issues. It 
is major to them, and I translate them into my testimony or 
into action items.
    I hear the same thing that the sergeant major mentioned, 
but I also hear a lot of concern about outsourcing and 
privatization, and at the senior enlisted level that concern is 
that we do it thoughtfully, that we do it with full 
consideration of all the ramifications, which, for the Navy, 
includes sea/shore rotation for the Sailors whose jobs will be 
outsourced.
    For the Navy, I am especially personally concerned about 
not outsourcing initial skill training so that the contact that 
our young sailors have during the pipeline before they go to 
the fleet is with sailors that have been with the fleet, and 
not with community college instructors.
    Advancement has slumped in some areas, to unacceptably low 
levels, in the very ratings that are being called upon to 
operate the heaviest, and the uncertainties with future BRAC 
and future drawdowns certainly are on the list of gripes that I 
hear, sir.
    SGT MAJ Lee. There are things in the Marine Corps. We may 
have, and I believe we do have, the most strict standards for 
retention in the service beyond certain years, and our 
promotion policies are not generous either. In fact, they are 
extremely competitive.
    So when I talk to my Marines, the biggest questions I get 
from them is their individual opportunity to be advanced and 
retained and the majority of the time it has got nothing to do 
with anything except our own personal management and our own 
requirements within the Corps itself.
    As I said awhile ago, I can only keep 18 percent of my 
first term force any given year, and I routinely have about 35 
to 40 percent who ask to stay, but those who can't stay talk to 
me about it.
    Then when I have people who compete for promotion and it is 
extremely competitive--maybe a 60 percent chance of selection, 
and they can only fail two times--and they don't make it, and 
all of them are good people and they don't make it, then I get 
a lot of those questions. But, sir, those are internal type 
management controls. Actually, they are good for the Marine 
Corps because we retain the best; we promote the best.
    One of the questions I get--again, it goes back to early 
on--is the medical issue, and it is not the quality of the care 
that the individuals get and the families. It is understanding, 
particularly on the family side, and those who are 
disassociated or not living close to a military installation, 
understanding TRICARE, understanding the use of CHAMPUS, 
understanding outpatient status, nonavailability slips. The 
complaints are just myriad, and primarily it is education and 
understanding. And, like the sergeant major said, when you PCS 
from one place to another you have got to learn a whole new 
system.
    So those are the complaints I get, sir, on a regular basis.
    Mr. Young. We will have the Surgeon General this afternoon 
and we will have a chance to discuss that with him.
    SGT MAJ Lee. Again, the quality of the care, sir, is good. 
That isn't the issue; it is getting it and understanding it.
    CMSAF Benken. Sir, I think we are holding our breath until 
the QDR is finished whether there is any review to find out 
what direction we are going to go. But drawdown, outsourcing, 
facing the possibility of some more instability, further 
reductions, and things like that certainly are on our minds.
    We fight a lot of perceptions. You know, some of the 
troops, if you just say, ``How many of you feel there is an 
erosion of benefits?'' and you are in the base theater, almost 
everyone will raise their hands. When you show them the 
benefits gained from Congress last year--and I took this back 5 
years with the legislative liaison folks, and I said, ``Look at 
this. I mean, this is what Congress has done for you.'' Then 
they say, ``Oh, okay. Well, we didn't realize that.''
    But a lot of it is a marketing on our part and to make sure 
that they understand that. The other part is what benefits they 
do have in the service, you know, the retirement, the medical, 
and those kinds of things.
    But we took some major changes, I think, in the way we do 
business in our military, when we changed the retirement, when 
we changed the medical, and, you know, with the continued 
rhetoric about the commissary and things like that, those are 
things that are at the heart of the military way of life. It is 
a culture for us.
    I have heard such bizarre things as people talking about 
maybe having an Air Force base where you just have a flight 
line and everybody just comes to work and that is it. I will 
tell you, I don't think that will work. We have to trust each 
other.
    You know, we deal in weapons of lethality, and we have to 
trust the people who stand next to us every day, and it is not 
like an assembly line where you can just go in and if the 
assembly line shuts down, that is okay. If that jet doesn't 
launch correctly because the maintenance member didn't do their 
work correctly, that is a different story.
    So I think a lot of it is perceptions. I think all of us 
would tell you that our morale pretty much is excellent across-
the-board. We have some units that are getting tired. Going to 
the desert the sixth, seventh time in your term of service, it 
gets to be a little bit old. Being away from your family, some 
of the units, 180, 200 days a year, gets to be a little old, 
especially if you come off of a remote assignment for a year in 
Korea and then you do that back to back, that becomes a little 
bit old.
    But I think we are doing pretty good, but we have got to 
watch it. We have just got to be careful.
    Mr. Young. When you make these visits, do you ever have 
meetings with the spouses, the wives and/or the husbands, of 
the uniformed personnel?
    CSM Alley. Sure.
    Mr. Young. Are their gripes basically the same as you hear 
from the active-duty troop?
    CSM Alley. Identical, you have to remember that the soldier 
is complaining because his wife or her husband has been 
complaining. Also, most of the time when we talk to wives, 
child care becomes an issue. So we provide child care and 
different programs to support the family. But, the wives are 
very vocal, and the husbands who are married to female soldier.
    Mr. Young. We are going to give you some written questions 
on child care that I would ask you to respond to for the 
record.
    MCPON Hagan. I am fortunate enough, I think, as perhaps all 
of my counterparts here, that my wife is empowered and 
encouraged as the ombudsman to the Navy at large. I am grateful 
for it because my plate is full with other issues. She will 
interface with the wives, hear the comments and questions about 
the commissary and exchange, the child care, family housing, 
the support networks, responds and is able to satisfy, I would 
estimate, 70 percent with information she has because she is 
better connected. She brings me the other 30 percent to take 
care of.
    So yes, sir, I stay plugged into the families pretty well.
    SGT MAJ Lee. My wife is both a mother and a Marine, sir, 
and she spends a lot of time with families as well as with the 
Marines. Yes, we spend a lot of time with the wives.
    CMSAF Benken. Well, the important thing to note on that is 
that our demographics completely changed. You know, we used to 
be 70 percent single and about 30 percent married. We are now 
70 percent married and 30 percent single. So we have to pay a 
lot more attention to our spouses.
    The thing that we found in Europe when we were doing all of 
the contingencies at the height of the contingencies that we 
were doing over there, again, we couldn't do anything about the 
political aspects of that and we had to go keep Saddam in his 
box. We had to deal with Bosnia and those sorts of issues.
    But we found that if we could attack the quality of life, 
if the spouse didn't have to worry about getting a hospital 
appointment, if they didn't have to worry about leaky plumbing 
in the house and if they didn't have to worry about those 
issues, child care, then the quality of life went up, the 
complaints went down, the mission was performed, no problem.
    So that is where the spouse connection is made.

                       QUADRENNIAL DEFENSE REVIEW

    Mr. Young. I listened closely to your responses, and a lot 
of the complaints that you hear have to do with the OPTEMPO, 
have to do with the back-to-back deployments, and I am 
wondering, how much input do each of you have in the QDR? Are 
you direct players when the QDR board meets, or do you have an 
opportunity through your chief to have substantial input to the 
QDR? Whatever this QDR comes out with, if it goes forward, will 
have a lot to do with how many more deployments there are, how 
many more troops or how many fewer troops there are going to 
be.
    MCPON Hagan. Yes, sir. If I could answer that in two parts, 
I would have to tell you I think it is mostly my fault that I 
am not plugged into the current QDR process. I think I could 
be, should I insist. My own personal OPTEMPO has prevented 
that, and I am comfortable with the representation.
    I would like to go back to your opening statement about 
many of the complaints that come from OPTEMPO. That is not 
untrue, sir, but I didn't come here today with that complaint. 
I really want only this Committee and OSD and all of our 
leadership to fully recognize the OPTEMPO and PERSTEMPO when we 
prioritize the needs. We as a Navy wouldn't be much use if we 
complained about deploying or living aboard ship or standing 
the duty required to keep the ship mission ready.
    My concern is that when the prioritization of resources is 
finalized, that it be considered that those who have worked the 
hardest and sacrificed the most. So yes, there are plenty of 
complaints but Sailors really are proudest, and in fact on 
these surveys I mentioned, if you will look at the surveys that 
are laid out over a 10-year period, you will see a peak on the 
satisfaction rate of everything that is asked: How satisfied 
you are right after Desert Storm when our OPTEMPO had been 
really out of whack. Some units had been deployed for the full 
12 months; units that had just returned from deployment 6 
months went for another 6 or 8. So two separate issues.
    I am satisfied with my representation for the QDR and how 
the Navy is working that, although I, like the chief master 
sergeant, am anxious to see the results.
    SGT MAJ Lee. Sir, I am very much involved in the QDR. 
General Krulak allows me to be a part of all of his sessions--
not in tank, I don't do any tank meetings, but everything else 
I do.
    During OPTEMPO, PERSTEMPO, again, we start from day one, 
making sure our Marines and their families understand that the 
Marine Corps exists to be deployed. That is all we exist for, 
just like the Navy. In doing so--I swear, sir, I am not lying 
to you--if I go into an operational command that has not been 
out for a period of time, the questions I get are: Why can't I 
go? When am I going to go?
    If something is going on in the world that looks exciting 
and I have got a battalion at Camp Lejeune that ain't involved, 
they are angry about it. And, to be honest with you, a lot of 
times--getting back to the wives--when I have sessions with the 
wives and my wife has sessions with the wives and they get 
together and they are in operational commands and their spouses 
have not been anywhere for awhile, they want to know when they 
are going out. Now, that is true, sir. I am not making light of 
the subject here.
    PERSTEMPO, OPTEMPO, any problems we have, they are internal 
problems.
    Now, if we drop far below our authorized current strength, 
I can't sit here next to you and tell you that, sir. We need to 
hang where we are. I am not going to lie to you. Keep doing 
what America needs to do.
    CSM Alley. I agree 100 percent. I just came from Fort Hood. 
Fort Hood has III Corps, the heaviest armored corps in the 
United States Army. They deploy 140 to 170 days a year.
    Also, if we lose any more soldiers in the United States 
Army, we will increase everything that each soldier is doing 
today. It is a serious problem, when we watch an infantry 
battalion pull up, they drop the back of the Bradley, and nine 
soldiers are supposed to come out but only three come out.
    It is not going to improve. We are going to continue 
deploying. We are going to continue to be combat ready, and we 
are going to continue to support everything that we have.
    CMSAF Benken. PERSTEMPO it is a hard one to get your arms 
around because it is very complex. Some of our highest 
retention is in the high PERSTEMPO units, the units that are 
deployable. And then you get into an area where the F-16 crew 
chiefs, for instance, where they will go to a place like 
Kunsan, Korea, in heavily tasked exercises, things like that, 
plus a remote tour. Then they come back to a unit that is going 
to the desert all the time. Those things start to take their 
toll.
    So we have to be careful that we watch some of those 
particular career fields: Fire fighters, security policemen, 
civil engineers, for instance. We have to watch them very 
closely, because we are starting to have some drops in their 
retention.
    So it is a tough one. When you ask the troops, you know, 
they say, ``Well, yeah, we like being in the game, you know; we 
don't like sitting on the sidelines; we want to drop a little 
steel on the target,'' and stuff like that. So it is a mixed 
bag.

                                OPTEMPO

    Mr. Young. Well, I have a lot more I would like to talk to 
you about on that subject, and I don't want to get in trouble 
with any one of the four of you, but I detect a little 
inconsistency in your position that, yes, we are there--we are 
prepared to go, and we are going to go, and we will go, and we 
will do a good job.
    I know that. I agree with you. I believe that. But you 
still have a lot of people out there in the trenches that have 
been deployed time after time after time, and it is getting to 
them, and it is getting to their family. The Army had 18 
divisions in Desert Storm. Now we are down to 10. If the 
OPTEMPO stays where it is, 10 and 18 is such a big difference. 
That means almost twice as much OPTEMPO for the individual 
soldier.
    So I hope that as we approach this QDR--that is the reason 
I asked about the QDR. I hope that your input would be that if 
we are going to continue to have a high OPTEMPO and a high 
number of contingencies, contingency deployments, that we are 
going to stop reducing the end strength and we are going to 
stop reducing the force so that you have enough people to give 
somebody a break in between a deployment.
    Well, enough on that.
    Mr. Murtha.
    Mr. Murtha. Nothing further, Mr. Chairman.
    Mr. Young. Well, thanks very much for a very interesting 
hearing. And I just hope that one thing you will do for all of 
us on this Committee--I know that when I visit, and Mr. Murtha 
visits a lot, and other members visit the troops in the field, 
one thing that I hear, and I think others hear the same thing: 
Does anybody in Washington really care about us?
    I hope that you will tell them that the members of this 
Committee really do, that we appreciate them, that we respect 
them, that we are here to do what we can to make their life--
the quality of their life and the life of their family as good 
as we can make it. And if you will pass that on for us, we 
would appreciate it because all of us are sincerely committed 
and dedicated to that proposition.
    And, again, thank you very much. The Committee will adjourn 
now. We will reconvene at 1:30 today in an open hearing, to 
discuss the Department of Defense's medical programs.
    The Committee is adjourned.
    [Clerk's note: Questions submitted by Mr. Young and the 
answers thereto follow:]

                          Compensation Reforms

    Question. The Committee understands that starting in fiscal year 
1998 OSD is considering reforming Basic Allowance for Subsistence 
(BAS). BAS reform would tie the current subsistence allowance to a more 
credible food cost index, and ensure equitable compensation between all 
enlisted members. We are aware of problems that have occurred in the 
past when service members have deployed and their paychecks were 
reduced for the $200 a month allowance. Do you believe that the 
subsistence allowance needs reform, and this new initiative will 
alleviate that pay problem?
    Army Answer: Currently, the law does not allow us to uniformly pay 
BAS to soldiers when they are deployed. A soldier deployed for an 
operational mission, like Bosnia, is paid BAS. However, a soldier 
deployed for a training exercise is not paid BAS. This allowance is, in 
many cases, 22 percent of the soldiers salary. Enlisted soldiers 
believe that reform is needed. The Army supports BAS reform as the key 
to resolving these types of pay inequities.
    Navy ANSWER: The current BAS Reform effort has been very well 
staffed, is fiscally responsible, and will allow us to collectively 
move on to other equity driven BAS initiatives.
    Current BAS Reform initiatives are intended to line this pay up 
with its original intent, the cost of food, and to detach it from the 
ECI calculated cost of living adjustment. There are, however, other 
important Navy specific BAS issues which should be carefully considered 
in the next review of our pay and allowance system.
    For example, currently when a Sailor returns to sea duty, he or she 
forfeits BAS in favor of Rations in Kind. They subsist in the mess 
onboard ship, and have no other options. It is unreasonable to expect 
anyone to commute to the ship for meals during time off, but there are 
no provisions for partial BAS, etc. All shipboard Sailors, married or 
single, forfeit BAS.
    The current BAS Reform initiative is a step forward and may allow 
us to address next the long standing inequity posed for deployed Naval 
Mobile Construction Battalions (NMCBs) (also known as Seabees) units as 
well. Currently, these Seabees face the highest OPTEMPO/PERSTEMPO cycle 
in the Navy, deploying seven months out of every year during their sea 
tour. While deployed, SEABEES receive lower pay through the forfeiture 
of BAS. These examples are provided to the Committee for background 
information and I stand ready to be part of any review or study of the 
remaining challenges.
    Marine Corps Answer: BAS Reform is a good initiative. It will 
provide money to Marines who had to either eat every meal in a 
messhall, or else pay ``out-of-pocket'' for occasional meals outside 
the messhall. The current initiative does not address the issue of BAS 
payments when deployed.
    Air Force Answer. Subsistence allowance reform is necessary because 
the current allowance, tied to increases in basic pay, has lost its 
relationship to food costs. Increases in BAS should be tied to a 
credible index, and will be under BAS reform.
    The reform will also correct inequity between those enlisted 
members who receive BAS and those who receive their subsistence in-
kind. If the typical member receiving BAS today were to eat all their 
meals in a government dining facility, they would have money left over 
at the end of the month. Members receiving their subsistence in-kind 
only receive the meals. By providing BAS to all members, we are 
recognizing that even those members who are required to use dining 
facilities have other subsistence needs.
    What BAS reform does is establish a level playing field prior to 
deployments. However, subsistence allowance reform will not, by itself, 
correct BAS deployment inequities. The Services and OSD need to 
establish uniform policies for the payment of BAS to deployed troops.
    Question. Explain the aspects of this reform plan. How long will 
this reform initiative take to implement? Why does the Department say 
this reform plan will be cost neutral?
    Army Answer. BAS reform will correct the pay inequity between 
deployed soldiers. All soldiers will be entitled to full BAS and 
charged for meals provided by the Government. Our soldiers will be able 
to keep the portion of their allowance that remains after paying for 
their meals, recognizing that soldiers required to use dining 
facilities have other subsistence needs. Additionally, this reform 
simplifies BAS by reducing the number of rates, and ties the allowance 
to a food cost rather than pay. If approved, BAS reform will take five 
years to reach completion. Placing all enlisted members on full BAS 
immediately would cost approximately $138 million. This is just not 
affordable. It is my understanding that the Department intends to 
distribute available dollars in a cost neutral way, limiting BAS growth 
to one percent a year for all soldiers receiving BAS, and incrementally 
paying full BAS to those soldiers who are subsisted in kind.
    Navy Answer. The cost relevance relationship between BAS's monthly 
allowance ($220) has long since left the USDA monthly food allowance 
($200) behind. That relationship and the further eroding of BAS as a 
``credible food allowance'' will continue to widen as long as BAS 
increases with the annual pay raise. DoD's BAS Reform will correct that 
problem. The goals of BAS Reform are simple: (1) erase the ``gap'', 
thereby returning BAS to a credible food allowance, and, (2) remove 
many BAS pay inequities inherent to the current system. The timetable 
for erasing the ``gap'' is five years. This ``transition'' period will 
allow DoD to put an annual 1% growth ``cap'' on BAS, thereby letting 
the allowance to slowly rise while affording the USDA allowance 
sufficient time to ``catch up'' and achieve BAS/USDA parity at the end 
of the fifth year. During the transition period, those not receiving 
BAS now, will begin to receive a partial BAS allowance (on the average 
about $20 per month), that will dwindle in amount each year towards 
zero as BAS/USDA parity is reached. At that time, all enlisted will 
receive BAS and partial BAS payments will cease. DoD has determined 
that this initiative will be cost neutral because of joint Service 
concurrence to ``pool'' all of DoD's BAS annual funds in one ``pot'' 
and then apportion the necessary funds to each Service, based on needs 
(in essence, Army and Air Force will provide parts of their BAS funding 
to pay those Navy and Marine Corps members not currently receiving 
BAS).
    Marine Corps Answer. The BAS reform proposal will entitle all 
enlisted service members to BAS. Once all service members begin 
receiving BAS, DoD will propose that service members do not lose their 
BAS when they deploy. OSD would like the plan to begin in Jan 98 and be 
implemented over a six year period. OSD refers to the plan as ``cost 
neutral'' because the plan does not require any additional funding from 
Congress.
    Air Force Answer. This reform plan will link BAS to a credible food 
index (a USDA food index) and will tie increases in BAS to increases in 
the USDA food index rather than to pay raises as is currently done. 
Enlisted BAS currently exceeds the selected USDA food index by 
approximately $20 per month.
    BAS reform will also provide BAS to all enlisted members, to 
include those currently living in dormitories who are directed to eat 
in government dining facilities. Once the reform transition period is 
complete, these members will have the cost of their dining facility 
meals deducted from their BAS. After the deduction of their dining 
facility meals, these members will have approximately $48 of 
``spendable'' BAS remaining each month.
    BAS reform will achieve cost neutrality by limiting the growth of 
full BAS to 1 percent per year until full BAS equals the USDA food 
index. The remaining 1-2 percent which BAS would have risen will be 
used to fund a ``partial BAS'' for those not currently entitled to BAS. 
The amount of partial BAS will increase incrementally over a five-year 
period. When the cost to eat in a dining facility plus the partial BAS 
equals the USDA food index, the transition period will be complete and 
all members will draw full BAS.
    Question. Do you believe that your enlisted soldiers and sailors 
will perceive this as another erosion of benefits that you will have to 
counter?
    Army Answer. At first glance, BAS reform appears to be an erosion 
of benefits for those currently receiving BAS, because it limits the 
increase to their BAS for five years. However, when briefed on the 
whole program and the benefits that will result, soldiers will 
recognize that the benefits outweigh the downside to the program. 
Fixing deployment inequities and bringing this allowance in line with 
food costs will benefit all of our enlisted soldiers.
    Navy Answer. No, quite the contrary for Navy, our Sailors like the 
initiative. All enlisted, regardless of marital status, on sea duty 
never see BAS. On shore duty, our married Sailors are automatically 
authorized BAS. Our single Sailors, who live on-base, must miss at 
least two meals daily to be authorized BAS. So for those single Sailors 
living ashore in our Bachelor Quarters and for every Sailor on sea 
duty, this initiative is an instant ``money-maker'' in the form of 
Partial BAS. At the end of the five year transition period for BAS 
Reform, all Sailors, married or single, at sea or ashore, will receive 
BAS and be debited for the meals the government provides. Our Sailors 
are looking forward to the enactment of BAS Reform.
    Marine Corps Answer. Marines who already draw full BAS will 
undoubtedly perceive an erosion of benefits when they see annual BAS 
raises limited to 1% over the next 6 years. Education will be the key 
to ensure all Marines understand the purpose and reasons behind this 
reform. It's not an easy sell when Marines are told that current BAS 
rates ``overpay'' them for food costs. But good leadership and thorough 
explanations should alleviate the perception of eroding benefits.
    Air Force Answer. That depends on who you ask. The 58,000 airmen 
who will receive an additional $48 per month will undoubtable see this 
as an increase in benefits. On the other hand, the 244,000 enlisted 
members who will see increases of 1 percent vice 2 or 3 percent in 
their BAS may very well see this as an erosion of benefits. (Over the 
course of the transition period, enlisted members drawing full BAS will 
see an increase in BAS from $220 to $234 vice an increase to $259.) 
Because of this perception, OSD and the Services will pursue an 
aggressive marketing campaign to ensure our people understand the 
reform and why it is being implemented.

                        Housing Allowance Reform

    Question. The Committee understands that the Basic Allowance for 
Quarters (BAQ) and Variable Housing Allowance (VHA) are being 
considered by OSD for reform also. Explain what the intent of the 
Department is in combining the two allowances.
    Army Answer. The intent of the new system is to directly address 
the three key flaws in the old system: (a) basing housing allowances on 
housing expenditures instead of housing prices; (b) basing housing 
allowance increases on pay raises instead of housing price increase; 
and (c) inequitable distribution of housing allowances. The plan 
combining BAQ and VHA into one allowance will determine allowances 
based on local fair market rents, tie increases in housing allowance to 
increases in housing costs, and will ensure that absorption, or out-of-
pocket costs, are the same for each grade anywhere in the United 
States. One of the main strengths of this proposal is that it will 
directly address current shortfalls, particularly in junior enlisted, 
singles, and high-cost area housing allowances. The new system's 
bedrock is equity.
    Navy Answer. Combining BAQ and VHA into a single housing allowance 
will enable us to target the housing allowance more appropriately and 
for the first time tie the allowance to a national index of housing 
costs. Currently, BAQ is indexed by wage costs, not housing costs. VHA 
is based on survey data as reported by members, reflecting what they 
can afford to spend on housing rather than what might be appropriate. 
As a result, neither BAQ nor VHA have been able to consistently keep up 
with the growth in housing costs. In addition, the current system has 
unfairly disadvantaged those in high cost of living locals while 
favoring those in low cost of living locals. Under the single housing 
allowance system, we will be able to more equitably distribute funding 
from low cost of living locals and pay grades to appropriate high cost 
of living locals and pay grades that need increased allowances.
    Marine Corps Answer. The current system of VHA/BAQ is not equitable 
for all Service members. Many Marines pay more than 20 percent in out-
of-pocket expenses because they are located in high cost of living 
areas. The intent of housing reform is to correct the current disparity 
and realign money from low cost areas to high cost areas so all service 
members, regardless of their location, have the same out-of-pocket 
expenses.
    Air Force Answer. The objective of a housing allowance is to 
provide members allowances that are sufficient to allow the members to 
obtain housing appropriate for their pay grade and dependency status. 
Combining BAQ and VHA and establishing a single housing allowance is 
more equitable and efficient and removes the inefficiencies of our 
present system. Under our current expenditure-based housing system 
(member survey), rate-setting is internal. Housing allowances could 
remain artificially low or high in an area because members may adjust 
their housing consumption according to the established housing 
allowance rate and not upon the actual housing market costs.
    Under the housing allowance reform, housing allowances will 
actually be linked to growth in housing costs, locally and nationally. 
Implementation of the reform contains a ``save pay'' provision so that 
no one will lose dollars out of their paychecks. The reform will 
eliminate VHA offset, survey, and certification.

                          Personnel Promotions

    Question. To what extent has the issue of promotions, or lack 
thereof, been an issue among enlisted personnel in each of your 
services?
    Army Answer. Enlisted promotion opportunities increased in fiscal 
year 1997 to the highest level since 1990 due to the Army achieving a 
post drawdown steady state. Increased promotions improved soldiers' 
morale by recognizing and rewarding soldiers for demonstrated promotion 
potential.
    Navy Answer. Navy plans continued force shaping through fiscal year 
1999; although much of our drawdown has been completed, we are still 
reducing the size of our enlisted force. Promotion opportunities 
continue to be a strong concern for our Sailors. Results from our 
voluntary Retention/Separation Questionnaire, given to Sailors who are 
reenlisting, extending, or separating, identify promotion and 
advancement opportunity as one of the top six reasons (of 45 factors) 
for leaving or thinking of leaving the Navy in every year since the 
current version of the questionnaire began in fiscal year 1990, before 
the drawdown. However, concern about promotion and advancement 
opportunity has been stronger in the last three years; for fiscal year 
1994 this reason ranked first, for fiscal year 1995 and 1996 it ranked 
second.
    Marine Corps Answer. The issue of promotions has always been a 
concern of Marines. The amount of time in service for promotion is the 
primary focus of attention for most Marines. Additionally, they are 
also concerned with the selection rate (promotion opportunity) within 
their Military Occupational Speciality. We continue to apply, and 
adjust when necessary, the various policies within our promotion 
process that are designed to increase promotion opportunity and 
decrease promotion timing so all of our Marines can realize their 
greatest personal and professional potential. These policies are 
contained within our Enlisted Career Force Controls Program.
    Air Force Answer. Promotions have not been a major issue for our 
Air Force enlisted personal during the drawdown. We worked to maintain 
Air Force minimum promotion opportunity goals for all grades. Promotion 
rate to each of our noncommissioned officer grades stayed reasonably 
stable based on these goals. At this time, promotion rates are 
projected to increase for all grades in the upcoming promotion cycles.
    Question. Now that the large drawdown of the force structure has 
basically been completed, are promotions of enlisted personnel occuring 
in a normal time frame?
    Army Answer. Yes, the promotion point for enlisted soldiers in 
fiscal year 1997 has returned to the pre-drawdown level. The increase 
in promotions following the end of drawdown has reduced the waiting 
time on promotion lists for enlisted soldiers at all ranks.
    Navy Answer. E4s' average time to advance has remained fairly 
normal. E5/E6 continue to show the most stagnation due to the large 
cohorts in the 15-19 years of service cells. E7 to E9 have started to 
show some improvement. Overall, we expect average time to advance to 
remain consistent or improve over the next few cycles.
    Marine Corps Answer. Prior to the drawdown, in 1985, a USMC target 
was established for time in service to promotion at each grade. This 
target was the actual average time required for promotion in 1985. 
Since the drawdown, more time has been required than the target for 
promotions. Promotions in the Marine Corps are based on the actual 
vacancy to the next grade by skill. Currently, several efforts are 
underway to reach the established promotion targets. These efforts are 
part of the Enlisted Career Force Controls (ECFC) program. The 
following are specific aspects of the program which influence 
promotions:
    1. Grade Shaping. Restructuring of skills by grade to meet 
promotion targets.
    2. Variable Selection Opportunity. Increasing the number of Marines 
considered for promotion for slow promoting skills and decreasing the 
number considered for fast promoting skills.
    3. First Term Alignment Plan (FTAP). Authorizing the appropriate 
number of Marines who are allowed to move into the career force.
    4. Service Limits. Separating Marines after they have been 
considered, but not selected, for promotion.
    Air Force Answer. Promotion timing for all grades with the 
exception of Technical Sergeant (TSgt) remained within Air Force 
optimum time frames. Optimum promotion timing to TSgt is 10 years time-
in-service. TSgt timing is currently 13.63 years time-in-service. We 
are working toward reducing TSgt promotion timing but, that will be a 
gradual process. Our promotion rates over the next several years are 
projected to increase causing the time it takes for promotion to 
decrease.

                          Quality of Recruits

    Question. Have you seen any evidence that the quality of recruits 
is declining?
    Army Answer. There has been no decline in our quality marks as 
measured by the Armed Forces Qualification Test (AFQT). Through the end 
of March 1997, the content of our Test Score Category (TSC) I-IIIA 
soldiers (those in the Delayed Entry Program (DEP) plus those already 
accessed for this fiscal year) equaled 69 percent against a goal of at 
least 67 percent. Additionally, two percent of the DEP plus our non-
prior service accessions are TSC IV soldiers, against our goal of not 
more than two percent. (Note: All recruits must meet mental, moral, and 
physical standards before they are qualified to enlist in the Army.)
    We have adjusted the High School Diploma Graduate (HSDG) recruiting 
indicator from 95 percent to 90 percent. However, the 10 percent not 
holding a High School Diploma are required to hold an alternative High 
School Graduation credential (e.g., GED, Home Study Diploma, High 
School Certificate of Attendance, etc.) and score in TSCI-IIIA on the 
AFQT. HSDG accessions, including DEP, are currently at 91.3 percent.
    We will achieve both sets of goals--HSDG and AFQT scores--in fiscal 
year 1997.
    Navy Answer. Navy is currently exceeding its goal for Test Score 
Category (TSC) I-IIIA quality. The target for fiscal year 1997 is 65%. 
Navy has accessed 68.4% TSC I-IIIA through the end of February 1997. 
Accessions plus that which is in the Delayed Entry Program of fiscal 
year 1997 is 67%.
    The High School Diploma Graduate (HSDG) target for fiscal year 1997 
is 95%. Currently (through February 28), 92% of fiscal year 1997 Navy 
accessions have been HSDGs. The accessions plus what is in the Delayed 
Entry Program for fiscal year 1997 is 95.3%. Navy typically brings in a 
lower percentage of HSDGs in the fall and winter months and moves 
toward 100% during the spring and summer months. This seasonal pattern 
has been observed over the past several years. Navy has achieved 95% 
HSDGs since fiscal year 1994.
    In the sense that ``quality'' is used to describe recruit 
accessions is limited to education and test scores, I am not concerned 
about current Navy ``quality.'' However, in the broader sense that 
quality indicates potential, character and personal value systems, I am 
certain that Navy's challenge is greater than at any other time. Todays 
youth is exposed to more skepticism and irreverence toward authority, 
established values and traditional mores than ever before. The media 
exposure to the eccentric, cultish and even the bizarre is frequently 
not offset by caring parents. Additionally, an alarming number of 
recruits report traumatic experiences in their youth including rape, 
sexual molestation, abuse and neglect.
    Marine Corps Answer. The quality of our applicants is not declining 
due to the hard work and effort by the individual recruiter. The 
quality of applicants available within the 17 to 21 year old market has 
declined over the years, however, it has leveled off and has slowly 
begun to grow. It is more difficult to find morally and physically 
qualified applicants within the remaining quality market.
    The ultimate objective of the recruiting effort is the perpetuation 
of the Marine Corps and the standards of preparedness and military 
vigor that Marines have upheld since 1775. The making of Marines is 
among our most important responsibilities to the American people. We 
take America's young men and women and imbue in them our ethos, our 
core values, and the skills necessary to win on the chaotic battlefield 
of the 21st Century--We transform them into Marines. It begins with the 
recruiter and our applicants' first exposure to the Marine Corps Story.
    As stated above, the overall applicant pool is shrinking as the 17-
21 year old age market slowly declines into the next century. Decline 
is due to a number of competing factors; increased interests in 
college/vocational school, industry and businesses now recruiting in 
our high schools; applicant perceptions that they can rely on parents 
for continuing support, and the belief that they can obtain the same 
benefits as provided by the military through other means with less 
personal risk or cost.
    Quality indicators, as defined by Department of Defense (DOD) 
(mental group and educational categories), would indicate applicants 
seeking opportunities in the Marine Corps is excellent. We are 
convinced that we will make all of the DOD accession quality goals 
assigned. In the category of education qualifications, the Marine Corps 
has further raised the bar of Tier I accessions (high school graduates, 
adult high school graduates, prior service applicants with 3 or more 
years w/GED, and college/post secondary student with 15 semester hours/
22 quarter hours of college) to 95% vice the DOD goal of 90%. This 
decision is supported by previous Center for Naval Analyses studies 
that have found by far, the strongest indicator of success was the high 
school diploma graduate.
    The increases in accession quality have produced many benefits for 
the Marine Corps, the major one has been the reduced overall Marine 
Corps first-term attrition
    Air Force Answer. Yes. In previous years we've met our quality 
targets for the percentage of enlistees scoring in the top half (83% in 
Category I-IIIa) of the Armed Forces Qualification Test. However, based 
on the current year to date information about scores for recruits, 
there is currently a decline in that percentage. The caution lights are 
on and we are continuing to monitor the scores of our new recruits as 
the year progresses.
    Question. What about the physical condition of new recruits? Have 
you noticed any decline in recent years?
    Army Answer. Yes, they are in a significantly lower state of 
physical conditioning upon arrival at the training installation. The 
trends indicate recruits are heavier (about 30-50 pounds above 
accession standards) and slower runners. For example, approximately 15 
percent of females and 5 percent of males arriving at Basic Training/
One Station Unit Training units this year cannot complete the required 
numbers of pushups (1 for females, 12 for males) to begin training. 
These statistics are an increase over the past two years. The impact of 
recruits arriving in less that desirable physical condition is an 
increase in the number of injuries for strain of lower extremities 
because of the dramatic lifestyle change. However, once in physical 
fitness programs, the recruits are doing well in adjusting to the 
rigors of physical training. Due to careful training and encouragement 
from drill sergeants and cadre leadership, the recruits acquire a 
positive ``Can Do'' spirit and improve in their physical conditioning. 
At Fort Jackson, the statistical data shows that less than one percent 
of recruits have been discharged in both fiscal years 1995 and 1996 for 
failing the final Army Physical Fitness Test prior to graduation from 
Basic Training.
    Navy Answer. Yes, through my contact with the recruit training 
command I am concerned that many of today's youth are very unfit. In 
contrast, they also often indicate a desire to have their personal 
discipline reinforced and attain a better level of fitness.
    MEPS data from physicals administered at the time of processing, 
comparing fiscal year 1994 to fiscal year 1995 reflects an 8.5% 
increase of both applicants permanently medically disqualified for 
enlistment. From fiscal year 1995 to fiscal year 1996 there was only a 
.3% increase of those applicants not qualified.
    This does not include applicants not in good physical shape in 
terms of sit-ups, push-ups, running and swimming. Navy's minimum 
fitness standards are not difficult, but many young Sailors are unable 
to meet them without remedial efforts.
    Marine Corps Answer. The physical fitness of our 17 to 21 year old 
market appears to have declined with fewer youth participating in 
physical activities either at school or recreational. However, the 
physical condition of new recruits has improved over the years for 
several reasons. First, the inception of a strong pool program and the 
addition of a poolee handbook has helped better prepare our recruits 
mentally and physically for recruit training. Second, emphasis on the 
Initial Strength Test (IST) in the Delayed Entry Program has helped 
reduce the number of individuals that attrite due to IST/PFT failures 
while at recruit training.
    Air Force Answer. We have perceived no decline in recent years, but 
two things make it difficult to measure directly:
    First, Air Force Basic Military Training's physical conditioning 
program was totally redesigned in 1994. Before that time all trainees 
ran in BDUs and combat boots as a flight formation (about 55-60 
trainees) with the pace obviously set by the ``slowest'' trainee. Today 
we run and exercise in a physical conditioning uniform (shorts/t-shirts 
or sweat pants/sweat shirts) with good running/athletic shoes. They 
also run farther than before--an average of 60-80 miles in six weeks as 
opposed to 20 miles--and resistance bands, push-ups, chin-ups, and sit-
ups to increase muscular endurance.
    Second, while discharges for failure to meet physical conditioning 
standards have occurred, we may have categorized them a number of 
different ways--failure to perform, medical problems, or prior existing 
physical/medical condition.
    What we do know is that those graduating from BMT have met or 
exceeded BMTs standards of fitness. To graduate from BMT, airmen must 
pass a timed run, sit-up, and push-up standard. Therefore, all BMT 
graduates must meet or exceed the level of physical performance that 
brings them to a set of sustained aerobic and muscular endurance 
standard. This standard was developed in conjunction with Air Force 
medical professionals.
    Question. How concerned are you about the recent increase in 
recruits who don't have high school diplomas?
    Army Answer. The Army goal is to enlist 100 percent of its non-
prior service accessions as high school graduates, with 90 percent 
being traditional high school diploma graduates (HSDG). Ninety percent 
is also the Department of Defense (DoD) standard. We are not as 
concerned with the recent increase to allow more non-traditional high 
school graduates to enlist in the Army as we are in failing to meet the 
Army's end strength requirement.
    First, those individuals without a regular high school diploma must 
still have a high school equivalent credential, whether it be a GED, a 
High School Certificate of Attendance, a Home Study Diploma, a 
Correspondence School Diploma, or an Occupational Program Certificate 
of Attendance.
    Second, they must score in the upper mental test score categories 
(TSC) on the Armed Forces Qualification Test (AFQT). We feel this is a 
primary determinant of the ``quality'' of a recruit. We will continue 
to meet our goal of achieving at least 67 percent for our non-prior 
service accession in the top mental categories (TSCI-IIIA).
    We took this step to allow more non-traditional high school diploma 
graduates to enlist, in part because of their higher accession mission. 
During the drawdown, the content of HSDG's was artificially high, 
representing the Army's ability to be more selective when accession 
missions were abnormally low. In order to meet the fiscal year 1997 
accession mission of 89,700, a 22 percent increase from the previous 
year, we needed to expand the pool of young men and women eligible to 
join the service.
    We feel we can open enlistments to these young men and women who 
have completed their high school equivalency requirement without a 
reduction in the quality of the force. This is a step we must take to 
achieve our accession mission and meet the end strength requirements of 
the Army. I also must note that returning to 90 percent of HSDG still 
gives us a force comparable to the one recruited prior to Desert Storm, 
a force which showed its quality on the battlefield.
    Navy Answer. There has not been an increase in the Navy. Chief, 
Naval Recruiting Command (CNRC) restricts accessions of non-High School 
Diploma graduates to 5%. CNRC projects completing fiscal year 1997 with 
over 95% of accessions having high school diplomas which it has done 
since fiscal year 1994. I have been steadfastly opposed to compromising 
this restriction. Incidently, the 5% non-high school graduates are all 
upper test score category with no other criteria.
    Marine Corps Answer. There is absolutely no cause for concern. The 
apparent decline in high school graduates (HSG) is only a perceived 
decline. The percentage of HSG shipped is always low during the first 
half of the fiscal year, and rebounds after the seniors graduate. At 
the end of February in FY95 HSG shipping was at 94.5%, and at the same 
time in FY96 HSG shipping was at 95.4%; however, Total Force HSG 
shipping for FY95 and FY96 was 96.0% and 96.2% respectively. HSG 
shipping at the end of February this fiscal year was 94.9%, which is 
consistent with previous years. There is no reason to believe that HSG 
shipping will not continue on the same trend as previous years and be 
well above 95% by year's end.
    To meet the technical challenges of today's Marine Corps and build 
the Corps of the 21st Century, we must continue to recruit youths who 
have graduated from a traditional high school. Through continuous 
analysis of attrition data, we have found that it is with these 
recruits that the Marine Corps experiences its greatest success. As 
such, we do not intend to lower our present shipping goal of 95% HSG to 
accommodate prospects with non-traditional educational experiences.
    Air Force Answer. The Air Force has not experienced an increase in 
recruits who don't have high school diplomas. Our policy is 99% of all 
enlistees must have DoD Tier I education credentials (a traditional or 
adult high school diploma or at least one semester of college). We are 
meeting this standard and have no plans to reduce it.
    Question. Are the recruits of recent years as ``mentally tough'' 
and disciplined as those in past years?
    Army Answer. No. The recruits are not as mentally tough and 
disciplined as those in past years. Some Basic Training/One Station 
Unit Training (BCT/OSUT) installations report a slight increase in the 
number of recruits that decide to quit. According to the BCT/OSUT 
leadership, many now come from broken homes and have trouble dealing 
with authority. More recruits today than in the past are married and 
have children. Even though they have made arrangements to have their 
children cared for by legal guardians, they are having trouble dealing 
with the separation and the demands of Initial Entry Training.
    Navy Answer. Navy recruiters are able to test new recruits through 
the Armed Services Vocational Aptitude Battery and to confirm 
completion of High School. Currently, there is no way to ``test'' for 
discipline or ``mental toughness'' at the recruiter level. Time in the 
Delayed Entry Program allows the recruit to learn more about what is 
expected of him or her at the Recruit Training Command and in the Navy, 
thus preparing him or her for the challenge.
    In my opinion, the answer is decidedly no. I believe a growing 
number of today's youth are unwilling or unable to respond to the 
pressures of a structured environmental and are totally unacquainted 
with the concept of ``delayed gratification.'' Recruit Division 
Commanders, ``A'' school instructors and leading petty officers in 
fleet units all spend a growing amount of precious time dealing with 
personal difficulties.
    Marine Crops Answer. The applicant's of today are mentally more 
intelligent by every quality indicator and expert opinion. The 
``mentally tough'' question is subjective at best and is very difficult 
to quantify. Applicants in the more recent years have had to rely on 
having little or no adult supervision during their upbringing and in a 
lot of cases, the Marine Corps is the first time that the rules and a 
disciplined lifestyle are encountered. ``Transformation'' plays a big 
role in providing the poolee, recruit, and new Marine the skills and 
knowledge to be mentally tough, cope with military life, and survive on 
the chaotic battlefield of tomorrow.
    Air Force Answer: The best indicator of discipline or toughness is 
the number of trainees discharged for failure to perform--being unable 
to meet the rigor of basic training. Performance discharges from Air 
Force Basic Military Training have averaged .87% over the last six 
years (FY91--1.3%; FY92--0.5%; FY93--0.7%; FY94--.7%; FY95--0.6% and 
FY96--.09%). Performance discharges from BMT aren't a problem for the 
Air Force.
    Question. Is there any evidence that recruits with ``emotional 
baggage'' have personal problems which are more serious than in past 
years?
    Army Answer. Yes. According to the commanders of the Basic 
Training/One Unit Station Training brigades, some females and males 
have been abused and neglected prior to entering the service. Others 
are single parents with children. These families are left at home, or 
other arrangements are made to take care of them during the Initial 
Entry Training period. It appears to the leadership at basic training 
installations that the recruits are a direct reflection of today's 
society. The cadre are aware of the changing times and are constantly 
taking measures to insure all recruits have the opportunity to excel.
    Navy Answer. In my opinion, yes. Recruit Training Command reports 
that the results of an anonymous personal survey are increasingly 
disturbing. Many recruits report being abused, molested or neglected as 
children. An alarming percentage has used alcohol regularly and many 
have experimented with illegal drugs. CNRC has not observed any 
increase in the number of serious personal problems; however, it has 
few vehicles available by which to measure this stress-related 
characteristic. Although, CNRC has not observed a significant increase 
in the percentage of waivers required for enlistment.
    Marine Corps Answer. While it is difficult to ascertain whether 
recruits are hampered with emotional problems more serious than in past 
years, we are concerned about the challenges of modern society on our 
applicants. Divorce rates, drug use, crime and other negative aspects 
of society influence each generation. Our ``Transformation'' instills 
the core values of the Marine Corps into each recruit and develops 
their self confidence as Marines. This process provides the recruits 
with a foundation regardless of their past experiences.
    Air Force Answer. If we define ``emotional baggage'' in terms of 
mental health discharges from Basic Military Training, there has been a 
modest increase. Such discharges went from .4% in fiscal year 1994 to 
.7% in fiscal year 1995 and fiscal year 1996. Despite the variations in 
the last couple of years, we don't believe there is a problem.
    Question. It is a common practice to seal the files of juvenile 
delinquents and recruiters do not have access to those files. Are you 
concerned that some individuals which have committed serious crimes as 
juveniles will get into the service?
    Army Answer. Under current procedures, we are required to complete 
a recruiter-initiated police records check on any applicant who 
discloses or whom the recruiter has reason to suspect might have a 
criminal record. We require that all offenses be listed on the 
application for enlistment, regardless of whether or not the offense 
was dropped, dismissed, sealed, expunged, or, otherwise, disposed of 
under local or state law.
    The recruiter is limited in the verification or discovery of 
information for various reasons. Most states, counties, and cities have 
policies that state that they will not release information to 
recruiters or other ``employers.'' Some require fees or additional 
documents that we cannot provide. Regardless of the age, offense or 
disposition, all offenses committed by the applicant are taken into 
consideration when reviewing the application for enlistment. We further 
check records through the Entrance National Agency Check. This system 
uses the resources of the Defense Investigative Service (DIS) to obtain 
criminal and other type information from national agencies such as the 
Federal Bureau of Investigation, the Immigration and Naturalization 
Service, and various military criminal and law enforcement agencies. 
The background checks frequently reveal information concealed by the 
applicant.
    While every effort in the interview process is made to have each 
applicant reveal his or her past criminal involvement to include 
traffic offenses, and the questions concerning this issue are asked 
over seven times in the process, we still have applicants who conceal 
serious crimes. Some applicants state that the reason they concealed 
the information is that a judge or lawyer told them that they did not 
have to reveal a charge that was expunged or sealed. We have clear and 
concise questions which include these terms.
    We are obviously concerned about concealment of arrest information. 
We have had cases where the concealed offense was so serious that we 
have discharged the individual before committing resources beyond that 
of the initial processing. A requirement for all local, city, county, 
and state police agencies to provide routine police records checks will 
increase our ability to detect as early in the process as possible any 
person who would, otherwise, fraudulently attempt enlistment.
    Additionally, we are looking at different processing methods to 
have the DIS complete background checks on each soldier prior to being 
released from the training base. This should eliminate any soldier with 
concealed offenses before they are sent to their first unit.
    Navy Answer. Recent studies by Center for Naval Analyses and CNRC 
indicate that 5% or less of enlistees withhold criminal history 
information from their recruiters. However, Navy, like the other 
Services, would like to ensure that we have complete information on 
pre-service arrests for 100% of our enlistees. Navy, therefore, fully 
supports the proposed amendment to 10 U.S.C. 720(a), contained in the 
fiscal year 1998 DOD Omnibus submission, which would require states to 
provide to DOD juvenile and adult information required for recruiting 
purposes.
    Marine Corp Answer. The vast majority of jurisdictions seal and do 
not release juvenile arrest information. Additionally, it is a common 
practice, in many courts, to tell the juvenile that the records are 
sealed and will be expunged. The juvenile is then told they do not have 
to reveal this arrest or conviction to anyone. Therefore, some 
applicants will not initially disclose the arrest information to the 
recruiter, NCOIC, RS operations officer or MEPS liaison. Our screening 
procedures specifically address juvenile arrests, to include sealed 
records. The intent is to have the applicant disclose any and all 
arrests. The majority of applicants will disclose juvenile arrests, 
however, some will not and will gain entrance into the Marine Corps. 
Some of those who do not disclose the arrest would still be granted a 
waiver and others would be denied enlistment. Our screening procedures 
are intense and thorough. Only a few gain entrance who should have been 
denied. Any initiatives that would insure release of all police 
records, to include juvenile records, would assist the recruiter in 
providing the services with a better quality recruit and help reduce 
first term non-EAS attrition.
    Air Force Answer. No. Our recruitment and enlistment methods 
include thorough questioning to prevent enlistment of individuals which 
have committed serious crimes as juveniles. Individuals are questioned 
regarding juvenile crimes by a recruiter during initial interview and 
again during a job classification interview. Prior to enlistment, 
individuals are also questioned as part of a security interview 
completed by Military Entrance Processing Station officials. Finally, 
new enlistees are questioned regarding juvenile crimes during security 
and classification screening in Basic Military Training. While it is 
possible for individuals to withhold information regarding serious 
crimes as juveniles, this has not been a problem for the Air Force.

                         Recruiting Challenges

    Question. In April 1996, DoD reported to Congress on enlistment 
propensity and youth attitudes toward the military. This report 
explores potential causes of the decline of youths to consider entering 
the military service. Some of the drawbacks cited were: (1) that school 
youths view the military as an ``uninviting environment'' that includes 
a loss of independence and identity; (2) the perceived long enlistment 
commitment; (3) the potential danger of military service; and (4) their 
interest for a good education and financial security. What is the major 
obstacle you find that young men and women have toward joining the 
military?
    Army Answer. The number one barrier reported by the Youth Attitude 
and Tracking Study is a ``dislike of military lifestyle.'' Young men 
and women have a wide variety of secondary reasons, to include: too 
long a commitment; other career plans; a potential threat to their 
life; and it is against their beliefs. These barriers are similar for 
both men and women.
    Navy Answer. The 1996 Youth Attitude Tracking Study (YATS) asked 
about 3500 young men and women ``What is the main reason you would not 
consider enlisting in the military service?''
    The top reasons were:
          <bullet> don't like military lifestyle (22%)
          <bullet> family obligations (12%)
          <bullet> commitment too long (11%)
          <bullet> possible threat to life that comes with military 
        service (11%)
          <bullet> other career interests (10%)
    Although a quarter of those negatively propensed toward joining the 
service would not consider joining because they have negative 
perceptions of the military lifestyle, 14% of those positively 
propensed toward joining the military were most concerned about 
possible threats to life.
    Young females ranked the top five reasons in the same order as that 
of the combined male and female group, young males ranked the top five 
as follows:
          <bullet> don't like military lifestyle
          <bullet> other career interests
          <bullet> commitment too long
          <bullet> possible threat to life that comes with military 
        service family obligations
    Marine Corps Answer. Research indicates our target market 
understands the requirement for a strong military, up from last year. 
However, relevancy and the loss of personal freedom continue to be the 
two major obstacles to enlistment.
    Relevancy deals with the undefined role of the military in today's 
new world order. With the collapse of the Soviet Union and the Warsaw 
Pact, the youth of today perceive no major threat to the United States. 
Why should they enlist to service and possibly die in Haiti, Bosnia, or 
Somalia? These countries pose no threat to America. The sense of loss 
of personal freedom compounds the relevancy issue.
    As the pool of veterans continues to shrink in this country, more 
and more of our youth have less contact with someone who has served in 
the Armed Forces. The impression/information about the military become 
second and third hand, or what they see in movies or on television. Our 
target market believes that a 4 year enlistment in the Marine Corps is 
48 months of recruit training with no time off, that they must be in 
uniform 24 hours a day, and they will have no opportunity to attend or 
further their education. In short, a completely controlled environment.
    It is to this end that the Marine Corps Recruiting Command produced 
a film entitled ``LIFE IN THE CORPS''. This film dispels the many myths 
and misconceptions about military life after recruit training. This 
film has become a key asset for our recruiters in their sales 
presentation with prospective applicants and their parents.
    Finally, the last obstacle among our market is that they no longer 
see a military career as a long term opportunity. Downsizing, base 
closures, erosion of benefits, and continued news coverage of another 
top to bottom review of the Armed Forces send a negative signal to our 
target market. They view the career potential the services were known 
for during the 50's, 60's, 70's and 80's as no longer valid and that 
higher education is the only way to insure a secure future.
    In April 1996, DoD reported to Congress on enlistment propensity 
and youth attitudes toward the military. This report explores potential 
causes of the decline of youths to consider entering the military 
service. Some of the drawbacks cited were: (1) that school youths view 
the military as an ``uninviting environment'' that includes a loss of 
independence and identity; (2) the perceived long enlistment 
commitment; (3) the potential danger of military service; and (4) their 
interest for a good education and financial security.
    Air Force Answer. Our research indicates the major obstacles 
keeping young men and women from joining the military are a perceived 
loss of personal freedom and resistance to a life-style of conformity 
and commitment. Responses from focus group interviews reveal a 
significant portion of today's youth view a 4-year commitment as 
excessively long and equivalent to a ``jail term.'' They desire the 
freedom to leave the military at any time if the life-style is not to 
their liking. In addition, they find the prospect of regulated behavior 
and ``taking orders'' to be extremely unappealing. For these reasons, 
many think of the military as a ``last resort,'' to be considered only 
after all other options have been exhausted.
    Question. Gentlemen, do your recruiters find that more and more 
youths are skeptical of the advertising efforts by the military 
services? That is, are your advertising efforts real and credible to 
the high school age groups?
    Army Answer. Target age youth are skeptical of all advertising, but 
not more so of the Army's than any others'. Many of the youth we 
interview have absolutely no interest in the Army and would not join 
for any reason. Since only a small portion of the target audience has a 
positive propensity to enlist, we should expect only a small portion to 
really like our commercials. The question of believability is asked in 
focus group research conducted by the Army. Recent verbatim comments 
include:
    ``It is probably a lot harder than they make it seem, but they 
can't show the whole thing in 30 seconds.'' (``Basic Training'' 
commercial)
    ``It shows the reasons why to go into the Army. A commercial is not 
supposed to show the down side of things. It is supposed to make you 
want the service or product.'' (``Paratrooper'' commercial)
    ``In commercials, you are supposed to show the good sides not the 
downfalls. There are other Army commercials that show obstacle courses 
and training stuff.'' (``Paratrooper'' commercial)
    ``The pictures look realistic. It looks like they're doing what 
people actually do in the Army.'' (``Direct Mail'' copy testing)
    Some comments are more critical such as:
    ``I still think they should show more about other training, other 
than tanks and typical Army stuff.'' (``Tanker'' print ad copy testing)
    ``It bothers me that it doesn't show all the hard work and the bad 
stuff like boot camp.'' (``Paratrooper'' commercial)
    In response to these comments and others, the Army made a basic 
training commercial and, in 1997, is making a non-combat arms 
commercial. The new U.S. Army Reserve commercials feature engineers and 
medical personnel.
    It must also be remembered that we are a ground combat-based force 
required to recruit large numbers to fill those critical jobs. Heavy 
advertising about limited availability jobs invites criticism over 
``bait and switch'' advertising. Army advertising shows Army soldiers 
doing their jobs in a detailed, realistic, yet positive, environment.
    Navy Answer. Today's information generation is more savvy with 
respect to advertising. They understand the strategies and tactics 
which advertisers employ and their respect for the product or service 
is based on past experience. Seventy-seven percent of the men and women 
who join the Navy were aware and have been influenced by our 
advertising.
    Navy has tested its advertising message extensively among the youth 
target with very positive results. In a recent diagnostic analysis of 
``Let the Journey Begin'' and Direct Response Television (DRTV), 
respondents felt the commercials were appealing, clear and believable. 
Less than 10% overall expressed any significant negative reactions. In 
testing the new message ``Let the Journey Begin,'' 86% of high school-
age respondents liked the commercial. After viewing the DRTV 
commercial, 71% of the respondents felt positively about the Navy.
    Marine Corps Answer. Marine Corps advertising is extremely well 
received among our market. Marine Corps advertising is designed to 
capture attention and to create awareness among our market. We use 
symbolism and metaphors to show the ``TRANSFORMATION'' an individual 
undergoes to become a Marine. Our advertising promises no short cuts; 
we make it clear that we are looking for young men and women who want 
to belong to an elite, proud, tough and smart organization where 
courage, honor and commitment to our Corps comes before job 
opportunities or money for college education. We sell being a Marine 
first and foremost! Job opportunities and money for college are fringe 
benefits of being a Marine.
    Our Advertising clearly states that we are a combat organization 
and that as a Marine you may be called upon to go in harm's way. Our 
market can quickly see through phony advertising. They have grown up 
being bombarded by electronic advertising. They know the real thing 
when they see it or hear it. They understand our message and they like 
it above all other service and civilian advertising.
    In April 1996, DoD reported to Congress on enlistment propensity 
and youth attitudes toward the military. This report explores potential 
causes of the decline of youths to consider entering the military 
service. Some of the drawbacks cited were: (1) that school youths view 
the military as an ``uninviting environment'' that includes a loss of 
independence and identity; (2) the perceived long enlistment 
commitment; (3) the potential danger of military service; and (4) their 
interest for a good education and financial security.
    Air Force Answer. Based on the results of our annual Basic Military 
Training Survey, we believe our advertising efforts are real and 
credible to the high school age groups. For the past six years, an 
average of 92% of those who reported seeing Air Force advertising said 
it was believable. Approximately 75% of the trainees reported seeing 
Air Force advertising prior to enlisting.
    Advertising industry research indicates 18-24-year-old young people 
are not hostile toward advertising; however, they know the purpose of 
advertising and salesmen is to sell them a product. They want 
advertising to show how a product fits into their lifestyle. This group 
of young people prefers interaction, involvement, immediate access to 
information, options, control, and empowerment. This is the approach 
Air Force advertising has attempted to take with its program and 
specifically with the addition of the Air Force Recruiting Squadron Web 
site.
    Question. How do your recruiters argue against the perception that 
the drawbacks of military service outweigh the benefits?
    Army Answer. First, most recruiters do not feel the need to argue 
against the perception; they take the time to educate individuals on 
the benefits. However, perceived drawbacks or objections are handled 
one at a time and on an individual level during the initial sales 
interview and at any other time during the enlistment process. First, 
we find the reason behind what the individual feels is the drawback 
through questioning. Then, we take the time to answer their objection, 
stressing Army programs and the benefits this applicant will receive 
from those particular programs.
    Navy Answer. Our recruiters primarily sell the aspects of 
advancement opportunities, steady paycheck, free medical care, travel 
and on-the-job training. They demonstrate that the military can 
``broaden their horizons'' and help them mature so they can more 
effectively utilize the G.I. Bill upon completion of their enlistment. 
They use a ``stepping stone'' approach to a better life.
    Marine Corps Answer. Recruiters receive training in Professional 
Selling Skills (PSS) developed by Learning International, a civilian 
professional sales management and training organization. Dealing with 
drawbacks is an everyday challenge for a recruiter. The focus with PSS 
is to understand customer goals and needs. When encountering a 
drawback, the recruiter must probe to get an understanding of the 
concern and then refocus on the bigger picture. The recruiter can then 
counter with previously accepted benefits and check for acceptance from 
applicants prior to moving forward with the sales process.
    With the training that a Marine recruiter receives in PSS, they can 
handle almost every drawback that is surfaced during a sales 
presentation. Recruiters know that not every applicant will be 
satisfied with certain benefits that are introduced to them, so they 
must continue to support with other benefits that will be accepted.
    Air Force Answer. Our recruiters overcome perceptions by 
identifying them as objections to entering the Air Force. We typically 
find potential applicants object to the military because they don't 
understand it. They base their judgment on hearsay and incomplete data. 
Our recruiters are trained to identify an applicant's specific 
objections and then provide accurate information to allow the 
individual to make an informed decision.
    Question. How would you describe a recruiter's quality of life? For 
instance, what is an average work week for one of your recruiters like? 
How many hours per month does he/she devote to the recruiting mission?
    Army Answer. A recruiter works a 60-plus hour work week, has 
limited or no access to traditional military installation support, is 
trying to recruit in a high employment economy with a low propensity to 
enlist rate, and faces competition from businesses, higher educational 
institutions, and sister services. These all make a recruiter's quality 
of life arguably the most difficult of any soldier, and his or her 
family, in today's Army.
    U.S. Army Recruiting Command recently completed a Unit Risk 
Inventory survey that was designed to identify high risk behaviors 
(drugs, alcohol, suicide, et al.) but also included questions on 
recruiter satisfaction. In a survey of about 6,100 recruiters, the 
results provided some indicators of high stress levels and 
dissatisfaction but did not identify the source or cause of the stress. 
Our analysis of serious incidents and incident reports shows a rise in 
the number of preventable Government Owned Vehicles accidents, domestic 
violence, and hospitalization for stress-related illnesses.
    To improve the recruiter's quality of life, we need to give the 
field force a competitive edge with both the recruiting incentives that 
satisfy our prospects' needs and desires and the associated advertising 
that generates the interest in our Army. We also need to provide our 
soldiers, civilians and families involved in recruiting with the same 
adequate, affordable level of support (health care, housing, child 
care, and other associated benefits) they could expect from any 
military installation.
    We have already taken some steps to give the recruiter a 
competitive edge by increasing the amount of recruiting incentives like 
enlistment bonuses, the Army College Fund, and the Loan Repayment 
Program. However, increases beyond these levels will require amending 
current law to keep pace with competitive factors like the growing 
economy and rising college costs in order to attract young men and 
women to fill our critical skills.
    Our recruiters and their families endure expenses for housing, 
medical care and child care above the normal compensation. Both the 
Army and the Department of Defense will continue to work these issues 
through the Joint Quality of Life Committee. However, even for 
successful recruiters, the demanding nature of recruiting duty, 
combined with the inequities they experience compared with life on a 
traditional military installation, can result in a poorer quality of 
life than they deserve.
    We estimate that a recruiter averages between 200 and 240 hours per 
month related to his or her recruiting mission. This includes early 
morning trips to process their applicants for enlistment to late hours 
at night talking to parents after their work day and evening meal are 
finished. Recruiters' daily schedules are dictated by their prospects 
and applicants schedules, unlike the more regimented schedule they 
became accustomed to in their previous units. As can be expected, this 
also puts a strain on a recruiter's and his or her family's quality of 
life. U.S. Army Recruiting Command requires that each recruiter be 
allowed a minimum of two half-days per month to spend away from 
recruiting duties for personal and family activities.
    Navy Answer. Many recruiters work 9-12 hour days, 50-60 hours per 
week, 240-300 hours per month. Many of the junior personnel find the 
cost of living in high-cost civilian areas to be a burden especially 
when coupled with marginal medical care/benefits (many rural areas 
offer no doctors who accept CHAMPUS and TRICARE).
    However, when recruiters are successful at their mission their 
quality of life increases. Job-related quality of life relates directly 
to their own personal performance.
    Marine Corps Answer. Although recruiters' quality of life has 
improved, it still lags behind their needs. Many recruiters are 
assigned to areas without the military infrastructure designed to 
support the military member. There are several proposals pending in the 
areas of housing, child care, legal assistance and health/dental which, 
it enacted, would help address these issues.
    We need to provide our independent duty service personnel with the 
same benefits afforded their peers at military bases and 
installations/.
    The average work week averages 60-70 hours per week, and includes 
at a minimum 4-6 hours every Saturday. Many recruiters are required to 
pick up applicants on Sunday, placing them in MEPS billeting facilities 
to ship or contract on Monday. Recruiters normally start the day at 
0800-0900 and finish at 2000-2100. The length of the day is directly 
related to prime time to contact potential applicants.
    Marine recruiters are tasked not only with quality production and 
accessions, but for the mental and physical preparation of each poolee 
for recruit training. They are also responsible to start the 
``Transformation'' process by beginning to instill our core values.
    The majority of a recruiter's work day, week, month are spent in 
prospecting the available market.
    Air Force Answer. Over the last three years, we have focused our 
attentions on improving the quality of life for all recruiters and 
their families through numerous initiatives. We added 80 new recruiter 
authorizations and moved 36 out of other recruiting areas to reduce the 
workload of our enlisted field recruiters. We authorized a First 
Sergeant in each recruiting squadron. These members have the 
responsibility of establishing contact with recruiters and their 
families, helping in identifying any special needs, and seeking the 
resources to meet those needs. Recruiting Service implemented a Risk 
Management Program to help senior leadership identify and manage 
recruiters that have personal or job-related problems. To ease the 
transition into recruiter duty we established a Recruiter Transition 
Program to help our recruiters transition into their new duties and 
responsibilities. The establishment of a CONUS COLA provided assistance 
in meeting the higher cost of living for recruiters assigned to duties 
in one of the 65 designated high cost areas and our implementation of a 
Leased Family Housing Program is providing affordable and adequate 
housing for over 100 members and their families. The recent increase in 
Special Duty Assignment Pay (SDAP) from $275 to $375 per month has 
served us well in attracting and retaining quality recruiters. We 
believe these efforts have improved our recruiters quality of life. We 
expect to receive the DoD recruiter survey results soon so we can 
evaluate our progress.
    Our recruiters work 48 to 56 hours per week at the recruiting 
station. A typical month will usually include working at least two 
evenings a week and some Saturdays. Less successful recruiters may work 
longer hours. It is not uncommon for newly assigned recruiters to spend 
over 60 hours per week on the job, establishing themselves in their 
market.
    Of course our recruiters, like all Air Force members are on the job 
7 days a week, at all times of the day. It is not uncommon to find 
recruiters discussing Air Force opportunities with prospective 
applicants and parents after church, at PTA meetings, in the grocery 
store, or even during an outing with their family. Most recruiters 
never pass up an opportunity to promote the benefits of the Air Force.
    Question. Do you have any recommendations or know of any equipment 
or funding shortfalls that could help improve the recruiter's quality 
of life or the success of his mission?
    Army Answer. At the request of Congress, the Army has already 
submitted a list of unfunded requirements that include $121.5 million 
under the title of ``Maintaining End-Strength.'' Any additional funds 
would be targeted against the following recruiting programs: enlistment 
incentives (Loan Repayment, Enlistment Bonuses, and the Army College 
Fund); increased recruiter (Special Duty Assignment Pay and recruiter 
support); and enlisted advertising.
    In the Joint automation arena, we are short $150 million for the 
Army portion of Joint Recruiting Information Support System (JRISS). 
Active Army, Reserve and National Guard recruiters have been waiting 
for this system since 1994. This system is vitally important. It will 
improve efficiency and reduce workload, thereby increasing quality of 
life.
    We are also experiencing shortfalls in funding for the Leased 
Family Housing Program. One issue is that the current legislative 
maximum limit of $15,000 for an annual lease is insufficient in some 
high-cost areas, such as New York City. An increase in the maximum 
lease amount would give us more flexibility and ensure that good 
housing was obtained through the program.
    Navy Answer. The most mentioned items that recruiters feel are 
critical to mission success are: Recruiting Aid Devices (information 
pamphlets), phone lines (voice, dedicated fax, dedicated Internet), 
GOVs and computers. These must be available to adequately penetrate 
their market.
    Navy is preparing for tomorrow's recruiting ``marketplace'' by 
recruiting on the Internet, calling and tracking potential applicants 
by computer, down-loading leads from national tele-marketing centers, 
creating CD-ROM multi-media sales presentations and processing leads 
from local and national sources real-time.
    Additionally, a fair cost of living allowance for those in high-
cost areas and better medical treatment procedures are needed.
    Marine Corps Answer. There are three unfunded areas in this budget 
which might contribute to a recruiter's quality of life or the success 
of his mission. In the Military Personnel Marine Corps (MPMC) account, 
we could execute $5.9 million in fiscal year 1998 for the College Fund. 
The College Fund is an attractive incentive to the prospective 
applicant to join the Marine Corps. In the Operation and Maintenance, 
Marine Corps (O&MMC) account, we would execute an additional $9.2 
million in fiscal year 1998 for programs which would improve the 
recruiter's quality of life of the success of his mission. $4.4 million 
of the $9.2 million would fund improvements to advertising, and $4.8 
million would fund computer upgrades necessary to ensure the Marine 
Corps remains competitive with the other services in the recruiting 
market.
    Air Force Answer. We are monitoring refinements of medical care 
programs that may further improve our recruiter's quality of life. The 
establishment of TRICARE has simplified the process for recruiters' 
families for those locations where implemented; however, recruiters are 
still required to seek medical assistance at military treatment 
facilities (MTF). The Office of the Assistant Secretary of Defense for 
Health Affairs is now evaluating test data to determine the feasibility 
of extending TRICARE to military members geographically separated from 
a military installation. Making this a reality will be welcomed.
    The DoD Recruiter Quality of Life committee is reviewing an 
initiative that would waive CHAMPUS deductible and co-payments, similar 
to the program for our people stationed overseas. We are eager to 
review this initiative.

                            Personnel Tempo

    Question. The increase of unscheduled deployments in the past few 
years for domestic disasters, contingency operations, or Operations 
Other Than War (OOTW), clearly stresses military personnel and their 
families. What is the average time soldiers are on Temporary Duty, 
deployed, or are away from home for training and exercises?
    Army Answer. During fiscal year 1996, soldiers who deployed on 
temporary duty, operational deployments, and training exercises (non-
local) were away from their home stations for an average of 197 days. 
Some units and soldiers, by virtue of their missions and particular 
skills, are deployed more frequently than others. In addition, the 
average combat arms soldier who was not deployed on a contingency 
operation spent approximately 140 to 170 days in combat training away 
from home overnight (local and Combat Training Center) to maintain 
readiness.
    Navy Answer. Time away from home for our sailors is managed through 
the Navy's Personnel Tempo of Operations (PERSTEMPO) program. The 
program consists of three established guidelines:
          <bullet> a maximum deployment of six months (portal to 
        portal)
          <bullet> a minimum Turn Around Ratio (TAR) of 2.0:1 between 
        deployments (the ratio between the number of months a unit 
        spends between deployments and the length of the last 
        deployment, e.g., a nominal 12 months non-deployed following a 
        6 month deployment)
          <bullet> a minimum of 50% time a unit spends in homeport over 
        a five-year period (three years back/two years forward)
    The Navy sets 50% time in homeport as the goal for our units. 
However, these units periodically make cyclical forward deployments for 
up to six months. During the preparation and deployment period, they 
are not able to achieve the desired goal of 50% time at home. This is 
why we use the three year average. Units which have recently completed 
a deployment typically spend a greater percentage of their time at 
home, which balances the time spent away during deployment, and allows 
them to meet the 50% goal over the three year historical period.
    Because the average assignment for our sailors is three to five 
years, all who complete their entire tours should receive the benefits 
of the program.
    Marine Corps Answer. The Marine Corps tracks DEPTEMPO and uses the 
deployment of an infantry battalion for 10 days or more away from home 
base as the bellwether. The infantry battalion fiscal year 1996 
DEPTEMPO was 34%. DEPTEMPO surged to 43% during a peak period for 
operations and training in fiscal year 1996. If infantry companies are 
used to track the average fiscal year 1996 DEPTEMPO, the adjusted 
figure would increase to 44%. Marine fixed wing aviation DEPTEMPO 
ranged from 38 to 58%; and rotor wing DEPTEMPO ranged from 38 to 41% 
for fiscal year 1996.
    Air Force Answer. Air Force desired maximum PERSTEMPO rate is 120 
days TDY per individual, per year. The average number of Air Force 
members deployed at any given time in fiscal year 1996 was 13,700. Less 
than 3% of Air Force people exceeded the desired maximum 120 TDY days. 
Air Force people averaged 44 days TDY away from home in fiscal year 
1996.
    Question. Explain how your Service manages Personnel Tempo so it 
does not have an adverse impact on individual unit readiness and 
training of your people?
    Army Answer. Army Personnel Tempo (PERSTEMPO) is defined as Skill 
Tempo (SKILTEMPO) (number of days an individual soldier is away from 
home station) and Deployment Tempo (DEPTEMPO) (number of days a unit is 
away from home station). Currently, the Army does not track and does 
not have an established standard for PERSTEMPO. the Army Staff has 
determined that the current PERSTEMPO is running approximately 140-170 
days depending on the unit type, mission and location. We are 
investigating options for reducing PERSTEMPO.
    The Army has taken several steps to ensure quality of life and 
soldier morale, therefore, indirectly, readiness is not adversely 
impacted by excessive PERSTEMPO. In the area of SKILTEMPO, the Army 
currently records every day that a soldier is engaged in contingency 
operations, major exercises, and domestic support missions. The Army 
has instituted an Assignment Restriction policy to assist soldiers when 
they return from extended Temporary Duty Assignments (TDY)--individual 
extended deployments) or Temporary Change of Stations (TCS--unit 
extended deployments). This policy directs that when a soldier has been 
deployed for 61-139 days, upon return he cannot be permanently moved, 
for at least four months; if a soldier has been deployed for 140 or 
more days, he cannot be moved on an unaccompanied short tour outside of 
the continental United States (OCONUS) for at least 12 months, or an 
accompanied long tour (CONUS or OCONUS) for at least six months.
    In the area of DEPTEMPO, the Army continues to spread deployments 
across the force. Some units or soldiers with particular specialities, 
by virtue of their mission or skill, must deploy more frequently than 
others. However, surveys indicate that neither morale nor retention 
have been adversely impacted by PERSTEMPO.
    Navy Answer. The Navy PERSTEMPO program (the three goals of which 
are previously explained), is the primary means by which the Navy 
manages the time our sailors spend away from home. As stated in the 
establishing directive, ``The program ad its goals are the culmination 
of a deliberate process to balance support of national objectives, with 
reasonable operating conditions for our naval personnel, while 
maintaining the professionalism associated with going to sea with a 
reasonable home life.'' The Chief of Naval Operations personally 
approves all exceptions to PERSTEMPO guidelines. This program has been 
carefully crafted to ensure a careful balance between the needs of the 
Navy to maintain training and unit readiness, and the needs of the 
individual sailor to enjoy a fulfilling family life. We have carefully 
studied the amount of training and preparation needed to maintain 
readiness and proficiency, and the time necessary falls well within the 
boundaries of the PERSTEMPO program goals, ensuring no adverse impact 
to either readiness or personnel.
    Marine Corps Answer. The Marine Corps does not track PERSTEMPO. 
DEPTEMPO is used to track the time a unit (and its Marines) spends away 
from home base or station. DEPTEMPO is defined as,
    ``The percentage of time in a given annual period that a unit, or 
element of a unit, supports operations or training away from its home 
base or station for a period of 10 consecutive days or greater.''
    The MARFOR commanders monitor and manage their units DEPTEMPO with 
QOL concerns at the forefront. The Marine Corps, through the MARFOR 
commanders, has successfully reduced active unit DEPTEMPO through the 
creative use of reserve forces in exercises and operations (Battle 
Griffin-96/Norway, Operations Sea Signal/Able Vigil--migrant ops) as 
well as the use of active units in non-traditional roles (artillery 
units as provisional rifle companies/battalions).
    Most OOTW deployments supported by the Marine Corps since the 
beginning of the decade have not involved combat, but the new training 
requirements associated with these OOTW deployments have not reduced 
the readiness of personnel to accomplish wartime missions. While some 
OOTW specific training is conducted prior to and during deployments, 
this has not altered our readiness training programs. The primary 
training that Marines receive to ensure their readiness for deployment 
covers the full spectrum of conflict. This full spectrum training is 
directly applicable to the operational demands encountered in OOTW.
    The Marine Corps is able to and will continue to maintain and 
sustain superior unit readiness in the face of high DEPTEMPO through 
our time-tested and effective rotational deployment scheme. This 
deployment scheme means that a minimum of two-thirds of the force are 
at the highest state of readiness, with the remaining third able to 
quickly adopt a full readiness posture, if needed.
    Air Force Answer. Careful management of deployment requirements 
against our available resources has helped control our PERSTEMPO. We 
have used three main methods to reduce the impact of PERSTEMPO. First, 
we have used global sourcing conferences which have helped transfer the 
load from one theater to another, e.g. PACAF F-15s in CENTCOM's AOR. 
Second, we have had greater volunteer contributions from our Reserve 
Components, e.g. 17.8% of the 14,000 Air Force people deployed today 
are from the RC. Third, we have challenged and reduced taskings to 
provide relief to stressed systems, e.g. reduced taskings on AWACS, 
ABCCC, Rivet Joint, and U-2s allowed them to recapture lost training 
and provide more mission-ready crews.
    Question. The Committee remembers a few years ago when units or 
mission skills were being continually stressed with back-to-back 
deployments or for contingency operations. Are we still experiencing 
these problems in units, mission areas, or particular skills? If so, 
describe which areas.
    Army Answer. We are no longer experiencing those problems. The Army 
units to which you refer were the Patriot Battalions. Their situation 
has been corrected by consolidation of units at Fort Bliss, thereby 
facilitating overseas rotation requirements, and by incorporating the 
Patriot Battalions into the Office of the Secretary of Defense managed 
Global Military Force Policy program. This program assesses for 
decision makers the impact of unit deployments beyond established 
guidelines. We also continue to monitor individual Military 
Occupational Specialties with the highest Skill Tempo and have 
identified Army Low Density/High Demand units, but as mentioned 
earlier, we are not experiencing problems in any of these areas or 
units.
    Navy Answer. Navy units have not been subject to back-to-back 
deployments, and we are not experiencing problems in unit, mission 
areas or particular skills. Though some low density, high demand units, 
such as Reef Point and EA-6B units, are employed more often than 
others, they are covered by, and comply with, our PERSTEMPO program. 
Navy minimizes the PERSTEMPO of identified Low-Density, High-Demand 
assets through the use of rotational crews and rotation of units with 
similar Joint assets.
    As previously noted, this program carefully tracks all units 
perstempo and specifically prevents units from exceeding six-month 
deployments or deploying again inside the 2.0 to 1 Turn-Around-Ratio. 
The Chief of Naval Operations personally approves any exception to 
either of these rules, with the number of exceptions required declining 
since Operations Desert Shield/Desert Storm. Additionally, the Chief of 
Naval Operations receives a quarterly report of the units that do not 
meet guidelines and that specifies the date when the unit will return 
to compliance. Because of the visibility of the PERSTEMPO program, the 
Navy is well aware of any trouble areas, and quickly moves to alleviate 
any problems.
    We have a number of initiatives underway, including:
      <bullet> Utilization of Naval Reserve Forces to fulfill 
requirements.
      <bullet> Working in concert with Allied forces to meet 
international commitments.
      <bullet> Fleet reorganization, including the establishment of the 
Western Hemisphere Group.
      <bullet> Reorganization of carrier battle groups and cruise-
destroyers squadrons and readjustment of training and maintenance 
schedules.
      <bullet> Practical application of Navy assets to reduce the 
number of ships required to complete taskings in many instances.
    These initiatives are already having a positive impact on our 
personnel, and we expect that trend to continue.
    Marine Corps Answer. The Marine Corps does not measure PERSTEMPO at 
the individual or military occupational specialty (MOS) level. We do 
track the Deployment TEMPO (DEPTEMPO) of our operating forces. DEPTEMPO 
for some units will peak as contingency operations flair-up around the 
globe, but by an aggressive use of reserves and units in non-standard 
roles (e.g., artillery as provisional rifle companies), we are able to 
keep our DEPTEMPO at an acceptable level to accomplish both our 
training and operational commitments worldwide.
    Back-to-back deployments only occur when real world contingency 
operations erupt and Marine forces are the most viable option for the 
contingency. The last such event occurred in 1994 when the 24th 
MEU(SOC) returned from deployment in June and redeployed for operations 
in Haiti from 7 July until 5 August in support of Operation Support 
Democracy.
    Air Force Answer. Air Force does not, as a practice, deploy our 
people back-to-back. Less than 3% of Air Force people exceeded the 
desired maximum 120 TDY days during fiscal year 1996. The Air Force 
defines a high demand weapon system/career field as one that exceeds 
120 days TDY in a twelve month period. Four weapon systems and one 
career field exceeded this threshold in fiscal year 1996. RC-135RJ (151 
days), U-2 (149 days), HC-130 (144 days), A/OA-10 (133 days) and Combat 
Control Teams (160 days). The Air Force has taken a number of steps to 
avoid any degradation in readiness or adverse impacts on our people 
that could be caused by long periods of high PERSTEMPO/OPTEMPO. Global 
sourcing allows the AF to spread the deployment burden throughout the 
entire force. Increased use of the Reserve Components has enabled the 
AF to ease active force taskings. We sought relief from tasking for 
some limited assets, i.e., U-2s in fiscal year 1996; A/OA-10 
participation in CJCS exercises in fiscal year 1997; Air Force Special 
Operations Command limits exercises for its low density/high demand 
assets.

                    Operations Other Than War (OOTW)

    Question. Many of the contingency operations which have been 
supported by U.S. forces since the beginning of this decade have not 
involved combat. Such military Operations Other Than War (OOTW) have 
placed new training requirements on the U.S. Armed Forces since the 
rules of engagement and basic objectives of these operations differ 
from combat operations. Has the need to prepare your personnel for 
military operations other than war altered your readiness training 
program?
    Army Answer. When considering Continental United States (CONUS) 
based units as a whole, the answer is no. The vast majority of our 
units train to their combat Mission Essential Task Lists. The larger 
readiness issue is the overall impact military OOTW have on Personnel 
Tempo (PERSTEMPO). Retaining sufficient force structure to accomplish 
assigned missions, allow proper training, and provide an acceptable 
quality of life environment is critical to future readiness. Units 
selected for deployment to Bosnia-Herzegovina or surrounding locations 
have altered their training program. They complete training tailored to 
the area of employment and the assigned mission(s). This training is 
based in a strategy which ensures deploying forces are trained to 
standard and ready to accomplish their Stabilization Force (SFOR) 
mission(s). This SFOR training strategy begins with general individual 
and collective training tasks conducted primarily at home station for 
Active Component units and mobilization stations for Reserve Component 
units and personnel; then it focuses on theater-specific individual, 
leader, and collective training tasks culminating in a mission 
rehearsal and certification Command Planning Exercise. All of these 
training requirements are certified by the chain of command or the 
organization conducting the training. Once deployed, units take 
advantage of every opportunity to sustain both warfighting and peace 
operations skills.
    Navy Answer. Not significantly. Rather than radically alter the 
Navy's training, readiness and exercise programs, the standards to 
which deploying Navy forces are prepared have evolved in parallel with 
modern MOOTW missions. Many of the skills required of Navy forces for 
MOOTW missions: Humanitarian Assistance, Noncombatant Evacuation 
Operations, Maritime Interception Operations, Enforcement of Exclusion 
Zones, Control and Protection of Shipping, and Freedom of Navigation 
Operations--are skills that the Navy has practiced for years. These 
missions involve training, capabilities and activities appropriate for 
naval operations across a spectrum of operations spanning from everyday 
presence to crisis response and, if necessary, combat.
    However, operations such as those dealing with migration from Cuba, 
Haiti, and continued drug interdiction in Caribbean and Pacific waters 
have placed a strain on steaming days and flight hours that could 
otherwise have been used for other joint training purposes.
    Marine Corps Answer. While some MOOTW specific training is 
conducted prior to and during deployments, this has not altered our 
readiness training programs. The primary training that Marines receive 
to ensure their readiness for deployment covers the full spectrum of 
conflict. This full spectrum training is directly applicable to the 
operational demands encountered in MOOTW. We prepare for MOOTW 
primarily through rigorous training in the more exacting standards 
required of conventional combat operations. This approach ensures that 
Marine units are cohesive and well disciplined to operate in any 
contingency/crisis environment. This training is directly applicable to 
the operational demands encountered in MOOTW.
    However, the strategic, rapid response requirements of Marine 
operating forces argue against their significant long term retention 
ashore for MOOTW. Continued long term involvement in peacekeeping or 
similar operations may degrade combat effectiveness. One example of how 
this may occur is through insufficient training opportunities in 
primary combat skills for deployed units. Another example is unbudgeted 
operations leading to substantial and repeated diversion of O&M funds, 
training, equipment, and property maintenance for CONUS units when 
supplemental funding is not provided.
    Marines exist to meet the needs of the Nation; we have in the past, 
are now, and will continue doing so, as long as adequate structure and 
resources are provided.
    Most of the contingency operations which have been supported by 
U.S. forces since the beginning of this decade have not involved 
combat. Such military operations other than war have placed new 
training requirements on the U.S. armed forces since the rules of 
engagement, and the basic objectives of these operations differ from 
combat operations.
    Air Force Answer. Operations other than war have not significantly 
altered our training. Our units are ready to respond to the full 
spectrum of taskings required by the National Strategy.
    Question. If not, how do you prepare your personnel for the rules 
of engagement in circumstances such as those encountered in Bosnia 
which are fundamentally different from combat.
    Army Answer. The rules of engagement are theater-specific and each 
soldier deploying to Bosnia trains to a standard. It is certified by 
trainers from the 7th Army Training Center, or, if conducted at home or 
mobilization stations, by trainers who have been certified through the 
train-the-trainer program.
    Navy Answer. For the few differences that do exist between MOOTW 
and standard Navy missions, Navy personnel are prepared to operate 
under the set rules of engagement through pre-deployment exercises that 
emphasize MOOTW, training at Command and Staff schools, and by 
examining the results and lessons-learned of returning forces.
    Marine Corps Answer. While some Military Operations Other Than War 
(MOOTW) specific training is conducted prior to and during deployments, 
this has not altered our readiness training programs. The primary 
training that Marines receive to ensure their readiness for deployment 
covers the full spectrum of conflict. This full spectrum training is 
directly applicable to the operational demands encountered in MOOTW. We 
prepare for MOOTW primarily through rigorous training in the more 
exacting standards required of conventional combat operations. This 
approach ensures that Marine units are cohesive and well disciplined to 
operate in any contingency/crisis environment. This training is 
directly applicable to the operational demands encountered in MOOTW.
    However, the strategic, rapid response requirements of Marine 
operating forces argue against their significant long term retention 
ashore for MOOTW. Continued long term involvement in peacekeeping or 
similar operations may degrade combat effectiveness. One example of how 
this may occur is through insufficient training opportunities in 
primary combat skills for deployed units. Another example is unbudgeted 
operations leading to substantial and repeated diversion of O&M funds, 
training, equipment, and property maintenance for CONUS units when 
supplemental funding is not provided.
    Marines exist to meet the needs of the Nation; we have in the past, 
are now, and will continue doing so, as long as adequate structure and 
resources are provided.
    Air Force Answer. Specific training on rules of engagement are 
added to the normal training requirements prior to deployment and are 
constantly reviewed in theater.
    Question. If so, what effect has this change had on the readiness 
of your personnel to accomplish their wartime missions?
    Army Answer. A trained and ready force is still the Army's number 
one priority. The frequency and number of these deployments have 
stretched our soldiers and units. A major factor contributing to the 
stress units are experiencing is the demands placed on the time 
available to conduct required training and also participate in 
contingency operations. The commanders in the field are working very 
hard to maintain readiness while at the same time satisfying the 
requirements of these directed contingency operations. Because the 
costs of these contingency operations have to be paid up front from the 
Army's budget, pending supplemental funding by Congress, late 
reimbursement for these operations could have the potential to severely 
impact our ability to plan and conduct required training. Time is 
extremely important. The normal planning for a division training 
calendar requires units to begin committing resources 90 to 180 days 
prior to the conduct of the exercise. Without the supplemental now 
before Congress, we will be forced to scale back training and possibly 
cancel several training events due to lack of funds. Training 
opportunities that are missed cannot be made up and are opportunities 
lost. They have the potential for negatively impacting on overall Army 
readiness.
    Navy Answer. So far, the increased operational tempo associated 
with Navy participation in MOOTW has been accommodated without any 
significant impact on personnel readiness to respond to wartime 
tasking. However, there are limits, particularly in terms of lengths of 
deployments (6 month maximum) and the time personnel are away from 
their homeports, beyond which Navy personnel cannot be stretched. 
Utilization of ``low density/high demand'' forces, such as EA-6 Bs and 
P-3s, is a concern and is one focus of the Quadrennial Defense Review.
    Marine Corps Answer. While some Military Operations Other Than War 
(MOOTW) specific training is conducted prior to and during deployments, 
this has not altered our readiness training programs. The primary 
training that Marines receive to ensure their readiness for deployment 
covers the full spectrum of conflict. This full spectrum training is 
directly applicable to the operational demands encountered in MOOTW. We 
prepare for MOOTW primarily through rigorous training in the more 
exacting standards required of conventional combat operations. This 
approach ensures that Marine units are cohesive and well disciplined to 
operate in any contingency/crisis environment. This training is 
directly applicable to the operational demands encountered in MOOTW.
    However, the strategic, rapid response requirements of Marine 
operating forces argue against their significant long term retention 
ashore for MOOTW. Continued long term involvement in peacekeeping or 
similar operations may degrade combat effectiveness. One example of how 
this may occur is through insufficient training opportunities in 
primary combat skills for deployed units. Another example is unbudgeted 
operations leading to substantial and repeated diversion of O&M funds, 
training, equipment, and property maintenance for CONUS units when 
supplemental funding is not provided.
    Marines exist to meet the needs of the Nation; we have in the past, 
are now, and will continue doing so, as long as adequate structure and 
resources are provided.
    Most of the contingency operations which have been supported by 
U.S. forces since the beginning of this decade have not involved 
combat. Such military operations other than war have placed new 
training requirements on the U.S. armed forces since the rules of 
engagement, and the basic objectives of these operations differ from 
combat operations.
    Air Force Answer. Participation in operations other than war has 
caused temporary degradations in readiness for some units after their 
return from deployments due to a lack of quality combat training 
opportunities in some theaters. We have aggressively managed our 
deployment and training workloads through global sourcing, the Global 
Military Force Policy, increased use of the Guard and Reserve, and 
minor force structure adjustments to minimize any impacts on readiness.

                            Troops Overseas

    Question. Overseas rotational moves account for about 22 percent of 
DoD moves, and are in direct support of the DoD's required presence 
overseas. What percentage of your troops are currently stationed 
overseas? What is the average length of stay for a rotation overseas?
    Army Answer. As of February 28, 1997, 25 percent of our troops are 
currently stationed overseas (including Alaska and Hawaii). The average 
tour length for soldiers stationed in Europe is 32 months and Korea is 
14 months.
    Navy Answer. Currently, 14.4% (62,457 of 425,764) of Navy personnel 
are stationed overseas, including Alaska and Hawaii (Enlisted: 54,382 
of 360,069-15.1; Officer; 8068 of 65,695-12.3%). The average length of 
stay for a rotation overseas is 26.5 months (Enlisted: 26.4 months; 
Officer: 26.7 months).
    Marine Corps Answer. Approximately 12.6 percent (21,938) of our 
troops are stationed overseas. This includes Marines stationed in U.S. 
territories (Guam and Puerto Rico), Hawaii, and foreign countries 
(excluding Canada and Mexico).
    Of the 13,773 Marines stationed in Japan, 10,173 are on a one-year 
(dependent restricted) tour and 3,600 are serving accompanied tours of 
three years. World-wide there are 1,186 Marine Security Guards (MSGs) 
serving in foreign countries with whom we have diplomatic relations. 
These MSGs will serve two 15 or 18 months tours in different countries. 
The 5,383 Marines in Hawaii all are serving three year tours. 
Additionally, we have 1,596 Marines in various other overseas 
locations. So while the average length of stay overseas is 
approximately 24 months, the tours are generally either one or three 
years in length.
    Air Force Answer. At the end of fiscal year 1996, the Air Force had 
an end strength of 384,996 members with 79,066 (20.5%) stationed 
overseas. The number and percent overseas was 68,305 (22.1%) for 
enlisted and 10,761 (14.1%) for officers.
    Overseas tour lengths vary from 12 to 36 months dependent upon the 
location and whether the member is accompanied or unaccompanied. The 
average length of stay is 41.3 months. The length of stay for enlisted 
is 41.9 months and for officers it is 37.6 months.
    Question. Does your Service utilize initiatives to allow members to 
increase tour lengths where possible? Please describe these 
initiatives. How popular or successful are they?
    Army Answer. Yes. In order to meet overseas readiness requirements, 
Army personnel policy for troops overseas encourages soldiers to 
voluntarily lengthen their overseas tours and to serve additional 
tours. As a result, there is less personnel turbulence, more unit 
continuity, fewer reassignments and happier soldiers and families 
because of the increased stability. Generally, soldiers are asked to 
submit requests for foreign service tour extensions (FSTE) for any 
length of time. To further encourage FSTE, soldiers are provided 
incentives and benefits if they agree to serve additional complete 
tours after completing their first tours. Soldiers who volunteer to 
serve two full consecutive overseas tours (COT) are authorized the 
benefit of government paid travel for themselves and command-sponsored 
family members equal to the distance of soldiers' homes of records for 
one leave. Enlisted soldiers, who have military occupational 
specialties that are approved by the Secretary for the Overseas Tour 
Extension Incentive Program (OTEIP), and who agree to extend their 
tours for at least 12 months, are entitled to one of the following 
benefits:
    --Special pay of $80 per month for the period of extension.
    --A period of rest and recuperative absence for 30 days.
    --A period of rest and recuperative absence for 15 days and round-
trip transportation at government expense to the nearest aerial port of 
embarkation in the 48 continental United States.
    The Army's FSTE programs have been successful and continue to 
improve primarily due to an increase in the number of soldiers willing 
to serve longer overseas, Army budget changes and increased publicity. 
For example, Europe has been averaging 6,000 FSTEs per year and funding 
for transportation and travel benefits has increased due to the change 
in paying accounts from the units' organizational maintenance account 
to the Department of the Army's military personnel account. The OTEIP 
is being expanded from 19 to 72 military specialties and has been made 
a topic on an Internet home page via U.S. Total Army Personnel Command 
On-Line.
    Navy Answer. The Navy has two (2) initiatives allowing members to 
increase tour lengths where possible: Overseas Tour Extension Incentive 
Plan (OTEIP), for enlisted only; and In-Place Consecutive Overseas Tour 
(IPCOT) benefits, for officer and enlisted.
    OTEIP benefits are outlined as follows: OTEIP offers eligible 
enlisted personnel the opportunity to receive their choice of one of 
three incentive options for extension of their current PRD for 12 
months of more.
    a. $80 per month special pay for each month during the period of 
the extension; or
    b. Thirty days Rest and Recuperative (R&R) absence during the 
period of extension; or
    c. Fifteen days (R&R) absence plus round trip transportation at 
government expense from the location of the extended tour of duty to 
the port of debarkation CONUS and return during the period extension.
    The following enlisted personnel are eligible for OTEIP:
    --All enlisted personnel serving on Type 3 or 4 duty. This includes 
Type 2 units in Hawaii.
    IPCOT benefits are outlined as follows: A member who is:
    --stationed outside the continental United States (CONUS) and
    --ordered to a consecutive tour of duty at the same permanent duty 
station (PDS) or,
    --makes a permanent change of station from one PDS outside CONUS to 
the same PDS outside CONUS to serve the prescribed tour at the gaining 
PDS and
    --meets prescribed tour length requirements is entitled to 
consecutive overseas tour leave travel and transportation allowances 
for travel of the member and command sponsored family member who 
accompany the member at both duty stations.
    --For members who have no family members or member defined as an 
unaccompanied member; member is entitled to travel and transportation 
allowances for travel from the current overseas PDS and return thereto 
via one of the following places:
    a. the member's home of record or to any place no farther distant 
than the member's home of record; or
    b. any place authorized or approved by the Secretary of the Navy 
concerned or the Secretary's designated representative.
    --For members with family members: members and command sponsored 
family members who are located at or in the vicinity of the member's 
current overseas PDS are entitled to travel and transportation 
allowances for travel of the member and family member(s) from the 
current overseas PDS and return thereto via one of the following 
places:
    a. The member's home of record or to any place no farther distant 
than the member's home of record, or
    b. Any place authorized or approved by the Secretary of the Navy or 
the Secretary's designated representative.
    In FY96 enlisted personnel received OTEIP benefits and 885 
personnel (Officer and enlisted) accepted back to back tours at the 
same overseas PDS thereby receiving IPCOT benefits.
    Marine Corps Answer. The Marine Corps utilizes the Overseas Tour 
Extension Incentive Program (OTEIP) to encourage members serving a 
dependents restricted tour to increase their overseas tour length. 
Extensions must be for a minimum of 12 months. OTEIP options include:
    --15 days nonchargeable leave with paid round trip travel to a port 
of debarkation
    --30 days nonchargeable leave without paid travel
    --bonus of $80 per month for the 12 month extension
    We also encourage longer accompanied tour lengths with our In-Place 
Consecutive Overseas Tour (IPCOT) Program. By accepting a consecutive 
overseas accompanied, Marines are entitled to paid travel to any 
designation (not just the port of debarkation) in connection with 
authorized (chargeable) leave. The travel may also be paid for the 
Marine's family.
    OTEIP and IPCOT are popular incentives for increasing overseas tour 
lengths. We expect nearly 900 Marines to take advantage of these 
programs this year.
    Air Force Answer. The Air Force ensures every overseas member has 
an opportunity to extend his or her tour. All overseas returnees notice 
which outlines their options at least nine months prior to their 
scheduled return date. The notice includes options to extend overseas 
and a description of each of the incentives to encourage extensions. 
The member must state, in writing, that they choose/elect to rotate at 
the end of the prescribed tour--the AF does not automatically assume 
members will return to the CONUS upon completion of the DoD prescribed 
tour length.
    The Air Force uses four incentivized initiatives to encourage 
members to increase their tour length. The Overseas Tour Extension 
Incentive Program (OTEIP) provides incentives to enlisted personnel to 
remain on station at short tour locations for all specialities and at 
long tour locations for imbalanced specialties. The incentives allow 
the member to choose among receiving an additional $80 per month for 12 
months ($960) or 30 days nonchargeable leave or 15 days nonchargeable 
leave and round-trip transportation (member only) to the nearest CONUS 
port. The In-Place Consecutive Overseas Tour (IPCOT) and Consecutive 
Overseas Tour (COT) programs provide round-trip transportation to their 
home of record for members and their command-sponsored dependents in 
return for their agreement to serve another full accompanied tour in an 
overseas location. The Extended Tour Volunteer (ETV) program gives 
members priority in selecting the location of their overseas 
assignment. In return, the members agree to serve the full tour plus an 
additional 12 months at that location. These programs are very 
successful and the Air Force strongly encourages our members to take 
advantage of them. The Air Force originated an initiative, that is 
awaiting Congressional approval, to increase the OTEIP payment option 
from $960 to $2,000 to encourage even more individuals to participate 
in the program.
    Question. Prioritize the major quality of life concerns for service 
members and their families who are currently assigned overseas.
    Army Answer. We do not have a mechanism to breakout and prioritize 
the quality of life concerns of service members and families who are 
overseas. However, U.S. Army Europe officials indicate that the major 
quality of life concerns for service members and their families are 
medical care, housing, child care, and schools.
    Navy Answer. Overseas service members and their families are most 
often concerned about their Quality of Life due to: Higher cost of 
living overseas, limited community resources, cultural and language 
barriers, and limited medical resources for family members.
    Marine Corps Answer. There is no actual data to support the 
following prioritzation. It is strictly based on anecdotal comments and 
hearsay:
        a. Housing and living arrangements.
        b. Health care.
        c. Loneliness due to isolation from family and friends.
        d. Child care/education.
        e. Spousal employment.
    Other less frequent concerns that impact service members and 
families assigned overseas are high cost for keeping in touch by 
telephone, length of time for mail delivery, and boredom for young 
service members and families that do not venture off the installation 
due to transportation restraints, language barriers, and the monetary 
exchange. Single service members experience some of the same concerns 
as married members.
    Air Force Answer. The issues for our overseas members were 
considered when we developed the Air Force priorities for pursuing an 
adequate quality of life for our members, families, and civilian 
employees: compensation and benefits; safe, affordable, and adequate 
housing; quality health care; a balanced OP/PERSTEMPO; community and 
family support; retirement benefits; and educational opportunities. 
Housing for families and single members, health care, commissaries and 
exchanges, libraries and fitness centers are essential to our overseas 
troops. They offer members and their families needed services and 
familiar activities as well as products and brand names that serve as 
touchstones to home. Single service members must adapt to a different 
culture with limited resources. They are heavily reliant upon whatever 
is offered or provided by the installation and can end up feeling very 
isolated unless the appropriate support and recreational programs are 
in place. Families also face isolation when they are forced to live 
great distances from the installation because of limited military 
family housing. They often impacted by the limited availability of 
employment opportunities for spouses and child care availability on an 
overseas activity. In these two situations, families have few 
alternative options. Having said this, the Air Force has been and 
remains committed to ensuring our services and programs support our 
overseas service members and their families. We support programs like 
the Overseas Family Member Dental Program (OFMDP) which provides 
comprehensive dental care to family members in Europe and throughout 
the Pacific. We are focusing attention on overseas housing, recreation, 
and health care programs. For example, we are eliminating central 
latrine dormitories and moving to the new ``1 + 1'' privacy standard 
for our unaccompanied members and pursuing several Military Family 
Housing replacement projects throughout Europe and the Pacific. To 
promote health and fitness, we are establishing Health and Wellness 
Centers at all major overseas installations. In addition to these 
initiatives, we recently gained POV storage and round-trip port travel 
reimbursements associated with overseas assignments in the 1997 
National Defense Authorization Act. These programs will help our 
members defray the costs of overseas assignments.

                         Troops vs. Technology

    Question. Gentlemen, General John Sheehan, Commander in Chief of 
the U.S. Atlantic Command, has stated that, ``technology will be no 
substitute for well-trained ground forces in the military operations of 
the future.'' He states that the military missions of tomorrow will be 
in urban areas that will require troops on the ground and not, for 
example, a need for high technology aircraft over head. Gentlemen, do 
you agree with his assessment of future contingencies?
    Army Answer. Yes. While the risk of a high technology peer 
competitor cannot be discounted, trends indicate an increasing 
frequency of U.S. involvement in lesser regional conflicts and 
operations other than war (e.g., peace support operations, security 
assistance, humanitarian relief, and combating terrorism). While 
technology can assist in the conduct of such operations, rarely can 
precise, highly lethal weapons delivered from a distance redress the 
strategic conditions that created the challenges to U.S. interests. 
Those high technology solutions also may not apply to the increasing 
likelihood of irregular and non-conventional warfar or operations 
conducted in urban areas. As currently configured, only U.S. ground 
forces are well suited for such operations.
    Retention of engagement and enlargement as a national security 
strategy will increase the frequency of such operations and the demand 
for ground forces. Thus, the United States must maintain capabilities 
to meet challenges throughout the range of military operations, 
particularly at the low end, if it is to promote and further U.S. 
national interests.
    Navy Answer. I believe that the General is correct in that there 
are some missions for which high technology cannot alleviate the need 
for troops on the ground. Across the wide spectrum of potential 
military operations, urban warfare certainly would have to be one of 
the more manpower intensive. I also believe however that modern 
technology, properly applied, can be a force multiplier that provides a 
distinct advantage whether we are talking troops on the ground, airmen 
in the air, or sailors at sea.
    The Navy recognizes that the military missions of tomorrow will be 
where the people are--in the littorals, areas that include a large 
proportion of the world's urban centers. It is with this in mind that 
the Navy has developed its Navy Operational Concept which describes how 
the Navy will execute Forward . . . From the Sea into the 21st century. 
Naval capabilities are well suited to successfully completing the full 
range of missions in the littoral environment, often including 
providing support to marines and soldiers ashore. Modern systems with 
greater range, capability, and sustainability allow naval forces to 
have a greater impact on events ashore than ever before. Additionally, 
the harnessing of modern technology to gain information superiority 
will allow us to accurately assess enemy capabilities and determine how 
to best accomplish any given objective.
    Thus as I look to the future, I forecast the need to balance 
technology with troops, ensuring that we invest in both to achieve 
optimum mutual support.
    Marine Corps Answer. Yes, to a certain extent. The Marine Corps' 
ability to conduct military operations in the future rests with the 
individual Marine. Marines are trained to be ready for uncertainty and 
to successfully meet tasks by adapting, improvising, and prevailing. We 
equip our Marines to fight, not man our equipment. Our Marines are 
fully integrated into a synergistic force package that emphasizes the 
application of combined arms and maneuver warfare. Advanced technology 
in both ground and air applications will complement, but will never 
alleviate the need for well trained and well equipped ground fighting 
forces. Our Sea Dragon series of experiments highlights our efforts to 
ensure that technology supports the man. Our upcoming experiment 
entitled ``Urban Warrior'' will look specifically at combat in urban 
areas.
    Air Force Answer. It's possible we may see more urban conflict in 
the coming years, but a survey of the actions we're involved in right 
now in the Balkans, Southwest Asia, Africa, and South America, shows 
that we can't use urban operations as our sole planning scenario. The 
recently completed Joint Strategy Review (JSR), setting the strategic 
planning context of future operations, and the Defense Planning 
Guidance (DPG), with its Illustrative Planning Scenarios, clearly 
outline future contingencies that emphasize the need for military 
capabilities with a broad range of technological sophistication--from 
``boots on the ground'' to dominance of the skies to special operations 
forces tailored for specific missions. The JSR and DPG are the 
established vehicles for building consensus on the nature of future 
conflict, and decisions about the appropriate mix for future forces 
flow from there.
    Question. Do you believe that the increased use of technology can 
substitute for the numbers of troops on the ground or sailors on ships? 
In other words, should we reduce manning further because we are 
technologically superior?
    Army Answer. This is a difficult question to answer. We will always 
require ``boots on the ground,'' and the number of soldiers does 
matter, however, technology will give us enablers that will provide 
some efficiencies in employing the force. Study and analysis always is 
required to determine the right manning level required for given 
capabilities of technology.
    Navy Answer. The Navy is aggressively pursuing initiatives that 
would enable us to reduce manning levels without a corresponding 
reduction in capabilities. Examples of these initiatives include the 
Navy's ``Smart Ship'' and ``Smart Base'' projects and a strategy for 
the increased use of ``competition and outsourcing''.
    The Smart Ship project provides an effective means to test and 
evaluate emerging labor saving technology and doctrine changes. Initial 
testing of approximately fifty individual labor saving initiatives has 
been undertaken, onboard USS Yorktown. Other examples include 
incorporation of Smart Ship concepts into the development of designs 
for the Arsenal ship, SC-21, and CVN-77.
    The Smart Base project, similar in concept to Smart Ship, aims to 
increase shore installation efficiency and reduce the cost of 
infrastructure. Naval Station Pascagoula, MS and Naval Shipyard 
Portsmouth, NH have been designated as demonstration sites.
    The competition and outsourcing initiative would lower costs and 
increase efficiencies and replace non-core function military billets 
with civilian personnel or contracts.
    These initiatives, successfully implemented, promise to allow 
reduced personnel manning levels while maintaining a superior force. We 
must however be careful to ensure that we actually receive the expected 
level of benefit from these new concepts and technologies, and 
determine that they will work in a combat as well as a non-combat 
environment before we reduce personnel levels. Absent these 
precautions, we risk degrading the overall effectiveness of our forces 
and demoralizing the highly professional well-training force we have 
worked so hard to create.
    Marine Corps Answer. The Marine Corps position is that technology 
should not be viewed as an end to itself. Technology should be used as 
an enabler not as a numerical replacement for Marines and Sailors. The 
Marine Corps has always viewed the individual Marine on the battlefield 
as our most important asset and technology as a means to enhance his 
warfighting capabilities, lethality and survivability.
    As the Marine Corps proceeds through the Sea Dragon experimental 
process, we seek to fuse technology and enhance the capabilities of the 
warfighter through the introduction of new equipment and tactics, 
techniques and procedures. During this process, we must be careful not 
to automatically cut force structure without first conducting a proper 
analysis. This will be accomplished through our Marine Corps Concepts 
Based Requirements System which reviews the impact of changes to 
existing technology, tactics, training, and procedures on Marine Corps 
doctrine, organization, education and training, equipment, and 
structure.
    Once this analysis is complete, the Marine Corps can then determine 
how to best organize, train, and equip to meet the mission requirements 
of our Corps. With that said, our current end strength of 174,000 
active and 42,000 reserve Marines is essential for the Marine Corps to 
execute its assigned responsibilities. Reduction of current strength 
without concomitant reduction in U.S. commitments will undermine force 
stability, foreign policy initiatives, and the Nation's ability to 
protect its national interests.
    Air Force Answer. The key to success is balanced use of both these 
American strengths: leading edge technology and highly trained 
soldiers, sailors, airmen, and marines. Today we're operating at the 
limits of each. While the United states has long used its technological 
edge to keep the active duty force as small as possible, there is no 
breakthrough on the immediate horizon which would allow us to draw down 
further without accepting increased risk. Our forces are sized to meet 
the needs of our two major regional contingency security strategy by 
taking full advantage of both our available technology and the very 
highest quality young women and men our nation offers. And even during 
the period of relative peace we're now enjoying, our operational tempo 
is very high and our people are feeling the stress. Further force 
reductions could significantly increase the burden on those who remain.
    Question. The increased numbers of women in the military has 
resulted in changes in personnel management and policies towards 
training, physical fitness, assignments, medical services, etc. What 
percent of your forces are women in uniform?
    Army Answer. Women currently make up 14.5 percent of the Active 
Army, 23.6 percent of the Army Reserves, and 8.2 percent of the Army 
National Guard.
    Navy Answer. As of February 28, 1997, 12.5% of the enlisted active 
duty force is women and 13.5% of the officer active duty force is 
women. Total Active Duty (including TARS) is 12.7% women.
    Marine Corps Answer. Currently 5.1% of the active duty Marine Corps 
are women.
    Air Force Answer. At the end of fiscal year 1996, women comprised 
16.7 percent of the active duty Air Force, 20.7 percent of the Air 
Force Reserve, and 14.9 percent of the Air National Guard.
    Question. Do you believe women are valuable to your service to meet 
your individual missions?
    Army Answer. Yes, absolutely!
    Navy Answer. Yes, Navy end strength requirements dictate that over 
two-thirds of our new recruits must attend A-school for specialized 
skills training. Many of these skills are in highly technical fields 
such as the advanced electronics and nuclear fields. It is not enough 
to simply recruit Sailors, we must put the right people in the right 
programs and optimize our utilization of pipeline training programs. 
The number of high quality men desiring entry into the all volunteer 
force is not sufficient to meet all the technical field requirements. 
Recruiting high quality women allows us to meet our requirements and 
significantly improves overall readiness.
    Marine Corps Answer. Yes. Women are invaluable to the Marine Corps 
in meeting its wide range of missions. Without the contribution 
provided by our women Marines, we could not possibly meet our mission 
requirements as effectively as we do today. Now that barriers have been 
removed, and opportunities increased, women will become even more 
critical to the Marine Corps' mission success.
    Air Force Answer. Women are a valuable and integral part of the Air 
Force as evidenced by the many senior leadership positions they 
currently fill. For example, women represent 10.5 percent of our senior 
noncommissioned officer corps (E-7 through E-9), but they hold almost 
12 percent of first sergeant and senior enlisted advisor positions. 
Likewise, women comprise almost 9 percent of our senior officer force 
(O-5 and O-6) and hold almost 9 percent of our senior officer commander 
positions. In the Air Mobility Command, as a matter of fact, women 
represent 4 percent of the rated force but command 14 percent of the 
flying/operational support squadrons.
    In today's All Volunteer Force, Air Force recruiting is gender-
neutral, i.e., we do not specifically target men or women--we recruit 
high quality young Americans--yet during fiscal year 1996, 23 percent 
of officer accessions and 26 percent of enlisted accessions were women. 
These numbers are significant in allowing us to fill all of our 
requirements, from aircrews to mission support to health care 
providers. Given the reduced propensity of young, Americans, 
particularly young men, to enlist in the armed forces, it would be 
nearly impossible for us to meet our mission requirements without 
women.
    Question. What percent of jobs in your Service are open or 
available to women? Is it primarily due to combat related positions 
that some fields are closed to women?
    Army Answer. Ninety percent of Army occupations are open to women. 
Because of the preponderance of combat units in the Army, this equates 
to 70 percent of all positions open to women. The Army's application of 
the Department of Defense Direct Ground Combat Definition and 
Assignment Rule requires that Infantry, Armor, Special Forces and 
certain other jobs be closed to women.
    Navy Answer. Ninety-two of ninety four (97%) enlisted ratings and 
23 and 25 (92%) of officer career fields are open to women. The three 
(3) enlisted ratings--FT, MT, & STS--are closed because the primary 
career track is aboard submarines. The two (2) officer career fields 
are Submarine (112X/117X) and Special Warfare (SEALs--113X/118X). 
Special warfare is closed due to the direct ground combat rule. There 
are approximately 23,000 billets closed to women because they are 
associated with submarine, mine warfare, and special warfare platforms.
    Marine Corps Answer. Ninety-three percent of all military 
occupational specialties in the Marine Corps are open to women. Job 
fields that remain closed to women are exclusively due to the ``direct 
ground combat rule.''
    Air Force Answer. Over 99 percent (99.4%) of AF positions are open 
to women. The positions which are closed/restricted to women are based 
solely on DoD policy, which prohibits the assignment of women to units 
below the brigade level whose primary mission is direct ground combat. 
The only career field closed to women officers is combat control; those 
officer career fields with certain positions restricted to women are 
helicopter pilot (special operations MH-53/MH-60), weather, and air 
liaison officer. The career fields closed to enlisted women include 
combat control, pararescue, and tactical air command and control; the 
restricted enlisted career fields are weather, radio communications 
systems, ground radio communications, and helicopter flight engineer/
aerial gunner (special operations MH-53/MH-60).
    Question. Do each of you feel your Service is giving female 
soldiers and sailors opportunities to excel in their careers?
    Army Answer. Yes. Women soldiers are excelling in their careers. 
They are being selected for promotion, schooling, and command at ever 
increasing percentages. The percentage of women in the Army overall and 
in higher ranks is also increasing. These indicators demonstrate 
increasing success in women's careers.
    Navy Answer. Yes, to be competitive with their male counterparts, 
women are afforded the same sea duty opportunities as men. Women's 
career paths parallel that of men. They face the same challenges and 
obtain the same warfare qualifications.
    Marine Corps Answer. Yes. The Marine Corps is committed to removing 
barriers to assigning women in an effort to expand their career 
opportunities. A review of all military occupational specialties (MOSs) 
per the ``direct ground combat rule,'' resulted in 93 percent of all 
occupational fields being open to women. Thirty-four previously closed 
MOSs were opened to women, greatly expanding their career growth 
potential.
    Air Force Answer. All Air Force members are given equal 
opportunities to excel. Opportunities for training, deployments, 
assignments (except for those prohibited by DoD policy), etc., are 
gender-neutral. Generally speaking, duty performance, a primary 
ingredient of career progression, of women in contingency operations 
and in their primary duties equals that of men in traditional and 
nontraditional fields. Women generally outperform men on quality 
indicators, such as promotion. For example, since 1990, women have been 
promoted at a higher rate than the board average on all officer 
promotion boards except one and on all senior (E-8)/chief master 
sergeant (E-9) promotion boards.
    Question. What is the female attrition rate currently? Has this 
improved over the years? If so, why?
    Army Answer. The attrition rate for women at the 36-month mark is 
47.9 percent compared to 35.4 percent for men. The women's attrition 
percentage has been increasing slightly, and the men's rate has been 
constant. In regard to why the percentage has increased for women, this 
issue is currently being addressed as part of a Department of the Army 
study of attrition.
    Navy Answer. First term attrition is defined as the percentage of 
people whose enlistment contracts would have ended in a particular year 
who fail to complete their first term of service by at least three (3) 
months. The attrition rate for enlisted women whose enlistment would 
have ended in fiscal year 1996 was 48% (male attrition for same period 
was 45.1%). For fiscal year 1992 attrition rates were 42% for females 
and 38.2% for males. Attrition rates for both males and females have 
increased at approximately the same rate. The increased attrition level 
reflects drawdown early out programs that selectively allow members to 
leave before the end of their term of service.
    Marine Corps Answer. This question will be answered by providing 
two methods of calculation: non-cohort data and cohort data. When 
examining non-cohort data, first-term attrition was 14.3% in FY 96. 
This rate is calculated by dividing the number of first-term, female 
losses in fiscal year 1996 by the number of first-term, females on 
active duty in fiscal year 1996. Over the last eleven years, first-
term, female attrition has been relatively constant:

------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
 
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
FY..................................        86           87           88           89           90           91           92           93           94           95           96          mean
Rate................................      12.4         11.9         13.7         14.9         14.6         16.6         14.8         16.2         14.7         15.7         14.3          14.5
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------

    The cohort rate is calculated by dividing the total number of first 
term female losses over the initial four years enlistment period of a 
particular year group (Cohort) by the total number in the cohort. 
Fiscal year 1991 is the most recent cohort for which the Marine Corps 
has data. First-term, female attrition from the fiscal year 1991 cohort 
was 54.8% Over the last six completed cohorts, first-term, female 
attrition has been relatively constant:

--------------------------------------------------------------------------------------------------------------------------------------------------------
 
--------------------------------------------------------------------------------------------------------------------------------------------------------
FY...........................................................           86           87           88           89           90           91         mean
Rate.........................................................         48.5         51.4         51.5         52.3         54.3         54.8         52.1
--------------------------------------------------------------------------------------------------------------------------------------------------------

    Air Force Answer. The Basic Military Training attrition rates for 
men and women over the last 6 years are as follows:

                                     Basic Military Training Attrition Rates
                                                    [Percent]
----------------------------------------------------------------------------------------------------------------
                                       FY 91        FY 92        FY 93        FY 94        FY 95        FY 96
----------------------------------------------------------------------------------------------------------------
Men...............................         5.70         5.08         7.36         7.71         9.95         9.36
Women.............................        12.76        10.21        13.52        13.18        14.51        12.37
----------------------------------------------------------------------------------------------------------------

    The attrition rates for men and women after four years of service 
are reflected in the following table. The spike in FY 92 can be 
attributed to the instability surrounding major drawdown programs. The 
attrition rates of the last few years are closer to the historical 
average of 45 percent for first-term airmen.

                                   Attrition Rates After Four Years of Service
                                                    [Percent]
----------------------------------------------------------------------------------------------------------------
                                       FY 91        FY 92        FY 93        FY 94        FY 95        FY 96
----------------------------------------------------------------------------------------------------------------
Men...............................         42.5         51.5         42.8         43.6         45.1         47.4
Women.............................         48.6         56.1         48.2         44.2         46.8         47.0
----------------------------------------------------------------------------------------------------------------

    Since fiscal year 1994, the attrition rates of first-term women 
have shown an improvement relative to males over the last few years. 
The positive work environment the Air Force provides women can explain 
this improvement. The Air Force offers women equal opportunity for 
career satisfaction and progression.
    Question. What are the major quality of life concerns that women 
have expressed as being important to them?
    Army Answer. We do not track gender-specific responses to quality 
of life issues. Our women and men in uniform share the same concerns in 
this area. Two of the most important, identified in all of our surveys, 
are the availability of child care and the demands on families caused 
by the Army's increased operational tempo.
    Navy Answer. It is my experience, covering hundreds of calls with 
Sailors in every conceivable setting, that women ask the same questions 
and are concerned about the same issues as men. This is unquestionably 
so in the senior enlisted paygrades. The issues that are most often 
raised from surveys and during DACOWITS installation visits and 
leadership conferences are (1) availability of child care; (2) quality 
of uniforms; and (3) availability of health care, specifically ob/gyn. 
Navy is working to increase the number of child care providers. The 
Defense Advisory Committee on Women in the Services (DACOWITS) has 
chartered a working group to look into the quality of uniforms for all 
Services. The Navy is continuing to look for ways to increase the 
availability of health care. Although these issues are primarily raised 
by women, the efforts that DoD and the Navy are making towards 
improving these areas should assist the men as well.
    Marine Corps Answer. The major quality of life concerns of female 
Marines are not substantially different than that of their male 
counterparts. Compensation heads the list, followed by health care, 
housing, and other service member and family support programs.
    Availablity of on-base child care also continues to be one of their 
most oft mentioned concerns.
    Air Force Answer. Quality of life concerns of Air Force women cut 
across the gender barrier. In other words, quality of life concerns are 
concerns of Air Force people--women and men.
    One of our biggest quality of life concerns is OPTEMPO. Although we 
have a goal of no more than 120 days a year away from home, many people 
exceed that due to the missions our smaller force is called on to 
support. Deployment results in absences in the home unit, which, 
creates additional stress for those members remaining behind as they 
try to maintain mission readiness without a full staff. Increased 
absences from home creates additional stress for family members as 
well. In fact, the post-Cold War Air Force is 32 percent smaller yet 
deployments and international commitments have increased fourfold.
    We often hear concerns about availability of reliable child care, 
particularly during extended duty hours and exercises. Accessibility to 
adequate health care--particularly for family members--remains vivid on 
the scope of quality of life concerns, which is why we continue to work 
hard for the continued implementation of TRICARE.
    A primary quality of life concern of young enlisted members is 
private living quarters. With Congress' help, we're beginning to 
implement the one-plus-one dormitory standard to provide junior 
enlisted members quality living quarters. Lack of adequate family 
quarters is a concern of more senior Air Force members, with the 
concurrent concern of quality and affordability of off-base housing 
when government quarters are not available.
    A particular concern of women has been the fit and availability of 
uniform pieces. Last year DoD formed a task force to look at the entire 
process of uniform design, procurement, and distribution.

                        Gender Neutral Training

    Question. Recent events, including allegations of widespread sexual 
abuse at Aberdeen Proving Grounds, have started a debate over possible 
changes to DoD gender-integrated training practices. The Secretary of 
Defense has recently stated that the question is best left up to the 
Services to decide but there is no ``compelling evidence'' to warrant a 
change in current practices.
    What are your thoughts? Are current programs adequate or do you 
envision that the Department will embark on a course to emphasize 
separate training programs for men and women?
    Army Answer. I am pleased that the Secretary of Defense is 
supporting the Services in determining how to conduct training given 
each Services' unique mission requirements and force mix. There is no 
evidence to support a change to the way the Army trains--we train as we 
fight. In fact, there is evidence to continue gender-integrating 
training.
    The Army began gender-integrated training for officer and enlisted 
soldiers in the early 1970s. In 1973, we started training males and 
females together during Advanced Individual Training. As more Military 
Occupational Specialties (MOS) were opened to women, Army training 
managers needed to ensure the quality of MOS training, for both 
genders, and began to establish an environment where men and women 
would learn, early in their careers, how to work together as a team. In 
1993, the Army decided to again ``test'' gender-integrated basic 
training. The ``test'' distinction was applied because the Army had 
tried gender-integrated basic training in the 1970s and 1980s--then 
stopped. No records are available to document whether gender-integrated 
basic training in those years had been a success or failure.
    In 1993, the Army Research Institute (ARI) was asked to perform a 
study to examine whether this was a prudent method of training for the 
Army. Results indicated gender-integrated basic training showed 
considerable promise for the effective training of both men and women. 
Gender-integrated basic training was incorporated into Army policy in 
1994, and the ARI study was continued for an additional two years. Now 
completed with the final results published in February 1997, the study 
has provided the Army with empirical performance data that strongly 
supports gender-integrated basic training. For the Army, gender-
integrated training is the best way to train.
    Navy Answer. I think that the current programs are adequate and I 
do not envision that the Department will embark on a course to 
emphasize separate training programs for men and women. The Navy has 
found its gender neutral training approach to be most effective in best 
preparing our Sailers to live, operate, fight and win aboard gender 
neutral shore based commands, and deployed ships and squadrons. When 
they arrive in the fleet, men and women live and work together, just as 
they do in the society from which we draw our recruits. When deployed, 
however, understanding one another and relying on each other is a 
compelling necessity. Close quarters are a fact of life onboard ship, 
and success during routine underway operations and war at sea is 
measured in hard-earned readiness through underway training, lives 
saved and victories won. An environment free of discrimination and 
harassment is necessary for this success, since our ships, staffs, and 
squadrons rely on the job performance of the women and men assigned. It 
would be dysfunctional to introduce this concept for the first time 
when Sailors arrive onboard ship. Rather, our approach is to instill, 
from the beginning of a Sailor's Navy experience, the reality of a 
gender integrated living, operating and fighting Navy unit.
    Marine Corps Answer. The Marine Corps has developed a progressive 
means of integrating males and females into its ranks. It is a training 
program that begins with gender segregated training at the Recruit 
Depots, progresses to partial gender integration at Marine Combat 
Training and reaches full gender integration at all (except combat 
arms) Military Occupational Specialty Schools and Professional Military 
Education institutions.
    --Recruit Training. The purpose of recruit training is simple--to 
make Marines. Although basic military skills are taught in a very 
structured setting, recruit training is really a socialization process. 
In order to make that process as effective as possible, the Marine 
Corps chooses to provide an environment free of latent or overt sexual 
pressures, thereby allowing new and vulnerable recruits the opportunity 
to focus on becoming a Marine. As a result, male and female recruits 
are formed into gender segregated units with Drill Instructors of the 
same sex.
    --Marine Combat Training (MCT). Immediately following recruit 
training is Marine Combat Training. The purpose of MCT is to provide 
all non-infantry Marines with the weapons and fieldcraft skills 
essential to operating and surviving in a combat environment. 
``Operation Leatherneck'', as it is called, is a comprehensive 
scenario-based training exercise designed around a unit's notional 
deployment in an overseas contingency operation. Effective March 19, 
1997, MCT classes will be partially gender integrated in that men and 
women will train together as members of the same company--a female 
platoon in each training company with leaders of both sexes throughout 
the unit. This organization and training provides the first opportunity 
for Marines of both sexes to see themselves as members of the same 
team, committed to performing the same duties, in the same mentally and 
physically demanding environment. As a result of that experience, they 
develop an appreciation for each other as professionals.
    --Military Occupational Specialty School. Following MCT, Marines of 
both sexes report to follow-on MOS schools. There, they are fully 
gender integrated into the lowest level organizational structure--the 
squad and fire team. Their experience at recruit training and MCT have, 
by this point, fully prepared them to interact together as equal 
partners in their unit/school, and subsequently the operating forces.
    The Marine Corps feels that this building block approach to gender 
integration has served its purpose well. It has allowed for the making 
of Marines at recruit training, the maturing of Marines at MCT and the 
full integration of male and female marines at their MOS school. These 
is no intent to change this process.
    Air Force Answer. The Air Force has employed gender-integrated 
training since 1976 and it works. Current programs are adequate based 
on our Graduate Assessment Survey results showing 95% of supervisors 
are satisfied that they receive trained airmen, ready to perform.
    Question. In the light of recent events, do you believe that 
creating an increased number of separate male and female training 
programs will improve the morale or readiness of the U.S. forces?
    Army Answer. No. These is no relationship between gender-integrated 
training and sexual harassment or the criminal acts of sexual assault 
and rape. There is no empirical evidence to suggest that gender-
integrated training in any way has caused a decline in Army morale or 
readiness. In the Army, we train as we fight.
    Navy Answer. I do not believe, in light of recent events, that 
creating an increased number of separate male and female training 
programs will improve the morale or readiness of U.S. forces. As 
previously stated, the Navy has found its gender neutral training 
approach to be most effective in best preparing our Sailors to live, 
operate, fight and win aboard gender neutral shore based commands, and 
deployed ships and squadrons. I feel it would be detrimental to morale 
and readiness if the integration of men and women was not allowed to 
take place at the outset of a Sailor's Naval career. Navy men and women 
live and work together when deployed, however, understanding one 
another and relying on each other is a compelling necessity. Close 
quarters are a fact of life onboard ship, therefore, an environment 
free of discrimination and harassment is necessary for success. Our 
approach is to instill, from the beginning of a Sailor's Navy 
experience, the reality of a gender integrated living, operating and 
fighting Navy unit.
    Marine Corps Answer. The Marine Corps' overall training program is 
designed to maximize operational readiness. The sequence of progressive 
gender integration--from recruit training, to partial gender 
integration at Marine Combat Training, and finally to Military 
Occupational Specialty Schools (with the exception of combat arms) and 
Professional Military Education institutions--is part of that program. 
(These programs are described in detail in the response to the previous 
question). We consider this a successful program and do not anticipate 
the need for changes.
    Air Force Answer. No. The Air Force trains the way we fight--
together. Twenty four percent of our Basic Training graduates are women 
and ninety nine percent of our career fields are open to women. Air 
Force morale and readiness are enhanced due to constant focus on Equal 
Opportunity and our integrated approach to training.
    Question. What are the estimated costs of creating new, separate 
male and female training programs?
    Army Answer. The Army's policy of integrated basic and advanced 
training provides a solid foundation for male and female soldiers to 
learn how to work together as a team to accomplish the Army's mission. 
Since the Army has been conducting Gender Integrated Training 
successfully since 1973, there are no plans to create new and separate 
male and female training programs. Therefore, an estimated cost 
analysis is not available. An initial estimate from the Training and 
Doctrine Command on facilities (billeting) and equipment shows it would 
have a minimal impact on the training base in Basic Training/One Unit 
Station Training but could have a major impact during Advanced 
Individual Training.
    Navy Answer. The estimated cost of creating new, separate male and 
female training programs would be difficult to determine without 
knowing exactly to what degree they were going to be separated. If the 
intent was to have both the males and females train at the same 
geographic location, the cost could be minimal as the primary concern 
would be with adequate berthing capacity and sufficient classroom 
instructors to cover the increases in classes. If, however, the intent 
is to geographically separate the males from the females then the cost 
would escalate depending on MILCON requirements for facilities, 
manpower staffing requirements, etc.
    Marine Corps Answer. Since there is no plan to create ``new, 
separate male and female training programs'' no cost has been 
projected.
    Air Force Answer. Using recruit training as an example, we would 
have to stand up an additional training squadron which could be moved 
into an existing recruit housing and training facility (cost of 
facility renovation, linen, and equipment would be $10.6 million). 
Annual operating expenses would be an additional $3.6 million. Manpower 
would increase by 11 people (recruited from people currently performing 
their operational mission) and separate schedules would have to be 
worked for the firing range, confidence course, academic classes, etc. 
which may drive additional manpower and facility costs. Recruit 
training would be left with no surge capability and the intangible 
costs associated with lower morale and damage to the team building 
process (readiness) would be difficult to measure.

                           Hazing Activities

    Question. The Committee understands that the Department of Defense 
(DoD) has a zero tolerance policy in hazing. However, recent events 
related in the press about hazing activities involving military 
personnel has DoD involved in developing new guidelines that will 
determine what activities are prohibited and how they should be 
investigated. Gentlemen, do you believe that hazing still occurs every 
day in your Service? How big a problem is it for your Service?
    Army Answer. In my opinion, hazing is not a widespread practice in 
the Army. Elimination of all hazing, however, remains an important goal 
for our Army leadership.
    Navy Answer. The Navy has worked hard to eliminate hazing in the 
ranks; as a result it occurs infrequently. However, when hazing does 
occur, it is dealt with swiftly. Early this year, we assessed the 
status of hazing in the fleet and identified a few isolated incidents 
of hazing that were quickly and effectively handled by the chain of 
command. In December 1996, we reviewed the command climate at Navy's 
primary accession training commands. The Navy Assessment Team found 
that hazing was not an issue. Our success in this area is due to the 
Navy recognizing the potential problem early. In 1993, the Secretary of 
the Navy directed the Chief of Naval Operations to develop a program to 
eliminate hazing. With input from fleet commanders, it was determined 
that all hazing and perceptions of hazing must be eliminated while 
providing for a continuation of valuable ceremonies and traditional 
events. We did this by including requirements for planning and 
conducting naval customs, ceremonies and traditional events in the 
Standard Organization and Regulations of the U.S. Navy (OPNAVINST 
3120.32C).
    Marine Corps Answer. Hazing, like all acts that abuse and demean 
others, is an issue that requires the attention of commanders, leaders, 
and individual Marines at every level in order to ensure that these 
incidents are totally eradicated. Hazing, in any form, is unacceptable 
and will not be tolerated. We do not believe hazing occurs every day, 
but any occurance is too many!
    Air Force Answer. Hazing does not occur daily in the Air Force. 
Hazing has not been a problem in the Air Force and, where encountered, 
it has been addressed promptly and appropriately through the existing 
provisions of the UCMJ. The Air Force Inspector General has completed a 
five-year review and found only two documented cases of hazing. In both 
cases, swift and appropriate actions were taken.
    Question. What message does hazing send to service members in 
relation to your core values of integrity, trust, and confidence?
    Army Answer. Hazing obviously contradicts the values which you have 
cited. As the Chief of Staff of the Army stated in February, ``hazing 
is fundamentally in opposition to our values and will not be 
tolerated.''
    Navy Answer. As I have stated previously, hazing is not a problem 
with any dimension. It does not occur frequently and the entire force 
is aware and sensitive to hazing. The Navy builds esprit de corps, 
organizational pride, and unit cohesion through outstanding 
performance, challenging training, and exacting standards of appearance 
and conduct. We do not achieve these goals by acts of abuse or 
demeaning rites of entry into artificial ``clubs''. Hazing reflects a 
lack of discipline, immaturity, and is illegal. Hazing is contrary to 
the Navy Core Values of Honor, Courage and Commitment.
    Marine Corp Answer. Hazing is directly counter to our Core of 
Values of honor, courage, and commitment. Correspondence from the 
Commandant of the Marine Corps to all General Officers, Commanding 
Officers and to all Marines has continuously stressed that Marines will 
be treated with dignity and respect and the only ``rite of passage'' in 
the Marine Corps is successful completion of recruit training or 
Officer Candidate School.
    Air Force Answer. We continually present and emphasize Core Values 
(Integrity First, Service Before Self, and Excellence in All We Do) to 
our people as the foundation of the standards of the military 
professional. We are aware of the debilitating effect hazing can have 
on morale and mission effectiveness. The success of our mission depends 
in large measure on the degree of trust and understanding that exists 
among the people in our units. Anything that might erode that trust is 
not tolerable. The Air Force is absolutely committed to creating an 
environment in which all our people, whatever their gender, race or 
ethnic origin, can work free of harassment, unprofessional conduct, 
cruelty, or maltreatment.
    Question. What is your Service's policy towards hazing incidents? 
How does your Service handle any incidents that occur?
    Army Answer. The Army does not currently have a specific written 
policy on hazing; however, some subordinate commands have local 
regulations or policies that address hazing or hazing-type conduct. 
Hazing is also an issue that is currently under review by the Office of 
the Secretary of Defense. In any incident involving allegations of 
hazing, commanders are charged with the responsibility to investigate 
the allegations, and if the allegations are substantiated, to take 
appropriate corrective or disciplinary action.
    Appropriate action includes the full range of administrative and 
punitive actions, including counseling, reprimand, nonjudicial 
punishment, separation from the Service, or initiation of charges under 
the Uniform Code of Military Justice. Hazing that involves the abusive 
treatment of subordinate soldiers is prohibited under the provisions of 
Article 93, Cruelty and Maltreatment, Uniform Code of Military Justice 
(10 U.S.C. Section 893). Depending on the nature of the conduct, it may 
also be punished under Article 128, Assault (10 U.S.C. Section 928), or 
under the General Article 134 as conduct prejudicial to good order and 
discipline or of a nature to bring discredit upon the armed forces (10 
U.S.C. Section 934).
    Navy Answer. Hazing is prohibited at all times--on duty and off 
duty, and in all places--at sea and ashore. No service member may 
engage in hazing or consent to acts of hazing committed upon them. No 
one in a supervisory position may, by act, word or omission, condone or 
ignore hazing if he or she knows or reasonably should have known that 
hazing may occur. Any violation, attempted violation, or solicitations 
of another to violate the hazing policy, subjects involved members to 
disciplinary action under Article 92 of the Uniform Code of Military 
Justice.
    Marine Corps Answer. The Marine Corps position is simple--hazing in 
any form is unacceptable behavior and will not be tolerated. This 
position has been reinforced and promulgated throughout the Corps 
several times in the past five years. The fact that hazing will not be 
tolerated has remained the consistent theme throughout each message. 
Commanding officers have the duty and obligation to ensure that their 
Marines are treated with dignity and respect.
    The punishment for hazing could range from NJP to a court martial 
depending on the severity of the offense.
    Air Force Answer. The Air Force has ``zero tolerance'' for 
discrimination or harassment of any kind. Hazing is not acceptable 
behavior and will not be tolerated in the Air Force. Particularly 
egregious hazing cases can be punished under the UCMJ using either 
Article 93, Cruelty and Maltreatment, or Article 128, Assault; less 
egregious cases are handled administratively. Commanders have the 
flexibility to address the problem using the full range of 
administrative tools available for disciplinary infractions.

                              Medical Care

    Question. The Military Health Services System (MHSS) is changing 
from a fee-for-service health care program (CHAMPUS) to a managed care 
system called TRICARE. TRICARE is now being provided in 9 out of 12 
regions of the country. This transition has caused some anxiety and 
confusion among beneficiaries. How satisfied are you with the medical 
care of the service? Do the troops like TRICARE?
    Army Answer. I am satisfied with the medical care provided to our 
miltary healthcare beneficiaries. However, I am concerned that while 
the benefit is standard from region to region, the implementation may 
vary due to the willingness of civilian providers, in certain areas, to 
participate in the TRICARE Preferred Provider Network. In my opinion, I 
would like to see a program that is much like the military health care 
system soldiers have been accustomed to using--a seamless system where 
soldiers do not have to concern themselves with selecting a program for 
their families or about their coverage varying from region to region. 
My understanding of TRICARE is that it was implemented to improve 
access to care, provide additional benefits focused on wellness and 
disease prevention, and increase the healthcare choices available to 
beneficiaries. According to a survey in five TRICARE regions conducted 
in late 1996, 89 percent of non-active duty enrollees say they are 
likely to re-enroll in TRICARE Prime. TRICARE implementation represents 
a major change in the Military Health Services System, and lack of 
understanding of this new system has caused some consternation among 
beneficiaries. Full implementation of TRICARE as a uniform benefit 
nationwide, along with aggressive marketing initiatives, should result 
in a better understanding and acceptance by beneficiaries.
    Navy Answer. The findings of the 1996 Annual Health Care Survey of 
DoD Beneficiaries indicate overall satisfaction with the health care 
received in Military Treatment Facilities. The overall satisfaction 
rate is indicated below:

                              [In percent]
------------------------------------------------------------------------
                                       Marine Corps           Navy
------------------------------------------------------------------------
Active Duty.......................               50.5               58.7
Family of Active Duty.............               59.9               53.7
------------------------------------------------------------------------

    While there are no survey questions that directly indicate 
satisfaction with TRICARE, there are a few questions on the 1996 Annual 
Health Care Survey of DoD Beneficiaries that indicate our troops 
expectations of TRICARE. We hope in the next iteration of the Annual 
Survey to be able to provide a measure of satisfaction with TRICARE. 
Troop expectations of TRICARE are indicated below:

                              [In percent]
------------------------------------------------------------------------
                                            Active Duty     Active Duty
                                              Marine           Navy
------------------------------------------------------------------------
TRICARE will increase my access to care.            14.3            19.1
I will have better preventive care with              9.4            13.6
 TRICARE................................
TRICARE will make it hard for me to see              8.9            11.9
 a specialist...........................
I know exactly what to do to make an                11.3            19.8
 appointment under TRICARE..............
TRICARE will make it easier to get phone             8.0            11.1
 advice.................................
I will have to use more of my own money             13.5            19.9
 for Health care under TRICARE..........
------------------------------------------------------------------------

    Marine Corps Answer. The 1996 Annual Health Care Survey of DoD 
Beneficiaries provides results of overall satisfaction with health care 
received in Military Treatment Facilities. The overall satisfaction 
rate is indicated below:

                              [In percent]
------------------------------------------------------------------------
                                           Marine Corps        Navy
------------------------------------------------------------------------
Active Duty.............................            50.5            58.7
Family of Active Duty...................            59.9            53.7
------------------------------------------------------------------------

    There has been some confusion with the transaction to TRICARE. This 
is to be expected, however, as any significant change creates concern. 
Navy Medicine is taking steps to educate and market what we feel is an 
exceptional approach to health care delivery.
    There are no survey questions that directly indicate satisfaction 
with TRICARE. However there are a few questions on the 1996 Annual 
Health Care Survey of DoD Beneficiaries that described our troops' 
expectations of TRICARE. We hope in the next iteration of the Annual 
Survey to provide a measure of satisfaction with TRICARE. Troop 
expectations of TRICARE are indicated below:

                              [In percent]
------------------------------------------------------------------------
                                               USMC            Navy
------------------------------------------------------------------------
TRICARE will increase my access to care.            14.3            19.1
I will have better preventive care with              9.4            13.6
 TRICARE................................
TRICARE will make it harder for me to                8.9            11.9
 see a specialist.......................
I know what to do to make an appointment            11.3            19.8
 under TRICARE..........................
TRICARE will make it better to get phone             8.0            11.1
 advice.................................
I will have to use more of my own money             13.5            19.9
 for health care under TRICARE..........
------------------------------------------------------------------------


    Air Force Answer. The Air Force provides world-class medical 
services to all of its beneficiaries. There will always be ``growing 
pains'' with any new program, especially when it involves a coveted 
benefit such as health care. The TRICARE Prime Enrollee Satisfaction 
Survey conducted from October 1996 to February 1997 contains 
significant findings that indicate early success. This survey was 
conducted in mature TRICARE markets (Regions 6, 9, 10, 11, and 12). It 
concluded that the more knowledge and experience beneficiaries have, 
the more they like the plan. Enrollees with no experience receiving 
care and those uncertain in their knowledge of the plan (and there are 
still a large number) are less satisfied, at 65 percent, than those 
that have used the plan, reporting 71 percent satisfaction. TRICARE 
Prime is viewed by most enrollees as equally good or better than the 
traditional military medical system. Forty-three percent of all TRICARE 
Prime enrollees and 39 percent of active duty enrollees reported that 
their treatment under TRICARE Prime is better then before TRICARE 
Prime, with only 12 percent citing a decline.
    Active duty personnel continue to lag behind other enrollees in 
satisfaction and knowledge. While just over 66 percent of all enrollees 
say they understand the TRICARE Prime program, 76 percent of non-active 
duty members report understanding of the program. Additionally, while 
67 percent of all enrollees report satisfaction with TRICARE Prime, for 
non-active duty personnel satisfaction rises to 71 percent. It is 
important to note that active duty personnel are enrolled in TRICARE 
Prime automatically and many, especially single airmen, do not pursue 
knowledge of the program because they are young and healthy. We are 
confident that improvement will be noted as knowledge is increased.
    Question. Do you get many complaints from the troops about medical 
care? What types of complaints?
    Army Answer. As the first priority for the Military Health Service 
System (MHSS), active duty members have excellent access to care and 
incur no out-of-pocket cost for healthcare. Complaints from troops, 
therefore, most often center around healthcare in sites away from 
military treatment facilities (MTFs) and issues for their family 
members, especially access to care and claims processing. For sites 
away from MTFs, TRICARE Prime Remote currently is being demonstrated in 
Washington and Oregon, with plans to proliferate this benefit 
nationwide. In TRICARE Prime Remote, active duty members are assigned a 
specific care manager, and claims payment and processing are managed 
for them. These improvements represent solutions to the most common 
healthcare problems active duty members encounter.
    Navy Answer. We do not have survey data available to answer this 
question. However, statistics from the 1996 Health Care Survey of DoD 
Beneficiaries show that the overall satisfaction rate is between 
50.5%--59.9%. Anecdotal evidence indicates that beneficiaries are 
dissatisfied with enrollment fees, co-payments and the perception of 
limited access to medical care.
    Marine Corps Answer. There is no survey data available to answer 
this question. However, statistics from the 1996 Health Care Survey of 
DoD Beneficiaries show that the overall satisfaction rate is between 
50.5%--59.9%. Anecdotal evidence indicates that beneficiaries are 
dissatisfied with enrollment fees, co-payments and the perception of 
limited access to medical care.
    Air Force Answer. The military health care benefit is essential to 
maintain a fit and ready force, not only in the deliverance of direct 
care to active duty personnel, but as a critical quality of life issue 
that affects morale as well as retention. The 1996 Department of 
Defense (DoD) Health Care Survey shows that beneficiaries are most 
satisfied with the overall quality of care, the provider's concern, 
available resources (i.e. specialists) when necessary, and technical 
quality. The least satisfied areas are in access and choice. TRICARE 
provides three enrollment options as well as the choice of a primary 
care manager (except for active duty). Results from the October 1996--
February 1997 TRICARE Prime Enrollee Satisfaction Survey show that 
TRICARE Prime is delivering on its access standards. For urgent care 
cases, 85 percent of enrollees received care on the day of their call, 
and 95 percent were seen for minor injuries or illnesses within TRICARE 
Prime's seven-day access standard. In addition, 99 percent reported 
receiving appointments for ongoing conditions and for routine care 
within the 30-day standard. Over one-third of enrollees report that 
TRICARE Prime has improved their overall access, with only 12 percent 
citing a decline.
    TRICARE Prime is proving successful in removing many of the 
barriers to quick and convenient access to care that beneficiaries 
traditionally faced with displeasure. Of the 73 percent of enrollees 
who have seen their primary care manager, 79 percent report success in 
making an appointment after one phone call. TRICARE Prime is also 
keeping waiting time at the office down, as 52 percent of enrollees say 
they usually do not have to wait at all, and 23 percent of enrollees 
have to wait less than 15 minutes.
    I still receive questions voicing concerns about ``the promise of 
free medical care for life.'' This is an emotional issue for many, and 
we address this as compassionately as possible while emphasizing the 
realities of the medical entitlement.
    There are some TRICARE irritants, such as the portability of the 
benefit between regions and timely claims processing, that have been or 
are being corrected by the DoD. However, TRICARE is in its infancy and 
the results of the survey indicate that it is evolving into a world-
class managed health care system.
    Question. What is your impression of the medical care programs for 
dependents?
    Army Answer. The implementation of TRICARE Prime is an improvement 
in the Military Health Service System (MHSS) for family members, and 
yet, I continue to find soldiers who lack a good understanding of this 
new healthcare system. I talk to others who are not accustomed to 
enrolling for their health care benefits. As a result, many soldiers 
have not enrolled in TRICARE. The MHSS needs to continue their 
marketing efforts to get the TRICARE message out to soldiers TRICARE 
offers new choices in the healthcare beyond the direct care system and 
standard Civilian Health and Medical Program of the Uniformed Services 
(CHAMPUS). Family members may choose a health maintenance organization 
(HMO) option, a preferred provider network option, or standard CHAMPUS. 
The HMO option, TRICARE Prime, establishes standards for access to 
care, both in the Military Health Service System and in the TRICARE 
provider network, and provides additional wellness and prevention 
benefits. The TRICARE preferred provider network also provides quality 
oversight and claims processing services for family members previously 
not available with standard CHAMPUS.
    Navy Answer. Our medical programs for dependents are outstanding. 
Under TRICARE, we anticipate improved health care accessibility for our 
dependents. They will also have a larger selection of providers 
(civilian and military) to better meet their individual health care 
needs.
    Marine Corps Answer. Our medical programs for dependents are 
outstanding. Under TRICARE, we anticipate improved health care 
accessibility for our dependents. They will also have a larger 
selection of providers (civilian and military) to better meet their 
individual health care needs.
    We must continue to alleviate perception problems with TRICARE by 
actively pursuing a continuing education and marketing program aimed at 
keeping our patients and their families informed about TRICARE options.
    Air Force Answer. The Air Force Medical Service (AFMS) provides an 
exceptional health care benefit to dependents. TRICARE Prime, the 
Department of Defense's (DoD) health maintenance organization-like 
option, offers a benefit package which is comparable or better than 
commercially available managed care insurance plans. TRICARE sets the 
standard with its preventive services provision through the AFMS's 
building healthy communities initiative. These efforts are evidenced by 
survey results that reflect that 95 percent of beneficiaries report 
they had their blood checked within the last two years, 80 percent 
report an immunization or flu shot within the last two years, and 63 
percent of all female beneficiaries have had a Pap smear within the 
past 12 months.
    The quality of medical care in Air Force facilities is consistently 
rated high, as evidenced by customer satisfaction surveys. Eighty-seven 
percent of all enrollees rate TRICARE's customer service support system 
and its medical care as good or better.
    Recent survey results also indicate that TRICARE Prime enrollees 
are happy with the program. For example, TRICARE Prime beats the 
national average with respect to likelihood of re-enrollment, with 88 
percent of non-active duty beneficiaries re-enrolling after their first 
year with the program.
    In addition, active duty dependents are provided an opportunity to 
enroll in the TRICARE Family Member Dental Plan, which offers dental 
coverage for families at a very low monthly premium rate. DoD 
subsidizes 60 percent of the premium cost, and family members receive a 
very comprehensive benefit through a national network of civilian 
dental providers.
    Question. What feedback are you getting from the troops regarding 
the new dental plan?
    Army Answer. The TRICARE Family Member Dental Program (FMDP) is a 
voluntary program which applies to family members of Army, Navy, Marine 
Corps, and Air Force active duty personnel. The program is managed by 
the Civilian Health and Medical Program for the Uniformed Services and 
administered by United Concordia Companies, Incorporated. The FMDP is a 
well designed program with over 43,000 participating dentists centered 
primarily around military installations. Family members participating 
in this program have 60 percent of the total premium for dental care 
paid by the government.
    A recent nationwide survey of family members enrolled in the 
TRICARE FMDP reflects an 82 percent level of satisfaction overall, with 
the lowest satisfaction being in the Northwest (Fort Lewis). Of those 
surveyed, about one third indicated the monthly premium ($17.95) was 
high and about 20 percent indicated gaining access to participating 
dentists caused some difficulties in transitioning from Delta Dental 
(the previous family member plan) to the new program.
    Navy Answer. The TRICARE-Active Duty Family Member Dental Plan 
(TFMDP) is an ASD (Health Affairs) program centrally administered by 
the TRICARE Support Office (TSO) through a single private insurance 
vendor, currently United Concordia Companies Incorporated (UCCI).
    Early problems experienced during the contract transition to the 
new insurance contractor included slow claims processing, denials of 
claims and predeterminations, low fee schedule, and an inadequate 
participating dentist network. These problems have been rectified. 
Beneficiary feedback in terms of complaints and appeals have been 
similar to those of the previous contractor, and the utilization rate 
is also comparable.
    Commanding Officers of Naval Dental Centers report very few TFMDP 
issues surfacing at Health Care Consumer Council meetings, and 
relatively high beneficiary satisfaction.
    Customer satisfaction surveys are currently underway sponsored by 
both ASD (HA) and UCCI. These will provide data based feedback on 
beneficiary perceptions of quality of service, access to care, and 
adequacy of the UCCI participating dentist network. Results will be 
available in April or May, and will be used to develop specific program 
improvement strategies.
    The Annual Health Care Survey of DoD Beneficiaries findings 
indicate overall active duty satisfaction with military dental care in 
general. The below percentages indicate (good, very good or excellent) 
satisfaction with Military Dental Care:

                                                  [In percent]
----------------------------------------------------------------------------------------------------------------
                                                              Marine Corps                      Navy
----------------------------------------------------------------------------------------------------------------
Active Duty.........................................                          76.6                          79.8
----------------------------------------------------------------------------------------------------------------


    Marine Corps Answer. The TRICARE-Active Duty Family Member Dental 
Plan (TFMDP) is an ASD (Health Affairs) program centrally administered 
by the TRICARE Support Office (TSO) through a single private insurance 
vendor, currently United Concordia Companies Incorporated (UCCI).
    UCCI assumed the TFMDP program on February 1, 1996. The TFMDP as 
administered by UCCI is identical to the DPP*Delta contract with 
respect to covered services, cost sharing and co-payments, eligibility 
requirements, and beneficiary claims procedures. It is not a new plan, 
but the same plan offered by a different dental insurance vendor.
    The Navy/Marine Corps view is that the TFMDP is providing good 
service to our military family members. Early problems experienced 
during the contract transition to the new insurance contractor included 
slow claims processing, denials of claims and predeterminations, low 
fee schedule, and an inadequate participating dentist network. All have 
largely been rectified. Beneficiary feedback in terms of complaints and 
appeals have been similar to those of the previous contractor, and the 
utilization rate is also comparable. Commanding Officers of Naval 
Dental Centers report very few TFMDP issues surfacing at Health Care 
Consumer Council meetings, and relatively high beneficiary 
satisfaction. The recently released GAO Investigation of the TFMDP 
found the program to comply with or exceed contract requirements, 
except in the Camp Lejeune and Fallon, NV areas.
    Customer satisfaction surveys are currently underway sponsored by 
both ASD (HA) and UCCI. These will provide data based feedback on 
beneficiary perceptions of quality of service, access to care, and 
adequacy of the UCCI participating dentist network. Results will be 
available in April or May, and will be used to develop specific program 
improvement strategies.
    The Annual Health Care Survey of DoD Beneficiaries provides overall 
active duty satisfaction with military dental care in general. The 
below percentages indicate (good, very good or excellent) satisfaction 
with Military Dental Care:

Active Duty:
    Marine Corps.................................................. 76.6%
    Navy.......................................................... 79.8%

    Air Force Answer. The Department of Defense and the Services have 
been tracking customer satisfaction with the TRICARE Active Duty Family 
Member Dental Plan since it changed contractors on February 1, 1996. 
Although the benefit package was unchanged, the transition was 
initially troubled by marketing, enrollment and provider network 
development problems. As those issues have been addressed by the Office 
of the Assistant Secretary of Defense (Health Affairs) (OASD[HA]) and 
the contractor, satisfaction with the program has improved.
    In an October 25, 1996 information memorandum titled ``In Progress 
Review of the TRICARE Active Duty Family Member Dental Plan (FMDP),'' 
OASD(HA) cited results of surveys conducted by the Services. Overall, 
beneficiary satisfaction with the FMDP was high and the number of 
complaints had greatly deceased. Claims were processed quickly and 
beneficiaries were pleased with the quality of the dental care they 
received. The contractor was working to develop provider networks in 
three specific challenging locations.
    An additional survey has been fielded. A telephone survey of 2000 
beneficiaries that began in January 1997 is due back to OASD(HA) on 
June 1, 1997. In general, the survey addresses satisfaction with the 
current contractor, United Concordia Companies, Inc., and with the 
benefits offered in the insurance program.

                             Housing Issues

    Question. In October, 1995, the Marsh Panel released a study 
indicating that the funding required to improve bachelor quarters, 
above current standards, is about $9 billion. The Marsh Panel also 
concluded that, at fiscal year 1995 spending rates, the problem of 
barracks renovation would take from 30 to 40 years to correct.
    In both fiscal years 1996 and 1997, Congress acted to accelerate 
funding of quality of life requirements adding $700 million and $600 
million in each year, respectively. Also, in fiscal year 1997, the 
Congress created the ``Quality of Life Enhancements, Defense'' account 
into which the $600 million increase was appropriated. This account 
extended the availability of funds from one to two years, and fenced 
these funds to ensure they would be used for quality of life 
improvements.
    The fiscal year 1998 budget request reduces the amount of funding 
in the operation and maintenance accounts for real property maintenance 
and thus slows the implementation of quality of life improvements. The 
fiscal year 1998 Army budget funds only 67 percent of required Real 
Property Maintenance, Navy, funding declines by $137 million and Air 
Force funding declines by $239 million.
    Gentlemen, do you share the view that DoD should increase funding 
for activities related to Service personnel quality of life issues?
    Army Answer. Sir, we get approximately 24 percent of the Department 
of Defense Total Obligating Authority. We try to do the best we can to 
keep a balance in terms of the readiness of the force, taking care of 
our people and the modernization of the force.
    Navy Answer. The Navy's goal is to ensure our target permanent 
party population is housed at the new 1+1 standard by the year 2013 and 
we will accomplish that at our currently proposed funding levels.
    Marine Corps Answer. Historically, the Marine Corps has had to make 
difficult choices between operational readiness and quality of life 
programs in order to fund the latter adequately. Recent initiatives 
from DoD and Congress to increase quality of life funding for all 
Service members have and will continue to improve conditions for our 
Marines and their families. However, as the gap between requirements 
and resources widens, the challenge of funding quality of life programs 
to an adequate level from within existing Service TOA will be an 
exceedingly difficult one. Our readiness and operational responsiveness 
remain our number one priority. We do not feel we should ``mortgage the 
future'' of our operational forces in order to disproportionately 
increase support to our quality of life programs. Operational necessity 
precludes immediate additional investment in some of these well-
deserving programs. Our critical core readiness capabilities, which 
define us as a Service, will remain our resourcing priority.
    This said, in the present budget the Marine Corps tangibly 
recognized the link between quality of life and readiness by making a 
significant commitment to quality of life programs in general, and 
bachelor quarters in particular. Additional resources were applied in 
this budget and program to eliminate the maintenance and repair backlog 
of our bachelor enlisted quarters (BEQ's) by the end of the fiscal year 
2004 and to reduce our BEQ furniture replacement cycle from 14 to 7 
years by fiscal year 2002. In addition, we have committed to funding 
BEQ construction at an average level of $50 million/year. This drives 
the number of inadequate enlisted barracks spaces to zero in 10 years.
    We agree that activities related to Service personnel quality of 
life issues are deserving of increased funding levels. We have 
demonstrated a sincere commitment to meeting the quality of life needs 
of our Marines but have stretched our fiscal purse strings to the 
breaking point. The Marine Corps cannot afford to divert additional 
resources from within TOA to further accommodate deserving quality of 
life programs.
    Air Force Answer. Within the fiscal year 1998 budget, the Air Force 
has allocated an appropriate amount of funding for quality of life 
facility-related issues. Although we are doing a good job providing for 
our service members, there are unfunded requirements. The Air Force has 
established a list of requirements if additional funding becomes 
available; that list includes several quality of life issues.
    With Congressional support in fiscal year 1996 ($100 million) and 
fiscal year 1997 ($108 million), the Air Force was able to address some 
of the worst dormitory maintenance and repair backlog requirements, in 
addition to converting 33 central latrine dormitories to 1-plus-1 
dormitories. The current fiscal year 1998 budget request fully funds 
periodic maintenance of dormitories and includes $100 million 
identified for the replacement or conversion of some of our remaining 
central latrines through the military construction program. However, 
the fiscal year 1998 real property maintenance request does not provide 
for major repair and renewal projects, which leaves the Air Force with 
a $100 million dormitory repair backlog for fiscal year 1998.
    Question. Gentlemen, could you explain to the Committee the 
specific measures included in the fiscal year 1998 budget request to 
improve the quality of life of U.S. military members? Are there 
improvements included in the budget request directed toward improving 
barracks and related facilities?
    Army Answer. The Army has numerous measures to improve quality of 
life for our soldiers, ranging from housing, child care, fitness and 
recreation programs, living allowances, and various community programs 
serving families and single soldiers.
    The Army's budget request is heavily aimed at improving barracks 
and related facilities. Approximately $338 million is programmed in 
Military Construction, Army, to build new 1+1 barracks spaces for 3,000 
soldiers with an additional $149 million in Operation and Maintenance 
funds earmarked to renovate spaces to an approximate 1+1 standard for 
4,000 soldiers. Also, our Whole Barracks Complex Renewal projects 
include revitalization of associated infrastructure, landscaping and 
related buildings.
    Navy Answer. Over $130 million of our MILCON program is directed 
toward barracks projects which will significantly improve QOL for our 
Sailors. Five of the eight projects are at the new 1+1 standard, the 
remaining projects are for students or transients.
    Marine Corps Answer. Due in part to the Marsh Panel findings and 
recommendations, we have made great strides in improving the quality of 
life for our Marines and their families. This commitment is reflected 
in our new QOL Master Plan published in August of last year. The plan 
outlines a coordinated and comprehensive approach to achieving our 
vision of providing appropriate level of quality of life services to 
all Marines, and their families, regardless of where assigned. As such, 
it acts as a reference tool for determining priorities and applying 
resources in the most effective way. The FY98 budget includes $539 
million to support quality of life initiatives.
    Improvements to bachelor housing continue to be our highest housing 
priority. Marine Corps QOL program additions include $71 million for 
repair and maintenance of barracks and $42 million in replacement 
construction in FY98. All BEQ new construction programmed through FY05 
will be built in the 2x0 room configuration, which will help us 
eliminate inadequate BEQ spaces in 10 years. The QOL Enhancements, 
Defense account funds will be used towards projects that will improve 
or repair plumbing/mechanical/heating systems, roofs, seismic 
conditions, renovations, and air conditioning. BEQ furnishings are also 
being addressed with these funds through our ``Whole Room'' furnishings 
program, and the furniture replacement cycle is being reduced from 13.6 
years to the DON standard of seven years beginning in FY02. We are also 
making great progress in reducing our backlog of maintenance and 
repairs (BMAR) for BEQs. Our goal is to eliminate the BMAR for our 
entire barracks inventory by FY05.
    Other QOL programs include recreation, leisure, family and children 
services, information, religious and counseling programs. These 
programs are the commanders' tools to help build a strong Marine Corps 
community. Improvements include increased hours of operation, better 
trained staff, more and upgraded equipment and renovated or new 
infrastructure such as our new fitness centers at Camp Pendleton and 
Camp Lejeune.
    The Marine Corps has made a significant commitment to improving QOL 
by a balanced application of resources, organization and command 
influence. We believe we have programmed to reach an acceptable level 
in these QOL domains which were addressed by the Marsh Panel.
    Air Force Answer. The fiscal year 1998 budget includes $6.5 million 
for fitness centers and $128 million for dormitories. The Air Force 
placed a high priority on buying out our permanent party central 
latrine dorms; a goal we will now achieve in fiscal year 1999. Our 
fiscal year 1998 budget also includes $253 million in the Military 
Family Housing Investment Program.
    Question. Why did the department choose to delete the ``Quality of 
Life Enhancements, Defense'' account from the fiscal year 1998 budget 
request?
    OSD Answer. The Department did not delete the Quality of Life 
Enhancements, Defense program in fiscal year 1998. This program was 
established by Congress in fiscal year 1997 to provide additional funds 
for the Department's real property maintenance account. The 
Department's real property maintenance request for fiscal year 1998 is 
identified in the Operation and Maintenance Overview justification book 
dated March 1997.
    Army Answer. The Army did not request funding in the Defense 
account, because we included all of our funding for real property 
maintenance in the fiscal year 1998 request for the Operations and 
Maintenance, Army, appropriation. The Army targeted quality of life by 
focusing $149 million of its real property maintenance request for the 
renovation of existing barracks to a modified 1+1 standard.
    Navy Answer. This funding was provided as a Congressional add to 
the defense-wide budget in fiscal year 1997. Formulation of the fiscal 
year 1998 budget took place prior to the Congressional action which 
added the Quality of Life Enhancement, Defense account, hence it was 
not considered.
    Marine Corps Answer. The Marine Corps opposes establishment of a 
separate ``Quality of Life Enhancement'' appropriation. A separate 
appropriation reduces the flexibility to finance emergent operational 
requirements because of the inability to reprogram to the new 
appropriation without prior Congressional approval, or to augment the 
maintenance programs supported through the new appropriation. This is 
especially true where only a portion of a program (the ``plussed up'' 
portion of real property maintenance for barracks and housing) is 
financed from the new appropriation and the remaining real property 
maintenance requirements (for both operational and quality of life 
projects) are financed from the extant O&M appropriations. The 
Department requires the flexibility attendant to all real property 
maintenance funding residing within the existing O&M appropriations.

                   Child Care/Family Service Programs

    Question. The enlisted forces are approximately 78 percent of the 
total child care users in the Department of Defense (DoD), with 15 
percent being officers, and 7 percent DoD civilians. The total number 
of dependent children DoD-wide is approximately 1.3 million, more than 
the size of your enlisted force.
    What percent of your force is married with dependents? What percent 
of your force are single parents with children?
    Army Answer. The overall percentage of the Army that is married is 
63.4 percent. However, when dual military families are deducted from 
that number, the percentage that are married with dependents is 60.5 
percent. Single parents with children represent 3.8 percent of the 
active Army.
    Navy Answer. 52.2 percent of Navy officers and 39.8 percent of our 
enlisted personnel are married with dependents. The total in this 
category for both officers and enlisted is 45.2 percent of our force. 
1.8 percent of officers, and four percent of enlisted personnel are 
single parents with children. The Navy total in this category is 3.1 
percent.
    Marine Corps Answer. 43.66% of all active duty Marines are married, 
while 46.90% of all active duty Marines have dependents. Of this latter 
number, 35.80% have one dependent and 64.20% have two or more 
dependents.
    Single parents, with custody, comprise 0.42% of the active duty 
force.
    Air Force Answer. The percentage of the force married with 
dependents is 54 percent. Single parents with children make up 2.4 
percent of the force.
    Question. The Military Child Care Act of 1989 required the 
Department of Defense to have uniform fees for all of the Services in 
child care facilities. What is the average fee charged in military 
child care centers? How does this compare to civilian child care?
    Army Answer. The average Army fee for 1995-96 was $62 per week. 
Fees for civilian child care vary greatly depending on the geographical 
location, the age of children served, adult-to-child ratios, local 
wages, operating hours, and the overall quality of care. Army families 
pay reasonable fees for quality care governed by consistent standards. 
Even the highest fee charged by installations in high cost areas is 
usually lower than the ``going rate'' charged by civilian centers in 
the same area.
    Navy Answer. The Navy's average weekly fee charged for full-day 
care is $63.99. Fees in the civilian sector are based on the age of the 
child and vary depending on the geographic area. The Navy's fee scale 
is based upon paygrade, and it is possible that parents in the higher 
income category with older children could pay higher fees in military 
programs than in civilian centers. This is most likely to occur in the 
southern part of this country. Average rates in the civilian sector for 
children aged two and under are $140 per week and for children between 
three to five years, $90 per week.
    Marine Corps Answer. The overall average fee paid in Marine Corps 
child development centers for full-day, full-time care is $64.50 per 
week. For Marines in the lowest income category (category I) the 
average charge is $46.79/week; 18% of our Marines are in this category. 
For category II, the average fee is $56.68; 34% of our Marine users are 
in this group. Our highest average fee, category V, is $90.72, paid by 
12% of our Marines.
    Our fees are considerably less than those charged for comparable 
care in the civilian community. As an added factor, we do not charge 
parents a higher fee for infant care as is the common practice in the 
private sector. Average civilian fees at several USMC locations for 
full-day, full-time care in accredited programs:

------------------------------------------------------------------------
                                                           Preschoolers
                Location                      Infants        (3 to 5)
------------------------------------------------------------------------
Southern California.....................         $150/wk         $110/wk
Northern California.....................         $170/wk         $125/wk
Albany, GA..............................          $75/wk          $70/wk
------------------------------------------------------------------------

    Air Force Answer. Air Force child care centers comply with the 
annual fee ranges published by DoD each year. There are five categories 
of fees based on total household income. The overall average weekly 
child care fees for 50 hours of care and 10 meals and 10 snacks per 
week is $70 or $1.40 per hour. The lowest income category pay, on 
average, $50 per week; the highest income group pay, on average, $95 
per week. It is difficult to compare the Air Force's child care fees to 
the civilian sector because there is no comparable civilian data and 
Air Force programs serve a different age group of children than 
civilian centers. More than 50% of the spaces in Air Force centers are 
used for children 0-3 years of age. It is 2-3 times as expensive to 
provide care for infants and toddlers as it is for preschool and school 
age children. Very few commercial centers offer infant and toddler care 
or, if they do, they provide only a few spaces because it is not 
profitable.
    Question. Are these rates reasonable and affordable for enlisted 
families?
    Army Answer. Fees are based on total family income, or the family's 
ability to pay. Rates are broken into five Department of Defense-
defined (DoD) income categories. In addition, the Army has mandated a 
special rate of $35 per week per child as a sub-element of the DoD 
Category I rates for families with not more than $18,500 annual income.
    Navy Answer. Yes. Research shows that many low-income families 
spend an average of 25% of their income for child care while military 
families pay an average of 10%. The larger percent of military users 
are in the three lowest categories of the DoD fee scale.
    Navy categories are as follows:

------------------------------------------------------------------------
                                                              Percent
               Category and annual income                   average fee
------------------------------------------------------------------------
I. $0 to 23,000 equals 18 percent.......................          $45.75
II. $23,001 to 34,000 equals 33 percent.................          $55.89
III. $34,001 to 44,000 equals 21 percent................          $67.29
IV. $44,001 to 55,000 equals 15 percent.................          $77.96
V. $55,001 plus equals 13 percent.......................          $88.96
------------------------------------------------------------------------

    Marine Corps Answer. Yes. Our fee ranges are sensitive to family 
income. Enlisted families that earn less, pay less. Additionally, our 
fee policy permits installation commanders to set lower fees when 
families have a hardship.
    Air Force Answer. Since the fees charged in Air Force child care 
centers are based on total household income they are lower for junior 
enlisted members and single parents than they are for senior enlisted 
and officers and dual military or dual income families. Twenty percent 
of the parents are paying only $1.00 an hour for child care including 
meals and snacks for their children. Almost half pay less than $60 a 
week for 50 hours of child care and 10 meals and 10 snacks a week for 
their child. Those with the highest incomes pay between $72-$95 a week. 
We believe that these rates are reasonable and affordable for most 
enlisted members.
    Question. How important a role do the family service centers play 
for the single or married enlisted? What kinds of assistance are most 
frequently given to enlisted personnel?
    Army Answer. The Army refers to family service centers as the Army 
Community Service (ACS). The delegates to the 1997 Army Family Action 
Plan Conference ranked ACS fifth among the 14 Army programs and 
services that they identified as critical. The top five were medical, 
commissary, dental, child care, and ACS.
    The Community Information and Referral Program, the Relocation 
Program, Army Emergency Relief, and the Consumer Affairs and Financial 
Assistance Program were the assistance programs most frequently used by 
enlisted personnel in fiscal year 1996.
    Navy Answer. Based on the 1996 Navy Family Service Center Needs 
Assessment Survey, FSCs play an important role for Sailors and their 
families. 30% of all Active duty members and 40% of all spouses use 
FSCs. Those who utilize FSCs return frequently in a one year period. In 
1996, FSCs serviced over six million client contacts who received 
either: information and referral, education and training or counseling 
services. In 1996, 78% of FSC users received information and referral 
services, 17% received education and training and 5% received 
counseling. Over 80% of Sailors and their spouses report they are 
satisfied with FSC programs and services.
    Marine Corps Answer. The Marine Corps considers the role of the 
family service centers to be very important. During FY 96 the 19 Family 
Service Centers (FSC) located at major Marine Corps installations 
reported a combined total number of contacts of approximately $1.3 
million. Specific data is not available regarding the percentage of 
these contacts that were with enlisted personnel. However, due to the 
officer-to-enlisted ratio of the USMC, and the anecdotal reports from 
FSCs, we believe the far greater percentage of the contacts involved 
enlisted Marines and/or their family members.
    The main requests for services (including direct services, as well 
as attendance at workshops and classes) were: financial counselling; 
relocation services; spouse employment assistance; requests for general 
information and referral to on-base and off-base resources; transition 
assistance services; and personal and marital counseling.
    Air Force Answer. The Air Force Family Support Centers are very 
important to all our enlisted members and their families. In the first 
quarter of fiscal year 1997, 14% of all Family Support Center (FSC) 
consultations provided to E1-E4s were provided to single airmen and 80% 
were provided to married E1-E4s and their families. Over the past three 
years, 86% of all FSC consultations were provided to enlisted personnel 
and their families.
    The Financial Management Program, Relocation Assistance and 
Transition Assistance are the three Family Support Center programs most 
frequently used by enlisted personnel and their families.
    Question. Family Advocacy programs are designed to address child 
and spouse abuse. With force structure changes, and longer and more 
frequent deployments, do you see an increase in the number of family 
advocacy cases?
    Army Answer. For the past four years, Army-wide child abuse reports 
and substantiated cases have been declining, with a rate of 6.9/1,000 
(substantiated cases) in fiscal year 1996.
    After four years of increases, spouse abuse reports and 
substantiated cases in 1996 indicated a slight downturn. The rate of 
substantiated cases for fiscal year 1996 was 10/1,000 compared to 10.6/
1,000 in the previous year. We do not maintain information on abuse 
rates and their correlation to deployments.
    Navy Answer. No. The number of child and spouse abuse incidents 
reported and the incident rates per 1,000, for both child and spouse 
abuse, have both decreased each year since 1993. The Abuse Victim Study 
(required by the fiscal year 1993 Defense Authorization Act) and other 
information indicates decreases are most likely due to the downsizing 
of the Navy, improved screening of cases through use of the Navy's Risk 
Assessment Model, prevention initiatives like the New Parent Support 
program, and/or fear of career consequences.
    Marine Corps Answer. There is no evidence or statistical data to 
indicate an increase in family advocacy cases due to force structure 
changes or longer and more frequent deployments. We have plans for a 
research project to begin this fiscal year which will, hopefully, 
provide data upon which a more definitive statement about the effects 
of deployment upon family violence can be made.
    Air Force Answer. We have no scientific data currently available 
that identifies personnel in frequently deployed units. However, 
scientific data that is available on Air Force-wide trends shows broad 
improvement and compares favorably with available civilian data. Air 
Force Family Advocacy Program statistics show decreasing trends in 
family violence cases and severity of cases between 1993 and 1996.
    Spouse abuse rates per 1,000 were: 14.4 in 1993; 14.2 in 1994; 14.3 
in 1995 and 13.4 in 1996. There is no comparable civilian spouse abuse 
data available however, we do have civilian comparables for child 
abuse. Air Force child abuse rates per 1,000 were: 7.5 in 1993; 7.5 in 
1994; 6.5 in 1995; and 5.8 in 1996. In contrast, the National Council 
on Child Abuse and Neglect reports U.S. child abuse rates increased 
from 13.2 in 1989 to 15 in 1995. In addition to the decline in rates of 
the number of cases, the severity of cases, as measured at case 
opening, has declined over the past three years. This decline in the 
severity of domestic violence cases was supported by a study, entirely 
independent of the SG community, conducted by the Air Force Office of 
Special Investigations (AF/OSI). The authors of the OSI study concluded 
that the severity of domestic violence in the Air Force was 
``moderating.'' The overall message from the above data suggests that 
Air Force Family Advocacy prevention programs are paying off, even in 
these times of increased operations tempo. Indeed, 43 percent of the 
Air Force Family Advocacy budget is being spent on primary and 
secondary prevention efforts such as: New Parents Support Programs, 
classes on parenting, and couples communication.
    Despite the overall good picture noted above, there is one area in 
which we are very concerned. There appears to be a spike in the number 
of child deaths in the Air Force due to maltreatment. We have studied 
the phenomena of infant maltreatment death, submitted a scientific 
paper for publication and alerted clinicians in our hospitals to the 
factors that might identify a family as being at high risk for infant 
maltreatment death. However, during the past three months there has 
been a significant uptick in the number of child deaths. We are taking 
aggressive steps to identify the medical, psycho-social and community 
correlates to these deaths. We are partnering with OSI, and our 
pediatric and mental health consultants to review these most recent 
deaths with an eye toward lessons that can be applied by both medical 
and line Air Force officials to reduce child deaths. Certainly one 
factor we will explore is the relationship between deployment tempo and 
the child death.

                        Other Support Activities

    Question. The downsizing of the military affects not only end 
strength and force structure, but also other support functions located 
on military installations that might close due to BRAC; such as MWR 
activities, hospitals, commissaries and exchanges. Clearly, these 
support activities are important to a member and his family's quality 
of life and enhances his standard of living while in the military. How 
essential are these other support activities to attracting and 
maintaining a ready quality enlisted force?
    Army Answer. A recent study, Morale, Welfare & Recreation (MWR) 
Programs and Readiness Links (1996), identified one direct or indirect 
link (i.e. varying in degree based on size and method of study) between 
soldier readiness components and MWR programs.
    Data from the Army-wide Sample Surveys of Military Personnel (SSMP) 
conducted during the last five years identify ``overall quality of Army 
life'' as one of the most important reasons for enlisted personnel 
thinking about or leaving the Army before retirement.
    The Spring 1995 SSMP and 1995 Survey of Army Families (SAF) III 
asked respondents to select the seven MWR programs (excluding Army 
Community Service programs) that were most important to enhancing the 
quality of Army life. Based on those data, the six most important 
programs for soldiers and spouses are:

 
                 Soldiers                              Spouses
 
1. Fitness Centers........................  1. Fitness Centers
2. Gyms...................................  2. Libraries
3. Libraries..............................  3. Youth Services
4. Outdoor Recreation.....................  4. Child Development
                                             Services
5. Auto Skills............................  5. Gyms
6. Travel Services........................  6. Outdoor Recreation
 

    Navy Answer. MWR Programs are critical to maintaining and retaining 
a quality, ready and able Navy. MWR activities, programs and services 
enhance mental and physical fitness, promote unit cohesion, foster 
family well-being, contribute to socially well adjusted single Sailors, 
and generally improve overall quality of life of Navy members and their 
families. We believe MWR programs have been and will continue to be a 
critical element in maintaining a strong and vital force. There is a 
strong relationship between the quality of life we provide and our 
ability to retain that quality force which enables the Navy to sustain 
a high state of operational readiness. (MWR consistently ranks as the 
number two reason for staying in the Navy on the Navy's Retention 
Survey.)
    Early in the BRAC process, MWR took steps to ensure that closures 
of MWR activities were scheduled to best represent the needs of local 
patrons consistent with available resources. Essential facilities, 
e.g., fitness, are being retained until virtually the closure date. 
Other MWR activities are carefully downsized during the closure period 
consistent with needs of patrons and closed upon the loss of the 
preponderance of the customer base.
    Marine Corps Answer. The Marine Corps Quality of Life (QOL) 
Research Project completed in 1994 shows, for the first time, a 
statistical link between quality of life programs and Marines personal 
readiness, retention, and job performance.
    Of the eleven global domain areas studied, those most essential to 
attracting and maintaining a ready quality enlisted force are: Leisure 
and Recreation, Health, Income and Standard of Living, Friends and 
Friendship, and Relationships with Children. Based on this study, 
Marines overall place a great deal of importance on health and physical 
fitness; are worried about making ends meet; tend to socialize with 
other Marines; and want as much time as possible with their children.
    Clearly, the support activities which provide leisure and 
recreation, health benefits, and cost savings are essential programs to 
attracting and maintaining a ready quality enlisted force.
    Air Force Answer. According to Air Force surveys conducted over the 
past two years, quality of life programs play a major rule in an 
enlisted member's decision to make the Air Force a career. During an 
Air Force Needs Assessment Survey conducted in 1995, active duty 
members and spouses rated quality of life programs as important to 
their commitment to the Air Force. Moreover, results from the 1996 Air 
Force Careers Survey, show members rate availability of medical care, 
opportunity for education and training, retirement programs, dependent 
medical care, dental care, and commissary services as major influences 
in making the Air Force a career.
    Question. Is there a perception by the enlisted force that these 
benefits are continuing to erode? If so, how does this affect retention 
and your ability to keep the career enlisted force to retirement age?
    Army Answer. Surveys of soldiers, particularly those in mid-career 
(four to ten years of service) indicate that perceptions of eroding 
benefits exist. Spousal satisfaction and family considerations are 
prime motivators for electing to reenlist or separate. Perceived cuts 
in medical care procedures and facilities, changes in the retirement 
program, and potential losses or reductions in commissaries and 
exchanges impact on soldiers' decisions. These factors, coupled with 
loss of support activities and reduced morale, recreation and welfare 
activities, make it more difficult to achieve mid-career retention 
goals. Although we are currently retaining soldiers in adequate numbers 
to meet mandated endstrength, we have noticed a reluctance among some 
high quality soldiers to remain in service for a full career. A stable, 
fair benefits package is the cornerstone to maintaining a quality 
enlisted force.
    Navy Answer. Anecdotal data from the Navy-wide Personnel Survey 
suggests that the perception of quality of life is lower for enlisted 
personnel than officers. 80 percent of officers and 66% of enlisted are 
satisfied with current child care arrangements; and surveys during the 
last six years have shown that officers are more satisfied (range: 72-
79%) with their overall quality of life compared to enlisted (range: 
40-52%).
    All Sailors reenlisting or separating from active duty are afforded 
the opportunity to complete a Retention/Separation Questionnaire. 
Statistics gathered from this questionnaire have remained fairly 
consistent over the last decade. For many years Sailors have stated job 
security, the availability of support and recreational services, and 
use of commissary and exchanges as the top three reasons why they 
reenlist. Inadequate compensation, family separation, and lack of 
advancement opportunity are in a virtual three-way tie as the top 
reasons Sailors give as why they are leaving the service. The 
statistical difference among the three is insignificant. Focus group 
discussions, conducted with Sailors voluntarily separating from active 
duty, have provided additional insights. For example, a reason voiced 
by a growing number of mid-career Sailors is the perceived erosion of 
retirement benefits. Congressional discussions about further changes to 
the retirement system spur their decision to leave.
    Marine Corps Answer. Through the Marine Corps Quality of Life (QOL) 
Research Project completed in 1994, the Marine Corps obtained 
quantifiable evidence that quality of life and military benefits have a 
strong relationship to military outcomes, such as readiness, retention, 
and job performance. Military support functions include health care, 
commissaries, exchanges, housing, MWR, and family programs. These 
support functions are all elements which comprise overall military QOL 
which is measured by the combined effects of these support functions.
    Without further analyses of benefits provided over time, we do not 
have sufficient information to provide data on the possible erosion of 
benefits perceived by the enlisted force. However, through this study 
it was discovered that junior enlisted Marines appear to be the least 
satisfied with their current overall quality of life, partly because of 
their ages, and partly due to their residences, jobs, and self-image. 
At the time of the study, this group had the lowest personal readiness 
of any other rank. For this reason along with the strong statistical 
relationship shown between quality of life and military outcomes, the 
Marine Corps has committed, beginning in fiscal year 1996 and 
continuing through fiscal year 2003, between $550 and $600 million per 
year in quality of life programming, such as: housing, MWR and family 
programs.
    Air Force Answer. Although the Air Force hasn't formally surveyed 
enlisted members of their perceptions of eroding benefits, informally, 
members indicate that there is an erosion of benefits. Members 
highlight the change in retirement formulas, medical care (change to 
the TRICARE system), lack of availability to medical treatment for 
retired military members over age 65, reduced tuition assistance 
benefits, and reduced tuition assistance benefits, and reduced 
opportunity for education and training due to high PERSTEMPO, as 
examples of benefits erosion. As a result, our caution lights are on. 
We are closely monitoring reenlistment rates as they have continued to 
decline in both the 2nd term and career categories. The 2nd term 
category has slipped from a high of 82% in fiscal year 93 to 76% for 
fiscal year 1996 (historical rate of 75%). Reenlistment rates have also 
declined for the career category (those on their third term of 
reenlistment, but less than 20 years of service) from a high of 97% in 
fiscal year 1993 to 95% for fiscal year 1996.
    Question. Would you say that the commissaries are more important to 
the enlisted force and better utilized than the exchanges? Why?
    Army Answer. We do not have data on the perceived importance of 
commissaries and exchanges. Both the commissary and exchanges are very 
important to our soldiers and both have high utilization rates, 
particularly among junior enlisted personnel and their families. Both 
are absolutely necessary.
    The Spring 1996 Sample Survey of Military Personnel (SSMP) 
indicates high enlisted personnel satisfaction levels with the 
commissary (77 percent) and the Post Exchange (PX) (72 percent). 
According to the Fall 1995 SSMP, 75 percent of enlisted personnel 
report using the commissary at least once a month, with 24 percent 
shopping at the commissary once a week or more during the last 12 
months. Enlisted personnel located outside of the United States shopped 
more frequently at the commissary than their continental United States 
counterparts. For those who use both the commissary and a civilian 
supermarket, three-fourths of enlisted personnel reported that the 
commissary had the best prices (compared to the civilian supermarkets) 
for 50 percent or more of the items. According to the Fall 1995 SSMP, 
the three most important reasons for shopping at the commissary for 
both officer and enlisted personnel were low prices, convenient 
location, and product availability.
    Enlisted spouses report high satisfaction levels with both the PX 
(69 percent) and commissary (75.5 percent). Spouses of enlisted 
soldiers report high use of both the PX and commissary (95-plus 
percent); there was no statistically significant difference in use 
between officer and enlisted spouses. Ninety-six percent of the 
enlisted spouses used the commissary; 86 percent use it at least once a 
month. Seventy-eight percent cited low prices as the most important 
reason for shopping at the commissary.
    Navy Answer. While the surveys taken have not specifically 
identified or compared the importance of the commissary benefit by 
category of beneficiary, the surveys do show that military personnel of 
all grades consider the commissary to be their number 1 benefit today. 
By comparison, exchanges are rated third behind both the commissary and 
medical. However, I believe that whether the commissary is more 
important to the enlisted member depends primarily upon the age and 
marital status of that person. For example, the single sailor is more 
likely to live on base and value the convenience and merchandise 
selection provided by the exchange; while sailors with families rely on 
the significant savings available at the commissary to stretch the 
family budget.
    Marine Corps Answer. Based on the Marine Corps Quality of Life 
(QOL) Research Project completed in 1994, one of the most essential QOL 
initiatives to attract and maintain a ready quality enlisted force is 
``Income and Standard of Living.'' Both the commissary and the exchange 
deliver a cost savings to the Marine and are important elements in the 
Marine's quality of life.
    Deciding whether the exchange or the commissary is ``more'' 
important depends on who is asked. Both single and married Marines use 
the exchange, while commissary patrons are predominantly married. But 
of those Marines who use both, most would agree that the commissary 
provides a more important benefit, i.e., saves more money, than the 
exchange.
    Air Force Answer. Military members rate the commissary as the most 
important non-pay compensation benefit. This makes sense when you 
consider that commissaries offer the most basic of necessities, food, 
at virtually cost price. But, because commissaries deal in this one 
product line, they would be of special importance to enlisted families 
who eat at home. Single enlisted personnel, however, tend not to 
frequent the commissary because they eat in dining facilities. 
Exchanges, therefore, may be better utilized than commissaries by the 
active enlisted force simply because their dealing in a wide variety of 
products appeals to both married and single personnel. We don't think 
it's necessary to pit commissaries against exchanges. They're both 
valued and vital components of the overall quality of life.
    Question. In the fiscal year 1998 budget request, the Department of 
Defense proposed establishing a new revolving fund account for the 
Defense Commissary Agency (DeCA). Upon entering the new fund in fiscal 
year 1998, DeCA will require as much as $50 million to settle operating 
losses accumulated in fiscal year 1997. Among the options to solve this 
problem are cost reductions such as modifying commissary hours and 
reducing the number of commissary employees. Gentlemen, is DoD 
presently considering any significant changes to commissary operations 
in order to reduce costs?
    Army Answer. The Defense Commissary Agency (DeCA) is experiencing a 
significant budget shortfall this fiscal year of $48.5 million. DeCA 
will continue to suffer from this approximate $50 million shortfall per 
year throughout the Future Year Defense Plan. DeCA was asked to propose 
how they might reduce or eliminate this shortfall. While DeCA is able 
to reduce the effect this year by eliminating some one-year 
expenditures, they will still suffer a shortfall of approximately $25 
million for fiscal year 1997. Other proposals to fix the funding 
shortfall include: closing three DeCA regions; reducing the DeCA 
Headquarters and Operations Support Center; and taking over several 
commissary support areas from the Defense Logistics Agency (DLA). 
However, the savings from these actions cannot be effected before 
fiscal years 1998 and 1999. Because these actions are not sufficient to 
resolve the entire funding shortfall, DeCA has proposed closure of 37 
commissaries. The recommended closures proved unacceptable by the 
Services. We are working with the Office of the Secretary of Defense to 
resolve the shortfall.]
    Navy Answer. I understand that DeCA is experiencing a significant 
budget shortfall this fiscal year of $48.5 million. While DeCA was able 
to reduce the effect this year by eliminating some one-year 
expenditures, they will still suffer a shortfall of approximately $25 
million for fiscal year 1997. One of the proposals advanced by DeCA to 
reduce operating expenses was to close 37 commissaries. No one is happy 
with that proposal and I understand that the Department's Comptroller, 
Dr. Hamre, is working hard to identify an alternate source of funding 
that would eliminate the necessity of closing stores.
    Marine Corps Answer. Yes. To fix the funding shortfall, the Defense 
Commissary Agency (DeCA) is reorganizing. This management action is not 
sufficient to cover the entire funding shortfall. DeCA has proposed 
closing 37 stores to cover the remaining funding deficiency. Three of 
these stores are located at Marine Corps installations (MCAS El Toro, 
CA; MCAS New River NC; and San Onofre, MCB Camp Pendleton, CA).
    Air Force Answer. The Air Force is not prepared to speculate on the 
changes that Office of the Secretary of Defense (OSD) might be 
considering. However, the OSD staff has released several cost-cutting 
proposals in the last few weeks. Some of these proposals reflect 
legitimate management efficiencies from reorganization at the 
headquarters and regions. The bulk of the savings, though, result from 
the proposed closing of 37 commissary stores. These proposals have not 
yet been presented to the DeCA Board or studied by the Air Force staff, 
so it is premature for Air Force to comment in any detail. However, it 
is fair to say that the initial reaction was extremely negative, 
especially with respect to closing high-volume stores in areas far from 
another commissary, or in remote overseas locations.
    In addition, OSD released a draft report on their consultant study 
of how to provide the commissary and exchange benefit at locations 
impacted by base realignment and closure. At many locations, the study 
recommended ``hybrid'' stores (combined exchanges and commissaries). 
Air Force has consistently opposed these ``hybrids'' as an unacceptable 
erosion of the benefit. The only Air Force experience with ``hybrid'' 
stores shows that it does reduce appropriated fund (APF) costs, but 
does so by passing them on to the troops. Under the ``BX-mart'' model, 
``hybrids'' continue to sell food products at cost plus 5 percent. The 
patron pays substantially more for non-edible items (typically up to 40 
percent of commissary purchases), with no increase in compensation. 
Exchange earnings drop due to the requirement to absorb the costs of 
selling food items at cost plus 5 percent, without the APF subsidy that 
the commissary formerly received for this purpose. As a result, there 
is less of a dividend to support Morale, Welfare, and Recreation 
programs. Thus the troops end up shouldering the burden of the APF 
support cut, either directly (through higher prices or surcharges) or 
indirectly (through reduced hours, services, or support to quality of 
life). The draft study report confirms these fears, as it shows 
reductions in appropriated fund support of up to 25 percent, and 
increasing the customer surcharge to 8 percent (vs the current 5 
percent).
    Question. How would a reduction in the commissary subsidy affect 
the enlisted personnel of the U.S. Services?
    Army Answer. Commissaries are a highly valued benefit that permits 
all military personnel and their families to better manage their family 
budget. The non-cash pay supplement it provides--groceries sold at 
procurement cost plus a 5-percent surcharge--is particularly important 
to service members who have families. Many young service members, whose 
modest pay necessitates their use of food stamps, simply could not make 
ends meet without the price savings provided by the commissaries. Any 
reduction in funding would be reflected in the quality of service 
provided by the Defense Commissary Agency. Most likely, this reduction 
in service will take the form of price increases to the troops, store 
closures or a reduction in operating hours, all erosions of the 
benefit. This would have an adverse effect on our enlisted personnel.
    Navy Answer. The commissary is considered the number 1 benefit by 
military personnel and their families. The non-cash pay supplement it 
provides is particularly important to the members of our force who have 
families. Any reduction in funding will have to be reflected in the 
amount of service provided by DeCA. Most likely that reduction in 
service will take the form of store closures or a reduction in 
operating hours.
    Marine Corps Answer. The commissary is ranked as the number one 
non-pay benefit by military members, and it provides approximately a 29 
percent savings over the commercial supermarket. Reduction in the 
commissary subsidy directly translates into closing stores or reducing 
store operating hours. This reduction in commissary service will hurt 
the junior enlisted Marines and their families, the ones who can least 
afford it.
    Air Force Answer. Reducing the commissary subsidy through 
management efficiencies ought to be transparent to the customer. 
However, many of the current proposals would seriously erode the value 
of the benefit for all patrons, and would hurt the enlisted force 
especially hard. Reducing the subsidy would result in the troops paying 
for support that is currently a taxpayer responsibility, either 
directly (through higher prices or surcharges) or indirectly (through 
reduced hours, services, or support to quality of life).
    To put things into perspective, the commissary produces between 
$2.00 and $2.50 in saving below downtown prices, for every $1.00 in 
subsidy. Looking at it a different way, a 1991 USDA survey shows that a 
family of 4 spend about $500 per month on food. Even without allowing 
for inflation, loss of the commissary benefit would cost the commissary 
shopper about $125 more per month. A typical E-5 with 8 years of 
service and 3 family members currently earns just under $1,800 per 
month in base pay and rations allowance. Thus, the $125 cost increase 
amounts to about 7 percent of the member's pay, and would need to be 
offset with an equivalent increase. A 7 percent pay increase would cost 
the Department of Defense well in excess of $3 billion--and that would 
only cover the active duty force, with no additional compensation for 
members of the reserve components or retirees. The cost is 
significantly higher than providing the benefit through the commissary 
system.

    [Clerk's note.--End of questions submitted by Mr. Young.]
                                         Wednesday, March 19, 1997.

                            MEDICAL PROGRAMS

                               WITNESSES

HON. STEPHEN C. JOSEPH, M.D., ASSISTANT SECRETARY OF DEFENSE FOR HEALTH 
    AFFAIRS
LT GEN RONALD R. BLANCK, USA, SURGEON GENERAL OF THE ARMY
RADM S. TODD FISHER, USN, DEPUTY SURGEON GENERAL OF THE NAVY
LT GEN CHARLES H. ROADMAN, II, USAF, SURGEON GENERAL OF THE AIR FORCE
MCPO KAREN L.M. SAYERS, USN, SENIOR ENLISTED ADVISOR TO ASSISTANT 
    SECRETARY OF DEFENSE FOR HEALTH AFFAIRS

                              Introduction

    Mr. Young. The Committee will come to order.
    This afternoon's hearing is on the Department of Defense's 
Health Program, DHP, and the military medical system. Our 
witnesses include Dr. Stephen Joseph, Assistant Secretary of 
Defense for Health Affairs; Lieutenant General Charles H. 
Roadman, Surgeon General of the Air Force, Lieutenant General 
Ronald Blanck, Surgeon General of the Army; Rear Admiral S. 
Todd Fisher, Deputy Surgeon General of the Navy; and we are 
also pleased to have Master Chief Petty Officer Karen Sayers, 
the United States Navy, who is the Senior Enlisted Advisor to 
the Assistant Secretary of Defense for Health Affairs.
    We welcome all of you. We are very, very happy to have all 
of you here.
    As you know, health care for those in our military and 
their families is a major issue for the members of this 
Committee.
    Dr. Joseph, I am told that this may be your last appearance 
before this Committee, and I wanted to say on behalf of all of 
the members that we appreciate the good relationship we have 
had and the close cooperation that we have had with you as we 
try to work through some of the problems. And we wish you the 
very best of luck in whatever your future endeavors might be.
    The Defense Health Program appropriation funds a worldwide 
military medical system supporting both peacetime and wartime 
operations. The 1997 appropriation provides for the operation 
of 115 hospitals and 471 clinics, staffed by approximately 
147,000 military and civilian health care providers.
    The President's budget request of $10 billion for this year 
for the Defense Health Program is approximately $167 million 
less than the 1997 appropriation, and, at first glance, it 
doesn't seem unreasonable because of the overall downsizing of 
the military: Fewer beneficiaries to care for, a drop of about 
1 percent since last year; eight fewer hospitals to operate in 
fiscal year 1998. In addition, the transition to managed care 
practices could mean that the DoD's medical system will become 
more efficient. Yet despite these considerations, there is some 
evidence that the President's budget request is not adequate to 
meet the needs of our military families.
    With respect to this year, the General Accounting Office, 
GAO, believes that the fiscal year 1998 health budget is 
underfunded, possibly by as much as $609 million. And it is our 
understanding that the DoD now concedes its budget is 
underfunded by $274 million and that a budget amendment will 
soon be submitted to add this amount to the proposed 1998 
budget.
    As far as the future, according to GAO, the President's 
budget projects no program growth, from fiscal year 1998 
through 2003. GAO believes that this plan is not realistic 
regarding the potential savings due to revised management 
practices.
    The fact that the administration is proposing a budget that 
appears to be deficient is extremely unsettling. As you will 
recall, last year the budget for medical programs which you 
helped us identify was underfunded by $475 million. This 
Committee added those funds to fix the problem, but, again, a 
year later, it appears that the budget is coming up short.
    There are a lot of other important issues that we will 
address this afternoon, such as medical readiness, quality of 
care, implementation of TRICARE and care for our medicare-
eligible retirees. We look forward to your testimony.
    We will place your statements in the record in their 
entirety and then ask that you summarize them and present them 
in any way that you would like.
    Before we proceed to that, let me ask Mr. Murtha if he has 
any opening comments as the former chairman and a member 
certainly dedicated to the quality of medical care.
    Mr. Murtha. Thank you, Mr. Chairman.
    I just wanted to welcome Colonel Kupechella because she is 
retiring this year, which I was surprised to hear, but she is 
from my district. Her uncle still lives there and all her 
relatives still live there, and I am indebted to them because 
the first time I ran, I only won by 122 votes and they have 122 
relatives who all voted for me.
    Mr. Young. Dr. Joseph, again, thank you very much for being 
here, and we look forward to your presentation, and you have 
the floor, sir.

                 Summary Statement of Secretary Joseph

    Dr. Joseph. Thank you, Mr. Chairman, distinguished members 
of the Committee.
    Thank you for the opportunity to come up here once again, 
and I will probably say it several times during the hearing, 
but I want to thank you and the Committee for the support you 
have given to military medicine in the prior years. I would 
also like to pay a special thanks to your staff. We have had a 
very good working relationship with staff, and it has been very 
constructive and helpful to us.
    You are correct, I will be leaving the Department at the 
end of this month, and this, I believe, is the last hearing in 
which I will have the honor to participate.
    My written statement is long and detailed, and I would like 
to submit it for the record and proceed somewhat more briefly 
verbally.
    And I would also like to thank you for agreeing to have 
Master Chief Karen Sayers, our senior enlisted advisor, at the 
table with us. Her insights and experiences have become more 
and more important to us, and I think she may have some 
interesting things to contribute to today's discussion, 
particularly around the TRICARE issues.
    During the past 3 years, the Congress, and especially this 
Committee, has been very supportive of our efforts to enhance 
quality, accessibility to military beneficiaries, and to deal 
with the cost demon. In particular, it was this Committee that 
was key in creating the Defense Health Program and that 
centralized the budget for all military medicine and really 
made it possible for us to achieve, my colleagues and I here, 
the service Surgeons General and I, to achieve new levels of 
collaboration and coordination. That is really the key to what 
we have done in the last few years, and I believe also the key 
to the future.
    Despite the issues of change and uncertainty and the 
budgetary restrictions, it is what I tend to call Defense 
Health Program, Inc., that will make it possible for us to come 
through this better and stronger. And I think without the 
Defense Health Program change, we would not have been able to 
do that.
    I wanted to show you just two sort of bottom line charts 
that will underline much of what I will talk about, and then we 
will come back to them.
    The first shows what happened over the preceding years with 
the share of the DoD budget represented by health expenditures. 
And, of course, we were no different from the rest of the 
Nation, with this uncontrolled growth of health care, 14, 15 
percent a year.
    But what has happened, and I think this has not been at the 
expense of quality, access is still our greatest problem--I am 
going to talk about that--but we have been unable, unlike 
almost any other system you can think of in either the public 
or private sector, we have been able to bring that cost demon 
under control. But I remind you that we are now 6 percent of 
the DoD budget, where 15 or 20 years ago we were 2 or 3 percent 
of the DoD budget. That is the fact of life in modern health 
care.
    The second slide shows what we have been able to do and 
expect to continue to do with the per capita rate, and we now 
are budgeting on a per capita basis, and that is also a key to 
success in this business.
    The difference between those two lines, the original 
Program Objective Memorandum--POM projections and our 
requirements out now through the POM, that difference is $24 
billion. So our cost avoidance, because of managing this system 
and moving to managed care, is a twenty-four billion dollar 
savings, but, of course, those savings do come at some expense 
in the system, and that, I suppose, is the main issue that we 
are going to be talking about.
    Let me say for a moment, though, before we get into budget 
and into TRICARE, some things about readiness, because in our 
strategic planning efforts together always for us readiness is 
job one, and we have tried to place an increased tangible 
perspective on the readiness issues, particularly following 
from the lessons learned in Desert Storm.
    I have a list in my verbal testimony and in my written 
testimony of specific efforts and initiatives ranging from a 
medical skills training policy, getting a firm grip through 
what is called CC cost, the centralized credentials called the 
assurance system, of where our people are in terms of their 
readiness credentials at any moment; improvement in the force 
protection medical surveillance issues with the Bosnia 
deployment--I think I talked about that last year when I was up 
here--some new and very exciting developments in improving far 
forward care on the battlefield, using both advances in medical 
technology and information technology; some, I think, really 
important efforts that we have done on sort of the business 
side of readiness, logistics, purchasing of supplies and a 
better way to reduce our inventories and make more flexible and 
rapid our support of the troops.
    I won't say anything more about those in detail because of 
time, but you may wish to come back to them, either with regard 
to Bosnia or onward thinking about medical force protection and 
medical surveillance, or the Persian Gulf issues in the 
discussion and question period.

                            TRICARE PROGRAM

    TRICARE really is an evolution in military medicine, and we 
are progressing into a managed care environment. I was 
thinking, as we were getting ready to sit down, that in my 
professional lifetime, which really hasn't been that long, I 
have seen medicine change from a cottage industry to a 
corporate endeavor. That is the reality. We can bemoan some 
features of that--I bemoan the loss of the good old family 
doctor--but the reality is, medicine has changed from a cottage 
industry to a corporate endeavor.
    We have seen in a few short years military medicine change 
from three cottage industries into a corporate endeavor. That 
is an evolutionary process. It has great strengths when it is 
done right. It has some problems inherent in it, and I think we 
should confront and talk about those problems, as well as the 
successes, and I will try to do that.
    Let me talk about some of those difficulties in specific 
terms. Again, I put those in context. I think we are making 
very good progress. I think this is a much stronger system than 
it was a few years ago. I am convinced we are on the right road 
in terms of balancing that triangle of access, quality, and 
cost containment, but it is not without pain and it is not 
without difficulties.
    For example, as each of our large managed care support 
regional contracts stand up, we invariably have problems. 
Traditionally--we say traditionally now as we have been through 
four or five of them--each contractor has operational 
difficulties in making the transition, in getting the networks 
up, in getting marketing materials out, and being ready for 
that date of transition to actual services. I think we have 
less problems now each time than we had at the beginning, but 
they are not absent.
    Increasingly we are aware of the complexities of claims 
processing, and we are working very hard at this, but the 
issues of making sure that the contractors process claims 
quickly, accurately, and fairly is another one when you move 
from a cottage industry, where the one lone doc is sort of 
managing his or her books out of his black bag, to a corporate 
entity, where you are dealing with large volumes in a 
structured system.
    We have taken the necessary actions in certain instances, 
and in one of the regions we have cited for deficiencies, we 
have exerted financial penalties: In one case, a $200,000 fine 
on one of our managed care support contractors and put the 
kinds of pressures that we are able to put to make sure that we 
have adequate performance on the claim processing side. But, 
again, it is not an area where I can say we are without 
problems.
    Some of the policy differences and difficulties are based 
on operational differences between the military health care 
system and our civilian partners in this system. One issue that 
I know you have heard about is the issue of multiple copayments 
by beneficiaries when they are referred for additional services 
such as laboratory tests. These tests, when performed by our 
network providers, often are done by different providers in the 
network, and sometimes separate charges are incurred. This 
should not happen, and we are changing the applicable 
regulation so that tests associated with a particular episode 
of care will be considered all one visit.
    Second, there are occasions when beneficiaries enrolled in 
our prime network, in TRICARE Prime, the HMO option, receive 
services from providers who are not a part of that network. 
They may not have a choice, such as who gets the particular 
anesthesiologist who was at the operation, or it may be a 
situation where there is not time to make a choice such as 
calling an ambulance in an emergency situation.
    In this instance, sometimes the charges then billed to the 
patient can be well above the CHAMPUS allowable rates. To 
correct this inequity, we will need relief from restrictive 
language in the Appropriations Act, and we would be happy to 
come back up to you later with the specifics of that, because 
on some of these difficulties that I am describing we can fix 
ourselves and we are bound to fix them ourselves. But others, 
such as the one I have just mentioned, we need help from you.
    The third example which comes up frequently involves our 
reimbursement rates, which are tied by statute to the medicare 
patient levels. We are doing pretty well in bringing the 
CHAMPUS reimbursement rates down to the medicare level, which 
you asked us to do and which we should be doing, and that is 
good business.
    There are about 7,000 reimbursable services in the medicare 
schedules, and currently 61 of those 7,000 we are actually 
paying rates that are below the medicare rate schedule. We hear 
a lot about that. I am sure you hear about that.
    We do require legislative assistance and a rule change in 
order to be able to move those rates up, those 61 categories 
up, so that they are equivalent or equal to the medicare rate 
level, and we should do that. We should be, in my view, just on 
parity with the medicare rate.

                        PORTABILITY OF BENEFITS

    Another issue is the one that Mr. Murtha and I were--no; I 
guess you and I, Mr. Chairman, were chatting about before the 
hearing, this issue of portability between one region and 
another. We now have 12 regions in CONUS. They should be all on 
line and operating by the beginning of calendar 1998, and we 
have got to solve the problem of the person who is enrolled in 
one region and who then is transferred to another region, or 
who gets deployed to Bosnia and the wife and kids or the 
husband and kids go back home to another region and stay with 
the parents while the member is deployed.
    We have got to have portability and visibility of records 
and charges and the rest through the system. We are working 
very hard on that issue. We are instituting a large number of 
change orders in the existing contracts, and before the end of 
this calendar year we should have a portable, visible system.
    Those are some of the most important problems I can think 
of. There will be others. There will be new ones we haven't 
thought of. But we think the system is strong. We are capable 
of change. There is tremendous change, uncertainty, and turmoil 
in the overall medical care sector, health sector in this 
country, and, of course, we are not immune to that.
    You directed the centralization of our military medical 
budgets, and from that direction has emerged a far more 
collaborative and energetic military health services system, 
and I believe you should be proud of that accomplishment. I 
want to thank you once again for your support and the many 
programs and initiatives for the military health services 
system while I have been at the helm. It has been a tremendous 
experience and a great privilege, and the best part of it all 
has been working with people like the people who are at the 
table with me.
    Thank you, Mr. Chairman.
    [The statement of Dr. Joseph follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Young. Dr. Joseph, thank you very much.
    General, Admiral, do you have any opening comments to make 
before we go to questions?
    General Blanck. Yes, sir, we do.
    Mr. Young. General Blanck.

                  Summary Statement of General Blanck

    General Blanck. Sir, we do. Thank you very much. Thank you 
for the opportunity of both appearing here and to take the time 
to comment on Army medicine. I am particularly pleased to be 
here as a brand new, though by now somewhat used, Surgeon 
General. This is my first hearing with you.
    The Army, like the other services, is dealing with the 
challenges, of course, of downsizing, resource constraint, more 
deployments, and, in fact, different missions of disaster 
relief, humanitarian assistance, of course peacekeeping, and we 
are finding some real challenges in that. And, of course, 
medicare we are also, as Dr. Joseph alluded to, trying to get 
into managed care with the pieces of health promotion and 
prevention that are so important in all of that. So this is a 
lot of change for us.
    The Medical Department is, therefore, reemphasizing what is 
unchanging about our system, and that has to do with our 
values, our core values, the Army's values of courage, candor, 
integrity, selfless service certainly. We see examples of that 
all the time in the, I think, unique value of military medicine 
having to do with our absolute commitment to those whom we 
serve: Our patients, soldiers, family members, retirees and 
their family members, and then looking again at what is the 
same today as it was when I first entered the Army 28 years 
ago, and that is our core functions, which are to deploy a 
healthy force--again, that emphasis on prevention and health 
promotion, deploy a ready medical force. Readiness has already 
been spoken of. And, of course, managing the care of all of our 
beneficiaries, and increasingly we are doing that as we 
downsize the direct care system through our managed care 
contracts or civilian colleagues.

                               PRIORITIES

    Let me just then, with that as a background, tell you some 
of the priorities that are, again, described in detail in my 
statement. The first is evacuation from the battlefield, and we 
are working with others on funding for the 60 air ambulance 
that will allow us to do such evacuation. We have received 
funding for the first four of those and look for another 15 
next year.
    We are also testing ground evacuation modalities. We have 
an armored medical transport and treatment vehicle. The 
prototype is at Fort Hood and is part of the exercises going on 
there, and at the National Training Center at Fort Irwin. So we 
take evacuation very seriously, and it is my number one 
priority.

                           MEDICAL PERSONNEL

    Close with that is our personnel. We are doing throughout 
the active side of the house reasonably well in personnel, with 
the exception of Dental Corps officers. We are an aging force, 
and we have great difficulty in attracting new dentists into 
the force and keeping them. So we are working on measures on 
that. And of great concern to me--and I have spoken about it 
before in other meetings--is the problem with Reserve 
physicians, to a lesser extent Reserve Dental Corps officers.
    What has happened is, we have kept a lot of those who were 
on board in Desert Shield/Storm. We didn't have the losses I 
anticipated after that deployment, but we are not getting very 
many new folks in. For the Army, this is particularly important 
since 70 percent of our deployment forces are in the Reserve 
components, and without the young physicians coming up and 
filling those positions, we would have great difficulty in 
filling all of our positions were we to deploy all of our 
hospitals.

                           TERRORISM THREATS

    The next issue is on terrorism. I think all of us are 
taking very, very seriously the threat particularly of 
chemical, biological, and radiation terrorist incidents here or 
abroad. I have directed the formation of contingency teams to 
deal with that, to add on to what is already in existence at 
Fort Detrick and at other places. Tripler already has teams, as 
does Walter Reed and some other places. We are also doing 
increased research in this area.
    The Medical Research and Materiel Command has now a 
deployable laboratory, state-of-the-art equipment ready to go 
anyplace to do immediate diagnosis or come up with whatever 
agent it is that is causing illness in such a terrorist 
incident.
    We also, thanks to funding, have on the World Wide Web all 
of our technical and field manuals having to do with chemical 
and biological medical defense so that Reserve organizations or 
other organizations can go to the Internet and pull down this 
information. We will send CD-ROMs for additional education, and 
it is an excellent way to proliferate the information that we 
have so that those who will be the first responders, local fire 
and police departments, Reserve units, are up-to-date on what 
we know.
    And finally, the Association of Military Surgeons meeting 
this November in Nashville, Tennessee, of which the Army has 
sponsorship, will have as its focus medical defense against 
chemical, biological, and radiation terrorism. We will have 
five days of solid educational efforts on this issue.
    By the way, we will use distance learning so that Reserve 
units and others can tap into this and in realtime get the 
educational program.

                            TRICARE PROGRAM

    TRICARE has been spoken of. We are taking that very, very 
seriously and working very hard to deal with the issues that 
are almost inevitable as we implement such a program. Let me 
assure the Committee that, going back to our values, managed 
care, as part of TRICARE, is for us a system to facilitate, not 
deny care. It is a system that we are trying to use to get care 
to the appropriate level, not to limit it to primary care, but 
we find that often primary care is the right level. So it is a 
way to truly manage care, with the bottom line not being the 
dollar but being quality of care.
    Technology, of course, continues to be one of the ways that 
we are leveraging our resources to provide that quality and 
even more accessible care. You have heard a lot about 
telemedicine in previous testimony, and we are very pleased 
with the deployment of it in Bosnia and the use of it in 
various other sites on board ship and at the Walter Reeds or 
Triplers or whatever of the world.
    Technology, however, is more than telemedicine. It is also 
the MediTag, the little tag we have under development, where a 
soldier has a 20-megabyte chip with their medical information 
on it, can be read at various levels of care. It is the 
vaccines that we are currently developing in Thailand in 
cooperation with the Thai Army to get at malaria and Scrub 
typhus and Dengue. Dengue was the disease in Haiti that caused 
the most problems and made most of our service personnel 
nondeployable or at least unable to carry out their mission, 
and we have a vaccine that we are testing for that.
    The personnel status monitor, which allows commanders to 
know where their troops are and at the same time to measure 
their physiologic responses--all very, very exciting programs 
that we are spending a lot of time on and trying to use to 
leverage the health care.
    Ultimately, however, with all of the technology and all of 
the managed care and everything else that I am trying to 
emphasize and we in Army medicine are clearly emphasizing, we 
are still looking at what we are all about, which is taking 
care of patients one patient at a time. And I take great pride 
in that.
    Thank you very much.
    [The statement of General Blanck follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Young. General, thank you very much.
    Admiral Fisher.

                  SUMMARY STATEMENT OF ADMIRAL FISHER

    Admiral Fisher. Thank you, Mr. Chairman. Thank you very 
much for allowing me the privilege of testifying today for Vice 
Admiral Koenig on behalf of Navy Medicine. Admiral Koenig 
regrets not being able to appear before the Committee today.
    I would like to begin my remarks with a reiteration of our 
commitment to maintaining the readiness of our sailors and 
marines. For us, keeping sailors and marines out of the 
hospital, healthy, and on the job is the definition of 
readiness.
    As we approach the 21st century, the changes in our culture 
and environment are occurring at a phenomenal rate. These 
changes are a challenge but also an opportunity. If we are to 
succeed in the future, we must restructure, reorganize, and 
rethink how we do business.

                         MANAGEMENT INITIATIVES

    There are four management initiatives that we have 
established to help us meet our mission: Taking health care to 
the deckplates, moving information and not people, customer-
focused business process reengineering, and making TRICARE 
work. Our mission to maintain the highest levels of readiness 
will be greatly enhanced by these four initiatives.
    When we talk about taking health care to the deckplates, we 
mean that we must provide medical care to our sailors and 
marines as close to their workplace as possible. This 
initiative is benefiting us in cost savings and reduction of 
lost man hours.
    We have placed medical generalists and specialists pier-
side, with our aviation squadrons and with the Marines in the 
field. We have deployed dietitians, physical therapists, and 
clinical psychologists with our carriers to improve the health 
of our sailors. We have improved the diet of our fleet sailors, 
bringing unparalleled gains in health promotion and wellness 
for our people.
    The physical therapist now deployed on board the USS 
ENTERPRISE is demonstrating that prevention and early treatment 
of musculoskeletal injuries can reduce the impact of those 
injuries, the primary source of lost man hours and limited duty 
restrictions among our shipboard sailors.
    A clinical psychologist now deployed on the carrier KITTY 
HAWK has drastically reduced the number of medical evacuations 
from this platform for psychological reasons. These medical 
evacuations have historically constituted one-quarter to one-
third of the sailors lost the ship's crew each deployment. Now 
less than two percent of those seen for psychological distress 
during deployment are lost to the job.
    The Marine Corps is benefiting from these efforts as well. 
Marine recruits are receiving dental care literally on the 
firing range. This saves valuable training time for the Marines 
while allowing dental personnel to train with dental field 
equipment, enhancing our medical readiness.
    Another health care to the deckplates program established 
by Naval Hospital Camp Pendleton is a sports medicine clinic at 
the Marine training sites. This saves our Marines a 42-mile 
round trip to the hospital, the number one cause of lost man 
hours.

                         INFORMATION TECHNOLOGY

    The second initiative we are focusing on is moving 
information, not people. This initiative ties in very closely 
with health care at the deckplates. By deploying telemedicine 
and teleradiology with our fleet, we are able to provide 
information between our medical professionals at sea and our 
premier medical facilities. This is enhancing the quality of 
care for our forward deployed men and women while saving 
taxpayers dollars and sustaining operational readiness.
    Medical evacuations have been drastically reduced, and, 
when necessary, the time lost to the operational command has 
been minimized. For example, a specialist in San Diego used 
this technique to diagnose a kidney stone in a sailor stationed 
in Antarctica. This avoided what would have been a very costly 
medical evacuation because they had buttoned up the runway for 
the winter. It would also have drastically eroded mission 
effectiveness down there.
    A dermatologist at Bethesda was able to diagnose a basal 
cell carcinoma next to a sailor's eye halfway around the world. 
Although the sailor needed treatment beyond the capabilities of 
the ship, necessitating medical evacuation in his case, the 
sailor was returned to duty in 7 days, which is a dramatic 
reduction in lost man hours, due again to telemedicine.
    These are only two examples of the hundreds of applications 
that are benefiting the Navy and the American taxpayer. 
Technology is also allowing Navy medicine to reduce its 
operational ``footprint'' needed to support military medicine. 
Telemedicine and the practice of moving information, not 
people, is paying huge dividends in Navy medicine in terms of 
quality of care, cost savings, and readiness.

                            CUSTOMER SERVICE

    An important area of concern for Navy medicine is customer 
service. We have embarked on an ambitious journey to become an 
organization recognized for customer focus. Restructuring our 
business processes around our customer is our first step on 
this journey.
    We have also put into place a Navy-wide customer relations 
program to enhance our people skills and improve patient 
satisfaction. One of our most successful reengineering efforts 
is the delivery of prescription medicines to our customers 
through the use of drive-through pharmacies, automated pharmacy 
refill systems, and decentralized refill pickup points in 
nonmedical facilities.
    The pharmacy delivery changes have freed up valuable 
parking spaces and have allowed us to realign personnel to 
serve our customers in other areas. This is just one of the 
processes we have reworked to improve patient satisfaction.
    The Breast Cancer Center of Excellence at the National 
Naval Medical Center is another service Navy medicine is 
particularly proud of. It has provided increased access to 
medical care for over 500 women each month. This center has 
become a benchmark organization and a tremendous resource for 
delivering high-quality, patient-friendly, and low-cost health 
care to women in need.
    Through reengineering and research, Navy medicine is 
examining everything about our organization and how we do 
business. This is resulting in higher quality of care, greater 
efficiencies, and increased readiness.
    With the costs of providing health care benefits becoming 
more and more expensive, we must ensure the success of TRICARE 
if we are to continue to provide quality health care to our 
beneficiaries. Part of the success of TRICARE depends on 
educating our customers. We are using every means possible to 
provide that education.
    Making TRICARE work also requires us to become as efficient 
as possible. We are using data analysis of our core functions 
to ensure our operations are customer focused, efficient, and 
provide the highest medical care to all of our beneficiaries.
    Mr. Chairman, Navy medicine has positioned itself for 
success in the 21st century through our efforts in 
reengineering, our business processes, leveraging technology, 
focusing on our customers, and working toward a successful 
TRICARE program.
    I am proud to represent the dedicated men and women of Navy 
medicine here before you today. I would be pleased to answer 
any questions you or the members of the Committee may have.
    Thank you.
    [The statement of Admiral Fisher follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Young. Admiral, thank you very much.
    General Roadman, we will be glad to hear from you now, and 
then we will get to those questions.

                  Summary Statement of General Roadman

    General Roadman. Mr. Chairman and distinguished members of 
the Committee, thank you for the opportunity to address the 
goals and accomplishments of the Air Force. My voice isn't 
normally this way, but we just haven't figured out a cure for 
the common cold.
    The military services, as is DoD, are going through 
tremendous change. The mission of the Air Force has been, and 
continues to be, to be ready and to support contingency 
operations worldwide and provide comprehensive community health 
care.

                              INITIATIVES

    In order to do that successfully in times of change, we 
have developed a strategic plan which has four pillars, four 
strategic initiatives, that will support our mission. Those 
four pillars are medical readiness, deployment of TRICARE, 
right sizing, and build healthy communities. These four pillars 
support the roof of our strategy, which is customer 
satisfaction.
    Our first pillar is medical readiness, and in medical 
readiness the tasks that we have are to oversee and manage two 
primary areas or programs. First is air-transportable hospitals 
and fixed-wing tactical and strategic aeromedical evacuation.
    To achieve these objectives in the area of air-
transportable hospitals, we are going through a reengineering 
process, as are all three of us, in trying to increase the 
modularity, increase the clinical capability, and increase the 
flexibility of our deployable assets while putting an emphasis 
on smaller logistics footprints within the theater. And this 
should result in the combat CINCs or theater CINCs being able 
to modularize and optimize the assets they put in their theater 
according to their assigned mission, as we talked about 
missions changing post Cold War.
    While we recognize the biological and chemical warfare 
threat, we also have and are executing our goal of having all 
of our air transportable hospitals--ATHs chemically hardened by 
the end of 1999 and to identify and to put in development 
protection teams for prevention of infectious disease and 
chemical and biological agents to monitor health risks and 
impacts both to the nation and to individuals.
    In Airevac, we have initiated a concept of a doctrinal 
change called ``care in the air.'' It is really aimed at rapid 
evacuation to include shock-treated patients after initial 
stabilization. We have established new teams and restructured 
how we are going to deliver care, and the two trauma teams I 
will tell you about are our Flying Ambulance Surgical Teams, or 
our FAST teams, which provide rapid disaster surgical response, 
such as we provided immediately following the Al Khobar bombing 
in Iran.
    Our critical care, aeromedical transport teams, which we 
call Ccatts, are successfully augmenting our standard Airevac 
crew for critically ill patients. If you think about our old 
Airevac system that we have had in the past, we have really 
moved stabilized patients, where they were post-op for several 
days so they didn't require a great deal of care from port of 
embarkation to debarkation. As we look at moving patients that 
require more critical care, the training and the equipment and 
the intensity will change.
    Now, we sent a team like that into Ecuador 6 months ago 
following the airplane crash, and we have that tape, Mr. 
Chairman, if you want to show that at a later time.

                            TRICARE PROGRAM

    Our second pillar in the strategy is to deploy TRICARE, and 
we say deploy TRICARE because right now we are in the contract 
deployment phase and it will deploy TRICARE at the beginning of 
next calendar year.
    It is important to realize that TRICARE provides us a 
strategy as well as a structure for maintaining a ready 
military medical force needed to deter and fight our nation's 
wars in a time of downsizing. It is built around a core of 
active duty, supported by ready Reserve and Guard forces, and 
wrapped around that is a TRICARE wraparound support contract to 
enable us to deploy forces and continue providing care in our 
facilities.
    Recent surveys have shown--and I think Dr. Joseph talked 
about the irritations, and I think that is what was discussed 
in this morning's panel--as we talk about deploying TRICARE, we 
must let TRICARE mature, and this is a very complicated program 
that we are putting in. Data where TRICARE is mature shows that 
9 out of 10 people are satisfied with their access and quality 
of care and would re-enroll in TRICARE.
    However, I would say that our greatest concern remains 
getting the contracts in and matured while continuing to 
provide care for our Medicare-eligible retirees who cannot 
participate in TRICARE.
    We fully support DoD's effort to obtain legislation for 
Medicare subvention as the best way to establish a seamless 
health care benefit for all of our beneficiaries.

                       RIGHTSIZING MANPOWER LEVEL

    Our third strategic pillar is rightsizing. The Air Force 
Medical Service is evaluating the extent to which we can 
rightsize our manpower levels and capabilities consistent with 
meeting both of those missions. We prefer the term 
``rightsizing'' to ``downsizing'' because we are confident that 
this is the right way to deliver high-quality, cost-effective 
patient care in a declining resource environment.
    We recognize the shift to ambulatory service. We recognize, 
from our readiness perspective, there is a diminished need for 
beds. We recognize, from a quality perspective, that our 
patients may well be better served by institutions having 
higher volume than our small hospitals with low census in just 
maintaining skills. And from a cost-effective perspective, 
there is a potential to save funds and assure access to quality 
care in the locales where sufficient civilian and military 
medical capability exists.
    Let me assure you that our rightsizing approach relies 
extensively on the right balance between civilian and military 
health care in a partnership. Reduction of our forces requires 
careful management of attrition, retirements, coupled with 
effective force-sculptina initiatives and assurance of a 
training platform to maintain war skills. The rightsizing 
pillar will ensure sustainment of a viable workforce while 
minimizing the impact on quality of life of our medical service 
members and our beneficiaries.

                               READINESS

    Our fourth pillar, which is building healthy communities, 
is really the cornerstone of TRICARE in our readiness efforts. 
Using disease prevention, health promotion, and fitness 
initiatives, we are moving the Air Force from a repair-oriented 
health care delivery system to one of maintenance and 
enhancement of performance and quality of life.
    Programs such as Putting Prevention Into Practice, which 
targets identified preventive health needs in every patient 
encounter, extensive patient and provider education programs, 
and health and wellness centers found at every major Air Force 
installation, all put Air Force health care on the cutting edge 
of prevention, and that is really trying to get after the 
demand for demand. If you don't need the health care because of 
prevention, then the cost and the availability and access will 
go up.
    These four pillars ultimately support the end goal, if you 
will, of our strategy, which is customer satisfaction. Customer 
satisfaction is the responsibility of each and every member of 
our medical service, from senior leadership to the most junior 
airman. For our customers to be satisfied, we must ensure they 
are combat ready, that they have access to high care, maintain 
high quality of life, and we must measure that satisfaction, 
and we are well on the way of measuring that.
    Mr. Chairman, I can assure you that the Air Force Medical 
Service is strong. We have a strategy and a vector to assure 
optimization of quality, cost, and access and ensure mission 
capability.
    I extend my appreciation for all the members of the 
Committee and their support of Air Force medicine. With your 
help, the Air Force Medical Service will continue to meet 
today's and tomorrow's many challenges while preserving high-
quality care that all of our people deserve.
    Thank you, sir
    [The statement of General Roadman follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                          TRICARE PORTABILITY

    Mr. Young. I want to thank all of you for very excellent 
statements. You have apparently stirred up a lot of questions 
that we hadn't even thought about as you made your 
presentations.
    So we will expedite the questioning period now. Dr. Joseph, 
you mentioned portability. This was discussed at the hearing 
this morning with the master chiefs and the sergeant majors.
    What are you going to be able to do to solve the problem 
that they called to our attention, and that you indicated, when 
a soldier moves from one region to another? The way they put it 
was, they go to the bottom of the list and start all over 
again. What is the problem, and what has to be done to avoid 
it--or to correct it?
    Dr. Joseph. Well, the problems are several. Obviously, with 
our regional TRICARE structure now, insofar as the civilian 
contract support is concerned, we have different contractors in 
the different regions. When those contractors have sometimes 
different information and data systems that--and also sometimes 
for their own business reasons they may not be anxious to share 
with what are essentially competitors in other regions.
    So what we have to do is ensure that the standards of 
access, the standards of care, the information about care that 
is given, and the enrollment mechanisms of care are portable 
from region to region, so that when an active-duty member and 
family who are enrolled in TRICARE Prime--because it is the 
TRICARE Prime benefit that we are talking about here--in Region 
12 are transferred to Region 3, they don't have to disenroll, 
re-enroll, and start the process again.
    Mr. Young. Do they have to do that now?
    Dr. Joseph. As of now, we do have to do that, and that is 
going to change, and by the end of this year we will have 
portability of enrollment and information flow transfer across 
all the--all the CONUS regions. In part, that is a matter of 
our patient information and data systems coming up on line, 
which they are, our ambulatory care data system coming up, and 
in part it is a matter of the specific contract requirements 
for the patient management information in the contractor 
sense--in the contractor's hands.
    We have, as I think I said in my verbal comments, a large 
number of change orders going into the existing regional 
contracts which will assure that, and in the contracts still to 
come up in Regions 1, 2 and 5 we will have those mechanisms 
that ensure portability. When this hearing takes place next 
year, you will see a very different situation with regard to 
visibility and portability across the system. It does need to 
be fixed.
    Mr. Young. We are writing that down.
    Dr. Joseph. Oh, that is fine.

                       MEDICAL CARE FOR RETIREES

    Mr. Young. Most of us have elderly constituencies, and many 
of us have a large population of retired military. When they 
reach 65 now under TRICARE, they don't have the benefits that 
they expected to have.
    You mentioned subvention. I have heard the word 
``simulation'' used as a way to try to figure out how to 
approach this problem and solve this problem. What are you 
thinking about? What kind of plans should we look forward to, 
to help us relate to our over-65-year-old retired military 
constituents?
    Dr. Joseph. The single largest remaining problem in the 
Military Health Services System--MHSS becoming an effective 
managed care system and meeting its readiness requirements is 
the problem of being able to provide care to the over-65 
beneficiaries. We are not meeting our responsibilities to this 
group. We are not meeting our commitment to this group. We 
could argue about whether the fine print in the recruiting 
brochure said they were promised free care or care. The fact is 
that we have an obligation, a particular obligation, to this 
group and we are not meeting that obligation.
    We need a way to be able to offer enrollment into the 
TRICARE system to the over-65 beneficiaries consistent with the 
fiscal health of the system because our job here is to always 
balance those three things. I sometimes say, only half in jest, 
I know how to save 30 percent of the health care budget; we 
will just close all the hospitals Tuesdays and Thursdays each 
week. That is not what our task is.
    So we have to find a way to make it fiscally possible to 
carry out our commitment to the over 65s, and we have to do 
that not only because of that commitment but because the 
readiness requirements that you have heard us talk about and 
the ability to not only stay sharp through seeing a wide range 
of medical and surgical cases but also to have the kind of 
quality system that will attract and retain the kinds of 
quality people we have in our doctors and nurses currently in 
the system. We have to have a robust and well rounded system.
    So it is not just an altruistic motive, there is a very 
important self-sustaining readiness motive in being able to 
bring the over 65s--keep the over 65s in the system.
    Now--and I am sorry my answer goes a little bit long here, 
Mr. Chairman. Now, as we get more efficient in TRICARE and as 
more and more of our beneficiaries who can enroll, which 
currently excludes the over-65s, do enroll in the system, the 
space-available care that used to be wide open and available to 
our over-65s back in the eighties gets squeezed down further 
and further. And one part of our job is to squeeze that over--
space-available care down further and further, and the duel-
eligible beneficiaries, the over-65s, see that, and they 
understand it, and they see their access evaporating. So we 
have got to find a fiscally responsible way to make access 
available to them.

                      MEDICARE SUBVENTION PROGRAM

    We believe that the best way to do that is through the 
medicare subvention process, to enable the DoD to receive 
reimbursement from Medicare for the care of those duel-
eligibles, the same that Dr. Brown downtown or the Health 
Maintenance Organization downtown can receive reimbursement for 
care of those eligibles. And we have come to an agreement 
within the executive branch with Health Care Financing 
Administration and Office of Management and Budget in doing a 
demonstration of that concept so that we can prove our 
contention, which is, we cannot only do it better and we cannot 
only strengthen the health of our system by doing it better, 
but we actually can do it cheaper, if you will, for Medicare 
than what they are paying elsewhere for it. A legislative 
proposal to that effect is in the Congress now.
    We came very close at the end of last session to getting 
subvention. We hope, and I think have reason to feel somewhat 
confident, that we will get something this time. We need your 
help with that. If we don't get it this time, I think we are in 
very much a tough place.
    The beneficiaries have stuck with us on this longer than 
one might have expected us--them to. I think they have 
understood that we are trying, but trying is not the same as 
accomplishing. I think if we do not get subvention this time, 
the calls for other approaches rather than enabling the dual 
beneficiaries to come into the TRICARE Prime system supported 
by Medicare financing may become overwhelming. And I think, 
that would be less good for the beneficiaries, and we can talk 
about the reasons why that is so. I know it would be more 
expensive for the beneficiaries and for the government. And 
third of all, that would be a very significant blow to the 
quality of the readiness and the rest of the health care 
system.
    So subvention is what we need. A demonstration is a step to 
get it. The idea of some kind of a simulation or a preparation 
for a demonstration is sort of getting ready to get ready to do 
what we need to do. I think all of us are frustrated by the 
length of time this is taking, but it is the best result for us 
to work towards.
    Mr. Young. Well, now, while we deal with the issue of 
subvention here in the Congress, and you have conceded the 
problem, you have said we need to do this and we need to do 
that, subvention is big in your mind, but do you have a task 
force or assigned staff who are dedicated to review this 
problem to come up with recommendations, or are you just 
standing by waiting for the Congress to deal with subvention?
    Dr. Joseph. Oh, no, anything but. We probably spend more 
time in aggregate on the Medicare--on how to work around this 
problem, how to keep the beneficiaries in the system, how to 
make the best use of the space available by maximizing what we 
do do inside the Military Treatement Facilities and yet how to 
work to a position where we get paid for it than almost any 
other issue. And there are a number of dedicated staff in my 
office. Each of the Surgeon Generals, SGs has a group of people 
that works on this problem.
    This gets a good deal of attention, and the military line 
has been very supportive of getting subvention across. We just 
haven't--I mean, we haven't been able to roll that rock over 
the top of the hill. We were very close last session. It was a 
bitter disappointment, and I just would say once more, in a 
kind of valedictory way, if we don't get it this time, I think 
the whole system is threatened because of the importance of 
this in the whole fabric, not just in terms of our 
responsibilities, which are undoubtedly there, to those 
beneficiaries.
    Mr. Young. Well, this is a big issue for us, as you can 
understand.
    Mr. Murtha.

                          MISDIAGNOSIS ISSUES

    Mr. Murtha. I have a couple of specific questions.
    Now, in my family, I have always misdiagnosed things, like 
one time I thought I had a sprain, it was a broken ankle; and a 
friend of mine kept telling me all these symptoms in his chest 
or in his stomach, and I said, ``Well, you have got a gall 
bladder problem.'' And he said, ``Well, my gall bladder has 
been out for 10 years.''
    I just wonder what happened to that guy with a kidney 
stone. One thing I can diagnose is a kidney stone in myself, 
because there is no other feeling like that. Now, you had this 
guy out in the middle of nowhere, and you said you diagnosed 
it, but what happened to the guy?
    Admiral Fisher. In this case, the doctor performed an 
ultrasound, examination which produced a digitized image of the 
patient's lower quadrant; identifying the location of the 
kidney stone.
    The doctor in consultation with a specialist at the Naval 
Medical Center in San Diego decided to monitor the kidney stone 
and provide necessary pain mediation to the patient until the 
kidney stone passed. The patient passed the stone within 24 
hours and the chosen course of treatment worked out very well.
    Mr. Murtha. So they could diagnose that he would pass it. 
The danger would have been, if they were closing down that 
runway for the winter, that he wouldn't have passed it. But you 
were sure enough that he would pass that--I mean, there is 
nothing more excruciating or uncomfortable than a kidney stone.
    Admiral Fisher. That is what I understand.
    Mr. Murtha. I mean, this guy standing back there wherever 
he was on the television set, that is one thing, but that poor 
guy that has that stone, that is a different situation. But you 
were--he was sure. The doctor, he or she, was sure that this 
was going to pass his kidney stone because of the size, I 
guess?
    Admiral Fisher. Yes, sir, I believe so. I'm not familiar 
with all the details regarding the case.

                      MEDICAL PERSONNEL REDUCTIONS

    Mr. Murtha. Well, I know the doctor told me, as long as it 
hurts, you are all right, because it is moving. That is small 
consolation for a kidney stone.
    Now, at Walter Reed we found out--we were out there, our 
expert here, and we found out that they are going to cut back 
75 nurses. I can't believe that. I mean, I can't believe, as 
hard as we have worked trying to upgrade military medicine, 
that you are going to cut 75 nurses out at Walter Reed. Is that 
accurate?
    General Blanck. I don't know. I assume if they told you, it 
is, sir. But I can give you a possible explanation for it, 
because when I was at Walter Reed, before taking this job, I 
also cut positions for nurses and for other health care 
providers and for support staff. I am not sure we have done 
that in the right proportion, but what happened was the 
following:
    When I got there in 1992, we ran 600 beds full at Walter 
Reed Army Medical Center with patients who stayed for a fair 
amount of time after their gall bladder surgery or were 
admitted 2 days before they had the inguinal hernia surgery and 
stayed 2 days after or used the system more than now quality of 
care demands or facts even suggest is healthy.
    When I left Walter Reed, seeing the same number of patients 
a day, approximately 3,000 outpatient visits per day, we had 
340 inpatients. So the base is the same.
    Now, the reason we came down in that and don't need as many 
nurses----
    Mr. Murtha. I mean, I understand what you are saying, but 
let me tell you what happened at Bethesda. Now, you have 26 or 
27 doctors out there. Those 27 doctors are supported by three 
people. The doctors have to fill out the administrative work. 
The doctors have to answer the phone or the phone goes 
unanswered.
    Now, I remember General Sullivan said to me, you are going 
to have more nurses than you do infantry people before long.
    Well, the point is, you can't allow that service to get 
down to the point where it is unproductive, and that is what it 
looks like, to me, is happening.
    Now, I don't know enough about medicine to know, but I wish 
you would relook that and make sure that you are not cutting 
back so that the people suffer.
    General Blanck. But you have put your finger on something 
that is very, very important, and it is an issue that indeed we 
are looking at. We have become to a certain extent unbalanced, 
and what we need to do is make our providers more productive 
with increased staff, support staff.
    Mr. Murtha. Let me go vote, and I will come back.
    Mr. Young. We will reserve your time, sir.
    Mr. Murtha. Thank you.
    Mr. Young. Mr. Bonilla.
    Mr. Bonilla. Thank you, Mr. Chairman.
    Gentlemen--by the way, Dr. Joseph, we appreciate your 
service and wish you the best of luck in your future endeavors. 
What are you going to be doing?
    Dr. Joseph. My colleagues are anticipating. It is time for 
my wife and I to keep some promises we made to ourselves a few 
years ago that in the spring of 1997 we would move aboard our 
sailboat and see some blue water for a couple of years.
    Mr. Bonilla. Well, good for you. Good luck.
    Mr. Young. That sounds good.

                        COMBAT-READY HEALTH CARE

    Mr. Bonilla. Have a great time. You deserve it. One day 
maybe I will do something like that. I don't know when.
    Gentlemen, let me start out by making reference to the 
written testimony that was submitted in each case and which was 
something that struck me, there is almost no mention of combat 
care, and while we have all been asking questions about your 
normal health care plans for enlisted personnel and health care 
for retirees, which we are all hearing about back home, but it 
just struck me that we are not hearing a lot anymore about 
combat care.
    Is it something that we need to worry about in this day and 
age? Is it something that is still occurring out there? Are we 
dealing with the triage and the acute injuries and the things 
that we need to be ready for in the event something does 
happen?
    Dr. Joseph. I think in each of our statements, Mr. 
Bonilla--perhaps we didn't highlight it up front enough--each 
of us talked about not only the importance that we are placing 
on the far forward readiness mission but the great changes that 
are occurring there. And the changes are of two kinds, and I 
think you can really tease that out of each of the statements 
that have been made:
    One, the requirement for a faster, further forward, 
lighter, and more essential medical presence is very real as we 
have smaller deployments, as we go into more unusual areas, as 
we have different kinds of missions. That is one half of it.
    The other half of it is the very rapidly expanding 
technologic frontier. Whether you are talking about what would 
be the number one most important thing and will come within the 
next couple of years, I believe, which is an artificial blood 
substitute that is not temperature dependent and that can carry 
oxygen as red blood cells do, or whether you are talking about 
the medical record that the individual trooper can wear on a 
chip around his or her neck so that the medical record really 
can get back and forth, or whether you are talking about the 
changes in the kind of intensity of medical care we need to 
provide during evacuation from these different deployment 
circumstances.
    There is a big change coming from the technology, and it is 
coming into a situation where we really need to revise very 
dramatically our ability to be lighter, faster, and more agile. 
And all the individual services, and we, corporately, have been 
working very hard at that. And I think they may want to go back 
and pull out those comments in a different way because that 
should have come--really, that is sort of job one. That should 
have come through clearly in the testimony.
    Mr. Bonilla. General.
    General Roadman. Let me, if I can jump in----
    Mr. Bonilla. Sure.

                   AIR FORCE COMBAT-READY HEALTH CARE

    General Roadman. Congressman Bonilla, the flying aid on a 
surgical team, for example, is a cohort of 15 people, able to 
go in with about 600 pounds of equipment and take care of 15 to 
20 lifesaving surgical procedures in buildings of opportunity. 
So we are no longer thinking in the old terms of, we will send 
in an air-transportable hospital. We are really looking at a 
very clinically oriented, small, almost SWAT team approach to 
get in and be able to take care of smaller encounters rather 
than the Russian NATO encounter that we had as our strategy in 
the past.
    In addition, we are talking about very quickly moving 
people out of the theater in those Critical Care Aeromedical 
Transport Teams--CCATTs, and I am sure from Texas, you know 
that Wilford Hall has been instrumental in developing that 
doctrine and fielding and the testing of those issues.
    So I think probably we didn't emphasize it enough. It is 
clearly consuming a tremendous amount of our time of being 
lighter and more agile.
    The importance of lighter and more agile, just to give you 
an example, our Air Transportable Hospitals--ATHs, which you 
know were into the desert for Operation Desert Shield within 
the second day of deployment--1 ATH, Air Transportable 
Hospital, takes seven and a half C-141s. I mean, it is movable 
but it really requires a lot of strategic lift.
    What we are doing with Air Transportable Hospitals now is 
with the technology, with modular capability, identifying 
exactly what needs to go in to the point we have it designed to 
go in with one 141 and think about the strategic lift saved. So 
we are spending a lot of time thinking on those issues.

                     ARMY COMBAT-READY HEALTH CARE

    General Blanck. What we are also doing, sir, Research 
Medical Materiel Command, the research and development folks up 
at Fort Detrick have as their major thrust and focus to look at 
technologies and other research so that a soldier will survive 
longer in the battlefield, and the reengineering efforts that 
we have in evacuation, in converting all of our Mobile Army 
Surgical Hospitals, MASH to Forward Surgical Teams, FST with 
the evacuation capability, with the mobility, gets at exactly 
what you are talking about.
    And by the way, there are low-tech solutions, too. There is 
a gauze pad that is impregnated with fiber that you put in a 
wound where you can't really put much pressure on it that 
reduces the time that a patient bleeds, and it promotes 
clotting. There are those kinds of things that are constantly 
being looked at, and, in fact, as has been said, it is our job 
number one.

                              TELEMEDICINE

    Mr. Bonilla. Well, what about telemedicine? Earlier there 
was reference made in testimony, I believe it was the admiral 
that referred to this, in advancing the technology with the 
things we are using today. I work so closely with medical 
researchers in my area, both at the South Texas Medical Center 
and at Brooke Army Medical Center--BAMC and at Wilford Hall and 
at Brooke about trying to use this, not just in the private 
sector, but to link it with the military operations. And how 
does that fit? How will telemedicine fit into that?
    General Blanck. I just visited Bosnia, and I went to a 
battalion aid station. I served a year in a battalion aid 
station in the highlands of Vietnam, and it brought back some 
interesting memories, mostly good, some not so good, but it was 
exactly the same. It had the same kind of liter, and it had an 
intravenous pole, and it is as I remembered it.
    One big difference was the physician's assistant, PA 
sitting there with a little laptop computer hooked up by 
satellite, with launch tool, could have been with Bethesda or 
Wilford Hall or with Tripler or with Walter Reed, whatever, 
doing consultations. He had a little camera, and the camera 
sees one cell deep in the skin, so the dermatologist back 
wherever can make a diagnosis of the lesion that may have led 
an evacuation or saved an evacuation.
    They do curbside consults, one with the other, just back to 
the local hospital, to the battalion aid station down the road. 
They can store in forward X-rays, images, ultrasounds that can 
be done right there, and you have somebody, an expert, reading 
them, and the PA doesn't have to rely on his or her own 
expertise. You get that kind of consultation.
    It has made a tremendous difference in what we are able to 
do in leveraging the expertise, and it gets really at the heart 
of quality care.

                       TECHNOLOGY TO PROVIDE CARE

    Admiral Fisher. Also, on board our aircraft carriers, for 
instance, the old X-ray do the weight and the cube for all of 
the film and processing equipment will no longer be necessary. 
With digitized radiography you don't need film. We have gotten 
rid of all the weight and the cube of all that material, plus 
all the caustic material required to run the processor.
    In the area of Magnetic Resonance Imaging (MRI), they now 
have a hand-held MRI kind of device. It is about the size of a 
brick, that can be used in the field. We are currently making 
sure that it is fully survivable in a combat environment.
    Mr. Bonilla. How much bulk are we talking about getting rid 
of on a ship or a submarine?
    Admiral Fisher. I would like to take that for the record 
and get back to you.

                     TELEMEDICINE--LESSONS LEARNED

    Dr. Joseph. We have made a tremendous investment in 
telemedicine in Bosnia, and we have learned a number of things 
from it. One, we have learned the power of this information 
technology, as you have heard from all of my colleagues.
    Two, we have learned that we have still got a lot to learn. 
There are some things we learned through installing a 
telemedicine system in Bosnia that show us there is still a way 
to go. We are not at the $40 digital watch yet. We are still at 
the $150 digital watch, no longer the $500 digital watch. We 
have got a ways to go.
    But three, there is clearly in this technology an enormous 
promise. When, you know, that soldier in Bosnia--we haven't, 
fortunately, had a lot of acute injuries and casualties in 
Bosnia, but when that soldier in Bosnia stepped on that mine, 
and we knew that if it was necessary, that that general surgeon 
in the field hospital, in the MASH in Tuzla, if he needed to, 
he could have consultation 24 hours a day with the best 
vascular surgeon, orthopedic surgeon, neurosurgeon that we have 
anywhere in the world, that is going to make an enormous 
difference.
    So we are not quite there yet. There is a lot to do. The 
price--the costs of this need to come down more. We need to be 
sure that we are using it, you know, at a maximum efficiency to 
link together and to move information, not people, as Admiral 
Koenig says. But the promise of this technology is really a 
very, very important thing, and it has proven ready, but there 
are a lot of refinements still needed.
    Mr. Bonilla. That is exciting. It is remarkable what can be 
done in the field now.
    General Roadman. May I just give one real low-tech answer 
to this?
    Mr. Bonilla. Sure.

                COMBAT-READY HEALTH CARE/``BUDDY CARE''

    General Roadman. And that is bringing us way back away from 
telemedicine. The one thing that we learned in the Khobar 
Towers bombing was that the buddy care was absolutely critical, 
because we had multiple lacerations with flying glass; was that 
everybody taking care of everybody else was critical. And as 
you look at the review of the medical response at Khobar 
Towers, it was excellent.
    But what is really highlighted is the response of buddies 
taking care of buddies, getting them out of buildings, taking 
care of just basic A, B, C; airway, breathing and circulation. 
And that comes from the buddy care training that we do across 
the service. So there are medical answers as well as nonmedical 
operational answers, and that training has got to be able to 
become probably more sophisticated.
    One of the results, particularly within the Air Force, is 
that all of our mobility physicians are going to have trauma 
training, not advanced trauma life support training, Advanced 
Trauma Life Support but trauma-intensive training as a 
component of the training, as well as every member, not medic, 
every member having Cardiopulmonary Resuscitation.
    And so what we are really focusing on is the high-tech end 
as well as the immediate buddy support end. So we are putting a 
tremendous emphasis on the combat end.
    Mr. Bonilla. Thank you very much.
    Mr. Chairman, do I have time for one more question or not?
    Mr. Young. You have time for one real quick question.

                 OFFICE OF MANAGEMENT AND BUDGET ISSUES

    Mr. Bonilla. One quick question for Secretary Joseph. It is 
on a more general topic, and that is I am concerned about The 
Office of Management and Budget--OMB almost becoming a year-
round grinch that is attempting to destroy the Defense 
Department, and the defense health care system specifically. 
Tell me that this isn't true, Secretary. Now that you are going 
to go off sailing around the world, now you can let us know 
what the truth is about OMB.
    Dr. Joseph. Well, let me try to answer seriously to that 
question. They have their job, and I have my job, you know. 
And, in part, their job is to make sure that I don't do my job 
just any way I want to do my job, and so that leads inevitably 
to differences of opinion that have to be wrestled out. There 
is an importance to their perspective. I mean, you know, my job 
is to push it as far as I can, and their job is to make sure 
that it stays in balance with other things.
    So I don't think of them as a grinch. You know, I think of 
them as--most often as adversaries is true, but within a system 
that has to operate as a system. I don't know how to answer the 
question any more honestly than that.
    Mr. Bonilla. Well, I just wanted to raise the issue more 
than anything else, and I appreciate your answer.
    Thank you, Doctor.
    Thank you, Chairman.
    Mr. Young. Mr. Murtha got cut off by that vote in the 
House, so we will go back to Mr. Murtha at this point.

                 NATIONAL CAPITAL AREA HOSPITAL ACCESS

    Mr. Murtha. Yes. A couple of other things. Now, we have one 
hospital here in this area with 200 or 300 patients; we have 
one hospital with 100 patients. We have ratcheted down two, so 
we have the cost of two installations. One of the big concerns 
that I get from this area is everybody has trouble getting 
access to the individual hospitals.
    I have heard about some bad experiences at Bethesda, and 
that may be because it has gotten so much smaller, but I wonder 
if you have looked at the possibility of putting one hospital 
in charge and the other as an annex, or at least one 
organization in charge so that there would be one access point 
where people could get through, and then you could send them to 
the hospital where they could get the best care?
    Dr. Joseph. Let me show you what we have done in the 
National Capital area.
    Can I have the third slide up there? You just happened to 
ask the right question. I just happen to have a slide on it.
    Well, that is not going to be visible, is it? Do you have 
the next one? That is not going to be visible.
    But what we have tried to do, and probably have done most 
successfully in the National Capital area--in fact, much of 
this was done when General Blanck was responsible for the Army 
activities here--is to reduce wherever possible duplication of 
specialty services and graduate medical education services 
around the area. There is a lot of money to be made in that 
effort. We can do it better, and we can do it in more places, 
but it needs to be done.
    Part of this is the problem of the transition that I talked 
about earlier, not just in the military system. I go into a lot 
of military hospitals, Mr. Murtha, that were conceived of in 
the 1960s, designed in the 1970s and built in the early 1980s. 
And you go in and the hospital is built this way, and there is 
one elevator shaft that goes right up the middle of the 
hospital, and on the fourth floor, if it is four floors, is 
some ward space that now is half empty, as General Blanck says, 
and we don't need that fourth floor ward space. What we do is 
ambulatory care space down on the first floor, but the hospital 
constrains us.
    So in some ways we are prisoners--the health system is one 
of the slowest and hardest systems to change of any part of the 
economy. I am not speaking just of the military, but in 
general. And we are doing now, across the system, probably 30 
percent and in some hospitals 60 percent of all of our 
surgeries on a day-surgery basis. That is better for the 
patient. It is better for us. It is cost-aversive for us, but 
it is harder to do that when you are constrained in a 
conception and a facility arrangement of medical care that is 
built on a system that really no longer exists.
    So there are lots of ways that we can coordinate, pull 
together, reduce duplication across the services. The TRI 
service thing gives us the possibility to do that, but there 
still are going to be inefficiencies.
    Mr. Murtha. You understand what I am saying.
    Dr. Joseph. I understand.
    Mr. Murtha. Instead of cutting down to the point where it 
is inefficient, you let one just be a regular hospital or an 
annex where you just put people, and the other one do all the 
major stuff. But you have done a remarkable job.

                 OFFICE OF MANAGEMENT AND BUDGET ISSUES

    I think what you said about Office of Management and 
Budget, every agency would complain about it, but when you look 
at the cuts in the other agencies compared to the medical 
services, in other words, the other services were cut 
substantially more than medical services. And I think we can 
take credit for an awful lot of that because of our pressure on 
the services to keep the quality of life high and keep the 
money in the medical services because we knew how important it 
was. So that difference has been dramatic actually, if you look 
at how much everything else was cut compared to what you were 
cut.

             MARINE CORPS BIOLOGICAL CHEMICAL WARFARE TEAM

    Now, one specific last question, the Marine Corps has a 
biological chemical warfare team.
    Dr. Joseph. Yes.
    Mr. Murtha. We put some money in last year. That improved 
it substantially. They did the best they could do with a little 
money.
    Do they have a medical team assigned to them? Does that 
medical team interact with them whenever they are deployed? For 
instance, when they were deployed up there during the 
Inauguration, did you have a medical team with them?
    Dr. Joseph. They have a medical component. I think Admiral 
Fisher can speak more to the specific makeup of that, but they 
have their medical component to that.
    Admiral Fisher. It is not a full-time assigned medical 
component to the team, but it is pulled out of the Navy Medical 
Research Institute of Bethesda and other places to augment them 
with top-notch specialization.
    Mr. Murtha. So if they were deployed, or if they go through 
a tactical deployment or a maneuver, you can detach a unit with 
them to go through this exercise?
    Admiral Fisher. Yes, sir.
    General Blanck. There is a medical team, and there is also, 
it is, by the way, coordinated and has augmentation from all 
the services and is also coordinated with Federal Emergency 
Management Agency and other organizations so that the Marines 
would go with the Navy or Army or Air Force medical unit, with 
the laboratory from Fort Detrick and with other elements, and 
there is a central point of coordination for all of that within 
the Pentagon. So it is coming together. I won't go as far as to 
say it is there yet, but it really is very well on its way.
    Mr. Murtha. I am glad to hear you are spending so much time 
on this area because we think that when you talk about threats, 
well, if you look at the threat going back to the bombing we 
had in Beirut, more people were killed in that type of 
activity, and it is just a matter of time when you are going to 
have a chemical biological attack. So I think everything you 
are doing now will reduce the casualties whenever it does come, 
and I predict it will come at some point by some terrorist. So 
I applaud you.
    General Blanck. The keynote speaker at the AMSUS meeting, 
the Association of Military Surgeons of the United States that 
I mentioned, is Major General Oshmi from Japan, who was in 
charge of their response to the sarin attack in the subway.
    Mr. Young. Mr. Skeen.

                       TRICARE REGION--NEW MEXICO

    Mr. Skeen. Thank you, Mr. Chairman.
    And Secretary Dr. Joseph, I want to thank you for sending 
the excellent medical personnel that you sent to Alamogordo, 
New Mexico, to take care of our recent TRICARE briefings.
    Just one question: When do we--I understand that the New 
Mexico region will be under the TRICARE starting about the 1st 
of April, and the concerns that are being raised now that there 
are not enough physicians--in this rural area, that there won't 
be enough in the sufficient pool of doctors to take care of the 
beneficiaries. Would you comment on that?
    Dr. Joseph. April 1 is the start-up date. I believe it is 
going to make that.
    To the best of my knowledge, there is not a particular 
problem in terms of the provider network in that area, but I 
will check that and give it specifically back.
    Master Chief Sayers, you were at that meeting in 
Alamogordo, weren't you?
    Mr. Skeen. Yes, she was.
    Dr. Joseph. And you might have something to say about that, 
and particularly the concerns about the provider network.
    MCPO Sayers. One of the things that they talked about, as 
you well know, Mr. Skeen, you were there, was the lack of 
providers in the civilian community, and that was one of the 
concerns of the contractors trying to address for that area in 
particular.
    I have been in contact with a retiree organization, I 
believe it is Air Force sergeants' association in that area, 
and they have expressed those concerns as well, and it has been 
taken very seriously.
    One of the things that I think is most important is that it 
is not a dead issue. It is something we hear and we are very 
concerned about, and it is not taken lightly. And like I said, 
I talked with one of the chiefs, and we are in communication 
with him to let him know what is going on so he can let the 
other retirees in that area be aware.
    And he related his enrollment process, if you will. He 
stood in line and waited to enroll at Holloman and said for the 
most part the people at the hospital were very gracious and 
worked very hard, but he did have some concerns about how they 
were handling the enrollment in that process and whether or not 
the network would be big enough for that area.
    Mr. Skeen. Well, I want to thank you for that.
    Dr. Joseph. I have a note here, Mr. Skeen, that the 
contractor for region 7 is in town tomorrow for a strategy 
session with our folks about standing up that region, and they 
are going to meet with all the congressional delegations. But 
we will also specifically get a fix on the Alamogordo area and 
get back to you on that.
    Mr. Skeen. I would appreciate that very much because we 
have had constant irritation and problems with the news or the 
awareness of what the program is going to do and when it is 
going to be done and so forth. I appreciate that response very 
much. Thank you for the help that you have been.
    Thank you, Mr. Chairman.
    Mr. Young. Mr. Visclosky.

                      MEDICARE SUBVENTION PROJECT

    Mr. Visclosky. Thank you very much, Mr. Chairman.
    Dr. Joseph, I think I came in at the tail end of the 
question that the Chairman and you were engaged in as far as 
the medicare simulation.
    Are you designing that simulation, or is that taking place 
now?
    Dr. Joseph. We have a very detailed and specific design for 
the demonstration program, a request for authorization for 
which is now before the Congress. We are also--have been 
working and will continue to work to look at all other possible 
positions should that come into being or should it not come 
into being, so that we have--we have got--we have a detailed 
understanding of what we would do in the actual medicare 
demonstration if that is authorized in legislation. And we also 
have a detailed understanding in the military medical community 
as to what we will do to try and get as close to that 
demonstration if we don't get or until we get the legislative 
authority.
    Mr. Visclosky. Assuming you get the authority effective 
October 1st, when would you be able to start the simulation?
    Dr. Joseph. Oh, I assume--let's call that the 
demonstration. I know it is a little bit of semantics, but it 
is important.
    Mr. Visclosky. Okay.
    Dr. Joseph. The difference is the medicare demonstration 
will actually involve a transfer of funds from medicare--from 
the medicare trust fund to DoD once we maintain our level of--
meet our maintained level of effort.
    If we don't get that authority, we will look to find some 
ways to do it with Monopoly money, so to speak; in other words, 
funding it out of our own authority, but showing the same. But 
it is critically important, as I said, I suppose, about six 
times now, that we actually can carry out that demonstration.
    And I would assume that if we get legislative authority for 
the demonstration, we could have that up and running within a 
few months, 4 or 5 months, after the authority is present.
    I have to stress to you, though, that is not itself a 
solution to the problem. In fact, in some ways the medicare 
demonstration in the short term will exacerbate the problem, 
because we will only be able to enroll a limited number of 
people in a limited number of sites in that demonstration. 
Their enrollment will, in fact, decrease the available--space 
available care for all the other dual beneficiaries in the 
area.
    This is an interim step to prove to the Congress, to 
ourselves, to the Office of Management and Budget, that this is 
a good way to do business and a cost-effective way to do 
business in what we hope will be then a prelude to having the 
authority across the board to serve our dual-eligibles in the 
TRICARE Prime network. So if we get the demonstration 
authority, you are going to hear some more grumbling from 
people who have even greater difficulty in getting into space-
available care in various places around the system. We all have 
to understand that going in.
    Mr. Visclosky. How long do you anticipate the demonstration 
project would last?
    Dr. Joseph. The demonstration, as it has been agreed upon, 
is a 3-year demonstration with an evaluation at the end of each 
year and an ability to make sure that the numbers are right and 
that the money is flowing in the right direction, and I think 
we will expect to see--my own view is we will expect to see 
important demonstration of the concept at the end of that first 
year, but it is a 3-year demonstration. Then what happens as it 
goes and gets to the end of 3 years I think will depend on how 
people feel it works.
    Mr. Visclosky. So the first--assuming you would start 
sometime in the spring of next year----
    Dr. Joseph. In 1998.
    Mr. Visclosky [continuing]. When we get to that first 
benchmark, we would be talking about fiscal year 2000 as far as 
their first real evaluation of the demonstration?
    Dr. Joseph. Well, I would expect and I would hope that if--
say we start in the spring of 1998. I mean, I would hope by the 
fall of 1998 the relevant committees are asking us some 
questions about how we think it is going.
    Mr. Visclosky. So you think that we can----
    Dr. Joseph. And in the spring of 1999, how is it going, and 
what is your data, and what do you think we should do about 
that?

              MEDICAL CREDENTIALS--CERTIFICATION/LICENSING

    Mr. Visclosky. Okay.
    Let me ask you about credentials, if I could. I understand 
that a recent quality management report found that DoD medical 
staff generally have adequate credentials but that there are 
some problems.
    I guess I would have two questions: One, in order to 
protect the best interests of the patients, how do you today 
identify and get rid of poor performers? And, maybe more 
importantly, how do you identify and keep excellent people that 
you really want in the services? Are we doing enough? Is there 
something else we should pay attention to on the positive side 
of that question?
    Dr. Joseph. Let me make some general comments about that 
and then ask the surgeons for some more specifics.
    One, I think there is no question, and I think there is 
hard data to show it in a number of ways, that we have very 
high-quality people within the system, and by most of the 
usual--the usual criteria in terms of passage of board rates, 
the results of the joint commission inspection of our 
facilities, which, in part, reflect the quality of the people 
working, we do very, very well and really better than any other 
system going.
    We participate in the same system of identifying physicians 
and other health care providers who are having problems, or who 
are accused of having problems, as does the civilian community.
    I think it is more difficult--and the surgeons may be able 
to say this more clearly than I can. I think it is much more 
difficult for an impaired or an inadequate physician to stay in 
and probably also to get in to the military than it is for an 
equivalently inadequate physician to stay in practice in the 
local medical society in East Overshoe, Montana. I think that 
is true.

                 RECRUITING/RETAINING QUALITY PERSONNEL

    Now, the second part of your question is the recruitment 
and retention of quality. We have some things working for us 
currently in terms of the dissatisfaction of physicians in 
particular in civilian practice and issues in American health 
care. The economic disincentives are no longer quite as great 
as they used to be. But my experience, in the past few years, 
the people we have--let me speak of the doctors for a moment. 
They come in and stay in for two major reasons. One is a set of 
reasons around commitment and patriotism. That is undoubtedly 
true. It may seem old-fashioned, but it is true of our people. 
The second is they come in and stay in because of the quality 
of the system that they can work within.
    And that is why I was so insistent in my comments about why 
we need to retain the breadth of patient population and the 
quality of the facilities and the medical challenges that our 
people work under.
    If we lose that, if we are probably doing more outsourcing 
than any other part of the Department of Defense in truth, but 
if we put it all downtown and turn this into a system that 
doesn't have that same excitement and opportunity and quality 
in the system itself, we will not recruit and retain the 
quality of people we have, and that ultimately is a readiness 
issue and I think one that is of some serious concern to all of 
us.
    General Blanck. If I could comment briefly on that, I think 
that is an excellent question. Certainly as far as evaluating 
our care providers or anyone in our system, we have not only 
the traditional board certification and licensure and so forth 
of which we track very well, but we also are doing provider 
profiles, looking at outcomes, looking at measures of 
excellence that will allow us to clearly and in a definitive 
way differentiate those who are doing a good and not so good 
job. And then, of course, our efficiency report system, while 
certainly not perfect, is a way that we do evaluate in somewhat 
of a standardized fashion those in our system, and it, believe 
me, is used to separate those who do not meet the mark. And 
there is certainly confidentiality built into it. There is 
protection built into it. But our folks are evaluated, and some 
leave because of that. Keeping the good ones is a little bit 
more difficult.
    I think, as Dr. Joseph said, certainly the commitment and 
patriotism plays an important role, but I think there is 
something else that we offer, and it goes back to the values 
that I spoke of earlier.
    We have a system still, with all of its constraints and 
bureaucracy, in which by and large a care provider, a physician 
or a nurse, can do the best that he or she can do for a 
patient. There are ways to do that without someone else telling 
them they must or must not do something; they must discharge a 
patient in 2 days; they must not admit this patient. They can 
practice quality medicine, and that, in my estimation, is one 
of the major reasons that good people stay in a system that 
sometimes is not user-friendly.
    General Roadman. I would just like to add a couple of 
things, and it is a third to Dr. Joseph's list. The quality of 
the people they work with, that is a critical mass and 
maintains people within the service. But we have got to have 
them practicing their specialties or practicing their craft, 
and that is what we are talking about when we are talking about 
putting people downtown and just regressing to troop clinics. I 
mean, that will not retain people in our service.
    And the last thing that we have found is that if you expose 
our practitioners to operational medicine, in other words, the 
stuff that the uniform stands for, we have a much higher 
retention rate. It is almost counterintuitive to think that if 
you deploy physicians, that they will remain, but they come 
back, in my sense, blued, ready to stay on and really gung ho.
    So there are a lot of things. I don't think there is any 
one thing you can do to maintain them, but it is that retention 
that is important.
    General Blanck. I would comment also that Graduate Medical 
Education or GME and other education programs are absolutely 
critical in our ability to both recruit and retain the highest 
quality of people. That is what keeps them. They like working 
with the young folks and training them.
    General Roadman. I would agree.

              MEDICAL CREDENTIALS--CERTIFICATION/LICENSING

    Mr. Visclosky. I think my time has probably expired, but I 
assume there will be a couple of questions for the record in a 
sense following up on this line of questioning. One would be on 
the number of DoD physicians who are actually board-certified. 
I understand that there is about 50 percent; Navy is about 40 
percent. As far as the national practitioner database, about 84 
percent of the reports on military doctors, which I understand 
percentage-wise, maybe not case-wise, is higher than the 
national average, but again for the record that would be 
helpful.
    Dr. Joseph. I would like to get that on the record now, 
because I think some of those figures are misleading. Number 
one, when you look at our percentage that are board-certified, 
it is not appropriate to count in the denominator those who are 
in training or those younger physicians in their forced 2-year 
service who wouldn't be board-certified. When you remove that 
group from our 13,500 or so, our percentage, I think, is quite 
competitive with the civilian sector.
    And secondly, on the issue of physicians that are reported, 
et cetera, we tend to place more emphasis on the oversight of 
physicians than other health professionals. And, therefore, of 
all our health professionals who are cited in some way on the 
index, we have a higher percentage of them who are physicians, 
but the percentage of our physicians who are thus cited is, I 
believe, lower than the civilian sector.
    Mr. Visclosky. And if you could expand on that for the 
record.
    Dr. Joseph. We will do that in numbers for the record.
    [The information follows:]

    The total number of active duty DoD physicians is about 
13,000. Of these, 8,735 are eligible for board certification 
and 6,557, or about 67% are board certified (excluded from the 
computation are the approximately 3,300 DoD physicians in 
training and ineligible to attain certification). This compares 
favorably to the national average for board certification of 
63%.

    Mr. Visclosky. Thank you very much.
    Thank you, Mr. Chairman.
    Mr. Young. Mr. Dicks.

                       TRICARE REGION--WASHINGTON

    Mr. Dicks. Thank you, Mr. Chairman.
    I regret that I was not here for all of the statements, but 
I want to thank General Blanck for his efforts to help us out 
at Madigan Army Hospital. That has clearly been a long-term 
concern of mine. It has been one of the finest facilities, and 
I might say that TRICARE in our area is, I think, doing quite 
well.
    I think there are always concerns, and especially among 
some of the elder people, about the fact that they thought they 
were always going to be able to go to military hospitals and, 
in some cases, isn't possible. But overall, I think TRICARE, 
after a little bumpy start at the first, has done respectably 
well out there.
    And I think we are saving some money. I mean, the whole 
idea, as I remember, on CHAMPUS reform, the reason we had to do 
it was because the cost of CHAMPUS was substantially higher 
than this other approach. Is that accurate?
    Dr. Joseph. That is one reason, yes.

                           GULF WAR SYNDROME

    Mr. Dicks. I appreciate also that we care about the care, 
which is also important.
    Let me ask a question. I have been worried about this Gulf 
War syndrome. You know, obviously there has been a lot written 
about it, and, we go through these situations where people are 
deployed to various countries and can be exposed to symptoms. 
There are a lot of things that the most well-intentioned doctor 
might not know, and what I am curious to find out is, and I 
appreciate what was said in the statement, our inability to 
resolve uncertainties regarding long-term chronic health 
problems of veterans is due in part to a deficiency of 
objective measures of individual health status at the time of 
deployment and exposure information needed to evaluate 
potential health risks. These observations led to major changes 
involving health screening, exposure assessment, risk 
communication assessment of health outcomes after deployments.
    The thing that I have been concerned about, and I talked to 
a whole series of people who were involved in your health care 
delivery system, and I was, frankly, stunned about the 
suspicion that existed out in the field, with the people who 
were providing the services, that there was a conspiracy of 
some sort to try to keep this thing under control and not 
really go out and vigorously investigate the possibilities of 
various conclusions that various researchers had come to about 
the fact that a lot of these people were coming back with 
symptoms and problems and it was kind of just dismissed at 
higher levels.
    And unfortunately, there was a lot of people who were 
treating these veterans who feel that there--that this, in 
fact, was true and that there wasn't a vigorous effort to 
really do the research, to look at these various problems and 
to come up with answers.
    Now, I do appreciate very much Dr. Berger's help on one 
particular situation, and the fact that we are going to look at 
these various ideas that some of the researchers have come up 
with, but is it a lack of money? Can somebody explain to me why 
there was this seeming hesitance to really vigorously go out 
and look at these various possibilities?
    Dr. Joseph. Well, I think the answer to that, in my mind, 
is very clear, Mr. Dicks. I am not sure who you were talking 
to, but with respect to the----
    Mr. Dicks. I talked to doctors who were treating patients 
at VA hospitals across the country.
    Dr. Joseph. Fine. VA hospitals----
    Mr. Dicks. And they were genuinely concerned that they were 
treating these people that had symptoms, and these things were 
kind of being dismissed as stress or something else, and we 
weren't really willing to look into these things. And there was 
the--you know, in politics a lot of things are perception, and 
the perception was that for some reason, we weren't going to go 
out and really look into these various possibilities.
    Dr. Joseph. Well----
    Mr. Dicks. That is what is disturbing to me----
    Dr. Joseph. Right.
    Mr. Dicks Because that perception out there. And then the 
veterans come in, the people who have these symptoms, have 
these problems, they are kind of given the impression that 
people don't take them seriously.
    Now, I think the tone of this statement is far different 
than the tone that was out there maybe a year or so ago, for 
which I am appreciative, but I would like you to comment on 
this.

        RESPONSE OF DOD HEALTH CARE SYSTEM TO GULF WAR SYNDROME

    Dr. Joseph. Well, I will, and I can't comment on the 
perceptions of VA doctors or whoever, but I can tell you what 
the reality has been in the military medical system.
    We went, beginning in the spring of 1994, from ground zero 
to a very, very aggressive, sophisticated and intensive medical 
evaluation system that within 2 years had exhaustively examined 
and treated something like 28,000 people. That was possible 
because of the seriousness with which not only the surgeons 
general but the military facility commanders and the clinicians 
in those facilities took of this problem. We built that system 
and a comprehensive clinical evaluation program without 
additional resources; not that I am saying it was a matter of 
needing more money. We did it because taking care of those 
people is what we do. That is the job of this system.
    And we put together medical data that really has been 
vetted positively by all the scientific groups that has looked 
at it. Moreover, we put that data out in the public domain, and 
that database of some 25,000 or 28,000 people is available for 
scientists to use to work their own hypotheses and research on. 
And I think through that system we have come to a rather clear, 
and I believe accurate, understanding of what did and did not 
happen medically as a result of the Persian Gulf War.
    There certainly, on the medical side, was no cover up. 
There certainly was nothing less than a full bore effort to, 
one, take care of our people.
    Mr. Dicks. Is there another side?
    Dr. Joseph. Well, I can't speak for any other side. I mean, 
I will speak for whatever I can speak about, and I can tell you 
what I know about and what these other people and I did about 
the problem.
    It was a full bore effort. I don't believe there has ever 
been a comparable effort of medical investigation facing an 
unknown problem in the military or any civilian incident that I 
know of, for example. So I think we have nothing to--nothing at 
all to feel hesitant about or apologetic about.
    I think on the research side, the avenues that were pursued 
were those avenues that were and continue to either make clear 
sense from the clinical information or to be significant 
unknowns about which more is necessary to know. And, you know, 
if you look at it in dollar terms, $27 million this year, and I 
think it was $12 million last year, that is a pretty healthy 
effort and will yield significant results, I believe, in the 
long run.
    So I think the other side of it, Mr. Dicks, and how to say 
this without appearing to be--I don't mean to be 
confrontational about it, not at all, but people can conjure up 
in their own minds anything that they want to conjure up. And 
they can say, well, I think this has got to be this over here. 
That then puts on this system the obligation to say, no, it 
can't be this over there. And you can never really get ahead of 
that game, especially in the kind of circumstance where there 
is an issue about credibility. Oh, it must have been the 
military, so they must have done a bad thing, and et cetera, et 
cetera.
    It is hard in the short run to get ahead of that and to 
prove that everybody's idea of whether it must have been this 
germ or this--or this exposure or that is not so.
    In the long run I feel pretty confident about how it is 
going to come out.

                 EXPOSURE TO CHEMICALS DURING GULF WAR

    Mr. Dicks. One of the problems, of course, is when we found 
out that we may have destroyed these chemical weapons and that 
that was not part of the database----
    Dr. Joseph. Sure.
    Mr. Dicks And people were saying, we don't need to worry 
about that because nobody was exposed.
    Now, I am also told, by the way, that we are very, very 
weak on sensors for both chemical and biological weapons, and 
that we--what was deployed to the Gulf, it was probably 
stronger in the chemical arena but on biological, we are very 
ineffectual.
    Dr. Joseph. Let me----
    Mr. Dicks. Is that an ongoing problem, being able to even 
ascertain what people were exposed to?
    Dr. Joseph. Let me respond to both of your points. Your 
first point, to the contrary, it was very much a part of the 
database. In fact, in the clinical evaluation program, set up 
before we had any sense at all of this Khamisiyah incident, we 
have a very robust clinical and laboratory investigation into 
signs and symptoms and abnormalities that might be a reflection 
of chemical exposure, so much so that after we learned about 
Khamisiyah and went back, went back to the Institute of 
Medicine group that had been looking over our shoulder that we 
asked to do this, went back to other scientific groups and say 
now that we know that there may have been an exposure, is there 
something different we should have done, an additional test, an 
additional physical examination, what, nobody has come up with 
anything to date that we should have done differently, even 
before we knew there was any probability of exposure.
    Now, that is on the first point.
    On your second point, I do have to agree with you, and I 
almost jumped in on this in the comments, I think, in the 
exchange that was going on with Mr. Murtha about chemical and 
biological warfare.
    I think even beyond the issue of preparedness and whether 
we have the right units and the right training and the rest, 
there is a basic gap in our scientific ability to a--
particularly on the biological side, less so on the chemical 
side. We do not yet have the science that can be applied to 
give us reliable, rapid, stand-off detection against a whole 
host of unknown and maybe un--truly unknown agents, and that is 
a big problem. And no matter how well trained and equipped the 
units are, we still have a significant science gap, and it is 
particularly so on the biological side, less so on the chemical 
side.

            ANTICIPATION OF MEDICAL PROBLEMS DURING WARTIME

    Mr. Dicks. Final point. One thing that worried me was that 
ever since people have been going to war, when they go to 
different parts of the world, they can encounter things just in 
the plain background that can cause problems.
    Dr. Joseph. Sure.
    Mr. Dicks. And I think somebody was mentioning problems in 
Haiti, for example.
    Dr. Joseph. Yes.
    Mr. Dicks. And then during World War II you had various 
problems when people were deployed to the Pacific. So what do 
we do to try to anticipate those things? Or is there anything 
you can do?
    General Blanck. We have an extensive disease and 
environmental surveillance system in place so that we know what 
we are going to face before we ever go into a given area, 
Bosnia, for example, and once we go in we verify and validate 
what is there, both environmentally, soil samples, air samples, 
on and on, looking at the endemic and epidemic diseases in the 
area, finding out if they are drug resistant and so forth.
    So we have that data, and believe me, we have learned a 
great deal from Operations Desert Shield/Storm in, for example, 
in Bosnia, but other places as well, Haiti and so forth. This 
system is serving us very well and we are doing screenings of 
the soldiers and others who go in before and after they deploy, 
again to have a baseline of data as well as know what we are 
facing.
    The two diseases, by the way, in Bosnia that we really 
feared some problems with were Crimean Hemorrhagic Fever, a 
Hanta Virus, and you remember there was an epidemic, I believe, 
recently here in the states on that, and the tick-borne 
encephalitis. We actually have a vaccine for one of those 
recently approved but, in fact, through good preventive 
medicine measures, knowing that these were there, we have only 
had one case of the Hanta virus and I think two of the tick-
borne disease.
    Mr. Dicks. My time has expired.
    If you had good research projects and it cost more than $27 
million, I think we would like to know about it.
    Mr. Young. Mr. Cunningham.

                PROFESSIONALISM OF DOD MEDICAL PERSONNEL

    Mr. Cunningham. Thank you, Mr. Chairman.
    Master Chief Petty Officer, don't be afraid to speak up, 
because I know who really runs the show over there.
    I would like to state that as a sailor that was medically 
evacuated from Vietnam that had a bullet taken out of my 
starboard leg--and I would say for General Roadman, that is the 
right leg, sir.
    General Roadman. I am a sailor in civil life, so I know 
that.
    Mr. Cunningham. And so I was medically evacuated out of the 
Indian Ocean. I have gone through a 7-hour operation for a 
thyroid I had taken out last year at Bethesda, so I am very, 
very appreciative of DoD medicine.
    Some of the things that you could do for me is never, ever 
take away the nurses from any service. And when I was medically 
evacuated, it was Air Force and Army nurses, and the Navy, and 
the system that took care of me all the way from the 
Philippines on back.
    And secondly, the flight surgeons that are attached 
directly to the units, it is the closest thing we have in the 
military to a private physician. And I never, in the years that 
I was in the service, knew a bad or unprofessional flight 
surgeon, and I would speak very highly for those programs.

                           CHILD ABUSE ISSUES

    I have got a couple of issues that I think are very 
important. One of the areas in which the military is always 
hesitant to talk about is a problem with abused children within 
DoD. I believe it exists, primarily from the young sailors and 
airmen and personnel that we send abroad, quite often with long 
family separation. And I think there is a problem.
    We have a program at the San Diego Children's Hospital that 
is ongoing. It is in its third year, and I would hope you would 
continue, Mr. Secretary, the support of that, because it is 
very strong on the prevention of those kinds of things that 
happen in the military. And I have family after family tell me 
how much they support this program. And if you go down the 
storefront and places like that that deal with these things, 
and Catholic charities, I think you will find a very, very 
positive effect from it.

                           CHIROPRACTIC CARE

    I would also like to speak out on a couple other areas that 
are a little controversial within the field. I also injured my 
back when I ejected over Vietnam, and I did not believe in 
chiropractors at that time, but since then I have gotten to 
recognize the importance of their profession, and it has helped 
me immensely over the years. And I know sometimes medical 
doctors look differently at that, but for me personally, it has 
been very, very effective.
    The second thing that has been very effective, not for me 
personally, but with the diversity that we are going through in 
the medical fields with personnel and everything else, is the 
psychologists. They are often the first ones, I think, cut out. 
I know you look at the needs, but we have got an increasingly 
diverse military, and I think they are also very important. 
Now, the area where they prescribe drugs and things, you are 
going to have to work that out. I think, in some cases, I would 
like to see that supported.

                       TECHNOLOGY TO PROVIDE CARE

    Another area that we--and this fortunately is right in the 
heart of my district with SAIC, Science Applications, when you 
talk about telemedicine, I understand the importance because I 
have seen it firsthand, but how many of you have ever dealt 
with lost records of a service member of your own? And I have 
lost mine a couple of times.
    I am sure everybody in here deals with it. Or even the 
files that go to Balboa Naval Hospital, or go to other 
hospitals, and you see these files; the new little card we 
have, that you can put it in your wallet when you go to one 
place or another, that you are protected. And you can be on a 
ship--and not all of our ships are even remote.
    You said you were up in the jungles, General, in Vietnam, 
and if you have a card like that, that gives a complete medical 
history on it on someone that is in the field, imagine how 
valuable that is, all of those things are very positive. And I 
think you will find--I hope the other Members on the Committee 
will see the value in these kinds of things for--which directly 
affects readiness. And it is very, very important as well.

                     IMPACT OF HIV-POSITIVE RESULTS

    I would ask--when I was in a squadron, I could not talk, as 
a commanding officer, to anyone but my XO and my flight surgeon 
about anyone in a shore-based station that was HIV positive. I 
felt that I was restricted from protecting my troops by not 
being able to divulge that information. And I understand the 
political ramifications of it. But I did some things actually I 
thought were probably pushing the line, where I didn't let them 
play in contact sports, I didn't let them deploy on deployments 
with me on a shore-based squadron, primarily because I was 
afraid of protecting my troops and knowing that fraternization 
does exist, and those kinds of things, and without that, I 
would hope for the record, you could let me know what we are 
doing in those fields today in the saving of time.
    Also, for the record, have you noticed any increase in your 
budget requirements because of HIV positive in your hospitals? 
It is not just in the civilian population, you know. It is all 
over. But it is going to be an increasingly difficult problem.

                           GULF WAR SYNDROME

    And I would like to echo some of Mr. Dicks' concerns. I 
have a perception, it may not be reality, even after the 
studies have been done, that we do have a problem with Gulf 
Syndrome and those things that did affect some people. I don't 
know what we can do about it, through increasing some of the 
database or sensors or whatever it is, but I think many Members 
on this Committee feel that there is a problem. And I am not 
saying that you haven't done your job. But I am saying at least 
a perception, I have got a gut reaction, that there is some 
problem out there and that we have a responsibility to take 
care of it on the issue.

                              DRUG TESTING

    And I think with that, I am very happy. I would like also 
to ask one last question. The drug testing that we did in the 
military was one of the most effective things at a squadron 
level that we could do. It got rid of indebtedness, to 
tardiness, to fights, to everything else. And I would think a 
continuation of that program within DoD would actually lessen 
the requirements that you have in your medical hospitals and 
give us more programs that we need.

                          MEDICARE SUBVENTION

    And I would also like to ask you to support the medical 
subvention for our Veterans Hospitals in Missouri. I talked to 
an Air Force retired general that said, Duke, I thought I had 
it tough in the Air Force--and he loses about 10 veterans a 
month--and he said that subvention, which allows the military 
to use Medicare, saves money, and it has been able to help a 
lot of those veterans.

                           CHILD ABUSE ISSUES

    Dr. Joseph. Let me make a few comments in response to that 
list, Mr. Cunningham, and then we would like to submit, I 
think, more detail for the record.
    First of all, on your comments about child abuse, clearly 
Secretary Perry made the quality-of-life, family welfare issues 
front and center for the Department, and clearly you and I 
would agree that is exactly the right thing to do.
    I think from the medical perspective, if there was one most 
important thing we could do in that area----
    Mr. Cunningham. I am going to have to go vote.
    Dr. Joseph. All right. Well, let me make it very quickly 
now.
    The one most important thing in that area we can do is 
really get busy on the alcohol abuse prevention front.
    Mr. Cunningham. Yes, sir.
    Dr. Joseph. More than any single thing in terms of quality 
of life, of the families, prevention of child abuse, spousal 
abuse and other health care costs, that would make an enormous 
difference.
    Mr. Cunningham. I think dealing with that in the facilities 
is very important, for an alternative on base.
    Dr. Joseph. The rest of your questions, if I may, I will 
submit back for the record.
    Mr. Cunningham. I am sorry I have to go run and vote, but 
that is what they pay us to do.
    Mr. Hobson. Mr. Visclosky, you had some questions?

              IMPACT OF DENTAL PROBLEMS ON TROOP READINESS

    Mr. Visclosky. Thank you, Mr. Chairman.
    Just a question, dental readiness, I understand that there 
is about 13, 14 percent of Army/Navy personnel that are not 
ready to deploy because of oral health problems. Could you 
describe the problem and what the Department is doing?
    Dr. Joseph. The problem is this question of the readiness 
in a dental perspective. That, I believe, is the single largest 
item preventing deployment is dental readiness. The services 
and the dental chiefs in each of the services have recognized 
this.
    We have a $25 million plus-up in the budget to push harder 
on dental readiness. It is a problem. Frankly, part of the 
problem is the line on this one, and the issue of whether the 
line commander sees this in as much a sense of readiness 
urgency as the medical community does. But we are working that. 
I think we will see that get a lot better.
    Mr. Visclosky. But the line doesn't see it as a problem?
    Dr. Joseph. I think part of the problem is there is 
resistance sometimes on the part of the line to the importance 
of the dental-readiness issue.
    General Blanck. It has to do--if you look at that 13 or 14 
percent, about half of it is really work that needs to be done. 
That means someone has to take time off from training, and so 
forth. That needs to be supported through the command chain, 
and pretty much they are supportive, but it is an issue.
    Half of it is that we don't have their records. It goes 
back to what has been spoken of before, and so that if they are 
ready for deployment, what happens is they get a quick screen 
and, in fact, they all of a sudden are deployable. But we need 
to have those records available to us so that we can accurately 
determine who is ready and who really needs that work and then 
focus clearly on those who need the work.
    Mr. Visclosky. So to some extent, this is a technical 
problem?
    General Blanck. Some of it is a technical problem. Yes, 
some of it is really focusing on it.
    Admiral Fisher. Some of it is effectively utilizing time.
    In my statement, I talked about dental care on the firing 
line. We have literally taken health care to the deckplates. 
When a Marine company is undergoing weapons training, there is 
actual firing time and there is waiting time. Therefore, we 
have taken our dental personnel to the firing line to provide 
dental care to the marines while they are waiting to fire. This 
not only improves the dental readiness of the unit, but 
provides dental personnel with the necessary skills to work 
with the field dental equipment.
    General Blanck. We have dental vans, by the way, that 
overseas, go to remote locations, including to Moscow, and will 
provide dental care right there in the van, two chairs, X-rays, 
the whole nine yards.
    Mr. Visclosky. The issue of readiness then is more the 
treatment that needs to be performed on the individual 
personnel as opposed to that soldier could not go out there 
tomorrow and be deployed because of a serious dental problem?
    General Roadman. Just to describe it, we all have 
categories. One category predicts this person will have no 
dental problems within a year. This person has dental problems 
but will not have a problem--a reason to not be able to do 
their duty within a year. You get down into a lower category 
that says, we don't know.
    Mr. Visclosky. Yes.
    General Roadman. So they become nondeployable. But I was 
the surgeon in Europe during Desert Shield and Storm, and we 
had a significant problem of people coming through and they are 
primarily Guard and Reserve.
    General Blanck. Right.
    General Roadman. Where we did not see them often except 
when they had their Unit Training Assembly (UTA), and when they 
were doing their training they were not being looked at 
dentally. So there is a problem that we need to fix.
    Mr. Visclosky. On a given day, what percentage of our 
personnel would not be ready to be deployed because of health 
problems?
    General Roadman. Health----
    Mr. Visclosky. Can you give me a ballpark figure?
    General Roadman. We can find that out for you, submit it 
for the record.
    Mr. Visclosky. If you could submit that for the record.
    Thank you, Mr. Chairman.
    Mr. Young Mr. Hobson.

                IMPACT OF ALCOHOLISM ON TROOP READINESS

    Mr. Hobson. A couple of questions, Mr. Chairman.
    I did not hear all of Duke's comments about alcoholism, but 
I can tell you that when I deployed as an enlisted man, the 
first thing everybody looked around for, years ago, was the 
Class 6 store, where you can buy booze a heck of a lot cheaper. 
Heineken's, in those days, were 15 cents. And, you know, that 
wasn't very conducive to controlling substance abuse in those 
days. I don't know how it has changed, but I think at Wright-
Patterson they still have those stores. But that isn't my 
question, but it is something we probably ought to look at.

                        HOSPITAL PHARMACY POLICY

    I have an article here written by one of the newspapers in 
my district talking about Elgin Air Force Base, Florida 
Military Hospital Pharmacy which keeps a list of medications 
deemed too expensive to give to retirees. It is my 
understanding that all hospital commanders have authority to 
restrict certain medications by beneficiary class, and I would 
like to know if that is the case and how can we discriminate 
against our retirees? I have letters I have to answer on that 
subject.
    Dr. Joseph. Let me start with a general answer to that, and 
then I think General Roadman will probably want to talk--
probably will speak specifically about this incident.
    We are in the business of trying to balance economic 
feasibility against the best patient care we can provide. That 
is always a balance. And it is important for us in the pharmacy 
area, which is one of the most expensive and probably the most 
rapidly growing expense in the--in our health-care delivery 
activities, it is appropriate for us to provide medications 
most economically consistent with the best medications that 
patients need. And so going to generic formularies and going to 
restricted formularies that don't provide things that are not 
needed is good medicine and good business sense for us in the 
system.
    We should not be using that appropriate requirement to 
discriminate among classes of patients or to deny patients 
medications that they need and that are appropriate for them. 
And where and when that happens, we will not do that. We will 
change that. But that is--the reason I went into the long 
preamble is that is not to say that in a managed-care system 
anybody can have or should be able to have any individual brand 
name medication that any physician thinks they should have. So 
it is balancing those two things. But there should be no 
discrimination by beneficiary category within that.
    General Roadman. With that story, I think we didn't do that 
well. I mean, I think that is not our policy. And I have once 
again reiterated that policy throughout our system.
    I think oftimes, as we go to generic drugs, that gets 
confused, and a generic question gets specified on to a single 
drug. Now, I understand that this was a specific person who was 
told we don't give that to retirees. That is not an acceptable 
policy. We didn't do that well.
    Mr. Hobson. I think you all understand the sensitivity with 
retirees for medical care. People were told certain things. 
People hear what they want to hear.
    Dr. Joseph. Sure.
    Mr. Hobson. And they go through a long period of time of 
reinforcement in that and then suddenly things change and it is 
a sense of a lot of trauma among these people, and I think you 
need to be sensitive, and apparently you are, to the situation.
    Dr. Joseph. Mr. Hobson, I just issued a memo throughout the 
system reminding everybody of what the policy is, and the 
importance of nondiscrimination in this sense. I would be happy 
to furnish you a copy of that, if that might help you in 
answering your letters.
    [The information follows:]

    The attached memorandum, ``Current Policy for Dispensing 
Prescriptions in Military Pharmacies'' is submitted for the 
Record.

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                           SMOKING CESSATION

    Mr. Hobson. With the Wright-Patterson Air Force Base 
Hospital, which I have toured a number of times, we get a lot 
of retiree letters on this sort of thing and a lot of people 
come into the office.
    I would like to ask one other question, if I might, Mr. 
Chairman. My understanding is that decreasing smoking by 
soldiers, sailors, airmen and marines is one of your major 
health objectives.
    I assume you have set these goals, and I would like to 
know--I wasn't here for the other stuff--if they have been met. 
If this is repetitive, you can give it to me later again. But 
if you haven't, I would like to discuss if the goals are being 
met. Do you have a proactive smoking cessation behavorial 
modification program. Does or should DoD provide funding to 
make behavior modification counseling and nicotine replacement 
a covered benefit?
    Dr. Joseph. There is----
    Mr. Hobson. Again, cigarettes used to be----
    Dr. Joseph. Sure, smoke them if you have got them.
    Mr. Hobson. Yes. The worst thing that ever happened to me 
in the service--I didn't smoke--was going around and picking up 
cigarette butts. If I smoked it would have been different, but 
I didn't like picking those things up if I didn't smoke.
    Dr. Joseph. Well, there has been a tremendous change over 
really the last decade in the seriousness with which the 
medical community, the line leadership and the troopers 
themselves view the issue of smoking and health. So if you are 
to go and look into our system now, whether it is on the 
smoking cessation side, whether it is on the awareness on the 
medical side or it is the base commander's view of this, you 
would find it very, very different than it was before.
    Are we there yet? No. The percentage of people in the 
military who smoke is still higher than a comparable percentage 
in civilian life.
    Is there more to do? Yes.
    I was thinking, as you were making your comment about the 
purchase of alcoholic beverages subsidized, we collectively, 
DoD, are in some trouble these days with another committee of 
your colleagues because of steps we have taken to reduce the 
economic incentive to purchase tobacco in our system. And so, 
you know, it kind of cuts--it cuts both ways. We have----
    Mr. Hobson. May I ask you where your district is?
    Dr. Joseph. Does it create a problem? Well, of course, of 
course it does. But there is some way to go.
    Last--a couple of weeks ago there was a wonderful article 
in the Washington Post, a front page article, about two 
terrific Army officers, both of whom happen to be female, in 
Bosnia, if you remember that article, and it showed the two of 
them walking down the hallway with cigars in their hands.
    Well, you know, we are not quite there yet. But we are a 
lot further along both on smoking tobacco and on smokeless 
tobacco than we were.
    In terms of the question of coverage under CHAMPUS for 
smoking cessation, I have got to get smart on that and get you 
an answer.
    The surgeons may want to talk specifically about some of 
the tobacco prevention programs in the individual services.
    [The information follows:]

    We strongly support educating our beneficiaries on health-
related matters such as the risks associated with smoking and 
the long term benefits of quitting smoking, and consistent with 
good medical practice, we reimburse health care professionals 
who provide this information and education for their patients.
    The TRICARE/CHAMPUS program is not structured to separately 
cost share for education or behavior modification programs; 
rather, we encourage and support the comprehensive clinical 
practice in which every patient encounter is used as an 
opportunity to provide patient education. The TRICARE program 
was designed so that under TRICARE Prime, the HMO option, a 
beneficiary has a primary care manager (PCM) who is responsible 
for providing or arranging for an enrollee's health care. We 
believe beneficiaries who have unhealthy behaviors that put 
them at greater risk for health related conditions, are best 
served when they develop a long-term relationship with a PCM 
who uses each patient encounter as an opportunity to assess the 
patient condition and provides recurring patient education and 
counseling on health related behaviors. Office visit codes, 
developed by the American Medical Association and used to 
reimburse civilian providers, all include an evaluation and 
management component designed, in part, to reflect the amount 
of time the provider spent individually counseling the patient 
consistent with the nature of the problem. While we do not 
share in the costs of health classes or educational programs, 
we do expect the health care providers who care for our 
beneficiaries to provide information, assistance, and advice on 
all health related behaviors such as smoking.
    Nicotine replacement therapy can be an effective tool to 
assist beneficiaries when they stop smoking and many forms of 
nicotine replacement therapy are available over-the-counter. 
The Food and Drug Administration approved both nicotine gum and 
transdermal nicotine (the nicotine patch) for over-the-counter 
use without a doctor's prescription. Drugs available over-the-
counter are not cost-shared by TRICARE.

             LIMITING ACCESS TO ALCOHOL IN CERTAIN THEATERS

    General Blanck. Yes, if I can make two quick comments 
because I know the hour is getting late. One, both in the 
Persian Gulf conflict, Desert Shield/Storm, we had as policy no 
alcohol in theater. The same is true for subsequent deployments 
in Haiti and in Somalia, in Bosnia. And I am absolutely 
convinced, and have so stated multiple times, that one of the 
reasons we have had such a low disease, nonbattle injury rate 
is because of the absence of alcohol; absolutely no question 
about it. Because without it, much as everybody gripes about 
it, they don't engage in behaviors, whatever it might be, that 
leads to illness and injury, from driving to eating, to 
whatever. So that is something that I think will continue.

                       SMOKELESS TOBACCO PRODUCTS

    The second point is I certainly support everything that you 
have said on the tobacco programs. We have extensive programs. 
We still have too many people that smoke. It is kind of a--I 
think at least in the Army, it is the thing that you do almost. 
But we have made it so difficult that what is happening, more 
and more of our folks are switching to the smokeless tobacco 
and that is of a great worry, because the sales of chewing 
snuff and such are just skyrocketing as we make it difficult 
for them to smoke.

                           SMOKING CESSATION

    Mr. Hobson. The thing I am concerned about is the covered 
benefit on the modification program. I would like you to look 
at that. You may not have an answer today.
    Dr. Joseph. We are not sure of the answer. Dr. Martin 
didn't know the answer. If he doesn't know the answer, none of 
us know the answer, so we will have to get back to you 
specifically on it.
    [The information follows:]

    Our goals are directly in line with the nation's Healthy 
People 2000 goals. Each military service further delineates 
these goals and monitors progress. Smoking cessation programs 
are extremely proactive and are part of every TRICARE Region's 
health promotion and prevention programs.
    DoD, in fact, does provide for this in the direct medical 
care system at some military treatment facilities; however, 
Nicotine Replacement Therapy is not on the Triservice 
formulary. Tobacco cessation programs are an expected component 
of good clinical practice and are not separately billed by 
CHAMPUS.

    Mr. Hobson. Okay.
    General Roadman. One of the issues with smoking cessation 
is the type of information that we have, or the type of data we 
have is really not good information on who actively smokes and 
who wants to. We have got a health risk assessment that is 
associated with TRICARE enrollment, that talks about behavioral 
issues not in a mortality-based, but in a morbidity-based 
environment, and so what we are looking at, one question that 
is critical is how many of you smoke? Followed on by, how many 
of you want to quit?
    Because as we can focus in, and instead of smoking 
cessation to the world, go after the ones that actually are 
going to give us a return in their health by quitting, that 
information will help us.
    We recently did a study, using DoD data, my public health 
officer and epidemiologist, reported $1.3 billion within DoD 
are spent on health-related illness per year.
    Dr. Joseph. Smoking-related illness.
    General Roadman. Excuse me. Smoking-related, per year.
    Now, as we talked about Defense Commissary Agency DECA and 
the change of the prices, there has been a 20 percent decrease 
in sales since the change----
    Mr. Hobson. Since the change?
    General Roadman In price, comparing this January to last 
year. So there is that elasticity that I think we are seeing 
that will help.
    Mr. Hobson. You haven't done that with alcohol, have you?
    Dr. Joseph. No.

                     IMPACT OF SUBSIDIZING ALCOHOL

    Mr. Hobson. Is there resistance to do--or is your 
experience such with tobacco that you don't want to take that 
on?
    Dr. Joseph. No, I wouldn't think that last statement is so. 
I think there is a clear recognition in the Department that 
that was the right thing to do and is going to be very 
successful.
    I think the alcohol problem is a more difficult problem, 
because of this issue: Many people or most people believe that 
there is a gradient of not only socially acceptable but perhaps 
even beneficial use of alcohol, before you get to the point 
where it is--where it is counterproductive.
    Most people believe, and I think there is a lot of data 
support, that there is no gradient of socially useful and 
productive use of tobacco. And when you take on not only the 
economic interests but the cultural interests of the socially 
acceptable use of alcohol, it makes it much more complicated.
    I think, though, again, there is a trend and an important 
difference in the social tolerance for alcohol use in the 
military than the individual services, but there is an awful 
long way to go there.
    Mr. Hobson. Well, I will make this last comment, I guess. I 
would certainly be one of the last people to deny a buddy a 
beer. However, I am not sure that hard liquor ought to be 
subsidized, which thereby encourages that. It gets beyond what 
it takes long-term.
    We are just promoting people excessively using alcohol, and 
I don't think most of your alcoholics come from people who 
drink beer, from my experience. Most of the people are on hard 
alcohol, mainly vodka and other types of substance like that. 
And I am not sure that that is a good long-term proposal, that 
we should continue to encourage that within the services. But I 
will not debate that here.
    Mr. Cunningham. Will the gentlemen yield for a quick 
second?
    Mr. Hobson. Yes.
    Mr. Cunningham. I would ask you to make one exception, 
Admiral, on a carrier. Most of us would rather fly over 
downtown Baghdad than come aboard that boat at night. There are 
two things that we always got, a double-cheese, double-fry 
burger, and the flight surgeon prescribed a little shot for us 
after we did that. Please don't do away with that program.
    Dr. Joseph. You see my point, Mr. Hobson. No, I didn't mean 
that----
    Mr. Hobson. I don't think that excepts it. If you want to 
do that, don't subsidize it. I don't care if people drink or 
smoke, just don't ask me to pay for their health care.
    Dr. Joseph. As I said, I am not sure whether you were here 
in my comment to Mr. Cunningham, that an aggressive and 
effective program that would combat the medical effects of 
alcohol abuse in individuals and in families probably would do 
more to avoid illness and injury in the system than any other 
single thing we could do. Don't get any of us wrong on that.
    The difficulty is how do you do that?
    Mr. Hobson. I understand. But I am not asking you to take 
it away. I am just saying that when I was overseas, it was so 
cheap that, you know, it was almost encouraged because it was 
so cheap. And I am not going to take anybody's occasional 
alcohol away from them, but I don't think that is particularly 
how it should be used. But I don't think it should be done in 
such a way that we are encouraging people who have real 
problems with substance and they can't control it--I mean, the 
same way with tobacco, it is very difficult to control getting 
off of tobacco. And my wife has been through it a couple of 
times, and she is not--about 8 years that she hasn't had a 
cigarette, and she tells me there is a lot--about every day you 
think about it, and so it is a difficult situation.
    Mr. Young. Mr. Murtha.

                     MEDICAL EVACUATION HELICOPTERS

    Mr. Murtha. A couple of things I would like you to answer 
for the record and then I want to talk about Bethesda.
    Do we have a problem with medical evacuation helicopters? 
If you would just put the answer in the record.
    [The information follows:]

    There are problems matching Army medical evacuation 
helicopter capabilities to the projected requirements for 
support in future conflicts. Aeromedical evaluation helicopters 
in today's fleet are not capable of performing the mission 
across the operational spectrum to include combat search and 
rescue, and shore to ship MEDEVAC. In order to support the 
Armed Forces, these aircraft must be capable of operating in 
all environmental conditions, especially during periods of low 
visibility. Furthermore, the demands of supporting combat 
operations now and in the future must include the ability to 
communicate with a variety of combat and support units 
operating in joint operational environments and afford the crew 
situational awareness to enable them to successfully complete 
their mission. Finally, to improve the capability to clear the 
battlefield effectively, the Army needs to enhance its onboard 
casualty treatment, avionics, and crew survivability 
capabilities. The Army's platform of choice is the UH-60Q which 
is not funded to levels which would completely modernize the 
fleet during the Fiscal Year 1999-2003 Program. Without this 
enhanced MEDEVAC helicopter, the ability to clear the 
battlefield, provide quality enroute, life saving care and 
offer an acceptable level of survivability to the crew and 
patients is problematic at best.

                        BETHESDA NAVAL HOSPITAL

    Mr. Murtha. And the other, somebody mentioned earlier 
Reserve call-up, you were having trouble getting doctors, and I 
wonder if that comes from the call-up in the Gulf where I know 
I got a lot of complaints that they weren't doing enough 
business during the call-up, but if you would just quantify 
what you are talking about there.
    The other thing is back to Bethesda. Now, I remember going 
out and visiting Admiral Kelso, he was the Chief of Naval 
Operations. He was in the most dismal, dark, miserable room I 
have ever visited when visiting a patient. It was absolutely 
dark in there, and he had nothing wrong with him that called 
for him being in a dark room. I mean, it was miserable. And 
maybe he got good medical care, but it used to be, I heard, 
that Bethesda may have lousy rooms but they give good medical 
care.
    This past summer we had a bad experience from one of the 
most prominent Members of Congress, who went out there to 
Bethesda, and his life was actually threatened by the care that 
he got. And if it hadn't been for his wife, he would have died. 
I mean, I am convinced of that, in listening to the story.
    The room, again, when I went out there, was again the most 
miserable, dark room I have ever seen. Now, I can't judge the 
medical care, but the wife was a nurse and she certainly felt 
that the care was inadequate. And from the story she told, it 
indicated it was absolutely inadequate.
    I went back after not long ago and there had been some 
improvement as far as the rooms, but let me tell you how they 
did the improvement. The nurses took up a collection to buy 
curtains to fix the place up. The hospital did pay for the 
painting of the rooms, and they were a lot brighter. And I will 
tell you, I mean, as a layman, I could see a substantial 
difference. But that is why I am so concerned about cutting 
nurses at Walter Reed and cutting care. We have cut the care to 
the bone at Bethesda, and I wonder if we really are getting 
good care.
    Now, a lot of people commented, but this--these two 
experiences show me we really have some problems out there, and 
I would hope that this thing will be turned around. And I would 
not think that the nurses have to take up a collection in order 
to improve the appearance of the inside of the hospital.
    Admiral Fisher. Yes, sir. I was not aware the nurses had 
initiated a collection.
    Mr. Murtha. Well, I sent a letter to the Secretary of the 
Navy and told him--I complimented them for what they had done, 
but, I mean, it just didn't seem right that that is the way it 
ought to be done.
    Admiral Fisher. No, I agree.
    Mr. Murtha. Also, one of the doctors had to go to Health 
and Human Services--HHS and buy or get an excess computer from 
them because he didn't have a computer. I mean, you know,--
something is going on out there that is not--not the way it 
should be. I mean, there is a layman speaking with all--you 
know, I have visited a lot of hospitals, talked to a lot of 
people. They are very frank about what is going on, and I think 
we have got a problem out there at Bethesda.
    Admiral Fisher. Certainly some of the incidents have 
highlighted the need for improvements at the National Naval 
Medical Center, Bethesda the Surgeon General has started 
Bethesda and Navy Medicine on the path to re-engineering 
business practices to focus on customer service.
    We have also made some improvements to the hospital 
facility. We know we have a long way to go in the area of 
facility maintenance. In fact, last week I had a conversation 
with the Vice Chief of Naval Operations on that subject, and we 
are looking to continued improvements at Bethesda.

                MEDICAL CARE IN NATIONAL CAPITAL REGION

    General Blanck. If I may comment also, Mr. Murtha, because 
it gets at our previous discussion and what you have just said 
at Walter Reed. I personally am very fond of Bethesda. I used 
to work there. When I was the dean of students at the military 
medical school at the Uniformed Services University of the 
Health Sciences, USUHS, I did my attending at Bethesda and have 
high regard--had high regard then and continue to have high 
regard for their capabilities and skills.
    What has been described of resource constraints in various 
places, not only Bethesda and Walter Reed but throughout, has 
to do with all the more reason that we must work together, 
combine resources, leverage each other's strengths, so that we 
overcome any local weaknesses. And I think the collaborative 
efforts between Bethesda, Walter Reed and Malcolm Grow, the Air 
Force hospital here, as well as Fort Belvoir, Fort Meade, and 
so forth, are going in that direction.
    We are doing things more on a functional basis. All of 
Obstetrics between Reed and Bethesda is done at Bethesda. And 
the chief there, the training director, is an Army colonel. 
GYN/Oncology is all done at Walter Reed, and Pediatric/
Intensive Care is all at Walter Reed, and so forth and so on. 
There is a way to go in all of that, and I think what you are 
hearing us say we take very seriously some of the issues raised 
and are working together to solve them.
    Mr. Murtha. Well, I appreciate that, because I have--also a 
friend of mine had retired from the Air Force and went out to 
the Andrews facility and his wife had some tests, and it was a 
month or so and he hadn't heard anything. And he called out 
there and still hadn't got the results, and I never did hear 
any more. I just happened to be talking to him, and I don't 
know what happened.
    So I just think in this area where we have got two flagship 
hospitals, 160,000 military people, we ought to have the 
absolute best service that we could have. It just doesn't sound 
like we are in that direction. But I can see improvement at 
Bethesda. But, you know, I think it really does take some 
attention, and I call your attention to rooms because that is 
part of it, but there is something wrong with the kind of care 
that went on out there.
    Admiral Fisher. Yes, sir.

                         HOSPITAL ACCREDITATION

    Mr. Hobson. Can I ask one question following up on that?
    Mr. Young. You can. You can have a quick question. We are 
just about out of time.
    Mr. Hobson. Do you go through the accreditation like other 
hospitals do?
    General Blanck. Yes, all of us do.
    Dr. Joseph. All military hospitals do.
    Mr. Hobson. Through the same thing that a private hospital 
does?
    Dr. Joseph. JCA, sir.
    General Blanck. Joint Commission on Accreditation of Health 
Care Organizations, and consistently rank higher than do the 
hospitals in the civilian community.
    Dr. Joseph. And have more hospitals that achieve 
accreditation with commendation than any other system in the 
country, public or private.
    Now, that is not an excuse or a denial of what has been 
said, but across the board this is an extraordinarily fine 
system.
    Mr. Hobson. I think we are all aware of the situation that 
happened there.
    Mr. Young. Mr. Cunningham has another quick question for 
you.

                     MEDICAL REQUIREMENTS OF WOMEN

    Mr. Cunningham. Master Chief, you can take the first shot 
and pass it to the Secretary, if you like. With the increased 
numbers of women in our military, are our medical requirements 
specific, like mammograms, are those needs being met in our 
hospital--military hospitals?
    Or if not, Mr. Secretary, would you provide for the record 
things that this Committee could do to help enhance those 
efforts?
    [The information follows:]

    In 1993 a policy memorandum was issued addressing annual 
health maintenance examinations, mammography, gynecological 
services, and acceptable time frames for test results. A 
baseline screening mammogram is required for all active duty 
women at age 40 and offered to all other eligible women 
beneficiaries. At age 50, annual mammograms are available to 
all eligible women beneficiaries. An appointment is provided 
within 14 days of request and results are provided to patients 
within 14 days for screening mammograms and 5 days for 
diagnostic mammograms. All mammography units must be certified 
by the American College of Radiology or the Food and Drug 
Administration in compliance with the Mammography Quality 
Standards Act (MQSA) of 1992. Nearly all DoD facilities are 
fully accredited. In those facilities not fully certified, a 
provisional accreditation is obtained. The lack of full 
certification in those cases results from unavailable 
technicians or certified health physicists. In such cases, the 
patients are referred to certified civilian facilities for 
mammograms. Under the FY97 Breast Cancer Initiative a training 
program for all mammography technicians has been started. It is 
anticipated that by the end of the calendar year all 
mammography technicians will be trained and certified according 
to the FDA standards.

    MCPO Sayers. To my knowledge, there is not a problem within 
our military treatment facilities of accessing--or excuse me, I 
don't want to use the word access--having equipment available 
and the trained personnel to receive those services.
    I know that access is still a problem, which we talked 
about earlier here today, in getting an appointment, in getting 
in to be seen for those things. So as we work closer to that, 
that should not be a problem. But I would defer to the Surgeons 
if they would like to speak, or to the Secretary more closely 
to that equipment issue.
    Dr. Joseph. In no small part thanks to this Committee, a 
substantial proportion of the breast cancer research funds that 
have come to DoD have been used for increasing access and 
availability of mammography, and I think that is a good story. 
We can get some numbers for you.
    [The information follows:]

    The FY97 Breast Cancer Prevention, Education, and Diagnosis 
Program addresses access to care under the Phase I component of 
the program. The goal of Phase I is to increase awareness of 
screening, diagnosis, and treatment options, improve clinical 
outcomes and patient satisfaction and decrease the loss of work 
time. Phase I funds represented 40% of the FY97 $25 million 
allocation and are used by the military medical treatment 
facilities (MTFs) to increase beneficiary access to breast 
cancer care. A sampling of the first quarter reports indicates 
a change in the average waiting time from 7 to 2 days and 28 to 
7 days in examples taken from two Army facilities; 5.5 to 1.5 
days and 42 to 0 days for two navy facilities; and 20 to 10 
days and 18 to 13 days for two Air Force facilities. This 
sampling represents only early data as the performance metrics 
were incorporated into the program during the later part of the 
first quarter of this fiscal year. More definitive metrics will 
be reported in subsequent progress reports.

    Dr. Joseph. I think particularly in a prevention sense and 
in a health-care research sense, probably the military is more 
focused on specific prevention, health promotion issues as they 
relate to women than the civilian sector, because in general 
our--our line commanders understand the importance of 
prevention and what the loss of function really means.
    So I realize it is a pretty general statement and I can try 
to give you something for the record more specific, but I think 
each of the services has, particularly in the last five or so 
years, really focused on those particular health needs of their 
women service--of their female service members.
    Mr. Cunningham. You know, don't waste a lot of time on it.
    Dr. Joseph. No, I won't.
    Mr. Cunningham. If you have any recommendations for us and 
things we can do directly, I think that that would help.
    [The information follows:]

    The Congress mandated funds in fiscal year 1994 and fiscal 
year 1995 to support health research relating to women in the 
military to include research on policies and standards issues 
pertaining to deployment, training, operation, retention, 
epidemiological research on women deployed in military 
operations and establishment of a database to facilitate long-
term research studies on military women's health. This effort 
also supported access to and delivery of health care to women, 
as well as health promotion and disease prevention. Very 
valuable research was funded in areas that were unique to 
military women and unlikely to receive attention in other 
programs. These efforts need to be integrated into ongoing 
research programs.
    Additional funding of the Defense Health Program for breast 
cancer prevention, education, and diagnosis, can be spent on 
continuation of the early diagnosis and prevention programs, 
information communication, data retrieval systems to better 
assist the provision of follow-up breast cancer care, and a 
review of mortality differences in minority women. The overall 
civilian mortality rate from breast cancer is decreasing, but 
in civilian minority women it is continuing to increase.

    Dr. Joseph. I don't know.
    Mr. Young. Mr. Visclosky.
    Mr. Visclosky. Mr. Chairman, I simply want to associate 
myself with the comments of Mr. Hobson on your tobacco control 
efforts. I do think they are very important. I support you and 
wish you well in them.
    Thank you, Mr. Chairman.

                         BREAST CANCER RESEARCH

    Mr. Young. Mr. Secretary, and General, Admiral, Master 
Chief, thank you very much for a very productive hearing this 
afternoon. We have a number of questions we didn't get to and 
would like to submit them in writing and ask that you respond 
to them.
    One specific question I would like to ask, this 
subcommittee, in recent years, has appropriated about $600 
million for breast cancer research. In fiscal year 1996 and 
fiscal year 1997, we also added to that approximately $100 
million a year, $25 million the first year and I think $37 
million the second year, in addition to the $100 million that 
was directed to be used within the military for treatment of 
breast cancer cases in the military or military spouses.
    I would like for you to provide for the record, and I 
would, unlike Mr. Cunningham, I want you to spend as much time 
as necessary to do this, but I would like to see a money trail 
of where the money went, who got the grants, who did the 
research and what, if anything, it produced. And also, for the 
additional money that we appropriated to be used within the 
services, if you could give us some idea of what is being done 
through the various military hospitals.
    [The information follows:]

    The Breast Cancer Research Program award list for FY95 is attached. 
It delineates how the appropriated $150 million was awarded to Breast 
Cancer Centers ($15 million for 3 awards), mammography breast imaging 
programs ($20 million for 21 awards) and multidisciplinary research and 
training programs ($115 million for 89 training and 179 research 
awards). The fiscal year 96 appropriation of $75 million is being used 
to invest in Innovative Developmental and Exploratory Awards (IDEA), 
translational research and training, and research to complement the NIH 
strategy. Approximately 310 multi-year awards are currently being 
negotiated.
    The $25 million in fiscal year 96 designated for education, 
training, and prevention was allocated in two phases to military 
treatment facilities and through the Surgeons General to TRICARE Lead 
Agents, to be used to assure that military members and their dependents 
receive timely access and immediate care for breast cancer and that 
beneficiaries are the focus for prevention, early detection, and 
education on breast health care. Phase I funds were distributed to MTFs 
on a capitated basis to increase access to breast cancer care, Phase II 
funds were distributed to Lead Agents for region-wide merit based 
education programs. The funded Phase II education programs are listed 
below:

Quality Management and Nurse Care Manager
Mobile Education Units
Genetic Counseling and Testing; and Youth and Elderly Education Program
Tracking and Mail-Out Education Program
Focus Group Model
Patient Tracking and Case Management Training
Wellness Education Interactive Kiosk
Genetic Screening and Counseling
Education for Youth and Retirees
Centralized Tumor Board and Tumor Registry
Provider Train-the-Trainer

                    BREAST CANCER CENTER AT BETHESDA

    Mr. Young. Mr. Murtha and I had a chance to be at Bethesda 
when we, in effect, cut the ribbon and dedicated the Breast 
Cancer Center there, and we were very impressed with that. But 
we would like to know, because the Department of Defense did 
not ask us to appropriate that money and it showed up on 
several rescission requests. We didn't agree with those 
rescissons, and we kept the money in place. But we would like 
to know what is happening with that money and what the people 
are getting for it.
    Dr. Joseph. We will send you that paper trail, that money 
trail, Mr. Chairman, and if I could take another just minute or 
so, I would like to tell you about something in the breast 
cancer treatment area that we are doing that I am sure this 
Committee will find of interest.
    We found a way last year, using demonstration authority, to 
pay through CHAMPUS for women who required a bone marrow--high 
dose chemotherapy and bone marrow replacement for treatment of 
breast cancer, and we worked out with the National Institutes 
of Health--NIH a collaborative program--I think it is a very 
exciting program--with the National Cancer Institute, whereby 
we work together to allow women who are beneficiaries into the 
NIH-supported trials and thus that we can pay for those 
services which previously we were prevented from paying for.
    Mr. Young. Well, it is a terrible, terrible disease and it 
seems to be getting worse, and we need to be aware of it. And 
we have no apologies to make for appropriating defense dollars 
for this purpose, because there are an awful lot of women in 
the military and a lot of women--spouses of men in the 
military. We have every intention of continuing that support. 
But we would like to see the money trail and just to know 
exactly what it is that we are doing and accomplishing.
    Other than that, thank you for a really good hearing.

                 HUMANITARIAN SERVICES PROVIDED BY U.S.

    So I will say formally the hearing would be over, but I 
would like to say this to the Members that are still here: All 
of our services over the years have performed humanitarian 
services that have really made the United States look good 
around the world, and Colonel Ruter and I had a visit at the 
Air Force hospital at Wilford Hall, and we met the team who 
went to Ecuador, as you talked about, General, and we had the 
tape of some of the things that happened there.
    It takes about, I think, seven or eight minutes to show the 
tape. I think it is really worthwhile seeing it. It will make 
you really proud of our military and our Armed Services, and 
especially those people who serve in the medical fields. So for 
those that are able to stay, formally the Committee will be 
adjourned but I think you would like to see this tape.
    [Clerk's note.--The Committee proceeded to review the 
video.]
    Mr. Young. What was the length of the entire operation?
    Dr. Joseph. Five days.
    General Roadman. Five days.
    Mr. Young. Thank you very much for showing us that. We had 
a chance to meet most of the team that was down there, and like 
I said, we were really impressed with how well they were 
treated and the good relations they helped cement between the 
United States military and Ecuador--the Government of Ecuador, 
and the people most especially.
    Again, thanks very much. We appreciate your time this 
afternoon. We look forward to working together with you to 
resolve whatever problems there may be in our medical programs.
    Dr. Joseph. Thank you once again, Mr. Chairman. Thank you 
for the strong and continuing support that we have had from the 
Committee.
    [Clerk's note.--Questions submitted by Mr. Lewis and the 
answers thereto follow:]

               Life Support Trauma and Transport (LSTAT)

    Question. How does the Life Support Trauma and Transport (LSTAT) 
fit within the Army's evolving doctrine for far-forward combat casualty 
care?
    Army Answer. The LSTAT is an integrated system of advanced 
technologies designed to deliver intensive care capability in austere 
or far forward areas. The LSTAT is capable of running on battery power 
or can adapt to the power sources of any available military vehicle, 
and standard power in both the U.S. and Europe. The LSTAT also contains 
an on-board data logging system capable of logging physiological 
performance of the patient, as well as recording data concerning the 
performance of the equipment (kind of like a flight recorder). In 
addition, the LSTAT has a data access port where linkages can download 
and transport data to any necessary receptor site.
    Once a candidate casualty is on an LSTAT, it is possible that the 
casualty could remain on the LSTAT throughout early as well as 
definitive treatment and evacuation. Thus, a logistic concern is re-
supply and re-cycling of LSTATs.
    The LSTATs are capable of fitting and being properly harnessed in 
any available military evacuation platform (UH-1, UH-60, HMMWV 
ambulance, C-130, C-17, C-19, C-141, C-5, etc.)
    The LSTAT support Joint Vision 2010 by enhancing initial care by 
the first responder, and by providing stabilizing and resuscitative 
support during enroute care.
    Question. What must be done to accelerate the initial operational 
capability of the LSTAT?
    Army Answer. The Army currently has 4 early version (Test and 
Evaluation Version) LSTATs. These early version LSTATs are designed to 
prove the principle that intensive care can be provided farther forward 
that was previously possible. The systems on these four LSTATs are FDA 
approved with the exception of the ventilator, currently undergoing FDA 
testing. Once the initial version of the LSTAT is approved by the FDA, 
I do not anticipate significant delays in approval of subsequent 
versions. The next phase in the evaluation of the LSTAT will be 
clinical testing to be conducted late summer 1997.
    The advanced version of the LSTAT should include systems requiring 
a more aggressive Research and Development posture. Those systems are: 
the Servo Controlled Ventilation; Servo Controlled Fluid Resuscitation; 
Advanced Non-invasive Physiologic Monitoring System; and Protection in 
a Chemical/Biological Contaminated Environment.
    There are two major kinds of support which would accelerate the 
initial capability of the LSTAT. The first is aggressive programmatic 
support at the Tri-Service level, consistent with the ability to 
facilitate casualty care missions addressed by the LSTAT for Army, 
Marines, Special Operations, and some Air Force applications.
    The second kind of support is money. Accelerating the delivery of 
planned non-invasive sensors and servo-controlled resuscitation devices 
requires resources (both people and money). Within reason, the greater 
the resource application to the LSTAT, the faster the development and 
appropriate testing on future LSTAT versions can be completed.
    Question. How does the LSTAT support Marine Corps operations?
    Marine Corps Answer. Life Support for Trauma and Transport (LSTAT) 
is a specific commercial brand name for a medical transportation device 
for the Stabilization Evacuation Platform (SEP) described in the 
current DRAFT United States Marine Corps (USMC) Operational 
Requirements Document presently being finalized at the Marine Corps 
Combat Development Command. In order to support Marine Corps Operations 
a SEP must be able to provide self contained life support functions 
during patient evacuation and enhance care to injured Marines during 
pre-operative, post-operative and medical evacuation in a combat 
environment.
    Question. What must be done to accelerate the operational capacity 
of the LSTAT?
    Marine Corps Answer. Three conditions must be met for the LSTAT to 
meet operational requirements:
    a. Assurance of effective and reliable operation in the extreme 
conditions inherent to a combat environment. Specific combat 
operational requirements have been summarized in the current DRAFT 
United States Marine Corps (USMC) Operational Requirements Document.
    b. Receipt of FDA approval. FDA approval is expected to be 
completed in the May 1997 timeframe.
    c. Certification of protection of the casualty from a chemical/
biological warfare scenario.

    [Clerk's note.--End of questions submitted by Mr. Lewis. 
Questions submitted by Mr. Murtha and the answers thereto 
follow:]

                          Medicare Subvention

    Question. Under the Medicare subvention agreement, the TRICARE 
Prime enrollment fee ($230) is waived to Medicare beneficiaries over 
age 65. Is this enrollment fee currently waived for the Medicare-
eligible TRICARE Prime enrollees under 65, and if not, why not?
    OSD Answer. The Department does not waive the TRICARE Prime 
enrollment fee for eligible beneficiaries under age 65. We have 
previously determined that Medicare-eligible beneficiaries under age 65 
are eligible for TRICARE Prime enrollment because they are CHAMPUS 
beneficiaries. Thus, their eligibility for TRICARE Prime is based on 
their CHAMPUS status, not their Medicare status. At present, the 
Department has no regulatory basis for waiving the enrollment fee for a 
subset of CHAMPUS beneficiaries simply because they have access to 
other health care coverage (Medicare).
    Enrollees in the Medicare demonstration project, by contrast, would 
be eligible for the demonstration project based solely on their status 
as Medicare-eligible military beneficiaries. These beneficiaries are 
not CHAMPUS-eligible and therefore, not subject to the enrollment fees 
required by those programs.
    Question. Are dual eligibles under TRICARE Prime provided full and 
equal access to information through marketing brochures regarding their 
unique benefits and conditions with the dual eligibility similar to 
that provided Federal Employees Health Benefit Program--FEHBP Health 
Maintenance Organization--HMO participants who are eligible for 
Medicare? Please provide this Committee with all of the marketing 
materials describing unique benefits and requirements for the Military 
Medicare eligibles under 65.
    Army Answer. Yes. Marketing materials advise dual eligibles 
desiring enrollment in TRICARE Prime and others for which CHAMPUS is 
second payer to Medicare of the requirement to contact local military 
hospital health benefits advisors in order to process approvals for 
this coverage. Military hospital staff provide necessary information to 
ensure understanding of the coordination of this benefit. The TRICARE 
Marketing Office distributes marketing materials which include 
information on availability of the TRICARE Prime benefit for disabled 
beneficiaries. The marketing office also relies on the CHAMPUS 
Handbook, periodic flyers and one-on-one beneficiary sessions to convey 
other associated information to the beneficiary.
    Question. FEHBP HMO participants are not required by Congress to 
purchase Medicare Part B as a condition to enrolling in FEHB plans, why 
does Congress and the Administration require military retirees to 
purchase Medicare Part B or be denied enrollment in their earned 
military provided health benefit when it is not required of Federal 
civilian annuitants?
    Army Answer. The Federal Employee Health Benefit Program (FEHBP) is 
not a Medicare program. Under the FEHBP, participating government 
agencies pay large subsidies to support employee participation in the 
FEHBP as a condition of current or previous employment. Also, employees 
must pay monthly premiums for FEHBP coverage. Per statute, in order to 
obtain CHAMPUS secondary coverage, a disabled person must choose to 
enroll in Part B. The statutory requirement for Part B coverage to 
obtain disabled CHAMPUS secondary coverage applies to TRICARE Prime, 
TRICARE Extra and TRICARE Standard.

                      Medicare-Eligibles Under 65

    Question. Prime Medicare-eligibles under 65 are currently 
overpaying their fees. First: they are the only category of 
beneficiaries to be required to purchase other health insurance as an 
additional condition for eligibility to TRICARE Prime. Medicare Part B 
at $43.00 per month. Second, they must pay the TRICARE Prime enrollment 
fee of $230 per year. Third: Medicare pays first, CHAMPUS pays second, 
and a $12 copay is collected from the patient by the provider. This 
constitutes an overpayment of fees by the most vulnerable group of 
beneficiaries--the disabled.
    Medicare-eligibles under 65 are included as eligible for TRICARE 
Prime by DoD policy only and can be easily reversed if their 
participation is deemed too costly. The disabled are not protected with 
mandated eligibility for TRICARE Prime as are all other beneficiaries. 
We believe it is unconscionable for the Administration to exclude the 
disabled from eligibility for the Medicare Subvention agreement, even 
though no civilian Medicare ``at risk'' HMO is allowed by law to 
exclude disabled Medicare-eligibles from enrollment.
    101 requirements protecting specific benefits to Medicare-eligible 
beneficiaries are included as part of the agreement. Medicare 
beneficiaries under age 65 are equally entitled to these covered 
services and protections under Medicare. Does TRICARE Prime currently 
offer the 101 protections of all Medicare benefits and requirements to 
Medicare-eligibles?
    OSD Answer. The goal of the Medicare subvention demonstration 
project described in the DoD/Health and Human Services--HHS agreement 
is to offer improved access to military health care to those who 
currently may access the military health care system solely on a space-
available basis. Military Health Services System beneficiaries eligible 
for Medicare due to disability are already TRICARE-eligible. Since DoD 
already affords Medicare-eligible beneficiaries under age 65 priority 
access to military health care through enrollment in TRICARE Prime, 
there is no need for the Department to test whether it can provide care 
to that population as part of the Medicare subvention demonstration.
    The Department is unclear about the meaning of the term ``101 
requirements'' and to what ``agreement'' the question refers in the 
first sentence of the third paragraph. The Department respectfully 
requests clarification of the question so that an accurate answer may 
be provided.
    Question. 101 requirements protecting specific benefits to 
Medicare-eligible beneficiaries are included as part of the agreement. 
Medicare beneficiaries under age 65 are equally entitled to these 
covered services and protections under Medicare. Does TRICARE Prime 
currently offer the 101 protections of all Medicare benefits and 
requirements to Medicare-eligibles?
    Army Answer. The TRICARE Prime program does not use the same rules 
and procedures used by the Medicare Program, as the statutory basis for 
the two programs is different. The TRICARE program includes protections 
which are similar to those of the Medicare program to ensure 
beneficiaries receive informed and enhanced access to quality, cost 
effective health care services.
    Question. If Medicare is not the primary payer of covered services, 
is it legal for CHAMPUS to pick up the full amount under Prime when 
CHAMPUS is legislated to pay only second payer amounts? If Medicare-
eligibles under 65 participation in TRICARE Prime is legal from a 
funding perspective without Medicare reimbursement, and the Defense 
Health Program is all one funding source, why would Medicare-eligibles 
be limited to CHAMPUS as second payer status in a Standard of Extra 
situation?
    OSD Answer. Medicare is considered the first payer for all of the 
TRICARE options: Prime, Extra, and Standard, for this category of 
beneficiaries. Contractors under TRICARE Prime are required to bill 
Medicare for services provided to Prime enrollees in the same manner 
that payment is sought on services provided to all other enrollees with 
other health insurance. Thus, Medicare is treated under Prime as any 
other health insurance carrier.
    Question. If Medicare is not the primary payer of covered services, 
is it legal for CHAMPUS to pick up the full amount under Prime when 
CHAMPUS is legislated to pay only 2nd payer amounts? If Medicare 
eligibles under 65 participation in TRICARE Prime is legal from a 
funding perspective without Medicare reimbursement, and the DHP is all 
one funding source, why would Medicare eligibles be limited to CHAMPUS 
as second payer status in a Standard or Extra situation?
    Army Answer. In instances where CHAMPUS is secondary payer to 
Medicare, CHAMPUS makes its payments and coverage decisions based on 
its own coverage rules, considering what Medicare has paid. When both 
Medicare and CHAMPUS cover a service, CHAMPUS pays up to the CHAMPUS 
allowable amount not covered by Medicare. CHAMPUS would not pay for 
primary amounts not paid by Medicare when the service is a Medicare 
covered service. If Medicare does not cover a service which is a 
CHAMPUS covered service, CHAMPUS will pay up to CHAMPUS allowable 
amounts.
    Even though funds for direct military facility health care services 
and CHAMPUS are a part of the Defense Health Program (DHP), the 
statutory basis for the two entities is not the same. The Medicare 
program does not reimburse the Department of Defense for TRICARE Prime 
services provided to disabled beneficiaries under age 65 years. CHAMPUS 
is second payer to Medicare only when dually eligible, disabled 
beneficiaries under age 65 enrolled in TRICARE Prime are referred for 
services not available in the military facility (to civilian network 
and other providers) or when such beneficiaries use TRICARE Standard or 
TRICARE Extra.

                              Hepatitis C

    Question. The Subcommittee has become aware of the increasing 
severity of the hepatitis C problem in this country which the Centers 
for Disease Control now estimates affects approximately 3.9 million 
individuals. As you know, if left untreated, this can lead to chronic 
liver disease and eventually after many years to liver failure. What 
can you tell us about the scope of this problem amount (among) military 
personnel?
    OSD Answer. Published results of surveys of selected groups within 
the military have found a prevalence of hepatitis C of around 0.5-1.0%, 
which is in the range observed in the general population. Last year, 21 
cases of hepatitis C were reported as notifiable conditions in the U.S. 
Army. Risk factors known to be associated with hepatitis C transmission 
such as intravenous drug abuse are not common among military personnel.
    Question. DoD now requires blood testing for HIV infection but, as 
we understand the situation, does not test these blood samples for 
hepatitis C. Could you update the Subcommittee on current DoD policies 
for hepatitis C screening and tell us the basis for these policies.
    OSD Answer. DoD complies with guidelines from the Food and Drug 
Administration (FDA) to screen blood donors for evidence of hepatitis C 
infection.
    Question. What is the DoD policy regarding retention on active duty 
for military personnel who are diagnosed with hepatitis C.
    OSD Answer. History of hepatitis C infection, by itself would not 
be automatic grounds for medical separation. Factors which determine 
retention on active duty include the nature and severity of an illness 
or injury and the ability of the Service member to perform their 
military duties. Any disability evaluation proceeding related to 
hepatitis C infection would be based on the severity of clinical 
illness and persistence of symptoms or biomarkers indicative of 
impaired liver function or chronicity.

    [Clerk's note.--End of questions submitted by Mr. Murtha. 
Questions submitted by Mr. Dicks and the answers thereto 
follow:]

                    Champus Reform Initiative (CRI)

    Question. Prior to the Department's initial implementation of its 
managed-care program, then called the CHAMPUS Reform Initiative (CRI), 
the Congress passed legislation to assure that the model would include 
the concepts of resource sharing and resource support. This sharing of 
staff, equipment, and resources between the civilian and military 
portions of the Military Health Services System would assure that 
services in the military treatment facility would be maximized.
    It has been nearly ten years since the original CRI contract (now 
evolved into TRICARE) was awarded and implemented. Have resource 
sharing and support agreements increased access to the beneficiary as 
originally intended?
    OSD Answer. In some cases resource sharing has allowed MTFs to 
increase access for their beneficiaries. But resource sharing, by 
itself, has not had the impact we originally envisioned. Our earliest 
experience with managed care in California and Hawaii, and the success 
that resource sharing had in those regions, led us to believe that the 
resource sharing approach was the only way to increase access and bring 
more CHAMPUS work into the MTF. TRICARE Regions have relied on resource 
sharing to varying degrees. MTFs, especially in Regions 3 and 4, have 
used a number of options in addition to resource sharing to recapture 
CHAMPUS work and increase MTF access.
    Question. Please provide the committee the numbers, types and 
locations of agreements currently in existence, the populations they 
serve, and any significant trends with these agreements over the last 
decade. How does the Department encourage its prime contractors to 
effectively use this tool to increase access to quality health care in 
a cost-effective manner?
    OSD Answer. There are currently 316 resource sharing agreements and 
34 resource support task orders in existence. Additionally, there are 
64 resource sharing agreements pending. These are as follows:

------------------------------------------------------------------------
                                       Resource sharing
                                          agreements           Resource
             Region*              --------------------------   support
                                      Signed      Pending    task orders
------------------------------------------------------------------------
3................................           36           17            6
4................................           22            0            1
6................................           57            7            3
7................................           35           16            1
8................................           38           17            6
9................................           62            2           12
10...............................           38            1            3
11...............................           15            4            2
12...............................           13            0            0
------------------------------------------------------------------------
*Regions 1, 2, and 5 were recently awarded and health care delivery will
  not begin until May 1998.

    The types of agreements currently in existence vary according to 
the needs of individual MTFs and their CHAMPUS eligible population. 
Since Regions and MTF utilize resources sharing in different ways and 
to different degrees, it is difficult to isolate an overall trend. 
Clearly our experience with resource sharing in some regions (such as 3 
and 4) has been a disappointment. Resource sharing within TRICARE 
Regions 7 and 8, which began health care delivery this spring, seems to 
be off to a faster start when compared to other regions that preceded 
it.
    Contractors were required to decrease their bid, up front, for 
resource sharing. This created a strong incentive for the contractor to 
utilize resource sharing to bring care back into the MTF. The 
Department requires that MTFs make the fullest possible use of resource 
sharing to increase beneficiary access to quality health care in a 
cost-effective manner. Contractor and MTF progress is tracked on a 
monthly basis.

    [Clerk's note.--End of questions submitted by Mr. Dicks. 
Questions submitted by Mr. Hefner and the answers thereto 
follow:]

                          Medicare Subvention

    Question. Under the Medicare subvention agreement, TRICARE Prime 
enrollment fee ($230) is waived for Medicare beneficiaries over age 65. 
Is this enrollment fee currently waived for the Medicare eligibles 
under 65 PRIME enrollee, and if not, why not?
    Army Answer. The TRICARE Prime enrollment fee is waived under the 
proposed DoD Medicare subvention demonstration as a test to see if this 
arrangement is affordable to the Department of Defense. The decision 
was not based on payments under any existing program. The Department 
has no regulatory basis for waiving the Prime enrollment fee for 
beneficiaries based on other coverage. The demonstration will require 
enrollment in Medicare Part B with monthly premium payments which may 
be compared to Prime enrollment premiums paid by under 65 disabled 
enrollees.
    Question. Are dual eligibles under TRICARE Prime provided full and 
equal access to information through marketing brochures regarding their 
unique benefits and conditions with the dual eligibility similar to 
that provided FEHBP HMO participants who are eligible for Medicare? 
Please provide this Committee with all of the marketing materials 
describing unique benefits and requirements for the Military Medicare 
eligibles under 65.
    Army Answer. Yes. Marketing materials advise dual eligibles 
desiring enrollment in TRICARE Prime and others for which CHAMPUS is 
second payer to Medicare of the requirement to contact local military 
hospital health benefits advisors in order to process approvals for 
this coverage. Military hospital staff provide necessary information to 
ensure understanding of the coordination of this benefit. The TRICARE 
Marketing Office distributes marketing materials which include 
information on availability of the TRICARE Prime benefit for disabled 
beneficiaries. The marketing office also relies on the CHAMPUS 
Handbook, periodic flyers and one-on-one beneficiary sessions to convey 
other associated information to the beneficiary.
    Question. FEHBP HMO participants are not required by Congress to 
purchase Medicare Part B as a condition to enrolling in FEHB plans, why 
does Congress and the Administration require military retires to 
purchase Medicare Part B or be denied enrollment in their earned 
military provided health benefit when it is not required of Federal 
civilian annuitants?
    Army Answer. The Federal Employee Health Benefit Program (FEHBP) is 
not a Medicare program. Under the FEHBP, participating government 
agencies pay large subsidies to support employee participation in the 
FEHBP as a condition of current or previous employment. Also, employees 
must pay monthly premiums for FEHBP coverage. Per statute, in order to 
obtain CHAMPUS secondary coverage, a disabled person must choose to 
enroll in Part B. The statutory requirement for Part B coverage to 
obtain disabled CHAMPUS secondary coverage applies to TRICARE Prime, 
TRICARE Extra and TRICARE Standard.

    [Clerk's note.--End of questions submitted by Mr. Hefner. 
Questions submitted by Mr. Dixon and the answers thereto 
follow:]

                 Life Support Trauma and Transportation

    Question. How does the Life Support Trauma and Transportation 
(LSTAT) fit within the Army's evolving doctrine for far-forward combat 
casualty care?
    Army Answer. The LSTAT is an integrated system of advanced 
technologies designed to deliver intensive care capability in austere 
or far forward areas. The LSTAT is capable of running on battery power 
or can adapt to the power sources of any available military vehicle, 
and standard power in both the U.S. and Europe. The LSTAT also contains 
an on-board data logging system capable of logging physiological 
performance of the patient, as well as recording data concerning the 
performance of the equipment (kind of like a flight recorder). In 
addition, the LSTAT has a data access port where linkages can download 
and transport data to any necessary receptor site.
    Once a candidate casualty is on an LSTAT, it is possible that the 
casualty could remain on the LSTAT throughout early as well as 
definitive treatment and evacuation. Thus, a logistic concern is re-
supply and re-cycling of LSTATs.
    The LSTATs are capable of fitting and being properly harnessed in 
any available military evacuation platform (UH-1, UH-60, HMMWV 
ambulance, C-130, C-17, C-19, C-141, C-5, etc.)
    The LSTAT supports Joint Vision 2010 by enhancing initial care by 
the first responder, and by providing stabilizing and resuscitative 
support during enroute care.
    Question. How does the LSTAT support Marine Corps operations?
    Marine Corps Answer. Life Support for Trauma and Transport (LSTAT) 
is a specific commercial brand name for a medical transportation device 
for the Stabilization Evacuation Platform (SEP) described in the 
current DRAFT United States Marine Corps (USMC) Operational 
Requirements Document presently being finalized at the Marine Corps 
Combat Development Command. In order to support Marine Corps Operations 
a SEP must be able to provide self contained life support functions 
during patient evacuation and enhance care to injured Marines during 
pre-operative, post-operative and medical evacuation in a combat 
environment.
    Question. What needs to be done to accelerate the initial operating 
capability of the LSTAT?
    OSD Answer. The initial operating capability for the LSTAT can be 
accelerated by aggressive program management to coordinate and 
synchronize Tri-Service efforts. This will insure that Service funding 
is aligned appropriately by fiscal year, and Service requirements for 
the LSTAT Test and Evaluation phase of the project will be determined 
concurrently.

    [Clerk's note.--End of questions submitted by Mr. Dixon. 
Questions submitted by Mr. Young and the answers thereto 
follows:]

                     Unrealistic Savings Estimates

    Question. The President's Budget for the Defense Health Program 
(DHP) is $10 billion. This is approximately $167 million less than the 
Fiscal Year 1997 appropriation. The budget assumes savings from the use 
of ``Utilization Management'' (UM) and other efficiencies. However, DoD 
has not been successful in fully implementing these techniques and its 
7% estimate of savings is not tied to any historical data and may not 
be realistic. Dr. Joseph, GAO believes that the President's Budget for 
the Defense Health Program is actually underfunded, possibly by as much 
as $609 million. According to GAO, a large part of this shortfall can 
be attributed to assumptions made in the budget regarding savings 
estimates. We understand that Administration budget analysts calculated 
savings of nearly 7% attributable to revised management practices known 
as ``Utilization Management.'' Dr. Joseph, in your judgment, is this a 
realistic figure?
    OSD Answer. Achieving the reductions associated with utilization 
management represent one the most difficult challenges the Defense 
Health Program (DHP) faces. The methodology for developing the 7% 
factor and the fiscal base to which it was applied does warrant 
additional consideration. However, we are committed to developing a 
health care system that maximizes return, in terms of health care 
delivered, for each dollar invested. The underlying principles that 
constitute utilization management can significantly contribute to 
accomplishing this goal. While I feel achieving the current utilization 
management target will be extremely challenging, I also feel it is 
attainable.
    Question. An October 1996 DoD Quality Management Report stated 
that: ``Implementation of the new [utilization management] policy and 
its basic requirements did not meet expectations . . . and continues to 
be variable across the Military Health Services System.'' Dr. Joseph, 
if you are not meeting your goals in terms of utilization management 
policy, how is it possible to achieve higher savings from utilization 
management in the 1998 budget?
    OSD Answer. The savings associated with utilization management 
represent a ``stretch goal.'' However, the underlying concepts are 
sound. Our utilization management strategy is being implemented at a 
time of tremendous change within DoD's health care system. Clearly, 
there is a learning curve involved with its deployment and integration 
into the managed care environment. The fact that initial results may 
not have been as productive as first projected, does not provide 
sufficient impetus to abandon the strategy altogether. I believe the 
most productive path at this point is to continue with the aggressive 
targets, monitor results closely, and be prepared to modify the goals 
if and when necessary.
    Question. Last year, an internal DoD document stated that 
unrealistic savings estimates would push the system ``beyond its 
ability to provide appropriate quality care to eligible 
beneficiaries.'' Is this still the case? Do you agree that the Military 
Health Services System (MHSS) would be pushed beyond its reasonable 
limits if it were required to operate within a budget that assumed 7% 
savings?
    OSD Answer. The DHP is in the process of reducing and reconfiguring 
a system that by its very nature is resistant to change. I believe we 
have charted a very challenging but attainable financial course. We are 
implementing a number of cost containment initiatives. Our ability to 
meet the Department's medical requirements within current fiscal 
constraints is predicated on the success of these initiatives. Failure 
of any initiative, sub-optimal results, and/or unforeseen contingencies 
may risk pushing the system beyond its ability to provide appropriate 
quality care to eligible beneficiaries.
    Question. Would beneficiaries be adversely affected? How might 
beneficiaries be affected? Would the quality of care decline? Would 
access to care be reduced?
    OSD Answer. Currently there is not a fiscal shortfall in the DHP. 
The budget contains a number of aggressive savings targets but I feel 
they are achievable. We will not compromise the quality of our care. If 
some of the challenging cost savings goals in the budget become 
unattainable, access, not quality, could be at risk.
    Question. How would this budget affect military medical treatment 
facilities?
    OSD Answer. Assuming utilization management generates savings, the 
managed care network performs effectively, and our emphasis on health 
awareness and illness prevention produce results, I believe the 
military treatment facilities are funded at the minimum essential level 
in FY98.

                       Budget Projects No Growth

    Question. GAO believes that the Administration's medical inflation 
estimates are not accurate and ignore certain cost growth factors. DOD 
Health Affairs identified a requirement of $84 million for cost growth 
associated with advancements in technology (Technology and Intensity). 
However, this was rejected by the Office of Management and Budget. Dr. 
Joseph, according to GAO, during fiscal years 1985 to 1996, the 
operation and maintenance funds for DoD's health program increased by 
73% in real terms. The President's Budget assumes no growth for 1998-
2003. Is this realistic given past experience?
    OSD Answer. Clearly, a different world exists in regard to both 
medical technological advancements and also in respect to force 
structure growth and for the time being we are not experiencing the 
rate of growth that occurred in the late 80's. The program for FY98 is 
executable. The current funding stream for FY99-03 will be revisited 
during the Program Review cycle this summer. During this review we will 
be addressing major reductions laid into the DHP during the last 
program review and the issue of technology and intensity (T&I). 
Assuming acceptable resolution of these problem areas, the outyear 
program would be executable.
    Question. Did the President's budget estimate include funds for 
medical inflation? How was this calculated?
    OSD Answer. Yes, the budget does include an adjustment for medical 
inflation. The rate is approximately 4.1% and applies to selected 
elements of the program as appropriate.
    Question. Dr. Joseph, can you explain ``technology and intensity''? 
Does the private sector health care industry consider technology and 
intensity as a cost factor?
    OSD Answer. Technology and intensity is medical cost growth that 
exceeds cost increases due to general inflation, medical inflation, and 
population growth. As health care providers adopt new and expensive 
medical technologies and offer more intensive patient treatment, 
medical cost growth occurs above the rate of medical inflation. In the 
private sector, health care firms do consider T&I and include it as a 
cost factor in their contract bids.
    Question. How does technology and intensity affect the DoD medical 
program? How does this factor affect patient care?
    OSD Answer. Technology and intensity increases the cost of 
operating DoD's medical program. In terms of patient care, technology 
and intensity improves the quality of care available to the patient. As 
a result of technology and intensity, the latest technology in the 
appropriate amount is available and provided to each patient.
    Question. Did the budget include a specific adjustment for 
technology and intensity? If not, why not?
    OSD Answer. No, the budget did not include a specific adjustment 
for technology and intensity. The Administration's policy has been not 
to budget for technology and intensity in discretionary medical 
budgets. The Department has agreed to address this issue during the up-
coming program review cycle.
    Question. How much funding would be needed in 1998 to cover 
requirements associated with technology and intensity?
    OSD Answer. The Defense Health Program is carefully reviewing the 
cost of technology and intensity. Current estimates put the cost 
between 1%-8%. FY98 technology and intensity costs are projected to be 
0.5% or approximately $84 million.

                    Defense Health Budget Shortfall

    Question. The Office of Management and Budget (OMB), the DOD 
Comptroller and Health Affairs have agreed to request $274 million of 
additional funds for 1998. $163 million of this is for paying 
outstanding CHAMPUS claims from prior years. $78 million is an 
unspecified amount for operation and maintenance costs. $33 million is 
for inflation. These adjustments do not address GAO's concerns 
regarding unrealistic savings estimates, and only partly address the 
issue of inflation. Dr. Joseph, we understand that you are in 
discussions with the Comptroller regarding this budget shortfall. What 
is the status of those discussions?
    OSD Answer. Those discussions are complete. We have agreed that an 
additional $261 million would fund the program at the minimum essential 
level. (+$274 million less $13 million for revised Foreign Currency 
Fluctuation Adjustment estimates)
    Question. Have you arrived at a new budget figure for the 1998 
Defense Health Program? What is that figure?
    OSD Answer. As a result of detailed negotiations between Health 
Affairs, DoD Comptroller, and OMB, the new fiscal year 1998 Defense 
Health Program Operation and Maintenance (O&M) budget figure is 
$10,027,582,000.
    Question. Why is this the correct number? Will you please tell the 
Committee how you arrived at that figure?
    OSD Answer. The $10,027,582,000 represents minimum essential 
operation and maintenance resources necessary to support the Defense 
Health Program's primary mission. This figure was arrived at through an 
arduous process integrating both financial and operational expertise 
from each echelon within the Department's medical force structure.
    Question. Please explain the $163 million of ``transition costs'' 
included in the new estimate. If these are expected, leftover or ``must 
pay'' CHAMPUS bills, why aren't these costs included in the budget?
    OSD Answer. In 1995, the Department decided to delay the 
implementation of the last two Managed Care Support contracts for three 
months in fiscal year 1997. Program decision memorandum (PDM) I, dated 
18 August 1995, directed that $187 million of fiscal year 1997 pipeline 
costs be deferred until fiscal year 1998. Thus, it reduced the pipeline 
funding for the last two contracts by more than half in fiscal year 
1997. Pipeline estimates for a contract essentially represented four 
months of the standard benefits requirements. Subsequent to that 
decision, Health Affairs determined that the pipeline estimate should 
equal less than 4 months of the benefits based on actual experience and 
decreased that requirement to 3 months. This reduced the fiscal year 
1998 deferred pipeline estimate of $187 million to $163 million. Prior 
to that action, no pipeline costs were programmed for fiscal year 1998.
    Question. Please explain the $78 million in operation and 
maintenance costs which will be added back. What is this for? Why is 
this the right number?
    OSD Answer. The fiscal year 1998 Defense Health Program budget was 
adjusted for military personnel pay raises at the composite rate used 
for budgeting Military Personnel appropriations. The Defense Health 
Program rates grew faster than the standard inflation for MILPERS. 
These are ``must pay'' bills and Operations and Maintenance funds were 
reduced to cover the additional MILPERS costs. Therefore an additional 
$78 million was required. This was not provided in the fiscal year 1998 
budget.
    Question. Please explain the inflation adjustment of $33 million. 
Does that adjustment for inflation take into account ``technology and 
intensity'' of treatment? Does that amount address your 1998 inflation 
funding requirements?
    OSD Answer. The Defense Health Program was erroneously decremented 
by $13 million for a change in the medical inflation rate. 
Additionally, a $20 million increase due to Defense Business Operation 
Fund (DBOF) rate increase was not included. The aggregate impact was to 
understate DHP requirements by $33 million. The adjustment to correct 
this deficiency did not take into account the effect of technology and 
intensity of treatment. The $33 million does appropriately fund the 
Defense Health Program fiscal year 1998 inflation generated 
requirement.
    Question. If Technology and Intensity are considered, the General 
Accounting Office reports that the 1998 President's Budget would 
understate the Defense Health Program by as much as $3.2 billion over 
the 1998-2003 period. And this figure assumes that DoD is fully 
successful regarding savings due to utilization management (UM). What 
are you doing to address the potential impact of technology and 
intensity as a cost factor?
    OSD Answer. Cost growth associated with technology and intensity 
presents Health Affairs and the Department as a whole with a 
significant financial problem. To date, Administration policy has been 
to not budget for technology and intensity in discretionary medical 
budgets. This policy has contributed to the fiscal dilemma alluded to 
in your question. To correct the problem, the Department has agreed to 
carefully examine the issue during the upcoming summer review cycle.
    Question. Dr. Joseph, do you believe that we are properly budgeting 
from the Defense Health Program in the Future Years Defense Plan?
    OSD Answer. I believe our capitation financing methodology provides 
us the most accurate budgeting tool available to project our current 
and future financial requirements. However, I do not believe that 
sufficient resources are currently included in the Future Years Defense 
Plan to meet the projected medical requirements of our beneficiary 
population. However, we will reevaluate the Defense Health Program 
Future Years Defense Plan funding during the upcoming Summer Program 
Review.
    Question. Dr. Joseph, it is clear from our discussion that while 
the Comptroller and the Office of Management and Budget have agreed to 
come your way a little on the budget, there still may be requirements 
that are unmet. For the record, will you provide the Committee with a 
list of your actual requirements--including the technology and 
intensity factor?
    OSD Answer. Currently, the Defense Health Program is funded at the 
minimum essential level for fiscal year 1998. I was pleased that we 
were able to work out a solution to obtain $274 million within the 
Department. The budget and the $274 million amendment yield a program 
that is challenging and will require difficult choices but is 
executable. The $274 million addresses our critical shortfalls 
regarding CHAMPUS pipeline buyout, Military Personnel pricing, and 
misapplication of inflation reduction. If technology and intensity were 
approved at one-half of one percent it would require an additional $84 
million. If utilization management savings estimates were reduced to 
one percent of discretionary Operations and Maintenance, an additional 
$69 million would be required.

                     Quality of Care--Accreditation

    Question. A Quality Management Report (QMR) recently issued by DOD 
outlined both the progress and deficiencies in the management of the 
direct health care system. Although there was some progress, the report 
highlighted several problems concerning: accreditation of hospitals; 
resource management and credentials; utilization management; medical 
readiness; access to care; and outcomes of patient care.
    The QMR reported problems in accrediting DOD hospitals such as: 
Keeping complete patient data (e.g. significant diagnoses, conditions, 
etc.); special treatment procedures; competence assessment; initial 
assessment; medication use; and management of the environment of care.
    The Joint Commission on Accreditation of Healthcare Organization 
(JCAHO) is responsible for accrediting military hospitals. In 1995 
JCAHO surveyed 45 hospitals and 8 clinics and generally found that DOD 
facilities did well in comparison with civilian hospitals. However, DOD 
hospitals did not do well in six specific and important areas, to 
include Special Treatment Procedures and Patient-specific Data and 
Information which were particularly weak.
    Dr. Joseph, will you explain what these indicators mean?
    OSD Answer.
    1. Management of Environment of Care--Design.--The organization 
designs a safe, accessible, effective, efficient environment of care in 
accordance with its mission and services as well as laws, and 
regulations.
    2. Medication Use.--Relates to: (1) prescribing, ordering, 
preparing, dispensing, administration of medication (2) monitoring the 
medication's effect on the patient
    3. Initial Assessment.--An initial screening or assessment of each 
patient's physical, psychological, and social status is performed to 
determine the need for care, the type of care required, and the need 
for any further assessment.
    4. Competence Assessment.--The organization assesses an 
individual's ability to achieve expectations as stated in his/her job 
description. Competence assessment activities exist and are documented 
for each staff member.
    5. Special Treatment Procedures.--When using interventions such as 
aversion therapies, electroconvulsive therapy, and restraint/seclusion, 
clinicians make greater than ordinary efforts to ensure that their use 
is warranted and that patients are protected during the procedures.
    6. Patient-specific Data and Information.--The information-
management function provides for the definition, capture, analysis, 
transformation, transmission, and reporting of individual patient-
specific data and information related to the process(es) and/or of the 
outcome(s) of the patient's care.
    Question. Why are the special procedures and patient data areas so 
weak? What is the problem?
    OSD Answer. DoD aggregate compliance with these JCAHO grid elements 
was not as high as we would like to see but compliance was even lower 
for the civilian sector. We have not asked the Services why these 
particular areas are weak but the Services are well aware of their weak 
areas on the JCAHO surveys and are working to improve them. These areas 
are new grid elements introduced to the JCAHO survey in 1995.
    Question. What can be done to improve compliance in these two 
specific areas?
    OSD Answer. The Services are aware of their compliance levels with 
these grid elements and are working to improve them. Medical Treatment 
Facilities which were weak in these areas are also working to improve 
them.
    Question. What are you doing to increase compliance with the JCAHO 
standards in the six specific areas?
    OSD Answer. The Services Quality Management Divisions receive the 
Annual DoD Quality Management Report (QMR) when it is published and one 
of the Health Affairs recommendations to the Services in the QMR is to 
improve hospital compliance in these six specific areas. Each Service 
will address these areas to improve them and Health Affairs will 
continue to monitor the JCAHO Hospital Accreditation Program Aggregate 
Compliance Data for DoD each year to monitor their improvement.

                       Credentials and Privileges

    Question. The Quality Management Report recommended that DoD should 
make improvements in tracking malpractice and adverse privileging 
actions against physicians and health care providers. The recent 
Quality Management Report found that DoD medical staff generally have 
adequate credentials. However, the report also determined that DoD does 
not maintain accurate or complete adverse privilege and malpractice 
data. What are you doing to keep track of inferior physicians and poor 
medical practices?
    OSD Answer. DoD hospitals surveyed by the JCAHO in 1995 displayed 
strong performance in the area of Medical Staff-Credentialing. Ninety 
three percent of DoD hospitals were in compliance with this grid 
element compared to 60.5 percent of civilian hospitals. This 
achievement confirms the DoD commitment to a strong credentials and 
clinical privileges review process.
    DoD follows JCAHO standards in credentialing and privileging all 
healthcare providers. This includes primary source verification of 
credentials upon accession into the DoD system, as well as review of 
licensure, training, experience, current competence, and health status 
before being granted clinical privileges. Once appointed to the medical 
staff, review for reappointment occurs every 2 years thereafter based 
on a healthcare providers performance (performance based privileging) 
and previously mentioned criteria.
    Accurate and complete malpractice and adverse privileging action 
data is maintained and monitored at the Medical Treatment Facilities 
and Service levels. DoD also collects this same data from the Services 
for monitoring and analysis by the Defense Practitioner Data Bank 
(DPDB) at the Armed Forces Institute of Pathology (AFIP), which reports 
to Health Affairs. The problem for AFIP has simply been a process 
problem related to collecting the data from the Services in a timely 
manner so the data is complete for developing valid rate based reports 
and trending analysis. The Centralized Credentials Quality Assurance 
System version 2.0 will address this problem by allowing much faster 
data collection for the Services and the DPDB with its daily global 
replication ability. The system is anticipated to be deployed in the 
Fall of 1997.
    Question. In order to protect the best interests of the patients, 
how do you identify and get rid of poor performers?
    OSD Answer. Performance based privileging identifies and allows 
removal of poor performers through ongoing review of credentials, 
privileging, outcomes, peer review, adverse privileging actions, 
malpractice, continuing education attendance, additional training, 
licensure maintenance, quality management results, patient comments, 
and National Practitioner Data Bank queries.
    Question. Conversely, how do you identify and keep the excellent 
performers? Could we do better in this area?
    OSD Answer. Performance based privileging also identifies excellent 
performers. Retention would be improved by keeping them practicing in 
their specialties, exposing them to operational medicine, and 
maintaining graduate medical education programs, which help recruiting 
and retention of the highest quality people.

                    National Practitioner Data Bank

    Question. The National Practitioner Data Bank (NPDB) essentially 
tracks bad physicians and health care providers. Of a total database of 
133,000 reports, DoD represents 467 reports. About 84% of those reports 
are on doctors. This is higher than civilian statistics. What are we 
doing to bring the number of reports down?
    OSD Answer. Physicians represent only a slightly larger percentage 
of the total DoD reports in the NPDB than in the civilian sector, 
however, this is not a problem. What is important is the percentage of 
DoD physicians with reports on them in the NPDB. DoD physicians only 
represent 3 percent of reports in the NPDB compared to the civilian 
sector, which is 9 percent. To keep the number of reports down for all 
categories of healthcare providers, risk management data is monitored 
on an ongoing basis at the Medical Treatment Facility, Service, and 
Health Affairs levels.
    Question. The Quality Management Report stated that DoD had only a 
3% match rate compared with a 9% civilian match rate on the National 
Practitioner Data Bank (NPDB). However, the report also noted that this 
data is likely to be skewed because DoD recruits physicians directly 
from professional schools and because active duty patients are not 
permitted to make claims against DoD. Dr. Joseph, how can we get a 
better handle on this situation? How can we give patients confidence 
that the doctors they see are competent? How does DoD know that they 
are competent?
    OSD Answer. We give patients confidence that the doctors they see 
are competent through our ongoing performance based credentialing/
privileging process and external accreditation surveys such as JCAHO, 
which confirm our commitment to providing competent doctors to our 
patients.
    DoD knows that providers are competent because of the performance 
based privileging process and external review of that process by JCAHO, 
which found 93 percent of DoD hospitals in compliance with the Medical 
Staff--Credentialing grid element compared to 60.5 percent of civilian 
hospitals.
    Question. As of last year, only 50% of DoD physicians were Board 
Certified. Only 40% of Navy physicians were certified. What are you 
doing to increase the numbers of Board Certified DoD physicians? What 
are you doing to correct this problem--particularly with the Navy?
    OSD Answer. The percentage of all DoD physicians that were board 
certified in 1995 was 50%. However, the denominator for that percentage 
does include 3352 physicians in training. When the physicians in 
training are removed from the denominator, the percentage of DoD 
physicians who are board certified goes up to 67%, which is slightly 
higher that the civilian sector percentage of 62%. By removing the 
number of physicians in training from the Navy denominator, the 
percentage of board certified physicians goes up to 59% from 40%.
    Board certification pay is the program that is used to provide a 
financial incentive for physicians and all other healthcare providers 
to attain board certification.

                         Utilization Management

    Question. According to the Quality Management Report (QMR), 
compliance with DoD's utilization management policy is ``weak'' and 
needs to be placed ``back on track'' if rates are to improve. Effective 
utilization management is critical to achieving savings in the budget. 
In November of 1994, Health Affairs established a Utilization 
Management policy for the direct care system. The Quality Management 
Report identified this as a problem: ``Implementation of the new policy 
and its basic requirements did not meet expectations . . . and 
continues to be variable across the Military Health Services System.''
    A DoD IG report done in June of 1995 also made 18 recommendations 
as to how to improve utilization management.
    Dr. Joseph, isn't proper implementation of utilization management 
critical to the success of TRICARE?
    OSD Answer. Yes, utilization management principles are essential to 
a comprehensive managed care program and, therefore, are an integral 
factor in the TRICARE Program. Implementation of utilization management 
both in the Managed Care Support contracts and in the direct care 
system is necessary and is being accomplished. Since some of the 
Military Treatment facilities are in Regions that have not yet started 
their TRICARE Managed Care Support contracts, and since many facilities 
will rely upon the contractor to perform some of the utilization 
management functions, there has been some variability in implementation 
of the 1994 Policy guidelines. These variations are known, are being 
examined and improvements are being sought and/or implemented 
currently.
    Question. What have you done to address the criticism of the QMR 
report, and implement the recommendations of the DoD IG report?
    OSD Answer. The recommendations and issues of the DoD IG Report of 
June 1995 have been thoroughly investigated. We assembled various 
experts through 1996 at scheduled TRICARE Conferences, Video Tele-
Conferences and a special TRICARE Utilization Management Meeting in San 
Antonio to address these concerns.
    Many changes have already been implemented, including development 
of critical pathways and practice guidelines within many facilities and 
departments; development of education and training programs for TRICARE 
managers; expanded definitions of first level reviewers; establishing a 
Utilization Management track at the annual TRICARE conference; direct 
dissemination of policy to Lead Agents; and establishment and review of 
facility and regional utilization management plans. The Department is 
currently engaged in updating the 1994 DoD Utilization Management Plan 
and will publish a revised version within the next several months. The 
updated plan will include several improvements suggested by private 
sector experts, service representatives and the DoD IG evaluation 
report. Additionally, the DoD IG has been asked and is currently 
involved in conducting a review of progress in Utilization Management 
since the 1995 report.
    Question. For years, our military medical community has been 
delivering health care based on fee-for-service principles. The 
transition to a managed care program represents quite a change in 
philosophy. For instance, in managed care, emphasis is placed on 
keeping the patient healthy and out of the hospital. Under the fee-for-
service system, there were actually incentives to keep a patient in the 
hospital because Military Treatment Facility commanders received funds 
based on the intensity of their workload. How are our military medical 
providers adjusting to this change?
    OSD Answer. Military medical providers are adjusting well to this 
paradigm shift. However, that's not to say it is an easy transition. 
Surveying both public and private sector health care management 
structures, managed care emerges as the most effective. It may also be 
the most complex in terms of incorporating military medical readiness 
into the equation. We are experiencing successes but we continue to 
search for areas where managed care principles can produce cost savings 
without degrading the quality or appropriateness of patient care.
    Question. Do DoD health care providers and administrators fully 
embrace the change to managed care? If not, why not?
    OSD Answer. There is clear and unequivocal support for managed care 
at the highest leadership levels within the Military Health Services 
System (MHSS). The Surgeons General of the Army, Navy, and Air Force, 
their senior staffs, and medical treatment facility commanders have 
embraced managed care and recognize its promise for improving health 
outcomes by promoting healthy lifestyles; actively engaging in 
preventive health services; and, when illness or injury strikes, 
assuring that patients receive the right care, at the right time, in 
the right setting.
    Question. Do DoD health care providers have the necessary training 
in managed care techniques?
    OSD Answer. The medical leadership of the Department of Defense 
(DoD) is committed to providing managed care training for the health 
professionals who provide care to DoD beneficiaries. The training is 
tailored to the needs of various provider groups and occurs at multiple 
levels throughout the DoD structure.
    The Assistant Secretary of Defense (Health Affairs) annually 
sponsors two world-wide TRICARE conferences for senior level medical 
management, headquarters level managers, medical facility commanders, 
and facility level providers. The winter conference is attended by 
about 1300 people from all three Military Services, representing every 
level of the DoD healthcare organization. The summer conference, about 
400 in attendance, focuses on managed care education needs of regional 
Lead Agents and their staffs. The main feature of both conferences is a 
series of required breakout sessions on managed care topics designed to 
improve provider managed care skills. Both conferences include 
participation of the senior leadership of the TRICARE Managed Care 
Support (MCS) contracts, all of whom are experts in the specific 
strategies and procedures that make managed care so successful in the 
civilian environment. The conferences highlight opportunities for 
collaborative efforts between DoD managers and providers and the MCS 
contractors to maximize their combined expertise in establishing a 
managed care environment that meets the needs of DoD beneficiaries.
    Each of the regional Lead Agents conducts an annual TRICARE 
conference which focuses specifically on managed care skill development 
for providers and managers within the region. Attended by the regional 
managed care leadership and the DoD network providers, these 
conferences provide instruction and collaborative opportunities in many 
managed care subjects. Lead Agents continually oversee the initial and 
ongoing training of military primary care managers participating in the 
TRICARE networks conducted by the MCS contractors.
    The Uniformed Services University of the Health Sciences offers 
course work in managed care for prospective medical facility 
commanders. Entitled ``Medical Executive Training: Clinical and 
Managerial Decision Support Tools for Managed Care,'' the course 
focuses on current approaches to the assessment and improvement of the 
quality of care in DoD and civilian managed care environments. To date, 
a total of 131 participants from the Army, Navy, Air Force and Coast 
Guard have completed this training preparatory to assuming command 
positions.
    The Military Medical Departments are systematically integrating 
managed care concepts and skills into their formal training programs 
for health care professionals. They systematically furnish provider 
training for their senior leadership, their primary care managers and 
newly assigned medical facility commanders. They routinely sponsor 
their providers' participation in national civilian managed health care 
conferences, such as the National Managed Health Care Congress and the 
American College of Health Care Executives. A good example of their 
commitment to managed care training across the span of a career is the 
Army's inclusion of managed care in the entry-level Basic Course which 
every health provider completes when entering military service, in 
their Advanced Course for more experienced providers, and in the 
Leadership Development Program required of health care managers before 
they can qualify for executive positions.

                           Medical Readiness

    Question. DoD continues to struggle with medical readiness. 
However, dental readiness is becoming a significant problem for the 
readiness of our forces. According to the Quality Management Report 
(QMR), 13 to 14% of our Army and Navy personnel are not ready to deploy 
due to problems of oral health. Have you determined the cause of the 
lack of dental readiness?
    OSD Answer. Problems relating to dental readiness emerged due to 
increasing disparities in compensation between military dentists and 
their private sector counterparts. The compensation problem was masked 
early in the decade due to reductions in dental manpower associated 
with the ending of the Cold War. As overall military manning stabilized 
however, it became readily apparent that we were struggling to recruit 
and retain sufficient numbers of dentists to maintain the fighting 
force at acceptable readiness levels.
    Question. What do you intend to do fix this problem?
    OSD Answer. We are attacking the problem on two fronts. First, we 
are taking immediate measures to ensure that readiness does not 
deteriorate over the short term. To correct for current dental officer 
shortages, we have given the Army and Navy twenty five million dollars 
a year to obtain contract civilian dental personnel. Further, we are 
developing an overseas family member dental program utilizing host 
nation providers, and we are developing a self funded dental plan to 
provide care for retirees. These initiatives will enable us to 
concentrate our limited resources on our core dental readiness mission. 
Second, we are addressing dental officer recruitment and retention. To 
improve recruiting we have instituted a $30,000 accession bonus and 
increased special pays for dentists up to the tenth year. To understand 
what is required in the long run to improve overall retention and 
maintain a cadre of high quality dental officers, we recently completed 
a study addressing the effects of pay on a retention throughout a 
dentist's career. The results of this study are currently being 
evaluated for possible pay proposals.
    Question. General Blanck, you cited reserve readiness in your 
testimony as being a problem. Can you please elaborate on this problem? 
What are your plans to fix the problem?
    Army Answer. Figures available for fiscal year 1996 show a 
disconcerting trend across most medical specialities within Army 
Reserve selected reserve. The loss rate for Medical and Dental Corps 
officers is over 3 to 1 versus gains. Most of the other Army Medical 
Department--AMEDD officer corps are experiencing a loss versus gain 
rate of almost 2 to 1. And similar trends of losses outnumbering gains 
are shown in the enlisted ranks. There are currently 9 enlisted 
specialities and 51 officer specialists that cannot meet P2 (80%) 
strength levels in the Selected Reserve. Included are Respiratory 
Therapy (38% fill) and Licensed Practical Nurse (74% fill) in the 
enlisted ranks and Physician Assistant (19% fill), Orthopedic Surgeon 
(58%) fill, and Family Practice (31% fill) among many others in the 
officer ranks.
    To fix the problem, in December 1996 I met with senior officials of 
the Army Reserve and Army National Guard. The purpose of that two-day 
conference was to establish a system to identify those areas in which I 
could assist them and then begin to affect their repair. We have 
identified a couple dozen issues, among them is the Army Reserve 
recruiting and retention (R&R) situation. I have instructed my 
representative to the Tri-Service Medical Working Group, and the entity 
that pursues R&R initiatives, to introduce changes to some existing 
incentive programs and to introduce other new programs, some of which 
will require congressional funding.
    Question. General Blanck, in your testimony you highlighted the 
Chemical and Biological expertise of the Army Medical Department. What 
is the Army doing to support the Marine Corps Chemical and Biological 
Incident Response Teams?
    Army Answer. The Army Medical Department has two specialty teams 
which support the Marine Corps Chemical and Biological Incident 
Response Team when it deploys. The teams are the Chemical Casualty Site 
Team from the United States Army Medical Research Institute of Chemical 
Defense (USAMRICD) and the Aeromedical Isolation Team from the United 
States Army Medical Research Institute of Infectious Diseases 
(USAMRIID).
    These two teams provide medical augmentation capabilities for 
chemical and biological incidents in support of the Marine Corps 
Chemical and Biological Incident Response Team. A capability which the 
Marine Corps does not have. USAMRICD and USAMRIID also conduct a one 
week Chemical Biological Casualty Care Course for DoD medical personnel 
at Ft. Detrick and the Edgewood Area Aberdeen Proving Ground, both in 
Maryland.
    Question. What are your top priorities for medical readiness?
    Army Answer. Medical preparedness for military operations is my 
number one priority. I have established five AMEDD Imperatives to 
ensure that we are prepared to support our soldiers, families, and 
retirees. The Five AMEDD Imperatives: Technology, Quality/Efficiency, 
Organization, Managed Care, and Readiness will ensure that the AMEDD is 
capable of providing the finest medical care.
                    Numbers of Nurses and Physicians
    Question. Do you have sufficient numbers of well trained-nurses and 
physicians to meet both peacetime and wartime requirements?
    Army Answer. Yes, if peacetime and wartime are separate scenarios. 
I currently have sufficient well-trained nurses and physicians in the 
appropriate specialities to provide peacetime--that is, military, 
dependent, and retiree--care at my fixed (TDA) facilities. If I add all 
Reserve Component personnel to my peacetime assets during a one or two 
Major Regional Conflict (MRC) situation, I will have sufficient well-
trained nurses and physicians in the appropriate specialities to meet 
wartime (TOE) requirements. However, if I must provide continuity of 
care to dependents, retirees, and expand facilities to accommodate 
persons evacuated from the Theater concurrent with staffing wartime 
requirements, I would not now have sufficient well-trained nurses and 
physicians in the appropriate specialities without dependence on 
civilian sources of care.
    Due to recent call-ups, the Army Reserve has been experiencing loss 
rates much higher than their gain rates for physicians. Reserve 
recruiting and retention are both experiencing difficulties in today's 
environment.

                        Equipment and Facilities

    Question. Do you have sufficient equipment and adequate facilities 
to meet medical readiness and wartime requirements?
    Army Answer. Yes, current force structure supports the Warfight 
requirements. The Army Medical Department--AMEDD Center and School is 
leading the way with the Medical Re-engineering Initiative (MRI), to 
ensure that all medical assets are aligned with the Army Force XXI. An 
inter-service working group at the AMEDD Center and School is 
developing joint doctrine in anticipation of increased joint 
warfighting efforts in future contingencies.
    The U.S. Army has sufficient equipment to support the medical 
readiness requirement of early deploying units identified to support 
current Defense Planning Guidance. However, resources are very limited 
to meet the dual challenges of modernizing combat hospital capability, 
and converting the hospital unit to new configurations more suitable 
for the support of emerging warfighting doctrine. Without resources 
being sought in the programming and budget process, the combat hospital 
units will not, over time, be able to introduce new technologies that 
offer significant potential to enhance combat casualty care.

                            Readiness Goals

    Question. What are your readiness goals? On a given day, what 
percentage of our troops are non-deployable due to health 
considerations?
    Army Answer. I believe that I must be able to deploy a healthy, 
ready and capable medical force that is capable of providing the finest 
medical care to our soldiers.
    The latest figures show the Army-wide non-deployable rate as 11.32% 
(includes trainees). Non-deployability is measured in three permanent 
and five temporary condition categories:

------------------------------------------------------------------------
                                                    No.        Percent
------------------------------------------------------------------------
Armywide......................................       55,155        11.32
Permanent.....................................        3,837          .79
    HIV Positive..............................          304       (0.06)
    Sole Survivor.............................           25       (0.01)
    Permanent Profile.........................        3,508       (0.72)
Temporary.....................................       51,318        10.53
    Pregnant..................................        3,069       (0.63)
    Dental....................................        2,356       (0.48)
    No HIV Test...............................        1,642       (0.34)
    <12 weeks Tng.............................       36,317       (7.45)
    Other.....................................        7,934       (1.63)
------------------------------------------------------------------------

                           TRICARE Readiness

    Question. How will TRICARE help improve readiness?
    Army Answer. TRICARE improves military readiness in several ways. 
Three key areas of TRICARE readiness support are: (1) Graduate Medical 
Education programs/military provider medical skills (ensure necessary 
case-mix for readiness training and sustainment requirements), (2) 
quality of life for military personnel and family members (provides 
positive impacts on troop morale and retention goals) and (3) support 
for contingencies (ensures continuity of health care services during 
military deployments).

                             Access to Care

    Question. Access to care continues to be a problem for many 
military members and their families. Although TRICARE is being phased 
in, access is still not adequate or up to standard. The Quality 
Management Report stated that patient perceptions of access to care in 
military hospitals were ``not as favorable'' as with access to civilian 
care. A 1994-1995 Health Care Survey of DoD beneficiaries showed that 
the highest priority beneficiaries, active duty members, rated their 
access to care as fair to good (2.7 on a scale of 5.0). Active duty 
members also said that over 50% of the time, they were not able to see 
a provider within one week of scheduling an appointment. TRICARE's goal 
is to see a patient no more than one week from scheduling an 
appointment. Dr. Joseph, what are we doing to cut down on waiting 
times?
    OSD Answer. The Department shares the concerns expressed by the 
1995 Quality Management Report that active duty service members are not 
satisfied with their access to health care as documented by the 1994-
1995 Health Care Survey. The Report recommended that the Services and 
Lead Agents monitor access closely and meet all TRICARE Prime access 
standards.
    The Department, by regulation, established strict access standards 
for beneficiaries enrolled in TRICARE Prime. The Department has 
directed the Services and Lead Agents to ensure that TRICARE access 
standards for prime enrollees are being met. A recent comprehensive 
survey shows that improvements are occurring. The results of a smaller 
survey conducted in Regions 6, 9, 10, 11 and 12 show that in most cases 
TRICARE Prime access standards are being met. Eighty-five percent of 
all respondents, which included active duty members, were able to 
receive assistance within 24 hours for urgent care cases. For minor 
illnesses, 95% of all respondents were able to obtain appointments 
within TRICARE Prime's seven day access standard.
    Question. General Blanck's statement says that the goal of the Army 
Medical Department is to ``become the best health care system possible 
for the Nation.'' He goes on to say, the Army already provides ``truly-
world class care at less cost that available alternatives.'' These are 
laudable goals. Unfortunately, I am not sure we are there yet. And I am 
not sure that people like Susan Jones, an active-duty Air Force wife, 
would agree with this. Mrs. Jones was told five weeks before delivery 
of her baby that she would have to go out into the community and make 
her own arrangements for medical care using CHAMPUS. (Air Force Times, 
September 4, 1995) This is simply unacceptable. What are the Services 
doing to focus on the availability and quality of the patient's care?
    Army Answer. I agree that the situation described in the Air Force 
Times article is unacceptable. A patient should not be disengaged from 
her obstetrician five weeks before delivery and told to make her own 
arrangements for medical care. Tri-Service coordination of specialty 
services in the National Capital Area has matured in the last two 
years. Consolidation of graduate medical education programs between 
Bethesda National Naval Medical Center, Walter Reed Army Medical 
Center, and Malcolm Grow Air Force Medical Center resulted in clear 
communications and delineation of patient care responsibility so that 
patients are directed to the correct source of care. As military 
organizations, there may be unique readiness contingencies in which 
continuity of care is broken; however, in these rare instances, the 
TRICARE approach facilitates focused management of patient needs.
    TRICARE closely manages the availability of providers so that 
patients who enroll in Prime are assigned a primary care provider who 
has capacity and responsibility to care for the assigned patient 
population. Specialty care is likewise managed so those patients have 
continuity of care. Access to care and continuity of care are 
benchmarks of quality healthcare. Healthcare providers in the direct 
care system as well as in the TRICARE Preferred Provider Network must 
meet appointment access standards, precluding long waits for 
appointments. Health Care Finders in TRICARE Service Centers locate 
providers for patients who are referred for routine and specialty care 
so that they are not left to fend for themselves. The TRICARE Preferred 
Provider Network, an integral part of the TRICARE program, includes 
only those providers who meet quality standards, as well as agreeing to 
accept military beneficiaries and complete all claims for the patients.
    There are challenges with implementing TRICARE, such as educating 
patients and providers and integrating contracted healthcare and 
systems support into the Military Health Service System. However, 
TRICARE facilities Army Medicine caring beyond the call to duty, and I 
believe that we are moving the correct direction.

                        Quality of Care/Outcome

    Question. Health Affairs is making an effort to measure the 
performance of the military health care system. Quality Management 
Reviews and ``Reports Cards'' on hospitals are used to try and 
determine how well the system is doing. The Report Card system is new 
and will replace the infrequent quality management reports. Quality 
Management reviews were to be done during the fall of 1996. These 
reviews were to cover subjects such as Obstetrics, Cardiovascular 
Disease and Orthopedics and were suppose to provide guidelines to help 
improve clinical outcomes and reduce avoidable costs. This is called a 
``best practice'' approach. Dr. Joseph, have these reviews been 
completed?
    OSD Answer. Yes. We are continuing to evaluate these clinical ares 
this year as well.
    Question. What have you learned?
    OSD Answer. The DoD health cares system performs exceptionally 
well. We have hospitals which exceed the national norms. We have some 
where improvement is necessary.
    Question. What will you implement best practices?
    OSD Answer. It is being implemented now. The findings from our 
ongoing studies will be incorporated into clinical practice on a 
regular and ongoing basis.
    Question. What are you doing to evaluate military medicine based on 
the outcome or result of patient care?
    OSD Answer. The studies mentioned above do evaluate patient care 
based upon outcome. The findings are then incorporated into the care we 
provide.

                          Report Card Project

    Question. Dr. Joseph, please tell us about the Report Card project. 
When will you begin to provide Report Cards on various hospitals?
    Answer. In December 1995, senior staff members of Health Affairs 
completed a series of strategic thinking sessions that, among other 
things, formulated a series of performance measures. These measures 
were linked directly to the goals contained in the Military Health 
Services System (MHSS) strategic plan (e.g., Joint Medical Readiness, 
Benchmark Health System). The purpose of these metrics was to provide 
health care managers at the corporate level (HA and the Service SGs) 
with a measurement tool that would help them evaluate the effectiveness 
of the MHSS as DoD migrated into a managed care environment. The DASD 
for Health Services Operations and Readiness was tasked with broadening 
the MHSS performance measurement system in June 1996. This initiative 
was entitled the MHSS Performance Report Card. The report card project 
was designed to allow the MHSS corporate or aggregate performance 
measures to be examined at the Military Treatment Facility (MTF) level. 
This capability would permit managers at all levels to compare and 
analyze performance at the point where health care services are 
delivered.
    The first version of the report card was released to the Service 
SGs on 28 Aug 1996, and an updated version was released on 5 Feb 97. 
The second version was also released to the Lead Agents and MTF 
commanders. Report cards were produced for 118 Continental United 
States--CONUS and outside the Continental United States OCONUS MTFs, 
each containing 34 active measures on Access, Quality, Utilization, and 
Health Status. Measures include satisfaction with access and quality, 
health screening indicators, JCAHO accreditation status, and bed day 
and preventable admission rates. The primary data sources used to 
populate the report card include the Health Care Survey of DoD 
Beneficiaries and the Standardized Inpatient Data Record (SIDR). Six of 
the defined measures have not been implemented because supporting data 
are not yet available. These measures include the status of medical 
readiness trained/certified personnel, dental readiness, childhood 
immunizations, and three health behavior (smoking/alcohol) measures.
    The 5 Feb 1997 report card release contains data more consistent 
with MHSS goals and includes data on trends in performance. Improvement 
was indicated in 21 of 34 measures while seven reflected no change and 
6 trended away from the desired outcome. The development of report 
cards is an evolutionary process. Future initiatives are aimed at 
populating existing measures, improving the timeliness of data, and 
incorporating ambulatory data. Additionally, leading civilian health 
care measures such as the Health Plan Employer Data and Information Set 
(HEDIS) are being examined for possible inclusion in order to compare 
the MHSS to civilian industry benchmarks.

                            TRICARE Overview

    Question. The Military Health Services System (MHSS) is undergoing 
significant reform--changing from a fee-for-service health care 
program, Civilian Health and Medical Program for the Uniformed Services 
(CHAMPUS), to a comprehensive managed care system, known as TRICARE. 
TRICARE is now being provided in 9 out of 12 regions across the country 
and is expected to improve the quality, cost and accessibility of 
health care for the military.
    TRICARE Prime, the managed care option, is free for active duty 
members and their families. However, retirees under the age of 65 must 
pay an enrollment fee of $230 per individual, $460 per family. Retirees 
over age 65 are not eligible for TRICARE. TRICARE Extra and TRICARE 
Standard plans require higher cost shares than TRICARE Prime, but allow 
the patient to chose a provider. TRICARE is now available to military 
beneficiaries in most of the country. When will the remaining contracts 
be awarded? When will they be implemented?
    OSD Answer. TRICARE is currently available in all areas except for 
TRICARE region 1 (Maine, New Hampshire, Vermont, Massachusetts, 
Connecticut, Rhode Island, New York, New Jersey, Pennsylvania, 
Delaware, Maryland, Northern Virginia); TRICARE Region 2 (Southern 
Virginia (excluding the Tidewater area) and North Carolina); TRICARE 
Region 5 (West Virginia, Kentucky, Ohio, Indiana, Illinois, Wisconsin, 
Michigan); and Alaska.
    All TRICARE contracts are scheduled for award before the end of 
fiscal year 1997. The start of health care delivery for Region 1 is 
scheduled for May 1, 1998. The Region 2/5 contract is still in the 
discussion phase of the acquisition process. The start of health care 
delivery for Regions 2 and 5 is also scheduled for May 1, 1998.
    Question. TRICARE is supposed to improve the quality, cost and 
accessibility of health care for the military. However, the quality 
Management Report suggested that we may not be meeting our goals with 
regard to each of these factors. What is DoD doing to identify and 
address deficiencies in the system?
    OSD Answer. The DoD Quality Management Report (QMR) is used to 
assess, summarize and recommend the state of clinical quality 
management in the MHSS for specific calendar years. It compares and 
contrasts our systems quality, access and costs against internal and 
external benchmarks, allowing us to identify the positive aspects of 
our system as well as areas needing improvement. Besides the QMR, other 
feedback initiatives allowing the review and analysis of the MHSS 
include: the HA Performance Metrics; the National Quality Management 
Program special studies' component; the MHSS Performance Report Card; 
and the Annual DoD Beneficiary Health Survey.
    One of these initiatives, the MHSS Performance Report Card, 
identifies performance measures that are directly linked to the MHSS 
Strategic Plan goals. Its efforts allow MHSS corporate aggregate 
measures to be examined at 118 CONUS and OCONUS Military Treatment 
Facilities (MTFs) throughout the MHSS. It is used as an aid to 
determine best practices that can be universally applied throughout our 
system and target problems that can be identified to improve 
performance and service to our beneficiaries. The latest version of the 
report card that was released in February 1997 contains 34 performance 
measures that are consistent with the MHSS' goals and allows trending 
of performance. Our system realized improvements in 21 of 34 goals and 
allows trending of performance. Our system realized improvements in 21 
of 34 measures, with 7 no changes, and 6 that trended away from the 
desired outcome. MTF commanders can track changes in their population 
over time and compare their performance to other MTF areas. The report 
card performance measures are drawn from several sources to include: 
The Retrospective Case Mix Analysis System (RCMAS), which contains 
inpatient data: the Annual DoD Beneficiary Health Care Survey, which 
contains data on beneficiary health status, access to care, and 
satisfaction with care; the Standardized Inpatient Data Record (SIDR) 
data files; and data from the Quarterly Consumer Satisfaction Survey. 
Each data source provides more information than what actually appears 
in the report card. However, the additional information can then be 
used for more definite analysis of specific areas within the MHSS and 
TRICARE.
    These and other tools gather data which assist us in determining 
what works, what doesn't work, and what needs improvement within our 
system. Information systems such as CIS, CEIS, DEERS, CHCS, and ADS are 
useful tools that help us gauge our system and compare it to known 
established benchmarks. As the Ambulatory Data System (ADs) continues 
to come on line, it will serve as a powerful new source of data on 
outpatient patterns of care in the MTFs.
    We continue to refine the MHSS by validating real problems, and 
retooling our efforts to improve our system to best serve our 
beneficiaries in the most efficient and economical manner within the 
scope of the law and rule that governs our system.
    Question. How do you measure improvements or problems in the 
performance of TRICARE contractors?
    OSD Answer. Staffs at the Office of the Assistant Secretary of 
Defense for Health Affairs (OASD(HA)); TRICARE Support Office (TSO), 
formerly known as the Office of CHAMPUS; and the Lead Agents monitor 
the contractor's performance to ensure compliance with the term and 
conditions of the contract. The contract has specific performance 
standards for all functional areas that must be met by our civilian 
contractors. Those standards are monitored by all the parties to assess 
improvements in the delivery of health care and to respond to any 
problem areas.

                         Transition to TRICARE

    Questions. Many beneficiaries still do not have a complete 
understanding of their benefits and options under TRICARE. What have 
you done to facilitate this transition?
    OSD Answer. As DoD implements TRICARE world-wide, increased efforts 
are being made to educate MHSS beneficiaries so they can make sound, 
informed decisions about their health care. The results of formal 
research conducted in the spring of 1996 indicated that 50% of all 
beneficiaries stated they knew nothing about TRICARE. Since that time, 
DoD has done the following:
    Established a TRICARE Marketing Office as part of the corporate 
vision of Health Affairs and the Services to coordinate TRICARE 
marketing/beneficiary education activities. It's primary function is to 
unify marketing activities, provide overall direction for the TRICARE 
marketing effort, and coordinate the production and dissemination of 
generic communication products to assist in providing standard, 
consistent information about TRICARE to the millions of people entitled 
to care within the MHSS.
    Developed a TRICARE marketing plan, the purpose of which is to 
coordinate the TRICARE marketing and public affairs activities of 
Health Affairs, the Military Services, lead agents, managed care 
support contractors, the TRICARE Support Office, military treatment 
facility and installation commanders.
    Produced and distributed a world wide briefing package consisting 
of videos (active duty and retiree versions), briefing (active duty and 
retiree versions), and brochures.
    Internet TRICARE information posted on DoD/HA's Home Page.
    Focus group research regarding beneficiary attitudes and knowledge 
about TRICARE and Prime enrollee surveys regarding their satisfaction 
with the TRICARE Prime program have been conducted in regions 6, 9, 10, 
11, and 12.
    Other marketing materials produced for the purpose of educating 
MHSS beneficiaries regarding the TRICARE program include videos with 
Spanish sub-titles, Spanish language beneficiary brochure, medical 
staff (provider) pocket cards, tri-fold pamphlets for active duty 
spouses and retiree families, and interactive kiosk.
    A December 1996 survey of TRICARE prime enrollees in regions 6, 9, 
10, 11, & 12, showed that 67% of MHSS beneficiaries reported having at 
least a good understanding of TRICARE with over 25% of them reporting a 
very good understanding or excellent understanding of TRICARE. Overall, 
this survey revealed the MHSS is making great progress in implementing 
and marketing TRICARE, but DoD recognizes there is room to grow.

                         Options Under TRICARE

    Question. TRICARE Prime, the managed care plan, is just one of the 
three options offered under TRICARE. DoD has strongly encouraged 
enrollment in TRICARE Prime--principally because it is more cost 
effective for the government and in most cases the individual. However, 
circumstances may be different for different beneficiaries. For some 
people, having freedom to choose a provider may be more important than 
cost savings.
    How do you plan to ensure the same quality of health care delivery 
for those who choose not to enroll in the managed care program?
    OSD Answer. We agree that enrollment is an individual or family 
decision, that may in a large part, be based on current health status, 
existing patient--health care provider relationships, and current or 
anticipated travel plans that may disrupt an enrollee's continuity of 
care with their Primary Care Manager. For beneficiaries without other 
primary health insurance, enrollment in TRICARE Prime is probably their 
most cost effective health care option.
    All beneficiaries who receive any health care that is reimbursed by 
TRICARE/CHAMPUS have the quality of their health care services 
monitored for quality and appropriateness under the provisions of 32 
CFR 199.15, Quality and Utilization Peer Review Organization Program.

                      CHAMPUS Reimbursement Rates

    Question. There have been complaints that many civilian doctors are 
no longer accepting CHAMPUS. Are the CHAMPUS reimbursement rates on par 
with other insurance programs? Are they on par with Medicare?
    OSD Answer. We have no substantiated reports that many civilian 
doctors are no longer accepting TRICARE/CHAMPUS rates. In fact, 
TRICARE/CHAMPUS participation rate nationally (the percentage of 
services for which doctors accept the TRICARE/CHAMPUS payment amount as 
payment in full) increased from 86 percent in 1995 to 89 percent in 
1996.
    TRICARE/CHAMPUS and Medicare payment rates are generally viewed as 
being lower than other insurers' payment rates. For the most part 
TRICARE/CHAMPUS reimbursement rates for physicians are the same as 
Medicare. Beginning in 1992, consistent with Congressional direction, 
DoD began bringing TRICARE/CHAMPUS rates into line with Medicare, 
reducing overpriced procedures by no more than 15 percent per year. As 
of 1997, 80 percent of rates are at the Medicare level, and 20 percent 
are still in transition downward to the Medicare level. For about 60 
services (out of the 7,000 types of services reimbursed) the TRICARE/
CHAMPUS payment amount is lower than Medicare's. Owing to the strict 
wording of the Appropriations Act provision on physician payment 
reform, DoD has not had broad discretion to raise payments for these 
services to the Medicare level. Although these services represent less 
than 0.2 percent of DoD spending for health services (roughly $14 
million out of $10 billion), it is important that this issue be 
addressed. The Department plans to issue a proposed regulation to 
provide that in these few cases in which the TRICARE/CHAMPUS rate is 
less than the Medicare rate, the TRICARE/CHAMPUS rate will be increased 
to the Medicare level. Implementation of this action will be 
facilitated by acceptance of the President's budget request to delete 
the very restrictive Appropriations Act provision, and rely upon the 
more flexible requirements of 10 U.S.C. 1079(h) to govern TRICARE/
CHAMPUS payment rates.
    Question. Is it true that many physicians are not willing to 
participate in TRICARE? In what regions? What are you doing to solve 
this problem?
    OSD Answer. We have not received reports that many physicians are 
unwilling to participate in TRICARE. As noted in the reply to question 
67, TRICARE/CHAMPUS participation rates are increasing. In addition, 
our TRICARE managed care support contractors have been successful to 
develop networks of providers to support TRICARE Prime and Extra, as 
required by our contracts, typically at discounted rates. There have 
been a few isolated cases where network development has been 
challenging, but no insurmountable issues have arisen.
    Question. TRICARE offers three options to beneficiaries. Of the 
three options, TRICARE Prime is supposed to be the most comprehensive 
and cost effective health care plan. How is that option being received 
by the beneficiaries--particularly in the new TRICARE regions?
    OSD Answer. TRICARE Prime is the most comprehensive and cost 
effective plan offered to our beneficiaries and has been extremely well 
received by them. Enrollment in TRICARE Prime is now available in nine 
of our twelve regions. As of February 28, 1997, 997,032 beneficiaries 
were enrolled in TRICARE Prime. For Regions 7 and 8, where health care 
delivery began on April 1, more than 150,000 beneficiaries have already 
enrolled.
    Question. What are the enrollment trends?
    OSD Answer. When enrollment in TRICARE Prime has been offered in a 
region, there has been a tremendous initial demand to enroll. For 
example, when enrollment was offered in Regions 7 and 8 in late 
February, more than 150,000 beneficiaries enrolled prior to the first 
day of health care delivery which was April 1.
    The popularity of TRICARE Prime continues to expand as program 
improvements are made (i.e., TRICARE Prime portability and the 
elimination multiple copayments for ancillary services ordered by an 
enrollee's physician) and geographic coverage increases. In the regions 
where TRICARE Prime has been offered for more than two years (Regions 
9, 10, 11, and 12), we are seeing over half (54%) of our active duty 
family members enrolled in TRICARE Prime. For other eligible 
beneficiaries, 37% are enrolled in TRICARE Prime.
    Question. TRICARE Prime is free for active duty members and their 
dependents. However, retirees under the age of 65 are required to pay 
an enrollment fee of $230 per individual and $460 per family. Do you 
still have complaints regarding this enrollment fee?
    OSD Answer. When the TRICARE Program was announced, some retirees 
and their family members expressed concerns over the new fee structures 
for health care services that accompanied the TRICARE Prime option. As 
TRICARE is implemented across the country, and retirees and their 
families become familiar with the advantages associated with TRICARE 
Prime, the number of complaints regarding the annual enrollment fees 
has decreased.

                          TRICARE Focus Groups

    Question. Focus groups and surveys have been conducted to try to 
measure the performance of TRICARE thus far. What are some of the most 
frequently heard complaints?
    OSD Answer.
                    focus groups--1995-1996 summary
    Provider groups indicated a desire for training in managed care 
principles and the mechanics of TRICARE and how the program would 
effect their practice. In addition, they felt Graduate Medical 
Education was threatened by the advent of TRICARE. Finally, they 
indicated the contractors would not be helpful (Region 6) and that 
TRICARE would increase their administrative burden. Region 11 and 6 
retirees felt TRICARE would increase their administrative burden. 
Region 11 and 6 retirees felt TRICARE was an injustice, a breach of 
faith and that they shouldn't have to pay for healthcare, and that they 
received rude customer service. Beneficiary groups complained of 
confusion understanding the basics of TRICARE but that their 
understanding was improving. Their fear of the Program was lessening 
and advocates were emerging.
  results of december 1996 tricare prime enrollee satisfaction survey
    The TRICARE Marketing Office developed and conducted a telephone 
survey of 7,728 TRICARE Prime enrollees in Regions 6, 9, 10, 11, and 12 
to determine satisfaction levels in Nov-Dec 1996. The results are as 
follows.
                          understanding prime
    <bullet> 76% of non-AD enrollees and 62% of AD enrollees report 
having at least a good understanding of Prime, but one quarter of non-
AD enrollees don't understand the Prime program and close to a third 
are not positive about the beneficiary education campaign.
      overall satisfaction with prime and re-enrollment intention
    <bullet> 71% of non-AD enrollees and 64% of AD say they are 
satisfied with Prime; 15% of non-AD and 13% of AD are dissatisfied.
    <bullet> 89% of enrollees say they are at least likely to re-enroll 
in Prime; 7% say they are unlikely to re-enroll with the rest being 
unsure or unable to re-enroll.
    <bullet> Beneficiaries who say they understand Prime better are 
more satisfied, as are those who have used the program more. Choice is 
important.

                    COMPARING BEFORE AND AFTER PRIME
    <bullet> Over a third of enrollees report that Prime has improved 
their overall access and quality, with only 12% citing a decline.
    <bullet> Just under 40% of all enrollees report an improvement in 
their overall benefit package, whereas only about 16% say the package 
is worse.
    <bullet> All things considered, enrollees believe that their health 
care is better with Prime than it was under the old system.
  satisfaction across six areas and drivers of satisfaction (medical 
   care, customer service, access/convenience, information provided, 
                          coverage, and cost)
    <bullet> Enrollees are most satisfied with customer service and 
quality of medical care, while being least satisfied with plan features 
(e.g., network size and ability to access specialists) and cost.
    <bullet> For two Key Drivers of Satisfaction, Prime does well on 
customer service--and does less well on the other--plan features; these 
two areas are where improving customer satisfaction is most likely to 
lead to improvements in overall satisfaction levels.

                 COMPARISON ACROSS THE TRICARE REGIONS
    <bullet> Beneficiaries show very limited differences in scores on 
Prime across regions--just eight percentage points on understanding and 
six on satisfaction--and re-enrollment intention varies by just three 
points across regions.
    <bullet> Preventive services (Handbook and Advice Line) are working 
and saving trips to providers and emergency rooms.
    <bullet> Retirees in older regions show considerably higher 
satisfaction with the annual fee than those in California and Hawaii.
   comparison with civilian benchmarks and previous research on prime
    <bullet> Prime enrollee overall satisfaction scores trail NRC 
national civilian benchmark satisfaction levels, although scaling 
differences mitigate some of the difference.
    <bullet> Prime enrollees see much more improvement in their plan 
since the implementation of the program than NRC reports for the 
typical beneficiary in a civilian health plan over the last 12 months.

                             Access to Care

    Question. Access to timely care has been a persistent problem for 
active duty as well as retired families. Despite TRICARE, it seems that 
beneficiaries are still concerned about access to care. Have waiting 
periods been reduced in regions where TRICARE has been implemented? Do 
you have any data that shows DoD is doing better with respect to 
reduced waiting times?
    OSD Answer. TRICARE brings together the health care resources of 
the Air Force, Army, and Navy and supplements those resources with 
networks of civilian health care professionals to improve access to 
medical care for active duty and retired members of the uniformed 
services, their families, and survivors.
    The Department, by regulation, established strict access standards 
for beneficiaries enrolled in TRICARE Prime. The Department has 
directed the Services and Lead Agents to ensure that TRICARE access 
standards for Prime enrollees are being met. A recent comprehensive 
survey shows that improvements are occurring. The results of a smaller 
survey conducted in Regions 6, 9, 10, 11 and 12 show that in most cases 
TRICARE Prime access standards are being met. Eighty-five percent of 
all respondents, which included active duty members, were able to 
receive assistance within 24 hours for urgent care cases. For minor 
illnesses, 95% of all respondents were able to obtain appointments 
within TRICARE Prime's seven day access standard.

                       Medicare Eligible Retirees

    Question. Retirees over the age of 65 are eligible to use Military 
Treatment Facilities (MTFs) on a space-available basis but they may be 
forced out with the implementation of TRICARE. DoD has proposed 
Medicare subvention as a way to solve the problem. Under this proposal, 
the Health Care Financing Administration (HCFA) would reimburse DOD for 
providing care to Medicare eligible retirees. Critics of this proposal 
believe it would increase the deficit.
    Absent legislation, DOD has decided to go ahead on its own with a 
proposal to begin a Medicare subvention ``simulation''. The simulation 
does not require reimbursement from HCFA, but is supposed to show how 
such a program would work.
    What are you doing to reduce the adverse impact of TRICARE on 
retirees who are eligible for Medicare?
    OSD Answer. The combination of a growing military retiree 
population and the closing of military medical facilities in response 
to Department of Defense budget reductions has placed significant 
limitations on the amount of space-available care provided at some 
military treatment facilities (MTFs). The more efficient use of 
military health care resources as a result of the implementation of 
TRICARE has also contributed to the reduction in space-available care 
on which many Medicare-eligible beneficiaries rely.
    The Department would like to offer more Medicare-eligible 
beneficiaries the opportunity to participate in the military health 
care system. However, to do this, absent an increase in the military 
health care budget, DoD would require reimbursement from Medicare to 
cover the cost of providing care to more beneficiaries, also known as 
subvention.
    The Department's commitment to improving Medicare-eligible 
beneficiaries' access to military health care is best expressed through 
our reaching an agreement with the Department of Health and Human 
Services (HHS) in September 1996 on a Medicare subvention demonstration 
project. Under the agreement, DoD would enroll Medicare-eligible 
beneficiaries in the TRICARE program while Medicare would reimburse DoD 
for the care provided to those enrollees who represent an increased 
level of effort beyond what DoD does currently.
    The DoD/HHS agreement requires the enactment of authorizing 
legislation before the demonstration project may be conducted. Again, 
DoD demonstrates its commitment to improved access to health care for 
Medicare-eligible beneficiaries by joining with HHS in drafting and 
submitting to Congress the legislation required to authorize the 
demonstration. The Department believes that the implementation of 
nationwide Medicare subvention policy would be the most effective 
method for improving Medicare-eligible beneficiaries' access to the 
military health care, and we will continue to direct our efforts toward 
obtaining Congressional approval for such a policy.
    Question. What is the status of your Medicare ``simulation'' 
project?
    OSD Answer. The Department is taking steps to prepare for the 
enactment of legislation authorizing the Medicare subvention 
demonstration project described in the DoD/HHS agreement, but without 
reimbursement from Medicare, which must be authorized by statute. This 
preparation for (also known as ``simulation'') the managed care 
demonstration is also referred to as ``TRICARE Senior.'' Under TRICARE 
Senior, the Department will enroll Medicare-eligible beneficiaries at 
military treatment facilities (MTFs) which will be responsible for 
managing their enrollees' care, including making referrals to network 
providers for services not available at the MTFs. Services provided in 
the network will be paid for by Medicare on a fee-for-service basis. 
During this preparatory phase of the demonstration, DoD will calculate 
the level of reimbursement it would have received from Medicare had 
legislation been in place authorizing such payments.
    The Department anticipates publication of a demonstration notice in 
the Federal Register this summer, with enrollment of Medicare-eligible 
beneficiaries in TRICARE Seniors to begin in September 1997 and the 
delivery of health care starting in October 1997. The TRICARE Senior 
program will be conducted at the following sites: San Antonio, TX; 
Reynolds Army Community Hospital, Ft. Sill, Lawton, OK; Madigan Army 
Medical Center, Tacoma, WA; Keesler Air Force Base, Biloxi, MS; and 
Sheppard Air Force Base, TX. Upon enactment of legislation authorizing 
the full managed care demonstration, including HCFA reimbursement of 
DoD, the Department will then adapt TRICARE Senior to the requirements 
of the new statute.
    Question. What have you learned so far about enrollment? What are 
the trends?
    OSD Answer. The only experience DoD has with enrollment of 
Medicare-eligible MHSS beneficiaries is under the Uniformed Services 
Family Health Program (USFHP), a managed care program which operates at 
the seven Uniformed Services Treatment Facilities (USTFs) located 
across the country. This program has proved very popular among the 
Medicare-eligible population as the number of applicants from this 
group exceeds the number of available enrollment slots at each USTF.
    Question. How will this simulation help DoD and the Administration 
determine the viability of actual repayment by the Health Care 
Financing Administration (HCFA)?
    OSD Answer. In the preparatory phase of the demonstration, 
Medicare-eligible beneficiaries will be enrolled at selected military 
treatment facilities (MTFs) which will be responsible for managing 
their enrollees' care, including making referrals to non-MTF providers 
for services not available at the MTF. Services provided outside the 
MTF will be paid for by Medicare on a fee-for-service basis. During 
this stage of the demonstration project, DoD will do some analysis of 
the level of reimbursement it would have received from Medicare 
legislation been in place authorizing such payments. Lacking Medicare 
reimbursement, this analysis will have a limited ability to assess the 
impact of such reimbursement.
    The Department emphasizes that the preparatory phase of the 
demonstration, while critical to DoD's Medicare subvention effort, will 
not provide the Department with opportunity to test its ability to 
perform certain functions necessary to the effective operation of a 
Medicare-risk HMO. For example, because DoD will be obligated during 
the preparatory phase only to providing that care which is available at 
the MTF, DoD will not have the opportunity to fully demonstrate the 
capability to effectively coordinate the full range of military health 
care and Medicare program benefits and to be financially at-risk for 
that care.
    Question. What is the status of legislative proposals to receive 
reimbursement from the Health Care Financing Administration (HCFA) for 
the treatment of these beneficiaries?
    OSD Answer. The joint legislative proposal drafted pursuant to the 
DoD/HHS Military Managed Care Agreement was resubmitted on behalf of 
the Administration to the Senate (Vice President) and the House 
(Speaker) on February 7 by Donna Shalala, Secretary of the Department 
of Health and Human Services.
    Question. What would the impact of this option, known as ``Medicare 
Subvention'', be on the deficit? Wouldn't it increase the deficit? How 
do you propose solving this dilemma?
    OSD Answer. The goal of Medicare subvention is to implement a cost-
effective alternative for delivering accessible and quality care to 
Medicare-eligible beneficiaries. The estimated cost to DoD and to the 
Medicare program of providing health care services to covered 
beneficiaries who receive care at military treatment facilities (MTFs) 
should be no more than the amounts already included in the respective 
DoD and Medicare program budgets for dual-eligible beneficiaries. Under 
a Medicare subvention program. DoD would be committed to meeting its 
current level of effort before receiving Medicare reimbursement. The 
level of effort would consist of DoD resources expended on space-
available care for dual-eligibles and the Uniformed Services Treatment 
Facilities' costs. DoD would likely bring savings to Medicare as the 
Department could provide care to Medicare beneficiaries at a lower 
reimbursement rate than currently paid to commercial providers.
    Question. What is your view of other proposals to offer Federal 
Employees Health Benefits Program (FEHBP) to military members? How much 
would this cost? What would the impact on the Military Health Services 
System (MHSS) be?
    OSD Answer. We are opposed to permitting military members to enroll 
in the Federal Employees Health Benefits Program. Our opposition is 
based on costs, both the incremental costs to enrollee and total cost 
to the government. Under the present FEHBP program the government pays 
72% of the premium share and the individual pays 28%. In 1997, the 
composite annual government premium rate for individual enrollment is 
$1,633 for individuals and $3,508 for families. The composite annual 
premium beneficiary share would be $635 and $1,365, individual and 
family, respectively.
    In its July 1995 report, ``Restructuring Military Medical Care,'' 
the Congressional Budget Office (CB0) evaluated alternatives to the 
current operation of the Military Health Services system focusing 
primarily on a proposal to enroll military beneficiaries in the FEHBP. 
CBO made assumptions about the level of beneficiary participation based 
on cost to the individual and alternatives available. A summary of the 
CBO findings is contained in the attached table.
    CBO assumed with greater government cost shares, the enrollment 
rates would increase. Total cost to the government would increase from 
$7.3 billion with the government cost share at the 72% level as shown 
in the table, to $10.4 billion with the government cost share at the 
85% level, and to $12.1 billion with the government cost share at the 
100% level.
    We are not opposed to a demonstration program for those aged 65 and 
older at a few limited sites where TRICARE Prime is not offered. 
However, we feel that increasing total cost of the program at a time 
when both the Administration and the Congress are committed to 
containing costs and balancing the budget is not wise. We remain 
committed to improving access to our beneficiaries and believe the best 
method to do so is by strengthening the linkage between the Medicare 
program and the Defense Health Program through a Military Medicare 
Managed Care Program as I have testified previously. We can then use 
our capacity and capabilities to more efficiently provide services for 
our beneficiaries.

 CBO'S ESTIMATE OF COSTS TO THE GOVERNMENT, FY 1996 WITH GOVERNMENT COST
                      SHARE AT THE 72 PERCENT LEVEL
                          [Dollars in millions]
------------------------------------------------------------------------
                                              CBO estimates
                                                    of
            Beneficiary category              participation   Total cost
                                                  rates
                                                (Percent)
------------------------------------------------------------------------
Dependents of Active Duty:
    Self Only...............................            70   ...........
    Family..................................            70         1,933
Retirees and Dependents Under 65:
    Self Only...............................            52   ...........
    Family..................................            37         1,673
Retirees and Dependents 65 or Older:
    Self Only...............................            95   ...........
    Family..................................            95         2,325
                                             ---------------------------
      Subtotal..............................  .............        5,930
                                             ===========================
Costs to Medicare:
    Retirees and Dependents 65 or Older.....           N/A         1,363
                                             ===========================
Total Costs to the Government:
    Dependents of Active Duty...............  .............        1,933
    Retirees and Dependents Under 65........  .............        1,673
    Retirees and Dependents 65 or Older.....  .............        3,687
                                             ---------------------------
      Total.................................  .............        7,293
------------------------------------------------------------------------
Source: Congressional Budget Office Paper, ``Restructuring Military
  Medicare Care'', July 1995.

                             Breast Cancer

    Question. Since 1993, the Congress has appropriated over a half of 
a billion dollars for peer-reviewed Breast Cancer research. Last year, 
the Congress added $125 million for Breast Cancer research and 
treatment. $100 million of those funds were to go to peer-reviewed 
research projects. However, $25 million was to go directly toward 
helping military beneficiaries. Last year the Congress added $125 
million for Breast Cancer research and treatment. $100 million of those 
funds were to go to peer-reviewed research projects. However, $25 
million were to go directly toward helping military beneficiaries. 
Please tell us what you have accomplished with this increase for 
military families. How have you allocated their funds?
    OSD Answer. The fiscal year 1996 $25 million was allocated in two 
phases in keeping with the intent of Congressional language concerning 
access and education. Due to the late passage of the National Defense 
Authorization Act of fiscal year 1996, funds were distributed late in 
the fiscal year resulting in the establishment of program designs and 
obligation of funds only. Measurable outcomes will be available in mid-
fiscal year 1997. Phase I funds were used by MTFs for programs and 
projects to increase access to screening, diagnosis and care. An 
example of some of the funded items included screening of additional 
patients, extended clinic hours, contracting for mammography 
technicians, improving access to resources for breast cancer patient, 
establishment of breast cancer support groups, mailing of mammography 
appointment and result notifications, and mammography equipment 
upgrades. Phase II funds initiated programs to educate providers and 
beneficiaries about breast cancer care and early diagnosis. The funds 
were distributed to the TRICARE Lead Agents and used for merit-based 
region wide programs. The following projects were initiated in fiscal 
year 1996:

Quality Management and Nurse Care Manager
Mobile Education Units
Patient Advocacy Program
Genetic Counseling and Testing
Tracking and Mail-Out Education Program
Focus Group Model
Patient Tracking and Case Management Training
Wellness Education Interactive Kiosk
Genetic Screening and Counseling
Education for Youth and Retirees
Centralized Tumor Board and Tumor Registry
Youth and Elderly Education Program
Provider Train-the-Trainer

    Question. Access to mammography and other diagnostic tools are 
critical to early detection of breast cancer. Yet, many military 
beneficiaries still must wait for long periods before getting 
appointments at MTFs. What have you done to cut down on long waiting 
periods?
    OSD Answer. Beneficiary access has been increased in MTFs as shown 
in a sampling from the first quarter reports, which indicated a change 
in the average waiting time from 7 to 2 days and 28 to 7 days in 
examples taken from two Army facilities; 5.5 to 1.5 days and 42 to 0 
days for examples from two Navy facilities; and 20 to 10 days and 18 to 
13 days in examples from two Air Force facilities. This sampling 
represents early data as the performance metric were only incorporated 
during the latter part of the first quarter for this fiscal year. More 
definitive metrics will be reported in subsequent progress reports.
    Question. Since 1993, the Congress has appropriated over a half a 
billion dollars for peer-reviewed breast cancer research. What has been 
accomplished with the peer-reviewed funds provided to the Department? 
Have there been any major breakthroughs?
    OSD Answer. Peer-reviewed breast cancer research funding has been 
directed to complex multi-year research programs. It would be premature 
to say there have been any major breakthroughts.

                                 Bosnia

    Question. The Services are each providing medical support to 
deployed forces in Bosnia. The Army has the primary mission. In 
addition, one telemedicine initiative are being demonstrated in the 
region. Please explain the status of our medical deployment to Bosnia. 
What assets are still deployed?
    Army Answer. Effective 2 April 97, a change of responsibility for 
command and control of medical assets for Operation Joint Guard took 
place between the Commander, First Medical Group and the Commander, 
61st Area Support Medical Battalion, in Tuzla, Bosnia. The Combat 
Support Hospital at Taszar was downsized to a clinic, and the USAF 
Mobile Air Staging Facility downsized to an Air Evacuation Liaison 
Team. Both were fully functional on 21 March 97. The medical treatment 
facility in Tuzla is a Combat Support Hospital (-) (405th), with a 
Dental treatment team (6th ASMB), and Veterinary detachment (445th). 
The Air Ambulance Company providing support is the 498th Medical 
Company (AA), Fort Benning, Georgia.
    Forces deployed are primarily from the First Medical Group, 61st 
Area Support Medical Battalion, the 324th Combat Support Hospital (-), 
(Perrinaine, Fla), 405th Combat Support Hospital (-), (Hartford, Cn). 
the 498th Medical Company (AA), and the 147th MEDLOG DISTRO Team, For a 
detailed list and location I have attached a current deployment map 
that was provided by the USAREUR Surgeons Office.
    Question. How much longer will they continue to be deployed?
    Army Answer. Medical assets (soldiers, equipment, hospitals) will 
remain in Bosnia to support the US forces as long as there is a 
requirement and troops are stationed in Bosnia.
    Question. How are we using reserve personnel to meet mission 
requirements?
    OSD Answer. Beginning in Jan. 1996, USAR medical personnel have 
been mobilized to backfill those active component medical personnel who 
were deployed into Hungary and Bosnia. Mobilized for 140 days, with 
approximately 120 days in the country, these USAR medical personnel 
were deployed to Germany to provide continued health care coverage for 
active duty personnel, dependents, and other eligible beneficiaries, 
Currently the fifth USAR rotation is in Germany. In May we will be 
sending another rotation of USAR of medical personnel to provide 
coverage at our Combat Support Hospital in Hungary, and the Mobile Army 
Surgical Hospital in Bosnia.
    ARNG Medical units are being used to (a) backfill CONUS based 
Medical Units (i.e., Air Ambulance Company--Ft. Benning GA) (b) replace 
medical units in Bosnia on a 270 day rotation (Ground Ambulance 
Company).
    Question. How long is the average deployment time for a doctor, 
nurse or medic?
    Army Answer. All of the USAR medical personnel mobilized and 
deployed thus far have been placed on 140 day tour of active duty with 
the option to extend for an additional tour not to exceed a total of 
270 days. To date several medical professionals, doctors and nurses 
have opted to extend for the additional tour. The only Army National 
Guard--ARNG personnel involved in Operation Joint Endeavor--OJE support 
were enlisted medical personnel.
    Question. Are there any new threats to the health of our troops?
    Army Answer. Medical planning for Operation Joint Endeavor included 
an assessment of the health threats in the Balkans. Among the threats 
posed during the early months of the operation in the winter of 1995-6 
were injury from land mine explosions and motor vehicle collisions, 
frostbite and other cold injuries, infectious diseases transmitted by 
contaminated food and water, rodent-borne diseases, and illnesses 
caused by industrial pollution. In the warmer months, the potential for 
infections transmitted by ticks caused concern.
    In response to these threats, troops received information and 
training on how to reduce them through training sessions, briefings, 
pamphlets, and ``pocket cards''. For protection against ticks and other 
biting pests, troops were trained in the proper use of repellents and 
other protective measures. Troops judged to be at high risk were 
offered a vaccine against tick-borne encephalitis.
    To assist in medical surveillance, a newly activated unit, the 
520th Theater Army Medical Laboratory (TAML), was deployed to Bosnia. 
This laboratory was equipped to assist in the diagnosis of the 
infectious diseases of the Balkans. Additional equipment was deployed 
to evaluate the safety of the air, soil, and water in troop locations. 
Rates of illness and injury were monitored in the troop population to 
detect outbreaks early.
    Rates of disease and injury have remained low throughout the 
deployment, although unfortunately there were several deaths and severe 
injuries caused by mines and vehicle crashes. There were several cases 
of illness thought to be linked to food served at troop dining 
facilities; all affected persons recovered with no lasting ill effects. 
There was one confirmed case of hanta virus infection in a soldier who 
was treated and recovered fully. There have been no cases of tickborne 
encephalitis.

                              Telemedicine

    Question. How has telemedicine been deployed in Bosnia? How has it 
helped medical personnel?
    Army Answer. Telemedicine support in Bosnia combines communications 
and emerging medical technologies to enable the delivery of health care 
in a time-and-distance independent manner. Telemedicine makes it 
possible for physicians and other health care providers to see patients 
and share diagnostic information over great distances.
    The deployment of Telemedicine in Bosnia has provided medical units 
with robust telemedicine capabilities to include computed radiography; 
video teleconsultation; still image store and forward; electronic mail; 
teledentistry; and patient information systems to far forward medical 
units with referral sites allocated at Combat Support Hospitals in 
Bosnia and Hungary, a Regional Army Medical Center in Germany, and the 
medical department onboard the USS Enterprise.
    Question. What have we learned from our deployment of telemedicine?
    Army Answer. The primary insights gleaned from the pilot-study 
(April, 1996 through November, 1996) are as follows: Telemedicine 
technologies should be deployed at forward locations first--
telemedicine is most effective where the difference in capabilities 
from referring to consulting clinician (medic to doctor, generalist to 
specialist) is the greatest; To enhance opportunity for telemedicine to 
succeed, the introduction of telemedicine technology into the existing 
clinical workflow must be carefully engineered and briefed/trained in 
advance; An integrated logistics support package needs to be developed, 
implemented and deployed with telemedicine systems; Health care 
providers need sufficient training and support in the possible/
appropriate uses of telemedicine technologies to integrate it into 
their clinical practice, prior to their deployment; Telemedicine 
equipment must be tested and stressed across the full operational 
spectrum prior to its deployment (full field tested).

                Uniformed Services Treatment Facilities

    Question. The 10 Uniformed Services Treatment Facilities (USTFs) 
are public (health) hospitals that have agreed to provide health 
services on behalf of the DoD to discrete groups of military 
beneficiaries. (Families of) Service members who agree to get their 
health care from these hospitals are restricted to those facilities and 
cannot use Military Treatment Facilities (MTFs). In (the) past, DoD 
considered USTFs to be outside the normal military health care system; 
but last year DoD worked to integrate them into the managed care system 
as a TRICARE provider.
    Dr. Joseph, you have been working very diligently to bring USTFs 
into the fold of TRICARE. There has been resistance to this on the part 
of some hospitals. However, others are more willing to work with you to 
become integrated into TRICARE. Please tell us the status of your 
efforts with USTFs.
    OSD Answer. As you know, DoD and the USTFs worked together to 
develop Guiding Principles and sign a Memorandum of Understanding that 
established the basis upon which the USTFs would be integrated into 
TRICARE. The USTFs submitted language to Congress, which was supported 
by DoD and was enacted by the 104th Congress as Public Law 104-102. 
This language requires that the USTFs be awarded sole source contracts 
to participate as designated providers delivering the TRICARE Prime 
benefit to enrollees. A Request for Proposal was issued on February 11, 
1997, and the USTFs submitted proposals on April 18, 1997. Contract 
award is anticipated this summer for Johns Hopkins Medical Services 
Corporation and by October 1, 1997, for the other USTFs.
    Question. Do the USTFs still have concerns about being part of 
TRICARE? What are their concerns?
    OSD Answer. At the request of Congress, DoD worked with each of the 
Uniformed Services Treatment Facilities (USTFs) to develop Guiding 
Principles acceptable to all the USTFs and DoD. Each USTF signed a 
Memorandum of Understanding with DoD establishing the premise upon 
which a plan would be developed for the integration of the USTFs into 
the TRICARE system as providers of care. Based on the MOU, the USTFs 
submitted language to Congress, which was supported by DoD and was 
enacted by the 104th Congress (Public Law 104-102). There is an open, 
ongoing procurement underway to implement the requirements of this 
legislation. The USTFs have expressed concern with some of the 
government's requirements contained in the Request for Proposal, their 
foremost concern appears to be with the capitation methodology.
    Question. What have you done to alleviate these concerns?
    OSD Answer. The Department has taken significant steps to alleviate 
the USTF's concerns. Prior to issuing a request for proposals (RFP), 
the government conducted a pre-proposal conference to further clarify 
the government's requirements. DoD, at significant expense, retained 
the services of an independent actuarial firm to develop an actuarially 
sound capitation methodology. This unusual step was taken in order to 
alleviate a major concern expressed by the USTFs.
    Question. What are the funding requirements for USTFs for 1998?
    OSD Answer. The Defense Health Program fiscal year 1998 budget 
funds the USTFs at $341,031,000.
    Question. Is a separate appropriation for USTFs required?
    OSD Answer. No, an additional appropriation would not improve the 
management capabilities currently provided by the single appropriation 
structure.

                            Gulf War Illness

    Question. The Comprehensive Clinical Evaluation Program (CCEP) is 
DoD's primary clinical program for addressing Gulf War Illness and 
caring for patients. In addition, the Deputy Secretary of Defense has 
pledged $27 million for research concerning Gulf War Illness for 1997. 
Please tell the committee about your Comprehensive Clinical Evaluation 
Program (CCEP). What is the process for caring for our troops affected 
with Gulf War Illness?
    OSD Answer. Established in June 1994, the Comprehensive Clinical 
Evaluation Program (CCEP) has defined a commitment to comprehensive 
evaluation, care, and ongoing consultation external to DoD to assist in 
the interpretation of findings. This historic program marked the first 
time that military medicine organized itself to provide care, conduct 
trend analysis, and harness the impressions of designated providers in 
a systemwide post-deployment context. The CCEP has continued to provide 
a systematic, in-depth, medical evaluation for all military health care 
beneficiaries with health concerns which they believe may be related to 
Persian Gulf deployment.
    Spouses and children of Gulf War veterans eligible for DoD health 
care have participated in the CCEP.
    To enroll in the program, participants either contact their local 
military medical treatment facility (MTF) or call a toll free number 
(1-800-796-9699) which provides information to individuals requesting 
medical evaluations. The toll-free number was announced at a June 24, 
1994 press conference and its existence was disseminated through the 
military Service's news services. Every MTF has had a designated CCEP 
physician coordinator who is either a board-certified family 
practitioner or internal medicine specialist. This designation as the 
CCEP coordinator facilitated internal consistency across facilities 
with the use of standardized assessment protocols, referral patterns, 
collection of data elements, and an established designated point of 
contact recognized by the MTF staff and across MTFs as a referral 
source. It has enhanced both continuity of care as well as provided the 
designated coordinator with a key role in reviewing assessments for 
quality of completion, nature of symptoms and diagnoses. In addition, 
these designated DoD physicians have served as local outreach sources 
for constituents by referral, through the base newspaper, or through 
the ``town meetings'' held on base. Conditions identified in the CCEP 
are followed at the MTF.
    Question. Do you have an estimate as to how many soldiers are 
affected by Gulf War Illness?
    OSD Answer. There are many diagnoses, signs and symptoms 
experienced by some Persian Gulf war veterans. However, to date, none 
of the six expert, independent scientific panels have found a unique 
entity that defines a specific ``Gulf War Illness.'' As of June 1997, 
42,470 individuals have elected to participate in the CCEP. Of that 
number, 11,427 have declined an examination and only wish to be 
registered. Of the 31,043 who have chosen to be examined, 28,670 
individuals have completed their medical exam and 2,373 are in the 
process of completing their examination. Since the CCEP and the 
parallel VA Registry Evaluation Program were established primarily as 
clinical diagnoses and treatment programs, not as formal research 
studies, with random stratified sampling techniques, we are unable to 
project accurately, how many soldiers may or may not have illnesses 
related to their service in the Persian Gulf.
    Question. How many patients have been evaluated?
    OSD Answer. While 41,046 individuals have elected to participate in 
the CCEP, as of April 3, 1997, 27,160 people have completed the 
examination process. It is important to note that of those who are 
registered in the CCEP, 10,862 have chosen to be registered only and 
have declined a physical examination. As of early April, approximately, 
three thousand individuals, across DoD, are in the process of 
completing the program.
    Question. Dr. Joseph, in your testimony, you mentioned that stress 
is a factor in Gulf War illness. Are you saying that the symptoms being 
experienced by these soldiers are all in their heads?
    OSD Answer. The term Gulf War illness is misleading for we have not 
identified a single or unique cause or agent which would be responsible 
for a large number or a significant proportion of the illnesses in our 
Persian gulf veterans. What we have seen is a large set of diagnostic 
categories with many causes. Although we have found a number of 
patients have medical conditions of psychological origin, this is to be 
expected in terms of what is seen on a large clinic of a comparable 
population. It's important to understand that those individuals who are 
diagnosed with psychological conditions, have conditions as valid, as 
important and that these people are hurting as much from their symptoms 
as if they had bad hips or arthritic knees. The vast majority of those 
with definitive diagnoses are responding to treatment as are those who 
have psychological conditions.
    Question. Does stress manifest itself physically? What leads you to 
believe that many of these symptoms are stress-related and not 
associated with the use of chemical or biological agents?
    OSD Answer. The effects of stress on physiological processes are 
not well understood. Laboratory study is limited by poor definition and 
the clear measurement of ``stress'' and the components of stress 
reactions. While there have been functional conditions identified as 
being influenced by stress, such as duodenal ulcer, heart disease and 
migraine headaches, there are many other factors and more research 
needed to establish the stress connection.
    DoD recognizes the need for epidemiological research on the 
psychological stressors of the Gulf War and on the prevalence of 
physical and psychiatric-mental health outcomes among Persian Gulf 
veterans. The following statements reported by the Research Working 
Group of the Persian Gulf Veterans Coordinating Board indicate their 
approach to psychological stressors.
    ``Psychiatric morbidity among U.S. troops deployed to the Persian 
Gulf area was predicted even though the war was of short duration, 
resulted in a relatively low number of causalities, and positive 
support for the war prevailed at home. Persian Gulf veterans were 
exposed to many psychological stressors besides direct combat, such as 
sudden mobilization for military Service (especially among members of 
Reserve and National Guard units), exposure to dramatic oil well fires, 
the constant threat of chemical and biological warfare agents, and fear 
of the combat in general. A wide range of somatic and psychological 
responses could be expected from individuals deployed to the Persian 
Gulf area from stress associated with deployment.
    ``A variety of symptoms have been reported by Persian Gulf 
veterans. Some symptoms may be related to post-traumatic stress 
disorder. Published findings suggest an increased prevalence of PTSD 
and other psychiatric diagnoses, such as depression, in some Persian 
Gulf War veterans. Although the prevalence of these disorders was found 
to be lower than that found among Vietnam veterans, it is evident that 
stressors during the Persian Gulf conflict were sufficient to cause 
significant psychiatric morbidity. Because of the low level of combat 
experienced by many troops in the Persian Gulf conflict, the presence 
of psychiatric problems among some returnees suggests the importance of 
stress other than actual combat as a precipitating factor.'' This 
conceptual framework has led the Persian Gulf Coordinating Board to 
fund several research projects relevant to psychophysiological 
stressors among Persian Gulf veterans.
    Ongoing research on exposure to chemical and biological agents will 
also help answer research questions such as the one the Committee 
raised. Without research, it is impossible to make connections between 
actual exposures and symptom manifestations.
    Question. Are these soldiers still experiencing problems? If indeed 
they are related to stress, presumably experienced on the battlefield, 
why would they continue to exhibit problems six years after the fact?
    OSD Answer. The Comprehensive Clinical Evaluation Program (CCEP) 
was established to evaluate and provide medical care for individuals 
who are eligible for health care within DoD's Military Health Service 
System. As of April 3, 1997, about 30,180 individuals have elected to 
complete the physical examination portion of the program. The CCEP is a 
clinical program and was not designed as a research study to collect 
follow-up data. Attached are two reports. Attachment A is the April 2, 
1996 CCEP Report on 18,598 Participants. Attachment B is the Institute 
of Medicine 1996 report, Evaluation of the Department of Defense 
Persian Gulf Comprehensive Clinical Evaluation Program. DoD does not 
collect health frequency data associated with past military deployments 
or exercises. Although data is not collected, as with all eligible 
beneficiaries, appropriate medical care is provided as necessary.
    Experience from past wars has shown protracted symptoms may last 
for many years following combat or catastrophic stress-related events. 
Impacted grief, psychic numbing nightmares, exaggerated startle 
responses are just some symptoms which can persist indefinitely if 
untreated.
    Longitudinal follow-up of veterans to determine outcomes over time 
would be best conducted under a research protocol.

    [Clerk's note.--End of questions submitted by Mr. Young.]
                                          Thursday, March 20, 1997.

                   READINESS OF UNITED STATES FORCES

                               WITNESSES

GENERAL RONALD H. GRIFFITH, USA, VICE CHIEF OF STAFF OF THE ARMY
ADMIRAL HAROLD W. GEHMAN, USN, VICE CHIEF OF NAVAL OPERATIONS
GENERAL RICHARD I. NEAL, USMC, ASSISTANT COMMANDANT OF THE MARINE CORPS
GENERAL THOMAS S. MOORMAN, JR., USAF, VICE CHIEF OF STAFF OF THE AIR 
    FORCE

                              Introduction

    Mr. Young. The Committee will come to order. The Committee 
is very happy to welcome the Vice Chiefs of the Services for a 
closed hearing to discuss the readiness of our U.S. Forces. I 
would like to welcome General Ronald Griffith, Vice Chief of 
Staff of the Army; Admiral Harold Gehman, Vice Chief of Naval 
Operations; General Richard Neal, Assistant Commandant of the 
Marine Corps, and General Thomas Moorman, Jr., Vice Chief of 
Staff of the Air Force.
    We invited all of you to be here because of the very 
critical role you play on the issue of readiness and all of the 
issues relative to our national defense. The Committee is very 
proud of the readiness state of our services and you are all to 
be commended and your troops to be commended for that high 
state of readiness.
    We are pleased that today's readiness is great. What about 
5 or 10 years from now. As we look at the budget request, we 
are not really convinced that there is enough investment for 
future readiness. So we will talk with you about that a little 
bit today.
    Your prepared statements will be inserted into the record 
in their entirety. Feel free to summarize them any way you 
wish.
    Mr. Murtha, do you have any comment before we begin?
    Mr. Murtha. I will tell you, it is always a pleasure to see 
such high level interest in readiness. I know the Chiefs are 
obviously interested. To have people of your stature and 
caliber and rank addressing the readiness issue is a key. So we 
appreciate the fact you are appearing before the Committee and 
look forward to hearing what you feel are the problems we might 
be able to adjust.
    Mr. Young. I understand General Griffith, you will be the 
lead off witness this morning. Again, welcome. We are happy to 
hear from you, sir.

                 Summary Statement of General Griffith

    General Griffith. Mr. Chairman, thank you for the privilege 
to be here with the Committee this morning. It is an honor to 
appear before this Committee to talk about the very important 
issue of readiness.
    As you indicated, sir, our forces, the United States Army, 
which I can speak to, is a trained and ready force. I think 
that the performance of our soldiers in Bosnia--the discipline, 
the proficiency of those troops, in a very complex and very 
difficult mission--is reflective of the efforts that we have 
made toward readiness in the recent past.
    Last year, we all watched as Iraq again challenged the no-
fly zone there, and I am very proud to say that within 100 
hours after being called, the brigade of the 1st Cavalry 
Division from Fort Hood had moved from Fort Hood, flown into 
Kuwait, drawn the equipment, and moved forward to battle 
positions along the border and were, within 100 hours, ready to 
meet any threat that appeared on the battlefield. We think that 
is a very powerful deterrent capability, and it is, again, 
reflective of readiness and the improvements we have made in 
the deployment of our forces since the Desert Storm time frame.

                            PERSONNEL TEMPO

    As you also mentioned, there are some challenges to 
readiness. The force today is very busy. I can give you any 
number of anecdotes, but I will just give you one.
    Two weeks ago, I was talking to General Bill Crouch, 
Commander, U.S. Army Forces, Europe--he is now in Sarajevo. He 
mentioned that everybody was aware that the 1st Armored 
Division last year had been in Bosnia. He said what is not 
acknowledged is the fact that the officers and the 
noncommissioned officers of the 1st Infantry Division, which 
was theoretically back in Germany, in fact, were deployed in 
excess of 180 days on average away from home station in 
contingencies in Africa, the security mission in Macedonia, and 
the engagement operations in the East European countries, where 
we are obviously now doing a lot of military-to-military 
contacts. By the way, that 1st Infantry Division is now in 
Bosnia.

                               RECRUITING

    Sir, again, the personnel tempo is a challenge for us, and, 
of course, as you know, we are now facing a recruiting 
challenge. This year, the United States Army will have to 
recruit in excess of 89,000 soldiers. As we have plateaued from 
the drawdown, we are having to replace on a one-for-one basis. 
The recruiting challenge is very significant.
    It has been mentioned in much of the press that the Army 
has gone from recruiting 95 percent high school graduates to 90 
percent high school graduates. That is, in fact, true.
    For the record, I would like to clarify one issue though, 
sir, about the 10 percent who are not diploma-carrying high 
school graduates. All of the 10 percent will, in fact, have a 
GED or GED-equivalent, and, in fact, all of those recruits must 
test in the upper three mental categories to be accepted into 
the force.
    We have done a lot of analysis on this, and we believe that 
this will not impair the quality of the force. In fact, using 
this as a measure of quality, we will be about at the level 
where we were for the Desert Storm force with these standards.

                           SEXUAL MISCONDUCT

    Also, I do not have to tell this committee that the United 
States Army today is facing an issue of what we call respect 
for others. It is called in the press sexual harassment and 
sexual misconduct. Of course, we have been hit by that issue. 
We believe that the cohesiveness of organizations is critical 
to readiness. We think that sexual harassment, and certainly 
sexual misconduct, undermines the cohesiveness of the unit.
    We are going to take that issue in a very big way, and we 
assure this committee that when we look back 2 years from now, 
the Army will be a better Army for having dealt with the issue.

                             MODERNIZATION

    You have mentioned modernization. Again, we hope that if we 
have to put a force in the field in the future, as we did in 
Desert Storm, that that force will have the same technological 
advantages that our soldiers enjoyed in 1991. We are committed 
to that. We need more modernization. I think all of the 
services certainly feel the need for increased modernization, 
to provide our fighting soldiers and the other services the 
technology overmatch that is so critical to the success and so 
critical to minimizing casualties on the battlefield.
    I would say that, right now at the National Training Center 
we think we see the future. One of the things occurring out 
there is the infusion of information technology. I will not 
give a tutorial on that. We believe that the battlefield 
awareness that is going to come from this effort is going to 
allow the United States Army to focus combat power two or three 
times faster than we have ever been able to do in the past, and 
this capability, again, will make us decisive on the 
battlefield and will minimize the loss of soldiers in those 
fights.
    Sir, we look forward to your questions. I thank you for the 
opportunity to appear before the committee, and I appreciate 
the opportunity to say a few words.
    [The statement of General Griffith follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Young. General Griffith, thank you very much. We will 
have some interesting questions for you in a few minutes.
    Admiral Gehman, we would be happy to hear from you now.

                  Summary Statement of Admiral Gehman

    Admiral Gehman. Thanks for the opportunity to discuss Navy 
readiness with you today.
    This committee has always been particularly helpful in 
ensuring Navy readiness, and we are grateful for your support. 
We appreciate you entering my prepared remarks into the record, 
and I agree that probably we will both learn more from the 
testimony and the questions and answers than from the 
statements.
    I would like to just make a very brief opening statement. 
Your Navy is ready today because we have carefully balanced 
three factors. We have kept those three factors in balance: We 
maintained, we trained, and highly motivated people operating 
modern, well-maintained equipment in the right numbers, and 
constantly patrolling the world's trouble spots. The Nation 
expects no less from its human and financial resources than it 
has provided to us.
    Readiness, as we all agree, remains the key to those 
trademarks, and is the forefront of our budget decisions. I am 
happy to report today that the Navy is ready to respond to any 
national command authority tasking.
    As you know, current readiness has been maintained at the 
expense of modernization and recapitalization in recent years. 
This trade-off cannot continue if we are to have a ready and 
capable Navy of tomorrow.
    What we are about now is making those investment decisions 
in programs that will ensure our continued operational primacy 
into the 21st Century. In ensuring these future capabilities, 
we have a significant dilemma. We have to balance the fiscal 
and operational needs of the Navy of today with the defense 
requirements of tomorrow that includes a span of 35 years or 
more into the next century, the length of time that a ship will 
remain in service.
    As we place greater emphasis on essential modernization and 
recapitalization efforts, we must do so without returning to a 
hollow force or shifting the burden of this effort on the backs 
of our sailors.
    We must proceed carefully. We need to be confident of the 
results of proposed actions before execution to ensure that our 
increased funding and procurement really does not damage 
readiness and really does result in increased readiness.
    As this committee so well understands, readiness can be 
hard to define, hard to measure, and even harder to predict. 
Moreover, achieving efficiency and savings from things like 
BRAC, outsourcing and privatization and management initiatives 
is even harder to assure. Among all these uncertainties, one 
constant remains clear, however. Readiness, including personnel 
readiness, is vital to our success and will continue to be our 
highest priority.
    We are eager to work with Congress to achieve this balance 
in our resources. I have used this ``balance'' word three times 
now, to achieve this balance in our resources, to protect our 
current readiness, and fund our future requirements. This is 
not an easy, fast task. We cannot do it alone. We need your 
help.
    We want the Congress to be with us for the take-off as well 
as the landing, and we look forward to working with you and 
other committees on this very important task.
    Thank you very much, Mr. Chairman.
    [The statement of Admiral Gehman follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Young. Admiral, thank you very much, sir.
    General Neal, we will be happy to hear from you at this 
time.

                   Summary Statement of General Neal

    General Neal. Good morning, Mr. Chairman, and members of 
the Committee. I am honored to be here for the first time as 
the Assistant Commandant of the Marine Corps. I would like to 
thank you and the committee for the things you have done to 
keep our Marine Corps ready to respond to our Nation's needs. I 
would just like to make summary comments and submit for the 
record my prepared comments.

                               READINESS

    Readiness is the focus of effort of this subcommittee. Let 
me tell you unequivocally it is also the focus of effort of 
your Marine Crops. For Marines, readiness means being ready to 
not only fight and win battles, but also being ready for 
uncertainty; whether it be to go in harm's way, to rescue 
fellow Americans, to put out forest fires, or to aid victims of 
some type of national disaster. Ready to meet these challenges 
in an uncertain and challenging world.
    We daily, and I can say this with complete confidence, we 
daily challenge ourselves to be the most ready and responsive 
of our Nation's forces.
    As you gentlemen so well know, being ready, responsive and 
capable means having the tools and the equipment from the 
little known tent bag, all the way up to the most sophisticated 
aircraft, being able to maintain those tools as well.
    This year, our ground and air equipment from tent pegs to 
aircraft was or is above our established goals of readiness. 
This was accomplished despite the fact that many of our systems 
have grown old and are just being used and used and used.
    This readiness is a tribute to the young men and women that 
we call Marines, and to those civilian Marines that we have 
working with us also. We include our civilian Marines, because 
they also know what it means to make things happen. All of 
them, those Marines and those civilians, take great pride in 
their work. They take great pride in their equipment, and, most 
importantly, they take great pride in their readiness for any 
eventuality.

                             MODERNIZATION

    The focus of our commitment for a ready, responsive and 
relevant Marine Corps is recapitalization and on modernization 
programs. Our two most important modernization programs are 
well-known to this committee, the V-22, which is going to 
replace a 29-year-old aircraft, and the Advanced Amphibious 
Assault Vehicle.
    Joined with our Navy shipmates in a modernized amphibious 
fleet, and armed with the air-cushioned LCAC, we provide a 
terrific offshore, no-access-required capability to deter 
aggression and respond to crisis and fight and win if required.
    This triad of capabilities, the LCAC, the V-22, and the 
AAAV loaded with young Marines, provides this Nation a terrific 
capability to influence events at the strategic, operational 
and tactical level. This was very vividly displayed just a week 
ago in Albania. Your Marines and Sailors came from the sea, 
rescued over 800 Americans and third country nationals, and 
returned to the sea at no cost. The bill was already paid for 
when you deployed your Marines and Navy out there, all the 
while remaining in a reserve for the Bosnia contingency. So we 
were doing a two-fer, if you will.
    This was conducted with the CH-46, which I mentioned 
earlier is 29 years old. Just think of the opportunities that 
the V-22 will present to the unified commander whether it be 
EUCOM, CENTCOM or PACCOM, where he can use this new capability 
we are bringing on line.
    Just as important as the often forgotten benefit of this 
new equipment is the quality of life enhancements associated 
with it. Right now I can say with complete confidence, 
unfortunately, that our young Marines are working long hours. I 
think this new equipment will reduce the maintenance time and 
provide a class of equipment to our Marines that we can all be 
proud of that will be there for tomorrow's missions.
    In summary, sir, rest assured that readiness remains your 
Corps' number one priority. It always has been and will 
continue to be. We remain committed to the precept that was 
established by the 82d Congress, which said the Corps will 
remain the most ready when the Nation is least ready.
    Thank you, sir, for inviting me here. I look forward to 
your questions.
    [The statement of General Neal follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Young. General Moorman.

                  Summary Statement of General Moorman

    General Moorman. Good morning, Mr. Chairman, members of the 
Committee. I am also honored and pleased to have the 
opportunity to address Air Force readiness with you today.
    I have a very few brief opening remarks, and I appreciate 
your entering my statement into the record.
    First and foremost, I am proud to be here representing the 
men and women of the United States Air Force in this year, the 
year of our 50th anniversary. Our theme for our 50th 
anniversary is ``Golden Legacy, Boundless Future.'' This theme 
is founded on the tremendous contributions made by individuals 
throughout that 50 years of history to build the Air Force and 
to make it the powerful force that it is today.
    The United States Air Force is clearly the most capable air 
and space force in the world today. We are also very busy, and 
I echo the comments of my colleagues. We are globally engaged 
in support of our national security objectives with 80,000 
individuals forward-deployed. We also, on any given day, have 
approximately 14,000 individuals, troops, deployed overseas in 
support of our named contingencies, and as part of the joint 
team.
    These contingencies clearly have an impact on readiness, 
and accordingly, we would appreciate the early passage of the 
supplemental bill, as failure to pass early will have a very 
significant impact as we get further into this fiscal year.
    I am sure each of us will have something to say about that 
subject in follow-on questioning.
    Despite this OPTEMPO, our overall readiness is very high, 
as it is measured in terms of personnel, equipment, training, 
logistics and infrastructure. However, we do have some leading 
indicators of problems which are beginning to concern us. I 
will be glad to address these in the course of today's hearing. 
I will highlight a couple for you, increased difficulty in 
recruiting, and air crew retention which concerns us.
    Our 1998 budget is built around the priorities of people 
first, sustaining readiness, and pursuing a time-phased 
modernization program. Although not the subject of this 
hearing, I do want to emphasize that in our view modernization 
is future readiness. Modernization is the thing that will 
ensure all of our services' future relevance.
    A shortfall in any of these three areas degrades readiness 
significantly, and I echo also what my colleagues say, that the 
secret in the readiness equation is to maintain a balance over 
those three areas. That is a full-time job that all we services 
spend a lot of time on.
    To close, I want to thank you on behalf of the Air Force 
for your staunch support for the Air Force and for air power 
over the years, and for your support of readiness. This 
Committee has been a stalwart in that regard, and we all have 
been the beneficiary of your support in the last several years 
specifically.
    I very much look forward to your questions. Thank you very 
much, sir.
    [The statement of General Moorman follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                          READINESS ASSESSMENT

    Mr. Young. Thank you very much, sir. I wonder if I could 
invite one of you to just briefly describe and educate the 
Members on the various levels of readiness and what determines 
what level of readiness that our forces should be on?
    General Griffith. Sir, in the Army, we use the category of 
C ratings to evaluate readiness, C-1, of course, is the highest 
level of readiness. The C-1 and C-2 ratings are the two highest 
levels, and we seek to maintain those with our active forces at 
all times.
    It has to do with the level of fill of personnel; it has to 
do with the level of equipment in that unit; it has to do with 
the readiness of the equipment in the unit, and it has to do 
with, most importantly in my view, the training readiness of 
the unit.
    We have been able to maintain C-1 and C-2 levels of 
readiness in the active force with one exception that I can 
recall since the end of the Gulf War.
    With regard to the Reserve component forces, we seek to 
maintain deploying units at a C-2 or C-3 level of training 
readiness. That means after some weeks of mobilization, we 
could achieve a C-1 or C-2 level of readiness before we deploy 
them. With regard to materiel fill, with regard to the 
maintenance of equipment, with regard to people levels, we seek 
the same levels in our Reserve component forces that we deploy 
that we seek in the active force.
    That is a very abbreviated address, sir.
    General Neal. In the Marine Corps we use the same C rating 
for readiness. I think one of the things that Ron didn't 
mention, but we find critically important, one of the 
paragraphs in there is called a commander's comment. Basically, 
he takes the five areas and looks at them very closely, and he 
makes the judgment, and this is his military judgment, that if 
called, whether he can accomplish his mission. This is 
critically important, and it is vital to the upper echelons of 
the headquarters to be able to know if, in fact, from a 
commander's perspective, he can meet the mission requirements.
    We have established a new system in the Marine Corps to 
complement the SORTS system, which you are familiar with. We 
call it GOMERS. Only the Marine Corps would come up with a name 
like GOMERS. Essentially what it does, is allow the battalion 
level and squadron commanders to send their readiness reports 
within 3 days at the end of the month, directly to the 
headquarters, so there is no short--I should say lag time 
between the reporting and actually receipt of the report. This 
way the command authority can get a real sense right off the 
bat where we are standing and how we are doing.
    Adminiral Gehman. Mr. Chairman, we all use the same 
readiness reporting criteria. It is DOD-wide, the SORTS system, 
or C-1, 2, 3, 4 system. In the Navy, though, it is applied 
slightly differently than in some of the other armed forces. In 
the Navy, we program and we--our doctrine is to have cyclical 
readiness. We are paid to be gone, not at home. When we are 
gone, we are deployed at sea. Those units are all C-1 all the 
time, and they achieve C-1 rating about 6 months before they go 
and they maintain it for some number of months afterwards.
    We program the units that are in the other parts of the 
sine wave to be at lower levels of readiness. During those 
times of lower levels of readiness, we do major industrial work 
on the ships and things like that, and we design it that way.
    So for us it is not horizontal bands, it is a sine wave, 
and we do have to be careful about what part of the sine wave 
we are talking about.
    General Moorman. Sir, let me add a little bit from an Air 
Force perspective. As everyone has said, we are all on the same 
system, SORTS. The Air Force readiness is extremely high across 
the total force. One of the reasons for that is that our Guard 
and Reserve forces are also tasked under OPLANs to be there 
early and well-prepared. So our Guard and Reserve forces are 
maintained virtually at the same C level ratings as our active 
force. We are very proud of that.
    The reason we are able to do that really is a combination 
of three things: We are giving them the most up-to-date 
equipment, modern equipment. We are training them like we train 
the active and we train together; and then finally we evaluate 
them against the same standard. So the Reserve component 
arrives in theater, it is transparent to the supporting CINC.
    The other thing I would say is that I think General Neal 
pointed out the commander's subjective assessment on SORTS. I 
want to echo his comments to say that it is extraordinarily 
important that you get that qualitative assessment. We are 
looking at SORTS from an Air Force perspective, evaluating it 
to see whether we should add to it, and does it necessarily 
give us all the indicators we need. Is it a realistic 
assessment in all cases and are there things that it might 
mask?
    One of the ways you deal with that is the commander's 
subjective assessment. But I wanted this committee also to know 
that our Air Combat Command today is looking at how we might 
improve the SORTS rating system.
    Admiral Gehman. I think all four services would agree the 
present SORTS system is not very good at predicting the future. 
It is really okay for today. It really looks back.

                   COST OF MAINTAINING HIGH READINESS

    Mr. Young. Is it more expensive to stay at a C-1 level than 
to, say, stay at C-2 or C-3 level?
    General Griffith. Sir, we have looked at that issue, 
because, of course, the readiness has been a topical issue. My 
perspective, sir, in the Army perspective, I do not think so. I 
don't think that we could afford, first of all, to go in the 
active force to tiered readiness, because as you certainly 
know, we have light forces, we have heavy, mechanized, armored 
forces and we have special operations forces. So to be able to 
forecast where you are going to need the force and the type of 
force you are going to need rapidly is a very difficult thing 
to do. So with a small Army, 495,000 and a 10-division force, 
we think it is important to keep all the forces at a high level 
of readiness. We found when you let readiness erode, it takes 
much longer to build the readiness back and consequently is 
more expensive to build it back. So we think--I guess there is 
another, I don't know how you would quantify or put value on 
this, but I think the morale of the soldiers and how the 
soldiers feel about the services they serve in is very, very 
important.
    So from a psychological perspective, I think being in a 
unit that is ready to go is good, is an unquantifiable matter, 
but we think very valuable to morale and cohesion and the way 
soldiers feel about what they are doing.
    General Neal. Sir, just to echo Ron's comments, but also to 
put it in perspective for the Marine Corps, much like our Navy 
shipmates, we are on a cyclic readiness pipe line, and that is 
basically due to the deployment patterns. We have those that 
are deployed, those that have just returned from deployment, 
and those that are preparing to deploy. This causes 
permutations in the readiness curve for each of those 
organizations, as you can well imagine.
    In some of the deployments, they don't have an opportunity 
to get all of the training necessary that would constitute this 
C-1 rating. Likewise, the unit that is building to deploy, is 
getting Fed people, is getting rehabbed equipment, et cetera, 
so is on the building curve.
    I think we go back to that fifth ingredient, the 
commander's judgment. I think realistically, if we look at the 
three organizations, the one preparing to deploy, the one 
deployed and the one just returned from deployment, that if the 
bell rings, the quick fix that is necessary to bring them all 
back up to a ready deployable status is very easily 
accomplished.

                             SUSTAINABILITY

    Mr. Young. One of the subjects that I think goes hand in 
hand with readiness, and I agree, I was curious if you thought 
you could save money by going to a different level. And I 
didn't see how you could, because you have got to keep the 
machine well-oiled and tuned up so that it can go.
    Now, what about sustainability? We have the deployment to 
Bosnia, and that has cost considerable dollars. I would 
guarantee you we are going to move as quickly as our leadership 
will let us move on the supplemental. One of the problems we 
are having is finding an offset for that $2.1 billion, and that 
is getting more difficult all the time, to find an offset for 
that type of a deployment.
    But what that indicates to me is that if the money being 
spent in Bosnia is creating almost an immediate real problem in 
your O&M accounts and training accounts, sustainability has got 
to come in as a big question mark.
    I understand now that we can get it out early in April. We 
will be in pretty good shape. We may not make that date, 
frankly, but we should have it out of the House by then, but if 
we don't, what does that do to the sustainability of your 
forces if the money being borrowed now to pay for Bosnia is not 
replaced on time? What happens?
    Admiral Gehman. We all have serious impacts, Mr. Chairman, 
and it probably varies widely by service. The later the 
supplemental comes, the smaller the pool out of which we have 
offsets. Early in the year, April, or even right now, we have a 
lot of choices where to take the offsets from. As the year goes 
later, and later, and later, the number of choices we have gets 
smaller and smaller, and then pretty soon the only thing you 
have left are flying hours, road miles, and streaming days. 
Real readiness degraders.
    So I consider that the impact that you are asking about on 
failure to pass a supplemental varies with time.
    General Moorman. I think the VCNO has it just right. The 
time factor is the issue of flexibility and how long can you 
forward finance. We are all in a forward-financing posture now.
    In preparation for this hearing, I did a pretty wide canvas 
of the Air Force, and we are saying that 1 June is really where 
we hit the wall, and once we hit 1 June we have to start 
shutting things down or not doing things. That is going to be 
as the VCNO says, flying operations, not participating in non-
JCS exercises, deferring depot maintenance, which gets back to 
your sustainability. And as you go further down that, you start 
having to take more draconian steps.
    We are all significantly worried about it. It does vary. 
That particular date I am talking about varies on how much the 
bill is.
    In the Air Force's case, our bill is approximately three 
quarters of a billion out of the $2.1 billion.
    General Griffith. For us, sir, it is training. The 1 April 
date is a point at which we would have to start making 
decisions about what we are going to do in terms of training in 
the fourth quarter. For us, we would essentially have to stop 
collective training in the fourth quarter. We could do training 
at the basic soldier level. We could do probably some crew 
gunnery, but the collective training of the platoons, 
companies, battalion task forces would halt.
    We would probably have to cancel rotations to the National 
Training Center, which is one of the critical training pieces 
of our strategy for keeping forces ready to go to war.
    So, for us, we would see divisions fall into the C-3 
category of readiness by the end of the fiscal year.
    Mr. Young. The Members haven't left you, by the way, there 
is a vote in the House. I am going to yield to Mr. Lewis and I 
am going to go get this vote.

                              PREDATOR UAV

    Mr. Lewis. Welcome, gentlemen. For those who aren't aware, 
it is one of my points of great pride to be able to say that 
the NTC is in my district, but also Twenty-Nine Palms is a 
minor little operation out there that plays a role in the thing 
called readiness.
    In the several years that I have served on this committee, 
I have watched with great interest our struggling to move in 
the direction of joint servicing, and, indeed, it is a 
struggle. And every year I hear it is a brand new thing to us.
    I saw an illustration of that recently that I wanted to 
throw out on the table and get a response from whoever might 
respond. Secretary Cohen was before us recently and I raised a 
question that we have been focusing upon because there are 
several members of this committee who also serve on the 
Intelligence Committee, and there are procurement programs 
going forward, some of which are now out of the black and we 
can discuss in meetings like this.
    In that session with the Secretary, I pointed to a joint 
program in which the Air Force is the ACC, and suggested that I 
felt there was a need for much more rapid movement than we were 
getting in terms of making that procurement which involves 
UAV's available to all of the branches of the services.
    Shortly thereafter, it is my understanding the Army, after 
that meeting, almost immediately, called the ACC and said we 
would like to have, if possible, the Predator at these training 
sessions that are going to take place at the NTC.
    I understand the response was not no, but hell no. Now, the 
response that came shortly thereafter in writing essentially 
said we are really not ready for this, but if you keep asking, 
you won't even get the Gnat 750.
    Frankly, if there is any truth to all of that, this Member 
is very, very disconcerted, for we have made considerable 
effort to move forward with that procurement process, to get it 
out there early.
    The interest originally developed when Schwarzkopf 
suggested one of the major problems we had in Desert Storm 
involved the very kind of information that becomes available as 
a result of UAV's.
    Frankly, I am concerned that this is strong evidence of a 
lack of willingness to really put some meat on the bones of the 
thing called the joint servicing.
    The Navy, I think, I understand, has serious interest in 
marinization over time. But indeed, if much more time goes by, 
I will be long out of here before they have a shot at that 
plane.
    So, first, I want you to know the priority to which I give 
this item, but it is an illustration that maybe joint servicing 
isn't much more than something we talk about once in a while, 
especially before Members of Congress.
    So I am not sure which one of you would like to start with 
that.
    General Moorman. I have a comment. Go ahead.
    General Griffith. General Moorman and I, the old members of 
the Vices have, worked together on the Joint Requirements 
Oversight Council (JROC) that works in the requirements 
business. I can tell you, sir, the unmanned aerial vehicle 
(UAV) has, since General Moorman and I have been there, been 
the number one priority in the C-4I arena for resourcing.
    Our tactical commanders, our operational commanders, tell 
us the unmanned aerial vehicle must be, and by the way, we are 
talking at the tactical operational level, not the high 
altitude, high endurance. I would also tell you at the National 
Training Center, we are using a surrogate tactical UAV called 
Hunter in two contexts, both for the tactical fight and we are 
using it as a surrogate for Predator.
    As I understand, we did try to work the Predator into the 
National Training Center, the war-fighting experiment we are 
doing there now, and it was not an unwillingness on the part of 
the Air Force to participate. It was an availability, as I 
understand it, of systems and airframes. Because as you also 
know, the Predator is being used right now to support the U.S. 
1st Infantry Division in Bosnia. I think that was the issue.
    I would just address the issue that you raised about 
jointness. I have just got to tell you, sir, I see no lack of 
willingness on the part of any service to work in a joint 
context. I believe, we all believe that the only way you can 
fight and win on the battlefield and be successful is in a 
joint context.
    General Neal and I were honored to be a part of the Desert 
Storm experience. I think that was the greatest reflection of 
how joint forces come together and achieve success that we have 
had in the history of warfare.
    So I have seen no diminishing of that. In fact, I have seen 
a great increase in emphasis on jointness during the time that 
I have been privileged to serve as Vice Chief of Staff of the 
Army.
    General Moorman. Sir, let me echo what General Griffith has 
said. We have worked probably of all the subjects that have 
come before the JROC in the last 2\1/2\ years, I imagine we 
have as much time on UAV's as any. One of the things we decided 
early on was a pioritization of the UAV systems, just as 
General Griffith points out.
    The number one priority was to get a tactical system as 
soon as possible. That is the Outrider system, and that is 
coming along.
    At the same time, we had this ACTD called Predator, and the 
decision was made in the context of the JROC to assign the 
operational responsibility for that to the Air Force on behalf 
of all the services, but it was still a system under 
development managed by a joint program office under the Navy.
    Now, at the same time, the results of this developmental 
Predator system were looking so attractive, we deployed it over 
to Bosnia, where it still operates. We have two over there now.
    One of the things we discovered in the course of that, Mr. 
Lewis, was Predator's inability to operate in the winter 
because of icing. That is not a criticism of this ACTD, it is 
something we had not anticipated. ACTDs are done on the cheap.
    Why I bring that up is it speaks to the availability of 
airframes. We had to bring two back to retrofit with the glycol 
weeping wing kind of thing to allow it to fly at altitude and 
not ice up. So where we are now is a significant shortage of 
airframes.
    But on the Naval Training Center issue, one of the reasons 
that the Air Force decided to put the Predator operational 
training squadron at Indian Springs, Nevada was how close that 
would be to the NTC to better support the Army.
    Early on, we realized that the way to really wring out 
Predator was to get it in the hands of and in support of the 
ground forces, where it is primarily being employed today in 
Bosnia.
    So let me really emphasize, the Air Force takes very 
seriously its joint responsibility to support the Army 
reconnaissance needs.
    General Griffith. If I could make one additional comment, 
if you please, sir. We are getting early results back from the 
National Training Center. It is not a surprise to us, but it is 
being verified for us that the UAV changes the dynamics of the 
battlefield. The ability of the commander to see, to confirm 
where the enemy force is and to know where the enemy force is 
moving, allows him to reposition forces or to position forces 
much more rapidly, with full knowledge that he knows clearly 
where the enemy is moving. It is going to change the way we 
fight. We believe the UAV is a system of great importance for 
the future of the land force.

                            UAV REQUIREMENTS

    Mr. Lewis. Tactical availability is a very important item 
to me. I understand presently the INS, for example, is 
considering leasing some of these systems for their efforts 
along--the drug war along the border. There are available 
systems without any question if they have priority in terms of 
procurement.
    The first time I talked with the Army about Hunter was 
about 4 years ago, because I felt they were being married to 
Hunter and didn't want to look at any other systems. It really 
seems to me that we ought to make certain that the Army has 
crews that can handle this unmanned aerial vehicle if they need 
to; the Navy ought to have that availability. We shouldn't be 
looking to a single force being the fliers. It is just not 
necessary.
    My information tells me that the ORD that recently has come 
out may very well, in the mind's eye of somebody, be designed 
almost to make it impossible for Predator to meet the tests out 
there. The requirement for security for the ground flying 
force, for example, will be so expensive that procurement of 
additional systems will be a real problem down the line. I have 
serious doubts about whether we are really talking to each 
other below your level, and if we are not, I sure hope that 
changes.
    General Moorman. I will say that at the TRADOC/ACC level 
there is a consistent discussion on UAV's and Admiral Gehman 
just comes out of ACOM, and I know this whole issue was a very 
big issue at that time.
    Sir, let me do something for the record, and I think I 
would like to do it jointly with the Army and the Navy, because 
Admiral Gehman has the Joint Program Office, is get you an 
inventory of where the systems are, where we are today and 
where they are and what the schedule kind of looks like.
    [The information follows:]

    A Predator system consists of four air vehicles, one ground control 
station (GCS), one Trojan Spirit II (TSII), ground support equipment, 
and 55 trained people. To date, the following ACTD residual assets 
remain: 7 air vehicles, three GCSs, three TSIIs.
    The Predator system currently operates from three locations. The 
Air Force operates Predator in Taszar, Hungary in support of Operation 
Joint Guard and training assets in Indian Springs, Nevada. The air 
vehicle and GCS contractor, General Atomics-Aeronautical Systems 
Incorporated, operates Predator from their test facility at El Mirage, 
California for research and development and production quality check 
flights.
    The Air Force operates four air vehicles, two GCSs, and two TSIIs. 
Two of the air vehicles, one GCS, and one TSII are deployed at Taszar. 
This is a partial system. The other Air Force operated system (also 
with only two air vehicles) is at Indian Springs, Nevada supporting our 
ramp up of training personnel.
    Future deliveries of hardware include air vehicle P013, which is 
slated for R&D (contractor operated). The next hardware to be delivered 
to the Air Force is scheduled for 1 Oct 97. This will posture the Air 
Force with three partial systems (7 air vehicles out of 12 required).
    In summary, the Air Force currently has one partial system deployed 
and one partial system for training.
    Below is a detailed air vehicle status.

------------------------------------------------------------------------
    System           Location         A/V No.             Status
------------------------------------------------------------------------
2.............  Taszar, Hungary...         P007  Deployed in support of
                                                  Joint Guard. AF
                                                  Operates
2.............  ..................         P012  Deployed
3.............  Indian Springs, NV         P003  Nose gear did not
                 (11RS).                          deploy during FCF, 25
                                                  Mar. Damage on landing
                                                  $270-370K
3.............  ..................         P010  Training asset
1.............  El Mirage, CA              P005  Wet-wing configured.
                 (contractor test                 Blown turbo charger on
                 facility).                       914 engine. Re-worked.
                                                  In ground test.
1.............  ..................         P009  Problem diagnosis,
                                                  rework and checkout
1.............  ..................         P013  Production check-out.
                                                  Scheduled complete: 5
                                                  Apr Ku-SATCOM delivery
                                                  scheduled for Jul. R&D
                                                  asset
4.............  Rancho Bernardo,           P014  In production.
                 CA.                              Scheduled delivery 1
                                                  Oct 97
4.............  ..................         P015  In production.
                                                  Scheduled delivery 1
                                                  Oct 97
4.............  ..................         P016  In production.
                                                  Scheduled delivery 1
                                                  Oct 97
(\1\).........  Duluth, MN........         P011  Wet-wing configured. De-
                                                  ice test 15 Mar-15 Apr
------------------------------------------------------------------------
\1\ Operated with contractor corporate GCS and line-of-sight ground data
  terminal.


    Mr. Lewis. Just one more comment. I was earlier somewhat 
concerned about the movement of these systems from Huachuca. It 
was mentioned that there were distance problems, et cetera, et 
cetera. Frankly, the distance capability of Predator is such 
that there have to be other reasons for that expenditure. But 
it is an expenditure of discretionary dollars that are very 
dear dollars.
    I intend to continue to pursue this all the way to the 
Secretary's level, for I give it that priority. I appreciate 
the Chairman's patience in the connection. Just so you know, I 
do have interest in questions like terrorism and counterrorism 
otherwise, but that will have to wait for another time.
    Thank you, Mr. Chairman.
    Mr. Young. Mr. Lewis, thank you very much.
    Mr. Dicks.

                   CONTINGENCY FUNDING AND READINESS

    Mr. Dicks. Well, I regret very much not being here for all 
of the various statements. Of course, readiness is one of the 
most important issues.
    The way, as I understand it, what usually happens, is the 
various bases around the country are asked to pony up or they 
are not given money, or money is held back, in order to fund 
the deployment until Congress acts on a supplemental or that 
money is replaced. In some cases there is grave concern about 
training and exercises that are planned, et cetera.
    Is this a major concern and does it affect readiness and 
training? Always having to guess about money for these various 
deployments?
    General Moorman. Well, you missed a bit of the discussion 
earlier, sir. You are quite right, I would only modify your 
statement, to say that the bases, you don't withhold the money. 
The bases end up forward financing with monies that they had 
planned to do something else with, like fly or replenish spares 
or those kinds of things. So there is that period of 
uncertainty.
    In the Air Force, for example, we have just had a four-star 
conference to discuss flying hours and how we were doing--when 
were the drop-dead dates and those kinds of things. So there is 
a great deal of uncertainty, regarding exercise participation, 
and basic combat training. How do your flying units or ground 
or naval units do your training because they have forward-
financed and have no money left, they begin to start going C-3, 
C-4. So, yes, sir, it has a tremendous impact on readiness.
    Admiral Gehman. We mentioned earlier it really varies with 
time. At this time, March of this year, we are faced with a $4 
billion unknown out there. We can spread the cost of that over 
lots of accounts, not just readiness accounts, depot 
maintenance accounts, personnel accounts, flying hour accounts, 
all kinds of accounts.
    As the year moves on, our option to spread that gets 
smaller, and smaller, and smaller, and it is only prudent that 
we hold back, that we watch our expenditures to make sure that 
we have reserves. I think you understand that.
    Come April, May, June, we are all going to start feeling 
discernible, measurable pain.
    Mr. Dicks. It just seems to me that maybe between the 
administration and the Congress, we ought to do more, and I 
know this is easier said than done, about trying to make, 
anticipate and trying to suit, to put some additional authority 
in the budget for deployment, so you don't have to go through 
this exercise every year. But until I think this committee 
added some money, I think it was $600 or $700 million, that had 
not been done before. I think that is just something we need to 
try to figure out.
    General Neal. I would just add, although not impacted too 
much for the requirement of the supplemental because most of 
the forces we have employed in the Bosnia peace were already 
forward-deployed, and there was some sacrifice in training in 
order to deploy them, but it was money we already programmed.
    But I think the real key point you make is absolutely on 
the mark. Discretionary money just isn't out there, and we 
can't set aside at this time probably legally some type of an 
escrow account from which we can draw. But that is probably 
something we should take a long look at for contingencies.
    My biggest burden, as we speak, is trying to recover money 
for repairs to damages brought about by the hurricanes down in 
North Carolina, substantial damages, $50 million worth of 
damage.
    Mr. Dicks. Because of storms?
    General Neal. Yes, sir, two hurricanes worth. Trying to 
find the money, the base commander is stretched to the limits. 
He has to do trade-offs through his prioritization, and then he 
pays for it and hopes that he can get some relief from 
committees such as this, sir.
    Mr. Dicks. Thank you, Mr. Chairman.
    Mr. Young. Mr. Bonilla.

                   ENVIRONMENTAL ISSUES AND READINESS

    Mr. Bonilla. Thank you. Chairman.
    General Griffith, I would like to start out by asking 
something that came up in our subcommittee last year. How much 
manpower is used at the National Training Center and Fort Bragg 
to deal with new sanctions like the Endangered Species Act, 
lawsuits and people that come around filing injunctions. In one 
case, I understand we had tanks stop rolling.
    I understand at the National Training Center there is a 
need for more space to operate. This is also causing a big 
problem. How much time do you spend on stuff like that, which 
has nothing to do with training and readiness and distracts 
from what you really need to be doing?
    General Griffith. Sir, I will tell you, we have learned a 
lot about red-cockaded woodpeckers and the desert tortoise in 
the last 5 years. It has been interesting.
    I must tell you in all candor, we centrally select our 
commanders for garrisons, which I think is unique for us. The 
Air Force has done that in the past, we have not. We are 
training these commanders, and one of the things we are 
training them to do is to understand how they must operate in a 
setting where the environment is very important, and rightly 
so.
    We have closed down ranges at Fort Bragg. We had ranges at 
Fort Bragg that we couldn't use because of the red-cockaded 
woodpecker and much of that was our problem. We had problems at 
Fort Polk, Louisiana, where we were not able to use training 
areas that were important to use because we did not have a keen 
appreciation for what we were doing to the environment, and of 
course, California with the desert tortoise at our very 
critical training center for us, the National Training Center. 
That was a problem to a lesser extent.
    But I must tell you now that since we have learned to 
operate with the various folks who work the environmental 
issues and have learned to work with them in a partnership 
arrangement, we have, quite frankly, found that the inhibitions 
to training have been cut dramatically. If you ask me do I 
consider that a major problem today, I would just have to tell 
you, no, I do not.
    Mr. Bonilla. One of the reasons I ask is that in San 
Antonio, it is not just Army we have, there are Air Force 
installations there as well, and there have been some groups 
who have said that they, frankly, don't care if the military 
installations have to shut down. This relates to the water 
supply and a theoretical threat to the snail darter, something 
that no one has really ever seen, and it concerns me that 
instead of being able to concentrate on the things you need to 
do, this is too much of a distraction. It troubles me, frankly, 
when somebody affiliated with one of these groups says they 
really don't care if the installations have to shut down.
    General, just one more question on this issue. Do you think 
that the Commander in Chief should have the ability to just 
simply sign a waiver or nullify the Endangered Species Act in a 
particular area of the country when it becomes too big of a 
distraction for those who are trying to do their jobs?
    General Griffith. Sir, I don't really feel qualified to 
give you an answer directly, but I will tell you again, I want 
to reemphasize----
    Mr. Dicks. That is an excellent answer.
    General Griffith. The places where we find training; you 
mentioned Fort Bragg. Fort Bragg was a problem 5 years ago, and 
Fort Bragg is not a training problem now. It is not a problem 
for us to use our ranges there. It is not an area where we are 
having difficulty. We would like to extend the National 
Training Center. If you look at the area and if you want to 
move to the South, you have to deal with the issue there that 
you talk about, the desert tortoise.
    I am not making judgments about which way we ought to 
expand it because we would like to expand it in both 
directions. If you expand to the East, then we do not see the 
environmental issues there. I am not trying to dodge your 
question, sir, but I, quite frankly, do not feel qualified to 
make that kind of call.

       GUARD AND RESERVE TRAINING AT THE NATIONAL TRAINING CENTER

    Mr. Bonilla. I appreciate that. Moving on to something 
related to the National Training Center, in your testimony, you 
pointed out the obvious value of what folks learn there, and 
you also emphasized the important role of the Guard and Reserve 
and its total force.
    My question is do the Guard and Reserve have the benefits 
of this training experience and is the entire active force 
having sufficient exercises of this sort? If not, even if not 
actually at the training center?
    General Griffith. Sir, as you probably know, we have 12 
rotations a year. We feel that a rotation to the NTC is the 
apex of training. That is graduate school for us.
    To be little dramatic, after the Gulf War, when we went out 
and talked to our soldiers, the soldiers said the Iraqi Army 
was a piece of cake, because they fought far better enemy 
forces at the National Training Center.
    We believe it is the crown jewel of training for the United 
States Army. The Guard goes there. We send Guard brigades 
programmed to go in there. It is graduate level work. It is 
extraordinarily difficult to be successful in that environment 
for a well trained active unit. An active unit that gets out of 
there with a tie against the opposing force feels lucky. I have 
taken units there and lost more than I have won, by far.
    It is a extraordinary event to take a National Guard 
brigade there and have them do as well. Measuring against the 
same standards--and we agree with the Air Force in the sense 
that you should measure against the same standards--it is very 
difficult for the National Guard units to achieve the level of 
training readiness that you need to obtain before you put them 
into that environment.
    After having said that, we are sending rotations of 
National Guard brigades there, and we have brigades programmed 
over the next 3 to 4 years. It is an extraordinary investment 
on their part to prepare for that event, because it is very, 
very difficult, very challenging, and very complex.

      NATIONAL TRAINING CENTER SATELLITE OPERATION AND FORT BLISS

    Mr. Bonilla. In the interest of allowing more Guard and 
Reserve to participate in this experience, what would you think 
of the possibility in the future of trying to set up maybe a 
satellite operation, maybe even in the Fort Bliss area, to 
logistically allow more people to participate? Because you can 
only move so many people through there, and also the logistical 
problems of getting them back and forth.
    General Griffith. Sir, we have done that at Pinon Canyon in 
Colorado, but not at Fort Bliss, yet. We have had very high 
success at Pinon Canyon.
    I think the satellite notion is one that has merit and one 
that, quite frankly, we are encouraging our Guard leadership to 
consider.
    Mr. Bonilla. What about specifically the Fort Bliss area? 
Do you need another satellite operation, or are you happy with 
what you have now?
    General Griffith. Sir, quite frankly, Bliss is a great 
training area. I have trained there, so I know the area very 
well. The problem with Fort Bliss for us is that you have to 
move units a long way to get them there. That becomes, of 
course, a great expense.
    I would not rule out training at Fort Bliss because it is a 
great training environment. But also, to be candid with you, 
right now we are not planning at this time any maneuver 
exercises out there with Guard units.
    Mr. Bonilla. I appreciate your candor, General. Thank you. 
Thank you very much.
    Thank you, Mr. Chairman.
    Mr. Young. Mr. Visclosky.

                       REAL PROPERTY MAINTENANCE

    Mr. Visclosky. Thank you, Mr. Chairman.
    Gentleman, thank you very much for being here today.
    Two areas that I have a great deal of frustration over are 
the areas of real property maintenance and ammunition. My 
understanding is that during the last several years the 
committee has added on $700 million, $600 million, 
respectively, and that for this fiscal year we have created a 
quality of life defense account for $600 million. My 
understanding, however, is that during the coming fiscal year 
the backlog on real property maintenance is going to increase 
and the fund set aside for that purpose in the budget has 
declined. Would you care to comment on that?
    My concern on real property is, we have this arrangement, 
if you would, every year. You do not ask for enough, we add it 
on, but everybody talks about the need for this to happen, and 
the quality of life and the issue we are addressing today, 
readiness. I guess I just keep waiting for you to ask for the 
appropriate amount of money, whatever that may be.
    If you have asked for the appropriate amount of money, if 
could tell me why that is, I would appreciate knowing.
    Admiral Gehman. I will answer first, sir. As I indicated in 
my opening remarks, the secret here is balancing accounts. Real 
property maintenance competes with modernization accounts, it 
competes with manpower and personnel accounts, and we are in a 
season right now of moving money toward procurement accounts. 
That is what we are all trying to do. Some people think we are 
not doing it fast enough, but nevertheless, the drift, the 
emphasis, is towards procurement accounts, and we are 
rebalancing all these other accounts.
    Does that give us concern? Yes, sir, it does give us 
concern. In the Navy we have a 200-year plant replacement value 
equation. Every building we build, the finances indicated that 
we will be able to replace that building after 200 years.
    Obviously, they are not going to last 200 years. That is 
not a useful way to look at it. On the other hand, we have 
found some efficiencies. We have found, for example, in the 
world's largest naval base, in Norfolk, Virginia, we found the 
best thing we can do is get the bulldozer out and start 
demolishing things. We have demolished over 70 buildings in the 
lasts 18 months. Those buildings all counted in our property 
accounts, and they all skewed the statistics, because half of 
them were empty and the other half that were not empty were 
being used by people who found empty buildings and moved into 
them. So like industry, we are having to find legitimate 
business ways of handling this.
    Nevertheless, I am not here to tell you that we have fixed 
this problem. We are migrating money away from these accounts, 
just as you suggested, but we are doing so because of a larger 
strategic reason. That is, the Congress and the Department of 
Defense and our departments have all realized we need to 
rebalance our investment accounts, and it does leave us with 
some concerns, yes, sir.
    Mr. Visclosky. Is one of the problems how we categorize 
these buildings? You talk about demolition. I am familiar with 
the concept.
    Are we simply not classifying some of these structures 
correctly so we have a truer picture of exactly where we stand 
on this question?
    General Neal. Sir, in the case of the Marine Corps, our 
bases--and I am sure the Army would jump on board--a lot of our 
bases are old, as you well know. So trying to recapitalize 
those facilities is probably a losing venture. It is probably 
better if we can build something new.
    So we have instituted an active demolition program also to 
try and whittle down these structures that no longer meet what 
we would require--they are substandard, while at the same time 
looking at the quality of life piece and saying, okay, where 
should we put our money that can best affect immediately the 
quality of life?
    Of course, where the folks live, young Marines live, and 
where they work, are probably the two primary ingredients. So 
as a result, we have kind of focused our energy here.
    But I would go back to what the Vice CNO said; it is a 
balancing act. In the competition for the limited resources, 
without discretionary money around, that balancing act 
sometimes doesn't go exactly how we would like to do it. But I 
think we have balanced it quite well. Your committee, in fact, 
has supported us well in that effort.
    General Moorman. I can't add anything to what the VCNO and 
the assistant commandant have said about the mechanics. Your 
observations are absolutely right; we are taking money from 
these accounts because of the tightness of dollars and we are 
trying to keep a balance.
    I would only say that the priority in this area is where 
people live, as has been said. I think this Committee has been 
spot on. You all have provided us money in that regard, plus-
ups for, in our case, dormitories, and that is where the 
emphasis ought to be.
    General Griffith. I would just pick up a couple of points 
to give you a couple of specifics in this area. You asked about 
the power funding against the requirement.
    For instance, in the 1998 budget, we are funding 68 
percent. We have $100 million--again, to another issue just 
talked about, we have $100 million we are going to apply over 
the years through 2003 to demolition. We are going to take down 
about 60 million square feet of old buildings that cost you a 
lot of money to hold on to and maintain.
    By the way, we are sitting right now on 150 million square 
feet. We will still have excess surplus. So we will have 
surplus even after that.
    I would also just say the committee has been generous to 
us. We appreciate it. Last year the Army picked up $149 
million, and with that money we have been able to put 5,300 
barrack spaces for soldiers up to top quality standards.
    Mr. Visclosky. General Neal, if you are ever looking for a 
base, I have some great locations, like in Porter County, 
Indiana. So please do call us.
    General Neal. I will keep that in mind, sir.

              AMMUNITION MODERNIZATION AND INDUSTRIAL BASE

    Mr. Visclosky. I appreciate the difficult balance you have 
to strike. I don't think I state for myself, because it was the 
Congress who added on $700 million in 1996, it was the Congress 
that added on $1.2 billion, and we too, obviously, have to 
struggle with striking that balance, and if we have to make 
those decisions, we will. I think the message I would want to 
give you is, I think you would have support, certainly within 
this subcommittee and the Congress, in trying to force that 
issue to every extent that you can.
    In talking about balance, moving on to ammunition, my 
understanding is that you are in reasonably good shape as far 
as war reserves and training. The problem primarily is on 
modernization in your industrial base. Would you want to 
comment on that?
    General Griffith. I guess I should be the one to comment on 
that, but I must tell you, I would have to provide you a 
reasonable answer for the record. I can talk about the 
ammunition. I can tell you we are modernized in our munition 
lines. We, quite frankly, do not have the money in the 
munitions budget that we would like to have. We are having to, 
as you probably know, use war reserve ammunition for training 
right now. That's about half a billion dollars this year. But 
after having said that and after having looked very closely at 
our war reserve stocks, we are in good shape in our war reserve 
stocks in the munitions area.
    To talk about the production base, however, I would have to 
come back for the record and give you a better answer than I 
can give you here this morning.
    Mr. Visclosky. If you could, and your perception of the 
problem as far as modernization. My recollection is, there are 
about 16 or 17 types, and there are monies in your budget, I 
think, for a number of those, but not even the majority of 
those, as far as modernization. If you could, I would 
appreciate it very much.
    General Griffith. We will do that.
    [The information follows:]

    We have built a balanced ammunition program, within the 
context of the overall Army budget. We place funding priority 
on readiness which means training ammunition, then, modern 
munitions based on affordability. The fiscal year 1998 request 
adequately funds our demilitarization program and marginally 
funds our organic production facilities. The Army is currently 
performing an Industrial Base Assessment to identify 
opportunities for efficiencies and modernization, and make 
recommendations on reshaping the production base to meet 
national security requirements of the 21st Century.
    The Army has sufficient war reserve assets (preferred plus 
suitable substitutes) to support the National Military 
Strategy. Preferred munitions include 29 selected ammunition 
items. Fifteen of the preferred are considered modern; these 
represent the latest technology in ammunition design.
    Asset levels, against the Army's Stockage Objective, for 
the 15 modern ammunition items are: 3 at 100 percent, 2 at 90 
percent, 1 at 80 percent, 8 at 5-70 percent, and one item is 
being deleted. Asset levels for the remaining preferred 
ammunition items are: 11 at 100 percent or more, 1 at 90 
percent, 1 at 65 percent, and 1 at 35 percent. Replacements for 
three of these preferred munitions are in research and 
development, with planned outyear procurements.
    For preferred ammunition items at less than 100 percent 
fill, the Army has assessed the risk of the shortage by 
considering the use of suitable substitutes. The final 
assessment: the Army can meet its needs with the current asset 
level of preferred items and substitutes. If there is an 
immediate need to modernize to 100 percent for all preferred 
ammunition items, the estimated cost is $16 billion; only $2.5 
billion can be executed in the near-term.

    Mr. Visclosky. Thank you, Mr. Chairman.
    Mr. Young. Mr. Hobson.

                       RESERVE COMPONENT CONCERNS

    Mr. Hobson. Thank you, Mr. Chairman.
    I want to make a couple of general comments to start off. 
In 1960, Secretary Robert McNamara said: ``We are going to get 
rid of the Guard. We don't need them. We are going to deploy 
them, and they are going to fail,'' and they didn't.
    Some services have handled that pretty well and can compete 
pretty well. I am going to pick on you, General Griffith, a 
little, and this is a general perception, but I think you need 
to know how the committee thinks sometimes.
    I think the Air Guard has competed very well and has gotten 
equipment and will show in its performance that it does. But I 
am concerned that the Army over the years--and it may be due to 
the mission, but it has not given to the Army Guard and the 
Army Reserves the support that it needs. So there is always a 
problem. I would hope--and you don't have to respond to this, 
but I would hope that you begin to look at that.
    I have some problems with procurement, how it is done, and 
I have voiced those. You probably read all this stuff. I don't 
know if they tell you. But we have got to have a strong Army. I 
think we do have the best Army, but I wanted to make sure it 
continues to do that. But I think one of the strengths as we 
look out--and you have heard it here--I was over in MILCON the 
other day, and one of the guys got all upset again about the 
Guard and Reserves being ready to go and to do their job. I am 
not convinced that the Army is there yet. So I hope you will 
sense from some of the members what they are thinking about.
    I also think we get gains in how everybody approaches 
things. You know the stuff we are going to put back, so you do 
some stuff that you fund some stuff elsewhere, and then we wind 
up having to put stuff back in.
    I also sit on the Budget Committee, and I can tell you, we 
are having some real problems with that sort of thing over in 
the Budget Committee. That is not just to you, that is to 
everybody.
    I understand you have already had a long discussion in here 
about excursions off in various places, popular ones and 
unpopular ones. I don't know that any of them are really ever 
popular. But that is a problem with us. We are going to have to 
figure out how we fund that better overall.

                      NATO EXPANSION AND READINESS

    I have a couple of specific questions I would like to get 
into. There is strong bipartisan support for enlarging the 
North Atlantic Treaty Organization. Some of the countries--
Poland, Hungary, and the Czech Republic--are expected to come 
in sooner.
    I have a particular interest in Latvia. One of my 
constituents is now fairly prominent in their defense. I have a 
particular feeling for those three little countries up there 
that the world just twice kind of said, ``You don't count,'' 
and dumped them off. I am concerned, though, about the 
readiness that might be affected by a NATO expansion because it 
is gong to cost some money. Is that going to give you all a 
problem or heartburn?
    General Griffith. Do you want to take the hard one? I will 
just make a couple of comments about that.
    I would not be presumptuous to make observations that are 
more rightly made by the Secretary of State about whether we 
ought to be doing that or not, but I will tell you from----
    Mr. Hobson. Just from a readiness standpoint.
    General Griffith. I mentioned earlier that in regard to 
U.S. Army Europe, it was well known that we had the 1st Armored 
Division in Bosnia performing a mission and a lot of forces in 
Hungary supporting the mission.
    What did not get a lot of attention was the other forces in 
Europe, the commissioned and noncommissioned officers who were 
deployed an average of 180 days. Not just in Eastern Europe, 
but in many cases we were in Eastern Europe working with these 
new friends. We were working with these former adversaries of 
the old Warsaw Pact countries, talking to them about how you 
build professional armies, and how military forces operate in a 
democratic society. Candidly, it gives us additional missions; 
there is no question about that.
    On the other hand, I think the value of all that is 
something I would not try to quantify but I think is enormously 
valuable for this country, for the future of Europe, and for 
the safety and security of a lot of people.
    General Moorman. Sir, I want to echo that a bit. I don't 
really have a good sense about what NATO enlargement is going 
to cost the U.S. taxpayer or the defense budget. I really 
haven't gotten into that kind of discussion yet. That is being 
carried on at a level that is above the folks sitting in front 
of you.
    On the other hand, this movement in Europe that General 
Griffith has referred to, these countries becoming more 
democratic and building professional military organizations, is 
really aided and abetted by a relatively small number of people 
in a funding sense.
    I think all of us, as services, have activities under 
Partnership for Peace, which Ron was referring to, which may be 
the best spent dollars in the defense budget in terms of the 
payoff. These folks are doing a tremendous job in not only 
helping these nations get a better military but helping them 
understand the role of the military in a democratic society and 
evolving into that to become modern, democratic nations.
    So I think in the JROC, we all review the Partnership for 
Peace Program, and we are all--I think I speak for all of us--
we think that if the issue is funding in terms of NATO 
enlargement, that aspect in contributing to NATO enlargement is 
really money well spent.
    Admiral Gehman. May I make a short response to that?
    Without reading anything into your question, we are really 
talking about an unknown bill for the future here. It turns out 
that the Congress and the Department of Defense and all of the 
services, we have a number of unknown bills coming up. National 
missile defense is something you all are going to debate and we 
have to pay for; counterterrorism; defense against chemical and 
biological attacks is a bill which we may or may not have to 
pay; START II ratification or nonratification is an unknown 
bill.
    So in addition to having programmatic risks about MRP and 
recruiting and things like that which we all struggle with 
every day, we mutually have a number of unknown risks out 
there, and when we have to do the trades for those things, I 
think all of us would not put readiness in the trade space.
    There are a lot of other things we would put in the trade 
space. Some of them are going to be not pleasant to swallow. 
But I think we are fairly committed that readiness is not in 
the trade space.

                     COST OF TECHNOLOGY DEVELOPMENT

    Mr. Hobson. Well, I just have another general question, and 
that is, if we look at readiness, this is a trade-off too; this 
is something, you know, you have to put in the mix.
    In the Gulf War, we used a lot of technology and we learned 
that some of the stuff that we thought was not going to work 
did work, and you all used different parts of that.
    Somehow you have to find a mix between technology and the 
cost of technology and your ability to have readiness and be 
ready for the mission that you really did not quite think 
about, because the times have changed. That is a big buck item 
too.
    I happen to represent an area also--everybody on here seems 
to represent some area that does something, but, you know, this 
technology stuff is not cheap. But some of it is cheap, because 
some of it is off the shelf. That is the other thing we have to 
figure out. It is a change in our thinking, and there have got 
to be some changes also in the thinking.
    I don't know how to put this, but I have had agencies come 
to me and say, ``You know, I would like to do it, but down in 
the bowels of my operation I have got all these people that 
have been there a long time, and I can't get this done.''
    I suspect some of that exists in your bailiwicks too, 
because you have a command situation better than some of the 
agencies, but it is still a problem to get the culture changed 
in how you do things.
    I had a gentleman in the Marine Corps come to me on a 
program I don't like but I think Mr. Murtha does, so you are 
probably all right. He was a four-star. And he said to me, 
``You know, we never lose, sir.'' And he said, ``You are 
fighting 40 years of how things are procured here.'' And I 
said, ``I may be doing that, but my kids can't afford the way 
things have always been done before.'' That is a problem.
    I don't think you were the four-star.
    General Neal. No, it was not me. Not guilty, at least not 
this time.
    But what I might say to your basic question, I think, is, 
all of us are concerned about the dollars associated with 
technological enhancements. In fact, one of our primary jobs in 
the Joint Requirements Oversight Council, where most of the 
programmatic big-ticket items and not-so-big-ticket items come 
through on a routine basis is to give a sanity check to which 
direction the services perhaps are going.
    But from a Marine Corps perspective, I think it is 
important. And Ron probably has another good news story to tell 
you as well. As you know, we set up the Warfighting Lab just a 
year ago, and through the good support from your committee we 
were able to execute or begin the execution of a 5-year 
program. We have just completed a good portion of the first 
phase of that program, and it was Hunter-Warrior.
    The sole purpose of that advanced warfighting experiment is 
to try and find those commercial off-the-shelf-type 
technological enhancements that will allow our young Marines, 
and soldiers, sailors, and airmen to have the best technology 
available to them at the lowest price for the service. So we 
are working that.
    That will be followed by Urban Warrior. We will be looking 
at how we fight in an urban environment using local, off-the-
shelf commercial pieces of equipment. We are moving in that 
direction, I hope. I wouldn't speak for everybody, but in the 
deliberations of JROC we daily try to find out what is going to 
give us the best bang for the least dollar.
    General Griffith. I think you are hitting at the issue of 
acquisition reform. Clearly, sir, that is desperately needed in 
the Department if we are going to do things. Again, I think we 
are making a lot of headway in that regard.
    Butch mentioned the Marine Corps. We are doing our Army 
warfighting experiment right now at the National Training 
Center, where we are putting appliques into our fighting 
systems so we gain a much greater battlefield awareness. Most 
of the appliques we are looking at in the context are off the 
shelf, sir. We are having to adapt the software, but we are 
going to be able to refresh that software very frequently. That 
is imperative for us, because we are using for the most part 
commercial off-the-shelf technology, and we are making a lot of 
progress. But, there is a long way we still need to go.

                        ACQUISITION STREAMLINING

    Mr. Hobson. You need to tell us where--my last question: 
You need to tell us also where we, the authorizers and 
ourselves, can help you cut through some of the rules and 
regulations that over the years have grown into the system that 
prevent you from doing the right thing in some of these things. 
There is a lot of bureaucratic stuff in there that has been 
placed on you. We need to know that. Somebody needs to tell the 
chairmen of these committees how to cut through that stuff.
    General Moorman. One of the things I would say over the 
last 4 years in the Pentagon is a growing success story and a 
continuing mandate is that subject of acquisition reform.
    Mr. Hobson, your district has our Materiel Command and our 
Aeronautical Systems Center. One of the things I would implore 
for this committee is, the progress has been great, but I think 
we have just scratched the surface in acquisition reform, and I 
think anything that this committee can do to continue the 
pressure on the building to not fall back. To continue to press 
forward on less specs, smaller SPO's, more rapid times for 
acquisition review, there is just a host of things that all our 
services have under way. The payoff is tremendous. Every one of 
our services have examples now, in the last 2 or 3 years, of 
extraordinary savings because we have been able to do things on 
a more streamlined basis and a lot smarter.
    One of the most significant things is what Mr. Hobson was 
referring to, and that is using commercial practices and buying 
commercial off-the-shelf equipment. It is extremely important.
    The other thing I would say to you, because you touched on 
two things, one is technology and how do I get it and how do I 
strike that balance between loss of technology and readiness. 
All the services--and the Air Force is in that business as 
well; we are a high-tech force and trying to get technology out 
to the force as quickly as possible. We have, accordingly, 
stood up a series of battle labs. The idea of the battle labs 
is to take good, smart ideas, test them, and get them out into 
the field quickly and take advantage of it. I think that is 
exceedingly important.
    In the sixties and seventies, we pushed technology. That 
is, the Defense Department or the national security sector were 
the folks that were pushing the technology horizon. I think in 
the JROC we see everyday how much technology is available. Now 
the challenge is to make the right technology choices. It is 
exactly the opposite of what it was 2 decades ago. Once you 
make the right decision, then how do you get it as quickly and 
cheaply as possible.

                    GUARD AND RESERVE MODERNIZATION

    Mr. Hobson. Thank you, gentlemen.
    General Griffith. Sir, could I respond to one issue? I do 
not want to leave this unresponded to, sir, because I share 
your enthusiasm for the Guard. In fact, I would tell you, if 
you asked me what I spent most of my time on as Vice Chief of 
Staff of the Army, I would say, other than JROC, working Guard 
and Reserve matters. I would like to talk to you about the 
initiatives we have taken.
    Mr. Hobson. I wanted you to come back.
    General Griffith. I would like to do that and tell you, 
when we talk about modernization, we have been putting between 
$2 and $3 billion of equipment a year into the Guard and 
Reserve forces, and we are proud of that. I am more proud of 
the initiatives we have made toward integration. Those are not 
well known.
    You talked about the Air Force model. We are moving very 
much in that direction in places where it makes sense. You 
would certainly understand the services are unique. The 
challenges are a little different in how you integrate. But, I 
would seek the opportunity to come brief you on the initiatives 
we are taking with the Guard, sir.
    Mr. Hobson. Thank you.
    Mr. Young. Mr. Murtha.

                             BASE EXCHANGES

    Mr. Murtha. A couple of things have come up to me when I 
visited the bases not long ago looking at recruit depots and 
the qualities of people. One is the PX's, the BX's, depending 
on where you are, what they call them. A lot of them claim they 
are more oriented toward the retirees than the people, the 
enlisted people.
    Now, that worries me a little bit. I realize they are in 
there to make money. I realize they have got to make money, 
because we have cut back on our subsidy and so forth. But do we 
have people in the armed service sitting on their boards, and 
do we dictate to them, now, do we say to them: ``Hey, instead 
of all of this high class material which you might have also, 
let's have things for the ordinary troops out there''? Do you 
make sure that gets done?
    General Moorman. Yes, sir. In this case, the Army and the 
Air Force are together and the Navy and the Marine Corps have 
another exchange service. Maybe General Griffith would want to 
add to what I say here.
    Yes, we do have a board. It is chaired by the military. It 
must brief the Service Chiefs. Besides making money, as you 
know, because we get a spin-off back to help the troops as a 
result of revenues from our exchange service, profit motive is 
extremely important. But they are required to do surveys of the 
customer base. They are required to solicit, to ask for what 
new product lines and determine what the troops want.
    Mr. Murtha. Who are they surveying?
    General Moorman. Active duty troops.
    Mr. Murtha. You said customers. Retirees are customers 
also.
    General Moorman. No; active duty troops. And leadership of 
the Exchange Service is as I say, required to come up and brief 
up through the system. The focus for the chiefs is the active 
duty troop, I will assure you, sir.

                  FOREIGN MADE GOODS IN BASE EXCHANGES

    Mr. Murtha. Well, if I were to go into a PX, would I find a 
lot of material bought from overseas? Would I find half the 
items there bought from China and the Philippines and Malaysia 
and so forth? Would I find most of it made in America?
    General Moorman. I will get you that for the record, but my 
perception would be, you would see the preponderance of items 
made in America.
    [The information follows:]

    Overall, 66% of AAFES stock assortment is US-made and 34% 
is foreign-made. The bulk of foreign-made merchandise is in the 
softlines area where 40% is US-made and 60% foreign-made, 
reflecting the locations of major softlines manufacturers. An 
example of a few softline items are clothing, jewelry, and 
shoes. Since AAFES carries the same brand name merchandise as 
their competition, it is made in the same countries that their 
merchandise is made, which include China, the Philippines and 
Malaysia.

    Mr. Murtha. It is hard to monitor it because the way we are 
doing things, we are buying things off the shelf now. That 
makes it much more difficult to monitor what is going on. Even 
though we insist on it, it does not fit in together sometimes 
when you are trying to get the lowest price and good quality. 
But I would hope that you are watching that, that we are not 
getting all foreign goods.
    General Moorman. That is a good point. I should know better 
the answer to that. You are quite right; when you talk about 
textiles to even tennis shoes, as you know, a lot of the 
industry has migrated overseas. So I am unfortunately going to 
have to give you a mealymouthed answer because I don't really 
have the data.
    General Neal. I was going to add, sir, that just for the 
very reason that I think you are pushing towards trying to be 
responsive to the needs of the troops, a lot of the things they 
like and they want in the PX you can only find from overseas 
sources.
    I am a runner, and some of the best shoes come from 
overseas, the ones I like. That is the same thing we run into 
with the young Marines. They say they want this, that, and 
that, and you look into it, you look for a distributor, and you 
find out, unfortunately, sometimes those products come from 
overseas.

                            RECRUIT QUALITY

    Mr. Murtha. Particularly the cost has something to do with 
it, because it is so much cheaper. But I would hope we would 
insist, whenever they can, they buy American made, because 
obviously China, for instance, has got such an adverse balance 
of trade with the United States and it is to our best advantage 
not to do that.
    The recruiting--somebody mentioned recruiting when I was 
out. I am concerned. I know you said high school graduates, the 
standards, you are taking less high school graduates. What I 
hear from the sergeants, the drill sergeants, is not so much 
the educational standards, it is the baggage they are bringing 
in.
    That concerns me, because we have cut down also on the 
amount of time we are taking to train them, and we also have 
fewer supervisors. I have to say that I think part of the 
Army's problem at Aberdeen may be because there are fewer 
supervisors out there, so nobody is really going in and walking 
in and checking on these folks.
    But when they talk about coming from all kinds of homes, 
abused, just everything you can think of, they want to get away 
from home, and they come into the service not for patriotic 
reasons in most cases, according to what I understand, they 
come in for all kinds of reasons--education, everything else, 
job training. But by the time the drill instructors get done 
with them, they change their attitude and they are good 
quality. But if we reduce the time that we have them, I think 
we have got a problem.
    I think the other thing that the Marine Corps does right 
is, they don't give the recruiter credit until the person is 
the whole way through the system. I think that is important. 
The other thing they do is take a person for 2 or 3 weeks, or 
even a couple of months, before they come in, and sit down with 
them and have once a week for them to come in and meet with 
some of the recruiters.
    Somebody told me--I think General Fogleman said he found 
his recruiters didn't have telephones, and his wife was meeting 
with the recruiters' wives, or spouses, and found out that they 
did not have telephones, to tell folks, and he said he was able 
to correct that right away. I would hope those kind of things 
we are sharing with each other and our recruiters have that 
kind of an advantage.
    But I really see it slipping, and I worry that if we do not 
address it soon, that quality which has been absolutely 
imperative to the success in Bosnia, the success in Haiti, if 
it does slip, we will not be able to be successful and start 
having incidents that cause things that will be detrimental to 
our national security.
    General Griffith. I think we are probably having the most 
difficulties right now with the issues you just spoke to.
    I would just tell you, I think you have hit dead center on 
some problems that we have. I do not want to prejudge the work 
of the panels working for the Secretary of the Army, but I 
wholeheartedly agree that we in the Army have cut our training 
base too thin.
    We had the tragedy of losing some Rangers down in the 
Ranger School a couple of years ago. When we got into that and 
looked at it, we said we don't have the level of experience, 
the level of leadership here, good noncommissioned officers, 
but not the senior noncommissioned officers which we 
traditionally had there, and you put soldiers at risk.
    The Aberdeen thing I think is a reflection of the fact we 
cut our training base too thin during the drawdown period, and 
we have to go fix the training base because it is too important 
to us.
    We may do the same thing the Marine Corps is doing. We are 
looking at extending initial entry training. I became convinced 
a couple years ago there was a difference in the physical 
fitness of young people coming into the forces today. Clearly, 
that is true.
    The young people today are not as fit as the young people 
who were coming in 5 and 10 years ago. They have got a 
different set of values than the kids of 5 and 10 years ago. We 
have got to deal with that values issue, because if we do not, 
the problem we had at Aberdeen and other places is going to 
continue to haunt us.
    Sir, I would say I share your views.
    Mr. Murtha. I was very complimentary to the drill sergeants 
when I met with them, because I felt the time they were 
spending, they were doing the best they could do with the 
product they were getting from the recruiting station. But I 
think if you make some changes there, it will make a vast 
difference.
    I have not visited the Navy or the Air Force. The chairman 
visited the Air Force. But what about the Navy? Have you got 
the same problem?
    Admiral Gehman. We have recognized similar indicators in 
the civilian population, and we have adjusted the recruit 
training syllabus to recognize that the qualities of 
responsibility and patriotism cannot be assumed anymore.
    We didn't go quite as far as the Marine Corps did in their 
crucible type of adjustment, but we have instituted in our 
recruit training some basic character-building kinds of things.
    The second thing we have done is, even though we have cut 
down over the years on the length of our boot camp, our recruit 
training command, a very, very high percentage of our recruits 
go on to what we call apprentice or technical training, another 
8 or 9 weeks of electronics or hydraulics or something like 
that.
    What we have done is taken those schools and reinstituted 
Recruit Training Command-like attitudes in those schools. So 
those kids march to class; they stand up when they are spoken 
to. So really the experience--and they have all military 
instructors, we don't allow civilian instructors. So we have in 
some cases extended that boot camp experience over the long 
run.

                    SUPERVISORY PERSONNEL SHORTAGES

    Mr. Murtha. Do you have the number of supervisors you need? 
For instance, what I found at Aberdeen was a substantial 
shortage of supervision, and that really hurt them, because 
then the drill sergeant himself or herself had to be the one to 
take them here and there, even at Benning. If they sent 
somebody to what we called the brig, they had to take them down 
to Pensacola.
    If you cut back on a number of people, you say okay, we are 
spending extra time, we are changing the syllabus. But if you 
don't have the numbers in there, I know in talking to the 
commander of training, the four-star in the training command--
Hartzog, is it? He understood this, but he didn't have the 
money to put the people into the training commands he needed.
    So it is something that we are now all saying the same 
thing. We are recognizing it. But I don't believe you can 
reduce the length of the training, reduce the number of people, 
and come out, particularly with the problems we have. We are 
reducing the quality of the people we are taking in, we are 
shortening the time, and reducing the number of people training 
them. It can not be done. We are not going to get the same 
product out in the field.
    I admit, in the field I have not seen a quality slip at 
this point, and I have not talked to anybody that would tell me 
that, but we are going to see it if we don't change the way we 
are doing things.
    How about the Air Force?
    General Moorman. Sir, the issue I resonated on that you 
brought up was the issue of values and the kind of recruits 
that are coming in. Accordingly, we have had a major initiative 
over the last 3 or 4 years to emphasize core values, integrity, 
service above self, and excellence in all you do. That has had 
a good effect. I think we see that through the force, and I 
think it is necessitated by the fact that perhaps some of these 
values were not as instilled as well in the home before.
    The other thing that we have worried about in the training 
area, and it relates indirectly to what you are saying, and 
that is, we started to worry a little bit about the attrition 
during basic training. We had people that were inclined at the 
first difficulty to medically opt out, and that ends up being 
very unproductive and not a good use of this scarce resource.
    We, as a consequence, have taken some of that scarce 
resource and established a rehab activity and mad it harder to 
medically opt out. As a consequence, we are beginning to see a 
downturn now on the amount of attrition that we see at basic 
military training.

                     STANDARDS FOR RECRUIT TRAINING

    Mr. Murtha. You have not lowered the standards. This is an 
important point. When I was out in San Diego, drill instructors 
were concerned there was such a concern about attrition, they 
were keeping people in they shouldn't. They tell me that is not 
true.
    General Moorman. No, sir.
    Mr. Murtha. That has not happen to you either?
    General Moorman. We are working that very hard. We keep the 
standards up when we recruit them, 99 percent high school 
graduates and about 80 percent in the top three categories. 
That is how we start with them, and then, because they are such 
a valuable resource, we watch them very carefully.
    But in that same core value business, sir, is the system of 
accountability and responsibility. The bad apples we have got 
to get out, because there are too many good apples to soil the 
batch there. So we are working that very hard.
    The Secretary of Defense was just down and did a major 
review of Lackland, and came back, and he was fairly 
comfortable with it. But you have always got to worry about it. 
If you lose them at BMT and don't do it right, you have got a 
big time problem when you go to the Haitis and the Bosnias.
    Mr. Murtha. Thank you.

                QUADRENNIAL DEFENSE REVIEW AND READINESS

    Mr. Young. One of the items that we have not mentioned at 
all today so far is one of the latest acronyms, QDR.
    General Neal. Quadrennial Defense Review. We know it well.
    Mr. Young. That apparently is going to become very 
important to all of us, all of you, and what recommendations 
come out of the QDR. You are major players there.
    I am wondering if you believe that the issue of readiness 
is getting the proper consideration in the discussions of the 
QDR?
    General Moorman. Let me just start with a comment, and all 
of us have alluded to it. The JROC is spending an awful lot of 
time an QDR and hearing from the various panels that are 
evaluating. They run the gamut from infrastructure to 
modernization, across the board to intelligence.
    One of the things we feel is our responsibility 
representing the uniformed services is to worry the issue, that 
whatever recommendations are made in QDR, whatever savings are 
proposed to fund modernization, are not at the expense of 
readiness, and that probably is as big a topic as we discuss. 
Almost every panel will worry about that particular issue. So 
there a lot of emphasis to it.
    Admiral Gehman. As a matter of fact, it is my recollection 
after 3 or 4 hundred hours of meetings on the subject, except 
for specifically looking at the subject of tiered readiness as 
was directed by the Senate, I don't think there has been a 
proposal put on the table that cut day-to-day readiness. They 
are having lots of proposals put on the table to cut, capital 
R, big Readiness, but nobody is going around saying why don't 
we reduce the readiness of the force? except for the specific 
requirement to look at the subject of tiered readiness.
    General Griffith. I would just echo, sir, I think we all 
feel so strongly about having been a part of, at least in the 
case of the Army, a force that was not ready after Vietnam. It 
was not a pleasant place to be, to be in the uniform, at least 
in the United States Army, because we were not a ready force.
    Those of us who went through the agonizing experience of 
trying to put an Army together, or back together after the 
post-Vietnam period, and found it took us 15 years to put it 
back together. An Army that later in Desert Storm, Just Cause, 
and other operations, demonstrated what you can do when you 
have high quality people who are led by good leaders, are 
disciplined, and understand how they are trained. That training 
teaches them how to fight. That is so important. It is the 
bedrock.
    Modern equipment is important. I was a beneficiary of the 
technology overmatch of the equipment that the Congress had 
given us in the years prior to Desert Storm. But I Can also 
tell you that when the war was over, my soldiers told me they 
could have beat the Iraqis with the Iraqi equipment.
    A good soldier, well trained, tough, and disciplined--to 
me, is the cornerstone of readiness. So, I think we are all 
committed to ensuring that when we come to QDR, readiness will 
not be a problem there.
    General Neal. I would echo what my colleagues have said. I 
was in the tank yesterday sitting in for General Krulak, who 
was testifying up here in fact. Secretary Cohen was in there 
with the Service Chiefs and the Chairman and Vice chairmen, and 
we were talking specifically the QDR and the format and what 
was important in the development of not only the process, but 
basically what is the balance and what are the trade-offs to do 
a good scrub, as mandated by Congress, to make sure that in 
fact, we bring a good product at the end of the day on May 15.
    And readiness was uppermost a topic of conversation, to 
make sure that in some of these trade-offs, that we were not in 
fact affecting the readiness of the force we have, because if 
you look out, both near term and out to 2010 and beyond, the 
demands upon the forces, whether they be Marines, Navy, Air, or 
Army, are most likely going to be very close to what we see 
today.
    I think that is understood within the tank, and it was 
understood more specifically by Secretary Cohen. I think he is 
committed to making sure that we are ready, relevant, and well 
equipped across the force, and readiness is a key ingredient 
toward the whole QDR process. I don't think he will sacrifice 
that for the sake of budgetary concerns.

          QUADRENNIAL DEFENSE REVIEW AND MODERNIZATION FUNDING

    Mr. Young. Well, I am glad to hear you make that last 
statement especially about budgetary concerns, because I have 
been somewhat worried that the QDR final recommendations were 
going to be driven by budget restraints and the 
administration's desire to reduce the defense budget.
    As I think all of you know, in the last couple of years we 
have had major confrontations with the administration over how 
much to invest in our national security. Congress prevailed. If 
the QDR came out with recommendations of further force 
reductions or not making the modernization investments that we 
need to make, I think that would make it very difficult for us 
to continue to make the investment that we think is necessary 
to keep you healthy.
    When Secretary Cohen, whom I have respect for--I have know 
him for a long time, and we have been friends for a long time, 
but at one of his first meetings with the military leadership 
as reported in the press he talked about further force 
reduction.
    And throughout our hearing cycle this year we are hearing 
about OPTEMPO and PERSTEMPO and some of the problems that they 
cause: Further force reductions; as long as we are continuing 
active deployments, if we reduce the force further, the OPTEMPO 
has to go up for each of those individuals and the PERSTEMPO.
    I am hoping that all of you are strongly pushing the idea 
that the QDR should recognize the threat and recognize the 
strategy that we would have to meet the threat, and that you 
would be supportive of the issue that the Joint Chiefs made 
maybe nearly 2 years ago, that we need to get our modernization 
budget up to about $60 billion. But we have not come anywhere 
near that.
    We are trying. In the House we tried. We lost a little bit 
at the full committee, we lost a little more in conference, but 
we are trying to keep that modernization account going.
    It goes back to the first statement I made this morning 
when we began. If you don't provide modernization investment 
today, your readiness 5 years from now or 10 years from now 
just isn't going to be there and someone is going to be in 
trouble for it if the balloon goes up or whatever goes down and 
something has to be done.
    So I am hoping that a strong case is being made not to 
reduce the force and not to cut back on the effort to increase 
the investment in our modernization.
    If your have any comments on that subject, I would be glad 
to hear them.
    General Moorman. Well, I would say, sir, that the latter 
thing you discussed these four folks in front of you spend a 
lot of time on, and that is the issue of how can we achieve 
efficiencies so that we can approach the right kind of level of 
modernization.
    All of us realize that we don't have a high enough level, 
we are somewhere in the low forties, and we have to get 
considerably higher to support all the programs we have.
    What we are about is looking at the results of these 
various panels to see where efficiencies might be able to be 
achieved in these various areas. I think we all, collectively, 
believe that we ought to wring out the tail in the tooth-to-
tail ratio as much as possible so we can find funds to work 
modernization.
    A second thing on the force structure side: I think this 
group believes that we have a responsibility to our respective 
chiefs and services to worry about any force structure 
proposals and the impact that that has, not only on warfighting 
capability, but also on the issue that this committee is about, 
and that is the OPTEMPO and PERSTEMPO business. The more you 
cut down, the more you task the available folks that have to do 
the job. This group is acutely aware of that, sir.

                          STORM DAMAGE REPAIRS

    Mr. Young. I knew that was going to be your answer, at 
least I was pretty sure it was, and we appreciate that, and we 
know you have the tremendous responsibility that you all have 
in your respective positions in providing for the security of 
the Nation, which is much more awesome, I think, than most 
people realize.
    General Neal, I wanted to ask you a question. When Mr. 
Visclosky was talking about some of the real property 
maintenance dollars that we had appropriated, we added 
substantially over the President's budget the last couple of 
years, and we held most of it in conference.
    But one of the problems I talked with General Krulak about 
a week or so ago was some disaster damage that the Marine Corps 
had at Camp Lejuene, from the hurricanes. It seems to me you 
didn't get any replacement money to pay for those repairs, that 
you actually took it out of your other accounts.
    What accounts did you take them from? Do you recall that?
    General Neal. I will submit for the record the actual 
accounts that they were drawn from, but it was in excess of $50 
million that the base commander down at Camp Lejeune--and we 
had to pull from also the headquarters and some of the other 
bases, money in order to offset the damage caused by those two 
hurricanes.
    As I mentioned previously--I think you were out doing a 
vote--that has hurt us substantially, and I think General 
Krulak mentioned it to you and I reinforced during the previous 
committee testimony that we are hopeful we will get some 
budgetary relief from this committee during the current cycle.
    Mr. Young. The funds that you spent for that purpose, were 
they taken away from readiness accounts or readiness 
activities?
    General Neal. Well, sir, in the balance of trade space, 
where we don't have much discretionary money in the Marine 
Corps, as you are probably better aware than I, it ultimately 
gets to readiness, because if a base commander has funds that 
are going to be used for his facilities, the training ranges, 
the maintenance of the ranges, if that money is being siphones 
off in order to repair the damage to the homes and living and 
work spaces of the Marines out there, then obviously there is 
going to be an effect upon the readiness.

                  FOREIGN MADE GOODS PURCHASED BY DOD

    Mr. Young. Mr. Murtha had asked General Moorman about 
something that touched on a subject you and I discussed 
earlier, and I think we have worked out a solution to how best 
to approach that, but I wanted to show you this in view of Mr. 
Murtha's comments.
    General Moorman. No, no, it is not going to be made in 
China.
    Mr. Young. This is ``Air Force Reserve: A great way to 
serve.'' It has an 800 number. On the other side it says, 
``Discover America's pride.'' On the bottom it says, ``Made in 
China.'' This is not an issued item, right?
    General Moorman. That is not an issued item, sir. I don't 
know where that is bought, sir.
    Mr. Young. It might have been purchased or given as a gift 
to someone.
    General Moorman. I don't know where that is bought.
    Mr. Young. As we discussed with one of our colleagues who 
is usually right on track who has raised those issues.
    General Moorman. Yes, sir.
    Mr. Young. I will give you copies of his letters, and you 
already saw the material that we talked about.
    General Moorman. Yes, sir.

                       SUSTAINING DEPLOYED FORCES

    Mr. Murtha. Mr. Chairman, let me just ask, it sounds like, 
in all that you are talking about, sustainability is going to 
be the thing that suffers. For instance, we are reducing--we 
are looking at tiered readiness, we are looking at quality, we 
are looking at modernization. But sustainability, it looks like 
this is going to be cut back.
    I have always had a concern about the fact we can project 
our power to one MRC, two maybe if it is a Saudi and a Somalia. 
I don't believe we can do it in two; you may disagree, but I 
don't believe it. But I sure know we can't sustain it. Where is 
sustainability in this whole equation?
    Admiral Gehman. As most of us indicated in our opening 
comments, Congressman Murtha, what we are trying to do in the 
JROC is to make an input into the QDR. Remember, the QDR is an 
OSD study and we just give them advice. That allows the 
Secretary of Defense to make a decision to bring all of these 
five or six elements, make adjustments balance such that no 
particular element, whether it be quality of life, readiness, 
OPTEMPO, or PERSTEMPO, or modernization, takes a 
disproportionate adjustment.
    We are watching this sustainment piece of it very 
carefully. As a matter of fact, in my service those are some of 
the most negative indicators that we have. Our backlog of 
engines and aircraft and ships is going in the wrong direction. 
That is a sustainability issue.
    Mr. Murtha. I went to Fort Hood a couple of years ago, and 
two of the divisions were short on Bradleys with personnel, 
short with people in tanks, and then the other units were even 
more short.
    Now, that was a couple of years ago. If you deploy 
somebody, I am sure you pull people out of other units to fill 
up the units, whatever the readiness level is of those units. 
But at some point you have got nobody to pull in there in order 
to do that. So that is why I raised the questions.
    You are saying actually the sustainability is what is being 
affected here. This is what is happening.
    General Moorman. From our perspective, we are watching the 
inventory and spares account, which is a big aspect of 
sustainability. In 1997 spares were down a bit, and where you 
start seeing that is mission-capable rates in airplanes. In 
1998 we bring a budget that fully funds the spares account, and 
therefore our predictions are up.
    In that aspect of sustainability, we have to watch it very 
carefully, and we particularly worry about the pointing end of 
the spear, on spares that affect aircraft, engines, missiles 
and those kinds of things. We are tracking it very, very 
carefully.

                      SUSTAINABILITY AND RETENTION

    Mr. Murtha. But people, what you are going to have to do is 
keep people in, just like you did in Saudi Arabia. You have to 
freeze people in, because we have gotten to the point where we 
now have less stock because our computers tell us where things 
are so we can reduce all these things. Are you saying you are 
serious about sustainability also, we know where we are with 
sustainability?
    General Griffith. Let me speak for the Army, sir. From a 
sustainability perspective, I think you hit right on it with 
your remarks about people in the field.
    The thing that I would worry about most is not whether, 
ultimately, we have enough soldiers to conduct the operations 
necessary or not, but when would we have those soldiers 
available, because in the active Army, we are very lean and 
very busy. As you point out, when we move units to a place like 
Bosnia or to a response to an action in the Persian Gulf, we 
make sure the units are full up and ready to go. To do that, we 
are having to cross level, because we have more structure than 
we have people.
    I think, ultimately, that with the Army Reserve and 
National Guard personnel that would become available once 
trained, we would have the capability to sustain. But, there is 
going to be an interim period, as we bring these folks on and 
ensure they are trained and ready to go, that we will be very, 
very stretched.
    Mr. Murtha. You mentioned the first division was deployed 
180 days last year and now they are in Bosnia, unaccompanied in 
both these cases when they are deployed, I assume.
    The whole thing is getting to a very tenuous place, it 
seems to me. All of us know what we went through 20 years ago, 
which we don't want to go through. I believe the Secretary has 
learned I know what the chairman said was a concern of mine 
also, but he is listening and he is talking, I think, to the 
right people, and I know as long as you folks have input and as 
long as you are around. But once you are gone, the people are 
not there that remember this period when we had real 
difficulties, and it was a terrible situation. So I would hope 
that you would add sustainability to the equation.
    Admiral Gehman. Mr. Chairman, if I could have your 
indulgence, I never got to answer Mr. Murtha's question about 
the exchanges. The Navy exchange is different and separate, of 
course. We have to operate a lot of exchanges in remote places, 
a lot of small exchanges that operate at a loss, because they 
are providing 100 percent service to sailors on ships in remote 
locations.
    So if you walk into one of our big exchanges in a big 
metropolitan area which does indeed service a lot of retirees, 
that exchange has to make a lot of money, because there are 10 
other exchanges out there on ships and places like that that 
have to operate at a loss. So if you walked into a big Navy 
exchange, you would indeed see the kinds of things, and you 
would say, wait a minute, the average sailor doesn't need this 
stuff.
    One last thing. I think that at least in my service, and I 
think my fellow JROC members here would say, that we assess 
readiness as satisfactory but fragile.
    Mr. Young. Well, I want to thank all of you very sincerely 
for being here today and giving us excellent responses to our 
questions.
    We tend to be very curious on occasion. We have a lot of 
other questions for you, but we have run out of time. So what 
we would like to do is give you written questions and ask that 
you respond to them so that we can review them in our record.
    Again, we stand ready to be your partners in providing the 
strongest national defense that we possibly can for our Nation 
and get the most for the dollar that we possibly can. We 
appreciate the work that all of you do, and we are very proud 
of those who serve in the uniform of the United States.
    If there is nothing further, the Committee will be 
adjourned.
    [Clerk's note.-- Questions submitted by Mr. Young and the 
answers thereto follow:]

                   Modernization and Readiness Today

    Question. The Chairman of the Joint Chiefs of Staff has set a goal 
of $60 billion annually for modernization. Failure to achieve that goal 
would affect future readiness. Do we have a readiness problem today, 
due to lack of modernization of weapon systems?
    Army Answer. While we do not have a near-term readiness problem due 
to the age of our weapon systems, without replacement systems or depot 
refurbishment programs, the age of our weapon systems could be a 
readiness problem in the long-term.
    Navy Answer. Navy is not experiencing readiness problems today. We 
continue to have the ability to meet all commitments throughout the 
range of the National Military Strategy with the weapons systems we 
have in place. Furthermore, it should be noted that as we move towards 
the 21st century, the recapitalization of our systems are planned for 
and the cost associated with those planned actions are included in the 
outyear funding projections. However, as we continue down that path, we 
will continue to maintain a watchful eye on readiness, constantly 
assessing our ability to meet our requirements and ensuring there is no 
impact to readiness.
    Marine Corps Answer. We do not have a readiness problem today, but 
without an increase in our topline, we will be forced to continue to 
defer modernization to maintain current and near-term readiness. This 
deferral of modernization of our aviation and ground equipment will 
have an adverse impact on future readiness.
    As our budget is currently structured, the downward spiral in 
modernization funding begins to reverse in FY 1999. This will allow us 
to support a robust modernization program capitalizing on recent 
investments in R&D. This increase in modernization funding is 
absolutely critical in order to ensure a ready, viable Marine Corps at 
the turn of the century.
    Air Force Answer. Current readiness remains at historic levels. A 
lack of modernization money will affect future readiness. We will not 
see the impact of inadequate modernization for many years. 
Unfortunately, it will then take many more years to recover. 
Insufficient modernization now, will mean decades of unpreparedness in 
the future.

               Modernization and Readiness in the Future

    Question. Under the Administration's outyear budget plan, the 
earliest the $60 billion goal would first be met is in the year 2002. 
Will we have a readiness problem before the year 2002, due to lack of 
modernization of weapon systems?
    Army Answer. The current program provides a balanced modernization 
program, with acceptable risk, within fiscal reality, but the Army 
faces many modernization challenges as the 21st Century draws near. 
During the drawdown, the Army accepted risk in its modernization 
accounts in order to maintain near-term readiness, end strength, and 
quality of life. Timely modernization is essential to ensure future 
readiness and to adequately equip the current and the future force.
    We are buying a limited number of new, high payoff weapons, and 
working to extend (recapitalize) the lives and capabilities of many 
existing systems. Ideally, the Army needs approximately $14-$16 billion 
annually for modernization to maintain current combat overmatch 
capability, recapitalize worn out equipment and to maintain essential 
levels of research and development. The readiness dilemma that the Army 
faces for modernization is the risk associated with uncertain funding 
for unprogrammed contingencies and with other unprogrammed decrements 
to modernization accounts.
    Navy Answer. The Navy funding contained within the budget before 
you and that in the Future Years Defense Program (FYDP) contains what 
we believe to be the right choices to modernize our forces while 
ensuring readiness is maintained. It should be noted that fiscal year 
1998 marks an important transition period for the Navy as our 
acquisition accounts begin to bear the increasing investment of 
resources necessary to effect our recapitalization strategy. As we 
increase funding of the procurement accounts, we must do so ensuring 
current readiness is not damaged. It is for this reason we are 
proceeding cautiously--studying our proposed actions before we take 
them.
    Marine Corps Answer. Over the past 20 years, the Marine Corps 
modernization program has experienced a steady decline and will have 
reached its lowest point since 1972 by fiscal year 1998. Fiscal year 
1999 marks the beginning of the resurgence of funding that is critical 
to support a more robust modernization program capitalizing on recent 
investments in R&D. Without an increase in the top line, achieving 
modernization goals without jeopardizing readiness will be one of the 
Marine Corps greatest challenges. This increase in modernization is 
essential to the Marine Corps.
    Air Force Answer. No.
    The Air Force core modernization programs are on track; therefore 
assuming that our overall fiscal guidance does not radically diminish, 
there will not be any readiness problem before 2002 caused by a lack of 
near-term or mid-term modernization. Consistently, our modernization 
priorities remain:
    <bullet> Near-term, the C-17
    <bullet> Early mid-term focus is on conventional bomber upgrades 
and procurement of precision guided munitions
    <bullet> Later mid-term focus is on air and space technology with 
emphasis on Space Based Infrared System (SBIRS), Evolved Expendable 
Launch Vehicle (EELV) and Airborne Laser (ABL)
    <bullet> Long-term priority is air superiority with emphasis on the 
F-22 and the Joint Strike Fighter (JSF)
    We have used a balanced, time-phased approach which allows us to 
modernize without sacrificing current readiness. To balance our fiscal 
year 1998-2003 program, we used the near-term savings from C-17 Multi-
Year Procurement, and we shifted some upgrades and weapons programs to 
the outyears.
    Given our stated intent to maintain our commitment to these 
priorities, we do not perceive any modernization shortfall which would 
drive a readiness problem before 2002.
    Question. If the Administration's outyear budget plan were to 
become true, deliveries of equipment purchased in 2002 would occur a 
few years later. Under the Administration's outyear plan, are you 
testifying that there will be no future readiness problems due to lack 
of modernization through the period of delivery of equipment purchased 
in 2002?
    Army Answer. The current Army program through 2003 provides a 
balanced modernization program, with acceptable risk, within fiscal 
reality. The major risk to future readiness is the possibility that the 
Army will have to pay for unprogrammed activities from its 
modernization accounts. The Army has some programs which are not fully 
funded because the Army has to balance near-term readiness, quality of 
life for our soldiers and families, and modernization within limited 
resources. Fiscal constraints cause us to limit development of new 
weapon systems, while extending the service life and improving the 
capabilities of existing systems through technology insertions. The 
readiness dilemma that the Army faces for modernization is the risk 
associated with uncertain funding for unprogrammed contingencies and 
with other unprogrammed decrements to modernization accounts.
    Navy Answer. The equipment scheduled for delivery in the early 21st 
century is planned for and reflected in the outyear funding 
projections. Additionally, equipment being procured today, will be 
delivered during the interim period between now and 2002. We believe 
this equipment will enable Navy to remain ready and meet all 
commitments.
    Marine Corps Answer. The Marine Corps current modernization goals 
are fiscally constrained. The downward spiral in our modernization 
accounts reverses in fiscal year 1999 as our topline increases, 
allowing us to support a more acceptable modernization program. If this 
planned increase holds, we will be able to capitalize on several recent 
RDT&E investments. This increase is absolutely critical to ensure a 
ready, viable Marine Corps at the turn of the century.
    Air Force Answer. Yes.
    Because our near and mid-term modernization efforts remain on 
track, there will not be any readiness gap in the years following 2002. 
We designed our modernization program to support readiness needs in the 
mid-term.

                   Modernization and Outyear Funding

    Question. In your lifetime, when is the last time that a Department 
of Defense outyear funding projection actually came true?
    Army Answer. Most of the Army's individual program outyear funding 
projections have been accurate. However, the most recent overall Army 
outyear funding projections have been less accurate as a result of 
unfunded contingency requirements. We have used our modernization 
programs as billpayers to maintain near-term readiness. The Army has to 
balance near-term readiness, quality of life for our soldiers and 
families and modernization within a very limited budget. While the 
budget provides the minimum adequate for near-term readiness and 
quality of life, the Army has significant shortfalls in Research, 
Development and Acquisition accounts due to chronic underfunding in the 
past. The Army requires $14--$16 billion annually in its modernization 
accounts in the Future Years Defense Program to fund them at a level 
commensurate with other Army programs. We are only funded at 
approximately $11 billion in fiscal year 1998, a level not seen since 
1959 .
    Congress provided us some help this year with approximately $2.8 
billion in plus-ups, and we are taking actions internally to free up 
funds to reinvest in our modernization accounts. We are instituting 
acquisition reform and attempting to procure systems at economic rates 
and buy them out early. We are investing in and accelerating programs 
that reduce operations and support costs.
    Navy Answer. Although it is true that outyear funding projections 
seldom materialize exactly as planned, they serve as valuable planning 
tools that can be, and are, continuously fine-tuned to accommodate 
real-world events and fiscal realities as they come closer to becoming 
budget year estimates. I would note that, although the question implies 
that outyears funding projections are always optimistic, this premise 
is not necessarily true. For the Department of the Navy, I would point 
out that our request for both fiscal year 1998 and fiscal year 1999 are 
substantially higher, by $1.8 billion and $1.1 billion respectively, 
than as outyears in the previous budget.
    Marine Corps Answer. Funding projections, admittedly, rarely come 
true exactly as programmed. This is primarily due to changing fiscal 
constraints and inflation. The Marine approach is to develop a plan to 
meet the threat as is our mission as assigned by Congress. If fiscal 
constraints do not allow actual year to year inclusion of this plan, we 
have at least identified what our needs are should the country be able 
to afford it. For the Marine Corps, both in terms of ground equipment, 
as well as aviation equipment financed with Blue Dollars, significant 
growth in the pace of modernization is reflected in fiscal year 1999 
and the outyears of the current budget. Within current fiscal 
constraints, we see no reason why those levels are not achievable. 
Retaining and executing those increased levels are essential to future 
modernization of the Marine Corps.
    Air Force Answer. If we lived in a static environment, the outyear 
funding estimates would be achieved on a regular basis. The outyear 
funding profile is DoD's best guess as to what will happen given the 
current world geopolitical situation at a specific point in time. If 
the geopolitical balance changes, DoD must adjust their outyear 
estimates to restructure the Services' mission focus to meet changing 
security requirements. While the actual outyear estimate may not match 
earlier predictions, the Services continue to meet their mission 
objectives while supporting DoD's overall objectives.

         Modernization Funding and Projected Readiness Problems

    Question. If Department of Defense (DoD) out-year funding became 
``flat,'' when would the nation experience its first readiness problem 
related to lack of modernization of weapon systems?
    Army Answer. The Army modernizes to maintain combat overmatch 
capabilities against potential future threats. To ensure our overmatch 
capabilities in all areas, we must approach modernization as a 
continuous journey. If DoD funding becomes flat, the Army will be 
forced to use aging equipment, with less capability, against 21st 
Century threats which require more advanced capabilities to defeat.
    Today, we observe potential threats purchasing equipment superior 
to weapons used by our soldiers today. They can purchase high 
technology weapons and smart munitions on the open market. For example, 
many artillery pieces already out-range our current family of M109 
howitzers. Our plan to maintain overmatch in this area is to field the 
Crusader howitzer around 2005 to provide our forces with appropriate 
capabilities. Our ability to successfully balance near-term readiness 
against current modernization and threat capabilities would determine 
when a ``flat'' budget would fail to provide overmatch capabilities 
required in the 21st Century.
    Navy Answer. Navy's projected outyear funding trend, adjusted for 
inflation, is flat. Our strategy to pay for force modernization is to 
seek additional efficiencies in the way we operate and support our 
forces as well as continue to downsize and shed the supporting 
infrastructure. In doing so, a larger proportion of funds will become 
available for investment. However, we must ensure a balance between 
current and future readiness is maintained. We believe we can 
accomplish our modernization and recapitalization objectives and 
maintain this balance.
    Marine Corps Answer. Marine Corps projected outyear funding for 
fiscal year 2000-fiscal year 2003 for procurement and research and 
development is adequate at a relatively flat level. This level will 
allow us to meet our minimal modernization requirements. At the 
projected outyear funding levels, we do not anticipate experiencing any 
readiness related problems.
    Air Force Answer. The Air Force modernization budget is built upon 
a time-phased approach. It matches existing resources with validated 
and prioritized requirements as defined by the CINCs. We make tough 
decisions and trade-offs as required to buy the readiness and 
capabilities that are required to satisfy our warfighter's needs. Our 
readiness posture, now and in the outyears, is dependent upon our 
ability to balance the modernization of our systems and capabilities 
while maintaining the required force structure--all focused on 
satisfying stated and validated national security objectives. Our 
current modernization program is based upon this balance as it exists 
today. Our operational commanders have identified strategic lift as 
their most urgent need, therefore the C-17 is our highest near-term 
modernization priority. Over the early mid-term, we continue to upgrade 
our bomber forces and our conventional munitions, focusing on those 
capabilities needed to provide our CINCs with a rapid-response 
capability. In the later mid-term, we will also be bringing on the EELV 
and SBIRS, the systems necessary to ensure space and information 
superiority. In the long-term, we will be upgrading our theater forces 
with the acquisition of the F-22. This system will ensure that future 
CINCs will achieve the air superiority they need to maneuver--to 
attack--and to protect their forces. This balanced modernization 
program, coupled with responsible stewardship of individual programs, 
will build the right mix of capabilities into the force of tomorrow.

  Modernization and the Chairman of the Joint Chiefs of Staff Funding 
                               Objective

    Question. Is the Chairman's $60 billion annual goal in constant or 
then-year dollars?
    Army Answer. The number, as developed by the Joint Staff, was 
intended as a benchmark in constant 1996 dollars.
    Navy Answer. It is my understanding that the target is a general 
one that refers to then-year dollars. To my knowledge it has never been 
specified since $60 billion was an approximate goal.
    Air Force Answer. The Chairman's $60 billion annual goal is in 
then-year dollars.
    Question. What is a true, realistic annual funding amount the 
nation needs for modernization?
    Army Answer. The Army requires $14-$16 billion annually in its 
modernization accounts in the Future Years Defense Program to fund them 
at a level commensurate with other Army programs. Funding for full 
recapitalization would require annual resources in the $15-$20 billion 
range. We are funded for approximately $11.2 billion in fiscal year 
1998.
    Navy Answer. I cannot speak for DOD. However, the Navy funding 
contained within the budget before you and that in the Future Years 
Defense Program (FYDP) contains what we believe to be the right choices 
to modernize our forces while ensuring readiness is maintained.
    Marine Corps Answer. The $60 billion annual goal of which the 
Chairman speaks is the goal of the entire Department of Defense. For 
the Marine Corps, a realistic annual funding level for modernization of 
ground equipment is approximately $1--$1.2 billion per year (in 
constant fiscal year 1998 dollars). This level will allow us to meet 
our minimum modernization requirements for ground equipment. As the 
budget is currently structured, we begin to achieve this level in FY 
1999; a level which is absolutely critical in order to ensure a ready, 
viable Marine Corps at the turn of the century.
    A realistic goal for modernization of our aviation force is 
approximately $3.0 to $3.5 billion annually. This amount would fund my 
top aviation acquisition priorities--the V-22 and the AV-8B 
remanufacture, at the most economical rate of procurement. It would 
also fund the H-1 Upgrade (4BN/4BW) program, KC-130J procurement to 
replace our aging fleet of KC-130F and R models, CH-53Es to complete 
standup of our two reserve squadrons, additional F/A-18C/Ds necessary 
to sustain the F/A-18 force structure until replacement by Joint Strike 
Fighter, and continued investment in aircraft modifications to increase 
warfighting capabilities and maintain safety.
    Air Force Answer. The Air Force program presents our proposal for 
approximately $18 billion (``Blue'' Total Obligation Authority) for 
modernization accounts in fiscal year 2003. $18 billion is the Air 
Force requirement to meet the obligations we have established in the 
fiscal years 1998 through 2003 Program (See figure 06-007-1 below).
    Establishing overall DoD funding or determining what the other 
Services and agencies require for modernization is not Air Force 
business. Therefore, the Air Force agrees with the Secretary of Defense 
that approximately $60 billion dollars in DoD modernization funding in 
fiscal year 2002 is an appropriate sum.

                        Future Defense Spending

    Question. Currently, the outyear projections for defense spending 
assume large increases, especially in the procurement account. On the 
other hand, there is tremendous political pressure to balance the 
budget. Also, the annual review of future defense spending by the 
Electronic Industry Association, which conducts interviews with 
hundreds of people in the defense area, predicts flat defense spending 
in the outyears.
    If one assumes there are basically no increases in defense in the 
outyears, how do we achieve current modernization goals without 
sacrificing readiness?
    Army Answer. Our current modernization goals are to invest in 
today's information age technology while leveraging high payoff 
enhancements to our current systems. If there were no increases in 
funding, we would continue our program of economies and efficiencies to 
reinvest savings dollars in high priority systems. We would try to 
buyout some systems early and increase production of others to 
economical levels of production. Other programs would be deferred to 
the outyears. We would replace expensive-to-maintain systems with 
newer, lower-operating-cost systems. Other high maintenance systems 
would be retired early and their replacements fielded at a later date.
    Each of these options increases the risk to our forces should they 
be called upon to meet one of the many threats in the world today. We 
have balanced readiness and modernization in this budget and will 
continue to assess the risk in future budgets.
    Navy Answer. Navy's projected outyear funding trend, adjusted for 
inflation, is flat. Our strategy to pay for force modernization is to 
seek additional efficiencies in the way we operate and support our 
forces as well as continue to downsize and shed the supporting 
infrastructure. In doing so, a larger proportion of funds will become 
available for investment. However, we must ensure a balance between 
current and future readiness is maintained. We believe we can 
accomplish our modernization and recapitalization objectives and 
maintain this balance.
    Marine Corps Answer. Without an increase in our topline, we will be 
forced to continue to defer modernization in order to fund near-term 
readiness. This continued deferral of modernization of our aviation and 
ground equipment will most assuredly have an adverse impact on future 
readiness. As our budget is currently structured, the downward spiral 
in modernization funding begins to reverse in fiscal year 1999 as our 
topline increases, allowing us to support a robust modernization 
program capitalizing on recent investments in R&D. This increase in 
modernization funding is absolutely critical in order to ensure a 
ready, viable Marine Corps at the turn of the century.
    Air Force Answer. The Air Force has used a balanced, time-phased 
approach which allows us to modernize without sacrificing current 
readiness. For example, to balance our fiscal year 1998-2003 program, 
we used the near-term savings from C-17 Multi-Year Procurement, and we 
shifted some upgrades and weapons procurement programs to the outyears. 
In addition, we consistently search for infrastructure savings to 
offset readiness and modernization needs.
    Given our stated intent to maintain our modernization approach and 
our commitment to search for infrastructure savings, we feel confident 
in our ability to achieve our current modernization goals without 
sacrificing readiness.

                            TIERED READINESS
    Question. In February 1997, the Department of Defense (DoD) 
submitted a report in response to section 1047 of the fiscal year 1997 
Department of Defense Authorization Act concerning the practice of 
tiered readiness. This practice involves manning, equipping and 
training units that are ``first to fight'' at the highest levels, and 
providing lesser resources to units that would deploy later in the 
event of a conflict.
    The DoD report attempts to assess the current readiness of U.S. 
forces. The report concludes that for a single conflict, the ``force is 
maintained at a higher readiness posture than is called for in the 
generic scenario.''
    The Committee understands that the tiered readiness report assesses 
U.S. forces in the context of a single conflict. Do the conclusions of 
the study apply to two major regional conflicts?
    Army Answer. The study's single generic conflict, taken in 
isolation, cannot capture the challenges for our forces in today's 
security environment. Our forces are ready to respond to the demands of 
the full range of the national Military Strategy: peacetime engagement, 
conflict prevention and strategic deterrence, as well as fighting and 
winning two nearly simultaneous major reigonal conflicts. Our 
capability to respond to these requirements is discussed in a 
classified appendix to the report.
    Navy Answer. Although the tiered readiness report submitted to 
Congress does not specifically address Navy unit ``response'' to a two 
MRC scenario, it does address Navy units ``tiered'' for a full range of 
the National Military Strategy. Under our current National Military 
Strategy, which includes a two MRC scenario, Navy maintains at high 
readiness sufficient forces to meet all requirements.
    Marine Corps Answer. The conclusions in the tiered readiness 
assessment are founded upon the Bottom-Up Review and the current 
National Security Strategy of engagement and enlargement, recognizing 
the requirement for two near simultaneous major regional contingencies. 
Ironically, the ``tiered'' approach to unit readiness has existed 
within the Naval services for some time. The Marine Corps utilizes a 
cyclical rotation that directs our main focus of readiness to those 
units that are forward deployed or based, conducting presence, 
peacetime engagement and enlargement missions as part of our National 
Security objectives. Our rotational practice services as wll as it 
maximizes resource allocation within our Service. This ensures a high 
level of readiness in manpower, training, equipment and sustainment for 
units approaching their scheduled deployment dates.
    Air Force Answer. Since the Tiered Readiness Report only focuses on 
the execution of a single, generic MRC, its depth of analysis does not 
allow any conclusions to be drawn on the readiness to perform 2 MRCs. 
We are conducting a more thorough review of this subject as a part of 
the QDR. However, QDR analysis is focused on the full range of the 
National Military Strategy and, therefore, examines this issue from a 2 
MRC perspective.
    Question. How robust are the assumptions of the study concerning 
the following issues:
    Do the conclusions assume the current level of U.S. activity in 
lesser conflicts and in contingency operations other than war?
    Army Answer. The report's assumptions conform to the single, 
generic conflict assessment scenario prescribed in the legislation. The 
legislation did not address considerations of current levels of U.S. 
activity in small scale contingencies. To more fully develop the tiered 
readiness picture, the report includes a separate classified appendix 
which depicts the current capability of units to respond to the full 
range of the National Military Strategy.
    Navy Answer. Yes, In appendix B of the report, units are ``tiered'' 
to support current forward presence levels. Historically, these forward 
deployed units have reacted to conflicts and contingency requirements 
of lesser significance than that required under a wartime scenario.
    Marine Corps Answer. To support the conclusions, the study assumes 
forces not required for the generic conflict will continue other 
commitments as required in support of national objectives. The United 
States Marine Corps and Navy provide a military force that can ensure 
regional stability or rapidly respond to crises throughout the world 
with a ``rheostat'' of capabilities. These expeditionary elements are 
self-contained and self-sustained--air, land, and sea striking forces, 
operating from a protected sea base, that can be rapidly tailored in 
place to meet any contingency.
    Air Force Answer. The 1047 study only looked at the forces required 
to perform a single, generic MRC. It did not include a study of the 
forces required to support current operations, this will be done as a 
part of the QDR.
    Question. What assumptions does the study make concerning the 
ability of lower tiered units to prepare themselves for deployment in 
the event a conflict should escalate?
    Army Answer. This area is not addressed in the legislation. 
However, rather than rely on assumptions, the Army used actual unit 
readiness data to show how later deploying units prepare for deployment 
to support the full range of the National Military Strategy.
    Navy Answer. Navy response times for a single generic MRC, 
contained in classified appendix A of the report, are consistent with 
the current two MRC policy guidance for both rotational presence and 
CINC force flow requirements.
    This policy includes provisions to deploy additional forces to 
backfill presence hubs in adjacent theaters. These additional forces 
could be used to deter a second MRC or if directed by the NCA they 
could swing and augment forces in the first MRC.
    Marine Corps Answer. The report is founded upon two assumptions 
that must be present to ensure lower tiered units are ready for 
deployment. The first centers upon personnel; stop-loss and 
mobilization authority are present. Second is availability of funding 
to support mobilization and essential pre-deployment training for the 
lesser tiered forces.
    Air Force Answer. The 1047 study did not address how units would be 
structured in lower tier, how much time and money would be required to 
bring units to full readiness, or the long term effects of tiering.

            Tiered Readiness and High Value Military Assets

    Question. What assumptions does the study make about those assets 
that are stretched by current contingency operations such as strategic 
lift, and high demand Air Force assets such as AWACS and JSTARS?
    Army Answer. Strategic lift limitations are not addressed in the 
legislation. However, the legislation does direct use of the Bottom Up 
Review (BUR) force structure plus all planned enhancements. The Army 
assumed employment of programmed levels of major strategic lift 
systems--the Large Medium Speed Roll On/Off ship and the C-17 aircraft. 
Nevertheless, the Army applied constraints to the availability of these 
assets in the single generic conflict scenario. In so doing, the Army 
was able to inject a degree of accounting for the competition of 
strategic lift and impact on the flow of Army forces. The Army used 
existing strategic planning scenarios, including the BUR and the 
Defense Planning Guidance, to develop its force flow over time.
    Navy Answer. Lift feasibility was not specifically considered in 
the report. The primary assumption made about Navy high demand assets 
such as CVBGs and ARGs was that SECDEF Global Naval Forces Presence 
Policy (GNFPP) would allocate these scarce assets between the CINCs to 
ensure optimum theater coverage. Questions regarding high demand Air 
Force assets may best be answered by the Air Force.
    Marine Corps Answer. The report does not specifically address low 
density/high demand assets. However, appropriate numbers for a single 
conflict will be available, effectively withdrawing some or all support 
from other lesser taskings. This is consistent with the Joint Global 
Military Force Presence (GMFP) policy which address stressed assets 
such as AWACS, JSTARS and our Navy-Marine Corps EA-6B aircraft. 
Strategic lift, or lift feasibility, was not specifically considered in 
the report because, in a developing crisis, the actual requirement and 
sequence of forces would depend on what other operations were ongoing 
as well as when, where, and how the conflict developed. The scenario 
tiering of each Service's units reflects their most demanding scenario 
requirement for units and the time each type unit could be required in 
theater.
    Air Force Answer. The study did not consider current operations or 
the impact of tiering on low density-high demand assets.

          Tiered Readiness and the Quadrennial Defense Review

    Question. Does the central assumption of the study, a single 
conflict, indicate the strategic assumption to be used in preparing the 
Quadrennial Defense Review (QDR)?
    Army Answer. The study's single generic conflict, taken in 
isolation, does not capture the challenges for our forces in today's 
security environment. The real world is more dynamic and complex. The 
QDR will go beyond the legislation's limited scenario and address force 
readiness in the broader context of the full range of the National 
Military Strategy.
    Navy Answer. The single conflict assumption was directed by the 
Congressional language in the Authorization Act. It does not indicate 
strategic assumptions to be used in preparing the Quadrennial Defense 
Review report.
    Marine Corps Answer. The single conflict of the study is not being 
used in the Quadrennial Defense Review (QDR). The QDR is based upon 
current strategy which recognizes the requirement of two near 
simultaneous major regional contingencies. However, the QDR effort may 
contribute to a further refinement of a Tiered Readiness Approach.
    Air Force Answer. No. The consideration of a single conflict was a 
given condition of the study. This is not the strategic assumption of 
the QDR. The QDR examines the full range of the National Military 
Strategy and the military's means to support the strategy.

                       Quadrennial Defense Review

    Question. What are the principal challenges confronting the 
Department which you hope to see addressed in the Quadrennial Defense 
Review (QDR)?
    Army Answer. First, we expect that any changes directed as a result 
of the QDR will be based on our defense strategy, not a short-term 
solution to funding shortfalls. Some personnel reductions may be 
possible and may be part of the overarching objective of balancing 
requirements and resources, but such reductions should emanate from an 
assessment of our defense strategy. Second, we expect to demonstrate 
the increased relevance of Army forces and capabilities to the post-
Cold War environment. While the active force has been reduced by nearly 
36 percent, the tempo of our peacetime operations has increased by over 
300 percent since the end of the Cold War. In nearly every major 
deployment of a joint force since 1989, the Army has provided the 
majority of the personnel. In most operations, the organization and 
capabilities of the Army make it the ``force of choice'' of the theater 
commanders. Finally, we hope the QDR will validate the Army's 
modernization objectives and priorities, and reallocate funding to 
balance our modernization requirements and resources. Over the last 
decade, we've seen Army procurement funding drop by over 60 percent. 
This cannot continue if we are to have a world-class Army to meet the 
new challenges of the next century.
    Navy Answer. The challenges facing the Department of the Navy are:
    <bullet> Addressing our ability to continue to meet real world 
requirements and commitments called for in the National Military 
Strategy in a constrained fiscal environment.
    <bullet> We need to balance our concerns for supporting current 
operations and readiness with modernizing for future threats.
    <bullet> We recognize there are savings to be realized in 
infrastructure. Identifying these savings, and helping to recapitalize 
our modernization account is critical.
    <bullet> Conducting a thorough force assessment that meets strategy 
requirements of shaping, preparing and responding.
    <bullet> Overall, protecting the quality of life for our fine 
sailors is important to the CNO and all senior leadership.
    Marine Corps Answer. The principal challenge is developing a 
strategy to cope with a chaotic, multi-faceted world in the absence of 
a unifying threat, such as the Soviet Union. Much harder to address are 
multiple smaller contingencies, including trans-national drug cartels, 
ethnic and religious strife, and the regional ``rogue'' states.
    Other challenges are:
    --Assessing the force structure required to respond to the 
Administration's daily requirements, yet retain the capability to deal 
with major threats to American interests--including the possibility of 
more than one major regional threat occurring close in time to each 
other.
    --Finally, coming to grips with the need to modernize the force for 
the future in an era of competing national and domestic priorities.
    Air Force Answer. The QDR allows the Department of Defense the 
opportunity to fully examine the needed strategy and force structure 
for the world of today and tomorrow. The principle challenges we face 
include the need to modernize our air and space capabilities, the 
requirement to do so within budgetary guidance, and the requirement to 
meet the daily tasks required by our National Command Authorities. The 
Air Force is committed to develop, train, sustain and integrate the 
elements of air and space power our nation needs. Today, air and space 
power capabilities are vital to the defense of our national interests 
at home and around the world. So far, we are satisfied with most 
aspects of the QDR process in terms of incorporating our views on 
issues relating to the emerging strategy. We are concerned with the 
perception that there is little need to modernize to face significant 
threats in the distant future. In addition, we have struggled to fully 
convince many of the accuracy of our analyses on programs such as the 
F-22. However, we believe that when the final work is complete, our 
program plans will be recognized as accurate, affordable, and most 
importantly, a sound and promising investment strategy.

             Quadrennial Defense Review Fiscal Assumptions

    Question. To what degree are the prospects for future defense 
budgets being factored into the QDR? Put another way, is the QDR a 
``budget-constrained'' review?
    Army Answer. I believe the QDR is budget-constrained, but not 
budget-driven. Ten years ago the Army's budget was over $100 billion, 
measured in fiscal year 1997 dollars. This year it is just over $60 
billion. It would not be responsible to assume a return to the Cold War 
era budgets.
    Navy Answer. The QDR is a comprehensive examination of defense 
strategy, the force structure of the active, guard, and reserve 
components, force modernization plans, infrastructure and other 
elements of the defense program and policies in order to determine and 
express the defense strategy of the United States and to establish a 
revised defense program through the year 2005.
    All portions of the Department of the Navy are under review. While 
some budget assumptions must be made while analyzing different paths to 
accomplish the tasking of the QDR (as stated above and which is quoted 
from the Fiscal Year 1997 Authorization Bill), to call the review 
``budget constrained'' is not quite accurate. Nowhere in the 
legislation is the review to be conducted while acting under any 
budgetary constraint. While most of the assumptions are based on zero 
growth of service topline, or, based on topline growth in conjunction 
with inflation, the QDR remains a strategy based review.
    Marine Corps Answer. An unconstrained strategy and force structure 
would not be responsible nor respond to the concerns of the Congress 
and the American citizen. The QDR is working very hard to accommodate 
both strategic and budgetary interests. The QDR is better described as 
a strategy-based, fiscally responsible review.
    Air Force Answer. Yes, the QDR is budget constrained. OSD started 
the review with the implicit understanding that absent a clear threat, 
and the need to balance the budget, there would not be real growth in 
the defense budget in the foreseeable future. In addition, it was also 
clear that our modernization accounts were inadequately funded to 
continue all of the programmed modernization efforts into the long 
term. Given the continued use of military forces to shape the global 
environment, it seemed reasonable to assume that there would be 
continued pressure on our modernization accounts in the future. 
Therefore, the two-fold purpose of the QDR was not only to determine a 
strategy and appropriate force structure to match, but also to find a 
way to fund modernization of this force through better use, or 
reprioritization, of our constrained resources.

          Quadrennial Defense Review and Personnel Reductions

    Question. Both the Secretary of Defense and the Chairman of the 
Joint Chiefs of Staff have been quoted as saying a major issue in the 
QDR is trying to find a way to reverse the decade-old decline in 
procurement funding. This suggests potential additional reductions in 
the future in both military end strength levels and also DoD 
infrastructure costs. Military personnel and operational tempos are at 
very high rates. How can we consider additional cuts in personnel given 
the missions and commitments our forces are being confronted with?
    Army Answer. I agree with the comments of the Secretary and the 
Chairman. In the past ten years, the Army's procurement program has 
decreased by over 60 percent. That was an acceptable measure given the 
change in the geostrategic environment and our simultaneous downsizing 
of forces. Essentially, we accepted an increase in near-term risk in 
Army modernization to ensure that our soldiers and families were 
adequately provided for during the transformation. However, we must now 
begin to increase procurement funding if we are to provide the theater 
commanders and our soldiers with the right set of capabilities for 
future operations. The current operational tempo of the Army is much 
higher than during the Cold War, although Total Army personnel have 
been significantly reduced: active forces are 36 percent smaller, the 
United States Army Reserve is 35 percent smaller, the Army National 
Guard is 20 percent smaller, and Department of the Army civilians are 
on a path that will reduce our civilian force by 42 percent since 1989. 
Even with these reductions, additional personnel reductions can be 
achieved without significantly degrading our ability to implement the 
defense strategy if they are carefully crafted. Part of these savings 
can be achieved through additional reengineering of our support base 
and a revolution in business affairs. Other reductions can be achieved 
through headquarters streamlining and elimination of very low priority 
units that are not necessary to implement the defense strategy.
    Navy Answer. The Navy has been examining many options that would 
reduce the number of sailors needed both at sea and ashore. Through 
privatization, outsourcing, and implementation of technological 
advances, we feel that we can reduce the number of active-duty sailors 
needed to run shore facilities and ships at sea. These manpower 
reductions will be carefully monitored and will not impair our ability 
to conduct missions and commitments.
    Marine Corps Answer. High operational tempo in itself is not 
necessarily an undesirable situation. The Marine Corps, in particular, 
is a young force relative to our sister Services. Our men and women 
joined the Marines to serve their country and to seek adventure and 
challenge. Both our enlistment and re-enlistment rates reflect a broad 
satisfaction with ``being busy''. However, we are sensitive that a fine 
line divides challenging, exciting high operational tempos and 
readiness-degrading weariness stemming from over commitment. The QDR is 
looking at ways to maintain vital forward presence in regions essential 
to American interests, but maintain acceptable operational tempo for 
our Marines, Sailors, Soldiers and Airmen and their equipment.
    Air Force Answer. I share the same concern and we're clearly facing 
tough choices. Over the past several years, our National Security 
Strategy of Engagement and Enlargement has tasked our smaller military 
with a unique set of challenges. At the same time we've reduced our 
forward based force structure by 66 percent. As a result, the Air Force 
has become a more expeditionary force and our people are more 
frequently deployed. Current Air Force readiness levels allow us to 
deploy forces rapidly anywhere in the world to gather essential 
intelligence, discourage potential enemies, halt invasions, or provide 
humanitarian aid. We also have been aggressively pursuing a 
modernization plan that will allow us to be a great deal more effective 
in all of our missions with less people. For example, we have retired 
older weapon systems that required more time to repair which in turn 
has allowed us to reduce the number of personnel involved in meeting 
the mission demands. In addition, we have optimized the Total Force 
concept. Air Force Reserve and Air National Guard forces are supporting 
a greater share of contingency taskings and Joint Chiefs of Staff-
sponsored exercises, reducing the PERSTEMPO of the active forces. In 
1996, the Guard and Reserve contribution was close to DESERT SHIELD 
levels. There remains significant availability constraints for 
peacetime operations, but we feel our active-to-reserve component mix 
is nearly optimal to effectively achieve our national objectives. The 
QDR process has urged us to focus on the alternatives and perform 
detailed analyses. As a result, we are discerning better ways to help 
us maintain readiness while pursuing modernization.

        Quadrennial Defense Review and Infrastructure Reductions

    Question. Regarding infrastructure, do you believe that current 
efficiency measures such as privatization, acquisition reform, and 
inventory reductions (e.g., secondary supply items such as spare and 
repair parts, and consumable supplies) can sufficiently reduce 
operation and maintenance expenditures to accommodate increases in 
procurement?
    Army Answer. No. It will take a combination of measures to balance 
modernization requirements with resources. It is likely that additional 
infrastructure reductions and realignments, and potentially some modest 
personnel reductions, will be required.
    Navy Answer. Current infrastructure efficiency initiatives can 
provide some savings; however, they may not be enough to accommodate 
all procurement increases. QDR report is still under development and 
some infrastructure initiatives will remain under review past the May 
deadline. When all efforts in infrastructure are complete, a better 
understanding of the extent of savings will be available.
    Marine Corps Answer. There is every reason to believe some savings 
will be generated from the currently planned Marine Corps outsourcing 
and privatization effort. These savings will be realized through either 
development of most efficient organizations or through competitive 
sourcing of base commercial activities. It is our hope that the DoD-
wide savings from such initiatives will be sufficient to accelerate the 
Marine Corps modernization effort.
    Air Force Answer. The savings from reducing infrastructure 
operations and maintenance expenditures, although significant, will 
probably not accommodate major increases in procurement. The Logistics 
Task Force, a part of the Infrastructure Panel in DoD's Quadrennial 
Defense Review, reviewed over 50 potential initiatives. The Panel 
approved pursuing over 20 of these initiatives. In some cases, the 
Services were already pursuing specific efforts and had programmed 
associated savings in their budget submissions. In other cases, the 
initiatives led to additional savings for some or all of the Services.

              Quadrennial Defense Review and Base Closures

    Question. Do you believe additional rounds of base closings are 
needed?
    Army Answer. Yes. We can further improve the cost effectiveness and 
efficiency of our support base.
    Navy Answer. This issue is being studied by the Quadrennial Defense 
review (QDR) Infrastructure Panel. The Navy position on this is that 
there is sufficient excess infrastructure to support additional 
closures.
    Marine Corps Answer. The Department's Defense Science Board 
indicated the potential for up to $30 billion savings in 
infrastructure. Realizing that sum would require one or more additional 
rounds of base closings. However, that is a policy decision for the 
Administration.
    The Marine Corps is already tightly constrained by previous base 
closings--specifically our air station in El Toro. There is little in 
the Marine Corp infrastructure inventory that could be considered 
excess at this time. We are continuing to examine our infrastructure 
requirements in conjunction with the strategy and force structure 
assessments.
    Air Force Answer. The need for additional rounds of Base 
Realignment and Closure (BRAC) and the timing depends on the results of 
the Quadrennial Defense review, currently underway, and appropriate 
legislation.

                         Troops vs. Technology

    Question. Gentlemen, General John Sheehan, Commander in Chief of 
the U.S. Atlantic Command, has stated that, ``technology will be no 
substitute for well-trained ground forces in the military operations of 
the future.'' He states that the military missions of tomorrow will be 
in urban areas that will require troops on the ground and not, for 
example, a need for high technology aircraft over head. Gentlemen, do 
you agree with his assessment for future contingencies?
    Army Answer. Yes. While the risk of a high technology peer 
competitor cannot be discounted, trends indicate an increasing 
frequency of U.S. involvement in lesser regional conflicts and 
operations other than war (e.g., peace support operations, security 
assistance, humanitarian relief, and combating terrorism). While 
technology can assist in the conduct of such operations, rarely can 
precise, highly lethal weapons delivered from a distance redress the 
strategic conditions that created the challenges to U.S. interests. Nor 
do those high technology solutions apply to the increasing likelihood 
of irregular and non-conventional warfare or operations conducted in 
urban areas. As currently configured, only U.S. ground forces are well 
suited for such operations.
    Retention of engagement and enlargement as a national security 
strategy will increase the frequency of such operations and the demand 
for ground forces. Thus, the United States must maintain capabilities 
to meet challenges throughout the range of military operations, 
particularly at the low end, if it is to promote and further U.S. 
national interests.
    Navy Answer. I believe that the General is correct in that there 
are some missions for which high technology cannot alleviate the need 
for troops on the ground. Across the wide spectrum of potential 
military operations, urban warfare certainly would have to be one of 
the more manpower intensive. I also believe however that modern 
technology, properly applied, can be a force multiplier that provides a 
distinct advantage whether we are talking troops on the ground, airmen 
in the air, or sailors at sea.
    The Navy recognizes that the military missions of tomorrow will be 
where the people are--in the littorals, areas that include a large 
proportion of the world's urban centers. It is with this in mind that 
the Navy has developed its Navy Operational Concept which describes how 
the Navy will execute Forward . . . From the Sea into the 21st Century. 
Naval capabilities are well suited to successfully completing the full 
range of missions in the littoral environment, often including 
providing support to Marines and soldiers ashore. Modern systems with 
greater range, capability, and sustainability allow naval forces to 
have a greater impact on events ashore than ever before. Additionally, 
the harnessing of modern technology to gain information superiority 
will allow us to accurately assess enemy capabilities and determine how 
to best accomplish any given objective.
    Thus as I look to the future, I forecast the need to balance 
technology with troops, ensuring that we invest in both to achieve 
optimum mutual support.
    Marine Corps Answer. Yes, to a certain extent. The Marine Corps' 
ability to conduct military operations in the future rests with the 
individual Marine. Marines are trained to be ready for uncertainty and 
to successfully meet tasks by adapting, improvising, and prevailing. We 
equip our Marines to fight, not man our equipment. Our Marines are 
fully integrated into a synergistic force package that emphasizes the 
application of combined arms and maneuver warfare. Advanced technology 
in both ground and air applications will complement, but will never 
alleviate the need for well trained and well equipped ground fighting 
forces. Our Sea Dragon series of experiments highlights our efforts to 
ensure that technology supports the man. Our upcoming experiment 
entitled ``Urban Warrior'' will look specifically at combat in urban 
areas.
    Air Force Answer. It's possible we may see more urban conflict in 
the coming years, but a survey of the actions we're involved in right 
now in the Balkans, Southwest Asia, Africa, and South America, shows 
that we can't use urban operations as our sole planning scenario. The 
recently completed Joint Strategy Review (JSR), setting the strategic 
planning context for future operations, and the Defense Planning 
Guidance (DPG), with its Illustrative Planning Scenarios, clearly 
outline future contingencies that emphasize the need for military 
capabilities with a broad range of technological sophistication--from 
``boots on the ground'' to dominance of the skies to special operations 
forces tailored for specific missions. The JSR and DPG are the 
established vehicles for building consensus on the nature of future 
conflict, and decisions about the appropriate mix for future forces 
flow from there.
    Question. Do you believe that the increased use of technology can 
substitute for the numbers of troops on the ground or sailors on ships? 
In other words, should we reduce manning further because we are 
technologically superior?
    Army Answer. The Army has not determined the answer to this 
difficult question. Technology will give us some enablers that will 
provide some efficiencies in employing the force. Additional study and 
analysis is required to determine the right manning level required when 
balanced against the capabilities of technology.
    Navy Answer. The Navy is aggressively pursuing initiatives that 
would enable us to reduce manning levels without a corresponding 
reduction in capabilities. Examples of these initiatives include the 
Navy's ``Smart Ship'' and ``Smart Base'' projects and a strategy for 
the increased use of ``competition and outsourcing.''
    The Smart Ship project provides an effective means to test and 
evaluate emerging labor saving technology and doctrine changes. Initial 
testing of approximately fifty individual labor saving initiatives has 
been undertaken onboard USS Yorktown. Other examples include 
incorporation of Smart Ship concepts into the development of designs 
for the Arsenal ship, SC-21, and CVN-77.
    The Smart Base project, similar in concept to Smart Ship, aims to 
increase shore installation efficiency and reduce the cost of 
infrastructure. Naval Station Pascagoula, MS and Naval Shipyard 
Portsmouth, NH have been designated as demonstration sites.
    The competition and outsourcing initiative would lower costs and 
increase efficiencies and replace non-core function military billets 
with civilian personnel or contractors.
    These initiatives, successfully implemented, promise to allow 
reduced personnel manning levels while maintaining a superior force. We 
must however be careful to ensure that we actually receive the expected 
level of benefit from these new concepts and technologies, and 
determine that they will work in a combat as well as a non-combat 
environment before we reduce personnel levels. Absent these 
precautions, we risk degrading the overall effectiveness of our forces 
and demoralizing the highly professional well-trained force we have 
worked so hard to create.
    Marine Corps Answer. The Marine Corps position is that technology 
should not be viewed as an end to itself. Technology should be used as 
an enabler not as a numerical replacement for Marines and Sailors. The 
Marine Corps has always viewed the individual Marine on the battlefield 
as our most important asset and technology as a means to enhance his 
warfighting capabilities, lethality and survivability.
    As the Marine Corps proceeds through the Sea Dragon experimental 
process, we seek to fuse technology and enhance the capabilities of the 
warfighter through the introduction of new equipment and tactics, 
techniques, and procedures. During this process, we must be careful not 
to automatically cut force structure without first conducting a proper 
analysis. This will be accomplished through our Marine Corps Concepts 
Based Requirements System which reviews the impact of changes to 
existing technology, tactics, training, and procedures on Marine Corps 
doctrine, organization, education and training, equipment, and 
structure.
    Once this analysis is complete, the Marine Corps can then determine 
how to best organize, train, and equip to meet the mission requirements 
of our Corps. With that said, our current end strength of 174,000 
active and 42,000 reserve Marines is essential for the Marine Corps to 
execute its assigned responsibilities. Reduction of current strength 
without concomitant reduction in U.S. commitments will undermine force 
stability, foreign policy initiatives, and the Nation's ability to 
protect its national interests.
    Air Force Answer. The key to success is balanced use of both these 
American strengths: leading edge technology and highly trained 
soldiers, sailors, airmen, and marines. Today we're operating at the 
limits of each. While the United States has long used its technological 
edge to keep the active duty force as small as possible, there is no 
breakthrough on the immediate horizon which would allow us to draw down 
further without accepting increased risk. Our forces are sized to meet 
the needs of our two major regional contingency security strategy by 
taking full advantage of both our available technology and the very 
highest quality young women and men our nation offers. And even during 
the period of relative peace we're now enjoying our operational tempo 
is very high and our people are feeling the stress. Further force 
reductions could significantly increase the burden on those who remain.

                      Reserve Component Readiness

    Question. The Reserve components are playing an increasingly 
important role within the total force structure, with units and 
individuals being used in numerous contingencies in the past and 
currently in Bosnia where troops were mobilized under the Presidential 
call-up authority. Would each of you briefly address the level of 
readiness of your Reserve components?
    Army Answer. As a result of tiered resourcing instituted several 
years ago, the readiness of the U.S. Army Reserve (USAR) has improved 
both quantitatively and qualitatively. Readiness levels are appropriate 
for USAR warfighting forces, and the goals established for them are 
consistently met.
    Readiness in the Army National Guard (ARNG) is at its highest level 
since the end of World War II. The ARNG has modern equipment and highly 
motivated and skilled soldiers and leaders.
    Navy Answer. The Naval Reserve is maintaining a consistently high 
level of readiness through increased PERSTEMPO and OPTEMPO support of 
the active Navy. Since the end of the Cold War, the Naval Reserve has 
been shifting paradigms from a Force that trained for augmentation in 
times of crisis, to a Force that is trained and integrated across the 
spectrum to respond to the day-to-day requirements of the Navy, while 
remaining ready to mobilize. The end result is a Naval Reserve that 
works and trains side by side with the Active Navy and has therefore 
become a significant force multiplier available to meet the peacetime 
operational requirement of the 2,200 afloat and ashore commands of the 
Navy as well as a mobilization force in time of crisis.
    In 1977, one in every five sailors is a Naval Reservist. Of the 
approximately 96,000 men and women who make up the Naval Reserve, 85 
percent are prior service veterans. Identical training requirements and 
the large percentage of prior service members ensure the seamless 
integration of the Naval Reserve with their active-duty counterparts. 
This seamless integration of the Navy's Active and Reserve forces is 
providing unprecedented levels of contributory support to the fleet.
    The properly structured, trained and equipped Naval Reserve Force 
of today provides essential and cost-effective contributory support to 
the Total Force. We have ensured that we have structured, trained, and 
equipped the force to be a significant force-multiplier to meet both 
the Navy's day-to-day support and mobilization commitments. Training to 
identical standards and maximizing the horizontal integration of 
equipment between the Active and Reserve Forces is our benchmark.
    The integration of the Active/Reserve forces enables the Naval 
Reserve to maintain high readiness and provides the flexibility to 
produce the right response, customized to realize the ever-changing 
requirements of forward presence, prevention, deterrence, and 
resolution, essential to the National Military Strategy.
    Marine Corps Answer. When mobilized, Marine Corps Reserve units do 
not expand the force, but bring the three Marine Expeditionary Forces 
currently in our active force to full strength quickly. This is 
accomplished by inserting Marine Reserve Battalions and Squadrons into 
our active war fighting Marine Air Ground Task Forces (MAGTF's). 
Because of this unique role, the Marine Corps Reserve continues to 
maintain a high state of readiness and interoperability with our Active 
Component forces.
    Air Force Answer. The ARC forces are fully trained and have 
sufficient resources to meet the National Military Strategy. Currently 
91 percent of our Guard and Reserve units possess the equipment, 
personnel, and other resources necessary to meet their wartime 
commitment.

                        Reserve Readiness Trends

    Question. What is the trend of that readiness over the last few 
year . . . steady, improving or declining?
    Army Answer. Since the inception of the Force Support Package 
process in February 1996, the readiness of the U.S. Army Reserve (USAR) 
first-to-fight units has improved significantly. During the same 
period, the overall readiness of the entire USAR has also increased. 
With the inception of the dedicated Procurement Program (DPP) in 1981, 
equipment on hand readiness has substantially increased. Under the 
current resource constraints, the USAR expects to maintain these 
readiness levels.
    There has been a steady, positive trend in the overall readiness of 
the Army National Guard (ARNG) units over the past several years. 
Readiness has improved significantly in the ARNG's first-to-fight units 
(Force Support Package units and Enhanced Separate Brigades), with the 
remaining units struggling to maintain minimum deployable readiness 
levels as a result of reduced resources. This ``gap'' in readiness 
between first-to-fight units and the remainder of the force could 
increase if resources become more scarce.
    Navy Answer. Readiness of the Naval Reserve has been relatively 
stable. Since 1993, there have been slight variations attributable to 
composition of the force, changes such as decommissioning of Reserve 
squadrons and ships, and the restructuring of entire programs. While 
these changes have mostly come about as a result of efforts to downsize 
and concurrently modernize, they are also a result of efforts to simply 
better utilize our available assets.
    Marine Corps Answer. The Marine Corps Reserve has been working hard 
to improve readiness over the past few years. Noteworthy among our 
improvements have been upgrades to our reporting procedures and efforts 
to develop alternate MOS qualifying methods that can more quickly 
qualify reserve Marines in their primary MOS. The results have been a 
steady improvement in overall readiness. We continue to actively pursue 
initiatives that will move us into an even higher readiness status.
    Air Force Answer. Air Reserve Component readiness levels have 
remained steady for the last five years. However, budget cuts, the 
drawdown, and the pace of current operations have placed significant 
stress on all the Air Force's people and equipment, including those of 
the reserve components. The Air Force is closely monitoring key 
indicators for any negative trends. Our biggest evolving concern is 
pilot retention. In addition to the retention problem caused by high 
OPTEMPO, the airlines are now hiring in large numbers. As a 
consequence, we are beginning to see reductions in the numbers of 
pilots accepting the bonus, as well as increases in the number of 
pilots applying for separation. The Air Force is working the pilot 
retention problem hard.

          Contingency Operations' Effect on Reserve Readiness

    Question. The Reserve components are playing an increasingly 
important role within the total force structure, with units and 
individuals being used in numerous contingencies in the past, and 
currently in Bosnia where troops were mobilized under the Presidential 
call-up authority. Has the high number of contingencies in the last few 
years caused a reduction in readiness in any high-deploying units? If 
so, please explain.
    Army Answer. No. The current trend for U.S. Army Reserve (USAR) 
mobilizations is to use lower tiered units and personnel fillers from 
the Individual Ready Reserve to round out derivative units. With the 
exception of Civil Affairs and Psychological Operations units, Force 
Support Package (FSP) units seldom deploy for contingencies such as 
Bosnia. The purpose of this is to preserve a high state of readiness 
for these first-to-deploy support units.
    In the case of the Army National Guard (ARNG), recently deployed 
units continue to maintain high rates of readiness and retention. 
However, the majority of ARNG units deployed in support of Army 
Operations such as Uphold Democracy, Restore Hope, and Joint Endeavor/
Guard, were not first-to-fight units. They were units with lower 
resourcing priorities. These units were selected due to their personnel 
strength, with equipment shortages resulting from lower resourcing 
priorities made up at their mobilization stations.
    Navy Answer. The readiness of Naval Reserve units directly 
supporting contingency operations has actually increased.
    Marine Corps Answer. Marine Corps Reserves units have experienced 
no reduction in readiness as a result of increased participation in 
contingency operations and providing OPTEMPO relief to the Active 
Component (AC). As Active Component commitments have increased, we have 
placed a greater demand on our Reserve Component to meet peacetime and 
contingency requirements as a full partner in the total Force.
    While this increased participation gives reservists greater job 
satisfaction, the opportunity for hands-on use of equipment in a real-
world scenario, and enhanced training opportunities with Active 
Component units, it is not without cost. Our Reserve Component is 
currently providing our tightly stretched active forces invaluable and 
historically high levels of augmentation and OPTEMPO relief. This 
success, coupled with our achievement in reaching our end strength 
goal, has resulted in our number one Reserve readiness challenge--
making sure we can pay our Marine Reserve personnel to provide the 
level of support that our Total Force commitments now require. We have 
a steady Reserve end strength, increasing operational commitments, and 
a resulting increase in the demand for Reserve use, while the funds 
available in the RPMC account have declined from previous years.
    In summary, we have a fully manned and well-trained Reserve force 
that is poised to continue providing argumentation and OPTEMP relief to 
our Active Component. Under current constraints, we will face 
challenges in prioritizing our Reserve Component's contributions to 
peacetime exercise and contingency support in the coming year.
    Air Force Answer. No. The high OPTEMPO of Air Reserve Component 
participation in contingencies during recent years has not resulted in 
any appreciable reduction in readiness.

                TIERED RESOURCING AND RESERVE READINESS

    Question. The Reserve components are playing an increasingly 
important role within the total force structure, with units and 
individuals being used in numerous contingencies in the past and 
currently in Bosnia where troops were mobilized under the Presidential 
call-up authority. Has the tiering of resources adequately funded 
personnel training, Operating Tempo (OPTEMPO) requirements, etc., for 
those units that forward deploy early in a crisis? What is the ``C'' 
rating of these units?
    Army Answer. Tiered resourcing has adequately funded training and 
OPTEMPO requirements for the early deploying units. Currently, the 
Force Support Package (FSP) is ------. These percentages exclude C-5 
units which are currently undergoing restructuring initiatives. 
Readiness trends within the Army National Guard (ARNG) indicate that 
tiering of resources in the FSP and Enhanced Separate Brigades (ESBs) 
has had a significant positive impact on these units. ARNG FSP units 
are maintaining an average C-rating of ------ while ESBs are at ------. 
These performances are consistent with Defense Planning Guidance.
    Navy Answer. The Naval Reserve does not tier resources.
    Marine Corps Answer. The 82nd Congress tasked the Marine Corps ``to 
be the most ready when the nation is generally least ready.'' Because 
of this unique role, we have structured both our Active and Reserve 
Components to provide a rapid response in the event of crisis. 
Approximately 50 percent of reporting Marine Corps Reserve units deploy 
within the first 30 days during the major MRC scenarios. Over 95 
percent of the Marine Corps Reserve units are included in the plan. If 
application of tiered resourcing were applied to the Marine Corps 
Reserve we could not fulfill our mission.
    Air Force Answer. The Air Force does not tier units. We take 
advantage of the leverage provided by our Guard and Reserve forces to 
meet the nation's demands efficiently. Currently, 91 percent of our 
Guard and Reserve units are ``ready.''
    Question. At what percent of requirements are the later deploying 
units funded? At what ``C'' level are they rated? Do you feel that 
``C'' level is satisfactory for those units?
    Army Answer. Because of the need to maintain a balance in the 
overall Army budget in a period of constrained resources, we have had 
to accept some risk in our later deploying Reserve Component units. 
Within the Army Reserve, later deploying units are funded anywhere from 
40 percent to 90 percent of requirements. These non-Force Support 
Package units are currently ------ (excluding C-5 units). We feel these 
units are currently underfunded due to an increased dependence on them 
to provide the bulk of support for military operations other than war, 
such as Operation Joint Guard.
    Later deploying Army National Guard units are funded at less than 
50 percent of their requirements. They are struggling to maintain the 
minimum standard for deployability. Many of these units have been 
mobilized to support recent Army operations and funding at higher 
levels could help improve their readiness levels. These non-Force 
Support Package units are currently ------ (excluding C-5 units.).
    Navy Answer. This question is not applicable since the Naval 
Reserve does not tier resources.
    Marine Corps Answer. Because of the unique role of the Marine Corps 
Reserve as outlined in previous questions, tiered resourcing will not 
allow us to fulfill our mission and is not applied in our Planning, 
Programming and Budgeting System.
    Air Force Answer. The Air Force does not tier units. We take 
advantage of the leverage provided by our Guard and Reserve forces to 
meet the nation's demands efficiently. Currently, 91 percent of our 
Guard and Reserve units are ``ready.'' This unique accomplishment is 
the result of a joint effort on the part of Congress and the Air Force 
to provide our Guard and Reserve forces with modern equipment, 
establish comparable training standards, and evaluate their 
capabilities the same as for the active force. In additional, both the 
Guard and Reserves participate with the active force in all our on-
going operations as well as a significant portion of CJCS exercises.

         Congressional Funding Increases and Reserve Readiness

    Question. For the past number of years, this Committee has added 
funds for modernizing equipment of the reserve components. How 
important have these increases been for enhancing the readiness and 
quality of the Guard and Reserve?
    Army Answer. The current National Guard and Reserve Equipment 
Appropriation (NGREA) Program has proven important in maximizing the 
readiness of the Reserve Component beyond the affordability limits of 
the Army. It has permitted them to fill key mission-required equipment 
readiness shortages that were unfilled due to funding constraints, 
which adversely affected day-to-day operations, domestic support, 
training, and wartime readiness. NGREA, and other Congressional add-
ons, complement Service procurement in providing many units the most 
modern equipment available. The Army's reserve components have also 
successfully leveraged NGREA funds in conjunction with depot 
maintenance funding to extend the useful service life of much of their 
equipment. A recent success story of NGREA was the procurement of 24 of 
32 authorized C-12R aircraft for the United States Army Reserve (USAR) 
theater aviation companies, which have had recent duty in Bosnia. NGREA 
also provided the resources to complete Heavy Equipment Transporter 
(HET) fielding in the USAR, the only component of the Army with all 
required HETs on hand. The Army National Guard (ARNG) has used NGREA 
funding to procure equipment required for the warfight that also 
supports the domestic mission, such as the M917A1 dump truck and UH-60 
helicopters. Congressional add-ons have provided key resources to the 
ARNG for Paladin, Avenger, and the Multiple Launch Rocket System, 
resulting in greatly increased contributions to the warfight.
    Navy Answer. Funds added by Congress have been extremely beneficial 
at enhancing training, readiness and mission capabilities of the Naval 
Reserve. NGRE funds have been used to procure aircraft, coastal warfare 
equipment, and upgrade existing equipment to fleet requirements. Since 
the Naval Reserve provides 20 percent of the force and in many cases 
provides 100 percent of the Navy's capability, it is imperative that 
the Reserve Force have modern equipment that is compatible with the 
active force. The additional equipment funding from your committee has 
been a critical source from which the Naval Reserve has been able to 
maintain equipment compatibility with the fleet.
    Marine Corps Answer. During the past two years, the National Guard 
and Reserve Equipment Appropriation (NGREA) provided to the Marine 
Corps has been invaluable in modernizing the Marine Corps Reserve's 
equipment. Specifically, aged 20-year-old RH-53D's are being replaced 
with modern CH-53E's purchased with NGREA. This is of extreme 
importance since the Marine Corps requires seven (7), 16 aircraft 
squadrons of CH-53E's to fight one (1) major regional contingency and 
the seventh squadron is located in the Reserve Component. Modernization 
of this seventh squadron provides the Marines Corps with a much needed 
war fighting capability. To date, the committee has provided enough 
NGREA to purchase four (4) CH-53E's. Additional warfighting assets 
purchased in previous years included the AH-1W Attack Helicopter and 
the KC-130T Transport Aircraft.
    A myriad of Marine Corps Reserve ground equipment is being 
modernized as a direct result of NGREA. M1A1 main battle tanks and 
Light Armored Vehicles are having product improvements applied to them. 
Additional examples of ground equipment purchased with NGREA are: 
Intelligence Analysis Systems, Weapons Direction Units, power 
equipment, and simulation systems for LAV's and M1A1's. These product 
improvements and equipment purchases are a result of NGREA provided to 
the Marine Corps Reserve in fiscal year 1996 and fiscal year 1997.
    The readiness of the Marine Corps Reserve is being improved as a 
direct result of equipment purchased through NGREA. We greatly 
appreciate the support of this committee.
    Air Force Answer. While decreasing toplines are today's reality, 
modernization of the Air Force's reserve components continues to be one 
of the priorities of our Total Air Force. As such, added Congressional 
funding has been critical in enhancing the readiness and quality of the 
Guard and Reserve capabilities. Some notable examples include: 
Procuring precision guided munitions for Block 30F-16s; improving night 
operations by installing a compatible lighting kit on Air National 
Guard (ANG) F-16 and A-10 fleets and developing a similar lighting kit 
for installation on the ANG F-15 and C-130 fleet; designing and 
purchasing new Electronic Warfare and Management System providing 
improved cockpit management in combat for the F-16 and A-10 by 
centralizing control of chaff, flares, jamming pods, and reconnaissance 
pods; and the fielding of state-of-the-art F-16 Unit Training Devices.

                  Reserve Readiness Funding Shortfalls

    Question. Provide for the record the details of the major 
personnel, Operations and Maintenance (O&M), and procurement readiness 
shortfalls of each of your reserve components.
    Army Answer. The Army has developed a list of unfunded 
requirements, which has been provided to the Committee at its request. 
This list includes shortfalls experienced by each of our reserve 
components.
    Our Reserve Component units are integrated with Active Component 
units into Force Packages and Force Support Packages. We do not provide 
resources by component; we resource by these packages. The major 
readiness shortfalls are in the lower priority packages. This is where 
we have chosen to take some readiness risk, in order to provide 
resources for our first-to-fight packages. It is increasingly difficult 
to speak of ``Reserve Component shortfalls.'' Rather, there are 
shortfalls in the Total Army, some of which primarily affect either the 
Army Reserve or Army National Guard.
    In regard to O&M, Army Distance Learning is a high priority Total 
Army program. Distance Learning will leverage technology to provide 
long-distance training opportunities to our soldiers. This will impact 
all three components, but is particularly important to our Reserve 
Component soldiers, who may be stationed far from a training site.
    Reserve Component schools and special training have shortfalls that 
are a high priority to fix. The current budget reflects necessary 
austerity in these accounts, but we would like to do better.
    In procurement, we are proceeding with a significant redesign of 
our Army National Guard divisions. This effort will significantly 
change over 100,000 positions in Army force structure to align them 
more closely with the warfight requirements. We will convert some 
combat structure into combat support and combat service support. 
Procurement of the needed equipment is a challenge to the Army, given 
our constrained procurement resourcing. In our Army Reserve, we have 
shortfalls for this same type of equipment, such as trucks and heavy 
transports.
    Navy Answer. Although the requested fiscal year 1998 budget for the 
Naval Reserve is adequate to maintain readiness levels and PERSTEMPO 
and OPTEMPO support of the Active Navy at about 2 million workdays 
annually, additional funding, if it became available, could be used to 
improve readiness in the following areas:

                            FY 1998 NAVAL RESERVE--Category A (Replacement Aircraft)
                                              [Dollars in millions]
----------------------------------------------------------------------------------------------------------------
                   Appr                                Item                 FY98               Comments
----------------------------------------------------------------------------------------------------------------
1.--NGRE.................................  Replacement Aircraft.......        150.0  Replacement of 3 C-9
                                                                                      aircraft
2.--NGRE.................................  SH60B Aircraft.............        140.0  Replacement of 5 SH-2G
3.--NGRE.................................  E-2 Group II Aircraft......        300.0  Replacement of 4 E-2C Group
                                                                                      O
 
                                  Category B (Unfunded Equipment Requirements)
 
1.--NGRE.................................  Naval Coastal Warfare......         91.0  11 MIUW & 9 MAST Vans/SHF
                                                                                      SATCOM
2.--NGRE.................................  F/A-18 Mods................         92.0  Precision Strike Upgrade
3.--NGRE.................................  CESE TOA...................         25.0  Truck/Trlr/Generator (MIUW/
                                                                                      CNCWU/EOD)
4.--NGRE.................................  F-14A Mod..................         34.0  Precision Strike Upgrade
5.--NGRE.................................  P03 Mods...................        116.0  Update III Kits (10)/AIP
                                                                                      Kits (4)
6.--NGRE.................................  ALQ-126B...................         25.0  Install ALQ 126 in Reserve
                                                                                      Aircraft
 
                                      Category C (Miscellaneous Equipment)
 
1.--NGRE.................................  Helo Upgrades..............         19.0  Add MAGR GPS, ARC-120,
                                                                                      SATCOM
2.--NGRE.................................  CESE Updating..............          5.0  Refurb 822.5 ton trucks
3.--NGRE.................................  P-3 CDU Upgrades Spares....         10.0  Add APG-66 radar and AVX-1
                                                                                      EOIS
4.--NGRE.................................  E-2 SATCOM.................          4.0  Install SATCOM on Reserve E-
                                                                                      2C
5.--NGRE.................................  P-3 Color WX Radar.........          1.5  Install AFC-551 (Color
                                                                                      Radar)
6.--NGRE.................................  HH-60H Trainers............          8.0  Acquire NVG/FLIR/Hellfire
                                                                                      Trainers
7.--NGRE.................................  MOCC Equipment.............          4.4  Acquire 3rd MOCC for Naval
                                                                                      Reserve
8.--NGRE.................................  EA-6B USQ-113B.............          2.0  Install Upgrade USQ-113B
                                                                                      Jammer in 12 acft
9.--NGRE.................................  ISAR Upgrades..............         12.3  Convert 5 APS-137 (AV-5) TO
                                                                                      (BV-5)
10.--NGRE................................  C-9 Upgrades...............          6.0  Install PA Sys, Anti-Coll
                                                                                      Lts, Dig Cabin Press.
11.--NGRE................................  P-3 Update III Trainer.....          8.0  Acquire Tactical Crew
                                                                                      Coordination Trainer
12.--NGRE................................  P-3 ALR 66 Trainer Upgrades          3.0  Upgrade ALR-66 Trainer
----------------------------------------------------------------------------------------------------------------

    Marine Corps Answer. Following is a list of Reserve Programs for 
which additional funds could be executed in FY 1998.
                                  rpmc
    Initial Active Duty for Training (IADT)--$4.3 million. This funding 
will enable the Marine Corps Reserve to recruit and train the number of 
accessions necessary to maintain our authorized 42,000 end strength.
    Individual Mobilization Augmentees (IMA's)--$1.2 million. CINC and 
Force Commanders have an increased need for pre-trained and pre-
assigned personnel to fill mobilization billets on or shortly after 
mobilization day. This funding will provide 123 additional IMA's for 
fiscal year 1998.
    Active Duty Special Work (ADSW)--$8.1 million. This funding will 
provide the Force Commanders the ability to train reservists, provide 
relief to the Active Pers Tempo/Ops Tempo, and maintain home training 
sites.
    School Tours--$2.3 million. Unit relocation's and new unit 
creations have created challenges in the ability to recruit and retain 
MOS qualified personnel for these units. This school tour funding will 
provide the Commander of the Marine Forces Reserve the ability to train 
these individuals in order to maintain a fully qualified and ready SMCR 
Force.
    Readiness Support Program (RSP)--$2.9 million. Funding the RSP will 
enhance Total Force readiness by ensuring the efficient processing of 
mobilized Reserve manpower as well as providing post mobilization 
support to Active and Reserve Component facilities/sites.

                                 O&MMCR
    Initial Issue--$10.5 million. This funding will enable the Marine 
Corps Reserve to continue the fielding of modernized equipment to the 
individual Marines in the Operating Forces.
    M1A1 Training and Maintenance--$3.9 million. This funding will 
provide for component costs, organizational level maintenance repair 
parts, and fully funded related training for the recently acquired M1A1 
tanks.
    Non-BRAC Relocation's--$5.2 million. Additional funding is required 
for facility support and infrastructure costs associated with various 
unit relocation's in fiscal year 1998.
    Consumables (SL-3 Components)--$1.3 million. This funding will 
provide for the increased general maintenance and equipment repair 
costs associated with the greater exercise participation and OPTEMPO 
relief anticipated for fiscal year 1998.
    Readiness Support Program (RSP)--$2.5 million. This funding will 
provide for the travel and per diem, miscellaneous supplies, and 
computer support for the Commandant's RSP initiative.
    Maintenance of Real Property--$.4 million. This funding will be 
used to construct a vehicle maintenance facility at Camp Williams, 
Utah.

                              PROCUREMENT
    LVS MK 48 Front Power Unit--$1.6 million. This funding provides 10 
MK 48 Front Power Units for the reserve Artillery Battalions and 
obtains 57 percent of the reserve Acquisition Objective.
    LVS Rear Body Units--$1.0 million. This funding provides MK 14 
Trailers with tow bar adapter kits to enable tandem towing for each 
reserve Artillery Battalion and obtains 49 percent of the reserve 
Acquisition Objective.
    F/A-18A+ (ECP 560)--$32.0 million. This funding procures avionics 
hardware upgrades which allow the F/A 18s to process and utilize more 
modern versions of the aircraft's software and accessories.
    Joint Deployable Intelligence Support System (Mobile)--$.1 million. 
This funding procures ruggedized portable workstation systems that 
provide secure connectivity to intelligence databases for the purposes 
of obtaining classified imagers and material in support of staff 
intelligence requirements.
    Joint Deployable Intelligence Support System (Fixed)--$.3 million. 
This funding procures an additional terminal which will augment the 
existing single unit that is located at the headquarters and will serve 
to assist the G-2 in training and supporting the Major Subordinate 
Commanders with maintaining secure intelligence and communication 
conduits.
    AN/AAS-38 FLIR--$9.7 million. This funding procures four devices to 
allow for parity with the active forces and improve total force 
mobilization readiness.
    Data Automated Communications Terminal (DACT)--$6.5 million. This 
funding will increase battlefield awareness by enabling Marines to 
share a common picture of the battlespace. Increased battlefield 
awareness enables the operational commander to increase the lethality 
of his force by more effectively employing his forces.
    Container Family--$30.7 million. This funding procures various 
containers and will result in a more effective utilization of scarce 
transportation resources.
    CH-53E Helicopter--$68.0 million. This funding procures two 
aircraft.
    Air Force Answer. An FY98 Unfunded Priority List was Presented by 
General Fogleman to Congress in March with the following Reserve 
Component shortfalls:
    Reserves--$6.3 million for KC-135 maintenance, including two 
aircraft for Programmed Depot Maintenance (PDM).
    Air National Guard--$7.5 million for KC-135 maintenance including 
three aircraft in PDM.
    Funding is required to prevent grounding of aircraft and to 
maintain existing, high readiness levels of Reserve Component tanker 
units.

       Military Operations Other Than War and Readiness Training

    Question. Many of the contingency operations which have been 
supported by U.S. forces since the beginning of this decade have not 
involved combat. Such military Operations Other Than War (OOTW) have 
placed new training requirements on the U.S. Armed Forces since the 
rules of engagement and basic objectives of these operations differ 
from combat operations. Has the need to prepare your personnel for 
military operations other than war altered your readiness training 
program?
    Army Answer. When considering Continental United States (CONUS) 
based units as a whole, the answer is no. The vast majority of our 
units train to their combat Mission Essential Task Lists. The larger 
readiness issue is the overall impact military OOTW have on Personnel 
Tempo (PERSTEMPO). Retaining sufficient force structure to accomplish 
assigned missions, allow proper training, and provide an acceptable 
quality of life environment is critical to future readiness. Units 
selected for deployment to Bosnia-Herzegovina or surrounding locations 
have altered their training program. They complete training tailored to 
the area of employment and the assigned mission(s). This training is 
based on a strategy which ensures deploying forces are trained to 
standard and ready to accomplish their Stabilization Force (SFOR) 
missions. This SFOR training strategy begins with general individual 
and collective training tasks conducted primarily at home station for 
active component (AC) units and at mobilization stations for Reserve 
Component (RC) units and personnel; then it focuses on theater-specific 
individual, leader, and collective training tasks culminating in a 
mission rehearsal and certification Command Planning Exercise. All of 
these training requirements are certified by the chain of command or 
the organization conducting the training. Once deployed, units take 
advantage of every opportunity to sustain both warfighting and peace 
operations skills.
    Navy Answer. Not significantly. Rather than radically alter the 
Navy's training, readiness and exercise programs, the standards to 
which deploying Navy forces are prepared have evolved in parallel with 
modern MOOTW missions. Many of the skills required of Navy forces for 
MOOTW missions: Humanitarian Assistance; Noncombatant Evacuation 
Operations; Maritime Interception Operations; Enforcement of Exclusion 
Zones; Control and Protection of Shipping; and Freedom of Navigations--
are skills that the Navy has practiced for years. These missions 
involve training, capabilities and activities appropriate for naval 
operations across a spectrum of operations spanning from everyday 
presence to crisis response and, if necessary, combat.
    However, operations such as those dealing with migration from Cuba, 
Haiti, and continued drug interdiction in Caribbean and Pacific waters 
have placed a strain on steaming days and flight hours that could 
otherwise have been used for other joint training purposes.
    Marine Corps Answer. While some MOOTW specific training is 
conducted prior to and during deployments, this has not altered our 
readiness training programs. The primary training that Marines receive 
to ensure their readiness for deployment covers the full spectrum of 
conflict. This full spectrum training is directly applicable to the 
operational demands encountered in MOOTW. We prepare for MOOTW 
primarily through rigorous training in the more exacting standards 
required of conventional combat operations. This approach ensures that 
Marine units are cohesive and well disciplined to operate in any 
contingency/crisis environment. This training is directly applicable to 
the operational demands encountered in MOOTW.
    However, the strategic, rapid response requirements of Marine 
operating forces argue against their significant long term retention 
ashore for MOOTW. Continued long term involvement in peacekeeping or 
similar operations may degrade combat effectiveness. This may occur 
either through insufficient training opportunities in primary combat 
skills for deployed units. If these unbudgeted operations lead to 
substantial and repeated diversion of O&M funds, training, equipment, 
and property maintenance for CONUS units will be impacted if 
supplemental funding is not provided.
    Marines exist to meet the needs of the Nation; we have in the past, 
are now, and will continue doing so, as long as adequate structure and 
resources are provided.
    Air Force Answer. Operations other than war have not significantly 
altered our training. Our units are ready to respond to the full 
spectrum of taskings required by the National Strategy.

              Peacekeeping Operations Rules of Engagement

    Question. If not, how do you prepare your personnel for the rules 
of engagement in circumstances such as those encountered in Bosnia 
which are fundamentally different from combat?
    Army Answer. The rules of engagement are theater-specific and each 
soldier deploying to Bosnia trains to a standard. It is certified by 
trainers from the 7th Army Training Center, or, if conducted at home or 
mobilization stations, by trainers who have been certified through a 
train-the-trainer program.
    Navy Answer. For the few differences that do exist between MOOTW 
and standard Navy missions, Navy personnel are prepared to operate 
under the set rules of engagement through pre-deployment exercises that 
emphasize MOOTW, training at Command and Staff schools, and by 
examining the results and lessons-learned of returning forces.
    Marine Corps Answer. Well trained and disciplined Marines with 
knowledge of standing CJCS rules of engagement (ROE) are the key to 
dealing with MOOTW operations and any applicable supplemental ROE. 
Today, Marine Air Ground Task Forces (MAGTFs) are fully prepared to 
function effectively in ``peacetime engagements'' to include:
    1. ROE training
    2. Disaster relief/humanitarian assistance
    3. Friendly coalition building
    4. Noncombatant emergency evacuation
    5. Counterdrug programs
    6. Arms control/treaty compliance
    7. Military training teams
    8. Civil disturbance
    9. Battle staff planning for MOOTW
    Our maritime nature and multi-dimensional capabilities make Marines 
uniquely suited for MOOTW contingencies. While deployed, many of the 
exercises that Marines conduct are structured around peacekeeping 
scenarios. For example:
    --The Mediterranean MEUs routinely train with the Italian San Marco 
Battalion on checkpoint operations, urban patrolling, mine and booby 
trap awareness, and sniper/counter-sniper operations.
    --The MEUs Air Naval Gunfire Liaison Detachment (ANGLICO) is 
specifically designed to conduct fire support operations with other 
nations. The MEU also deploys with an extensive language capability 
that encompasses the crisis regions in their area of operations.
    --The ships of the Amphibious Ready Group (ARG) make extensive use 
of closed circuit television to present ROE classes and to keep units 
up to date on developments within their area of operations.
    --Inclusion of specific ROEs for a particular operation is an 
integral part of training flexible and responsive MAGTFs.
    Many of the contingency operations which have been supported by 
U.S. forces since the beginning of this decade have not involved 
combat. Such military operations other than war have placed new 
training requirements on the U.S. armed forces since the rules of 
engagement, and the basic objectives of these operations differ from 
combat operations.
    Air Force Answer. Specific training on rules of engagement are 
added to the normal training requirements prior to deployment and are 
constantly reviewed in theater.

                   Military Operations Other Than War

    Question. If so, what effect has this change had on the readiness 
of your personnel to accomplish their wartime missions?
    Army Answer. In the case of the U.S. Army Reserve (USAR) Civil 
Affairs and Psychological Operations units, they are designed, 
organized, and trained for Nation Building missions, such as what is 
occurring in Bosnia. Other USAR combat support and combat service 
support type units are also performing tasks that they would normally 
perform in wartime, e.g., maintenance, water purification, chaplain 
services, personnel administration, public affairs, transportation, 
engineer support, medical support, military intelligence, and 
logistical support.
    Very few Army National Guard combat arms units have been mobilized 
in support of recent Army operations. Those combat units mobilized 
(artillery radar units, fire support elements, and engineer units) were 
tasked to conduct their wartime missions. Other units deployed were 
combat support units (military police, et. al.) and, like their Army 
Reserve counterparts, are performing tasks they would normally perform 
in wartime. The training requirements for all these units have not been 
affected by the rules of engagement.
    Navy Answer. Question is not applicable. Did not answer yes to 
QUESTION 25.
    Marine Corps Answer. These changes have not had an impact upon the 
readiness of unit personnel to accomplish their wartime mission.
    Air Force Answer. Participation in operations other than war has 
caused temporary degradations in readiness for some units after their 
return from deployments due to a lack of quality combat training 
opportunities in some theaters. We have aggressively managed our 
deployment and training workloads through global sourcing, the Global 
Military Force Policy, increased use of the Guard and Reserve, and 
minor force structure adjustments to minimize any impacts on readiness.

             Fiscal Year 1997 Funding for Counter-Terrorism

    Question. Are Department of Defense (DoD) force protection, 
counter-terrorism, and anti-terrorism activities adequately funded in 
fiscal year 1997?
    Army Answer. Yes. The Army has identified over $1.2 billion in 
force protection-related resourcing for fiscal year 1997.
    Since the Khobar Towers bombing, the Army has conducted a careful 
and extensive review of its force protection program with an emphasis 
on the antiterrorism component. The initial review was completed in 
time to allow for the submission of any critical force protection 
initiative in the fiscal year 1997 Congressional Budget Supplemental.
    The Department of the Army received approval for program 
enhancements in the amount of $58.1 million in the fiscal year 1997 
Supplemental Budget. This funding was in addition to the Army's current 
working estimate of over $1.0 billion programmed annually for 
identifiable force protection-related activities. Since the force 
protection mission is embedded in almost every Army activity, it is 
difficult to determine exact amounts programmed or expended towards the 
mission.
    Historically, the Army has internally funded critical unprogrammed 
requirements that were needed as a result of an unforeseen change in 
the terrorist threat at any location. We have acceptable resourcing 
based on the current threat, and we constantly review the force 
protection posture against any changes in the terrorist threat. We have 
formed and fielded a Force Protection Assistance Team to assist 
commanders in the evaluation of their programs.
    Navy Answer. Yes, given the current threat assessment data, Navy 
force protection, counterterrorism, and antiterrorism activities are 
adequately funded in fiscal year 1997.
    The Navy has funded training initiatives to provide individual 
antiterrorism awareness for service members and their families 
deploying overseas. Physical security upgrades are being conducted at 
Arabian Gulf, European and other overseas sites. Physical security 
equipment upgrades include motion and intrusion detection systems, 
secure munitions storage, harbor patrol boats, light armored vehicles 
(LAV) armoring and security force enhancements. Physical security site 
improvements include upgrades to perimeter defenses such as fencing, 
gate guard shacks/towers and lighting. Funding for physical security 
forces include the supplies and equipment needed to support the Marine 
Corps Fleet Antiterrorism Security Team (FAST) and eight explosive 
detection dog teams assigned to augment Navy security forces in 
protecting personnel living among the local populace and aboard the 
Administrative Support Unit (ASU) Bahrain complex. In addition, Navy 
and Defense Special Weapons Agency (DSWA) force protection 
vulnerability assessment teams are conducting vulnerability assessments 
of naval installations worldwide.
    Marine Corps Answer. The Marine Corps does not directly participate 
in ``counterterrorism'' programs as these fall under the cognizance of 
the Commander-in-Chief, United States Special Operations Command and 
other NCA organizations.
    The Marine Corps does have a program for combatting terrorism which 
focuses on antiterrorism (passive measures designed to reduce 
vulnerability) and physical security enhancements (the hardening of key 
critical facilities).
    Funding to support Marine Corps efforts for enhancing force 
protection, which includes both antiterrorism and physical security 
concerns, is programmed based upon identified and validated 
requirements submitted by field commands under the Concept Based 
Requirements System; identified deficiencies during inspections/site 
visits; and program direction from SECDEF/JCS/DON. Funding provided for 
FY97 was sufficient to meet all identified and validated requirements.
    Air Force Answer. I cannot speak to the state of force protection 
funding for DOD but, let me respond to the status of funding within the 
Air Force. The additive funds provided through the fiscal year 1996 
Supplemental and the fiscal year 1997 Omnibus Appropriation Act 
afforded us the opportunity to place additional resources on high 
priority force protection items that were outside our budget. Since the 
start of the fiscal year, we've identified $35.6 million in additive 
requirements which if provided will allow funding of force protection 
requirements to enhance site security operations.

         Fiscal Year 1997 Counter-Terrorism Program Activities

    Question. Describe for the Committee the activities and programs 
that have been funded in fiscal year 1997.
    Army Answer. For fiscal year 1997:
                                                             In Millions
Physical Security Equipment. Electronic intrusion detection 
    systems, closed circuit television cameras, personal 
    protective equipment (i.e. flack jackets, kevlar vests), 
    and vehicle uparmor kits..................................    $204.0
Site Improvements. Barrier material, fencing, and.............       8.0
Management and Planning. Force protection program 
    administration and oversight and staffing of supervisory 
    physical security specialists.............................      17.0
Security Forces and Technicians. Guards, inspectors, and 
    Military Police guards at special sites (i.e. arms, 
    ammunition and explosives)................................     550.1
Law Enforcement. Military and civilian police.................     253.4
Investigations. Background checks for security clearances, 
    Criminal Investigation Command agents (protective service 
    detail)...................................................     151.6
Research, Development, Test and Evaluation. Department of the 
    Army portion of Department of Defense testing of 
    commercial equipment and development of non-standard 
    items, such as off-the-shelf intrusion detection devices 
    and experimental mobile robotic platforms. Includes 
    security costs of the Army Testing and Evaluation Command.      19.0
Vulnerability Assessments. Local, regional, and Headquarters, 
    Department of the Army, assistance teams and requirements 
    validation................................................      12.0
Training Courses. Army-sponsored resident and mobile-training 
    teams for antiterrorism and terrorism awareness classes...       4.0
                    --------------------------------------------------------------
                    ____________________________________________________

    Fiscal Year 1997 Total....................................   1,219.1

Note: Saudi relocation costs of $37.6 million are embedded in the above 
subtotals.

    Navy Answer. Antiterrorism funds appropriated by Section 8137 and 
Title IX of the fiscal year 1997 Appropriations bill authorized $25.1 
million for U.S. Navy and Marine Corps security upgrades. A wide range 
of security upgrades totaling $11,400,000 were funded at the 
Administrative Support Unit, Bahrain including lease of additional 
land, perimeter fencing, barriers and guard shacks/towers, school and 
shuttle vans, enhanced security forces, training and enhanced storage 
facilities, and facilities for security dogs. In addition, $9,500,000 
was budgeted for one-time security requirements at overseas fuel depots 
(e.g. fencing/gates, lighting, communication equipment, manpower), and 
$1,900,000 was earmarked for physical security equipment for a NCIS 
anti-terrorism team. The remaining $2,300,000 was budgeted for assorted 
equipment purchases, maintenance, and facility upgrades at various 
CONUS/OCONUS Active/Reserve Navy and Marine Corps activities.
    Marine Corps Answer. During fiscal year 1997, the Marine Corps 
obligated approximately $318.3 million to fund programs which supported 
antiterrorism, force protection and security initiatives. This funding 
was apportioned as follows:
    O&M: $3.1 million--military working dogs (explosive capable), 
physical security upgrades for base facilities maintenance/salaries for 
security equipment design/installation.
    Procurement: $5.9 million--purchase of intrusion detection systems, 
purchase of automated entry control systems, purchase of assessment 
devices (CCTV/surveillance equipment).
    MilCon: $2.1 million--construction of fencing/lighting/barriers to 
comply with established security standards for arms, ammunition, and 
explosive storage facilities; upgrade/enhancement of security force 
operating areas.
    MilPay $307.2 million--salaries for military police, Marine Corps 
Security Forces, Marine Security Guards and personnel providing 
security at military activities worldwide.
    USMC received an additional $600,000 as part of a DoD end-of-year 
reprogramming effort to accelerate overseas security enhancement 
projects.
    Air Force Answer. The Air Force funded numerous on-going programs 
in the force protection arena including; physical security 
improvements, electronic sensor systems, explosive ordinance disposal 
equipment, and air base defense equipment and training. As a result of 
Congressional action on the fiscal year 1997 Omnibus Appropriations 
Act, the Air Force was able to put an additional $58.1 million against 
immediate force protection requirements.
    One of our major uses of the Omnibus funding was $44.2 million put 
against the Tactical Automated Security System. This system will allow 
us to quickly install an integrated detection and assessment system at 
Al Jaber AB, Ali Al Salem AB, Prince Sultan AB and Eskan Village. On 
the 17th of March we completed the installation at Al Jaber AB and on 
the 18th of March we started installation at Eskan Village. It's worth 
noting that one of the sub-systems of the Tactical Automated Security 
System is a Wide Area Surveillance Thermal Imager capable of detecting 
a man size target at a distance of 1500 meters and a vehicle sized 
target at a distance of 3000 meters. Within three days of deployment to 
Southwest Asia, in mid February, we had these systems operational at 
each of the four sites noted above. The bottom line on this system is 
that we continue to install it and expect to be complete no later than 
October of 1997.
    The remaining money from the fiscal year 1997 Omnibus 
Appropriations act is being spent as follows:
    <bullet> $8.7 million will be used to install Closed Circuit 
Television systems for bases in Southwest Asia and Europe.
    <bullet> $3.2 million will be used to make physical security 
upgrades at bases in Turkey. Upgrades include a new gate complex and 
upgrades to fences and barriers.
    <bullet> $1.2 million will be used to purchase Hand Held Thermal 
Imagers. A hand held version of the wide area surveillance thermal 
imager, these devices allow security forces to detect man size targets 
at ranges up to 500 meters.
    <bullet> $800 thousand will be used to purchase Under Vehicle 
Surveillance Systems. These devices will be placed at entry control 
points and can be used in detecting explosive devices or other 
contraband hidden in the under carriage of vehicles.

               Fiscal Year 1998 Counter-Terrorism Funding

    Question. The Committee notes that the fiscal year 1998 budget 
request does not continue with the accelerated funding of these 
activities. Have adequate funds been provided in fiscal year 1998 for 
force protection, counter-terrorism, and anti-terrorism?
    Army Answer. Yes. The Army program remains above the $1.1 billion 
level for force protection. We will continue to review the program and 
make necessary adjustments as the terrorist threat indicates and as our 
assessment teams identify and validate critical requirements.
    The accelerated or enhanced funding in fiscal year 1997 was in 
response to an increased threat in Southwest Asia and Bosnia; if new 
threats appear in fiscal year 1998 or the outyears, force protection 
funding would be increased as appropriate, both through internal 
reprogramming and requests for supplemental funding.
    Navy Answer. The Navy's POM-98 submission commits over 
$5,500,000,000 for Antiterrorism and Force Protection during the Future 
Years Defense Plan. To ensure that adequate resources are committed to 
Antiterrorism and Force Protection, the Navy will be conducting a 
comprehensive review of its program during the fiscal year 1999 Program 
Review.
    Marine Corps Answer. Yes, working in support of OSD initiatives for 
enhancing force protection in the outyears, the Marine Corps identified 
antiterrorism and force protection enhancements for the budget years 
fiscal year 1998-2003. These enhancements reflect current identified 
requirements. As reflected in the fiscal year 1998 President's Budget, 
the Marine Corps is programmed to receive $20.73 million, most of which 
is earmarked for procurement beginning in FY00. Concurrently, we are 
working with field commanders to identify any additional requirements 
resulting from increased concern for terrorism and added emphasis on 
force protection for submission as initiatives in the future 
programming cycles.
    Air Force Answer. Many of these were one-time requirements which do 
not require continuation of funding through the FYDP. Our fiscal year 
1998 Budget proposal does however provide an additional $49.9 million 
in force protection, counter/anti-terrorism requirements. As a result 
of my testimony to the HNSC on 5 March 1997, we've also identified 
$57.6 million in requirements that could be accelerated to enhance site 
security world-wide. This includes funding for site improvements and 
deployable equipment, such as barriers, alarms, surveillance systems 
and explosive ordnance disposal equipment.
    Question. Does the apparent reduction in funding in fiscal year 
1998 (fiscal year 1998) indicate that Department of Defense has done 
all that it can in these programs?
    Army Answer. No. The apparent decrease in funding for fiscal year 
1998 is an anomaly caused by the increase in fiscal year 1997 for new 
requirements identified in response to the increased terrorist threat 
in Southwest Asia and Bosnia.
    Force protection remains an integral part of the Army mission 
throughout the program years. Although it is difficult to capture 
specific costs as a part of daily business, we are confident that the 
basic components of the force protection program are adequately 
resourced in response to the threat as we know it today.
    Navy Answer. Funding required to provide continuing support for 
these initiatives is included in the fiscal year 1998 Budget request. 
The apparent decline in funding in fiscal year 1998 is associated with 
one-time purchases being made during fiscal year 1997. The Navy and 
Defense Special Weapons Agency Antiterrorism force protection 
vulnerability assessment teams are continuing to evaluate CONUS and 
OCONUS force protection postures. These detailed vulnerability 
assessments will provide a better data baseline to evaluate and make 
subsequent recommendations to improve our overall force protection 
posture.
    Marine Corps Answer. We believe that funding at this time is 
sufficient to meet near term requirements. However, new initiatives 
generated within DOD/JCS to enhance the protection of military 
personnel, to provide a greater level of standardized training, and an 
increase in assessment programs are likely to necessitate increases to 
funding profiles in the future. We will continue to closely monitor 
emerging requirements and focus funding priority based upon the threat 
level identified and the funds with which we are provided to operate.
    Air Force Answer. Again, I cannot speak to the state of force 
protection funding for DOD but, let me respond to the status of funding 
within the Air Force. Many of our fiscal year 1998 requirements were 
one time costs associated with relocating our forces in Southwest Asia. 
However, we continue to have other unfunded requirements in fiscal year 
1998. Currently, a $57.6 million force protection requirement is the 
Air Force's number one unfunded priority for fiscal year 1998. As we 
look at the items on the list we see a broad base listing of force 
protection needs.

820th Security Forces Group.......................................   $2M
Delay Denial Barriers.............................................   .2M
Howard AFB........................................................   .3M
EOD Xray..........................................................  1.1M
SWA/Non SWA EOD...................................................  3.5M
CCTV..............................................................   15M
M16A2 Mod Kits....................................................    2M
Hardened Doors....................................................   4.M
Weapon Suppression................................................   .5M
Lights/Alarms.....................................................  1.3M
Laser Aiming Lights...............................................  1.2M
Window Protectant.................................................   .8M
Surveillance Equipment............................................  4.8M
UVSS..............................................................   .8M
Body Armor........................................................  3.3M
HHTI..............................................................  1.2M
NVG...............................................................  5.4M
SF Training.......................................................   .5M
ECP Barriers/Lights...............................................    3M
ASSESS/JSMS.......................................................  1.8M
Aircrew Protective Suits..........................................  3.1M

                      Chemical/Biological Defenses

    Question. In the past two years the Congress has supported 
increased funding for the maintenance of chemical and biological 
defense gear and additional training for such programs. In fiscal year 
1996, an additional $20 million was provided in the operation and 
maintenance accounts, and $12.2 million was added in fiscal year 1997. 
Describe your programs for chemical and biological warfare defenses.
    Army Answer. As required by the National Defense Authorization Act 
for fiscal year 1994, the Department of Defense has implemented a 
process to consolidate, coordinate, and integrate the chemical and 
biological defense requirements of all Services into a single 
Department of Defense (DOD) Chemical Biological Defense Program (CBDP) 
with the Secretary of the Army as the executive agent. Additionally, 
the Services created a Joint Nuclear, Biological, and Chemical (NBC) 
Defense Board, co-chaired by the Vice Chief of Staff Army and Assistant 
Secretary of the Army for Research, Development and Acquisition (RDA) 
to review the funding requests for all chemical and biological (CB) 
defense requirements. The fiscal year 1998 CBDP Budget is based on a 
joint priority list and ensures that Commander-in-Chief (CINC) high 
priority operational needs are being met.
    Army NBC defense is driven by the threat and shaped by our 
warfighting strategy for the 21st Century. We have focused 
modernization on early warning, protection of the force, and rapid 
recovery to maintain operational tempo. Avoiding contamination is the 
primary fundamental for NBC defense. In fiscal year 1998, the Army will 
field a new automatic chemical agent detector and alarm (ACADA), which 
automatically detects nerve and mustard agents. It has a significantly 
lower false alarm rate than the current M8A1 system it will replace, 
which often triggers an alarm when coming in contact with high 
concentrations of vehicle exhaust and only detects nerve agent. 
Additionally, the Army will field the M93A1 Fox NBC reconnaissance 
vehicle which has been upgraded with a five kilometer range standoff 
chemical detector, an automatic warning and reporting data transfer 
capability, and an integrated global positioning system. Another item 
being field in fiscal year 1998 is an improved chemical agent monitor 
which will identify which soldiers and equipment that may have been 
contaminated with nerve or mustard agents. In fiscal year 1999, the 
Army will field an improved biological detector when it activates its 
second Biological Detection Company. In concern with the other 
Services, we are developing a joint NBC warning and reporting system 
which will capitalize on digitization technology and provide increased 
situational awareness throughout the theater of operations.
    Because contamination cannot always be avoided, protecting soldiers 
from the effects of NBC contamination with the least possible mission 
degradation becomes important to maintain combat power and operational 
tempo. The Army goal is to completely replace the protective mask 
inventory and field the next generation of protective clothing as 
rapidly as possible. Research and development will continue on future 
respiratory protection systems and collective protection components 
with improved filtration and reduced weight and power consumption. 
Collectively protected medical shelters mounted on High Mobility 
Multipurpose Wheeled Vehicles also will be fielded to early deploying 
units.
    The Joint Program Manager for Biological Defense, an Army brigadier 
general, is responsible for the central procurement of all biological 
defense vaccines. Funding is available to stockpile the required number 
of doses to implement the Department of Defense vaccination policy.
    The decontamination focus is on research and development to find 
more effective decontaminants and methods to decrease both the manpower 
required and the logistical burdens associated with decontaminating 
equipment. In fiscal year 1999, the Army will buy a modular 
decontamination system for all active chemical companies which will 
significantly reduce water consumption during the equipment 
decontaminating process.
    Navy Answer. With the exception of O&MN, all Navy efforts are 
incorporated in the Joint Chemical/Biological Defense (CBD) Program in 
compliance with Public Law 103-160. The Joint CBD Program encompasses 
all research, development and acquisition efforts for the Services. 
Operations and Maintenance, Navy funding for CBD is budgeted in Combat 
Support Forces (1C6C); Hull, Mechanical and Electrical Support (4B5N); 
and Specialized Skills Training. The Combat Support Forces funding 
procures equipment for Navy personnel at overseas activities. This 
funding has been realigned in FY 98 and beyond to the centralized OSD 
Joint Service account based on refined definitions for the Joint CBD 
Program. The equipment purchased includes masks, protective suits, 
boots, gloves, medications, decontamination equipment and detectors.
    A portion of Hull, Mechanical and Electrical (HM&E) funding 
provides engineering support for individual protective equipment, 
shipboard collective protection, and chemical/biological agent 
detectors. Chemical Weapons Defense Training funding in Specialized 
Skills has been budgeted for two courses, the Shipboard CBR-D course, 
conducted at Ft. McClellan and the Repair Party Leader Course, 
conducted at five different fleet training centers. In fiscal year 
1996, the Navy received an additional $10 million for use in upgrading 
CBD training. This funding was used for Afloat and Ashore Units to 
upgrade Specialized Skills curriculum, manuals, equipment and computer-
based training. A number of enhancements were also funded in the 
medical training community. The Navy did not share in the additional 
$12.2 million fiscal 1997 funding which was provided to the Army and 
Air Force.
    Marine Corps Answer. Title XVII, Public Law 103-160, Authorization 
Act of 1994 consolidated chemical and biological defense programs at 
the OSD level. Joint NBC defense programs are sub-divided into four 
areas; Individual Protection, Collective Protection, Contamination 
Avoidance and Decontamination. The following is a list of the current 
NBS programs that support Marine Corps requirements:
Individual Protection:
    M40 Mask Rebuild
    M40A1 Mask Rebuild
    M40 Mask Universal Second Skin
    Mask Communications Adapter
    Joint Service Lightweight Integrated Suit Technology (JSLIST)
    Joint Service Lightweight Integrated Suit Technology P31 (JSLIST 
P3I)
    Joint Service General Purpose Mask (JSGPM)
    Joint Service Aircrew Mask (JSAM)
    Joint Service Protection Assessment Test System (PATS)
    Aircrew Protective Mask (XM45)
    Aircrew Eye Respiratory Protection (AERP)
    AERP Aircraft Modifications
    Joint Service Protective Aircrew Chemical Ensemble (JPACE)
Collective Protection:
    Advanced Integrated Collective Protection System (ACIPS)
    Joint Chem/Bio Collective Protection Improvement Program (JCBCPIP)
Contamination Avoidance:
    Air Base/Port ACTD
    Integrated Chem/Bio ACTD
    Automated Chemical Agent Detector and Alarm (ACADA)
    Joint Chemical and Biological Mass Spectrometer (CBMS)
    Improved Point Detection Systems (IPDS)
    Improved Chemical Agent Monitor (ICAM)
    Joint Biological Defense Program
    Joint Biological Point Detection System (JBPDS)
    Joint Biological Remote Early Warning System (JBREWS)
    Joint Biological Universal Detector (JBUD)
    Joint Chemical Agent Detector (JCAD)
    Joint Interim Biological Agent Detector (JIBAD)
    Joint Lightweight NBC Reconnaissance System (JLNBCRS)
    Joint Service FOX Reconnaissance Vehicle (FOX)
    Joint Service Chem/Bio Agent Water Monitor (JSCBAWM)
    Joint Service Chemical Warning & Integration LIDAR Detector 
(JSWILD)
    Joint Service Lightweight Standoff Chem Agent Detector (JSLSCAD)
    Joint Warning and Reporting Network (JWARN)
    Long Range Biological Standoff Detection System (LR-BIO)
    Multipurpose Integrated Chemical Agent Detector (MICAD)
    NBC Unmanned Ground Vehicle Sensor
    Pocket RADIAC (AN/UDR-13)
    Standoff RADIAC
    Short Range Biological Standoff Detection System (SR-BIO)
    Small Unit Biological Detector (SUBD)
    Remote Sensing Chemical Agent Alarm (RSCAAL)
Decontamination:
    Joint Service Fixed Site Decon (JSFXD)
    Modular Decon System (MDS)
    Joint Service Sensitive Equipment Decontamination (JSSED)
    Lightweight Decontamination System (LDS) PIP
    Lightweight Portable Decontamination System (LPDS)
    Sorbent Decontamination
    Family of Environmentally Safe Decontaminates
    Air Force Answer. The Air Force non-medical chemical/biological 
passive defense program is executed at unit level
    --Readiness specialists within the Civil Engineer organization 
conduct the bulk of the training for our members. Aircrews receive 
supplemental training from the Life Support function
    --The capability of units to survive and operate in a contaminated 
environment is assessed during operational readiness inspections
    With the increasing threat, we have seen the need to more fully 
integrate the chemical/biological program into our day-to-day business
    --In January 1997, the CSAF directed the formation of an Integrated 
Process Team to oversee all chemical/biological efforts
    --The team is led by the Deputy Chief of Staff for Installations 
and Logistics and includes a cross section of operations and support 
personnel
    All services partner with OSD in acquiring chemical/biological 
systems
    --Funds for the acquisition programs are OSD managed
    --The Air Force is responsible for funding and managing sustainment 
requirements
    The Air Force medical chemical/biological defense programs are 
outlined under protection, prevention and surveillance, diagnosis, 
operability teams, and training programs
    --Protection: Chemically/Biologically hardened Air Transportable 
Hospital is under development. Each will provide 50 bed facility in 
``shirtsleeve'' environment. Currently one is deployed to Al Kharj, 
another is at Langley; 26 will be fielded eventually
    --Prevention: Auto injectors, antibiotics, nerve agent pre-
treatments, and anthrax vaccine are stockpiled to meet mission demands
    --Surveillance: We have established a pre, during, and post 
deployment surveillance program to assess the health and deployability 
of personnel. We are also testing a new unit type code (UTC) on 
Epidemiology in Southwest Asia. Lessons learned will be incorporated 
into a concept of operations
    --Diagnosis: We have addressed diagnostic support by standing up a 
deployable laboratory and infectious disease team to aid in the early 
identification and casualty management
    --Operability: We have developed a deployable team to monitor NBC 
health threats
    --Training: Comprehensive chemical/biological training programs are 
being developed for all medical personnel.
    Question. Do you believe that DoD readiness is improving in this 
area? Are U.S. forces better able to defend themselves against chemical 
and biological threats than they were ten years ago? Better than at the 
time of the Gulf War?
    Army Answer. Readiness is improving and forces are better able to 
defend themselves than during the Gulf War. Nuclear, Biological, and 
Chemical (NBC) modernization is essential to force protection and 
readiness. Army Regulation 350-41 establishes a comprehensive training 
program that ensures the Army can conduct effective combat operations 
in a contaminated environment. The Army incorporates nuclear, 
biological and chemical defense training into every echelon of military 
schooling, unit level training, and training at our Combat Training 
Centers.
    The Army is continuing our efforts to maintain a robust NBC defense 
by improving fundamental capabilities in three major areas: 
contamination avoidance; force protection, including medical 
countermeasures; and decontamination. Army units which deployed to the 
Gulf War were well-trained and equipped to detect nerve and mustard 
chemical agents with an array of automatic alarms and manual chemical 
agent detector kits as well as the initial models of the Fox NBC 
Reconnaissance vehicle; however, the capability to detect biological 
agents automatically was a recognized deficiency. Developing and 
fielding a biological detection, identification and warning capability 
is the number one counterproliferation priority identified by the 
Combatant Commanders. The Army activated its first Biological Detection 
Company, equipped with the M31 Biological Integrated Detection System, 
in September 1996. Additionally, in fiscal year 1997 (FY97), the Army 
will add its first long range biological stand-off detection system to 
this same company, providing the capability to detect potential 
biological attacks out to a range of 30 kilometers. The Army will 
activate two more Biological Detection Companies, one in FY99, with an 
improved version of both the point and stand-off detectors, and one in 
FY01, with a Joint Point Biological Detector System currently being 
developed.
    Navy Answer. Unquestionably, Navy CBD readiness has improved and 
our forces are better able to protect against chemical and biological 
threats over the past five or ten years. From the Navy's perspective, 
the principal improvement since the Gulf War has been the capability to 
provide point detection for biological warfare agents. Additionally, 
the Department continues to benefit from training enhancements and 
upgrades to CBD equipment.
    Marine Corps Answer. Yes, In an evolutionary effort made in concert 
with Public Law 103-160 (which mandated a joint approach toward NBC 
defense within the Department of Defense) the Services are coordinating 
their efforts and resources in order to improve NBC readiness. While 
the DoD as a whole has made substantial progress in chemical defense 
readiness, our present capabilities to detect and conduct operations in 
a biologically contaminated area requires continued emphasis.
    With the establishment of the Chemical Biological Incident Response 
Force (CBIRF), the Marine Corps has made substantial progress in this 
area. The mission of the CBIRF, a national asset, is to provide 
worldwide consequence management of emergency response for the 
mitigation of toxic chemicals and biological weapons and respond to 
post terrorist chemical/biological activities. CBIRF capabilities 
include medical, protection, detection, decontamination and 
communication support.
    We will procure all of the mission critical equipment and part of 
the mission essential equipment with funding provided to us by Congress 
in FY 1997. It will cost approximately $15 million to complete the 
procurement and fielding of the remainder of the mission essential 
equipment. Due to timing, the Marine Corps could not include the 
funding in the current budget.
    Our capabilities to defend against chemical threats have been 
substantially improved in the past ten years. While we have also made 
improvements to defend against biological threats, enhancements in this 
area have not been as significant. Specific examples of recently-
fielded items in the Marine Corps include:
    Contamination Avoidance: Focuses on detecting and identifying 
contamination before Marines are placed in danger. One example is the 
Remote Sensor Chemical Agent Alarm (RSCAAL), an automatic scanning, 
passive, infrared sensor that detects nerve and blister agents.
    Individual Protection: Programs designated to prevent casualties 
and/or allow Marines to continue their mission in a chemical or 
biological environment. One example is the Saratoga Ensemble 
lightweight chemical and biological protective overgarment, the 
replacement for the old overgarment-84. Fielding of the Saratoga was 
completed in fiscal year 96.
    The Gulf War focused attention on NBC and resulted in a much 
greater emphasis being placed on both the fielding of much-needed 
equipment and increases in training throughout the force. The recent 
activation of CBIRF has provided a significant national capability with 
we intend to enhance by leveraging current and evolving technology to 
counter chemical and biological threats.
    Air Force Answer. Yes, the Air Force non-medical chemical/
biological defense readiness program is improving
    --With the evolving threat, there is room for greater improvement. 
OSD is leading efforts to improve and modernize chemical/biological 
equipment such as detection devices and protective ensembles
    --New NBC defense equipment with increased capabilities will be 
fielded to Air Force units starting in FY97
    To improve senior leadership knowledge, we are developing a 
commander's guide to chemical/biological defense and an air base 
chemical/biological vulnerability analysis guide. Specific chemical/
biological defense procedures are being developed to better guide 
chemical/biological defense operations. These include:
    --Air Base chemical/biological concept of operations.
    --Four chemical/biological handbooks for use in the field
    --Revisions to the Air Force Readiness Technician's manual
    --Once these initiatives are in place, Air Force units will have a 
significantly improved capability to defend themselves against 
chemical/biological threats
    For the Air Force medical chemical/biological defense program, the 
short answer is YES!!
    --Air Force recognizes there are shortfalls in training and 
equipment, BUT is fully engaged with the community in developing in 
needed solutions MUCH BETTER THAN DESERT STORM
    --Protection: Medics have a chemical/biological hardened ATH under 
development
    Medical Force Protection: A suite of Unit Type Codes deploy for 
ongoing prevention and epidemiology (Prevention and Epi teams), NBC 
surveillance (NBC Teams), Infectious Disease and Laboratory teams. 
Additionally, we have stockpiled antibiotics, nerve agent prophylaxis, 
and vaccines against known threat agents with available countermeasures
    Question. Are your programs for chemical biological defense fully 
funded in the fiscal year 1998 budget request? If not, what shortfalls 
do you foresee?
    Army Answer. Adequate funding is included in both the current 
budget and Future Years Defense Plan to execute this effort. Today's 
environment of constrained resources requires the DoD to focus its 
modernization strategy. The Nuclear, Biological, and Chemical research, 
development, and acquisition strategy is to provide adequate resources 
to find affordable solutions which support current and future 
warfighting requirements. The DoD Chemical and Biological Defense 
program has the right focus and is providing the essential capabilities 
to the CINCs to fight and win on a contaminated battlefield; however, 
resource levels do constrain our ability to field these essential 
capabilities to the joint force as rapidly as we would like.
    Navy Answer. The O&MN CBD program is fully funded in fiscal year 
1998.
    Marine Corps Answer. Title XVII, Public Law 103-160, Authorization 
Act of 1994 consolidated funding for all chemical and biological 
defense programs at the OSD level. The Joint Service Material Group 
(JSMG) oversees the development of the Joint NBC POM. There are 
currently more than 48 Joint NBC defense program, and some are not 
fully funded. The following NBC programs are not fully funded and are 
of significant interest to the Marine Corps:
    --Joint Fox NBC Reconnaissance Vehicle (FOX)
    --Joint Service Lightweight NBC Reconnaissance System (LNBCRS)
    --Joint Service Lightweight Integrated Suit Technology
    --Joint Warning And Reporting Network (JWARN)
    --Chemical and Biological Incident Response Force (CBIRF)\1\
---------------------------------------------------------------------------
    \1\ FY98 CBIRF shortfalls in Marine Corps accounts are as follows: 
Procurement, Marine Corps (PMC)--Operation & Maintenance, Marine Corps 
(O&MMC)--$15.1M; $4.5M.
---------------------------------------------------------------------------
    --Lightweight Decontamination System (LDS) PIP (LDS PIP)
    Air Force Answer. The Air Force non-medical chemical/biological 
defense program is reasonably funded, given overall budgetary 
constraints
    The Air Force funds NBC sustainment program (operations and 
maintenance dollars)
    --Funds NBC defense training and replacement equipment
    --$20 million required to fund a shortfall of 48,000 aircrew 
protective ensembles
    --Potential shortfall in groundcrew protective ensembles--pending 
approval of revised requirement
    Public Law 103-160 consolidated all the Service's nuclear, 
biological and chemical (NBC) research, development and acquisition 
(RDA) funding into a Joint NBC POM managed by the Office of the 
Secretary of Defense
    --The Air Force is benefiting from the Joint consolidation and 
streamlining effort.
    For the medical chemical/biological defense program, the answer is 
yes. Funds are available as follows:
                                                             FY 98 (000)
--Chemically Hardened.........................................     6,906
  Air Transportable Hospital

--Chemical/Biological.........................................     2,000
Warfare Pre-Treatments and Equipment
--Specialty Sets
  --Prevention................................................       100
  --Epidemiology..............................................       100
  --NBC.......................................................       100
  --Infectious Disease........................................       100
--Training....................................................     1,231

    Question. Describe for the committee the long term funding profile 
for these programs through the current Five Year Defense Program 
(FYDP).
    Army Answer. The total DoD Chemical and Biological Defense program 
is (dollars in millions):

----------------------------------------------------------------------------------------------------------------
                                            FY96     FY97     FY98     FY99     FY00     FY01     FY02     FY03
----------------------------------------------------------------------------------------------------------------
RDT&E...................................    253.5    302.6    320.8    312.6    318.4    308.1    293.5    275.1
Procurement.............................    135.3    220.4    210.0    183.0    275.7    319.2    362.0    394.1
                                         -----------------------------------------------------------------------
    Total...............................    388.8    523.0    530.9    495.6    594.1    627.3    655.5    669.3
----------------------------------------------------------------------------------------------------------------


    Navy Answer. Funding profiles for the Operation and Maintenance, 
Navy programs discussed above are as follows ($000):

----------------------------------------------------------------------------------------------------------------
                                                           FY 96   FY 97    FY 98     FY 99     FY 00     FY 01
----------------------------------------------------------------------------------------------------------------
Combat Supp. Forces (1C6C)..............................     861   1,857  \1\ 2,09  \1\ 2,60  \1\ 2,65  \1\ 2,70
                                                                                 2         1         6         2
HM&E (4B5N).............................................     461     520       533       546       560       574
Shipboard CBR-D Course..................................      35      35        36        36        37        37
Repair Party Leader Course..............................      75      77        79        81        83        85
----------------------------------------------------------------------------------------------------------------
\1\ Transferred to OSD (JN0013).


    Marine Corps Answer. The additional funds provided by Congress in 
recent years to operations and maintenance accounts for Chem/Bio 
matters were not provided to the Marine Corps. It is our understanding 
that those funds were distributed to the Army and Air Force.
    The Marine Corps' Chemical/Biological Incident Response Force 
(CBIRF) has, however, received additional procurement funding in FY 
1997 ($10M). The overall funding profile for CBIRF is as follows:

----------------------------------------------------------------------------------------------------------------
                  APPN                     FY 96    FY 97    FY 98    FY 99    FY 00    FY 01    FY 02    FY 03
----------------------------------------------------------------------------------------------------------------
O&MMC...................................      2.0      1.4      1.8      1.9      1.9      1.9      2.0      2.0
PMC.....................................      0       10.0  \1\ 0        0        1.0      1.6      1.4      1.0
R&D.....................................      0        0        1.0      1.3      1.5      1.3      1.0      0.8
----------------------------------------------------------------------------------------------------------------
\1\ We have identified an unfunded requirement of $15.1M in FY 1998.

    Air Force Answer. The tables below represent the long term funding 
profiles

----------------------------------------------------------------------------------------------------------------
               Non-Medical                 FY 97    FY 98    FY 99    FY 00    FY 01    FY 02    FY 03    Total
----------------------------------------------------------------------------------------------------------------
Sustainment and funding ($ M)...........      4.9      5.5      5.5      5.9      6.1      6.2      6.5     40.6
Replacement Aircrew Ensemble ($ M)......  .......  .......  .......     13.0      4.0      4.0      4.0     25.0
Congressional Increase ($ M)............      2.0  .......  .......  .......  .......  .......  .......      2.0
                                         -----------------------------------------------------------------------
    Total ($ M).........................      6.9      5.5      5.5     18.9     10.1     10.2     10.5     67.6
----------------------------------------------------------------------------------------------------------------


    The Air Force used the funds Congress provided in FY 97 to improve 
training and sustainment programs.
    --Purchased replacements for individual protective equipment.
    --Funded Consolidated Mobility Bag Control Center (CMBCC).
    --Funded additional chemical warfare defense training and training 
equipment.

----------------------------------------------------------------------------------------------------------------
                     Medical                       FY 97    FY 98    FY 99    FY 00    FY 01    FY 02     FY 03
----------------------------------------------------------------------------------------------------------------
CHATH ($ M).....................................      6.9      2.7  .......  .......  .......      9.6  19.2
BW/CW ($ M).....................................      2.0      2.0      2.0      2.0      3.0      3.0  14.0
Decon Sets ($ M)................................  .......      1.1      2.1  .......  .......      3.2   6.4
Training ($ M)..................................      1.2      1.2      1.2      1.2  .......  .......   4.8
Specialty Sets ($ M)............................      0.4      0.4      0.4  .......  .......  .......   1.2
                                                 ---------------------------------------------------------------
    Total ($ M).................................     10.5      7.4      5.7      3.2      3.0     15.8  45.6
----------------------------------------------------------------------------------------------------------------

                          Army Operating Tempo

    Question. In the fiscal year 1998 budget request, for the first 
time, the Army has included training rotations at the National Training 
Center (NTC) in the definition of operating tempo (OPTEMPO). In the 
past, OPTEMPO measures such as tank miles applied only to home station 
training. Training at the NTC was in addition to such training. The 
committee understands that the Army has, in effect, cut operating tempo 
by including National Training Center (NTC) rotations in its definition 
of OPTEMPO. Could you comment on the Army's decision to revise its 
treatment of NTC Rotations?
    Army Answer. The Army is not cutting OPTEMPO. As part of the 
operational readiness concept, the Army is updating the training 
strategies for today's training realities. Inclusion of the NTC as part 
of a unit's training strategy is in line with today's current training 
doctrine. This decision also was based on standardizing resources 
across the Army. United States Army Europe (USAREUR) and Eighth United 
States Army (EUSA) in Korea are resourced for an 800 mile training 
strategy and in the case of USAREUR, this includes mileage executed at 
the Combat Maneuver Training Center (CMTC). On the other hand, Forces 
Command (FORSCOM) was receiving additional money (above their 800 
training strategy) to fund the use of the pre-positioned fleet at the 
NTC. This, in effect, resulted in FORSCOM receiving additional funds 
not made available to the other Major Commands (MACOMs). The decision 
to change the resourcing for the NTC and FORSCOM was made so that all 
MACOMs would be resourced equally for training. FORSCOM is developing a 
funding methodology based on the following principles: No impact on 
rotations, pay only what it costs to operate the pre-positioned fleet, 
and ensure units have adequate resources to conduct home station 
training to maintain readiness levels. Units will continue to receive 
full funding for training, only the cost to operate the pre-positioned 
fleet will be taken from the unit. Funds can be returned for canceled 
rotations. Units continue to receive transportation and NTC indirect 
costs, and control what equipment they send to NTC.
    Question. Will this revision to the Army training program reduce 
the value of the NTC experience because units will be less well trained 
when they participate in an NTC rotation?
    Army Answer. No. Our Combat Training Centers, as the Army's ``crown 
jewels'' of training, are the best places to focus on combat tasks and, 
therefore, their value in training our soldiers will be sustained. As 
we continue to define the Army of the 21st Century, and the national 
security environment continues to evolve, our soldiers are faced with 
an increasing variety of tasks, both in quantity and complexity. For 
example, units deploying on peacekeeping and Operations Other Than War 
(OOTW) missions must master a new set of skills in addition to 
maintaining their warfighting skills. Our Combat Training Centers--the 
National Training Center at Fort Irvin, California, the Joint Readiness 
Training Center at Fort Polk, Louisiana, and the Combat Maneuver 
Training Center at Hohenfels, Germany--are critical to ensure that 
units remain mission ready for combat and other operations.
    Question. What effect do you anticipate that this change will have 
on Army Status of Readiness and Training (SORTS) ratings in the future?
    Army Answer. U.S. Army Europe (USAREUR) and Eighth U.S. Army (EUSA) 
in Korea have always been resourced for an 800 tank mile-per-year 
training strategy. In the case of USAREUR, that included mileage 
executed at the Combat Maneuver Training Center (CMTC). On the other 
hand, Forces Command (FORSCOM) was receiving additional money above the 
800 tank mile-per-year strategy to fund the use of the pre-positioned 
fleet at the NTC. This in effect resulted in FORSCOM receiving 
additional funds not made available to the other Major Commands 
(MACOMs). The decision to change the resourcing for the NTC and FORSCOM 
was made so that all MACOMs would be resourced equally for training. 
There is no anticipated impact of this funding change on FORSCOM unit 
SORTS ratings.
    Question. The committee understands that the number of rotations to 
the National Training Center (NTC ) is proposed to decrease from 12 to 
10 in fiscal year (FY) 1999. Was this decision a response to fiscal 
constraints?
    Army Answer. No. This proposal was a recommendation derived as a 
result of a Chief of Staff, Army (CSA), chartered Process Action Team 
(PAT). PAT was chartered to look at all aspects of Combat Training 
Center (CTC) operations. The PAT recommended that the CTC program 
remain the cornerstone of Army training as it forms a continuum 
integrating home station training with CTC training experience. One of 
the PAT recommendations was to conduct ten rotations per year at the 
NTC starting in fiscal year 1998. The number of rotations was 
established when we had a Cold War Army with 12 divisions and limited 
opportunities for heavy force deployment. The NTC was developed to 
build an experience base and improve combat tasks. In the post-Cold War 
world, having reaped the benefits of the NTC for over 16 years, we have 
succeeded in building a depth of combat experience via repetitive 
rotations. Units also get training experience through the conduct of 
operational deployments, such as Intrinsic Action and Joint Endeavor. 
The assessment now is that ten rotations and current operational 
deployments are sufficient to maintain the depth and level of combat 
skills that we have developed. We must continue to assess this issue as 
we evolve to Force XXI and the Army After Next. We may find that as we 
reshape the Army and our doctrine changes, we may need to adjust the 
number of rotations at the NTC.
    Question. What effect will a reduced number of rotations have on 
Army Readiness?
    Army Answer. We do not anticipate a reduction in Army readiness if 
the NTC reduces its annual number of rotations. It is important to keep 
in mind that the Army does not use the NTC, or any of the other CTC's, 
to assess a unit's level of readiness. The CTC program assesses a 
unit's level of training and the unit's ability to meet its training 
objectives against its specific Mission Essential Task List (METL). A 
CTC rotation is just one of several tools that a commander uses to 
assess his level of readiness. To completely assess readiness, the Army 
uses the Unit Status Report (USR) governed by Army Regulation 220-1 
(Army Readiness Reporting). This report looks at a variety of other 
factors, such as resourcing, personnel, and equipment in order to make 
a subjective evaluation of a unit's level of readiness.

                  Commandant's Warfighting Laboratory

    Question. Congress provides an additional $8 million above the 
Operations and Maintenance, Marine Corps budget request in Fiscal Year 
1997 for this initiative.
    Describe for the Committee the objectives of this initiative.
    Marine Corps Answer. The funds provided to the Marine Corps were 
applied to the first two phases of the Commandant's Warfighting 
Laboratory Five Year Experimentation Plan (FYEP). Phase one, the Hunter 
Warrior Advanced Warfighting Experiment (AWE), was conducted in 
California during February and March 1997. It was designed to examine 
the employment of dispersed forces on an extended littoral battlespace. 
Command and control (C2), fires and targeting, precision logistics, and 
enhancements to individual and unit operational capabilities were the 
areas of experimentation. A Special Purpose Marine Air-Ground Task 
Force, Experimental (SPMAGTF (X)) composed of over 1,800 Marines 
engaged Opposing Forces, a reinforced mechanized regiment, numbering 
over 4,000 personnel. The $8 million in Operation and Maintenance, 
Marine Corps funds were used primarily to support the actions of these 
two forces as well as the range automation infrastructure and support 
of the Commandant's Warfighting Laboratory headquarters facility.
    The second phase, Urban Warrior, begins in April 1997 and will 
concentrate on the urban littoral environment and continue the 
transition of the Marine Corps to meet future requirements.
    The Marine Corps is extremely grateful for your continued support 
of this important program.
    Question. What successes have you had thus far?
    Marine Corps Answer. During the Hunter Warrior Advanced Warfighting 
Experiment (AWE) the Special Purpose Marine Air-Ground Task Force, 
Experimental (SPMAGTF (X)) used an Experimental Combat Operations 
Center (ECOC) concept that linked multi-service units and control 
systems and included capabilities such as a Commander's Three Dimension 
(3D) Workbench that provided 3D map display units. Individual Marines 
employed palmtop computers to track all units and for digital calls for 
fire. A new concept introducing a Cellular Command Element for the 
SPMAGTF (X) completely replaced the Napoleonic staff. The Cellular 
Command Element innovations include planning and shaping; engagement 
coordination; and the ``red cell'' concept. These innovations were 
designed to improve decision making and leverage tempo. We also 
experimented with the employment of drones in support of forward units 
to enhance their target acquisition, identification and tracking 
capabilities.
    Data from Hunter Warrior is currently being collected and analyzed. 
Recommendations for follow-up actions will be forwarded upon completion 
of the analyses.
    Question. What is the fiscal year 1998 funding posture for this 
initiative?
    Marine Corps Answer. The fiscal year 1998 President's Budget for 
the Commandant's Warfighting Laboratory contains $8.7 million in 
Operation and Maintenance, Marine Corps and $20 million in the Marine 
Corps ground combat allocation of Research Development Test and 
Evaluation, Navy.

                     Marine Corps Recruit Training

    Question. During fiscal year 1996, the Marine Corps introduced a 
new, capstone training event for new recruits known as the Crucible. 
The exercise, which takes 54 consecutive hours for the recruits to 
complete, is intended to stress the limits of the new recruits' 
physical and mental capabilities. Describe for the Committee the events 
that comprise your recruit training capstone event, and the objectives 
of this training.
    Marine Corps Answer. The addition of a ``Crucible'' event has 
provided the culmination of the entire recruit training experience. As 
a ``rite of passage'' the Crucible is a 54-hour field training 
evolution highlighted by food and sleep deprivation, physical and 
mental challenges, and a rigorous optempo that continually challenges 
recruits while emphasizing core values and the importance of teamwork 
in overcoming adversity. The Crucible is the last ``tough'' week of 
recruit training and designed to be the crystallizing experience during 
which everything that the recruit has learned in his previous weeks of 
boot camp are drawn together and brought sharply into focus.
    The event begins with a 0300 night movement that sets the stage for 
the next 54 hours in which the recruits will receive a total of 8 hours 
sleep in two four-hour periods. It is comprised of six Core Events, 
eleven Warrior Stations, and Night Movement exercises. Warrior Stations 
(built around an obstacle course concept) augment the Crucible's core 
events, providing a critical element in the reinforcement of core 
values and the linking of our Marine heroes of the past with the 
challenges facing recruits during their training and future service in 
the Corps. These stations present the recruit teams with a variety of 
physical and mental challenges and are designed to stress the team vice 
individual action. The Crucible core events are as follows:
    (1) The Day Movement Resupply event requires recruits to conduct a 
resupply mission of water, food, and ammunition through the Day 
Movement Course.
    (2) Reaction Course Problems Require recruit teams to negotiate a 
series of obstacle challenges designed to test the team vice the 
individual in accomplishing a particular mission. The Reaction Course 
problems augment and maintain the training tempo and provide a sense of 
the friction, frustration, and fog inherent to combat.
    (3) The Casualty Evacuation event requires the recruit team to 
carry a team member or an awkward load on a litter for one mile over 
varying terrain.
    (4) The Enhanced Confidence Course augmented by Reaction Course 
problems, that requires recruit teams to complete a specified mission 
while negotiating a physical obstacle that entails retrieving a wounded 
team member or moving equipment across varying terrain and/or 
obstacles.
    (5) The Combat Assault Resupply event tasks recruit teams to 
negotiate the Combat Assault Course with a food, ammunition, and water 
resupply load.
    (6) Unknown Distance Firing challenges recruit teams to conduct 
combat field firing from obstacles at an unknown distance in a time 
limit of 70 seconds. This event strengthens the bond between Marines 
and their weapons. Unknown distance firing is conducted within the 
realm of fatigue and stress and is further augmented with challenges 
from Reaction Course problems and Team Pugil Sticks. The Pugil Stick 
engagements involve ``two-on-two'' fights that stress not only physical 
endurance, but the critical aspect of working and fighting as a team. 
Coupled with increasing stress and fatigue, these bouts provide 
poignant reinforcement of the importance of teamwork and endurance in a 
simulated combat environment.
    The culmination of the Crucible involves a night march followed by 
a Morning Colors ceremony, a Marine Corps Emblem ceremony in which 
Drill Instructors award the Marine Corps emblem to their recruits. 
Further, a ``Warrior Breakfast'' and the viewing of a CMC-narrated 
``Crucible'' video enabling the Commandant to reinforce the 
significance of this event and more importantly, address each recruit 
by the title ``Marine'' for the first time.
    The intent and objectives of the Crucible are to build strength of 
character, teamwork, and a sense of self-sacrifice. Constant 
reinforcement of the values of courage (both physical and mental), 
honor, and commitment are the hallmarks of the Crucible exercise and 
are the foundation of values that will accompany these new Marines 
throughout their career--be it 3 or 30 years.
    Question. How has this training event improved the skills of your 
personnel and the readiness of the Marine Corps?
    Marine Corps Answer. The changes to recruit training, coupled with 
the addition of the ``Crucible'' has improved the process of making 
Marines and resulted in a tougher and more challenging training 
environment. Although we have conducted relatively few iterations of 
the Crucible, we have seen that the young Marines arriving at their 
follow-on schools and in the operating forces have a greater focus on 
expected standards of professional conduct, a better understanding of 
permissible behavior, and a stronger foundation of institutional values 
and standards. In the long term, we believe the investment being made 
in recruit training will result in an increased readiness posture in 
our operating forces.
    Question. What effect has the introduction of this event had on the 
length of basic training?
    Marine Corps Answer. On 1 October 1996, recruit training was 
increased from an eleven to a twelve week regimen for both male and 
female recruits providing more time for the Drill Instructors to teach, 
mold, and guide their recruits. These changes encompass a dramatic 
enhancement to core values with over 50 hours of instruction, 
discussion plus the addition of the 54-hour ``Crucible'' event.
    Question. Has the cost of basic training increased?
    Marine Corps Answer. Yes, the cost has increased by $450 thousand. 
The increased requirement has been supported through internal 
realignments from other Marine Corps programs for fiscal year 1997 as 
well as the outyears.

                            Personnel Tempo

    Question. The increase of unscheduled deployments in the past few 
years for domestic disasters, contingency operations, or Operations 
Other Than War clearly stresses military personnel and their families.
    Gentlemen, what is the average time soldiers are on Temporary Duty, 
deployed, or are away from home for training and exercises?
    Army Answer. During fiscal year 1996, soldiers who deployed on 
temporary duty, operational deployments, and training exercises (non-
local) were away from their home stations for an average of 197 days. 
Some units and soldiers, by virtue of their missions and particular 
skills, are deployed more frequently than others. In addition, the 
average combat arms soldier who was not deployed on a contingency 
operation spent approximately 140 to 170 days in combat training away 
from home overnight (local and Combat Training Center) to maintain 
readiness.
    Navy Answer. Time away from home for our sailors is managed through 
the Navy's Personnel Tempo of Operations (PERSTEMPO) program. The 
program consists of three established guidelines:
    <bullet> a maximum deployment of six months (portal to portal)
    <bullet> a minimum Turn Around Ratio (TAR) of 2.0:1 between 
deployments (the ratio between the number of months a unit spends 
between deployments and the length of the last deployment, e.g., a 
nominal 12 months non-deployed following a 6-month deployment. The 
turnaround ratios for all elements of Naval forces have been well above 
this 2:1 figure, given the funded levels of non-deployed OPTEMPO, and 
the requirement to maintain PERSTEMPO at or above 50 percent.)
    <bullet> a minimum of 50 percent time a unit spends in homeport 
over a five-year period (three years back/two years forward)
    The Navy sets 50 percent time in homeport as the goal for our 
units. However, these units periodically make cyclical forward 
deployments for up to six months. During the preparation and deployment 
period, they are not able to achieve the desired goal of 50 percent 
time at home. Units which have recently completed a deployment 
typically spend a greater percentage of their time at home, which 
balances the time spent away during deployment, and allows them to meet 
the 50 percent goal over the three-year historical period. Because the 
average assignment for our sailors is three of five years, all who 
complete their entire tours should receive the benefits of the program.
    Marine Corps Answer. The Marine Corps tracks DEPTEMPO and uses the 
deployment of an infantry battalion for 10 days or more away from home 
base as the bellwether. The infantry battalion fiscal year 1996 
DEPTEMPO was 34 percent. DEPTEMPO surged to 43 percent during a peak 
period for operations and training in fiscal year 1996. If infantry 
line companies are used to track the average fiscal year 1996 DEPTEMPO, 
the new figure would increase to 44 percent. Marine fixed wing aviation 
DEPTEMPO ranged from 38 to 58 percent. Rotary wing DEPTEMPO ranged from 
38 to 41 percent.
    Air Force Answer. Air Force desired maximum Personnel Tempo 
(PERSTEMPO) rate is 120 days TDY per individual, per year. The average 
number of Air Force members deployed at any given time in fiscal year 
1996 was 13,700. Less than 3 percent of Air Force people exceeded the 
desired maximum 120 TDY days. Air Force people averaged 44 days TDY 
away from home in fiscal year 1996.
    Question. Explain how your Service manages Personnel Tempo so it 
does not have an adverse impact on individual unit readiness and 
training of your people.
    Army Answer. Army Personnel Tempo (PERSTEMPO) is defined as Skill 
Tempo (SKILTEMPO) (number of days an individual soldier is away from 
home station) and Deployment Tempo (DEPTEMPO) (number of days a unit is 
away from home station). Currently, the Army does not track and does 
not have an established standard for PERSTEMPO. The Army Staff has 
determined that the current PERSTEMPO is running approximately 140-170 
days depending the unit type, mission and location. We are 
investigating options for reducing PERSTEMPO.
    The Army has taken several steps to ensure quality of life and 
soldier morale, therefore, indirectly, readiness is not adversely 
impacted by excessive PERSTEMPO. In the area of SKILTEMPO, the Army 
currently records every day that a soldier is engaged in contingency 
operations, major exercises, and domestic support missions. The Army 
has instituted an Assignment Restriction policy to assist soldiers when 
they return from extended Temporary Duty Assignment (TDY--individual 
extended deployments) or Temporary Change of Stations (TCS--unit 
extended deployments). This policy directs that when a soldier has been 
deployed for 61-139 days, upon return he cannot be permanently moved, 
for at least four months; if a soldier has been deployed for 140 or 
more days, he cannot be moved on an unaccompanied short tour outside of 
the continental United States (OCONUS) for at least 12 months, or an 
accompanied long tour (CONUS or OCONUS) for at least six months.
    In the area of DEPTEMPO, the Army continues to spread deployments 
across the force. Some units or soldiers with particular specialties, 
by virtue of their mission or skill, must deploy more frequently than 
others. However, surveys indicate that neither morale nor retention 
have been adversely impacted by PERSTEMPO.
    Navy Answer. The Navy PERSTEMPO program (the three goals of which 
are previously explained), is the primary means by which the Navy 
manages the time our sailors spend away from home. As stated in the 
establishing directive, ``The program and its goals are the culmination 
of a deliberate process to balance support of national objectives, with 
reasonable operating conditions for our naval personnel, while 
maintaining the professionalism associated with going to sea with a 
reasonable home life.'' The Chief of Naval Operations personally 
approves all exceptions to PERSTEMPO guidelines. This program has been 
carefully crafted to ensure a careful balance between the needs of the 
Navy to maintain training and unit readiness, and the needs of the 
individual sailor to enjoy a fulfilling family life. We have carefully 
studied the amount of training and preparation needed to maintain 
readiness and proficiency, and the time necessary falls well within the 
boundaries of the PERSTEMPO program goals, ensuring no adverse impact 
to either readiness or personnel.
    Marine Corps Answer. The Marine Corps does not track PERSTEMPO. 
DEPTEMPO is used to track the time a unit (and its Marines) spends away 
from home base or station. DEPTEMPO is defined as,
    ``The percentage of time in a given annual period that a unit, or 
element of a unit, supports operations or training away from its home 
base or station for a period of 10 consecutive days or greater.''
    The MARFOR commanders monitor and manage their units DEPTEMPO with 
QOL concerns at the forefront. The Marine Corps, through the MARFOR 
commanders, has successfully reduced active unit DEPTEMPO through the 
creative use of reserve forces in exercises and operations (Battle 
Griffin-96/Norway, Operations Sea Signal/Able Vigil--migrant ops) as 
well as the use of active units in non-traditional roles (artillery 
units as provisional rifle companies/battalions).
    Most OOTW deployments supported by the Marine Corps since the 
beginning of the decade have not involved combat, but the new training 
requirements associated with these OOTW deployments have not reduced 
the readiness of personnel to accomplish wartime missions. While some 
OOTW specific training is conducted prior to and during deployments, 
this has not altered our readiness training programs. The primary 
training that Marines receive to ensure their readiness for deployment 
covers the full spectrum of conflict. This full spectrum training is 
directly applicable to the operational demands encountered in OOTW.
    The Marine Corps is able, and will continue to maintain and sustain 
superior unit readiness in the face of high DEPTEMPO through our time-
tested and effective rotational deployment scheme. This deployment 
scheme means that a minimum of two-thirds of the force are at the 
higher state of readiness, with the remaining third able to quickly 
adopt a full readiness posture, if needed.
    Air Force Answer. Careful management of deployment requirements 
against our available resources has helped control our Personnel Tempo 
(PERSTEMPO). We have used three main methods to reduce the impact of 
PERSTEMPO. First, we have used global sourcing conferences which have 
helped transfer the load from one theater to another. Second, we have 
had great volunteer contributions from our Reserve Components, e.g. 
17.8 percent of the 14,000 Air Force people deployed today are from the 
RC. Third, we have challenged and reduced taskings to provide relief to 
stressed systems, e.g. reduced taskings on AWACS, ABCCC, Rivet Joint, 
and U-2s allowed them to recapture lost training and provide more 
mission-ready crews.

                    Personnel Tempo--Stressed Skills

    Question. The Committee remembers a few years ago when units or 
mission skills were being continually stressed with back-to-back 
deployments or for contingency operations. Are we still experiencing 
these problems in units, mission areas, or particular skills? If so, 
describe which areas.
    Army Answer. We are no longer experiencing those problems. The Army 
units to which you refer were the Patriot Battalions. Their situation 
has been corrected by consolidation of units at Fort Bliss, thereby 
facilitating overseas rotation requirements, and by incorporating the 
Patriot Battalions in the Office of the Secretary of Defense (OSD) 
managed Global Military Force Policy (GMFP) program. This program 
assesses for decision makers the impact of unit deployments beyond 
established guidelines. We continue to monitor individual Military 
Occupational Specialties (MOSs) with the highest Skill Tempo 
(SKILTEMPO) and have identified Army Low Density/High Demand (LD/HD) 
units, but as mentioned earlier, we are not experiencing problems in 
any of these areas or units.
    Navy Answer. Navy units have not been subject to back-to-back 
deployments, and we are not expeiencing problems in unit, mission areas 
or particular skills. Though some low density, high demand units, such 
as Reef Point and EA-6B units, are employed more often than others, 
they are covered by, and comply with, our PERSTEMPO program. Navy 
minimizes the PERSTEMPO of identified Low-Density. High-Demand assets 
through the use of rotational crews and rotation of units with similar 
Joint assets.
    As previously noted, this program carefully tracks all units' 
PERSTEMPO and specifically prevents units from exceeding six-month 
deployments or deploying again inside the 2.0 to 1 Turn-Around-Ratio. 
The Chief of Naval Operations personally approves any exception to 
either of these rules, with the number of exceptions required declining 
since Operations Desert Shield/Desert Storm. Additionally, the Chief of 
Naval Operations receives a quarterly report of the units that do not 
meet guidelines and that specifies the date when the unit will return 
to compliance. Because of the visibility of the PRESTEMPO program, the 
Navy is well aware of any trouble areas, and quickly moves to alleviate 
any problems. We have a number of initiatives underway, including:
    <bullet> Utilization of Naval Reserve Forces to fullfill 
requirements.
    <bullet> Working in concert with Allied forces to meet 
international commitments.
    <bullet> Fleet reorganization, including the establishment of the 
Western Hemisphere Group.
    <bullet> Reorganization of carrier battle groups and cruiser-
destroyers squadrons and readjustment of training and maintenance 
schedules.
    <bullet> Practical application of Navy assets to reduce the number 
of ships required to complete taskings in man instances.
    These initiatives are already having a positive impact on our 
personnel, and we expect that trend to continue.
    Marine Corps Answer. The Marine Corps does not measure PERSTEMPO at 
the individual or military occupational specialty (MOS) level. We do 
track the Deployment TEMPO (DEPTEMPO) of our operating forces. DEPTEMPO 
for some units will peak as contingency operations flare-up around the 
globe, but by an aggressive use of reserves and units in non-standard 
roles (e.g., artillery as provisional rifle companies), we are able to 
keep our DEMPTEMPO at an acceptable level to accomplishment both our 
training and operational commitment worldwide.
    Back-to-back deployment only occur when real world contingency 
operations erupt and Marine forces are the most viable option for the 
contingency. The last such event occurred in 1994 when the 24th MEU 
(SOC) returned from deployment in June and redeployed for operations in 
Haiti from 7 July until 5 August in support of Operation Support 
Democracy.
    Air Force Answer. Air Force does not, as a practice, deploy our 
people back-to-back. Less than 3% of Air Force people exceeded the 
desired maximum 120 temporary duty travel (TDY) days during fiscal year 
1996. The Air Force defines a high demand weapon system/career field as 
one that exceeds 120 days TDY in a twelve month period. Four weapons 
systems and one career field exceeded this threshold in fiscal year 
1996: RC-135J (151 days), U-2 (149 days), HC-130 (144 days), A/OA-10 
(133 days) and Combat Control Teams (160 days). The Air Force has taken 
a number of steps to avoid any degration in readiness or adverse 
impacts on our people that could be caused by long periods of high 
PERSTEMPO/OPTEMPO. Global sourcing allows the AF to spread the 
deployment burden throughout the entire force. Increased use of the 
Reserve Components has enabled the AF to ease active force taskings. We 
sought relief from tasking for some limited assetes, i.e., U-2s in 
fiscal year 1996; A/OA-10 participation in CJCS exercises in fiscal 
year 1997; Air Force Special Operations Command limits exercises for 
its low density/high demand assets.

                       Personnel Tempo Management

    Question. Explain the personnel policies that are in place for your 
Service which minimizes redeploying an individual or a unit.
    Army Answer. The Army minimizes redeploying an individual or a unit 
by:
    --Rotating units through contingency operations.
    --Selectively using Reserve Component forces to augment operational 
mission tasking.
    --Globally resourcing operational deployments.
    --Employing contract civilians.
    --Stabilizing deployed soldiers.
    Navy Answer. As discussed earlier, one of the three basic rules of 
the Navy PERSTEMPO program is the 2.0 to 1 Turn-Around-Ratio (TAR). 
This rule ensures that a unit returning from deployment may not deploy 
again until twice the length of its previous deployment has passed. For 
example, a unit that deploys for 5 months may not deploy again for 10 
months. Any exception to this guideline must be personally approved by 
the Chief of Naval Operations. CNO's policy states . . . ``if the 
schedulers find themselves between a rock and a hard place in trying to 
balance OPTEMPO/PERSTEMPO guidance against commitment requirements, 
they should know that OPTEMPO/PERSTEMPO is the last rock that should 
move.''
    Because of the way Navy units train and deploy, our PERSTEMPO 
Program covers units vice individual sailors. However, the Navy holds 
each Commanding Officer responsible to ensure that the spirit and 
intent of the program applies to individual sailors under his or her 
command.
    Marine Corps Answer. We are able to maintain and sustain high 
readiness in the face of high DEPTEMPO through our time-tested 
rotational deployment schedules. This rotational deployment scheme 
means that a minimum of two-thirds of the force will be maintained at 
the highest state of readiness, with the remaining third able to 
quickly adopt a full readiness posture, when needed.
    Air Force Answer. As a practice, we do not deploy people or units 
back-to-back. We are currently in the process of consolidating and 
codifying all of our temporary duty travel and permanent change of 
station policies related to OPTEMPO/PERSTEMPO. AF members who are sent 
on a short/remove, unaccompanied tour are given a Short Tour Return 
Date (STRD) and will not be sent again until all others in that skill 
have gone and their STRD climbs back to the top of the list. We use 
Total Force scheduling conferences to distribute unit taskings/
rotations. Our individual rotation fair-sharing process allows unit 
commanders to tap the most appropriate individuals to avoid back-to-
back taskings.

                           Depot Maintenance

    Question. All the Services fund less than 100 percent of depot 
maintenance requirements as a matter of policy regardless of specific 
fiscal constraints. Generally, the Services establish goals for depot 
maintenance of about 90-95 percent of requirements. In some cases, the 
1998 budget request funds considerably less than the Services' goals. 
For example, Army budget in fiscal year 1998 funds only 58 percent of 
depot maintenance requirements.
    There are also specific unfunded depot maintenance workloads. The 
Air Force has identified a shortfall of over $50 million because of 
cost growth in C-135 airframe work. The Navy ship depot maintenance 
shortfall is $127 million, and the unfunded deferred Navy aviation 
maintenance workload totals almost $330 million. Why do each of the 
Services, as a matter of policy, choose to fund less than 100 percent 
of depot maintenance program requirements?
    Army Answer. The Army has funded depot maintenance at less than the 
requirements level over the past several years. However, this has not 
been driven by Army policy. The decision has been driven by overall 
Army funding levels, having to support contingency operations without 
adequate funding, and the need to balance its depot maintenance program 
with other priority Army programs. While the Army considers depot 
maintenance to be a high priority program, the Army's Total Obligation 
Authority is not sufficient to fully fund all Army requirements. The 
depot maintenance program is adequate to support the warfight with 
acceptable risk to near-term readiness and is balanced with other Army 
programs.
    Navy Answer. Ship: Navy's ship depot maintenance program is 
budgeted at a level that will support critical readiness requirements 
and allow us to obtain maximum utility from our organic depot 
maintenance facilities (Naval Shipyards). We have taken into account 
resourcing of all our readiness programs (material, training, 
personnel, etc.) to achieve the best possible balance of resources to 
achieve maximum readiness at the minimum cost. Navy relies on two 
critical maintenance policies to ensure the continued safe and 
efficient material condition of our ships: Reliability-Centered 
Maintenance (RCM) and Condition-Based Maintenance (CBM). We require 
that maintenance plans for new acquisition ships, systems and equipment 
be based on RCM principles in order to achieve readiness objectives in 
the most cost-effective manner. In addition, we require that 
maintenance plans for in-service platforms be reviewed and modified to 
incorporate RCM principles in areas where it can be determined that 
expected results will be commensurate with associated costs. Finally, 
CBM diagnostics, inspections and tests are utilized to the maximum 
extent practicable to determine performance and material condition for 
ships, systems and equipment.
    These maintenance policies allow the ship depot maintenance program 
to execute at a funding level less than predicted by the requirement 
model to allow balancing of critical readiness goals with other 
priorities.
    Aircraft: Annual Naval aviation depot maintenance requirements are 
projected using the computerized Depot Requirements Document (DRD) 
Model. Naval tactical aircraft have a prescribed Operational Service 
Period at the end of which, and annually thereafter, their material 
condition is inspected to see if depot maintenance is required. An 
aircraft that fails inspection must be inducted into the depot within 
90 days. The DRD model has historically predicted material condition 
inspection failures with a near term accuracy of -8 percent to +10 
percent, depending on aircraft type and operational employment.
    Marine Corps Answer. The Marine Corps does not have a policy that 
addresses funding less than 100 percent of depot maintenance program 
requirements. The funding level is determined by the amount of limited 
O&MMC, competition with other high priority programs within O&MMC, and 
a risk analysis of the level of unfunded requirements the Marine Corps 
could hold without negatively impacting the equipment readiness of the 
Marine Forces.
    Air Force Answer. In order to balance the overall Air Force program 
within the funding made available, we must take acceptable risks in 
many areas including depot maintenance. The Air Force has many valid 
unfunded requirements but there is simply not enough money to fully 
satisfy them all. Additionally, the dynamic nature of the force 
structure, flying hour program and operational activities cause some 
variance in the actual workload compared to projected workload. To 
achieve a balance between other Air Force funding priorities and 
readiness requirements and to maximize the use of limited funding, 
depot maintenance is generally funded between 80% to 90%. During the 
year of execution, we address as many remaining shortfalls as possible 
internally. Within a fiscally constrained environment, workload that 
has the highest mission impact is given funding priority, while 
workload that can be delayed with minimum mission impact is deferred. 
The 3800 hour per programmed depot maintenance (PDM) increase in the C-
135, primarily for extensive corrosion work, created a significant near 
term funding shortfall after the fiscal year 98 budget was submitted. 
If not rectified, this shortfall will cause significantly fewer PDMs to 
be accomplished each year than is necessary to maintain the required C-
135 PDM interval and result in a growing bow wave of backlogged 
overhauls.
    Question. What risks to readiness are posed by the apparent 
reduction in the depot maintenance program in fiscal year 1998?
    Army Answer. The funding levels allow potential long-term 
readiness-related depot maintenance backlogs to grow and slow 
redistribution and modernization efforts. The program is adequate to 
support the warfight with acceptable risk to near-term readiness and 
balanced with other Army programs.
    Navy Answer. Ship: In fact, the Navy ship depot maintenance budget 
request for FY 1998 is higher than the current estimate for FY 1997 as 
shown by the table below:

----------------------------------------------------------------------------------------------------------------
                                                           Fiscal year   Fiscal year   Fiscal year   Fiscal year
                                                              1996          1997          1998          1999
----------------------------------------------------------------------------------------------------------------
Ship Depot maintenance..................................      $2,048.3      $1,866.1      $2,040.7      $2,354.0
----------------------------------------------------------------------------------------------------------------


    In addition, the budget includes $1,707.8 million of funding in the 
Shipbuilding and Conversion, Navy account in fiscal year 1998 for the 
USS NIMITZ (CVN-68) refueling complex overhaul.
    Aircraft: The level of risk associated with increased airframe and 
engine backlog is still under review. Aircraft that are grounded 
awaiting depot funding can not be used by our Squadron Commanders in 
support of assigned missions. The larger the backlog, the higher the 
readiness risk. Increased depot efficiency and improvements resulting 
in reduced depot maintenance cycle times and cost will help reduce the 
long term risk. Additionally, NAVAIR has embarked on a program to 
transition eleven T/M/S aircraft to a Reliability Centered Maintenance 
(RCM), fixed interval, Phased Depot Maintenance (PDM) program over the 
next several years. PDM is expected to reduce aircraft out of service 
time to the fleet, effectively increasing overall operational 
readiness.
    Marine Corps Answer. The apparent reduction from fiscal year 1997 
to fiscal year 1998 in the depot maintenance program is not expected to 
have a significant adverse impact on Marine Corps ground equipment 
readiness.
    Air Force Answer. The Air Force believes that the current backlog 
level is manageable with acceptable impact to readiness with the 
exception of the C-135 Programmed Depot Maintenance (PDM) program. The 
Air force normally mitigates risk of reduced depot maintenance funding 
by prioritizing areas with greatest mission impact such as aircraft, 
engines and missiles. In fiscal year 1998 the backlog in areas other 
than aircraft is minimal and represents work that can be deferred with 
slight impact to readiness allowing us to balance our Operation and 
Maintenance program. However, without additional funding for the C-135 
PDM program in fiscal year 1998, 16 aircraft PDMs will be deferred or 
grounded and start a bow wave of backlogged PDMs. In either case 
aircraft availability levels will be impacted due to increased numbers 
of aircraft at the depot for PDMs.

          Depot Maintenance Backlogs and Underfunded Workloads

    Question. Provide the estimated increase in the backlog of depot 
maintenance.
    Army Answer. The depot maintenance backlog in fiscal year 1997 is 
$401 million. The backlog in fiscal year 1998 is $455 million. The $455 
million unfunded requirement in fiscal year 1998 does not represent an 
accumulation of prior year backlog. The depot maintenance backlog is 
not cumulative. From year to year, it is a stand alone requirement.
    Navy Answer. Ship: The current budget shows no increase in overhaul 
backlog levels between fiscal year 1997 and fiscal year 1998. Aircraft: 
The backlog and associated funding follows:

------------------------------------------------------------------------
                                               Fiscal year   Fiscal year
                                                   97            98
------------------------------------------------------------------------
         APPROPRIATION: O&M, N 1A5A
 
AIRFRAMES
    Backlog.................................           172           172
    Funding ($Ms)...........................         230.1         234.8
ENGINES
    Backlog.................................           500           500
    Funding ($Ms)...........................          88.2          87.9
 
         APPROPRIATION: O&M, NR 1A5A
 
AIRFRAMES
    Backlog.................................             9            44
    Funding ($Ms)...........................          12.7          55.8
ENGINES
    Backlog.................................           113           177
    Funding ($Ms)...........................          24.8          43.6
------------------------------------------------------------------------


    Marine Corps Answer. The Marine Corps backlog of depot maintenance 
decreases from $117 million in fiscal year 1997 to $50 million in 
fiscal year 1998.
    Air Force Answer. The depot maintenance backlog for the total AF 
grows by $31.8 million from fiscal year 1997 to fiscal year 1998. The 
active Air Force fiscal year 1997 backlog is $251.4 million and the 
fiscal year 1998 backlog is $254.9 million ($3.5 million delta). The 
Air Force Reserve fiscal year 1997 backlog is $36.5 million and the 
fiscal year 1998 backlog is $54.1 million ($17.6 million delta). The 
Air National Guard fiscal year 1997 backlog is $33.8 million and the 
fiscal year 1998 backlog is $44.5 million ($10.7 million delta).
    Question. Please provide your estimate of the amount of backlog 
that could be completed with additional funding in fiscal year 1998.
    Army Answer. The Army does not identify requirements that are not 
executable for reasons other than lack of funding. Any of the backlog 
in fiscal year 1998 can be completed with additional funding.
    Navy Answer. Ship: There is no ship overhaul backlog projected in 
the budget. The budget will satisfy approximately 88% of requirements 
for active forces ship depot maintenance in fiscal year 1998, compared 
to 94% in fiscal year 1997 and 91% in fiscal year 1999.
    There are currently 42 unfunded depot availabilities scheduled for 
fiscal year 1998 (22 for CINCLANTFLT and 20 for CINCPACFLT). All of the 
unfunded depot availabilities are for conventionally powered surface 
ships.
    $125 million would restore the account to the 94% of requirements 
normally requested and would fund between 10 and 28 of these 
availabilities. Aircraft: Approximately 142 additional airframes (98 
Active/44 Reserve) and 286 additional engines (149 Active/137 Reserve) 
could be completed within existing capacity in fiscal year 1998 if 
funding ($199.0 million) were provided. This workload would be 
accomplished in-house organic, interservice and commercial depots.
    Marine Corps Answer. We could apply additional funding in the 
amount of $25 million. Application of this additional funding in fiscal 
year 1998 will have a dollar to dollar effect on amount of backlog. 
Funding will be applied to the maintenance of Automotive, 
Communications/Electronic, and Engineering weapon systems that 
currently have a readiness level of less than 85 percent.
    Air Force Answer. To remain within the OSD carryover constraint for 
fiscal year 1998, an additional $75.9 million funding could be 
executed.
    Question. Please list specific unfunded or underfunded depot 
maintenance workload in fiscal year 1998.
    Army Answer. In fiscal year 1998, the depot maintenance program is 
unfunded or underfunded by $455 million. The shortfalls existing in 
commodities are: Aircraft--$67 million, Combat Vehicles--$89 million, 
Missiles--$105 million, Software--$52 million, Communications-
Electronics--$49 million, and miscellaneous (Small Arms, Watercraft, 
General Equipment, Automotive, Construction, Rail)--$93 million.
    Navy Answer. Ship: Current funding target for Ship Depot 
Maintenance is 94% of requirements; however, the President's Budget 
Request for fiscal year 1998 funds 88% of requirements. All funding 
shortfalls are lodged against private sector ship depot maintenance 
availabilities. An additional $125 million in fiscal year 1998 funding 
would bring the level of funded requirements to the target of 94%. 
There are currently 42 unfunded depot availabilities scheduled for 
fiscal year 1998 (22 for CINCLANTFLT and 20 for CINCPACFLT). All of the 
unfunded depot availabilities are for conventionally-powered surface 
ships. The determination of which unfunded availabilities would become 
funded is made by the Fleet CINCs based on individual ships' material 
condition. Aircraft: The unfunded fiscal year 98 depot requirement is 
as follows:
APPROPRIATION: O&M,N 1A5A                                 Fiscal year 98
    AIRFRAMES
        Backlog...............................................       172
        Funding ($Ms).........................................     234.8
    ENGINES
        Backlog...............................................       500
        Funding ($Ms).........................................      87.9

APPROPRIATION: O&M,NR 1A5A                                Fiscal year 98
    AIRFRAMES
        Backlog...............................................        44
        Funding ($Ms).........................................      55.8
    ENGINES
        Backlog...............................................       177
        Funding ($Ms).........................................      43.6

    Marine Corps Answer. The effects of not fully funding the Marine 
Corps depot maintenance program may be felt in the current readiness 
level of ground equipment. The following list is those pieces of 
equipment with readiness levels of less than 85 percent.

        Nomenclature                   Current readiness level (percent)
LVS MK-48.....................................................      79.9
LVS MK-14.....................................................      77.7
LVS MK-15.....................................................      78.3
LVS MK-17.....................................................      72.8
HMMWV Ambulance...............................................      56.3
Trk, 5-Ton Cargo..............................................      78.1
Trk, P19 Fire.................................................      62.6
Trk, 5-Ton....................................................      67.6
Trk, 5-Ton Dump...............................................      80.8
Trk, 5-Ton Wrecker............................................      82.1
Radio Set AN/MRC-138A.........................................      75.2
Central Office Phone..........................................      70.3
Switchboard Telephone.........................................      82.0
Crane, Wheeled................................................      78.0
Scraper, Earth Mover..........................................      64.5
Tractor, D7G..................................................      72.6
Tractor, See..................................................      66.6
Trk, Forklift, 4000 lbs.......................................      67.1

    Air Force Answer. The total unfunded depot maintenance workload for 
fiscal year 98 is $353.5 million. The backlog by component and 
commodity is as follows:
    Active AF: Aircraft maintenance: $111.7 million (C-135, F-15, F-16, 
H-53, C-141, B-1, B-2); Engines maintenance: $4.5 million (T-56, F108, 
TF-39, T400); Missile maintenance: $12.2 million; Software maintenance: 
$79.6 million; OMEI: $18.0 million; Exchangeables: $22.0 million; ABM: 
$5.7 million; Storage: $1.2 million; AF subtotal: $254.9 million.
    AFRES: Aircraft maintenance $31.3 million (C-135); Engine 
maintenance: $22.2 million (TF-39, T-56); OMEI: $.1 million; ABM: $.5 
million; AFRES subtotal: $54.1 million.
    ANG: Aircraft maintenance: $34.6 million (C-135); Engine 
maintenance: $6.6 million (TF-39, T-56, TF-33); OMEI: $3.1 million; 
ABM: $.2 million; ANG subtotal: $44.5 million.

                    Real Property Maintenance (RPM)

    Question. The Committee notes that the amount of funding for Real 
Property Maintenance (RPM) declines and the backlog of such work 
increases in fiscal year 1998. What risks does this pose for quality of 
life? For readiness?
    Army Answer. The Army gets approximately 24 percent of the 
Department of Defense Total Obligation Authority (TOA). We try to do 
the best we can to keep the overall Army program balanced in terms of 
the readiness of the force, the quality of life of our people, and the 
modernization of the force. Within this fiscal constraint, we have 
accepted some risk in the readiness of our installations. Nonetheless, 
we recognize that facilities are an integral part of our quality of 
life and overall readiness. We must maintain a balance in the funding 
of our facilities that supports our families and our units. If this 
balance is not maintained, facilities will suffer deterioration, 
adversely affecting retention of personnel, overall readiness of the 
Army, and the quality of life we provide our soldiers and their 
families. At a reduced level of funding, commanders will have to make 
hard choices such as: close facilities; allow soldiers housed in 
barracks to reside on the economy, which will increase the cost in our 
Military Pay Appropriation account; or continue to defer required 
maintenance and repair projects.
    Navy Answer. Affordability and other budget priorities have 
prevented the Navy from sustaining a higher level of funding for Real 
Property Maintenance. The risks to quality of life are low. Within the 
budget submission, we have sufficient funding for maintenance and 
repair for bachelor quarters. As a cornerstone in quality of life, our 
program to improve bachelor quarters will eliminate the backlog of 
critical maintenance and repair by fiscal year 2004. The reduced 
funding level in fiscal year 1998 and fiscal year 1999 will result in 
deferral of major repair projects for many of our remaining facilities. 
We consider this acceptable risk since there is sufficient funding 
starting in fiscal year 2002 to sustain all of our facilities.
    Marine Corps Answer. Not counting the Quality of Life, Defense 
Appropriation (45 million for O&MMC and $9 million for O&MMCR) 
increases in fiscal year 1997, the Marine Corps budget actually 
increases for Real Property Maintenance from fiscal year 1997 to fiscal 
year 1998, but like the other services, we are funded well below our 
requirement and our backlog is increasing.
    Realizing the importance of providing well-maintained barracks for 
our Marines, we have dedicated sufficient funding to the repair and 
maintenance of barracks in order to ensure our Backlog of Maintenance 
and Repair in this area is zero at the end of 2004.
    We are doing the right thing to emphasize barracks, but we 
recognize that there are potential impacts on operational facilities. 
We will continue to monitor them closely in an effort to avoid 
problems. Facilities that impact directly on readiness like runways and 
training ranges will be kept in acceptable operational condition. 
However, in order to do this, repair funding has been reduced to other 
types of facilities. Typically these will be mission support and 
quality of life support facilities like roads, utilities, 
administrative buildings, warehouses, hobby shops, gyms, etc.
    Air Force Answer. The Air Force has funded the RPM program at the 
Preservation Maintenance Level which is the level of resources 
necessary to accomplish periodic maintenance requirements. This level 
of funding ensures cost of ownership requirements for facilities 
related to both quality of life and readiness are sufficiently funded.
    Question. Have each of your Services completed the quality of life 
projects initiated under former Defense Secretary Perry, thus allowing 
for reduced funding in fiscal year 1998?
    Army Answer. The Secretary proposed a six-year program to increase 
the quality of life initiatives across a spectrum of areas: barracks, 
child care, fitness and recreation, basic allowance for quarters, and 
the cost of living allowance. The funding for this initiative is added 
to the Army's ongoing efforts and will expire in fiscal year 2001. 
There is no reduction of funding in fiscal year 1998.
    Navy Answer. The focus for quality of life projects under Secretary 
Perry was on bachelor quarters. Increased in fiscal year 1994, the 
funding for maintenance and repair for bachelor quarters is sufficient 
to eliminate our backlog by fiscal year 2004. Additionally, current 
funding for both Real Property Maintenance and Military Construction 
will meet the new barracks 1+1 standard by fiscal year 2013.
    Marine Corps Answer. In fiscal year 1996, we received $22 million 
from Congress, in addition to our budget request, to fund barracks 
repair projects. All of these funds have been spent. In fiscal year 
1997, we received $54 million from Congress for Quality of Life 
repairs. $30 million of that has been targeted directly for barracks, 
while $24 million is going for quality of life in the work place. These 
projects are being executed in fiscal year 1997 and fiscal year 1998 as 
allowed by the legislation providing the funds.
    The Marine Corps has not reduced its request for RPM funding in 
fiscal year 1998, because we are already funded well below our 
requirements for maintaining our facilities condition.
    Air Force Answer. To date, the Air Force has received a total of 
$131 million in three years (Fiscal Years 1996, 1997, and 1998) worth 
of distribution from the Office of the Secretary of Defense (OSD) 
Quality of Life (QoL) account set up by Dr. Perry. The Air Force 
received its portion of the OSD distribution in MILCON appropriation 
and invested in both family and unaccompanied housing requirements; 
execution of the Fiscal Year 1996 and 1997 military construction 
projects are on-going, while Fiscal Year 1998 projects are included in 
the President's Budget. This additional funding does not substantially 
reduce the family housing (26 year buyout) or unaccompanied housing 
(10-15 year buyout) requirements; future funding levels must be 
maintained.
    Question. If you have not completed these initiatives, what is your 
schedule for doing so?
    Army Answer. The Army plans to complete its barracks upgrade 
program worldwide in 2012. We expect to meet the DoD goal of satisfying 
65 percent of the Child Care demand in fiscal year 1998. The other 
initiatives represent ongoing efforts fully supported by the Army.
    Marine Corps Answer. We are on track with completing the 
initiatives in Real Property Maintenance. In fiscal year 1997, we 
received $54 million from Congress for Quality of Life repairs. $30 
million of that has been targeted directly for barracks while $24 
million is going for quality of life repairs in other facilities. The 
funds are currently being executed. These funds are only a down payment 
though in fixing our barracks. The Marine Corps has developed and 
resourced the following funding profile within our Real Property 
Maintenance account so that we can reduce the Backlog of Maintenance 
and Repair in Barracks to zero by the end of 2004 in accordance with 
the Marsh Panel goals.

----------------------------------------------------------------------------------------------------------------
                                                                                Fiscal year--
                         Barracks                          -----------------------------------------------------
                                                              1998     1999     2000     2001     2002     2003
----------------------------------------------------------------------------------------------------------------
RPM $mil..................................................       71       75       81       74       75       79
----------------------------------------------------------------------------------------------------------------

    Air Force Answer. We have awarded all but two fiscal year 1996 
projects (one dormitory project will be awarded by May 1997, one 
Military Family Housing project is being used as a privatization 
initiative). The three dormitory projects funded in Fiscal Year 1997 
will be awarded by October 1997. The Fiscal Year 1998 projects are 
included in the President's Budget.
    Question. What funding has been included to complete these 
initiatives in each year of the Future Years Defense Plan (FYDP)?
    Army Answer. The Secretary of Defense added $450 million for each 
year from fiscal year 1996 to 2001 for all Services for quality of 
life. The Secretary of Defense distributes funding for barracks in the 
budget year. We have already incorporated funding requirements for 
basic allowance for quarters and cost of living allowance into the 
Army's Operation and Maintenance budget. We have programmed the 
necessary funds to meet child care and fitness and recreation 
requirements throughout the FYDP. We expect to continue funding each 
category at a level of about $11 million per year.
    Navy Answer. Current funding for barracks:

----------------------------------------------------------------------------------------------------------------
                                                                                Fiscal year--
                            $M                             -----------------------------------------------------
                                                              1998     1999     2000     2001     2002     2003
----------------------------------------------------------------------------------------------------------------
Real Property Maintenance.................................     $146     $153     $166     $170     $174     $178
----------------------------------------------------------------------------------------------------------------

    Marine Corps Answer. In fiscal year 1997, we received $54 million 
from Congress for Quality of Life repairs. $30 million of that has been 
targeted directly for barracks while $24 million is going for quality 
of life repairs in other facilities. These funds are currently being 
executed in fiscal year 1997 and fiscal year 1998 in accordance with 
the legislation providing the funds. These funds are only a down 
payment though, in fixing our barracks.
    The Marine Corps has developed and resourced the following funding 
profile within our Real Property Maintenance account so that we can 
reduce the Backlog of Maintenance and Repair in Barracks to zero by the 
end of 2004.

----------------------------------------------------------------------------------------------------------------
                                                                                Fiscal year--
                         Barracks                          -----------------------------------------------------
                                                              1998     1999     2000     2001     2002     2003
----------------------------------------------------------------------------------------------------------------
RPM $mil..................................................       71       75       81       74       75       79
----------------------------------------------------------------------------------------------------------------

    Air Force Answer. There has been no funding specifically included 
in the FYDP to complete the projects funded by the Office of the 
Secretary of Defense Quality of Life account; future funding levels 
must be maintained in order to continue improving the quality of life 
in our family and unaccompanied housing.

                      Mobility Enhancement Program

    Question. Please describe for the Committee the specific 
enhancements that have been implemented with this funding.
    Army Answer. In the past, the Army has been able to use mobility 
enhancements funding to accomplish rail upgrades at Hawthorne Army 
Ammunition Plant, Crane Army Ammunition Activity and Military Ocean 
Terminal Sunny Point. Other improvements include runway repair at Fort 
Hood, railway bridge repair at Fort Carson, and dock repairs and 
improvements at Fort Eustis. With the Mobility Enhancement Funds for 
fiscal year 1997, the Army will repair taxiways at Fort Bliss and 
accomplish minor improvements at Kawakami and Akizuki Depots. 
Additionally, with the Other Procurement Army (OPA) funding, the Army 
plans to procure a vessel bridge simulator for Fort Eustis which will 
permit crew certification without the cost of putting a vessel 
underway, and a deployable communications and automation package to 
assist the port commander in opening a port for Military Traffic 
Management Command.
    Navy Answer. Mobility Enhancement Funding (MEF) is provided by OSD 
to the Services under the oversight of TRANSCOM. Each year TRANSCOM 
establishes a general transportation issue or theme that guides the 
project selection process. TRANSCOM designated fiscal year 1997 as the 
year of infrastructure and encouraged the Services to submit projects 
that ``improve deployment capability and enhance mobility through 
investment in projects that improve the overall capability of the 
Defense Transportation System (DTS).'' In response to fiscal year 1977 
call, Navy submitted 31 projects worth $22 million and TRANSCOM 
approved 24, worth $5.5 million. Examples of fiscal year 1997 approved 
projects are as follows:

<bullet> Repave West Loch Branch Magazine Area Roads 
    (Naval Magazine Lualualei)..........................      $1 million
<bullet> Naval Weapons Station Concord bridge repair....   $925 thousand
<bullet> Pave container staging area at NS Pearl........   $770 thousand
<bullet> Runway repairs at NAS Rota Spain...............   $420 thousand
<bullet> Maritime Prepositioning Force (MPF) container 
    holding yard (NAVORDCEN)............................   $349 thousand
<bullet> Joint Over the Shore (JLOTS) equipment.........   $125 thousand

    Marine Corps Answer. The Mobility Enhancement Program is 
administered by the US Transportation Command (USTRANSCOM) for OSD. 
Since the programs' inception in fiscal year 1993, Congress has 
appropriated funds to the O&M, Defense-Wide account. However, in fiscal 
year 1997, funds were appropriated into the O&M, Defense-Wide, and 
Procurement, Defense-Wide accounts. The Marine Corps competes with the 
other Services for these funds. The Marine Corps received $4.1 million 
in fiscal year 1995; $6.3 million in fiscal year 1996; and anticipates 
receiving $8.4 million in fiscal year 1997 for Mobility Enhancement 
projects.
    Some of the specific Marine Corps enhancement projects for fiscal 
year 1995/96, and those anticipated for fiscal year 1997, are listed 
below:
                       fiscal year 1995 (all o&m)
    Rail Transportability Upgrades at Camp Lejeune, NC and Camp 
Pendleton, CA.
                       fiscal year 1996 (all o&m)
    Railroad Trestle Repairs and Staging Area Upgrades at Camp Lejeune, 
NC.
    Multi-Level Loading Ramps at Marine Corps Logistics Base, Albany, 
GA.

                     FISCAL YEAR 1997 (ANTICIPATED)
                                  O&M
    Staging Area Repairs and Loading Ramps at Camp Lejeune, NC, and 
Camp Pendleton, CA.
    Loading Ramp Repairs at Marine Corps Logistics Base, Albany, GA.
    Railroad Repairs at Camp Lejeune, NC.
    Staging and Container Stuffing Area Repairs at Marine Corps 
Logistics Bases Albany, GA and Barstow, CA.
    Marshalling Area improvements at Cherry Point, NC and Barstow, CA.

                              PROCUREMENT
    Purchase of Commercial Super-Stackers and Adjustable Height Loading 
Ramps for I MEF, II MEF, and III MEF.
    Purchase of Commercial Container Handlers for Okinawa, Japan.
    Air Force Answer. Enhancements include repair and maintenance on 
runways, taxiways, aircraft parking areas and air freight handling 
equipment and facilities. The Air Force has also used these funds for 
airfield lighting, marshalling area and other aerial port improvements. 
The enhancements are made at key air mobility bases with aircraft and/
or facilities both in the CONUS and overseas en route infrastructure 
that serve DoD customers' strategic mobility requirements. Special 
emphasis has been given to the en route bases for the planned fiscal 
year 1997 enhancements such as Hickam, Hawaii; Elmendorf, Alaska; Osan, 
Korea; Ramstein, Germany; and more.
    Question. Are there shortfalls in this area in fiscal year 1998?
    Army Answer. There is an Army shortfall in Materiel and Container 
Handling Equipment (M/CHE) at Table of Distribution and Allowances 
Power Projection Platforms (i.e. Ammunition Depots). Because M/CHE in 
this category is unresourced, it qualifies as a Mobility Enhancement 
Funds candidate. This shortfall affects the outloading capability at 
some installations where infrastructure improvements have already been 
made. In the past, these requirements have not been funded because they 
did not compete favorably with higher priority Army unit requirements. 
If unresolved, this shortfall could adversely affect ammunition depot 
outload capability during a contingency. The Army requires Other 
Procurement funds to begin the procurement of installation M/CHE.
    Navy Answer. According to TRANSCOM, fiscal year 1998 Mobility 
Enhancement Fund (MEF) solicitations will not begin until the fall of 
1997, so identifying shortfalls for this funding is premature. Criteria 
for project nominations have not yet been formulated. Navy is satisfied 
with the TRANSCOM selection process and their sensitivity to the Navy's 
priorities in past years.
    Marine Corps Answer. The Marine Corps anticipates continued 
shortfalls in the areas of infrastructure improvement, to include 
railroad loading, marshaling staging, and container stuffing for fiscal 
year 1998.
    Air Force Answer. The specific requirements for enhancement funds 
for fiscal year 1998 will not be submitted by our Major Commands 
(MAJCOMs) until the fall of 1997. However, as in previous years, we 
anticipate having more projects than money. For fiscal year 1997, 
United States Transportation Command received over 300 project requests 
totaling $285 million. After screening our MAJCOM inputs, the Air 
Force's submission was 35 projects at $31 million--13 projects at $12 
million were selected and will be accomplished as funding becomes 
available. The weighted average age of DoD facilities is 44 years and 
transportation facilities are increasingly experiencing ``geriatric'' 
problems as the recapitalization burden grows. These funds help lessen 
the impact on the future--deferred bills that become due at higher 
costs.
    Question. What is the appropriate mix of procurement and operation 
and maintenance funds needed to successfully implement these 
enhancements?
    Army Answer. To ensure we are able to procure required M/CHE, we 
would like to see a quarter to a third of Mobility Enhancement Funds 
(MEF) as Other Procurement funds. MEF is appropriated annually. As 
these funds are usually made available during March-April and must be 
obligated by 30 September, the current level of funding ($40-$50 
million) is a manageable level of funding to expend in six months.
    Navy Answer. Fiscal year was the first year that Transcom used the 
MEF funding line to finance procurement of equipment. Prior to that, 
MEF funding could only be spent on O&M projects like minor construction 
and repair/renovation projects. TRASCOM considered all projects 
submitted by the Services and funded them based on merit rather than on 
a funding formula. The resulting fiscal year 1997 MEF mix was 
approximately 80% O&M and 20% procurement, and Navy was satisfied with 
this arrangement.
    Marine Corps Answer. From a Marine Corps perspective, the current 
mix of projects in appropriate for continuing to implement these 
enhancements.
    Air Force Answer. So far the vast majority of the funding has been 
for operations and maintenance with a portion set aside for 
procurement. Project selection is a continuous process and priorities 
will vary from year to year. We need flexibility in applying funds to 
improve and fine tune the Defense Transportation System and in turn our 
strategic mobility capability to project power. Conventional wisdom is 
\1/4\ to \1/5\ in procurement and the rest in operations and 
maintenance. The initial mix in fiscal year 1997 of $40 million for 
operations and maintenance and $10 million for procurement is a good 
proportions formula for future funding.

                  Cold Weather Equipment and Clothing

    Question. The Committee added funds to the Army and Marine Corps 
operations and maintenance accounts in both fiscal year 1996 and 1997. 
In fiscal year 1996, $16 million was added, and in fiscal year 1997, 
$62 million was added. Describe for the Committee the results of 
additional funding. How much of the equipment that has been funded in 
the last two years has actually been fielded?
    Army Answer. In fiscal year 1996, the Army accelerated procurement 
of the Second Generation Extreme Cold Weather Clothing System and 
completed fielding to Korea. In fiscal year 1997, the Committee added 
funding for items such as cold weather clothing, bivouac gear, sleeping 
bags, and other gear to improve the comfort of deployed soldiers. 
Actions are currently underway to procure the following types of cold 
weather gear: the Modular Sleeping Bag System and bivy cover, Mounted 
Crewman Cold Weather Glove, and the Intermediate Cold Web Boot. Other 
items are also being procured, such as improved rainsuits, improved 
mechanics coveralls, lightweight balaclavas, small unit showers, neck 
gaiters, ambidextrous shoulder harnesses and holsters, and improved 
Personnel Armor System-Ground Troops (body armor) helmet suspension 
systems.
    All of the items funded in fiscal year 1996 have been procured and 
fielded. Fiscal year 1997 funds are currently being executed, and we do 
not have final figures on the amount fielded.
    Marine Corps Answer. The additional fiscal year 1996 funding has 
been used to procure approximately 40 thousand sets of 2nd Generation 
Gore-Tex Extended Cold Weather Clothing Systems (ECWCS), which cost 
approximately $10 million. The remaining $6 million was used to procure 
over 50 thousand Gore-Tex Bivy Sacks. Of these items, approximately 9 
thousand ECWCS parkas and trousers and all of the Bivy Sacks have been 
delivered to the fleet marine force (FMF).
    The additional fiscal year 1997 funding of $62 million was shared 
between the Marine Corps ($27 million), both active and reserve forces, 
and the Army ($35 million). Of the Marine Corps portion, $25.5 million 
was for Extended Cold Weather Clothing Systems; of this amount $18.5 
million will be used to procure over 73 thousand additional ECWCS for 
the Marine Active and Reserve Forces. $5.2 million was used to procure 
approximately 44 thousand Gore-Tex Bivy sacks, and $1.8 million was 
used to procure 72 thousand Lightweight Cold Weather Underwear Systems 
(LCWUS). To date, over 18 thousand Bivy Sacks and 10 thousands LCWUS 
have been delivered to the FMF. The fiscal year 1997 contract for ECWS 
will not be awarded until the May/June time frame and as such no 
deliveries have been received.
    Question. Have you completed all planned acquisition of such 
equipment?
    Army Answer. The Army will complete the planned acquisition of the 
Second Generation Extreme Cold Weather Clothing System and the Mounted 
Crewman Cold Weather Glove in fiscal year 1997.
    Marine Corps Answer. The additional funding was used to procure 2nd 
Generation Gore-Tex Extended Cold Weather Clothing Systems (ECWS), 
Gore-Tex Bivy Sacks, and Lightweight Cold Weather Underwear Systems 
(LCWUS). We will complete acquisition of the Bivy Sack and the LCWUS in 
fiscal year 1997, and the 2nd Generation Extended Cold Weather Clothing 
System (ECWCS) in fiscal year 1998.
    Question. What level of funding has been included in the fiscal 
year 1998 for this type of equipment?
    Army Answer. Fiscal year 1998 funding for the full spectrum of 
soldier modernization items (Central Funding and Fielding, Soldier 
Enhancement Program) is approximately $42 million. This includes 
procurement of Advanced Combat Vehicle Crewman helmets (ballistic 
protection), personnel individual cooling systems, close quarters 
battle slings (slings to carry weapons), anti-reflective devices, low 
profile flotation collars, and emergency breathing devices (for 
pilots), in addition to cold weather gear. Planned procurement and 
subsequent fielding of inclement and cold weather items include the 
Modular Sleeping Bag System and bivy cover, improved rainsuits, and 
fighting position overhead covers, among others.
    Marine Corps Answer. Fiscal year 1998 O&MMC Budget Request for Cold 
Weather Equipment: 2nd Generation ECWCS--$6.0 million--23,648 items. 
Fiscal year 1998 O&MMCR Budget Request for Cold Weather Equipment: 2nd 
Generation ECWCS--$2.8 million--10,876 items.

                   Tactical Wheeled Vehicles (Trucks)

    Question. The Services, especially the Army and Marine Corps, 
depend on tactical vehicles to transport troops and equipment.
    What is the condition of your tactical wheeled vehicle fleet? Which 
vehicles are in the worst condition?
    Army Answer. The Army's tactical wheeled vehicle fleet meets 
minimum operational readiness standards but suffers from both 
technological obsolescence and old age. The heavy trucks (Palletized 
Load System, Heavy Equipment Transporter, and Heavy Expanded Mobility 
Tactical Truck) are in the best condition, followed by the light fleet 
(High Mobility Multipurpose Wheeled Vehicle). The medium trucks (2.5-
ton and 5-ton) are in the worst condition. The average age of Army 2.5-
ton trucks exceeds 25 years. The average of the 5-ton fleet is somewhat 
lower, but this fleet still includes some pre-Vietnam era vehicles.
    Marine Corps Answer. Marine Corps tactical truck fleets are 
operationally ready and effective, but are beginning to show evidence 
of readiness degradation due to their ages.
    The Medium Tactical Truck Fleet (5-ton) and the Light Tactical 
Truck Fleet (HMMWV) are experiencing the greatest age degradations. 
These fleets are approaching the end of their service lives, and thus 
are becoming the most expensive to maintain. The Marine Corps has 
budgeted remanufacture or replacement programs for these vehicles.
    The P-19A Crash Fire Rescue fleet is also displaying signs of 
availability degradation. This degradation has become evident in 
quarterly readiness ratings. The Marine Corps has the Crash Fire Rescue 
vehicles under inspect and repair only as necessary (IROAN) status in 
fiscal year 1997 and has fully funded the Crash Fire Rescue fleet 
rebuild effort beginning in fiscal year 1998.
    Air Force Answer. Because of the cost of tactical vehicles compared 
with commercial vehicles, the Air Force uses tactical vehicles only 
where the mission dictates their use. For example, tactical 
communications units which operate in the field in close proximity to 
the Army, and are provided parts support by the Army, use tactical 
vehicles. The condition of the tactical vehicle fleet mirrors that of 
the commercial vehicle fleet: over aged and worn out. The fiscal year 
1998 budget shortfall is $56.7 million. Worst among the tactical 
vehicles are the High Mobility Multi-Purpose Wheeled Vehicle (HMMWV) 
($21.0 million) and the Family of Medium Tactical Vehicles (FMTV) 
($20.0 million).
    Question. Do you have sufficient quantities of tactical vehicles? 
If not, what are your shortfalls?
    Army Answer. The Army has shortfalls in various models throughout 
the tactical truck fleet. We are short approximately 20,000 High 
Mobility Multipurpose Wheeled Vehicles. The current contract for the 
Family of Medium Tactical Vehicles, which will replace the aging and 
maintenance-intensive 2.5-ton and 5-ton fleets, buys 10,800 trucks 
against a requirement of 85,400. The heavy fleet is short 1,434 
Palletized Load Systems (PLS), 45,567 PLS Flatracks, 1,622 Heavy 
Expanded Mobility Tactical Trucks (HEMTT), 853 HEMTT Wreckers, 769 
HEMTT Tankers, and 1,054 Heavy Equipment Transporters.
    Marine Corps Answer. The Marine Corps has sufficient quantities of 
tactical vehicles with the exception of the High Mobility Multi-Purpose 
Wheeled Vehicle (HMMWV) armored ambulances and the Logistics Vehicle 
System (LVS). The following table represents our shortfalls in the 
Procurement Marine Corps account:

------------------------------------------------------------------------
                                                     Dollars in millions
                  Item                    Quantity  --------------------
                                                      Unit cost   Total
------------------------------------------------------------------------
Armored Ambulance HMMWVs...............         224       $.107    $24.0
LVS Components.........................  ..........  ..........  .......
MK-48 front power units................         104        .172     17.9
Cargo Container Hauler MK-14 rear body          176        .073     12.8
 units.................................
Wrecker/Recovery MK-15 reach body units           2        .205      0.4
Fifth Wheel Trailer MK-16 rear body             160        .089     14.2
 units.................................
Cargo/Troop Transporter MK-17 rear body           9        .135      1.2
 units.................................
Ribbon Bridge/Container Transporter MK-          20        .116      2.3
 18 rear body units....................
                                                                --------
    Total..............................  ..........  ..........     72.8
------------------------------------------------------------------------

    These items are not financed in the fiscal year 1998/1999 
President's Budget, but the requirements for these items will be 
reviewed during development of the next Program Objectives Memorandum/
budget. The current estimate of the unfunded requirement is $72.8 
million.
    Air Force Answer. No. Shortfalls are significant. In addition to 
447 High Mobility Multi-Purpose Wheeled Vehicles ($21.0 million) and 
133 Family of Medium Tactical Vehicles ($20.0 million), the budget 
shortfall is comprised of 172 M-35 2\1/2\ ton cargo trucks ($8.1 
million), 170 tactical transporters/dollies ($1.7 million), 69 tank 
trucks and trailers ($1.9 million), six wreckers ($1.4 million), and 
106 miscellaneous tactical trucks and trailers ($2.6 million).
    Question. Are you experiencing near-term readiness problems as a 
result of the quantity or quality of your tactical vehicle fleet? 
Please explain.
    Army Answer. While it is not a particular near-term readiness 
problem, the age of some fleets is driving up their operation and 
sustainment costs. For example, the average age of the 2.5-ton fleet is 
27.5-28 years, and the age of the 5-ton fleet is 17 years. In addition, 
the replacement vehicles--the Family of Medium Tactical Vehicles--will 
be fielded over a period of 30 years. There also is a shortage Army-
wide of about 9,000 High Mobility Multipurpose Wheeled Vehicles and 
some of those first issued are reaching the point where they should be 
refurbished. In summary, while not a near-term readiness problem, the 
age of our tactical wheeled vehicle fleet, without replacement systems 
or depot refurbishment programs, has the potential for long-term 
readiness impacts.
    Marine Corps Answer. The Marine Cors is experiencing near-term 
readiness problems in the High Mobility Multi-Purpose Wheeled Vehicle 
(HMMWV) fleet due to corrosion. We have initiated studies to determine 
the overall impact on the HMMWV fleet readiness and the extent of 
maintenance costs related to the corrosion.
    The P-19A Crash Fire Rescue fleet is also displaying signs of 
availability degradation. This degradation has become evident in 
quarterly readiness ratings. The Marine Corps has the Crash Fire Rescue 
vehicles under inspect and repair only as necessary (IROAN) status in 
fiscal year 1997 and has fully funded the Crash Fire Rescue Fleet 
rebuild effort beginning in fiscal year 1998.
    Air Force Answer. Yes. SORTS (Status of Resources and Training 
System) is a monthly reporting system which indicates unit readiness. 
Air Combat Command Tactical Air Control Squadrons, Combat Communication 
Units, and Air Support Operations Squadrons are reporting degraded 
readiness caused by shortages and condition of assigned tactical 
vehicles. The Air National Guard reports that they will soon have to 
resort to cannibalizing from some of their trucks to keep the remainder 
of their fleet running.
    Question. Do you anticipate long-term readiness problems as a 
result of the quantity or quality of your tactical vehicle fleet? 
Please explain.
    Army Answer. Long-term readiness is affected by both quantity and 
quality of the fleet. The older the fleet becomes, the more maintenance 
downtime it experiences, and trucks that are down for maintenance are 
not operationally ready. We have several initiatives underway to 
address potential long-term readiness problems. First, we are 
aggressively pursuing an accelerated truck retirement program to wash 
out the oldest and most maintenance-intensive vehicles from the fleet. 
Second, we are acquiring state-of-the-art automotive technology with 
the Palletized Load System, Heavy Equipment Transporter, and Family of 
Medium Tactical Vehicles. Third, we are remanufacturing selected 
vehicles, most notably 2.5-ton trucks, through Extended Service 
Programs that will provide interim modernization for lower priority 
units until the new vehicles are fully fielded throughout the force. 
The Army expects that with the three initiatives mentioned above, long-
term readiness will not become a problem.
    Marine Corps Answer. The Marine Corps does not anticipate a long-
term readiness problem as a result of the quality of our tactical 
vehicle fleet. The Highly Mobile Multi-purpose Wheeled Vehicle (HMMWV) 
fleet corrosion problems, which are under study, will be corrected in 
the Light Tactical Vehicle Replacement (LTVR) program. The P-19A Crash 
Fire Rescue fleet of vehicles, which are displaying signs of 
availability degradation, are under inspect and repair only as 
necessary (IROAN) status in fiscal year 1997. The Marine Corps and has 
fully funded the Crash Fire Rescue fleet rebuild effort beginning in 
fiscal year 1998.
    Air Force Answer. Yes. The near-term readiness problems we are 
experiencing will only get worse without adequate investment 
expenditures to fill shortages and to replace worn out, over aged 
trucks that continue to deteriorate every year.
    Question. Department of Defense (DoD) is requesting $1.6 billion 
fro the procurement of ammunition. Last year, the Congress provided 
$1.7 billion for ammunition. Does the fiscal year 1998 budget request 
adequately fund your ammunition requirements? If not, what are the 
shortfalls?
    Army Answer. The fiscal year 1998 ammunition budget represents the 
best balance of readiness and sustainability consistent with available 
resources and Army priorities. There are, however, some shortfalls; 
they are listed below.

------------------------------------------------------------------------
                                   Shortfall
              Item                    (in             Requirement
                                   millions)
------------------------------------------------------------------------
120mm Tank, TP-T...............         $9.8   Training Item.
120mm Tank, TPCSDS-T...........         12.8   Training Item.
Hydra Rkt, MPSM Prac...........         36.2   Training Item.
120mm Mortar, HE/MO............          9.0   War Reserve.
Fuze Arty, Elec time, M767.....         20     War Reserve.
CTG 5.56mm Blank, M200 Lk......          2.4   Training Item.
CTG 7.62mm Ball, M80 Lk........           .5   Training Item.
CTG 50 Cal Ball, M9 Lk.........           .07  Training Item.
CTG 50 Cal 4/1 Ball/Trc........           .05  Training Item.
Simulator Antitank, M27........           .5   Training Item.
Selec Lighwgt Attk Muni........         10.0   War Reserve.
155mm HE, Ext Rg, M795.........         55     War Reserve.
------------------------------------------------------------------------


    Navy Answer. The Navy's ammunition requirements are adequately 
funded in the fiscal year 1998 budget request under the appropriation 
``Procurement of Ammunition Navy and Marine Corps'' (PANMC).
    Marine Corps Answer. The fiscal year 1996 ammunition requirements 
study significantly lowered Marine Corps War Reserve requirements. This 
has allowed the Marine Corps to shift assets that had previously been 
earmarked for War Reserve to training. The fiscal year 1998 President's 
Budget adequately funds the Marine Corps ammunition requirement. The 
budget funds the annual training requirement and meets the combat 
requirement in the program years. It reflects an acceptable balance 
between ammunition requirements and other high priority Marine Corps 
requirements. Nonetheless, some ammunition shortfalls do exist. These 
can be caused by adjustments in geographical positioning, production 
delays, new training items and changes in training requirements, or 
when large quantities of ammunition are relegated to an unserviceable 
condition code. At this time the Marine Corps has identified the 
following shortfalls:
    a. Ctg, 40mm practice Linked M918 (DODIC B584) will be at 16% of 
the Approved Acquisition Objective (AAO) at the end of the fiscal year 
1998 Funded Delivery Period (FDP).
    b. Charge, Demolition Assembly M183 (DODIC M757) will be at 33% of 
the AAO by the end of the fiscal year 1998 FDP.
    c. Ctg, 5.56mm Training Rounds M200 (DODIC A080) will be at 42% of 
the AAO at the end of the fiscal year 1998 FDP.
    d. Ctg, 5.56mm Training Rounds M200 Lined (DODIC A075) will be at 
32% of the AAO at the end of the fiscal year 1998 FDP.
    Air Force Answer. The Air Force must still use significant numbers 
of general purpose munitions as we continue to upgrade our inventory. 
The Air Force currently has enough total munitions to fight 2-MRCs, 
however the inventory contains many older, less effective munitions 
that unnecessarily expose our pilots to enemy defenses.
    --Currently working to modernize Precision Guided Munitions (PGM) 
inventories--balanced with procurement of effective inventoried weapons
    --JDAM, JASSM, WCMD, SFW P3I, JSOW are backbone of future weapons
    --Production of CALCM, SFW, AGM-130, GBU-28/27/24, Hard Target 
Smart Fuze, and AGM-65H Maverick enhance both near-term and long-term 
combat capability
    Air Force fiscal year 1998 munitions programs which we were unable 
to support due to budget limitations include:
    --CALCM and GBU-28 have been identified on the Air Force 
prioritized unfunded listing
    --AGM-65H Maverick, AGM-130, GBU-27, and GBU-24 have also been 
identified as requirements which we have been unable to fund due to 
budget limitations

                          Training Ammunition

    Question. What is the annual consumption of training ammunition for 
your Service? Is training ammunition adequately funded? If not, what is 
the shortfall?
    Army Answer. The Army's annual cost for consumption of ammunition 
in training is approximately $900 million. the fiscal year 1998 
adequately funds training ammunition at 95 percent of the Army's 
training requirement when supplemented with a modest use of war reserve 
assets. Ninety-five percent of the Army's training requirement is the 
minimum required to maintain a C-1 level of readiness. Fiscal Year 1998 
shortfalls to bring the training ammunition requirement to 100 percent 
include an additional $22.5 million in tank training ammunition and $36 
million in 2.75 inch Hydra-70 training rockets.
    Navy Answer. Annual consumption of training ammunition varies 
widely between each munition. There is no set percentage of inventory 
or funding applicable to the entire appropriation. However, overall 
Navy needs for training ammunition are adequately funded in the fiscal 
year 1998 budget request.
    Marine Corps Answer. The current Class V (W) training requirement 
was developed by the Marine Corps Combat Development Center and 
contains over 230 ammunition items, including ground missiles. This 
requirement is valued in excess of $289 million in fiscal year 1996 
dollars. The 1998 President's Budget for Marine Corps ammunition 
procurement adequately funds the training ammunition requirement.
    The fiscal year 1996 ammunition requirements study significantly 
lowered Marine Corps War Reserve requirements. This has allowed the 
Marine Corps to shift assets that had previously been earmarked for War 
Reserve to training. The fiscal year 1998 President's Budget adequately 
funds the Marine Corps ammunition requirement. The budget funds the 
annual training requirement and meets the combat requirement in the 
program years. it reflects an acceptable balance between ammunition 
requirements and other high priority Marine Corps requirements. 
Nonetheless, some ammunition shortfalls do exist. These can be caused 
by adjustments in geographical positioning, production delays, new 
training items and changes in training requirements, or when large 
quantities of ammunition are relegated to an unserviceable condition 
code. At this time the Marine Corps has identified the following 
shortfalls:
    a. Ctg, 40 mm practice Linked M918 (DODIC B584) will be at 16% of 
the Approved Acquisition Objective (AAO) at the end of the FY98 Funded 
Delivery Period (FDP).
    b. Charge, Demolition Assembly M183 (DODIC M757) will be at 33% of 
the AAO by the end of the fiscal year 1998 FDP.
    c. Ctg, 5.56mm Training Rounds M200 (DODIC A080) will be at 42% of 
the AAO at the end of the fiscal year 1998 FDP.
    d. Ctg, 5.56mm Training Rounds M200 Linked (DODIC A075) will be at 
32% of the AAO at the end of the fiscal year FDP.
    Air Force Answer. Representative training munitions annual 
consumption include: Practice bombs (700,000), Inert Mk 82's (35,000), 
Live Mk 82's (3,400), GBU-24's (170).
    No. But we are able to maintain tiered readiness by balancing our 
training expenditure while preserving/maintaining WRM stockpiles
    --Currently rationing/limiting training on LGBs, numerous practice 
munitions, and flares
    Fiscal year 1998 training munitions shortfalls include:
    --$6-10 million for pratice Mk-82s, flares, 30mm TP, 2.75'' rockets
    --WRM shortfalls of GBU-24/27/28, AGM-130, AGM-65D/G limit aircrew 
training with modern PGMs

                         War Reserve Ammunition

    Question. Are you using war reserve ammunition for training 
purposes? If so, why? Are you using excess war reserve ammunition for 
training? Please explain. What impact does the use of war reserve 
ammunition for training have on near term readiness? Long-term 
readiness?
    Army Answer. The Army has, since the end of the Cold War, used 
excess war reserve ammunition to support training for applicable items. 
The Army sees this as a wise use of these resources. This policy 
ensures training readiness goals are achieved and excess assets 
utilized. However, the availability of these assets (drawdown varies by 
item) is nearing an end. In the near-term, further drawdown of war 
reserve assets to support training would support Army readiness, but at 
the expense of warfighting sustainability. In the long-term, as assets 
are completely depleted, both training readiness and warfighting 
sustainability will suffer.
    Navy Answer. Most programs are training from war reserves. Per OSD 
guidance, ammunition is procured to combat expenditure and shipfill 
requirements only. Training, testing, and maintenance are not generally 
funded above those requirements. Instead, we train down from our combat 
inventory then restore to the required levels with new procurement.
    There is little useful excess war reserve left and it is not 
accounted for in annual training requirements.
    In general, training usage from war reserve does not significantly 
affect either near term or long term readiness.
    Marine Corps Answer. Normally, War Reserve (WR) ammunition is not 
used to satisfy training requirements and in the case of an ammunition 
shortfall, either a substitute ammunition is used, or training is 
limited through an Available Supply Rate process. Only in isolated 
situations where the training is of such a high priority that a case-
by-case decision is made to support limited training with the WR item.
    The fiscal year 1996 requirements study significantly lowered 
Marine Corps ammunition war reserve requirements. This has allowed the 
Marine Corps to shift assets that had previously been earmarked for war 
reserve to training. These former war reserve rounds are not excess as 
they support training. This usage of former war reserve items supports 
near-term readiness. When these assets are exhausted, procurement 
levels will be increased to support long-term readiness.
    The Marine Corps usage of war reserve ammunition to meet training 
requirements only impacts short term readiness because of the 
infrequent nature of the policy and the WR ammunition is replaced as 
soon as possible.
    Air Force Answer. Yes. The Air Force must use WRM for training.
    --The use of WRM for test/training also maintains our confidence in 
the capability of the stockpile, identifies hardware or training 
problems before they impact our combat capability, and hones our 
employment tactics.
    --The limited inventories and lack of procurement of current 
preferred PGMs (GBU-24/2/28, AGM-130, AGM-65, CALCM, etc.) require the 
Air Force to use rationed/limited quantities for testing and training.
    --Future PGMs in procurement (JDAM, JASSM, JSOW) have a programmed 
training expenditure calculated as part of the procurement requirement.
    --Air-to-air missile WRM stocks are also utilized for testing and 
training.
    Yes. The Air Force uses some nonpreferred WRM for training. 
However, there are no excess modern munitions in Air Force inventory.
    --At a certain point, this practice provides negative training due 
to the age/lack of capability of the weapons.
    In both near and long-term readiness we are walking the fine line--
attempting to maintain proficient aircrews who will have the necessary 
munitions inventories to employ in combat if necessary.
    Given the current inventories and budget climate, the limited use 
of WRM for training is a necessity for the foreseeable future.
    --Without training expenditures, aircrew proficiency and combat 
effectiveness is degraded.
    --With training expenditures, required critical PGM and air-to-air 
missile inventories are decreased.

                     Ammunition Funding Shortfalls

    Question. Does your budget provide adequate funding for preferred, 
modern munitions? If not, for the record, please provide which 
munitions are not adequately funded in the fiscal year 1998 request.
    Army Answer. The budget requests funding for five preferred modern 
items for fiscal year 1998. These items are: 25mm M919; 120mm Mortar, 
HE/MO; 120mm Tank, M829A2; 155mm Sense and Destroy Armor; and Wide Area 
Munitions. As identified in the answer to a previous question, three 
preferred modern items are identified as shortfalls. These items are:

------------------------------------------------------------------------
                                      Shortfall
                Item                     (in            Requirement
                                      millions)
------------------------------------------------------------------------
120mm Mortar, HE/MO................         $9.0  War Reserve.
155mm HE, Ext Rg, M795.............         55.0  War Reserve.
Selec Lighwgt Attk Mun.............         10.0  War Reserve.
------------------------------------------------------------------------


    Navy Answer. Within prioritized budget constraints, the fiscal year 
1998 budget request provides adequate funding for preferred modern 
munitions.
    Marine Corps Answer. The Marine Corps ammunition study established 
the War Reserve Requirement for Preferred Munitions only. The Marine 
corps ammunition budget is developed to meet this requirement of 
Preferred Munitions. Older munitions are drawn down as substitutes for 
training where applicable. This process ensures Preferred Munitions are 
available for combat while making efficient use of current assets for 
training. The fiscal year 1998 President's Budget for Marine Corps 
ammunition procurement meets the combat requirement for Marine Corps 
preferred, modern munitions, in the program years.
    Air Force Answer. Programmed long term PGM (JASSM, JDAM, JSOW) 
procurement is adequate, however, shortfalls in current PGMs will 
continue to limit combat and training options well into the next 
century.
    --CALCM and GBU-28 have been identified on the Air Force 
prioritized unfunded listing
    --AGM-65H Maverick, AGM-130, GBU-27, and GBU-24 have also been 
identified as requirements which we have been unable to fund due to 
budget limitations
    The introduction of modern PGMs leverage our combat capability and 
has permitted past Air Force force structure reductions.

           Readiness Shortfall for Ballistic Missile Defense

    Question. 27 Americans died in a Scud missile attack which the 
radars on Navy ships could see. Unfortunately, the Navy was powerless 
to act to intercept the SCUD since its ships have no anti-ballistic 
missile weapons capability. Congress has frequently urged the 
Administration to accelerate sea-based tactical ballistic missile 
defense, but the Administration has been slow to act.
    Admiral Gehman, would you say the Navy has a readiness problem when 
it comes to sea-based tactical ballistic missile defense?
    Navy Answer. No. Readiness is determined by assessing an existing 
warfighting capability. The Navy has no warfighting capability to 
defend against Theater Ballistic Missiles today. That is why we are 
committed to developing and deploying this much needed capability as 
soon as possible. Once developed and fielded Fleet Commanders will 
ensure that our ships are ready in all respects to employ the 
capability.
    Question. The Navy's current plan is to outfit only 2 Aegis ships 
using BMDO funding to demonstrate sea based tactical ballistic missile 
defense capability. Admiral Gehman, under the Administration's current 
plan, when is the earliest that the Navy plans to field sea-based 
tactical ballistic missile defense in a production configuration?
    Navy Answer. The option that provides the Navy the most rapid 
development of this capability is via backfit. Under the current Navy 
plan the first ships to receive Area Theater Ballistic Missile Defense 
capability, other than the User Operational Evaluation System (UOES) 
demonstration ships noted above, will be two Aegis cruisers in fiscal 
year 2000. Additional cruisers will be backfit in fiscal year 2002 and 
fiscal year 2003. The first DDG-51 classdestroyer will be backfit in 
fiscal year 2003 with additional ships scheduled in fiscal year 2004 
and out. Under the current plan, ships appropriated in fiscal year 2002 
will receive the first forward fit configuration, in production/
construction. By the Secretary of the Navy and the Chief of Naval 
Operations direction, Navy is reviewing acceleration options that could 
nearly double the number of ships provided this capability (from 15 to 
29) by fiscal year 2003.
    Question. The Committee is disturbed that the Administration's 
budget asks the Congress to endorse a 12 ship DDG-51 multi-year 
production contract under which not a single ship would be delivered 
with either ship self-defense or tactical ballistic missile defense 
equipment. We are talking about delivering ships with holes where the 
equipment should go. How does this plan improve Navy's readiness?
    Navy Answer. The 12 ships in the DG multiyear will be delivered 
with the most effective ship self defense systems in the fleet. 10 of 
the 12 ships will have the upgrade SPY-1D(V) with it's enhanced 
littoral warfare capabilities for ship self defense. Navy 
considerations associated with balancing ship Construction, Navy funds 
for the entire Department and executing a fully funded DDG-51 class 
ship procurement plan moved the introduction of Cooperative Engagement 
Capability (CEC), and Theater Ballistic Missile Defense (TBMD) 
capability in a forward fit configuration, out of the fiscal year 1998 
through 2001 DDG 51 Multi-Year Procurement (MYP). These 12 ships will 
be built with the combat systems and computer software configuration 
base to allow rapid introduction of these capabilities as funds become 
available for procurement and installation of CEC and TBMD. CEC is a 
synergistic enhancement to total Carrier Battle Group (CVBG) or 
Amphibious Readiness Group (ARG) self defense, including those ships, 
in company with Aegis ships, whose self defense systems are not as 
advanced. In this manner CEC leverages the superior defense capability 
of Aegis ships enhancing the entire battlegroup's defense. CEC, as a 
means of advanced cueing, will also enhance TBMD for ships operating in 
a group.
    Question. The Navy has not budgeted for a new construction DDG-51 
ship with these capabilities until the year 2002. Such ships could not 
be delivered until 2005-2006. Explain how waiting another decade to 
deliver anti-ship missile and theater ballister missile defense 
capabilities contributes at all to Navy readiness.
    Navy Answer. As stated previously, the Navy is not waiting to 
deliver enhanced anti-ship missile capability and Theater ballistic 
missile defense (TBMD) capability, but has an integrated back fit plan 
and is reviewing acceleration options that deliver these much needed 
capabilities to the fleet as the technology becomes available, at the 
beginning of the next century.
    Question. Is the Navy serious about sea-based theater ballistic 
missile defense?
    Navy Answer. The Navy is very serious about developing and 
delivering a sea-based theater ballistic missile defense capability to 
the Fleet. In that regard, significant progress has been achieved over 
the past year. On 24 January 1997 at the White Sands Missile Range, the 
Navy conducted the first ever intercept of a TBM target with a modified 
SM-2 Block IV missile. Subsequently, at a Milestone II DAB on 22 
February 1997, OSD approved the Navy AREA TBMD program to proceed to 
Engineering, Manufacturing and Development. In addition, our efforts in 
working with BMDO and OSD to elevate the funding and priority of the 
Navy Theater Wide (NTW) program within the DoD Ballistic Missile 
Defense architecture are beginning to pay off. This past December Dr. 
Kaminski designated NTW as a core BMDO program and, in support, in 
January 1997 Navy added over $200 million to the Navy Theater Wide 
program across the FYDP. Most importantly, in October 1996, CNO and 
SECNAV directed their staffs to conduct a comprehensive review of Navy 
TBMD programs and report back with a plan to accelerate delivery of 
this capability to the Fleet. The review is nearing completion and will 
be briefed to CNO and SECNAV in the near-future. All of these actions 
confirm Navy commitment to delivering this capability to the Fleet.

               Readiness Shortfall for Ship Self-Defense

    Question. 32 sailors died in an Iraqi anti-ship cruise missile 
attack on the USS Stark almost ten years ago. Admiral Gehman, how much 
better off are Navy ships today than the Stark was ten years ago, in 
terms of readiness to defend themselves against anti-ship cruise 
missile attack?
    Navy Answer. Of the twenty-eight active service FFG 7 class ships, 
eighteen have been equipped with Radar Cross Section reduction 
materials (Outlaw Bandit), seventeen have been equipped with active 
electronic countermeasures equipment (AN/SLQ-32 (V)5), and sixteen are 
scheduled to receive the Rapid Anti-ship Integrated Defense System 
(RAIDS) beginning in FY97 as ship availabilities permit. RAIDS, the 
precursor to the Ship Self Defense System, completed operational test 
and evaluation in October 1996 for the FFH-7 class. These improvements 
have all been developed and installed since the Stark incident and 
significantly improve the ships ability to defend themselves against 
anti-ship cruise missile attacks. Other ship classes have received or 
are planned to receive enhanced ship self defense capabilities such as 
the Ship Self Defense System (SSDS), Nulka Active Offboard Decoy, 
rolling Airframe Missile or Evolved Sea Sparrow Missile Systems, 
enhanced sensors and radar cross section reduction modifications.
    Question. What equipment from the Navy's ship self-defense system 
(SSDS) program has been installed on Navy ships since the Committee 
first brought this problem to the Navy's attention in 1992?
    Navy Answer. Since 1992, the Ship Self Defense System (SSDS) has 
been installed aboard USS Ashland for operational testing. Upon 
successful completion of these tests, additional units will be 
installed as planned aboard LSD class ships. Currently three additional 
LSD ship sets have been procured; two will be installed in fiscal year 
1997 and one in fiscal year 1998. Additionally, one SCN system for LSD-
52 was procured in fiscal year 1997 as a direct result of a 
Congressional plus-up. The program still plans to install SSDS on all 
LSD 41, CV/CVN, LPD 17 and LHD classes.
    Question. How many foreign countries possess French-built EXOCET 
antiship cruise missiles?
    Navy Answer. 34 foreign countries (including France) possess some 
version of the EXOCET antiship cruise missile (see Table 1). Of these 
countries, 27 possess a ship-launched version and 16 possess an air-
launched version of the EXOCET (some countries possess both). Only 
France currently possesses the submarine-launched EXOCET. ------.
    Question. How hard would it be to add ``stealth'' treatments to 
such missiles to make them nearly invisible to radars, including those 
on any Navy ship?
    Navy Answer. ------. Other treatments, such as smoothing and the 
addition of Radar Absorbent Material to primary scatters would cause a 
slight degradation of aerodynamic performance in terms of reduced range 
and speed, but would help decrease RCS; again, primarily in the frontal 
sector. ------.
    Question. The Administration's 1998 budget zeros all production 
funds for both cooperative engagement and ship self defense systems. 
How does this contribute to the Navy's readiness to defend its ships 
against anti-ship cruise missile attack?
    Navy Answer. The CEC and ship self defense systems were not 
terminated in the fiscal year 1998-2003 program. In the case of SDS, 
procurement and installation of 2 ship and 2 shore based support 
systems were rescheduled to match later maintenance availabilities. CEC 
funding is awaiting completion of operational test and evaluation. Navy 
ships have numerous existing self defense systems that provide defense 
against anti-ship cruise missiles.
    Question. Tell the committee what classes of ships are no longer 
planned to get any ship self defense equipment installations under the 
Administration's outyear budget plan. Explain how this action 
contributes to the readiness of those ships to defend themselves from 
attack. What percentage of the ships for which the Navy now advocates 
no ship self defense equipment installation funding in its budget and 
outyear plan directly support Marine Corps combat operations?
    Navy Answer. All ships that sail into harm's way have some level of 
defense with the exception of military sea lift ships with civilian 
crews. Planned upgrades to those defensive systems are based on 
projected operating environments and threat levels. Ship defense must 
be looked at beyond what each has installed to the wider context of 
contributions made by strike ashore, combat air patrol, area AAW ships, 
along with individual ship self defense systems. The Ship Self Defense 
Capstone Study, dated February 1996, identified self defense 
requirements based on expected threat levels. In order to meet littoral 
threats, ships will be outfitted with ship self defense systems or will 
be escorted to ensure full protection against projected threats.
    Question. Is the Navy serious about ship self defense?
    Navy Answer. Yes. The protection of our sailors and marines along 
with the assurance of mission success has always been the Navy's top 
priority.

                Readiness Against Terrorist Patrol Boats

    Question. The Navy has been spending funds for at least five years 
to develop an improvement to the Phalanx gun on Navy ships. The 
gattling gun was designed for ``last ditch'' defense against cruise-
missiles but with relatively minor modification can provide significant 
capability against terrorist patrol boats like the ones Iran uses. 
Admiral Gehman, please describe the Navy's requirement for the so-
called ``CIWS Surface Mode'' upgrade to the Phalanx gattling gun on 
Navy ships.
    Navy Answer. Post cold war maritime operational concepts have been 
developed and concentrate in coastal or ``littoral'' areas. US Navy and 
Coast Guard operations around Haiti and Cuba are well documented 
examples of this type of maritime operation. These littoral operations 
require a defense against small, high speed, very maneuverable surface 
threats and low, slow air threats that are expected. The requirement 
initially centered on an Advanced Minor Caliber Gun System (AMCGS) for 
the US Navy. The Navy conducted an extensive COEA as well as additional 
follow-on analysis, testing, and detailed review. Based on the results 
of these efforts, the AMCGS requirements was planned to be best 
operationally and financially satisfied by implementing the CIWS 
Surface Mode.
    Question. Is the requirement any less urgent today than it was five 
years ago?
    Navy Answer. The Navy remains committed to providing ships a 
defense against this threat. The requirement is as valid today as it 
was five years ago.
    Question. How many Navy ships have the CIWS gun on them?
    Navy Answer. There are 210 Navy ships that have the CIWS gun 
installed on them.
    Question. Do you have combat ships that do not have CIWS guns?
    Navy Answer. There are no active surface combatants without CIWS 
guns.
    Question. Given the urgency of the threat, the number of Navy ships 
that use CIWS guns for close-in defense, and successful development of 
a gun improvement--why has the Navy canceled all R&D and production 
funds in the 1998 budget for the CIWS surface mode?
    Navy Answer. The CIWS Surface Mode Improvement is scheduled to 
complete development and testing in fiscal year 1997. No further 
development funds are required for the program. Production funds were 
zeroed in favor of funding higher priority programs.
    Question. Does the Navy have a readiness problem in terms of 
protecting its ships from terrorist patrol boat attacks?
    Navy Answer. We believe that the Navy still needs help protecting 
its ships from terrorist patrol boat attacks--to that end, we will 
complete the operational testing this year and receive fleet comments 
before we commit to full scale production.
    Question. What do fleet CINCs say about the desirability of 
improving CIWS guns on Navy ships to defend against surface targets 
(terrorist patrol boats)?
    Navy Answer. In 1992 the CNO went to the fleet Commanders In Chief 
to confirm their position on using the CIWS Surface Mode to implement 
the Advanced Minor Caliber Gun System requirement. He reported that 
both CINCLANTFLT and CINCPACFLT stated their strong support for this 
approach. In an August 1993 letter from ASN (RNA) to The Honorable 
James M. Talent of the House of Representatives, CINC support and 
endorsement was also stated.
    Question. If an AEGIS Destroyer or Marine Corps LSD ship were close 
to shore and suddenly attacked by a terrorist patrol boat--lets say 
within 2 miles of our ship--What exactly would the Captain of the ship 
do to protect his ship?
    Navy Answer. The Captain has a variety of actions he can take 
depending on the situation and rules of engagement. Some of them may 
include the use of air cover from either fixed wing or armed 
helicopters. He may opt to employ his already manned self defense 
positions including 50 caliber machine gun emplacements, 25 mm chain 
guns, or a 5" 54 main deck gun in the case of the destroyer, and a 
variety of smaller weapons. Maneuvering to place the patrol boat in 
position to be taken by Standard Missile could also be a tactic used by 
the Captain. He would want to maneuver his ship to maximize his 
potential firepower on target and take full advantage of environmental 
conditions.
    Question. Is the Navy serious about defending its ships from 
terrorist patrol boat attack?
    Navy Answer. Yes. The Navy still needs to protect its ships from 
terrorist patrol boat attacks--to that end, we will complete the CIWS 
Surface Mode operational testing this year and receive fleet comments 
before we commit to full scale production.

                   Cooperative Engagement Capability

    Question. The Nation has spent over $1.2 billion to develop the 
cooperative engagement system for the Navy during the last 10 years. 
The system allows ships to see a target (aircraft, cruise missile, 
ballistic missile), even if the ship under attack cannot see it at all, 
and allows the ship with the best shot to kill the target. Former 
Secretary of Defense Perry called cooperative engagement ``the most 
significant technological development since stealth.'' Any system which 
has cooperative engagement equipment by definition will have improved 
readiness to defend itself and other important U.S. assets.
    Admiral Gehman, please describe the technical performance of the 
cooperative engagement system and its important to the Navy.
    Navy Answer. Navy views CEC as a top priority and is committed to 
its implementation in both surface ships and aircraft. In every at sea 
test or exercise, CEC has consistently demonstrated major warfighting 
improvements and earned increasing Fleet support. A CEC-equipped unit 
in a CEC Battle Group can process and share target data almost 
instantaneously and place a defending missile in flight before a low 
flying cruise missile crosses the attacked ship's radar horizon. In 
actual firing exercises, CEC units demonstrated that they can nearly 
double the effective engagement range of self-defense missiles. CEC 
testing has consistently demonstrated that despite jamming or other 
environmental factors that disrupted individual sensors' tracks, CEC 
was able to maintain a coherent track throughout the target flight. No 
other known existing military system possesses CEC's demonstrated 
operational performance and warfighting potential in the areas of 
composite tracking and cooperative engagement.
    Question. Former Secretary of Defense Perry ordered that the 
cooperative engagement program be accelerated. No sooner did he walk 
out the door, than the Navy took all the 1998 production funds for 
cooperative engagement and used them for other purposes. Why is the 
Navy not eager to follow former Secretary Perry's direction to 
accelerate the program?
    Navy Answer. The Navy views CEC as a top priority and is committed 
to its implementation in both surface ships and aircraft. In 
Congressional testimony before the House Appropriations National 
Security Subcommittee the CNO stated that the removal of the fiscal 
year 1998 CEC ``Other Procurement, Navy'' funds was a budget 
affordability decision that he would revisit. Navy has subsequently 
included these funds as its #1 ``Other Procurement, Navy'' priority on 
the priority list which the Chairman of the Authorization Committees 
requested. Currently CEC systems are being procured and installed to 
complete a second battlegroup with RDT&E funds to support OPEVAL in 
fiscal year 1998. By fiscal year 2003 Navy will have installed CEC in 
60 ships and aircraft.
    Question. Describe how fielding cooperative engagement is necessary 
for the Navy to perform tactical ballistic missile defense mission.
    Navy Answer. The Navy Operational Requirements Document (ORD) for 
Theater Ballistic Missile Defense (TBMD) does not include CEC as 
essential for TBMD operations. In the future, Navy envisions that CEC 
could dramatically enhance the ability of TBMD-capable ships to 
accomplish the TBMD mission.
    Question. General Moorman, the Air Force has been slow to get 
involved in this program since it started a decade ago. How much 
funding is the Air Force's 1998 budget to participate in the 
cooperative engagement program? How much funding is in the Air Force's 
future years defense plan for cooperative engagement?
    Air Force Answer. There are no funds in the Air Force budget in 
fiscal year 1998 or the out years associated with integration of a 
Cooperative Engagement Capability (CEC) into the Airborne Warning and 
Control System (AWACS).
    The Air Force submitted its plan to Congress on December 5, 1995 
outlining a three part plan for investigating Cooperative Engagement 
Capability (CEC), given appropriate funding. This ``Three Part Plan'' 
included participation in the Navy-sponsored Mountain Top exercise, 
Modeling and Simulation, and Proof-of-Concept efforts to integrate 
hardware and software onto the Airborne Warning and Control System 
(AWACS) test aircraft (TS-3) and labs.
    The fiscal year 1996 Appropriation Act included an $11 million 
plus-up to the Navy CEC program element for the study of CEC on AWACS. 
This money was provided to the Air Force to fund the initial portions 
of the three part plan which included Mountain Top participation/
analysis, initial modeling and simulation activities and top level 
system engineering activities. The initial studies are designed to 
determine the potential benefits of various levels of CEC integration 
on AWACS. For example, AWACS participated in the Navy sponsored 
Mountain Top exercise and demonstrated that AWACS could cue the CEC 
network using the Joint Tactical Information Distribution System 
(JTIDS). Using the JTIDS capability already being fielded on AWACS may 
provide a low-cost and effective means to inject AWACS surveillance 
data into the CEC fire-control network. This approach, as well as other 
options, are being evaluated by the studies described above.
    The results of the initial studies are due out late this year. Once 
the study results are available, the Air Force will make follow-on 
investment decisions.
    Question. General Griffith, could you answer the same questions for 
the Army?
    Army Answer. The Army is analyzing the current design of the 
Cooperative Engagement Capability (CEC) to meet Army requirements for 
air defense artillery systems (Patriot, Theater High Altitude Air 
Defense, and Medium Extended Air Defense System). The ongoing Army CEC 
assessment is projected to be completed by the end of fiscal year 1997. 
The Ballistic Missile Defense Organization is sponsoring a multi-
service Joint Composite Tracking Network Study which is looking at the 
use of a CEC-based system for real-time weapon engagement support. 
Results of this study are also not expected until the end of fiscal 
year 1997. The Army will decide on its appropriate level of funding for 
CEC or CEC-like technologies after we have analyzed the results from 
these two studies.
    Question. What is the JCS perspective concerning the desirability 
of all the services to use the Navy's cooperative engagement system?
    Army Answer. I have asked the Joint staff to respond to your 
question, and they have provided the following: The Joint Staff is 
continuously working to better integrate our forces across all areas. 
The Navy's Cooperative Engagement System is one capability that seems 
to have great applicability to joint warfighting. The Services along 
with Joint Staff are conducting a number of studies to determine the 
feasibility and effectiveness of Cooperative Engagement Capability. The 
recently completed Joint Staff Sensor to Shooter Study assessed the 
value of joint integrated links and communications paths on weapons 
performance and effectiveness. Cooperative Engagement was one of five 
areas assessed.
    The Sensor to Shooter study results indicate that Cooperative 
Engagement Capability will improve weapons performance, and bring the 
services closer to achieving the goals of Joint Vision 2010. 
Cooperative Engagement Capability has a major impact on extending the 
range of first engagement; increasing shot opportunities; and, overall 
campaign effectiveness. At a minimum, the study recommends that 
Cooperative Engagement Capability be fully integrated into all current 
and future fire control quality weapon/radar systems. Additionally it 
identifies the need for an airborne over-the-horizon relay capability 
to extended area of coverage and sensor netting. It must be noted that 
due to the narrow focus in the area of Cooperative Engagement 
Capability, the study did not fully assess the value of air 
surveillance radar data across the entire spectrum of theater air 
defense. However, studies conducted by the Navy and Ballistic Missile 
Defense Office show that air surveillance radar data incorporated in 
the Cooperative Engagement Capability provides major improvements 
across the entire theater air defense arena.
    There are two additional issues that need resolution prior to 
proceeding with any joint implementation decisions. The first issue is 
frequency spectrum availability. The Federal Communications Commission 
is selling 50MHz of frequency availability to commercial interests, 
which is within the Cooperative Engagement Capability operating 
frequency band. The Navy is currently assessing the impact of this sale 
on Cooperative Engagement Capability, and by letter, has informed 
Congress of its concerns. The second issue is the completion of two 
Congressionally directed studies that address the feasibility and 
effectiveness of integrating Cooperative Engagement Capability on 
Airborne Warning and Control System aircraft (Air Force) and the 
Patriot air defense system (Army). Both studies are scheduled for 
completion in August 1997. The results of these on going studies must 
be reviewed prior to making an informed decision on joint 
implementation.

        Research and Development (R&D) and Readiness Priorities

    Question. The Navy's budget and outyear plan proposes growth in the 
categories of ``basic research'' and ``R&D management support,'' while 
eliminating installation funds for many items that have successfully 
completed development and which are high priorities for warfighting 
CINCs (for example: cooperative engagement, ship self-defense systems, 
improved guns for Navy ships). The priorities in the Navy's budget are 
questionable to the Committee. Admiral Gehman, do you really think 
funding for ``basic research'' and ``R&D management support'' is more 
important than installation of warfighting equipment on Navy ships?
    Navy Answer. Basic research and research, development, test and 
evaluation (RDT&E) management support have a role to play supporting 
naval forces. Efforts here help provide the technology edge, focused on 
high-leverage capabilities to ensure technological superiority. 
Tomorrow must start today for all military forces that have an eye 
focused on the operational capabilities required for Coalition Warfare 
in the next millennium.
    In attempting to strike a balance between today's needs and 
tomorrow's, the budget cannot completely meet all priorities. The final 
product is by necessity a compromise.
    Question. How does increased funding for basic research and R&D 
management support contribute to readiness?
    Navy Answer. Increased funding in the areas of basic research and 
R&D management support is important to Navy's long term readiness. 
Looking to the future, the Navy is planning to modernize and 
recapitalize its weapons systems and equipment. As we continue forward, 
we do so with limited resources and the understanding that we must 
proceed cautiously--studying our proposed actions before we take them. 
We must be totally confident that the investments we make are for those 
programs that will ensure continuing operational primacy. By conducting 
increased research and providing additional funding for installations 
required for general research and development, it will provide better 
insight for selecting our future systems and equipment as well as 
maintain the infrastructure necessary to support Navy's R&D efforts.
    Question. The Navy's budget advises us to increase funds for long-
term basic research programs and kill funding for installation of 
needed equipment. Does your budget reflect the Navy's real priorities 
or are you doing what you are told by the OSD science & technology 
community?
    Navy Answer. The Navy's Fiscal Year 1998 budget request for long-
term basic research reflects both specific Navy priorities as well as 
direction from OSD in the Fiscal Year 1998-2003 Defense Planning 
Guidance (DPG). Both the Navy and the OSD science & technology 
community had input into the development of the Science & Technology 
(S&T) section of the DPG. DPG language reflects decisions made by the 
Secretary of Defense.
    The Fiscal Year 1998-2003 DPG direction for basic research (6.1 
efforts) was that the Services ``at a minimum, preserve basic research 
(6.1) at Fiscal Years 1997-2001 President's Budget FYDP levels.''
    Question. The Committee is told that outlays in the 1998 
President's budget are higher than forecast by the Administration. If 
true, this will force the Congress to make large reductions to the 
Department of Defense (DoD) research and Development (R&D) budgets in 
order to meet outlay targets. Would each of you please comment: How 
important is basic research funding to the warfighting Commanders-in-
Chief (CINCs)?
    Army Answer. Basic research is important in shaping the forces the 
Army by providing the technological building blocks that will allow us 
to address imperatives emerging from future warfighting concepts. For 
example, basic research in the early 1980's in the areas of energetic 
materials, penetration mechanics, and the mechanics of composites, led 
to the development of the M829A1 tank main gun round for the M1 tank, 
known as the ``Silver Bullet.'' The effectiveness of the M829A1 was one 
of the factors in the overmatching capability displayed by the M1 in 
Desert Storm. The Army, as a full spectrum land warfighting force, 
depends on technology to meet the multitude of mission requirements the 
current political environment presents. The dependence on technology is 
increasing as the Army evolves toward smaller, lighter, and more lethal 
forces that must accomplish the ever-increasing variety of missions 
that the Army faces. In order to maintain overmatching capability, the 
Army needs stable investment in basic research that is the breeding 
ground for the technological discoveries and advancements on which the 
Army relies.
    Navy Answer. Basic research has a role to play supporting naval 
forces and this is recognized by the warfighting CINCs. Basic research 
helps provide Navy men and women the technology edges, the high-
leverage capabilities, critical to ensuring technological superiority 
and decisive success in battle with minimum losses. Technology must be 
made to work for us, as well helping to reduce the cost of ownership.
    However, the primary job of the warfighting CINCs is to train and 
operate ready military forces today and in the near years. The ultimate 
products of basic research, the technologies that will come after the 
next generation of platforms and systems, tend to fall outside of the 
timespans under focus by the warfighting CINCs. As such, CINC 
integrated priority lists do not stress Basic Research.
    Marine Corps Answer. This question should be directed to the 
Warfighting CINCs in order to obtain the most accurate and direct 
answer.
    None of the CINCs specifically list Basic Research as an 
overarching requirement among their Integrated Priority List (IPL) 
submissions. They do make numerous references within the IPLs that show 
a concern for the need to recapitalize and modernize the force by 
pursuing development of next generation weapons, communications, 
strategic and tactical systems. The Warfighting CINCs place an emphasis 
on developmental research that will ensure that we maintain a 
technological edge over current and emerging threats.
    Examples of IPL responses that represent CINC RDT&E concerns 
include:
    ``. . . Imperative to support exploratory and advanced technology 
development . . .''
    ``. . . Need to leverage technological/engineering upgrades . . .''
    ``. . . Development of evolving capabilities . . .''
    ``. . . Require upgrades and improvements . . .''
    ``. . . special consideration should be given to added outyear 
funding for Advanced Concept Technology Demonstrations (ACTDs) that 
show significant promise in developing solutions to warfighting 
requirements . . .''
    The above quotes are representative of CINC support for identifying 
and developing technologies that have potential to deliver new systems 
and capabilities needed to maintain our technological edge. The 
Warfighting CINCs seem clear in placing their emphasis on developing 
promising technologies into deliverable systems that will increase 
their warfighting effectiveness.
    Air Force Answer. Basic research funding is very important to the 
warfighting CINC. A strong and effective basic research program enables 
the Air Force to preserve our technological edge and ensures that the 
latest technological advances are included in new weapon systems. 
CINCs, however, are charged with ensuring our forces are ready to fight 
today. Consequently, they focus on readiness, quality-of-life, and 
near-term modernization efforts. The Science & Technology (S&T) 
community uses an established process to solicit feedback from CINCs on 
their needs and priorities. All CINCs are invited to participate in the 
DoD S&T corporate planning process through active participation in 
ongoing Technology Area Reviews and Assessments (TARAs). In addition, 
OSD (A&T)/DDR&E has established a network of CINC Science Advisors to 
keep the CINCs informed of S&T matters. This allows CINCs to play a 
role in basic research funding even though they may not devote much 
time to it.
    Because both long-term and short-term development are important, we 
must be cautious in reducing the R&D budget to meet outlay targets. 
Higher outlay rates can be caused by a number of factors. The Air Force 
has placed an increased emphasis on improving our expenditure rates. We 
believe we're succeeding, which results in higher outlay rates. It also 
means we're executing programs better, which in the long term results 
in lower program costs. Acquisition reform also contributes to better 
overall execution. Cutting the R&D budget due to higher outlay rates 
would penalize the Air Force for improving program execution.
    Question. Do any of them include it on their integrated priority 
lists?
    Army Answer. No. The product of basic research, of developing 
scientific knowledge to provide breakthrough capabilities, is, by its 
inherent nature, not immediately evident to CINCs. Nevertheless, basic 
research provides the fundamental scientific underpinnings to advance 
the state-of-the-art. As an example, consider the power requirements of 
the future soldier system. As the applications of electronics-based 
subsystems for the soldier have grown, the power demands have grown as 
well and will continue to grow. To meet this growth in power demands, 
the Army is currently investing in basic research addressing the 
fundamental technologies that support batteries, fuel cells, and other 
compact sources.
    Air Force Answer. No.
    None of the CINCs specifically request the Air Force increase basic 
research. In addition, the integrated priority lists and associated 
documentation do not imply any increase in basic research is required 
to meet the other requirements listed.
    Question. Is basic research more important to your Service than 
near-term technology development or production/installation of 
equipment?
    Army Answer. Basic research and development must be balanced with 
near-term technology development and production within our overall 
modernization strategy.
    Marine Corps Answer. The Marine Corps' overall RDT&E budget, which 
constitutes less than 1 percent of the entire DOD RDT&E budget, has 
remained close to its historic level of funding of approximately $250 
million. Near term technology development is important to the immediate 
needs of the Marine Corps while basic research provides the long term 
source of our technology advantage needed to propel the Marine Corps 
into the 21st century and beyond. To fully implement Operational 
Maneuver From the Sea, we must continue to pursue our immediate near 
term technology development needs required to field new equipment. 
Critical modernization initiatives (e.g., MTVR, Javelin, LTWT 155, and 
Network Infrastructure) are funded in the FYDP, as well as continuing 
RDT&E for the Advanced Amphibious Assault Vehicle (AAAV).
    Our warfighting laboratory, which experiments in new warfighting 
initiatives, will ensure relevance of the Marine Corps in the next 
century and will help bridge the gap between today's and the day after 
tomorrow's capabilities. Both short term and long term RDT&E are 
critical to the Marine Corps' future and must be scrutinized carefully 
to ensure we have sufficient RDT&E resources to focus on long term, 
revolutionary capabilities.
    Because the Marine Corps' RDT&E budget is small, any reduction in 
RDT&E funding would be damaging. Given the realization of Operational 
Maneuver From the Sea with the fielding of the AAAV and the V-22 
Osprey, it is imperative that we, at a minimum, maintain current levels 
of RDT&E funding.
    Air Force Answer. Basic research is not more important than near-
term technology development or production/installation of equipment. 
Our overall Air Force budget reflects a careful attempt to maintain a 
balance between sustaining operational readiness over the near term, 
and modernizing our force to meet the threat of the future. Likewise, 
within the modernization accounts, we must balance between R&D 
activities and the production, fielding, and/or modification of 
equipment. Taking it one step further to within the RDT&E 
appropriation, we maintain a balance between current weapons systems 
development, which will payoff in the next few years (near-term), and 
basic research, which will incorporate new technology development into 
our weapon systems of the future (far-term). All are important or we 
risk compromising our future ability to fight. We can not eliminate one 
and keep the others. We need to maintain a balance.
    Question. If we had to cut R&D, would you rather we take it from 
near-term or far-term programs, i.e. weapons development or basic 
research?
    Army Answer. Recognizing that resources are scarce, and assuming we 
may be cut in Research and Development (R&D), it is important that we 
strike a balance between ``near-term'' and ``far-term'' programs. The 
Army's new modernization strategy stresses greater investment in the 
Service's technology base and insertion of low risk and high payoff 
technologies into field combat systems. We will need to expand 
investment in upgrade programs designed to keep fielded systems in 
service longer than expected. The R&D program in fiscal year 1998 is 
focused on supporting affordable options to achieve the capabilities 
envisioned for Force XXI, Army Vision 2010, and the Army After Next 
that emphasize demonstrations of promising technologies with warfighter 
applications. The Army continues to maintain a strong and able R&D 
program to ensure the timely development and transition of technology 
into weapon systems and system upgrades and to explore alternative 
concepts in future global, capabilities-based warfighting. It is 
imperative that we maintain the Army's technological advantage on the 
battlefield now and in the future. Our investments in research today 
are critical to ensuring that the technologies and capabilities will be 
available when needed to forge the Army After Next.
    Air Force Answer. There is no simple answer to this question. If we 
had to absorb a cut within the RDT&E appropriation, we would prefer the 
flexibility to balance it across the appropriation as we feel best. We 
consider the pursuit of both areas important in protecting our Nation. 
We would evaluate any cut against our needs and our priorities, taking 
into account our current and planned program efforts in order to arrive 
at a solution that best meets the needs of current and future 
warfighters.

             Logistics Civil Augmentation Program (LOGCAP)

    Question. Why has the cost of Logistics Civil Augmentation Program 
(LOGCAP) more then doubled on a per soldier basis?
    Army Answer. The Army Budget Office fiscal year 1997 estimates for 
LOGCAP and the follow-on contract did not increase from fiscal year 
1996 levels. The estimate of $386.9 million identified in the fiscal 
year 1997 Supplemental was revised downward by $146.9 million to $240 
million based on an improved mission definition.
    The fiscal year 1997 estimate covers 12 months of LOGCAP support 
compared to only 9 months of operation in fiscal year 1996. The costs 
for LOGCAP are driven by mission requirements, such as the number of 
base camps supported, so costs will not vary directly with the change 
in the number of personnel supported. The fiscal year 1997 estimate is 
based on our actual experience in fiscal year 1996 when 15 base camps 
were supported. The Implementation Force Operations remained at full 
strength at the 15 base camps throughout the 1st quarter of fiscal year 
1997 when phase-down to the Stabilization Force began, with attendant 
support at 11 base camps.
    For planning purposes, the original fiscal year 1997 projections 
included startup and demobilization costs for a new contract. This 
would have required more funding to award a contract to a new 
contractor with attendant startup costs for the new contractor and the 
demobilization costs for the outgoing contractor. This assumption drove 
the estimate up to $386.9 million. In February 1997, the Assistant 
Secretary of the Army (Research, Development and Acquisition) approved 
the continuation of the Brown & Root Service Corporation (BRSC) support 
of Operation Joint Guard under a separate contractual instrument, 
managed by the U.S. Army Corps of Engineers (USACE), separate from the 
new LOGCAP World Wide Indefinite Quantity contract managed by the U.S. 
Army Materiel Command. This contractual continuation will begin on May 
28, 1997, upon expiration of the existing USACE LOGCAP contractual 
instrument. The new BRSC contract contains tools for a more cost 
effective and effienct means of performing and managing the remaining 
effort in Operation Joint Guard, including demobilization. The improved 
mission statement and the defined contract requirements were critical 
elements in the reduction of the fiscal year 1997 cost estimate for 
LOGCAP in support of Operation Joint Guard from $386.9 million to $240 
million.

                     Patriot Battalion Redeployment

    Question. Will the redeployment of Patriot assets currently 
deployed in support of Southwest Asia reduce the funding required by 
the Army to support fiscal year 1997 contingency operations?
    Army Answer. U.S. Central Command is currently working an action to 
reduce the Patriot presence in Saudi Arabia by one battery. This action 
is being worked with the Kingdom of Saudi Arabia. Action on this 
decision would not take place until the end of the fiscal year; 
therefore, it will not impact contingency costs for fiscal year 1997.

                       Operating Tempo in Bosnia

    Question. Why have flying hours increased? Are there currently 
threats that warrant an increase in operating tempo (OPTEMPO)?
    Army Answer. The increase in flying hours is caused by a 
combination of several factors. the first is the transition between the 
Implementation Force and the Stabilization Force in Bosnia which 
reduced the number of vehicles in Multi-National Division-North and 
caused an increase in the use of aircraft for movement of personnel, 
supplies, and equipment. Also, the closure of numerous camps has caused 
a greater dispersion in troop concentrations and distances traveled. 
This has produced an increased demand for aircraft to transport 
personnel for mission requirements. Finally, the demand on our 
helicopters for intelligence gathering assets has increased.
    The direct threat has not significantly changed; however, key 
issues such as resettlements and the upcoming elections have increased 
mission demand and warrant the increase in OPTEMPO.
    Navy Answer. There are currently no new threats that warrant an 
increase in operating tempo in and around Bosnia. Flying hours 
increased in the supplemental budget request as a result of our 
extended presence in Bosnia. Navy's original flying hour projection 
reflected the period 01 October 1996 to 31 December 1996. Our revised 
estimate reflects the period 01 October 1996 to 30 September 1997.
    Marine Corps Answer. Marine Corps flying hours in Bosnia have 
remained relatively constant. While our March, 1997, flight hours show 
an increase due to Non-combatant Evacuation Operations in Albania 
(Operation Silver Wake), overall our FY97 flight hours have remained 
relatively constant at around 400-500 hours per month. While we had 
anticipated a decrease in overall flying hours as I-For transitioned to 
S-For, that has not yet occurred. This sustained level will shortly 
begin to impact our readiness unless the supplemental request is 
granted.
    In summary, our operating tempo in and around Bosnia has remained 
relatively constant and the supplemental request will permit that level 
of activity without impacting readiness.
    Air Force Answer. The programmed Bosnia supplemental flying hours 
were only loaded through December 1996 (the original conclusion date 
for our participation in Bosnia). Because our presence in Bosnia was 
extended, additional hours were required to account for flying activity 
for the remainder of the year.

                              Rescissions

    Question. The Administration's 1998 budget proposes to rescind $2.0 
billion of 1997 funds to pay for operations in Bosnia, and an 
additional $2.8 billion to meet arbitrary outlay targets.
    If Congress rescinds $2.0 billion of 1997 Department of Defense 
(DoD) modernization funds to finance operations in Bosnia, would that 
affect readiness?
    If the Congress rescinds $4.8 billion of 1997 DoD modernization 
funds to finance operations in Bosnia, would that affect readiness?
    Army Answer. The total impact of a rescission is difficult to 
assess. However, additional reductions would exacerbate current 
modernizations shortfalls and require the Army to reprioritize the 
funding of its programs. The benefits of the fiscal year 1997 
Congressional plus-up would be lost. This could impact critical 
aviation systems, ground combat systems, smart munitions and our 
overaged, high mileage truck fleet.
    Currently, the fiscal year 1998 budget funds our programs at a 
level that permits the Army to develop and procure the equipment with 
an acceptable amount of risk. Our modernization efforts enable our 
soldiers to remain the best in the world. The Army's challenge is to 
balance the limited resources available to finance requirements to 
support today's readiness while providing a sufficient proportion to 
research, test, develop, and procure systems that make the Army ready 
tomorrow.
    The Army is concerned with both current and future readiness. 
Balancing the near- and long-term elements of force readiness is key to 
ensuring full spectrum dominance.
    Navy Answer. There would definitely be a negative impact on 
readiness. The level of impact would depend on the source of funds 
selected to meet the requirement. If it becomes necessary to rescind 
funds budgeted for modernization, clearly, we would prefer lower 
priority programs.
    Again, there would be an adverse effect on readiness. To what 
degree would depend on the source of funds selected to meet the 
requirement. If it becomes necessary to rescind funds budgeted for 
modernization, clearly, we would prefer lower priority programs.
    Marine Corps Answer. Further decreases to our fiscal year 1997 
modernization accounts would most definitely affect future readiness. 
As a result of continued decreases in our topline, our investment 
accounts have been the billpayers to fund our highest priority near-
term readiness. Further reductions to our modernization funding would 
exacerbate this problem, forcing us to defer procurement of even more 
equipment which is critical to the future readiness of our Corps.
    Yes. Due to constrained toplines, our investment accounts have long 
been the billpayers to fund near-term readiness. The ``right level'' of 
funding for procurement of ground equipment to support our Marines is 
approximately $1-$1.2 billion per year. Fiscal year 1997 funding for 
the procurement of ground equipment is approximately half this amount, 
$712 million and the fiscal year 1998 funded level is $473 million--the 
lowest level since fiscal year 1972. Additional reductions to our 
ground equipment modernization account would force us to defer 
procurement of even readiness of our Corps.
    Air Force Answer. The high operations tempo of ongoing worldwide 
operations other than war continues to place a significant amount of 
stress upon Air Force people and equipment. This has resulted in the 
accelerated life cycle of our aircraft and support equipment beyond 
their original design. The Air Force budget has been developed with 
careful consideration given to balancing our current needs with respect 
to our people and readiness and the anticipated future demands of our 
mission in supporting the National Strategy. Though of little immediate 
impact to our current readiness any reduction in Air Force 
modernization funds will have far reaching implications in the out 
years, be significantly more expensive to recover from, and set a 
dangerous precedent for future administrations. However, failure to 
provide supplemental funding to support operations in Bosnia will have 
a significant impact on readiness beginning in May of this year, as 
outlined in General Fogleman's recent memorandum to Congress.
    Question. Do any of you believe that your service possesses a 
significant amount of 1997 modernization funds that are not necessary? 
So, what is your advice to use on what we should do with the 
Administration's request to rescind such a large amount of 1997 
Department of Defense (DoD) funds?
    Army Answer. We believe that the Army does not have excess fiscal 
year 1997 modernization funding. During the drawdown, the Army accepted 
risk in its modernization accounts in order to maintain near-term 
readiness, end strength, and quality of life. Ideally, the Army needs 
approximately $14-$16 billion annually for modernization to maintain 
current combat overmatch capability, recapitalize worn out equipment, 
and to maintain essential levels of research and development. Timely 
modernization is essential to ensure future readiness and to adequately 
equip the current and the future force. With the help of Congress, the 
Army plans to buy a limited number of new, high payoff weapons, and is 
working to extend (recapitalize) the lives and capabilities of many 
existing systems. The current modernization program is balanced within 
existing fiscal realities and an acceptable amount of risk. The dilemma 
that the Army faces is the perpetual risk associated with uncertain 
funding for unprogrammed requirements while sustaining a coherent 
modernization program, current operations, and readiness.
    Navy Answer. No. If modernization efforts were not believed 
necessary, they would not have been requested in the 1997 budget. 
Compounding the problem, the later the supplemental comes, the smaller 
a pool of money there is to take offsets. As mentioned in my remarks 
before the Committee, as the year goes later, and later, and later, the 
number of offset choices get smaller and smaller. Pretty soon the only 
offsets available are uncommitted operations and maintenance funds: 
flying hours and steaming days, deferring major depot maintenance 
availabilities, participating in non-JCS exercises, base operations & 
maintenance efforts, personnel accounts. Discretionary money just isn't 
out there any more.
    Marine Corps Answer. No, the Marine Corps does not possess any 
excess modernization funds. As a matter of fact, our FY 1997 funding 
for procurement of ground equipment to support our Marines is 
approximately half the ``historical average'' of $1-$1.2 billion that 
has been required in order to ensure a read, viable Marine Corps in the 
future.
    Question. The Administration's 1998 budget proposes to rescind $2.0 
billion of 1997 funds to pay for operations in Bosnia, and an 
additional $2.8 billion to meet arbitrary outlay targets.
    So, what is your advice to us on what we should do with the 
Administration's request to rescind such a large amount of 1997 DOD 
funds?
    Marine Corps Answer. Defer to the Administration.
    Air Force Answer. The Air Force Modernization Budget represents a 
balanced, prioritized, time phased approach to modernize our technology 
and equipment. Some of the administration's rescission proposal can 
indeed be accomplished without programmatic impact (inflation savings, 
changes in foreign currency estimates). However, we cannot generate a 
rescission level of this magnitude without programmatic impact. I would 
urge that in considering a rescission of this magnitude that you would 
allow the Department the maximum flexibility to determine how the 
reduction would be allocated. The Air Force would do all it can to 
protect its core modernization programs.

               Headquarters and Administrative Personnel

    Question. The Commander-in-Chief Atlantic Command has noted 
excessive growth in the number of DoD headquarter personnel. It is 
estimated that there are about 150,000 military within 50 miles of 
Washington, D.C.
    What measures are each of your Service's taking to reduce the 
number of administrative and headquarters personnel?
    Army Answer. The Department of the Army's portion of the fiscal 
year 1998 (FY98) President's budget reflects a reduction of 2,100 
manpower spaces in Headquarters, Department of the Army (i.e. 
departmental, staff support, and field operating agencies). The Army 
will continue to study the proper size, scope, and responsibilities of 
Headquarters, Department of the Army.
    Navy Answer. The Department of the Navy's headquarters and 
administrative personnel are not growing. The Department has been very 
aggressive in downsizing and reducing infrastructure. Ongoing efforts 
which continue to contribute to the reduction include:
    <bullet> Regionalization/BRAC
    <bullet> Acquisition reform
    <bullet> Re-engineering
    The Department continues through the FYDP to structure this 
workforce to meet the requirements of its downsizing force structure. 
Workforce size will be the minimum necessary to:
    <bullet> Ensure our Sailors and Marines are trained
    <bullet> Forces are able to meet continuing high pace of 
operational commitments
    Marine Corps Answer. The Marine Corps conducts ongoing surveys to 
ensure that the number of admin/headquarters personnel are sufficient 
only to perform the assigned work. While the demand for ever greater 
detail in staff work has grown substantially in recent years, we have 
not increased the number of personnel in the admin/headquarters 
categories. At the same time, we do not foresee any reductions in the 
immediate future.
    Air Force Answer. We have made downsizing, proper accountability, 
and controlling the size of our management headquarters and 
headquarters support activities one of our top priorities:
    --We have streamlined management structures of major commands and 
subordinate units; reorganized from 13 to 9 major commands; 
restructured Numbered Air Forces (NAFs) to an operational and 
warfighting role; and restructured Headquarters, United States Air 
Force.
    --Between fiscal year 1989 and fiscal year 1999, end strength for 
both the Air Force Management Headquarters Program and the total force 
has decreased approximately 33 percent.
    --We have imposed a no-overall growth policy--new or increased 
workloads must be funded within existing end strength ceiling 
constraints.
    Question. What savings are assumed in your fiscal year 1998 budget 
request for efficiencies?
    Army Answer. The Army has identified savings and efficiencies at 
Army and Major Command Headquarters totaling $72 million in fiscal year 
1998. These efficiencies were identified in the fiscal years 1998-2003 
Program Objective Memorandum and applied to the fiscal year 1998 
President's budget. They include downsizing the Army Personnel Command 
and Army Reserve Personnel Center by 10 percent as well as downsizing 
the Army Communications and Electronic Support Office by 10 percent. 
Other efficiencies include downsizing the Judge Advocate General School 
and the Army Model Improvement and Study Management Agency. The 
Chaplaincy Services Support Agency was absorbed into the Chief of 
Chaplains Office, which has also contributed to reducing headquarters 
personnel.
    Navy Answer. Personnel reductions for headquarters and 
administrative personnel in President's Budget reflect:
    <bullet> fiscal year 1997 to fiscal year 1998--3.5%
    <bullet> fiscal year 1998 to fiscal year 1999--3.9%
    Marine Corps Answer. There are no savings in our fiscal year 1998 
budget request specifically attributable to a reduction of 
administrative and headquarters personnel. The Marine Corps authorized 
end strength has been 174,000 active duty and 42,000 Reservists since 
1994. These same strengths are anticipated through the Future Years 
Defense Program. Any adjustments to the headquarters structure is 
realigned to the Fleet Marine Force.
    Air Force Answer. The total Air Force Management Headquarters 
Program has decreased by 213 positions between fiscal year 1997 and 
fiscal year 1998. This continues the Air Force drawdown which will 
result in a 41 percent reduction to management headquarters between 
fiscal year 1986 the ``high water mark'' for Air Force end strength, 
and fiscal year 1998.
    Question. What savings are assumed in each year of the current 
Future Years Defense Program for such efficiencies?
    Army Answer. We are currently reviewing the results of 
Headquarters, Department of the Army, Redesign, and anticipating the 
results of the Quadrennial Defense Review and other efficiencies. After 
the details of these efficiencies are fully known, we will be able to 
better estimate the total savings for fiscal year 1999-2003.
    Navy Answer. The Department of the Navy reduced headquarters and 
administrative personnel 29.8 percent from fiscal year 1989 through 
fiscal year 1999. The Department continues through the FYDP to 
structure this workforce to meet the requirements of its downsizing 
force structure. Workforce size will be the minimum necessary to:
    <bullet> Ensure our Sailors and Marines are trained
    <bullet> Forces are able to meet continuing high pace of 
operational commitments
    Marine Corps Answer. There are no savings in our FYDP specifically 
attributable to a reduction of administrative and headquarters 
personnel. The Marine Corps authorized end strength has been 174,000 
active duty and 42,000 Reservists since 1994. These same strengths are 
anticipated through the FYDP. Any adjustments to the headquarters 
structure is realigned to the Fleet Marine Force.
    Air Force Answer. Between fiscal year 1997 and fiscal year 2001, 
the Air Force Management Headquarters Program will be reduced by 
approximately 481 end strength.

        Fiscal Year:
1998..............................................................  -213
1999..............................................................  -403
2000..............................................................  -456
2001..............................................................  -481
2002..............................................................  -481

                             Privatization

    Question. In the current Future Years Defense Program, DoD 
estimates that $2.5 billion per year may be saved through the 
privatization of some functions now performed by DoD civilian and 
military personnel. Further, the Under Secretary of Defense for 
Industrial Affairs estimates that as much as $10-$15 billion per year 
could be saved through outsourcing. Please outline for the Committee 
your Service's privatization strategy. What functions do you intend to 
consider for outsourcing?
    Army Answer. The Army plans to perform cost competitions in 
accordance with OMB Circular A-76 of all non-medical commercial 
activities at all Army installations by fiscal year 2003, except where 
prohibited by law. (we will not compete those commercial activities--
such as firefighter and security guard servaices--that are protected 
from competition by law.) There are approximately 50,000 positions 
related to these activities. In the area of privatization, where we 
turn over government assets to private sector firms or non-federal 
governments, we have initiatives in the areas of family housing, 
utilities systems, and public-private ventures related to construction 
and operation of moral, welfare and recreation facilities.
    Navy Answer. We are embracing competition studies, along with other 
cost reduction measures such as instituting better business practices, 
community partnering, regionalization, and Smart Base, as means of 
generating savings for modernization of our aging force structure. We 
will be reviewing all of our support functions across our entire shore 
infrastructure to identify outscourcing competition candidates. We plan 
to initiate competition studies only on those functions that can be 
outsourced without having an adverse effect on readiness, e.g., we will 
not outsource functions needed for sea-shore rotation or critical 
training of military personnel.
    Air Force Answer. The Air Force overall goal in privatization is to 
optimize the use of public and private sector resources. We are 
currently focusing on three areas: family housing, dormitories, and 
utility systems. We have 10 active projects in the housing program. The 
Request for Proposal (RFP) for the lead project at Lackland Air Force 
Base, Texas was advertised on February 11, 1997. We are also studying 
the feasibility of dormitory privatization. Our long-term goal for 
utilities is to turn these functions over to private ownership, when 
there is no readiness impact and it makes economic sense. The Air Force 
intends to consider for outsourcing any function that is not military 
essential or inherently governmental.
    Question. What savings are assumed from privatization in the fiscal 
year 1998 budget request?
    Army Answer. The Army did not project savings in the fiscal year 
1998 budget request.
    Navy Answer. Our fiscal year 1998 budget request does not include 
any projected savings from outsourcing competitions.
    Marine Corps Answer. The Marine Corps is taking a measured approach 
to outsourcing and privatization. As the Marine Corps outsourcing and 
privatization effort is going to begin in fiscal year 1998, and A-76 
studies take a minimum of one year to complete, no savings are assumed 
for that fiscal year. The first year savings are projected is fiscal 
year 2000. Total savings due to outsourcing and privatization are 
expected to reach $102 million for ``Operation and Maintenance, Marine 
Corps'' and $8 million for Family Housing in fiscal year 2004.
    Air Force Answer. Currently, no fiscal year 1998 savings are 
assumed from privatization. However, for the Air Force Outsourcing 
program we have projected savings of $79.5 million for fiscal year 
1998.
    Question. What savings are assumed in the current Future Years 
Defense Program (FYDP)?
    Army Answer. The Army did not project savings in the FYDP.
    Navy Answer. Our FYDP assumes approximately $3B in savings from 
outsourcing competitions from fiscal year 2000-2003. No savings are 
reflected in fiscal years 1998 and 1999 to account for the lead time 
associated with conducting outsourcing competitions.
    Marine Corps Answer. The Marine Corps outsourcing and privatization 
effort is forecast to achieve $216 million in savings from fiscal year 
2000 through fiscal year 2003.
    Air Force Answer. Currently, no privatization savings are assumed 
in the current Future Years Defense Program. However, we have projected 
savings of $1.2 billion in the Air Force Outsourcing program across the 
FYDP.
    Question. What risks do you anticipate are associated with 
privatization? Are the current savings projections reasonable in your 
estimation?
    Army Answer. We have not taken savings for outsourcing and 
privatization out of any programs in our budget, nor have we predicted 
success of any of our programs on the use of these savings. Our primary 
risk resides in the use of funds to pay for the cost comparison 
studies--about $10 million per year. The risk is that these up-front 
costs will not recouped through savings. However, we are confident that 
these cost comparisons will yield substantially more savings than they 
cost.
    Navy Answer. We believe this to be an ambitious undertaking with 
some risk; however, we also believe that it is a necessary path that we 
must go down to ensure that we optimize our support functions and 
maximize the resources available for modernization. The risk falls into 
three areas-readiness, program execution, and savings projections. Each 
of these areas are discussed in the following paragraphs:
    1. Readiness. Risks to readiness from privatization are minimal. We 
have a long history of successfully outsourcing a wide variety of 
functions spanning the full spectrum of support provided across our 
shore infrastructure. We have not experienced any significant adverse 
effects on readiness in any of the functions we have outsourced. On 
occasion we have had some problems arise, but they have always proven 
to be short-term and correctable using the procurement tools at our 
disposal.
    2. Program Execution. Program execution presents us with a 
formidable challenge. The challenge derives not only from the scope and 
scale of the effort we have envisioned over the FYDP but also from the 
complexity of the process itself. The process is encumbered by 
complications deriving from OMB Circular A-76's requirements to conduct 
formal firm bid/offer cost comparisons as well the difficulties 
associated with developing large numbers of best value solicitations 
using the Federal Acquisition Regulations. We have taken several 
measures to reduce the risks associated with meeting this ambitious 
goal, including
    --establishing a new OPNAV division headed by a Rear Admiral and 
staffed with approximately 20 personnel to provide policy and monitor 
our program execution;
    --establishing an Outsourcing Support Office headed by a member of 
the Senior Executive Service and staffed by approximately 40 
acquisition and functional experts to provide our field with 
assistance;
    --awarding multiple indefinite delivery/indefinite quantity 
contracts to provide our field with technical consultants to support 
their efforts;
    --developing new tools and approaches to the A-76 process, 
including issuing a new handbook with a streamlined cost comparison 
timeline; and
    --working to develop partnerships with the affected employees and 
their unions to encourage their active participation in the process. We 
believe these measures, along with others we will be taking, will 
reduce the risks associated with meeting our ambitious goal to an 
acceptable level.
    3. Savings Projections. We believe that the savings projections in 
our FYDP should be achievable without significant risk. These 
projections derive from a recent series of studies performed by the 
Center for Naval Analyses, which reviewed our prior experience and 
identified the existing potential for outsourcing competitions in our 
inventory of commercial activities. CNA's savings projections were 
based on our extensive experience conducting over 900 outsourcing 
competitions in the 1980s. We found that the competitions typically 
yielded savings regardless of the outcome with either a more efficient 
in-house organization or a more cost effective contract. Our experience 
was consistent with the experience of the other Services and government 
agencies conducting competitions.
    Marine Corps Answer. The currently planned outsourcing and 
privatization effort is not risk free and there is no guarantee that 
the projected savings will be realized. However, these savings are 
based on analysis of historical data, so we are optimistic savings will 
be generated. These savings will be realized through either development 
of most efficient organizations or through competitive sourcing of base 
commercial activities.
    There will be grievances filed by labor at affected installations 
which will delay the effort and potentially add to the cost of 
implementation. There are potential issues which make outsourcing and 
privatization less lucrative than otherwise might be the case. The A-76 
process is expensive, time consuming, and may take longer than 
forecast. Outsourcing and privatization will require some in-house 
cultural changes. Commanders will not have the same type of control 
over processes that are competitively sourced as they have if the 
function remains in-house. Also, costs for recapitalization and 
maintenance cannot be deferred if competitively sourced. Commanders 
will lose some flexibility in managing their budgets. Some in-house 
costs for contracting and contract supervision will increase. Finally, 
contractors can fail.
    Air Force Answer. The risks we would anticipate are similar to 
those found in many of our existing Air Force/private partnerships. 
These are not obstacles to realizing our privatization goals. 
Currently, the Air Force will not enter a privatization deal unless it 
is shown to provide economic advantage. We believe the assumption of 
the $79.5 million projected savings for outsourcing for fiscal year 
1998 in our current budget request is reasonable.
    Question. What, if any, up front investments are required to begin 
your privatization strategy.
    Army Answer. We estimate that we will pay about $10 million per 
year to conduct cost comparison studies in accordance with OMB Circular 
A-76.
    Navy Answer. We currently plan on investing approximately $165 
million over the FYDP to execute our outsourcing strategy. The bulk of 
this funding will be used to procure technical support to assist our 
field activities in developing the performance work statements and 
management plans and in conducting the cost comparisons that constitute 
the outsourcing competition process.
    Marine Corps Answer. The Marine Corps has programmed $34.2 million 
in Operation and $2.8 million in Family Housing as up front investments 
to begin the outsourcing and privatization effort beginning in fiscal 
year 1998 and extending until fiscal year 2001, displayed by fiscal 
year as follows:

----------------------------------------------------------------------------------------------------------------
                                                                            Dollars in millions
                                                         -------------------------------------------------------
                                                           Fiscal year   Fiscal year   Fiscal year   Fiscal year
                                                              1998          1999          2000          2001
----------------------------------------------------------------------------------------------------------------
Operation and...........................................           5.7          11.4          11.4           5.7
Family Housing..........................................           0.0           0.8           1.0           1.0
----------------------------------------------------------------------------------------------------------------


    Air Force Answer. In family housing privatization, the Air Force 
may use Military Construction seed money, land, existing housing units, 
or other assets as our contribution to Air Force/private sector 
projects.

              Acquisition Reform and Inventory Reductions

    Question. An unreleased ``summer study'' prepared for the Defense 
Science Board estimated that the Department of Defense (DoD) could save 
as much as $30 billion per year by 2002 by revising the process used to 
operate the military logistics system. The savings stem, in part, from 
reduced purchases of supplies such as spare and repair parts needed to 
operate and maintain DoD equipment. What type of savings do you 
anticipate that your Service will see from acquisition reform? Manpower 
Reductions? Inventory Reductions?
    Army Answer. The Army anticipates several types of savings, 
including reduced time to acquire goods and services, increased 
competition through wider participation of vendors contracting with the 
Army, increased availability of commercial products, and actual dollar 
savings through increased efficiencies, reduced cycle times, and lower 
overhead costs. Since the drawdown begin in 1989, acquisition 
organizations considering additional efficiencies, but until decisions 
are made, we do not have any further savings estimates to provide. 
Within overall acquisition efficiencies, actions included the approval 
to transfer 186 (153 lieutenant colonels, 33 majors) Army Acquisition 
Corps (AAC) officers from the AAC back to their basic branches. 
Officers were to be identified by a combination of volunteers and 
selection boards. The first selection board was conducted in November 
1996, and from that board, 76 lieutenant colonels and 33 majors were 
identified for transfer (some of these were volunteers). In June 1997, 
volunteers will again be sought and a transfer board will be convened 
to identify 77 more lieutenant colonels for transfer back to their 
basic branches.
    The Army has programmed savings of $800.6 million for inventory 
reduction efficiencies in fiscal years 1998-2003. There are four 
inventory reduction initiatives (all numbers net of investments):
    a. Administrative/Production Lead Time. This initiative enables 
smaller inventories Army-wide by reducing contracting and manufacturing 
lead times, saving $278 million over fiscal year 1998-2003.
    b. Single Stock Fund. This initiative reduces costs by integrating 
retail and wholesale inventory management and financial accounting 
functions, savings $380 million over fiscal year 1998-2003.
    c. Standard Army Retail Supply System-Objective (SARSS-O). This 
initiative expedites fielding of SARSS-O to take advantage of its 
lateral redistirubtion capabilities, saving $75.1 million over fiscal 
year 1998-2003.
    d. Velocity Management. This initiative reduces inventories by 
delivering supplies faster and more accurately, saving $67.5 million 
over fiscal year 1998-2003.
    Navy Answer. Savings from acquisition reform are expected from a 
variety of sources. Principally, these are research & development, 
procurement and operations & support. For example, the F/A-18E/F 
aircraft program has achieved significant cost avoidance in research & 
development. The DDG-51 Program, through aggressive affordability 
initiatives, has realized procurement cost savings. As the functional 
replacement for 41 ships of four classes, the twelve ships of the LPD 
17 class are expected to reduce shipboard personnel by 60%. This 
reduction in personnel is expected to result in a smaller logistics 
infrastructure for areas such as training and base support. To address 
acquisition reform savings in our fielded systems, the Dual Use 
Application Program Commercial Operations and Support Savings 
Initiative seeks to apply commercial products and technology to these 
fielded systems to reduce their cost of ownership.
    Inventory reductions attributable to acquisition reform, cumulative 
fiscal year 1997-2003, are as follows: Inventory Control Point 
Initiatives (including price challenges, long term contracting, and 
logistics engineering change proposals): $114 million. Contractor 
Logistics Solutions (including outsourcing management of consumable 
items and direct vendor delivery): $135 million
    Total: $249 million.
    Marine Corps Answer. The Marine Corps is committed to incorporate, 
where appropriate, ``savings'' resulting from a myriad of efforts 
underneath the umbrella of Acquisition Reform. These ``savings'' are 
mostly in the form of cost avoidance as a result of using smarter 
business practices such as modeling and simulation, using Commerical-
Off-the-Shelf (COTS) Non-Developmental Items (NDI) technologies, 
integrating and involving contractor input in the design and 
development phases, as well as the use of contracting practices such as 
performance based specifications, multi-year procurement strategies, 
and cost as an independent variable. It is the Marines Corps' intent 
that through these practices, resources (to include, manpower, funding 
and technology) can be realigned within the structure of the Planning, 
Programming and Budgeting system to field an effective warfighting 
element within the financial constraints of the budget.
    Two examples of types of cost avoidance from specific program 
initiatives benefiting from acquisition reform follow below:
    (1.) The Predator Short Range Anti-Armor Weapon (SRAW) program took 
advantage of acquisition reform practices such as using proven 
technologies and NDI components and avoided nearly $12 million of 
additional, unbudgeted development cost, while also reducing the 
program's over all technical risk. Specifically, during the 
Demonstration and Validation phase of development, the Predator program 
incorporated risk reduction strategies, focusing on producibility, 
which resulted in reducting the overall number of parts in the tactical 
round from 1500+ to just under 300.
    (2.) The AN/TPS-59 (V)3 Long Range Surveillance Radar program, 
avoided over $8 million in additional, unbudgeted costs by streamlining 
the Milestone III documentation and program activity, and by close 
contractor participation and cooperation in the acquisition process. 
This close cooperation with the contractor resolved problems that would 
have rendered a traditional acquisition approach financially 
unexecutable.
    Air Force Answer. The changes in acquisition reform processes and 
their related cost reductions have enabled the Air Force to continue to 
modernize in spite of today's more stringent fiscal environment. The 
Air Force is using acquisition reform to partially fund a time-phased 
modernization plan that synchronizes the size and timing of multiple 
programs to fit in the available budget authority. The Air Force 
records ``acquisition reform savings'' in two categories. First, 
reductions from the approved baseline budget within the Future Years 
Defense Program (FYDP) are considered savings. The current USAF 
estimate is a savings of $5.6 billion. Secondly, costs which were not 
budgeted but would have been incurred in the absence of acquisition 
reform are considered ``cost avoidance''. Cost avoidance is usually 
outside the FYDP. The current USAF estimate of cost avoidance is $11.8 
billion. The current USAF total acquisition reform savings and cost 
avoidance is $17.4 billion. As these savings occur, the funds are 
reallocated to meet other USAF corporate priorities. Currently, no 
estimated savings reductions remain as excess in program lines.
    The Air Force acquisition workforce has decreased authorizations 
and billets approximately 30 percent due to acquisition reform. This 
includes work force authorizations in the SAF/AQ staff, PEO staff, the 
portion of Air Force Materiel Command (AFMC) Headquarters supporting 
acquisitions, Product Centers, Test Centers, Laboratories, System 
Program Office manpower at the Air Logistics Centers, Contracting and 
acquisition positions outside of AFMC. All manpower reductions have 
been programmed into the FYDP.
    A $43 million reduction in spares inventory cost was taken in the 
fiscal year 1998 Supply Management Activity Group (SMAG) Budget due to 
expected reductions in Administrative and Production Lead times.
    Question. What savings are assumed in the fiscal year 1998 budget 
request from acquisition reform? What savings are assumed for each year 
over the current Future Years Defense Program (FYDP) for acquisition 
reform?
    Army Answer. Savings within Army acquisition programs and 
management will total $200 million in fiscal year 1998, $308 million in 
fiscal year 1999, $394 million in fiscal year 2000, $398 million in 
fiscal year 2001, $401 million in fiscal year 2002, and $400 million in 
fiscal year 2003, representing a total savings of approximately $2.1 
billion over fiscal years 1998-2003. These efficiencies were studied 
and recommended by the Army Science Board and have been programmed into 
our budget against high priority Army programs. The specific 
efficiencies implemented included streamlining Army Program Executive 
Office/Program Manager organizations; funding limitations on management 
control and oversight of individual programs; reducing or eliminating 
Science and Technology and Test and Evaluation functions; and 
consolidating contracting procedures.
    Navy Answer. Many programs are already experiencing the benefits of 
acquisition reform efforts. These savings are not specifically 
identified up front as the budget is put together. However, each 
program's savings are reflected in the funding costs submitted across 
the FYDP. For example, savings were realized in the development of the 
DDG Multiship Year Plan and shared R&D between CVN 77 and CVX will 
accrue savings.
    Many programs are already experiencing the benefits of acquisition 
reform efforts. These savings are not specifically identified up front 
as the budget is put together. However, each program's savings are 
reflected in the funding costs submitted across the FYDP. For example, 
savings were realized in the development of the DDG Multiship Year Plan 
and shared R&D between CVN 77 and CVX will accrue savings.
    Marine Corps Answer. The Marine Corps is committed to incorporate, 
where appropriate, ``savings'' resulting from a myriad of efforts 
underneath the umbrella of Acquisition Reform. These ``savings'' are 
mostly in the form of cost avoidance as a result of using smarter 
business practices such as modeling and simulation, using Commercial-
Off-the-Shelf (COTS) Non-Developmental Items (NDI) technologies, 
integrating and involving contractor input in the design and 
development phases, as well as the use of contracting practices such as 
performance based specifications, multi-year procurement strategies, 
and cost as an independent variable.
    Specific savings are not assumed. Our mission is to meet our 
warfighting needs in a fiscal environment that requires us ``to do more 
with less.'' Emphasizing cost avoidance and adopting effective and 
efficient processes combine to facilitate achieving successful mission 
completion.
    Air Force Answer. SAF/AQ estimates that $1.1 billion in acquisition 
reform savings will be realized in fiscal year 1998 ($860 million in 
savings, $292.8 million in cost avoidance). This is a portion of the 
estimated $17.4 billion total savings and cost avoidance due to USAF 
acquisition reform efforts since fiscal year 1995. USAF acquisition 
reform savings are generally realized in the form of reduced budget 
request. As savings are identified, they are reallocated to other Air 
Force priorities. No estimated savings reductions remain as excess in 
program lines.
    The USAF records acquisition reform savings in two categories. 
First is acquisition reform savings which are defined as reductions 
from the approved baseline budget within the FYDP. The second category 
is cost avoidance which is defined as costs which were not budgeted but 
would have been incurred in the absence of acquisition reform.
    Acquisition reform savings within the 47 programs currently tracked 
are as follows: fiscal year 1998--860; fiscal year 1999--843; fiscal 
year 2000--1030; fiscal year 2001--1206; fiscal year 2002--1.3; fiscal 
year 2003--1.3.
    Acquisition reform cost avoidance within the 47 programs currently 
tracked are as follows ($ millions): fiscal year 1998--292; fiscal year 
1999--412; fiscal year 2000--204; fiscal year 2001--183; fiscal year 
2002--529; fiscal year 2003--420.
    This represents a portion of the estimated $17.4 billion total 
savings and cost avoidance due to USAF acquisition reform efforts since 
fiscal year 1995.
    Question. Do you agree with the assessment of the Under Secretary 
of Defense for Acquisition and Technology that a significant share of 
future weapons modernization funding can be derived by reducing the 
logistics systems?
    Army Answer. Yes. The logistics community is actively pursuing 
efficiency measures to yield savings. Initiatives such as velocity 
management, where new advances in speed of delivery can reduce 
inventory levels, and efforts to identify and selectively improve the 
reliability of key high-operations-cost parts will save dollars. The 
Army has conducted an thorough review to reduce the cost of doing 
business. The resulting savings were applied to pressing needs and 
shortages in modernization, readiness, force structure, and quality of 
life programs.
    Navy Answer. Yes. We are committed to significantly reducing the 
cost of Navy logistics so that these savings can be used to help fund 
modernization requirements. Just a few examples of Navy initiatives to 
reduce logistics costs include use of readiness-based sparing models 
for retail allowances to produce maximum readiness for a given 
investment; use of total asset visibility to identify and reutilize 
ashore and shipboard assets; regionalization of intermediate and depot 
level maintenance facilities; and incorporating reliability 
improvements into ship and aviation reparable components.
    Marine Corps Answer. A breakout of the annual $30 billion in 
savings estimated by the ``summer study'' is unknown. We have 
insufficient data to adequately assess what savings or costs avoidance 
may be derived.
    Air Force Answer. The savings from reducing the logistics system, 
although significant, will probably not fund a significant share of 
future weapons modernization. The Logistics Task Force as part of the 
Infrastructure Panel, Quadrennial Defense Review, reviewed over 50 
potential initiatives. The Panel approved pursuing over 20 of these 
initiatives. In some cases, the Services were already pursuing specific 
efforts and had programmed associated savings in their budget 
submissions. In other cases, the initiatives led to additional savings 
for some or all of the Services.

                        Defense-Wide Activities

    Question. Between fiscal year 1994 and fiscal year 1998, funding 
for Defense-wide operation and maintenance has increased by over one 
billion dollars, while funding for the Services has declined. Recent 
news reports indicate that the Services are uncomfortable with the 
funding increases for OSD and the defense agencies and are preparing 
their own review of these budgets.
    How do OSD and the defense agencies contribute to force readiness 
and are there any areas that you believe deserve special scrutiny?
    Army Answer. OSD and the defense agencies are part of the joint 
team contributing to the nation's national security. In terms of 
management, command and control, combat support and combat service 
support, the Department of Defense agencies and activities provide an 
essential component of overall readiness in support of the combatant 
commands and combat forces. The new report you mention probably refer 
to the fact that everything is on the table for the Quadrennial Defense 
Review, including OSD and the defense agencies.
    Navy Answer. OSD contributes to force readiness by providing 
oversight to the Planning, Programming and Budgeting System (PPBS). 
PPBS provides the basis for OSD to make informed affordability 
assessments and resource allocation decisions on acquisition programs. 
These decisions have a direct impact on Navy readiness.
    Defense agencies contribute to force readiness by providing support 
to operating forces in areas such as communication, intelligence, 
logistics and mapping. Likewise, these services are vital to Navy's 
readiness. With regard to special scrutiny, since readiness remains a 
top priority, Navy believes all areas effecting readiness requires our 
undivided attention.
    Marine Corps Answer. As you are aware, when the services began 
their downsizing there were several functions they could no longer 
perform while maintaining a maximum amount of operational forces. These 
functions, in many cases, were assumed by Defense Agencies 
consolidating service requirements. These actions required a plus-up of 
certain agencies in manpower and a transfer of funding, before held by 
the services, to specific agencies.
    The initial intent of these actions was good and allowed the 
services to shed certain functions to concentrate more of their 
energies on force readiness and in addition, reap the benefits of what 
a consolidated organization could provide. However, the return for this 
investment is now an issue. The services definitely still benefit from 
the outstanding output and support of agencies such as Defense Advanced 
Research Projects Agency (DARPA), Ballistic Missile Defense 
Organization (BMDO), and Defense Information Systems Agency (DISA). We 
are using technologies gained through DARPA's efforts, we continuously 
work with BMDO to coordinate ballistic missile defense issues, and we 
depend heavily on DISA for worldwide command, control, and 
communications support.
    Because of these concerns and the large amounts of resources 
consumed by Defense Agencies, these agencies are now part of the QDR 
and will be a specific topic for the Secretary of Defense's Reform 
Panel.
    Air Force Answer. I am not aware of the news reports to which you 
refer or any specific effort. It is not within the Department of the 
Air Force's purview to scrutinize the budgetary requirements expressed 
by OSD or its defense agencies.

                         Environmental Programs

    Question. The Department of Defense has expressed concern that in 
environmental clean-up efforts the remedial selection process is skewed 
toward high cost solutions.
    If the appropriate changes were made in the underlying laws to 
achieve a more sensible standard, how much money could this free up for 
readiness and modernization?
    Army Answer. Current provisions of the National Contingency Plan 
provide preference for remedies that involve permanent reduction of 
volume and toxicity of contamination. That preference has contributed 
to selection of expensive remedies such as incineration, waste removal, 
and groundwater pump and treatment systems. EPA and state regulators 
emphasize lowest possible cleanup levels without regard to cost. 
Demands for such expensive remedies have contributed to delays in 
cleanup while the parties have debated the scope and schedule for 
activities. However, in the past two years, the EPA has implemented 
their Superfund Reforms Initiative and has shown increasing acceptance 
of cleanup remedies that are much more cost-effective. Remedies such as 
bio-remediation, natural attenuation, and phytoremediation involve use 
of natural processes to reduce or degrade contamination to acceptable 
levels without more expensive treatment or removal. Current Army cost-
to-complete projections have already taken these cost and time saving 
techniques into consideration.
    Navy Answer. It is not known how much money, if any, could be freed 
up for readiness and modernization if changes were made to the cleanup 
standards.
    The Department of the Navy adheres to federal and state standards 
when determining the necessary cleanups. Because sites in the cleanup 
program vary greatly in size, complexity and cost and the regulations 
are different throughout the country, it is impossible to generalize 
regarding the cost impacts resulting from potential changes in 
standards. Today the Department carefully selects the most efficient 
and cost effective remedy available under existing standards while 
ensuring the protection of human health and the environment.
    It is important to note that the Comprehensive Environmental 
Response, Compensation, and Liability Act (CERCLA) allows the 
Department of Defense significant latitude in determining the pace and 
timing of the cleanup program. Any effort by Congress to amend CERCLA 
and allow state and local laws to govern federal cleanups rather than 
CERCLA could drive the annual environmental restoration funding to much 
higher levels.
    Marine Corps Answer. It is not know how much money could be freed 
up for readiness and modernization if changes were made to the cleanup 
standards only that significant resources are applied to this effort. A 
study would need to be charted to explore an acceptable savings 
potential.
    The Department of the Navy adheres to federal and state standards 
when determining the necessary cleanups. Because sites in the cleanup 
program vary greatly in size, complexity and cost and the regulations 
are different throughout the country, it is impossible to generalize 
regarding the cost impacts resulting from potential changes in 
standards. Today the Department carefully selects the most efficient 
and cost effective remedy available under existing standards while 
ensuring the protection of human health and the environment.
    It is important to note that CERCLA allows the Department of 
Defense significant latitude in determining the pace and timing of the 
cleanup program. An effort by Congress to amend CERCLA and allow state 
and local laws to govern federal cleanups rather than CERCLA could 
drive the annual environmental restoration funding to even higher 
levels.
    Air Force Answer. State laws and their interpretation by state 
regulators drive over 70 percent of the Air Force cleanup program. 
Changes that impact only federal cleanup standards would impact less 
than 30 percent of our environmental cleanup budget.
    For this reason, we suggest any legislative changes be applicable 
to both federal and state laws. The Comprehensive Environmental 
Response, Compensation, and Liability Act (CERCLA) requires that Air 
Force to comply with all state Applicable or Relevant and Appropriate 
Requirements (ARAs) which are often more stringent than federal 
standards. Specifically, we believe these legislative changes should 
include a consistent, risk-based clean-up procedure which clearly 
defines the remedial selection process to the public and regulatory 
agencies. Public perception and regulatory cooperation are key factors 
in the remedial selection process.
    The Air Force currently has the authority to apply sensible cleanup 
standards that protect human health and the environment. We are teaming 
with the public and regulatory agencies to approach the remedial 
selection process in a consistent, professional manner. Stable funding, 
as established in the FYDP, provides the basis for consistently meeting 
our commitments and completing the cleanup program.
    We believe our continuing commitment to environmental cleanup, 
through stable funding and public and regulatory partnerships, will 
maintain public and regulatory confidence. These partnerships, together 
with confidence in the Air Force commitment, will help achieve more 
practical standards, less expensive cleanup, and will make funds 
available for readiness and modernization.

                         Working Capital Funds

    Question. The DoD budget request for fiscal year 1998 eliminates 
the Defense Business Operations Fund and replaces it with ``Working 
Capital Funds'' for the Army, Navy, Air Force, and Defense-Wide 
activities.
    Is this structural change accompanied by any changes in financial 
policy?
    Army Answer. There have been no immediate changes in financial 
policy. The National Defense Authorization Act for fiscal year 1997 
required the Department of Defense to submit by September 1997, a plan 
to improve the Defense Business Operations Fund (DBOF). We are 
proceeding with a review of the policies of the previous fund and the 
development of an improvement plan to apply any recommended policy 
changes to the current funds.
    Navy Answer. Initially, the financial policies of the DoD's Working 
Capital Funds (WCFs) will be carried over from the Defense Business 
Operations Fund (DBOF).
    Question. Will each Service continue to establish rates for working 
capital fund activities that recover all costs? Will each Service 
continue to resolve operating gains and losses through adjustments to 
rates?
    Army Answer. These policies are fundamental to both the old and the 
new financial systems and will be retained. However, the policy review 
mentioned above has a group that is looking at the detailed 
implementation of these policies with a goal of refining the exact 
process involved if improvements are possible. The fundamental policy 
to recover all costs (except MILCON), including gains and losses, has 
not changed.
    Navy Answer. The DBOF policies of full cost recovery through 
stabilized rates as well as the recovery/return of operating losses or 
gains via adjustments to rates will continue under the WCFs.
    Question. Will each Service continue to rely on capital budgeting 
for investments in these activities rather than funding such 
investments through the procurement accounts?
    Army Answer. The Department plans to continue capital budgeting in 
the new funds. Capital purchases above the threshold established for 
the capital budget (except MILCON) will continue to be financed as an 
investment through the Working Capital Funds.
    Navy Answer. The WCFs will continue the DBOF policy of budgeting 
for capital investments. Like the DBOF, the WCFs will not budget for 
major military construction projects.
    Question. Will the accounting procedures within each Service for 
these activities continue to be consistent for issues such as revenue 
recognition, the recording of expenses, and the calculation of gains 
and losses?
    Army Answer. Accounting policy and procedures for the Working 
Capital Funds is planned to continue to be consistent for all 
components. Revenue recognition, expense recording, and the calculation 
of gains and losses are currently matters of consistent policy. 
However, these policies are being reviewed for potential enhancements 
as part of the improvement plan. Any changes in accounting procedures 
to reflect these policies will become part of the implementation plan.
    Navy Answer. The WCFs will continue to follow consistent accounting 
procedures. Improvements to operating procedures among the WCFs, 
however, may be proposed by the Components in order to better match the 
unique operational requirements of their functional areas. The Defense 
Working Capital Fund Policy Board, chaired by the Under Secretary of 
Defense (Comptroller) is one venue in which the Components can discuss 
the budgetary and accounting impacts of their proposed improvements to 
WCF operating procedures.
    Question. What is your understanding of the role that the Office of 
the Secretary of Defense will provide in the oversight of your Working 
Capital Funds?
    Army Answer. OSD will continue to provide the same oversight of the 
Working Capital Funds as they did for the DBOF. The realignment of the 
funding structure was accomplished to more accurately reflect the 
responsibilities of the Services and Defense Agencies to manage these 
funds. However, the oversight and policy responsibility of OSD has not 
changed. The USD(C) has the responsibility for oversight of all budget, 
and accounting policy and practices while the Components have financial 
management accountability for operations. OSD will also continue to 
review and monitor budget execution. Nevertheless, with the new 
structure we do expect more consensus in developing and implementing 
financial management policies, and a closer link between operational 
command and control and financial accountability.
    Navy Answer: The Working Capital Fund Study Group ws established to 
evaluate changes to policy/procedures and address Congressional 
concerns
    --Major Issues identified
    <bullet> Accounting and financial practices
    <bullet> Revenue recognition
    <bullet> Cash management policies and procedures
    <bullet> Interservicing policies
    <bullet> Components of stabilized rates
    <bullet> Role of DOD in rate setting
    No changes to policy are anticipated prior to report to Congress.
    Air Force Answer. We expect that OSD will continue to establish 
overarching policies, as well as review and approve rate/budget 
proposals during the budget cycles and to monitor execution on a 
quarterly basis. The Air Force believes that this is the appropriate 
level of OSD oversight.
    Question. In what ways do you anticipate that this change will 
improve the management of these activities?
    Army Answer. The DBOF had an inaccurate image as a defense-wide 
management entity operated by OSD. In reality, it was only a financial 
management structure and all the day-to-day operations were actually 
managed by the Components. The Working Capital Funds more appropriately 
reflect this accountability. This clarification of responsibilities 
should provide better incentives for managers to improve operations and 
to reduce costs.
    Navy Answer. DON Authority to develop its own policies, procedures, 
and rates is key to improve NWCF financial management.
    --Provides flexibility to tailor to unique requirements of our fund 
activities
    --Tool to be more responsive to DON customer needs
    --Facilitates DON's ability to improve cost and service 
effectiveness of NWCF activities
    --Eliminates Defense-wide drain on Navy fund resources
    Air Force Answer. The change to Working Capital Funds will not 
change supply or depot management because the Air Force has always been 
responsible for the day to day management of these activities. The 
previous structure of DBOF did not remove the Component's operational 
responsibility, but we agree that the transition to the WCFs highlights 
the Components' responsibility for managing and operating their working 
capital funds and achieving functional and financial goals.
    Question. What measures do you plan to implement to improve the 
management of the financial resources of these activities?
    Army Answer. As indicated above, a comprehensive policy review of 
the Working Capital Funds is ongoing. The Study is expected to result 
in a concrete improvement plan covering a wide range of policies and 
practices. While financial policy can provide a framework for improved 
resource management, it is the operational managers at the activity 
level who actually manage the resources during budget execution. 
However, additional visibility of operations will enhance 
accountability and provide direct incentives to produce improved 
results.
    Navy Answer. The Department of the Navy has focused every manager 
in NWCF chain-of-command on cost containment, process improvements, and 
achieving budgeted operating results.
    --Fiscal year 1996 operating results significantly improved over 
prior years
    --We ``broke-even'' across entire fund. The Department's fiscal 
year 1998 budget include NWCF cash recovery plan
    --Includes cash surcharges in fiscal year 1997, fiscal year 1998, 
fiscal year 1999 of $512 million, $500 million and $150 million, 
respectively
    --Should provide sufficient cash to cover day-to-day NWCF 
operations without advance billing by the end of fiscal year 1999
    Air Force Answer. The Air Force Chief of Staff has a performance 
contract with Air Force Material Command (AFMC) to measure the 
efficiency and effectiveness of the Working Capital Funds (WCF). AFMC/
CC in turn has performance contracts with the Air Logistics Center 
Commanders. These performance contracts measure both functional and 
financial metrics, and are reviewed by senior staff (to include the 
Chief and Secretary) each quarter. Based on our initial reviews, the 
performance contracts have helped to heighten leadership awareness of 
the WCF challenges and will lead to better performance and business 
accountability to the warfighting customers.
    The fiscal year 1998 Air Force WCF budget submission also includes 
a number of initiatives designed to improve both functional and 
financial performance. In Supply, our Lean Logistics efforts have 
reduced pipeline times, improved repair processes and reduced peacetime 
operating inventory with the development of `just in time' deliveries 
through improved ordering and shipping procedures. Depot Maintenance 
has instituted the Depot Repair Enhancement Program (DREP), and AFMC/CC 
directed effort to reengineer the depot maintenance process to focus on 
repairing only those items demanded by customers. A similar effort will 
be implemented through contract depot maintenance, which, in 
combination with acquisition reform initiatives, will speed the 
contracting process.

                       Navy Working Capital Funds

    Question. In the fiscal year 1997 Appropriations Act, the Congress 
included section 8120 in an attempt to correct the problem of advance 
billing in the Navy. This section required that $500 million of funding 
from the Navy investment accounts be transferred to the ``customers'' 
accounts. This realignment of funds should improve the financial 
footing of Navy working capital fund activities.
    What measures has the Navy taken in fiscal year 1997 to implement 
the requirements of this provision?
    Navy Answer. The measures taken include:
    --Executed $512 million cash surcharge in accordance with Section 
8120 of 1997 Appropriations Act
    --Shipyards, Aviation Depots, and Ordnance Center affected
    --Surcharge has been collected
    Question. The Committee understands that the Navy proposed follow 
up measures to section 8120 in the fiscal year 1998 budget request. 
Describe these actions as they relate to each of the following working 
capital fund activities: the Naval Shipyards, Naval Aviation Depots, 
Naval Ordnance Activities.
    Navy Answer. FY 1998 rates for the Navy Working Capital Fund:
    --Cover budgeted costs
    --Achieve a zero Accumulated Operating Result (AOR) by end of year
    --Include a cash surcharge in selected activity groups--$500 
million total
    --Ordnance Center excluded to stabilize the activity group while 
under reorganization
    --Research and Development activity group excluded Incorporated an 
additional $150 million cash surcharge in FY 1999 rates.
    Customers have been resourced appropriately for these rate 
increases.
    Liquidating outstanding advance billings to extent able to ensure 
sufficient NWCF cash and not exceed the $1 billion cap.
    FY 1997--1999 cash recovery plan expected to:
    --Bring NWCF cash corpus to level sufficient to cover day-to-day 
operations by end of FY 1999
    --Eliminate all advance billing balances by end of FY 1999
    Three-year approach is best way to generate required cash.
    --Relatively quick
    --Limits negative impact of rate increases on customer behavior
    --Allows periodic re-evaluation of cash needs.

    [Clerk's note.--End of questions submitted by Mr. Young.]


                           W I T N E S S E S

                              ----------                              
                                                                   Page
Alley, J. T., Jr.................................................     1
Benken, E. W.....................................................     1
Blanck, Lt. Gen. R. R............................................   149
Fisher, Rear Adm. S. T...........................................   149
Gehman, Adm. H. W................................................   291
Griffith, Gen. R. H..............................................   291
Hagan, John......................................................     1
Joseph, S. C.....................................................   149
Lee, L. G........................................................     1
Moorman, Gen. T. S., Jr..........................................   291
Neal, Gen. R. I..................................................   291
Roadman, Lt. Gen. C. H., II......................................   149
Sayers, MCPO K. L. M.............................................   149


                               I N D E X

                              ----------                              

                            MEDICAL PROGRAMS

                                                                   Page
Access to Care.................................................275, 281
Alcohol, Impact of Subsidizing...................................   252
Alcohol, Limiting Access in Certain Theaters.....................   251
Alcoholism, Impact on Troop Readiness............................   247
Bethesda Naval Hospital..........................................   254
Biological, Chemical Warfare Team, Marine Corps..................   233
Bosnia...........................................................   285
Breast Cancer Research Program............................258, 259, 284
CHAMPUS Reform Initiative (CRI)..................................   263
    Reimbursement Rates..........................................   279
Child Abuse Issues.............................................243, 245
Chiropractic Care................................................   244
Combat-Ready Health Care.............................227, 228, 229, 231
Credentials and Privileges.......................................   269
Defense Health Budget Shortfall..................................   267
    Budget Projects No Growth....................................   266
Dental Problems, Impact on Troop Readiness.......................   246
Drug Testing.....................................................   245
Equipment and Facilities.........................................   274
Gulf War, Exposure to Chemicals During...........................   241
Gulf War Syndrome.........................................239, 245, 287
    Response of DoD Health Care System to........................   240
Helicopters, Medical Evacuation..................................   253
Hepatitis C......................................................   263
HIV-Positive Results, Impact of..................................   244
Hospital Accreditation...........................................   256
Hospital Pharmacy Policy.........................................   247
Humanitarian Services Provided by the United States..............   259
Introduction.....................................................   149
Life Support Trauma and Transport (LSTAT)......................260, 265
Medical Care in National Capital Region........................233, 255
Medical Credentials--Certification/Licensing...................236, 238
Medical Personnel Reductions.....................................   226
    Professionalism of DoD Medical Personnel.....................   243
Medical Problems During Wartime, Anticipation of.................   242
Medical Readiness................................................   272
Medical Requirements of Women....................................   256
MEDICARE Subvention Program.....................224, 235, 245, 261, 264
    Eligible Retirees..........................................262, 281
Misdiagnosis Issues..............................................   226
National Practitioner Data Bank..................................   270
Nurses and Physicians, Numbers of................................   273
Office of Management and Budget (OMB) Issues...................231, 233
Quality of Care Accreditation..................................269, 276
Report Card Project..............................................   276
Recruiting/Retaining Quality Personnel...........................   237
Readiness Goals..................................................   274
Retirees, Medical Care for.......................................   223
Savings Estimates, Unrealistic...................................   265
Smoking Cessation..............................................250, 251
Smokeless Tobacco Products.......................................   251
Statement of Lieutenant General Charles H. Roadman, II...........   213
Statement of Lieutenant General Ronald R. Blanck.................   181
Statement of Rear Admiral S. Todd Fisher.........................   195
Statement of Dr. Stephen C. Joseph...............................   155
Summary Statement of Admiral Fisher..............................   192
    Customer Service.............................................   193
    Information Technology.......................................   193
    Management Initiatives.......................................   192
Summary Statement of General Blanck..............................   178
    Medical Personnel............................................   178
    Priorities...................................................   178
    Terrorism Threats............................................   179
    TRICARE Program..............................................   179
Summary Statement of General Roadman.............................   210
    Initiatives..................................................   210
    Readiness....................................................   212
    Rightsizing Manpower Level...................................   211
    TRICARE Program..............................................   211
Summary Statement of Secretary Joseph............................   150
    Portability of Benefits......................................   153
    TRICARE Program..............................................   152
Technology to Provide Care.....................................230, 244
Telemedicine...................................................229, 286
    Lessons Learned..............................................   230
TRICARE Program:
    Focus Groups.................................................   280
    Options Under................................................   278
    Overview.....................................................   277
    Portability..................................................   223
    Readiness....................................................   274
    TRICARE Region--New Mexico...................................   234
    TRICARE Region--Washington...................................   239
    Transition to................................................   278
Uniformed Services Treatment Facilities (USTFs)286...............
Utilization Management...........................................   271

                    PERSONNEL QUALITY OF LIFE ISSUES
                                                                   Page
Child Care/Family Service Programs...............................   139
Compensation Reforms.............................................   102
Dental Care......................................................    79
Enlisted Pay.....................................................    81
Equipment, Quality of............................................    95
Family Housing...................................................    83
Fitness Centers..................................................    93
Gender Neutral Training..........................................   129
Hazing Activities................................................   131
Housing Allowance Reform.........................................   104
Housing Issues...................................................   137
Introduction.....................................................     1
Married Service Members..........................................    84
Military Health Care.............................................    78
Military Retirement System.......................................    80
Operations Other Than War (OOTW).................................   118
Operations Tempo (OPTEMPO).......................................   101
Other Support Activities.........................................   142
Personnel Promotions.............................................   105
Personnel Tempo (PERSTEMPO)......................................   116
Quadrennial Defense Review (QDR).................................   100
Quality of Life Issues...........................................75, 85
Recruits, Quality of.............................................   106
Recruiting Challenges............................................   111
Recruiting Standards.............................................    92
Remarks of Mr. Cunningham........................................    87
Remarks of Mr. Murtha............................................     2
Retention........................................................    85
Selected Reenlistment Bonus......................................    86
Sexual Harassment in the Military................................    88
Statement of Chief Master Sergeant Eric W. Benken................    60
Statement of Command Sergeant Major Jerry T. Alley, Jr...........     4
Statement of Master Chief Petty Officer John Hagan...............    16
Statement of Sergeant Major Lewis G. Lee.........................    42
Statement Review.................................................    75
Summary Statement of Chief Master Sergeant Benken................    59
Summary Statement of Command Sergeant Major Alley................     2
Summary Statement of Master Chief Petty Officer Hagan............    14
Summary Statement of Sergeant Major Lee..........................    40
TRICARE Program.................................................82, 133
Troops Overseas..................................................   121
Troops vs. Technology............................................   124
Veteran's Health Care............................................    91
Women in the Military, Attitudes Towards.........................    89

                   READINESS OF UNITED STATES FORCES
                                                                   Page
Acquisition Reform and Inventory Reductions....................378, 455
Ammunition Issues:
    Funding Shortfalls...........................................   440
    Modernization and Industrial Base............................   374
    Training.....................................................   438
    War Reserve..................................................   439
Ballistic Missile Defense, Readiness Shortfall for...............   440
Base Exchanges...................................................   380
    Foreign Made Goods in......................................380, 387
Chemical/Biological Defense......................................   414
Cold Weather Equipment and Clothing..............................   434
Commandant's Warfighting Laboratory..............................   421
Contingency Funding and Readiness................................   368
Cooperative Engagement Capability (CEC)..........................   443
Counter-Terrorism Program:
    Fiscal Year 1997 Funding for.................................   410
    Fiscal Year 1997 Program Activities..........................   411
    Fiscal Year 1998 Funding.....................................   412
Defense Spending, Future.........................................   394
Defense-Wide Activities..........................................   458
Depot Maintenance Backlogs and Underfunded Workloads...........426, 428
Environmental Issues and Readiness.............................369, 458
Forces, Sustaining Deployed......................................   387
    Sustainability and Retention.................................   388
Introduction.....................................................   291
Logistics Civil Augmentation Program (LOGCAP)....................   448
Military Operations Other Than War (MOOTW).......................   410
    and Readiness Training.......................................   408
Mobility Enhancement Program.....................................   432
Modernization Issues:
    Chairman of the Joint Chiefs of Staff Funding Objective, and 
      the........................................................   393
    Funding and Projected Readiness Problems.....................   392
    Guard and Reserve............................................   379
    Outyear Funding, and.........................................   391
    Readiness in the Future, and.................................   390
    Readiness Today, and.........................................   390
National Training Center:
    Guard and Reserve Training at................................   371
    Satellite Operation and Fort Bliss...........................   371
Operating Tempo (OPTEMPO):
    Army.........................................................   419
    OPTEMPO in Bosnia............................................   449
Patriot Battalion Redeployment...................................   449
Peacekeeping Operations Rules of Engagement......................   409
Personnel Shortages, Supervisory.................................   383
    Headquarters and Administrative Personnel....................   451
Personnel Tempo (PERSTEMPO)......................................   423
    Management...................................................   426
    Stressed Skills..............................................   424
Predator Unmanned Aerial Vehicle (UAV)...........................   364
    Unmanned Aerial Vehicle Requirements.........................   366
Privatization....................................................   452
Quadrennial Defense Review.......................................   397
    Base Closures, and...........................................   399
    Fiscal Assumptions...........................................   397
    Infrastructure Reductions, and...............................   399
    Modernization Funding, and...................................   385
    Personnel Reductions, and....................................   398
    Readiness, and...............................................   384
    Tiered Readiness and the.....................................   396
Readiness Issues:
    Assessment...................................................   361
    Cost of Maintaining High.....................................   362
    NATO Expansion and...........................................   376
    Reserve Components...........................................   402
        Congressional Funding Increases and Reserve Readiness....   405
        Contingency Operations' Effect on Reserve Readiness......   403
        Funding Shortfalls, Reserve Readiness....................   406
        Tiered Resourcing and Reserve Readiness..................   404
        Trends, Reserve Readiness................................   402
    Tiered Readiness and High Value Military Assets............394, 396
Real Property Maintenance (RPM)................................372, 430
Recruit Quality..................................................   381
Recruit Training, Standards for................................383, 421
Rescissions......................................................   449
Research and Development (R&D) and Readiness Priorities..........   445
Reserve Component Concerns.......................................   375
Ship Self-Defense, Readiness Shortfall for.......................   440
    Terrorist Patrol Boats, Readiness Against....................   442
Statement of Admiral Harold W. Gehman, Jr........................   310
Statement of General Richard I. Neal.............................   321
Statement of General Ronald H. Griffith..........................   294
Statement of General Thomas S. Moorman, Jr.......................   341
Storm Damage Repairs.............................................   386
Summary Statement of Admiral Gheman..............................   308
Summary Statement of General Griffith............................   291
    Modernization................................................   293
    Personnel Tempo..............................................   292
    Recruiting...................................................   292
    Sexual Misconduct............................................   293
Summary Statement of General Moorman.............................   340
Summary Statement of General Neal................................   319
    Modernization................................................   319
    Readiness....................................................   319
Sustainability...................................................   363
Tactical Wheeled Vehicles (Trucks)...............................   435
Technology Development, Cost of..................................   377
Troops vs. Technology............................................   400
Working Capital Funds..........................................459, 462

                                <greek-d>


</pre></body></html>
